USCA4 Appeal: 20-4133

Doc: 31

Filed: 10/13/2020

A1

Pg: 1 of 18

USCA4 Appeal: 20-4133

Doc: 31

Filed: 10/13/2020

A2

Pg: 2 of 18

USCA4 Appeal: 20-4133

Doc: 31

Filed: 10/13/2020

A3

Pg: 3 of 18

USCA4 Appeal: 20-4133

Doc: 31

Filed: 10/13/2020

A4

Pg: 4 of 18

USCA4 Appeal: 20-4133

Doc: 31

Filed: 10/13/2020

A5

Pg: 5 of 18

USCA4 Appeal: 20-4133

Doc: 31

Filed: 10/13/2020

A6

Pg: 6 of 18

USCA4 Appeal: 20-4133

Doc: 31

Filed: 10/13/2020

A7

Pg: 7 of 18

USCA4 Appeal: 20-4133

Doc: 31

Filed: 10/13/2020

A8

Pg: 8 of 18

USCA4 Appeal: 20-4133

Doc: 31

Filed: 10/13/2020

A9

Pg: 9 of 18

USCA4 Appeal: 20-4133

Doc: 31

Filed: 10/13/2020

A10

Pg: 10 of 18

USCA4 Appeal: 20-4133

Doc: 31

Filed: 10/13/2020

11

A11

Pg: 11 of 18

USCA4 Appeal: 20-4133

Doc: 31

Filed: 10/13/2020

A12

Pg: 12 of 18

USCA4 Appeal: 20-4133

Doc: 31

Filed: 10/13/2020

A13

Pg: 13 of 18

USCA4 Appeal: 20-4133

Doc: 31

Filed: 10/13/2020

A14

Pg: 14 of 18

USCA4 Appeal: 20-4133

Doc: 31

Filed: 10/13/2020

A15

Pg: 15 of 18

USCA4 Appeal: 20-4133

Doc: 31

Filed: 10/13/2020

Pg: 16 of 18

See United State

Brizuela

A16

USCA4 Appeal: 20-4133

Doc: 31

Filed: 10/13/2020

Pg: 17 of 18

held that, in a prosecution for dispensing improper prescriptions, other similar,
but uncharged, criminal behavior was “overkill” or “piling on.”
irrelevant to Naum’s argument for several reasons.

at 796.

is

First, Naum was convicted of

conspiracy; Brizuela was not. As such, evidence necessary to “complete the story” of the
underlying crime was necessarily broader.

at 794-95. Second, Brizuela did not

challenge the sufficiency of the evidence supporting his conviction, and

did not

announce any new relevant law. Thus, Naum’s claim could have been raised in his opening
brief. Third, while
specific prescription,

noted that unlawful distribution is charged by citing to a
at 795, Naum’s indictment did just this. Naum’s current complaint

that the indictment charged a conspiracy that began in 2008, but did not present evidence
of Naum’s improper prescriptions prior to 2014, is entirely untethered to

and the

parties recognized at sentencing that the evidence at trial concerned actions between 2013
and 2016.
Next, Naum asserts that, based on

evidence of Brizuela’s and Jackson’s

actions were improperly admitted against Naum on the conspiracy charge. Specifically,
he cites to evidence at his trial that Brizuela examined and prescribed drugs to a patient
who was then transferred to Naum and that Jackson disregarded Naum’s instructions.
Again,

’s holding is irrelevant to a conspiracy count. Moreover, the “evidence”

Naum cites to was relevant to the charges against him and, actually, beneficial to Naum.
Specifically, the Government presented evidence that Brizuela examined and prescribed
drugs to a patient, subsequently transferred to Naum who continued prescriptions without
ever examining the patient. The evidence that the patient was examined by a licensed
17

A17

USCA4 Appeal: 20-4133

Doc: 31

Filed: 10/13/2020

A18

Pg: 18 of 18

United States v. Naum
United States Court of Appeals for the Fourth Circuit
September 10, 2020, Submitted; October 13, 2020, Decided
No. 20-4133
Reporter
832 Fed. Appx. 137 *; 2020 U.S. App. LEXIS 32248 **; 2020 WL 6041887

UNITED STATES OF AMERICA, Plaintiff - Appellee, v.
GEORGE P. NAUM, III, Defendant - Appellant.

Notice: PLEASE REFER TO FEDERAL RULES OF
APPELLATE PROCEDURE RULE 32.1 GOVERNING
THE CITATION TO UNPUBLISHED OPINIONS.

Subsequent History: Rehearing denied by, Rehearing
denied by, En banc United States v. Naum, 2020 U.S.
App. LEXIS 37150 (4th Cir., Nov. 24, 2020)

Prior History: [**1] Appeal from the United States
District Court for the Northern District of West Virginia,
at Clarksburg. (1:18-cr-00001-IMK-MJA-2). Irene M.
Keeley, Senior District Judge.

delegating, registered, sentencing, calculation, charges,
usual course, addiction, convict, present evidence,
distributed

LexisNexis® Headnotes

Criminal Law &
Procedure > Sentencing > Sentencing
Alternatives > Substance Abuse Programs
HN1[ ] Sentencing Alternatives, Substance Abuse
Programs
Opioid Treatment Programs are defined as programs or
practitioners engaged in opioid treatment that are
registered under 21 U.S.C.S. § 823(g)(1). 42 C.F.R. §
8.2.

Criminal Law &
Procedure > Sentencing > Sentencing
Alternatives > Substance Abuse Programs

United States v. Naum, 2019 U.S. Dist. LEXIS 55174
(N.D. W. Va., Mar. 25, 2019)

Disposition: AFFIRMED.

Core Terms
patients, prescriptions, district court, instructions,
indictment, regulation, prescribe, suboxone, forfeiture,
bounds, opioid, medical practice, contends, dose,
professional practice, controlled substance, medical
purpose, practitioners, illegitimate, conspiracy,

HN2[ ] Sentencing Alternatives, Substance Abuse
Programs
The text of 42 C.F.R. § 8.12 makes it evident that it
applies to Opioid Treatment Programs (OTPs) and not
to DATA-waived practitioners. First, both the terms
"OTP" and "practitioner" are explicitly defined in the
regulation, and those definitions are tied to which
subpart of 21 U.S.C.S. § 823(g) an individual or entity is
registered under. 42 C.F.R. § 8.2. Section 8.12
references, in nearly every provision, the term "opioid
treatment program" or "OTP" and does not include
"practitioners."

A19

Page 2 of 9
832 Fed. Appx. 137, *137; 2020 U.S. App. LEXIS 32248, **1

Criminal Law & Procedure > Criminal
Offenses > Controlled Substances > Delivery,
Distribution & Sale
Evidence > Inferences & Presumptions > Inferences
HN3[ ]
Controlled
Distribution & Sale

Substances,

Delivery,

Registered physicians can be prosecuted under 21
U.S.C.S. § 841 when their activities fall outside the
usual course of professional practice. There are no
specific guidelines concerning whether a physician acts
outside the usual course of professional practice, and a
case-by-case analysis of evidence is required to
determine whether a reasonable inference of guilt may
be drawn from specific facts. The Government may
meet its burden by establishing that the physician's
actions were not for legitimate medical purposes in the
usual course of professional medical practice or were
beyond the bounds of professional medical practice.
The Government is not required to prove both prongs
(i.e. No legitimate purpose and beyond professional
bounds).

Criminal Law & Procedure > Appeals > Reversible
Error > Charging Instruments
Criminal Law &
Procedure > ... > Indictments > Amendments &
Variances > Constructive Amendments

tried only on the charges made by the grand jury in the
indictment. A constructive amendment is error per se,
and it must be corrected on appeal. However,
divergence between the charges and the Government's
proof is not automatically a constructive amendment or
fatal variance; when the facts proven at trial support a
finding that the defendant committed the charged crime,
and the allegations in the indictment differ in some way
not essential to that conclusion, a mere non-fatal
variance occurs. A variance violates the defendant's
Fifth Amendment rights only if it prejudices him by
surprising him at trial and hindering his defense, or by
exposing him to the danger of a second prosecution for
the same offense.

Criminal Law & Procedure > ... > Standards of
Review > De Novo Review > Jury Instructions
Criminal Law & Procedure > Trials > Jury
Instructions > Objections
HN5[

A jury instruction is not erroneous if, in light of the whole
record, it adequately informed the jury of the controlling
legal principles without misleading or confusing the jury
to the prejudice of the objecting party. In reviewing a
challenge to the jury instructions, an appellate court
does not view a single instruction in isolation, but
instead considers whether taken as a whole and in the
context of the entire charge, the instructions accurately
and fairly state the controlling law.

Criminal Law & Procedure > ... > Common
Characteristics > Amendments &
Variances > Constructive Amendments

Criminal Law & Procedure > Criminal
Offenses > Controlled Substances > Delivery,
Distribution & Sale

Criminal Law &
Procedure > ... > Indictments > Amendments &
Variances > Variances
HN4[

] De Novo Review, Jury Instructions

Criminal Law & Procedure > Trials > Burdens of
Proof > Prosecution
HN6[ ]
Controlled
Distribution & Sale

] Reversible Error, Charging Instruments

A fatal variance—also known as a constructive
amendment—occurs when the Government (through
argument or presentation of the evidence) or the district
court (through jury instructions) broadens the bases for
conviction beyond those charged in the indictment,
effectively amending the indictment to allow the
defendant to be convicted of a crime other than the one
charged, in violation of his Fifth Amendment right to be

Substances,

Delivery,

To convict a doctor for violating 21 U.S.C.S. § 841, the
government must prove: (1) that the defendant
distributed or dispensed a controlled substance; (2) that
the defendant acted knowingly and intentionally; and (3)
that the defendant's actions were not for legitimate
medical purposes in the usual course of his professional
medical practice or were beyond the bounds of medical

A20

Page 3 of 9
832 Fed. Appx. 137, *137; 2020 U.S. App. LEXIS 32248, **1
practice. An instruction that the jury must consider the
totality of the circumstances in making its determination
that the defendant acted outside the scope of
professional medical practice is consistent with Fourth
Circuit Court of Appeals' precedents.

Criminal Law &
Procedure > Sentencing > Forfeitures > Proceeding
s
Evidence > Burdens of Proof > Preponderance of
Evidence
HN7[

] Forfeitures, Proceedings

I.

Criminal forfeiture is part of a defendant's sentence.
Fed. R. Crim. P. 32.2 sets forth the procedure used to
effect criminal forfeiture. After conviction, the
government must establish a nexus between the
property for which it is seeking forfeiture and the crime
by a preponderance of the evidence. When the
Government seeks a money judgment, the court must
determine the amount the defendant will be ordered to
pay, based on evidence already in the record or
additional evidence submitted by the parties and
accepted as reliable. Fed. R. Crim. P. 32.2(b)(1)(B).

Counsel: Elgine H. McArdle, MCARDLE LAW
OFFICES, Wheeling, West Virginia, for Appellant.
William J. Powell, United States Attorney, Wheeling,
West Virginia, Sarah E. Wagner, Assistant United
States Attorney, OFFICE OF THE UNITED STATES
ATTORNEY, Clarksburg, West Virginia, for Appellee.

Judges: Before MOTZ, HARRIS, and QUATTLEBAUM,
Circuit Judges.

Opinion
[*138] PER CURIAM:

George P. Naum, III, appeals from his convictions and
sentence following his jury trial. Naum was convicted of
conspiracy to distribute suboxone outside the bounds of
professional medical practice between 2008 and 2016,
in violation of 21 U.S.C. § 841(a)(1) and 21 U.S.C. §
846, and four counts of aiding and abetting the
distribution [*139] of suboxone outside the bounds of
professional medical practice in violation of 21 U.S.C. §
841(a) and 18 U.S.C. § 2. The district court sentenced
Naum to six months incarceration followed by six
months of home detention. In addition, the district court
imposed a forfeiture order of $77,063.00. After careful
consideration of Naum's numerous claims on appeal,
we affirm.

These charges arose from Naum's involvement [**2] in
a Weirton, West Virginia suboxone clinic known as
Advance Healthcare ("Advance"), which was owned and
operated by Sharon Jackson and co-defendant Eric
Drake, and which also employed co-defendant Dr. Felix
Brizuela. The evidence at trial viewed in the light most
favorable to the Government was as follows.
Advance was a suboxone clinic that offered its patients
office-based addiction treatment. Jackson, a registered
nurse, and Drake, an individual with no medical training,
ran the day-to-day operations of Advance. Advance
employed Naum and Brizuela, who were both
authorized to prescribe suboxone to treat drug
addiction. Naum and Brizuela were scheduled to be at
Advance just one evening each a week, and when they
were not present, Jackson used their authority pursuant
to their "DEA numbers" to issue prescriptions for
suboxone to Advance's patients.
Naum and Brizuela allowed Jackson nearly unfettered
use of their DEA numbers, delegated most of the patient
care to Jackson, and frequently missed all or part of
their once-a-week assigned shifts at Advance. In fact,
during a two-month period in 2016, footage from a pole
camera placed by investigators outside the clinic
revealed that Naum [**3] was present at Advance only
13.9% of the time that it was open to patients and
prescriptions for suboxone were being issued from it.
Jackson testified that she could not have treated
patients without the doctors' DEA numbers.
When they were present in the office, the doctors
reviewed and signed off on patient charts and saw new
patients. New patients were given drug screens, filled
out paperwork, met with Jackson, and met with a
physician if one were present. If a physician met with

A21

Page 4 of 9
832 Fed. Appx. 137, *139; 2020 U.S. App. LEXIS 32248, **3
the patient, he told Jackson what beginning dose of
suboxone to start the patient on, and she communicated
the prescription to the pharmacy. If no physician was
present at the initial visit, Jackson diagnosed the patient
with an opioid use disorder, decided on a daily dose of
suboxone, and called in the prescription using one of
the doctors' DEA numbers
Jackson and Drake both testified that they had verbal
agreements with Naum and Brizuela permitting Jackson
to issue prescriptions under their DEA numbers to new
patients who had not seen a physician, so long as she
did not prescribe more than 16 milligrams per day. If she
conducted the entire initial visit, Jackson scheduled the
patient to come back to see [**4] one of the physicians.
As a policy, Naum and Brizuela generally only saw
patients on the initial visit or one visit early on in their
treatment. Follow-up visits were generally only with
Jackson.
In addition to making dosing decisions for new patients
who had not been seen by a physician, Jackson had
blanket permission from Naum and Brizuela to wean or
decrease patients' doses. Naum often wrote instructions
in each patient's medical chart to either maintain or
decrease a patient's dose, but Jackson had Naum's
permission to disregard those written instructions based
on the conversations she was having with patients.
Naum never confronted [*140] Jackson about
overriding his written instructions by prescribing different
doses to his patients.
The Government's expert, Dr. Patrick Marshalek,
testified about medical standards to which physicians
who prescribe controlled substances to treat addiction
must adhere. He testified that many of those standards
were promulgated by the Substance Abuse and Mental
Health Services Administration (SAMHSA). Marshalek
testified that physicians must maintain an ongoing
relationship with patients to whom they prescribe
controlled substances that extends beyond the [**5]
initial examination and diagnosis. There is a time after
which a doctor-patient relationship expires and must be
renewed by another face-to-face visit in order to
continue issuing prescriptions for controlled substances.
Marshalek testified that the rules of the West Virginia
Board of Osteopathic Medicine (WVBOM)1 require
physicians to make an in-person examination of patients
to whom they are prescribing controlled substances no
less than once every six months for the duration of their

treatment. See W. Va. C.S.R. § 24-1-18.2.a.5.
The WVBOM also prohibits physicians from delegating
responsibilities to others who are not qualified to carry
them out. See W. Va. C.S.R. § 24-1-18.1.aa. Marshalek
testified that physicians who prescribe controlled
substances to patients may not delegate their
prescriptive authority to others who do not themselves
have such authority. Physicians may not delegate the
decision as to dose or medication to a nurse, and they
may not authorize nurses to override their instructions
as to dosages or medication. Physicians must also
evaluate patients' continued need for medication in an
ongoing manner. The prohibition against delegating the
responsibility to prescribe suboxone to non-authorized
individuals, including nurses, [**6]
is expressly
explained in the SAMHSA Guidelines. Marshalek also
testified that it is the physician, and not a nurse, who
must diagnose a patient with an opioid use disorder.
Marshalek reviewed the charts of the patients who
received the prescriptions charged in the indictment and
opined that each prescription was issued outside the
bounds of medicine.
The Government also introduced the testimony of Cpl.
J.W. Smith, who in an undercover capacity, posed as a
patient at Advance, as well as various actual patients.
These witnesses testified to either brief examinations by
Naum or no examination at all. Some patients had never
met with Naum and/or did not realize he was their
doctor. In addition, there were instances where Jackson
weaned the patient where Naum instructed Jackson to
continue the present dose or continued the present
dose when Naum instructed her to wean. On those
occasions, Naum signed off on the deviated course after
the fact.
The court sentenced Naum to a period of six months
incarceration followed by six months of home detention.
Although the forfeiture allegation in the indictment was
for the entire amount of Naum's earnings from Advance
during the course of the conspiracy, [**7] the
Government at sentencing requested forfeiture of
$157,719.52, or 51.9% of Naum's entire salary of
$303,891.17. The Government's calculations were
based on the percentage of "illegitimate" 2 prescriptions
authorized by Naum's [*141] DEA number for all of
Naum's patients at the time of the seizure of records, as
well as the patients who testified at trial.

2 Prescriptions
1 The

WVBOM oversees the licensing of osteopathic
physicians like Naum and Brizuela in West Virginia.

were considered illegitimate if they were issued
without Naum examining the patient or were issued more than
six months after Naum examined the patient.

A22

Page 5 of 9
832 Fed. Appx. 137, *141; 2020 U.S. App. LEXIS 32248, **7
The district court concluded that a reasonable
calculation of Naum's criminal proceeds, based upon a
preponderance of the evidence, was $77,063.00. The
district court reached that amount by multiplying Naum's
salary from 2013 to 2016 by 51.9%, the percentage of
illegitimate prescriptions issued by Naum to the 60
patients. In doing so, the district court sustained Naum's
objection that the trial evidence covered only 2013
through 2016, and not the entire period charged in the
indictment as the Government had requested.
II.
Naum sought to testify that he believed 42 C.F.R. §
8.12, entitled "Federal opioid treatments standards,"
applied to his practice of medicine. He asserts that the
regulation was relevant to his "good faith defense." The
district court ruled that this regulation did not apply to
Naum, and thus, any belief that it was applicable was an
improper [**8]
ignorance-of-the-law defense. On
appeal, Naum argues that the district court erred by
determining that 42 C.F.R. § 8.12 was not the applicable
federal standard for opiate addiction treatment.
The regulation cited by Naum is contained in a subpart
entitled "Certification and Treatment Standards for
Opioid Treatment Programs" ("OTP"). HN1[ ] OTPs
are defined as programs or practitioners engaged in
opioid treatment that are registered under 21 U.S.C. §
823(g)(1). See 42 C.F.R. § 8.2. Naum, however, was
registered under the DATA-waiver provision of 21
U.S.C. § 823(g)(2),3 and neither he nor Advance was
separately registered under 21 U.S.C. § 823(g)(1).
Consequently, neither meets the definition of an OTP.
Naum does not identify specific subparts of § 8.12 that
support his purported good faith defense. HN2[ ]
However, the text of § 8.12 makes it evident that it
applies to OTPs and not to DATA-waived practitioners
like Naum. First, both the terms "OTP" and "practitioner"
are explicitly defined in the regulation, and those
definitions are tied to which subpart of 21 U.S.C. §
823(g) an individual or entity is registered under. See 42
C.F.R. § 8.2 ("Opioid treatment program or 'OTP' means
a program or practitioner . . . registered under 21 U.S.C.
§ 823(g)(1). . . . Practitioner means a physician . . . who
possesses a waiver under 21 U.S.C. § 823(g)(2).").
Section 8.12 references, in nearly every [**9] provision,
the term "opioid treatment program" or "OTP" and does
not include "practitioners."

3 DATA

2000 is an acronym for the Drug Addiction Treatment
Act of 2000.

Nonetheless, Naum contends that § 8.12 must apply to
practitioners as well because it is the only federal
standard that exists for opioid treatment physicians and
the federal Government has pre-empted this area of the
law. Naum contends that he was prevented from
presenting evidence that his conduct was permitted
under the applicable federal regulations. He asserts that
"nothing in 42 C.F.R. § 8.12 nor any regulation prohibits
a physician from delegating monitoring compliance with
the treatment protocol to a registered nurse—as Dr.
Naum did in this case." (Appellant's Br. (ECF No. 15) at
23). However, contrary to Naum's argument, the
evidence actually showed that Naum delegated his
prescriptive authority, not compliance monitoring. This
conduct is squarely at odds with federal laws and
regulations, including those applicable only to OTPs.
See 21 U.S.C. § 841(a) (prohibiting distribution of
controlled substances "except as authorized"); 21
U.S.C. § 822(b) (permitting [*142] certain medical
professionals to become authorized); 21 C.F.R. §
1306.04(a)
(only
a
"practitioner"
can
issue
prescriptions); see also United States v. Joseph, 709
F.3d 1082, 1104 (11th Cir. 2013) (a physician's delivery
of a prescription without conducting any physical [**10]
examination of the patient provides strong evidence to
support a conviction).
At best, Naum was mistaken about the law. But, as the
district court noted, a mistaken belief about the law is
not a defense, not even a defense of good faith. That is
particularly true here where the regulations Naum cited,
by their express terms, do not apply to Naum or his
practice. Further, as the government argues, the
introduction of evidence about a regulation that did not
apply to Naum or his practice created a reasonable risk
of confusing the jury. See Fed. R. Evid. 403.
Accordingly, we conclude that the district court did not
abuse its discretion in prohibiting evidence of federal
regulations that neither applied to Naum nor were
relevant to the issues before the jury.
III.
Next, Naum contends that the district court abused its
discretion in prohibiting him from presenting evidence
that his treatment of patients was for a legitimate
medical purpose and not for some other purpose, such
as drug diversion. HN3[ ] The Supreme Court held in
United States v. Moore, 423 U.S. 122, 124, 96 S. Ct.
335, 46 L. Ed. 2d 333 (1975), "that registered physicians
can be prosecuted under § 841 when their activities fall
outside the usual course of professional practice." We
have noted that there are no specific guidelines

A23

Page 6 of 9
832 Fed. Appx. 137, *142; 2020 U.S. App. LEXIS 32248, **10
concerning [**11] whether a physician acts outside the
usual course of professional practice and that a caseby-case analysis of evidence is required to determine
whether a reasonable inference of guilt may be drawn
from specific facts. United States v. Singh, 54 F.3d
1182, 1187 (4th Cir. 1995). The Government may meet
its burden by establishing that the physician's actions
were not for legitimate medical purposes in the usual
course of professional medical practice or were beyond
the bounds of professional medical practice. Id.; United
States v. Tran Trong Cuong, 18 F.3d 1132, 1141 (4th
Cir. 1994). The Government is not required to prove
both prongs (i.e. no legitimate purpose and beyond
professional bounds), and therefore, there was no error
in permitting the Government to proceed only on the
theory that Naum's actions were beyond the bounds of
professional medical practice. See Singh, 54 F.3d at
1188 ("In sum, although the testimony does not adduce
compelling evidence that Dr. Singh prescribed with
malicious motive or the desire to make a profit, those
motivations, though common in § 841(a)(1)
prosecutions, are not required to convict").
Because the issue of whether Naum's treatment was for
a legitimate medical purpose was not an element in this
case, Naum's contention that he acted with a legitimate
medical purpose was not a viable defense. In fact,
there [**12] was no dispute at trial that Naum's patients
suffered from addiction and required treatment. As such,
the district court did not abuse its discretion in
prohibiting evidence regarding the medical purposes of
Naum's treatment.
IV.
Naum next contends that the Government improperly
altered the definition of "outside the usual course of
professional practice" such that Naum was convicted of
different crimes than the ones for which he was indicted.
HN4[ ] A fatal variance—also known as a constructive
amendment—occurs when the Government (through
argument or presentation of the evidence) or the district
court (through jury instructions) [*143] "broadens the
bases for conviction beyond those charged in the
indictment," effectively amending the indictment to allow
the defendant to be convicted of a crime other than the
one charged, in violation of his Fifth Amendment right to
be tried only on the charges made by the grand jury in
the indictment. United States v. Randall, 171 F.3d 195,
203 (4th Cir. 1999). A constructive amendment is error
per se, and it must be corrected on appeal. Id. (citing
United States v. Floresca, 38 F.3d 706, 712-13 (4th Cir.
1994) (en banc)). However, divergence between the

charges and the Government's proof is not automatically
a constructive amendment or fatal variance; when the
facts proven at trial support a finding [**13] that the
defendant committed the charged crime, and the
allegations in the indictment differ in some way not
essential to that conclusion, a mere non-fatal variance
occurs. See United States v. Miltier, 882 F.3d 81, 93
(4th Cir.), cert. denied, 139 S. Ct. 130, 202 L. Ed. 2d 80
(2018); United States v. Allmendinger, 706 F.3d 330,
339 (4th Cir. 2013). A variance violates the defendant's
Fifth Amendment rights only if it prejudices him by
surprising him at trial and hindering his defense, "or by
exposing him to the danger of a second prosecution for
the same offense." Allmendinger, 706 F.3d at 339
(internal quotation marks omitted).
Naum was indicted for a conspiracy to "engage in the
business of unlawful[l]y, knowingly, and intentionally
distributing and causing to be distributed controlled
substances without a legitimate medical purpose and
outside the usual course of professional practice" and
for aiding and abetting the distribution of suboxone
"without a legitimate purpose and outside the usual
bounds of professional practice." (J.A. 35, 41). First, the
district court's disjunctive instruction (instructing only
regarding outside the course of professional practice
and not on legitimate medical purpose) does not
broaden the possible bases for conviction or change the
elements of the charged crimes, since (as discussed
above) the applicable law is disjunctive. Thus, even
though [**14] the indictment charges in the conjunctive,
the court's disjunctive instruction did not result in a
constructive amendment to the indictment. See United
States v. Perry, 560 F.3d 246, 256 (4th Cir. 2009).
Second, the indictment further charges that Naum
permitted Jackson to administer and dispense opioid
addiction treatment medications to patients without
proper supervision. The indictment detailed the
procedures at Advance, including that Naum did not
regularly see patients and that he signed off on
treatment after the fact. Naum does not allege that
these allegations differed from the evidence at trial or
that he was not convicted of distributing suboxone
outside the bounds or course of professional practice,
as charged. Therefore, Naum was not subjected to a
fatal variance, and the district court did not err in
denying his Rule 29 motion for judgment of acquittal.
V.
Naum next asserts that the district court committed plain
error in instructing the jury regarding the definition of

A24

Page 7 of 9
832 Fed. Appx. 137, *143; 2020 U.S. App. LEXIS 32248, **14
"outside the bounds of professional practice."
Specifically, the district court informed the jury that
certain types of evidence can support such a finding,
including prescribing suboxone with only a superficial
examination, without an authorized person taking a
medical [**15] history, and without a doctor-patient
relationship; allowing unauthorized individuals to
diagnose an opioid use disorder or prescribe
medication; and violating an applicable professional
regulation. Naum contends that the Government implied
that Naum had violated two [*144] provisions of the
WVBOM standards: (1)
improperly delegating
prescription authority and (2) failing to conduct an in
person examination within six months. Naum then
appears to argue that this evidence/argument,
combined with the jury instructions, rendered the
violation of WVBOM a strict liability federal offense or
permitted Naum to be found guilty upon only a showing
of malpractice.
HN5[ ] A jury instruction is not erroneous if, "in light of
the whole record, [it] adequately informed the jury of the
controlling legal principles without misleading or
confusing the jury to the prejudice of the objecting
party." Miltier, 882 F.3d at 89. In reviewing a challenge
to the jury instructions, we do not "view a single
instruction in isolation," but instead "consider whether
taken as a whole and in the context of the entire charge,
the instructions accurately and fairly state the controlling
law." United States v. Blankenship, 846 F.3d 663, 67071 (4th Cir. 2017) (internal quotation marks omitted).
We conclude that the district [**16] court did not plainly
err in instructing the jury. First, the district court's initial
instructions on the three elements of the offense
matched our description of the offense elements. See
United States v. Hurwitz, 459 F.3d 463, 475 (4th Cir.
2006)HN6[ ] ("[T]o convict a doctor for violating § 841,
the government must prove: (1) that the defendant
distributed or dispensed a controlled substance; (2) that
the defendant acted knowingly and intentionally; and (3)
that the defendant's actions were not for legitimate
medical purposes in the usual course of his professional
medical practice or were beyond the bounds of medical
practice." (internal quotation marks omitted)); (J.A.
2926-27). The court's instruction that the jury must
consider the totality of the circumstances in making its
determination that Naum acted outside the scope of
professional medical practice was consistent with this
our precedents. See Singh, 54 F.3d at 1187; United
States v. Tran Trong Cuong, 18 F.3d 1132, 1137-38
(4th Cir. 1994); (J.A. 2930) ("[Y]ou should examine all of
his actions and the facts and circumstances in the

case.").
Although Naum faults the district court for giving a list of
examples of conduct that demonstrate a physician acted
illegitimately, the court cautioned that its list was
illustrative, not exhaustive. Indeed, the court stated
explicitly that the [**17] "violation of an applicable
professional regulation alone, however, is not
determinative." (J.A. 2931). Moreover, the instructions
correctly listed factors accepted as relevant by courts on
this issue. See, e.g., Moore, 423 U.S. at 142-43 (giving
inadequate physical exam); United States v. McIver,
470 F.3d 550, 560 (4th Cir. 2006) (violation of
professional regulations). Accordingly, there was no
plain error in the jury instructions.
VI.
Naum asserts that the forfeiture order was improper
because the patient sampling used was arbitrary and
the underlying evidence was not presented to the jury.
In addition, Naum contends that the district court
considered certain prescriptions illegitimate even though
they complied with the West Virginia regulations in
effect at the time or were written on a day Jackson
consulted with Naum prior to issuing the prescriptions.
Finally, Naum contends that the district court did not
properly explain its judgment.
HN7[ ] "Criminal forfeiture is part of a defendant's
sentence." United States v. Martin, 662 F.3d 301, 306
(4th Cir. 2011). Rule 32.2 of the Federal Rules of
Criminal Procedure sets forth the procedure used to
effect criminal forfeiture. Id. at 306-07. "After conviction,
the government must [*145] establish a nexus
between the property for which it is seeking forfeiture
and the crime by a preponderance of the evidence." Id.
at 307. When the Government seeks a money
judgment, [**18] the court must determine the amount
the defendant will be ordered to pay, based on evidence
already in the record or additional evidence submitted
by the parties and accepted as reliable. Fed. R. Crim. P.
32.2(b)(1)(B).
In this case, the district court entered a forfeiture money
judgment of $77,063.20. This amount constituted 51.9%
of the income Naum obtained from Advance from 2013
to 2016. The district court found that Naum's salary—or
at least a portion of it—constituted proceeds of his
crime. The district court also found that taking 51.9% of
Naum's salary from 2013 to 2016 was "a reasonable
approach" because it was "based on not a sampling, but
on a real calculation" of Naum's prescriptions. (J.A.
3394). The district court explicitly addressed Naum's

A25

Page 8 of 9
832 Fed. Appx. 137, *145; 2020 U.S. App. LEXIS 32248, **18
arguments at sentencing and provided appropriate
reasoning.
Moreover, the district court's findings regarding the
forfeiture money judgment are supported by reasonable
and reliable evidence, and Naum has not demonstrated
that those findings are clearly erroneous or that the
court's ultimate findings were not based on the
preponderance of the evidence. The facts that Naum
was occasionally present and discussed patients with
Jackson on the days he was in the office [**19] are
irrelevant, given that the determination of illegitimacy of
each prescription was based upon Naum not personally
examining the patient. The evidence at trial supported
the conclusion that the lack of a personal examination
was relevant and probative as to whether Naum's
actions were appropriate.
Naum contends that the use of the 60 charts in arriving
at the percentage of his ill-gained proceeds was
statistically unsound. However, the basis for the
selection of the 60 patient files was well-explained both
in the Government's pre-sentence pleadings and at the
sentencing hearing. Naum's characterization of the
selection of those 60 patient files as "random" is
patently incorrect. The 60 charts were 100% of the
patients that Naum was treating at the time of the DEA
seizure and two former patients who were discussed at
length at Naum's trial. Thus, Naum's arguments about
random sampling are irrelevant.
Finally, Naum complains that certain prescriptions were
included in the calculation which predated the July 1,
2012 enactment of W. Va. C.S.R. § 24-1-18.2.a.5, which
included the requirement that prescriptions must be
written within six months of an examination. While it is
correct that there were prescriptions issued [**20] prior
to July 2012 included in the calculations, the
Government alleges that removing both categories of
prescriptions that predated July 2012—the legitimate
and the illegitimate—from the calculation would not
change the percentage of illegitimate prescriptions.
Naum does not dispute this calculation. Moreover, while
the Government chose the six-month requirement as a
touchstone for legitimate/illegitimate prescriptions, such
was a conservative choice, because the state
regulations were just one factor in determining the
legitimacy of prescriptions, and the evidence at trial
clearly showed that, even when Naum conducted an
examination, it was often perfunctory. In addition, the
district court only included the portion of Naum's salaries
received during an approximately 3-year period, even
though there was no evidence showing that Naum's

actions were any less illegitimate outside this time
period. Because the district court's forfeiture
determination was based on an application of the law to
facts which were well-supported [*146] by reasonable
and reliable evidence, we affirm the forfeiture order.
VII.
In his reply brief, Naum raises new claims based on
Brizuela's appeal, which was decided after [**21] Naum
filed his opening brief. See United States v. Brizuela,
962 F.3d 784 (4th Cir. 2020) (published, but not
argued). The Government responded with a Fed. R.
App. P. 28(j) filing of supplemental authorities
addressing Brizuela, and Naum filed a reply averring
that the Government's filing was an improper sur-reply
and should be ignored. Brizuela was tried on distribution
charges unconnected to Naum and Advance. We
reversed Brizuela's convictions, finding that the
testimony of four patients, whose treatment was not the
basis for any charges, was improperly admitted. 962
F.3d at 795-99.
Naum first contends that insufficient evidence supports
his conspiracy conviction because the Government
failed to present evidence of prescriptions he wrote prior
to 2014. Brizuela held that, in a prosecution for
dispensing improper prescriptions, other similar, but
uncharged, criminal behavior was "overkill" or "piling
on." Id. at 796. Brizuela is irrelevant to Naum's
argument for several reasons. First, Naum was
convicted of conspiracy; Brizuela was not. As such,
evidence necessary to "complete the story" of the
underlying crime was necessarily broader. Id. at 794-95.
Second, Brizuela did not challenge the sufficiency of the
evidence supporting his conviction, and Brizuela did not
announce any new relevant law. Thus, [**22] Naum's
claim could have been raised in his opening brief. Third,
while Brizuela noted that unlawful distribution is charged
by citing to a specific prescription, id. at 795, Naum's
indictment did just this. Naum's current complaint that
the indictment charged a conspiracy that began in 2008,
but did not present evidence of Naum's improper
prescriptions prior to 2014, is entirely untethered to
Brizuela, and the parties recognized at sentencing that
the evidence at trial concerned actions between 2013
and 2016.
Next, Naum asserts that, based on Brizuela, evidence of
Brizuela's and Jackson's actions were improperly
admitted against Naum on the conspiracy charge.
Specifically, he cites to evidence at his trial that Brizuela
examined and prescribed drugs to a patient who was
then transferred to Naum and that Jackson disregarded

A26

Page 9 of 9
832 Fed. Appx. 137, *146; 2020 U.S. App. LEXIS 32248, **22
Naum's instructions. Again, Brizuela's holding is
irrelevant to a conspiracy count. Moreover, the
"evidence" Naum cites to was relevant to the charges
against him and, actually, beneficial to Naum.
Specifically, the Government presented evidence that
Brizuela examined and prescribed drugs to a patient,
subsequently transferred to Naum who continued
prescriptions without ever [**23] examining the patient.
The evidence that the patient was examined by a
licensed professional was not prejudicial to Naum.
Further, the evidence that Jackson disregarded Naum's
instructions came from Naum himself. Jackson, on the
other hand, testified that she had blanket authority to
alter Naum's instructions. Accordingly, Naum's
arguments based on Brizuela are without merit.
As such, we affirm the district court's judgment. We
dispense with oral argument because the facts and legal
contentions are adequately presented in the materials
before this court and argument would not aid the
decisional process.
AFFIRMED

A27

USCA4 Appeal: 20-4133

Doc: 37

Filed: 11/24/2020

A28

Pg: 1 of 1

United States v. Naum
United States Court of Appeals for the Fourth Circuit
November 24, 2020, Filed
No. 20-4133
Reporter
2020 U.S. App. LEXIS 37150 *

Entered at the direction of the panel: Judge Motz, Judge
Harris, and Judge Quattlebaum.

UNITED STATES OF AMERICA, Plaintiff - Appellee v.
GEORGE P. NAUM, III, Defendant - Appellant

Prior History: [*1] (1:18-cr-00001-IMK-MJA-2).

Core Terms
petition for rehearing, en banc

Counsel: For United States of America, Plaintiff Appellee: William Joseph Powell, U. S. Attorney, Office
of The United States Attorney, Martinsburg, WV; Sarah
Wagner, Office of The United States Attorney, Northern
District of West Virginia, Clarksburg, WV.
For George P. Naum, III, Defendant - Appellant: Ronald
W. Chapman II, Chapman Law Group, Troy, MI; Elgine
Heceta McArdle, Mcardle Law Offices, Wheeling, WV.

Judges: Judge Motz, Judge Harris, and Judge
Quattlebaum.

Opinion
ORDER
The court denies the petition for rehearing and
rehearing en banc. No judge requested a poll under
Fed. R. App. P. 35 on the petition for rehearing en banc.

A29

A30

A31

A32

A33

A34

A35

A36

A37

1

1

UNITED STATES DISTRICT COURT

2

FOR THE NORTHERN DISTRICT OF WEST VIRGINIA

3

UNITED STATES OF AMERICA,

4

)

Plaintiff,

)

5
6

)
vs.

7

)

Criminal Action No.

)

1:18CR1-2

8

GEORGE P. NAUM, III,

)

9

Defendant.

)

10
11

- - TESTIMONY OF DR. STANIFORD HELM, II taken from the

12

proceedings had in the JURY TRIAL of the above-styled action on

13

April 29, 2019, before the HONORABLE IRENE M. KEELEY, SENIOR

14

JUDGE, at Wheeling, West Virginia.

15
16

APPEARANCES:
FOR THE GOVERNMENT:

17

SARAH WAGNER

18

Assistant United States Attorney

19

320 West Pike Street - Suite 300

20

Clarksburg, West Virginia 26301

21
22

ROBERT H. MCWILLIAMS, JR.

23

Assistant United States Attorney

24

P.O. Box 591

25

Wheeling, West Virginia

26003

Stacy Harlow, CVR-M/CM/RVR-M/RCP/RBC
Post Office Box 969 Clarksburg, WV 26302-0969 (304)623-7154

A38

2

1
2

APPEARANCES CONTINUED:
FOR THE DEFENDANT:

3

RONALD W. CHAPMAN, II

4

Chapman Law Group

5

1441 West Long Road - Suite 310

6

Troy, Michigan

48908

7
8

ELGINE MCARDLE

9

McArdle Law Office

10

2139 Market Street

11

Wheeling, West Virginia

26003

12
13
14

ALSO PRESENT:
GUY MCCARTNEY, Diversion Investigator

15
16

Proceedings recorded utilizing digital recording, transcript

17

produced by computer-aided transcription.

18
19
20
21
22
23
24
25
Stacy Harlow, CVR-M/CM/RVR-M/RCP/RBC
Post Office Box 969 Clarksburg, WV 26302-0969 (304)623-7154

A39

3

1

INDEX

2

EXAMINATION INDEX

3
4

WITNESS CALLED ON BEHALF OF THE GOVERNMENT:

5
6

Direct

Cross

Redirect

DR. STANIFORD HELM, II...........4.....44.......53

7
8
9

EXHIBIT INDEX
EXHIBITS OFFERED ON BEHALF OF THE DEFENDANT:

10
11

Introduced

Admitted

Defendant’s Demonstrative Exhibit 1.........16............--

12
13
14
15
16
17
18
19
20
21
22
23
24
25
Stacy Harlow, CVR-M/CM/RVR-M/RCP/RBC
Post Office Box 969 Clarksburg, WV 26302-0969 (304)623-7154

A40

4

1

P R O C E E D I N G S

2

(4-29-19, defendant present)

3

(Dr. Helm’s testimony beginning at 9:47 A.M.)

4
5

MR. CHAPMAN:

Thank you, Your Honor.

The defense

calls Dr. Staniford Helm.

6

THE COURT:

All right.

Dr. Helm, would you please

7

approach the clerk in the front of the courtroom, who will

8

administer the oath to you before you take the witness stand.

9

(DR. STANIFORD HELM, II WAS SWORN.)

10
11

THE CLERK:

The witness is Dr. Staniford -- S-t-a-n-

i-f-o-r-d -- Helm -- H-e-l-m.

12

THE COURT:

Good morning, Dr. Helm.

I’m Judge

13

Keeley, and I would ask that you please speak in a loud, clear

14

voice into the microphone, and address your responses to the

15

jury.

16

THE WITNESS:

17

THE COURT:

18

MR. CHAPMAN:

19

Thank you, Your Honor.
You may proceed, Mr. Chapman.
Thank you, Your Honor.
DIRECT EXAMINATION

20

BY MR. CHAPMAN:

21

Q.

Good morning, Dr. Helm.

22

A.

Good morning.

23

Q.

Doctor, what is your current occupation?

24

A.

I am a physician, specifically an interventional pain

25

specialist.
Stacy Harlow, CVR-M/CM/RVR-M/RCP/RBC
Post Office Box 969 Clarksburg, WV 26302-0969 (304)623-7154

A41

5

1

Q.

And where are you employed?

2

A.

Orange County, California.

3

Q.

And what's the nature of your current practice?

4

A.

All I do is practice interventional pain management, which

5

means treating chronic pain with interventional procedures and

6

other modalities, including medications.

7

this, I've also moved into addiction medicine.

8

Q.

9

of medicine.

Okay.

As an adjunct to

Let's talk a bit about your education in the field
Where did you go to college?

10

A.

Harvard College.

11

Q.

And when did you graduate?

12

A.

1972.

13

Q.

Did you proceed to medical school?

14

A.

I did.

15

Q.

And after Tufts?

16

A.

Did an internship at Boston City Hospital in internal

17

medicine, then came out to UCLA for anesthesia, and completed

18

my anesthesia training.

19

Q.

20

anesthesiology?

21

A.

I did.

22

Q.

And what other board certifications do you possess?

23

A.

I've got a subspecialty certification in pain medicine.

24

I'm boarded by the American Board of Pain Medicine.

25

boarded by the American Board of Interventional Pain

I went to Tufts University School of Medicine.

Did you ultimately become board-certified in
I have multiple boards.

I'm

Stacy Harlow, CVR-M/CM/RVR-M/RCP/RBC
Post Office Box 969 Clarksburg, WV 26302-0969 (304)623-7154

A42

6

1

Physicians.

I'm boarded in addiction medicine by the American

2

Board of Preventive Medicine.

3

Q.

4

addiction medicine?

5

A.

6

since I didn't do a fellowship in addiction; I came in through

7

the route of having practiced enough addiction medicine to meet

8

the requirements and then stand for the exam.

9

Q.

What is required to receive a board-certification in
Addiction medicine, I came in through the route of --

So prior to you beginning to practice addiction medicine,

10

was there a board certification available?

11

A.

12

by the American Board of Medical Specialty Examiners, which is

13

the primary boarding organization for the United States.

14

was an independent organization they've had at the American

15

Society of Addiction Medicine.

16

Q.

I'll give you a break so that you can pour that, Doctor.

17

A.

Get rid of the frog.

18

Q.

And when did you become board-certified in addiction

19

medicine?

20

A.

21

ABMSE board became offered, I took it the first year it was

22

offered.

23

Q.

24

practiced in the field of addiction medicine?

25

A.

There was a board certification, but it wasn't recognized
It

Thank you.

It was first offered, I believe, in 2017.

So when the

And prior to becoming board-certified, how long had you
Since about 2000, when the DATA 2000 was passed.
Stacy Harlow, CVR-M/CM/RVR-M/RCP/RBC
Post Office Box 969 Clarksburg, WV 26302-0969 (304)623-7154

A43

7

1

Q.

In addition to your -- do you have any other

2

certifications in the field of addiction medicine or

3

pain medicine that would be relevant?

4

A.

5

currently at 275 patients.

6

Q.

And what's required to get up to 275 patients?

7

A.

You have to practice at the lower levels and then apply

8

and show that you're actually complying.

9

once just to ensure that we were in compliance.

Well, I did get the waiver for Suboxone treatment, and

We had a DEA visit

10

Q.

Have you utilized a drug called Suboxone in your practice?

11

A.

Very widely.

12

Q.

And for how long have you utilized that drug?

13

A.

Since it first came out, maybe mid -- the early 2000s

14

again.

15

Q.

16

substances for the treatment of addiction?

17

A.

18

substances for the treatment of addiction.

19

Q.

20

came into effect?

21

A.

22

it for addiction.

23

Q.

24

leadership positions in the field of medicine?

25

A.

Prior to that, did you utilize any other controlled
No.
Okay.

Because I wasn't authorized to use any controlled
So did you start using Suboxone after DATA 2000

Correct.
Okay.
Sure.

That was the first time I would be able to use

In addition to your education, have you held any
I've been president of our national society, the

Stacy Harlow, CVR-M/CM/RVR-M/RCP/RBC
Post Office Box 969 Clarksburg, WV 26302-0969 (304)623-7154

A44

8

1

American Society of Interventional Pain Physicians.

I've been

2

president of my county medical society.

3

the California Medical Association.

4

Q.

5

the field of medicine or for the advancement of the field of

6

medicine?

7

A.

Oh, boy.

8

Q.

Okay.

9

positions, have you spoken or educated other physicians in the

I've been a trustee of

Have you done any work on boards or committees related to

A number of them.

That's fine.

Thank you.

In addition to those

10

field of pain or addiction?

11

A.

I have taught and continue to teach extensively.

12

Q.

And where?

13

A.

Internationally.

14

Budapest in August, for example.

15

Q.

16

field of medicine?

17

A.

I've published extensively.

18

Q.

Do you know how many, roughly?

19

A.

Twenty pages

20

Q.

Okay.

21

A.

On the CV.

22

Q.

How much of your current practice is devoted to the

23

clinical practice of medicine?

24

A.

About 90 percent.

25

Q.

And what is the other 10 percent comprised of?

Okay.

I've got some courses coming up in

Have you authored any publications related to the

What percentage of your time?

Stacy Harlow, CVR-M/CM/RVR-M/RCP/RBC
Post Office Box 969 Clarksburg, WV 26302-0969 (304)623-7154

A45

9

1

A.

2

work like this.

3

Q.

Doctor, did you review any materials in this case?

4

A.

I did.

5

Q.

What did you review?

6

A.

I reviewed the medical records of the three patients

7

involved, and viewed the prescription drug monitoring program

8

that was involved, and I reviewed the relevant SAMHSA

9

documents, and some of federal legislation

10

Q.

It's going to be either clinical research or medical legal

Thank you.

11

MR. CHAPMAN:

Your Honor, at this time, I would offer

12

Dr. Helm as an expert in the field of addiction medicine and

13

pain medicine.

14

THE COURT:

All right.

15

MR. MCWILLIAMS:

16

THE COURT:

Is there any objection?

No, Your Honor.

All right.

The Court accepts Dr. Helm as

17

an expert and will allow him to opine in the area of addiction

18

medicine.

19
20

MR. CHAPMAN:

Thank you, Your Honor.

And also pain

medicine, to the extent that it's --

21

THE COURT:

22

MR. CHAPMAN:

23

BY MR. CHAPMAN:

24

Q.

25

buprenorphine.

And pain medicine.
Thank you.

Doctor, I'd like to turn your attention to the drug
Now, the jury has heard a bit about this drug

Stacy Harlow, CVR-M/CM/RVR-M/RCP/RBC
Post Office Box 969 Clarksburg, WV 26302-0969 (304)623-7154

A46

10

1

already.

2

works?

3

A.

4

means that it occupies the receptor.

5

-- there a number of receptors, but the Mu receptor is the one

6

that opioids, hydrocodone, oxycodone, bind to.

7

to the same receptor, but being a partial agonist, it means

8

that it will give a little bit of effect, then it stops.

9

doesn't give any more effect after that.

Sure.

But can you please briefly explain what is and how it
It's a drug, which it's a partial agonist.

That

There's something called
This drug binds
It

And it's got the

10

ability to -- you know, if you're taking opioids and you stop,

11

you go into withdrawal.

12

stop the withdrawal, and also stop cravings that people have

13

for the opioids.

14

treatment of opioid addiction.

15

Q.

And how is Suboxone different than buprenorphine?

16

A.

Well, the only difference is that Suboxone is combined

17

with naloxone, which without going -- the purpose of that is to

18

prevent one from abusing the Suboxone by injecting it

19

intravenously.

20

Q.

And what is the abuse potential for Suboxone?

21

A.

The biggest abuse of Suboxone are what gives it street

22

value, is that people can sell it.

23

can't get the drug that they're trying to get, heroin,

24

oxycodone, whatever it's going to be, they can get the Suboxone

25

to stop their withdrawal.

This drug can bind to the receptor,

So it's an extremely important drug for the

If someone who's an addict

Stacy Harlow, CVR-M/CM/RVR-M/RCP/RBC
Post Office Box 969 Clarksburg, WV 26302-0969 (304)623-7154

A47

11

1

Since it's got the naloxone, it doesn't have great abuse

2

potential as a drug abused for its own right.

3

Q.

4

the euphoric effect that oxycodone or heroin might create?

5

A.

6

won't get that effect from shooting it up.

7

Q.

What would happen if somebody was to do that?

8

A.

The naloxone would -- the naloxone is an antagonist.

9

other words, it binds to the same Mu receptor and prevents

To ask a different way, can Suboxone be abused to create
With the naloxone on board, you can't shoot it up.

You

In

10

anything from happening.

So, you know, that's why you use it

11

to reverse opioid overdose because it will go to the receptor,

12

knock off the opioid that's there, bind to it, and then stop

13

the respiratory depression.

14

Suboxone and you grind it up and shoot it up, it’s -- the

15

naloxone is going to bind to the receptor and prevent any

16

euphoric effect from the buprenorphine.

17

buprenorphine and shoot it up, you can get a bit of a high out

18

of it.

19

Q.

20

treatment,” or “OBAT”?

21

A.

I am.

22

Q.

And what is it?

23

A.

That is basically what DATA 2000 allowed.

24

physicians in their office, whether addiction specialists like

25

myself, or family practice physicians, to treat, in their

If you're taking it -- if you take

If you just take pure

Are you familiar with the term “office-based addiction

It allows for

Stacy Harlow, CVR-M/CM/RVR-M/RCP/RBC
Post Office Box 969 Clarksburg, WV 26302-0969 (304)623-7154

A48

12

1

office, opioid addiction.

Before, it had to be a very formal

2

program.

3

bandwidth for treating opioid addiction.

4

practitioners to come in and treat this problem.

5

Q.

6

prescribe drugs like Suboxone and buprenorphine?

7

A.

No.

8

Q.

And if you know, what was the ultimate goal behind

9

enacting DATA 2000 and expanding the reach?

This opened it up and allowed what I'll call greater
It allowed new

Prior to DATA 2000, could family practice physicians
It would have been illegal.

10

A.

Treat opioid addiction.

11

Q.

And since DATA 2000 has been enacted, have you seen an

12

increase or a decrease in the availability of opiate -- office-

13

based addiction treatment programs?

14

A.

15

in opioid deaths, too.

16

Q.

17

authorized and the present, has there still been a need for an

18

increased number of office-based addiction treatment programs?

19

A.

20

fact, last week, Health and Human Services announced a, I

21

believe, $400 million pilot study in Kentucky, Massachusetts,

22

Ohio, and New York expanding office-based treatment and

23

coupling it with law enforcement, the courts, religious

24

leaders, community leaders to try to get a comprehensive

25

approach, and also bringing in counseling on a more formal

There's been an increase.

There's also been an increase

To your knowledge, between DATA 2000 initially being

There's an ongoing need to expand this.

As a matter of

Stacy Harlow, CVR-M/CM/RVR-M/RCP/RBC
Post Office Box 969 Clarksburg, WV 26302-0969 (304)623-7154

A49

13

1

basis.

So it's an ongoing problem.

2

expand -- or the expansion of office-based opioid treatment is

3

currently being promulgated very aggressively.

4

Q.

5

seeing a patient for induction into an office-based treatment

6

program?

7

A.

The physician's responsibility or --

8

Q.

Yes.

9

A.

Well, that's an interesting question because, obviously --

What is a physician's responsibility when first initially

Yeah.

10

THE COURT:

11

into the microphone?

12

THE WITNESS:

13

THE COURT:

14

Doctor, can I ask you to please speak
Thank you.
Move your chair a little closer.

Thank

you.

15
16

It's a current effort to

THE WITNESS:

Yeah.

I'll try to get it over here.

You know, obviously, you need to see a patient and get a

17

history and exam.

What’s -- what makes the question

18

interesting is that treatment of opioid addiction is different

19

from every other aspect of medicine in that treatment of opioid

20

addiction by Congress has been delegated to Health and Human

21

Services and then to an organization called SAMHSA, and so they

22

control it.

23

exam.

24

to perform this initial consulate -- in fact, for opioid

25

treatment, it's a little bit different than it would be for

And what they say is that the nurse can do the

So while, you know, the obligation for the physician is

Stacy Harlow, CVR-M/CM/RVR-M/RCP/RBC
Post Office Box 969 Clarksburg, WV 26302-0969 (304)623-7154

A50

14

1

anything else.

2

BY MR. CHAPMAN:

3

Q.

4

let's say treating a patient who has a sprained ankle or an

5

infection?

6

And how is it different -- opiate treatment different from
Let me ask the question a different way.

What would you do differently if you were seeing a patient

7

who had a sprained ankle or an infection, as opposed to an

8

office-based treatment patient?

9

A.

Well, the big difference is that the federal government,

10

the Health and Human Services, specifically SAMHSA, has allowed

11

the nurses to do the initial exam.

12

that.

13

In my practice, I don't do

But that is a viable option.

The -- but, you know, essentially, you're practicing

14

medicine.

You're seeing the patient.

Someone who is a

15

licensed provider is seeing the patient and making the

16

diagnosis.

17

sprained ankle, and the other case, it's going to be opioid

18

substance use disorder.

19

Q.

20

patient for intake into an office-based treatment program, is

21

the physician required, under SAMHSA guidelines, to see the

22

patient thereafter?

23

A.

24

is that the physician determine the amount of medication the

25

patient gets.

The diagnosis is, in the one case, going to be a

And after a patient (verbatim) has initially seen a

No.

That's delegated to the nurses.

What SAMHSA requires

That's the one thing that's not being delegated

Stacy Harlow, CVR-M/CM/RVR-M/RCP/RBC
Post Office Box 969 Clarksburg, WV 26302-0969 (304)623-7154

A51

15

1

to the nurses, the determination of the medications.

2

MR. CHAPMAN:

May I move to the cart laptop, please?

3

BY MR. CHAPMAN:

4

Q.

5

shown to the Government.

6

before?

7

A.

I have.

8

Q.

Okay.

Doctor, I'm going to show you a slide that was previously

9
10

15
16

Is there a number on it for the record,

please?
MR. CHAPMAN:

I can add it as Demonstrative Exhibit

1, Your Honor.

13
14

And I would like to ask you about --

THE COURT:

11
12

THE COURT:

Okay.

MR. CHAPMAN:

It does not have an exhibit number,

Your Honor.
THE COURT:

18

MS. WAGNER:

19

THE COURT:

20

MR. MCWILLIAMS:

21

THE COURT:

22

MR. MCWILLIAMS:

23

MR. CHAPMAN:

25

Defense -- but it has a number

already?

17

24

Doctor, have you seen this slide

Is that correct, Ms. Wagner?
Mr. McWilliams.
Whoever used it.
It does not have a number.

Okay.
I view it as a pedagogical chart.

Yeah.

I don't intend on admitting it,

Your Honor.
THE COURT:

Okay.

Stacy Harlow, CVR-M/CM/RVR-M/RCP/RBC
Post Office Box 969 Clarksburg, WV 26302-0969 (304)623-7154

A52

16

1

MR. CHAPMAN:

2

THE COURT:

Thank you.
But I think this is good that -- and I'm

3

sorry I overlooked that in your case-in-chief, but I think, for

4

purposes of the record, everything should have a number,

5

because it may be referred to later.

6
7

MR. CHAPMAN:
THE COURT:

Exhibit 1.

Demonstrative Exhibit 1.

10
11

I think we can assign

this as Demonstrative 1.

8
9

Yes, Your Honor.
Fine.

Defendant's

You may proceed.

(Defendant’s Demonstrative Exhibit Number 1 was introduced
into evidence.)

12

MR. CHAPMAN:

Thank you.

13

BY MR. CHAPMAN:

14

Q.

15

Defendant's Demonstrative Exhibit 1.

16

before?

17

A.

I have.

18

Q.

Okay.

19

slide that discusses best practices and guidelines.

20

tell us what those are?

21

A.

22

Let's say that I write a guideline in conjunction with other

23

physicians.

24

reviewing the literature and our expert opinion as to what --

25

the way something should be done, that is the top of the line.

I'm showing you what's been marked for identification as

Surely.

Have you seen this slide

And I’d like to ask you about the top part of this

That is what it says.

Can you

It's best practices.

When we review the literature and come up with --

Stacy Harlow, CVR-M/CM/RVR-M/RCP/RBC
Post Office Box 969 Clarksburg, WV 26302-0969 (304)623-7154

A53

17

1

And then the standard of care is defined as what would a

2

physician in the community -- you know, a reasonably trained

3

physician in the community do in similar circumstances.

4

So this physician may or may not have had time to read the

5

guidelines.

6

he's trained and he's got a good understanding of what's

7

appropriate.

8

with the guidelines, but if he or she is doing what standard

9

physicians in the community would be doing, then that's

10

He may not know everything that's recent.

But

He may not be in compliance with -- or she --

acceptable.

11

So standard of care is a level of care that's a little bit

12

below best practices, but it’s still very, very much consistent

13

with the practice of medicine.

14

Q.

15

practices -- let me ask a different question.

16

Now, if a physician deviates from what are considered best
What are some examples of best practices?

17

A.

Oh, let's say -- I'm laughing because there's confusion

18

about that.

19

injection, and you look at certain guidelines, and certain

20

guidelines say that you should stop naproxen four days before a

21

procedure.

22

three days before the procedure.

23

practices or a violation of standard of care?

24

violation of best practices, but it's surely not a violation of

25

standard of care.

Let's say there's a hematoma after an epidural

And the physician had the patient stop the naproxen
Is that a violation of best
It may be a

Stacy Harlow, CVR-M/CM/RVR-M/RCP/RBC
Post Office Box 969 Clarksburg, WV 26302-0969 (304)623-7154

A54

18

1

Q.

Now, looking below best practices and standard of care, we

2

see the words "outside the bounds of professional practice."

3

Are you familiar with that term?

4

A.

Correct.

5

Q.

If a physician engages in conduct that deviates either

6

from best practices or from standard of care, would that

7

conduct be automatically rendered outside the bounds of

8

professional practice?

9

A.

If somebody deviated from the standard of care?

10

Q.

Yes.

11

A.

If somebody deviated from standard of care, for example,

12

in this epidural hematoma, if they gave heparin immediately

13

before the procedure, then, yes, that would be a deviation from

14

standard of care.

15

Q.

Okay.

16

A.

Because by definition, standard of care defines -- sets

17

the boundaries to what is standard of care.

18

Q.

19

based treatment, how is a physician-patient relationship

20

established?

21

A.

22

practice, it's with myself as a physician.

23

under SAMHSA, it can be the nurse case manager who does that.

24

And that -- you know, in part, that entails several things.

25

There's a history taken of -- in this case, it would be a

Thank you.

So, Doctor, an opiate -- I'm sorry office-

Initially, there is a contact with a provider.

In my

Although, again,

Stacy Harlow, CVR-M/CM/RVR-M/RCP/RBC
Post Office Box 969 Clarksburg, WV 26302-0969 (304)623-7154

A55

19

1

substance abuse history.

There will be searching for any

2

significant medical or psychological comorbidities.

3

some testing done in terms of -- liver function tests are often

4

requested; urine drug screens; checking the prescription drug

5

monitoring program; conducting a physical exam.

6

that data, you come up with a diagnosis and implement a

7

treatment plan.

8

Q.

Did you review a number of charts in this case, Doctor?

9

A.

I did.

10

Q.

And through your review of charts, did you -- do you have

11

an opinion as to whether or not a physician-patient

12

relationship was established with the patient charts that you

13

viewed?

14

A.

Yes.

15

Q.

Okay.

16

A.

In all three.

17

Q.

Specifically discussing the charts of Natascha Sabo and

18

Wendy Eddy, do you believe -- do you have an opinion as to

19

whether or not a physician-patient relationship was established

20

with either of them?

21

A.

22

appeared to be exams and appropriate -- excuse me --

23

appropriate histories that would provide the basis for a

24

physician-patient relationship.

25

Q.

They'll be

And based upon

They all were.

In both of those cases, I saw contemporaneous notes that

Would a physician-patient relationship have to be reStacy Harlow, CVR-M/CM/RVR-M/RCP/RBC
Post Office Box 969 Clarksburg, WV 26302-0969 (304)623-7154

A56

20

1

established every time a patient comes into the office to see -

2

- to receive a prescription for Suboxone?

3

A.

4

different context, if I see someone and they leave the practice

5

for a while, if they come back in three years, that's

6

considered, under the billing codes of elevation management

7

rules, a follow-up visit.

8

someone for three years that you need to re-establish a

9

physician-patient relationship.

I don't see why.

I think that -- put that into a

It's not that you haven't seen

10

Q.

And you mentioned billing codes.

Do you know how those

11

are established?

12

A.

Those are done through the American Medical Association.

13

Q.

Are they doctors who essentially make decisions about what

14

billing codes should apply and what reimbursement rates should

15

apply?

16

A.

17

is done by the physicians.

18

established generally by the payers.

19

Q.

20

physician on a follow-up visit for a patient who has already

21

been introduced to an office-based opiate treatment program?

22

A.

23

compliance with their medications, that there's no backsliding,

24

they haven't been getting medicines from other sources, either

25

medically or off the street, ensuring there are no medical

Well, the various mechanisms by getting to various codes

Okay.

The reimbursement rates are

And, Doctor, what are the best practices for a

The best practices would be to ensure that they’re in

Stacy Harlow, CVR-M/CM/RVR-M/RCP/RBC
Post Office Box 969 Clarksburg, WV 26302-0969 (304)623-7154

A57

21

1

comorbidities that would interfere with the problem,

2

psychosocial evaluation.

3

Q.

4

order to ensure those items that you've just covered?

5

A.

6

drug screen and the prescription drug monitoring program are

7

the best.

8

Q.

9

charts did you review?

And what tools do physicians have at their disposal in
Other than self-report and exam, it would be the urine

In the charts that you reviewed -- well, Doctor, how many

10

A.

Three.

11

Q.

And in the charts that you reviewed, did you see examples

12

of those tests being conducted?

13

A.

They were all done in all the charts.

14

Q.

And were those at regular enough intervals to meet what

15

you define as best practices?

16

A.

17

least in terms of -- we get urine drug screens every six

18

months.

19

Q.

20

reports being checked?

21

A.

In -- yes.

22

Q.

And does that meet what you define as best practices for a

23

follow-up visit?

24

A.

Yes.

25

Q.

And, again, is it permissible for a nurse to perform all

Yes.

They did them actually more often than I do, at
They got them more frequently.

Did you see evidence of prescription drug monitoring

Stacy Harlow, CVR-M/CM/RVR-M/RCP/RBC
Post Office Box 969 Clarksburg, WV 26302-0969 (304)623-7154

A58

22

1

of those functions that you've just described as the best

2

practices on a follow-up visit?

3

A.

Yes, it is.

4

Q.

And in the case where a nurse does that, what's the

5

physician's responsibility in oversight of the nurse?

6

A.

7

practitioner can -- I don't need to sign off on her charts.

8

it is not a nurse practitioner, then the physician would need

9

to sign off on the chart and then order the medications.

The physician will -- well, in my practice, the nurse
If

10

Q.

And what's the physician looking for when the physician

11

signs off on the charts?

12

A.

13

patient -- assuming that your plan is to wean, is the patient

14

ready to wean?

15

treatment plan?

16

Q.

Is Suboxone considered a maintenance medication?

17

A.

I do personally use it as such.

18

Q.

And what’s that mean, "maintenance medication"?

19

A.

I've got patients who have real cravings for opioids, and

20

that doesn't go away.

21

I would as the blood pressure medicine or medicine for

22

diabetes.

23

want -- in these patients, you want to prevent the craving.

24

There are patients whom you can get off Suboxone.

25

are patients who, if you get them off the Suboxone, the craving

Again, the same criteria.

Is there compliance?

Is the

Are there any reasons to not progress with the

And so I view the Suboxone the same way

It's just something that you maintain because you
And there

Stacy Harlow, CVR-M/CM/RVR-M/RCP/RBC
Post Office Box 969 Clarksburg, WV 26302-0969 (304)623-7154

A59

23

1

comes back and they're going to relapse without the Suboxone.

2

So you simply maintain it.

3

Q.

4

for?

5

A.

6

hypertensives, which is to say for life.

7

Q.

8

community related to how long a patient should be receiving

9

Suboxone or whether or not they should be weaned?

Speaking of, how long can you keep a patient on Suboxone
As long as you would keep them on their antiHas there been a change in consensus in the medical

10

A.

I think that as the number of patients has increased from

11

30 to 100 to 275, there's less pressure on the physicians to

12

wean.

13

Q.

14

much capacity, but now their capacity has been expanded?

15

A.

That's exactly correct.

16

Q.

Okay.

17

have you seen indications where insurance companies may limit

18

the amount of Suboxone a patient may receive or limit the

19

number of prescriptions a patient may receive?

20

A.

21

want to provide Suboxone to because of insurance reasons.

22

Q.

23

denial?

24

A.

Request a prior authorization.

25

Q.

Is that process time consuming?

Is that because previously physicians didn't have very

Have you seen -- in your professional practice,

I have had trouble getting Suboxone to patients whom I
And what do you have to do if the insurance indicates a

Stacy Harlow, CVR-M/CM/RVR-M/RCP/RBC
Post Office Box 969 Clarksburg, WV 26302-0969 (304)623-7154

A60

24

1

A.

Yes.

2

Q.

And based on your review of the charts, how did Advance

3

utilize a nurse for follow-up visits?

4

A.

5

- as I described it, and get the appropriate monitoring and

6

then would issue the prescription, based upon the previous

7

order provided by the physician.

8

Q.

9

physician, was that within the bounds of professional medical

The nurse would go in and perform the follow-up exam and -

And generally speaking, based on your knowledge as a

10

practice?

11

A.

I think it was.

12

Q.

Okay.

13

used to conduct follow-up visits, other models in other areas

14

of the country?

The -- yes.

Have you seen other examples where nurses have been

15

THE COURT:

16

MR. CHAPMAN:

17

THE COURT:

18
19

McWilliams?

I'll just say yes.

May I -Yes, Your Honor.
Go head.

What's your objection, Mr.

I'm fearful of the jury's confusion.

MR. MCWILLIAMS:

I want him to stick to Suboxone

20

treatment.

We've used other examples about hematomas and

21

things like that, so that's one objection.

22

the term "model."

23

that, Judge.

I'm concerned about

We've already had a long discussion about

24

MR. CHAPMAN:

25

THE COURT:

Should we go to sidebar, Your Honor?
No.

I don't think so.

I don't -- I'm

Stacy Harlow, CVR-M/CM/RVR-M/RCP/RBC
Post Office Box 969 Clarksburg, WV 26302-0969 (304)623-7154

A61

25

1

not as worried, as Mr. McWilliams appears to be, about other

2

examples.

3

we're talking about Advance Healthcare, that's what we're

4

talking about.

I think they may be helpful to the jury.

5

MR. CHAPMAN:

6

THE COURT:

But when

Yes.
And when we're talking about registered

7

nurses, that's what we're talking about.

8

about nurse practitioners, as in his practice, it needs to be

9

made clear that that is not the Advance Healthcare model.

10

MR. CHAPMAN:

When we're talking

Let me clear up the difference.

11

BY MR. CHAPMAN:

12

Q.

13

nurse practitioner, Doctor?

14

A.

15

prescriptions.

16

instance, can only -- can call in a prescription provided by a

17

physician but cannot write a prescription his or herself.

18

Q.

19

review?

20

A.

As far as I can tell, no.

21

Q.

Okay.

22

A.

Registered nurses.

23

Q.

And a registered nurse can't prescribe?

24

A.

Cannot prescribe.

25

cannot prescribe.

What's the difference between a registered nurse and a
The nurse practitioner is authorized to make
A registered nurse, such as was used in this

Did Advance have any nurse practitioners, based on your

Did Advance have registered nurses?

They can call in a script, but they

Stacy Harlow, CVR-M/CM/RVR-M/RCP/RBC
Post Office Box 969 Clarksburg, WV 26302-0969 (304)623-7154

A62

26

1

Q.

Back to the prior question.

2

hospitals that have utilized a nurse follow-up visit model?

3

THE COURT:

Are you aware of any other

Now, it has to be as in this case.

4

BY MR. CHAPMAN:

5

Q.

As in this case.

6

A.

Yes.

7

based addiction treatment program at Boston Medical Center.

8
9
10

Specifically, there is a very well developed officeTHE COURT:

All right.

Now, we are going to sidebar.

THE COURT:

I've been very explicit; you limit it to

(Sidebar.)

11

the model at Advance Healthcare.

12

it's outside what I instructed you you could do in this case,

13

and it is in violation of my prior rulings, Mr. Chapman.

14

MR. CHAPMAN:

What are you doing?

Because

Your Honor, my understanding was that I

15

could talk about the Massachusetts model insofar as it utilized

16

nurses for follow-up, and that was it.

17

THE COURT:

That was my question.

That's why I asked you about the

18

difference between nurse practitioners and registered nurses.

19

The model, as I read it, in Massachusetts does not use RNs to

20

order prescriptions.

21

confusion with the jury, I am not allowing it.

22
23
24
25

And to the extent that you are inviting

MR. CHAPMAN:

Your Honor, they utilize RNs for

follow-up visits.
THE COURT:

You have been leading him with regard to

this to get to this point.

And now you want him to give a

Stacy Harlow, CVR-M/CM/RVR-M/RCP/RBC
Post Office Box 969 Clarksburg, WV 26302-0969 (304)623-7154

A63

27

1

narrative about the Massachusetts program.

2

happen that way.

3

on this is.

4

is outside of my ruling.

5
6

I don't know what the Government's position

But based on my prior rulings, what you're doing

MR. MCWILLIAMS:

We’ve been objecting a long time.

I

mean previously, to this model.

7

MR. CHAPMAN:

8

THE COURT:

9

It's not going to

to rule on this?

Massachusetts -I mean, how many times am I going to have

This is not the Massachusetts model.

This is

10

not the Vermont model.

11

to the extent that there are other models out there that are

12

not relevant to this because they've been permitted by special

13

regulation in the states and are funded by state funds, that is

14

not this model.

15

it.

It will confuse the jury.

16

MR. CHAPMAN:

17

THE COURT:

18

MR. CHAPMAN:

19
20

His opinions are limited to this.

And

We are not doing

I understand your ruling.
That's it.
Okay.

(End sidebar.)
THE COURT:

Ladies and gentlemen, I just want to make

21

clear to you that we've had a discussion at the bench about

22

anticipated testimony from Dr. Helm regarding a state-approved

23

and funded model in Massachusetts that is a very different

24

approach protocol-wise in the office, and, actually, in the

25

kind of team put together, than what was utilized at Advance
Stacy Harlow, CVR-M/CM/RVR-M/RCP/RBC
Post Office Box 969 Clarksburg, WV 26302-0969 (304)623-7154

A64

28

1

Healthcare.

That doesn't mean one is right and one is wrong.

2

But it's been my ruling prior to this case, and during this

3

case, that that is -- that model is not a relevant discussion

4

to what happened here and the questions that are before you

5

here.

6

BY MR. CHAPMAN:

7

Q.

8

physician discharge a patient for noncompliance with the

9

program?

That is why we are now going to move on.

In office-based addiction treatment, Doctor, should a

10

A.

In addiction treatment in general, the noncompliance is a

11

basis for discussion with a patient, rather than immediate

12

dismissal.

13

backsliding from time to time.

14

Q.

15

he or she learns that a patient has relapsed?

16

A.

Counseling.

17

Q.

Would there also be additional compliance efforts

18

implemented, such as increased amount of urine drug screens?

19

A.

Oh, you would be doing that too.

20

Q.

Based on your review of the charts, Doctor, did Dr. Naum

21

authorize prescriptions to be issued for patients for follow-up

22

visits?

23

A.

24

what the patient would be provided at the next visit.

25

Q.

You expect patients to -- patients will be

And what generally should a physician's response be when

He would sign off on a chart and then give an order as to
And to the extent that that signature, signing off on a
Stacy Harlow, CVR-M/CM/RVR-M/RCP/RBC
Post Office Box 969 Clarksburg, WV 26302-0969 (304)623-7154

A65

29

1

chart, happened prior to the nurse follow-up visit, would that

2

be within the bounds of medical practice?

3

A.

It would be.

4

Q.

And why is that?

5

A.

Because the physician is directing the dose of medication

6

for the patient to get for -- as part of the treatment program

7

for the identified medical problem.

8

Q.

9

considered a prescription that was issued by the physician

Now, if a nurse disregards that instruction, would that be

10

outside the bounds of professional practice?

11

A.

No.

12

Q.

Okay.

13

practice to delegate initial screening and assessment to a

14

nurse for an opiate-based treatment patient?

15

A.

According to SAMHSA, you can.

16

Q.

Okay.

17

delegate follow-up visits to a nurse in the office-based

18

treatment setting?

19

A.

20

with the need to provide access to opioid treatment --

21

substance -- opioid substance abuse treatment to more people.

22

If you're mandating the physician see it, all you're going to

23

do is give backlogs.

24

Q.

25

pharmacy after a nurse follow-up visit?

I’d call that a nursing error.
Doctor, is it within the bounds of professional

I personally do not.

Is it within the bounds of medical practice to

SAMHSA very clearly allows that.

And that's consistent

Is a nurse permitted to phone a prescription into a

Stacy Harlow, CVR-M/CM/RVR-M/RCP/RBC
Post Office Box 969 Clarksburg, WV 26302-0969 (304)623-7154

A66

30

1

A.

Yes.

2

Q.

Okay.

3

patient visits that you reviewed.

4

For everything except Schedule II medications.
Now I'd like to talk about some of the specific

MR. CHAPMAN:

I'm going back to the cart.

5

BY MR. CHAPMAN:

6

Q.

7

treatment was 8/17/2015.

8

patient record?

9

A.

I do.

10

Q.

Okay.

11

Wendy Eddy, W.E., Government's Exhibit 1A, Page 6.

12

the visit for the date in the count, 8/17/2015?

13

A.

I do.

14

Q.

And did you review this chart in preparation for your

15

testimony?

16

A.

I did.

17

Q.

Okay.

18

What medication?

19

A.

20

a day, eight milligrams a day.

21

Q.

22

visit?

23

A.

The same dose on the 7/20/15 visit.

24

Q.

And do you see an indication that Dr. Naum reviewed both

25

of these visits and signed the chart?

Okay.

First, I'd like to talk about Count 24.

Date of

Doctor, on your screen, do you see a

And I'll represent to you that this is for patient
Do you see

And what was the patient receiving on 8/17/2015?

She was getting the Suboxone, eight milligrams -- one film
Okay.

And what was the patient receiving on the prior

Stacy Harlow, CVR-M/CM/RVR-M/RCP/RBC
Post Office Box 969 Clarksburg, WV 26302-0969 (304)623-7154

A67

31

1

A.

Yes.

Down at the bottom.

2

Q.

And is this sheet appropriate for tracking follow-up

3

visits for a patient receiving Suboxone?

4

relevant information?

5

A.

6

the appropriate questions on the left, and then they're filling

7

out the information for each visit as they go forward.

8

Q.

9

Exhibit 1A, Page 13, which is, I'll represent to you, from the

Yes, it does.

Okay.

Does it contain the

It looks like they've got -- preformatted

I'd like to show you the next exhibit, Government's

10

same chart.

Do you see evidence of whether or not Dr. Naum

11

reviewed the patient visit prior to the charge date, 8-17, and

12

made recommendations?

13

A.

It looks like there is the note there dated 7-21, ‘15.

14

Q.

And what did Dr. Naum authorize Nurse Jackson to do with

15

respect to -- well, authorize the treating nurse to do with

16

respect to the dose?

17

A.

It says on the fourth line down, "Continue present dose."

18

Q.

Okay.

19

Jackson follow that instruction?

20

A.

Correct.

21

Q.

And was this prescription within the bounds of

22

professional practice, Doctor?

23

A.

24

medication.

25

Q.

And based on looking on the prior chart, did Nurse

Correct.
Okay.

She did.

There's a legitimate medical reason for the

And moving on to Count 25.

Same patient, Wendy

Stacy Harlow, CVR-M/CM/RVR-M/RCP/RBC
Post Office Box 969 Clarksburg, WV 26302-0969 (304)623-7154

A68

32

1

Eddy, date of treatment 3/28/16.

2

the patient was receiving on 3/28/2016?

3

A.

4

day.

5

Q.

6

date -- and this is Government's Exhibit 1A, Page 7 -- of

7

2/1/2016.

8

A.

2/1/16, yes.

9

Q.

Yes.

Yes.
Okay.

And do you see the dose that

Now she was down to a half a film, four milligrams a
And I'd like to draw your attention to the visit
Do you see that?
And does Dr. Naum write any instructions after

10

reviewing that patient chart and signing it?

11

A.

12

other things, the urine drug screen and the prescription drug

13

monitoring program review.

14

Q.

15

follow the instruction that Dr. Naum gave to wean the patient?

16

A.

She did not.

17

Q.

All right.

18

the bounds of professional practice?

19

A.

20

of professional practice.

21

Q.

And why is that your opinion?

22

A.

Because a -- the mere fact that there is a mistake in

23

writing a prescription doesn't make it an illegitimate

24

prescription.

25

example.

As of 2/1/16, he said, "Needs to wean," and requests some

Now the following visit, 3/29/2016, did Nurse Jackson

No.

Was that prescription, the 3 -- 2/29 outside

It's a nursing error, but it's not outside the bounds

I'm trying to think if this would be a good

What I need to do if I write a controlled substance

Stacy Harlow, CVR-M/CM/RVR-M/RCP/RBC
Post Office Box 969 Clarksburg, WV 26302-0969 (304)623-7154

A69

33

1

is write the date and name on it.

2

write the date for some reason, that would be an error, in this

3

case, on my part, but it wouldn't make it an illegitimate

4

prescription.

5

the course of medical practice, and there's a reason for the

6

prescription.

7

Q.

8

practice," what makes something like this in the course of

9

professional practice?

Okay.

And if I were to forget to

As long as it met the other criteria, it was in

And when you say "in the course of professional

10

A.

That you're seeing the patient.

You've examined them.

11

You've come up with a diagnosis.

12

appropriate to treat that diagnosis.

13

Q.

Was that done in this case?

14

A.

It was.

15

Q.

Okay.

16

follow Dr. Naum's instructions?

17

A.

She does.

18

Q.

And what does she do?

19

A.

She's decreased from a three-quarter film, six milligrams,

20

to one-half, four milligrams.

21

Q.

22

of medical practice?

23

A.

Yes.

24

Q.

And why is that?

25

A.

Because the order had been written to decrease.

That this medication is

Now, the next visit, does Nurse Jackson ultimately

In your opinion, was that prescription within the bounds

She had

Stacy Harlow, CVR-M/CM/RVR-M/RCP/RBC
Post Office Box 969 Clarksburg, WV 26302-0969 (304)623-7154

A70

34

1

missed it on the previous, and she's finally come into

2

compliance.

3

Q.

4

disobeys or makes a mistake and violates those instructions?

5

A.

6

treatment program, you counsel and request that they not do

7

that.

8

the physician's orders.

9

Q.

Now, what should a physician do when the nurse either
The same thing you do when a patient backslides in a
It's not appropriate for the nurse to not be following

Would it have been required for Dr. Naum to quit or leave

10

the practice or anything like that?

11

A.

12

good people who were seeking help if he were to do that.

13

Q.

14

a new patient, Natascha Sabo.

15

A.

I did.

16

Q.

And did you see evidence of intake assessment and

17

monitoring in this case?

18

A.

I did.

19

Q.

Did you see a diagnosis of opiate use disorder?

20

A.

There was -- yes.

21

Q.

Did you see the same things for patient Wendy Eddy?

22

A.

Yes.

23

Q.

Okay.

24

see Dr. Naum's handwriting in the patient charts?

25

A.

Oh, boy.

I think that would have really harmed a lot of

I'd like to move to the next count, Count 26.

And this is

Did you review her chart?

Now, in this case, did you have an opportunity to

I did.
Stacy Harlow, CVR-M/CM/RVR-M/RCP/RBC
Post Office Box 969 Clarksburg, WV 26302-0969 (304)623-7154

A71

35

1

Q.

Did you have an opportunity to see the handwriting of

2

another doctor in the patient charts?

3

A.

Just this one instance of it.

4

Q.

Okay.

5

what's been marked as Government's Exhibit 5A, Page 2.

6

right-hand side, is that what you're referring to?

7

A.

That is.

8

Q.

Okay.

9

handwriting, or somebody else's?

And when you say, "just this one," I'm showing you
On the

And do you recognize that handwriting as Dr. Naum's

10

A.

On the left is Dr. Naum.

11

Q.

Okay.

12

Page 1.

13

this patient was assigned to Dr. Brizuela, somebody other than

14

Dr. Naum, and a prescription was called in but applied to Dr.

15

Naum's name.

16

outside the bounds of professional practice?

17

A.

18

prescription was appropriately prescribed.

19

that there was an error in the transmission of the prescription

20

and that Dr. --

21

On the right is someone else's.

Now, I'm going to show you Government's Exhibit 6,

I want you to assume, for the purposes of this, that

Would that prescription for that patient be

No, it wouldn't.

It was -- a diagnosis was made.

MR. MCWILLIAMS:

22

characterization.

23

error or whether --

A

The problem here is

Your Honor, I object to that

He doesn't know that the pharmacy made an

24

THE COURT:

Sustained.

25

MR. MCWILLIAMS:

-- Nurse Jackson was doing what she

Stacy Harlow, CVR-M/CM/RVR-M/RCP/RBC
Post Office Box 969 Clarksburg, WV 26302-0969 (304)623-7154

A72

36

1

was told to do.

2

MR. CHAPMAN:

3

THE COURT:

4

MR. CHAPMAN:

5

BY MR. CHAPMAN:

6

Q.

7
8

I agree.
Sustained.
Understand, Your Honor.

Thank you.

Let's assume for the purposes of this -THE COURT:

Ladies and gentlemen, I've stricken the

answer of the doctor to that last question.

9

MR. CHAPMAN:

Okay.

10

BY MR. CHAPMAN:

11

Q.

12

well, I'll just move on from that.

13

Let's look at Count 27.

Let's assume for the purposes of this that this wasn't -September 4th, 2015.

14

Again, patient N.S.

15

this patient or evidence of a prescription issued on the date

16

of treatment, 9/4/2015?

17

A.

18

have been 12 milligrams.

19

Q.

20

the right there?

21

A.

That is correct.

22

Q.

All right.

23

A.

Same dose.

24

Q.

And do you see evidence that Dr. Naum reviewed this

25

patient's care and signed the chart for every visit?

Correct.

Now, do you see a prescription issued to

She was given one-and-a-half films, which would

And are you looking at Government's Exhibit 5A, Page 8, on

And what was she receiving the prior visit?

Stacy Harlow, CVR-M/CM/RVR-M/RCP/RBC
Post Office Box 969 Clarksburg, WV 26302-0969 (304)623-7154

A73

37

1

A.

Every visit that has a signature.

2

Q.

Okay.

3

visit.

4

8/11/2015.

5

this patient?

6

A.

Continue present dose.

7

Q.

And based on your review of Page 8 here, did Nurse Jackson

8

continue the present dose for this patient?

9

A.

She did.

10

Q.

And was this prescription written outside the bounds of

11

professional practice?

12

A.

No.

13

Q.

Why do you say that?

14

A.

Again, there's a legitimate medical need --

15

I'd like to show you the note associated with that

I want you to draw your attention to the note on
What did Dr. Naum order Nurse Jackson to do for

MR. MCWILLIAMS:

Your Honor, we've argued about that

16

standard, legitimate medical need.

17

we're on the second prong.

18

THE COURT:

19

MR. CHAPMAN:

20
21

There's a two-prong, and

Yes.
I understand the standard is different.

I think is important, though, to analyze whether or not -THE COURT:

I don't think the question of whether it

22

was for a legitimate medical practice has ever been raised by

23

the Government.

24

not an issue in this case and, therefore, is not helpful to the

25

jury in determining the issues in the case.

It's not part of the case-in-chief.

And it is

So his opinion is,

Stacy Harlow, CVR-M/CM/RVR-M/RCP/RBC
Post Office Box 969 Clarksburg, WV 26302-0969 (304)623-7154

A74

38

1

it's not outside the bounds of medical practice.

2

why.

3

BY MR. CHAPMAN:

4

Q.

5

patient?

6

A.

Yes.

7

Q.

And what evidence do you see of that?

8

A.

The -- this is Natascha -- this is the one where the

9

initial visit was seen by the other physician.

He's explaining.

You asked him

And that's that.

Was a physician-patient relationship established for this

And the other

10

physician came up with a diagnosis.

Dr. Naum came in, assumed

11

care.

12

was carried out by the delegated RN.

13

Q.

14

records of other practitioners who have conducted patient

15

treatment?

16

A.

Yes.

17

Q.

And is it sufficient for an office-based treatment program

18

provider to rely on the diagnosis and assessment of another

19

practitioner to determine if there was a physician-patient

20

relationship established?

21

A.

As long as that other practitioner is a physician.

22

Q.

Okay.

23

9/2/2016, I'd like to discuss, are you aware of whether or not

24

this patient, Natascha Sabo, left the practice and came back?

25

A.

A diagnosis had already been made.

And the ongoing care

Now, is it permissible for a physician to rely on the

And the final count, Count 28, date of visit,

My understanding is she did leave for a while then come
Stacy Harlow, CVR-M/CM/RVR-M/RCP/RBC
Post Office Box 969 Clarksburg, WV 26302-0969 (304)623-7154

A75

39

1

back.

2

Q.

3

back to the practice?

4

A.

5

that's a three-year criterion to be a new patient, versus a

6

follow-up visit.

7

Q.

8

to conduct when a patient either relapses or leaves for other

9

reasons but comes back to the practice?

Would she have been considered a new patient when she came
No.

Again, going back to the criteria I used earlier,

And what is -- what are the best practices for a physician

10

A.

Well, you're going to find out why they relapsed, where

11

they've been, what they've done, what the issues are.

12

know, have they gone back and started buying heroin on the

13

street?

14

their maintenance therapy?

15

left?

16

Q.

17

coming back?

18

A.

Yes.

19

Q.

And what were the reasons that the patient came back into

20

the practice?

21

A.

22

to get Suboxone on the street than it was to get it in the

23

program.

24

Q.

25

to evaluating a patient for readmission?

You

Are they getting Suboxone, self-treating, maintaining
What are the reasons for having

What are the reasons for coming back?
Did the physician in this case explore the reasons for

The quote here is she realized it wasn't cheaper for her

Did that satisfy the best practices that you would apply

Stacy Harlow, CVR-M/CM/RVR-M/RCP/RBC
Post Office Box 969 Clarksburg, WV 26302-0969 (304)623-7154

A76

40

1

A.

I think so, coupled with urine drug screens and

2

prescription drug monitoring programs.

3

Q.

4

prescription on 9/2/2016.

5

was receiving on that visit?

6

A.

Again, one-and-a-half films.

7

Q.

Okay.

8

prior visit?

9

A.

The same visit -- same dose.

10

Q.

Do you see an indication that Dr. Naum reviewed and signed

11

the chart on the prior visit?

12

A.

I do.

13

Q.

And prior to 9/2/2016, did Dr. Naum instruct Nurse Jackson

14

to do anything with respect to calling in a dose for Suboxone?

15

A.

The -- you mean based on the 8/12/16 visit?

16

Q.

Yes.

17

21.

18

A.

19

continue the present dose.

20

Q.

21

prescription for the same dose of Suboxone?

22

A.

Yes.

23

Q.

And was that prescription issued outside the bounds of

24

professional practice?

25

A.

Okay.

Yeah.
Okay.

And I’d like to draw your attention to the
And do you see what dose the patient

And what was the dose the patient was receiving the

I'm going to draw your attention to Exhibit 5A, Page
And, again, here he's providing the order to
Is that order sufficient for a nurse to phone in a

No.
Stacy Harlow, CVR-M/CM/RVR-M/RCP/RBC
Post Office Box 969 Clarksburg, WV 26302-0969 (304)623-7154

A77

41

1

Q.

And why not?

2

A.

Again, it was properly ordered and transmitted legally by

3

the nurse to the pharmacy.

4

Q.

5

receiving urine drug screens?

6

A.

Yes.

7

Q.

In fact, on this visit, was she receiving a urine drug

8

screen?

9

A.

Did you see indications in this file that the patient was

The urine drug screen on this visit is listed as being

10

positive for Suboxone.

11

Q.

12

on 9/2/2016, the patient in this case had indications of

13

noncompliance such as some other use of a controlled substance

14

or other aberrant behavior.

15

is required of a physician for that visit?

16

A.

17

there would need to be counseling.

18

Q.

19

patient was receiving?

20

A.

No.

21

Q.

Why not?

22

A.

That wouldn't accomplish anything.

23

one, won't treat cocaine addiction.

We're still treating the

24

opioid addiction with the Suboxone.

Secondly, we've got to

25

encourage the patient to stay involved with the counseling and

Okay.

Now, let's assume, for the purposes of this, that

Is the response -- what response

Again, let's say hypothetically cocaine were present,
Would it be an automatic reduction in the amount that the

The Suboxone won’t --

Stacy Harlow, CVR-M/CM/RVR-M/RCP/RBC
Post Office Box 969 Clarksburg, WV 26302-0969 (304)623-7154

A78

42

1

the medication to keep her off of -- to keep her from

2

backsliding or getting illicit drugs.

3

Q.

4

this patient, what does reducing a dose of Suboxone do to a

5

patient who's not ready for weaning?

6

A.

It would lead to withdrawal and/or craving.

7

Q.

Are you familiar with what a pill count is, Doctor?

8

A.

I am.

9

Q.

And what is normally done during a pill count?

10

A.

You're checking to see if the patient has a -- the

11

appropriate number of pills that they bring in.

12

I give someone 90 norco for the month and they come in two-

13

thirds of the way through the month, they should have two-

14

thirds of 90, or 30 pills left.

15

Q.

16

or defeat the purpose of a pill count?

17

A.

18

brand of norco, they just get that and bring it in, or another

19

brand.

20

getting.

21

Q.

22

defeat it?

23

A.

24

any number of ways.

25

useful tool.

What does reducing -- generally speaking, not related to

Let's say that

Are there ways that a patient can get around a pill count
Very easily.

If they know someone who is taking the same

Because I don't know what brand of norco they're

What about for Suboxone, are there ways that patients can
Same thing.

They can just get the Suboxone -- the films
It’s not a useful -- I don't find it a

Stacy Harlow, CVR-M/CM/RVR-M/RCP/RBC
Post Office Box 969 Clarksburg, WV 26302-0969 (304)623-7154

A79

43

1

Q.

If a physician doesn't do pill counts or doesn't do them

2

at a regular interval, would that render subsequent

3

prescriptions outside the bounds of professional practice?

4

A.

5

absolutely does not.

6

Q.

7

question that Dr. Naum, instead of doing pill counts, split

8

prescriptions so that a patient might be seen on a monthly

9

basis but would only receive two two-week prescriptions.

No.

Given that the pill counts are not effective, then it

Now, I want you to assume for the purposes of this

Is

10

that an appropriate remedy, as opposed to pill counts?

11

A.

12

you're decreasing the risk of -- really what you're concerned

13

with is either overconsumption or diversion.

14

this case it's more an issue of diversion, selling the films.

15

So that's a very appropriate response.

16

Q.

17

Naum's prescriptions and his practices at Advance within the

18

bounds of medical practice?

19

A.

They were.

20

Q.

Thank you.

Surely.

That is -- by giving a shorter prescription,
And I think in

And based on your review of the charts, Doctor, were Dr.

21

THE COURT:

22

MR. CHAPMAN:

23

THE COURT:

24

that's what you meant.

25

MR. CHAPMAN:

Cross-examination?
No further questions, Your Honor.
Oh, when you said "thank you," I assumed
Oh, I was just checking with Ms.

Stacy Harlow, CVR-M/CM/RVR-M/RCP/RBC
Post Office Box 969 Clarksburg, WV 26302-0969 (304)623-7154

A80

44

1

McCardle.

2

THE COURT:

3

Oh, okay.

Then cross-examination.

4

No further questions.

Thank you.

CROSS-EXAMINATION

5

BY MR. MCWILLIAMS:

6

Q.

7

used to call in a prescription for Suboxone for a patient

8

you've never seen?

9

A.

For patients I've never seen?

10

Q.

Yes.

11

A.

I assume zero.

12

Q.

Why is that?

13

A.

I'm sorry?

14

Q.

Why is that?

15

A.

Oh, well, there's got to be -- again, we're speaking in

16

terms of the patients need to be -- legitimate medical practice

17

issue we were talking about earlier.

18

seen by a provider and a diagnosis made to justify the

19

medication.

20

Q.

21

three patient files, correct?

22

A.

Correct.

23

Q.

And the two that we're talking about here would be Wendy

24

Eddy and Natascha Sabo; do you understand that?

25

A.

Dr. Helm, how often do you allow your DEA number to be

The patient has to be

Now, in preparation for your testimony, you reviewed the

Correct -Stacy Harlow, CVR-M/CM/RVR-M/RCP/RBC
Post Office Box 969 Clarksburg, WV 26302-0969 (304)623-7154

A81

45

1

Q.

Now, in your practice, in California, how do you use a

2

registered nurse?

3

A.

4

would be -- you know, I can answer it hypothetically.

5

Q.

Well, what do you use, a nurse practitioner?

6

A.

A nurse practitioner.

7

Q.

But there is a difference in what a nurse practitioner can

8

do versus a registered nurse?

9

A.

I don't have a registered nurse in my practice.

Surely.

So that

Again, the nurse practitioner can prescribe

10

medications under her license, where a registered nurse cannot.

11

Q.

12

reviewed, for example, witness interviews, correct?

13

A.

I have not, no.

14

Q.

You have not reviewed grand jury testimony, for example?

15

A.

No.

16

Q.

In your practice, do you take insurance?

17

A.

I do.

18

Q.

Do you take Medicaid?

19

A.

I do not.

20

part of that particular entity.

21

Q.

Do you do pill counts at all?

22

A.

On rare occasion.

23

Q.

How about urine screens?

24

A.

Very frequently.

25

Q.

And are these urine screens -- is the collection of the

Now, again, in preparation for your testimony, you've not

Medicaid is an HMO where I am, and I'm not a

Stacy Harlow, CVR-M/CM/RVR-M/RCP/RBC
Post Office Box 969 Clarksburg, WV 26302-0969 (304)623-7154

A82

46

1

urine supervised?

2

A.

3

but I'm comfortable with that because we're looking for the

4

presence of a drug rather than the absence.

5

Q.

6

you said you always do, right?

7

A.

8

does an awful lot of the follow-ups.

9

Q.

We do not have someone in the room with the individual,

When you see a patient on the initial visit -- and I think
Myself or my nurse practitioner.
Okay.

My nurse practitioner

But, again, a nurse practitioner can do a whole lot

10

more than a registered nurse can?

11

A.

That's a correct statement.

12

Q.

When you see a patient for the first time, tell us what

13

the routine is for you.

14

A.

15

the entire intake myself.

16

initial history and physical to someone else.

17

get the history and do the exam personally, and then review or

18

order whatever further testing or information we need.

19

Q.

20

not the whole office visit, but your interaction with the

21

patient, how long would you say that first interaction is?

22

A.

23

thing.

24

minutes.

25

Q.

I think I'm different from a lot of doctors in that I do
Many people have -- delegate the
I sit down and

About how long would you say your face-to-face contact --

Again, I'm much higher than most because I do the whole
So my first interaction would be anywhere from 30 to 45
That's atypical.

Do you think you can accomplish enough in a face-to-face
Stacy Harlow, CVR-M/CM/RVR-M/RCP/RBC
Post Office Box 969 Clarksburg, WV 26302-0969 (304)623-7154

A83

47

1

visit that would last a little over three minutes?

2

A.

3

earlier.

4

coming in to do an exam, you probably can do it in that time.

5

Q.

But you don't?

6

A.

I personally don't.

7

Q.

Now, the diagnosis of opioid use disorder, that's a

8

recognized medical diagnosis, correct?

9

A.

That is correct.

10

Q.

And who makes that diagnosis in your practice?

11

A.

Well, I do or, you know, the nurse practitioner can also.

12

Q.

And that's permissible for a nurse practitioner to make

13

that medical diagnosis, correct?

14

A.

That is correct.

15

Q.

It's not correct for a registered nurse to make that

16

diagnosis, is it?

17

A.

18

going back to the SAMHSA documents, they say that the nurse can

19

do the initial exam -- an RN, rather than a nurse practitioner.

20

And, again, as we mentioned, the doctor has to provide the

21

medication.

22

they're silent on who actually makes the diagnosis.

23

that's a good question.

24
25

If the -- again, that goes to the point I was making
If the initial history has been obtained and you're

That's a good question.

I -- my understanding of the --

My recollection, and I could be wrong, is that

MR. MCWILLIAMS:

I would --

Could we look at Government Exhibit

5, please?
Stacy Harlow, CVR-M/CM/RVR-M/RCP/RBC
Post Office Box 969 Clarksburg, WV 26302-0969 (304)623-7154

A84

48

1

BY MR. MCWILLIAMS:

2

Q.

3

records.

4

first visit.

5

A.

6

testimony, no.

7

Q.

8

the diagnosis and call in a prescription, wouldn't it?

9

would be impermissible?

This is a summary chart of Natascha Sabo's medical
And she testified that she didn't see a doctor on the
Are you aware of that?

I don't know -- you know, but since I don't know her
It would be impermissible for a registered nurse to make
That

10

A.

There has to be the physician involved, definitely, to

11

make the prescription that would be called in.

12

Q.

13

September of 2014 up through November 2015, that's over a year

14

-- do you realize this patient never saw a doctor for that

15

year?

16

A.

The question is, do I think it's good practice?

17

Q.

Yes.

18

A.

I think that in the confines of opioid addiction treatment

19

-- and recall that treatment of opioid addiction and all other

20

medicines have been bifurcated by Congress so that opioid

21

addiction has been delegated off to SAMHSA.

22

the nurses to do the follow-up in the realm of opioid

23

addiction.

24

treatment of opioid addiction, yes, it is acceptable.

25

Q.

And then, you think it's a good practice that from

And SAMHSA allows

So I would say in this context of opioid --

So you think it's acceptable, then, that a nurse will make
Stacy Harlow, CVR-M/CM/RVR-M/RCP/RBC
Post Office Box 969 Clarksburg, WV 26302-0969 (304)623-7154

A85

49

1

the diagnosis and see the patient, and for a year, the doctor

2

can just sign off on a piece of paperwork saying I've read it?

3

MR. CHAPMAN:

4

THE COURT:

5

THE WITNESS:

Objection.

Asked and answered.

Overruled.
I think that, again, within the

6

confines of opioid addiction, that is consistent with SAMHSA

7

guidance.

8

BY MR. MCWILLIAMS:

9

Q.

Do you do it?

10

A.

Well, I don't have a -- I have a nurse practitioner, so

11

it's not applicable to my practice, and so they would either

12

see myself or the nurse practitioner.

13

MR. MCWILLIAMS:

Let's look at Government Exhibit 5A,

14

page 3103, please.

15

BY MR. MCWILLIAMS:

16

Q.

17

handwriting -- where it says, "Physician Comments," do you

18

realize that was done after the fact; the patient had already

19

been there and gone when that was written down?

Doctor, do you realize that the evidence is that this

20

MR. CHAPMAN:

21

THE COURT:

22

THE WITNESS:

23

Counsel.

24

BY MR. MCWILLIAMS:

25

Q.

Objection.

Misstates the evidence.

The jury will determine.

Overruled.

I don't -- I guess I'm confused,

You're saying that --

Well, the date at the top is May 10, 2016, right?
Stacy Harlow, CVR-M/CM/RVR-M/RCP/RBC
Post Office Box 969 Clarksburg, WV 26302-0969 (304)623-7154

A86

50

1

A.

Correct.

2

Q.

And the evidence is that the defendant was on a cruise on

3

that day.

4

A.

Oh, okay.

5

Q.

So I'm just asking you, did you realize that where it says

6

"Readmit," that that was not written on 5/10/16?

7

A.

8

couldn't have been written on that day.

9

Q.

Well, if the defendant was on a cruise that day, then it
And I'm asking you, did you know that before I just told

10

you?

11

A.

12

was a time were a patient came who had been on a -- and was

13

readmitted when Dr. Naum was on a cruise.

14

I didn't recognize the date, but I did understand there

MR. MCWILLIAMS:

15

1, please?

16

BY MR. MCWILLIAMS:

17

Q.

18

Could we look at Government Exhibit

Now, this would be Wendy Eddy.
MR. MCWILLIAMS:

Again, a summary.

Could we blow that up a little bit?

19

BY MR. MCWILLIAMS:

20

Q.

21

the doctor.

22

A.

Correct.

23

Q.

And you're okay with that?

24

A.

Again, within the confines of specifically treating opioid

25

abuse, that's consistent with the SAMHSA guidelines, as I

And Ms. Eddy went over a year and a half without seeing
Are you aware of that?
That's -- yes.

Stacy Harlow, CVR-M/CM/RVR-M/RCP/RBC
Post Office Box 969 Clarksburg, WV 26302-0969 (304)623-7154

A87

51

1

understand them.

2

Q.

3

decisions to decrease the medicine, the dose, for a patient the

4

doctor had not seen.

5

A.

Those are the, I'll call it, lavender bars?

6

Q.

Yes.

7

A.

If she decreased the dose without a physician's order,

8

then she's not in compliance with the SAMHSA guidelines.

9

Q.

Now, you can see here that Nurse Jackson made several
Do you understand that to be the case?

And when the doctor comes in and sees this had occurred

10

the week before, for example, what should the doctor do?

11

A.

12

but he needs to counsel the nurse to not do it.

13

know, it's outside -- it's not consistent with the regulations.

14

Q.

15

many times this has to happen before the doctor says, "Nurse

16

Jackson, I'm afraid I'm going to have to take my DEA number and

17

go home"?

18

A.

19

nurse versus leaving these patients who are receiving the

20

opioid treatment in the lurch.

21

between the two?

22

these patients care.

23

following, being unable to, unwilling, whatever, to follow

24

directions, then what's the greater harm, the nurse not

25

following directions or abandoning the patients who will then

Well, the dose has been decreased so he can't change that,
That's -- you

And, I take it, you don't have any opinion as to just how

What you're weighing there is the refusal to work with a
I mean, what's the balance

There is a real medical societal need to give
And if the nurse has four episodes of not

Stacy Harlow, CVR-M/CM/RVR-M/RCP/RBC
Post Office Box 969 Clarksburg, WV 26302-0969 (304)623-7154

A88

52

1

not have access to treatment of the opioid abuse disorder

2

they've got?

3

Q.

4

doctor can't go?

5

A.

6
7

Well, yes.

Okay.

I would agree to that.

MR. MCWILLIAMS:
Page 2158.

8
9

You would agree that there are bounds beyond which a

Could we pull up Exhibit 41, please?

And if we could, blow up the lower paragraph.

THE WITNESS:

Great.

Thank you.

BY MR. MCWILLIAMS:

10

Q.

11

it?

12

A.

13

appreciate that.

14

Q.

So it's the clinician?

15

A.

Well, it says "healthcare providers."

16

physician section of TAP 30?

17

Q.

18

So this really isn't silent on who makes the diagnosis, is
I said I didn't recall, and this refreshes my memory.

I

Thank you.
Is this under the

I'll have to get an answer for you.
I can't answer that question, Doctor.

But I can show you

19

that it says here, "And these criteria should be documented in

20

the patient record by the licensed clinician who establishes a

21

diagnosis."

22

A.

That would be the doctor, right?

I would agree.

I would read that as being the doctor.

23

MR. MCWILLIAMS:

24

THE COURT:

25

MR. CHAPMAN:

No further questions.

Any redirect?
May I have just one moment, Your Honor,

Stacy Harlow, CVR-M/CM/RVR-M/RCP/RBC
Post Office Box 969 Clarksburg, WV 26302-0969 (304)623-7154

A89

53

1

just to look over notes?

2

REDIRECT EXAMINATION

3

BY MR. CHAPMAN:

4

Q.

5

is N.S.'s summary chart.

I'm going to show you, Doctor, Government Exhibit 5, which

6

MR. CHAPMAN:

And can you please blow up the 5/15

7

date?

I guess just the range of dates around 5/17 so that we

8

can see a few days before and after.

9

BY MR. CHAPMAN:

10

Q.

11

readmitted.

12

clinic?

13

A.

My understanding is that he works on Tuesdays.

14

Q.

Okay.

15

not the patient came back on Tuesdays?

16

A.

She came back the following week on a Tuesday.

17

Q.

And did she come back another Tuesday after that?

18

A.

She did.

19

Q.

Okay.

20
21
22
23

Now, recall Natascha Sabo was the person who was
Do you know what day Dr. Naum worked at the

After the 5/10/2016 visit, do you see whether or

MR. CHAPMAN:
questions.

Your Honor, I have no further

Thank you.

THE COURT:

All right.

Are there any further questions for the witness?

24

MR. MCWILLIAMS:

25

THE COURT:

No, Your Honor.

All right.

The witness is excused.

Stacy Harlow, CVR-M/CM/RVR-M/RCP/RBC
Post Office Box 969 Clarksburg, WV 26302-0969 (304)623-7154

A90

54

1
2
3
4

Dr. Helm, you may step down, and you're excused as a
witness and free to go.
THE WITNESS:

Thank you, Your Honor.

(End of Excerpt.)

5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
Stacy Harlow, CVR-M/CM/RVR-M/RCP/RBC
Post Office Box 969 Clarksburg, WV 26302-0969 (304)623-7154

A91

55

1

CERTIFICATE

2
3

I, Stacy Harlow, Official Court Reporter of the United

4

States District Court for the Northern District of West

5

Virginia, Certified Verbatim Reporter-Master, Certificate of

6

Merit, Realtime Verbatim Reporter-Master, Registered CART

7

Provider, and Registered Broadcast Captioner, do hereby certify

8

that the foregoing is a true and correct transcript of the

9

proceedings had in the above-styled action as digitally

10
11

recorded and typographically transcribed by me.
I certify that the transcript fees and format comply with

12

those prescribed by the Court and the Judicial Conference of

13

the United States.

14

Given under my hand this 28th day of May, 2019.

15
16
17

_______/s/ Stacy Harlow________

18

Stacy Harlow, CVR-M, CM, RVR, RCP, RBC

19

Official Reporter, United States

20

District Court for the Northern

21

District of West Virginia

22
23
24
25
Stacy Harlow, CVR-M/CM/RVR-M/RCP/RBC
Post Office Box 969 Clarksburg, WV 26302-0969 (304)623-7154

A92

UNITED STATES’

to opioid treatment programs (“OTPs”) apply to this case.

treatment (“OBOT”) programs like the one at Advance Healthcare

A93

A94

“
”

“

”

“

A95

”

hould not be permitted to argue that they could

–

–

person to knowingly or intentionally distribute controlled substances “except as
authorized.” 21 U.S.C. §
822, which provides that “[p]ersons registered by the Attorney

with the other provisions of this subchapter.” 21 U.S.C. §

promulgated by the Attorney General provide that “a prescription for a controlled
effective only if it is ‘issued for a legitimate medical purpose
acting in the usual course of his professional practice.” 21 C.F.R. §

A96

“

” is defined as “

” 21 U.S.C. §

A97

21 U.S.C.S. § 802(21) (“

‘

’

”); W. Va.

–
–

A98

823(g)(G)(iii) (expanding “qualifying
practitioner” to include nurse practitioner or physician assistant who satisfies certain

considered “DATA waived,” that is, they are “waived” from the stringent registration and

A99

(“TIP 63: Medications for OUD”)
Technical Assistance Publication 30, Buprenorphine: A Guide for Nurses (“TAP
30: Nurses Guide”)
Office (“Model Policy”)

(“TIP 40: Clinical

: “Implementation of DATA

in 2002.”

A100

Guidelines”) (attached as E

19 (“Who can prescribe/o
s possessing federal waiver can prescribe and dispense . . .”);
21 (listing possible treatment setting for buprenorphine as “Office

”)

25 (“Only healthcare professionals with a federal waiver may prescribe

buprenorphine for the treatment of OUD.”);

14 (“Healthcare professionals with

eligible to apply for waivers after 24 hours of training.”).

A101

. at 5. And, in the section entitled “Buprenorphine and the Role of the Nurse,” the

“
” Ex.

A102

(“[E]

.”);
(“The statute itself provides that it is illegal for a non
–
thereof.”)

A103

governing OTPs apply to this case or that those regulations and guidelines allow

, which is entitled “Accreditation of
Opioid Treatment Programs.”

(“

‘

’

”).

A104

8.12 (“OTPs must provide

standards as a condition of certification.”). For example, §

8.12(h)’s express

A105

“supervis
of the licensed physician.”

of confusion is compounded by the defendants’ misstatement of what those regulations

the regulations governing OTPs apply to the defendants’ cond

A106

United States Attorney’s Office

A107

A108

A109

TIP 63

MEDICATIONS FOR OPIOID USE DISORDER

Treatment Improvement Protocol 63
For Healthcare and Addiction Professionals, Policymakers, Patients, and Families
This TIP reviews three Food and Drug Administration-approved medications for opioid use
disorder treatment—methadone, naltrexone, and buprenorphine—and the other strategies and
services needed to support people in recovery.

TIP Navigation
Executive Summary
For healthcare and addiction professionals, policymakers, patients, and families
Part 1: Introduction to Medications for Opioid Use Disorder Treatment
For healthcare and addiction professionals, policymakers, patients, and families
Part 2: Addressing Opioid Use Disorder in General Medical Settings
For healthcare professionals
Part 3: Pharmacotherapy for Opioid Use Disorder
For healthcare professionals
Part 4: Partnering Addiction Treatment Counselors With Clients and Healthcare Professionals
For healthcare and addiction professionals
Part 5: Resources Related to Medications for Opioid Use Disorder
For healthcare and addiction professionals, policymakers, patients, and families

A110

TIP 63

MEDICATIONS FOR OPIOID USE DISORDER

Contents
EXECUTIVE SUMMARY
Foreword . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ES-iii
Introduction . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ES-1
Overall Key Messages . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ES-1
Content Overview . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ES-3
Notes . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ES-6
TIP Development Participants . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ES-8
Publication Information . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ES-12

PART 1: AN INTRODUCTION TO MEDICATIONS FOR THE TREATMENT OF
OPIOID USE DISORDER
The Approach to OUD Care . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1-1
Overview of Medications for OUD . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1-3
Duration of Treatment With OUD Medication . . . . . . . . . . . . . . . . . . . . . . . . . . . 1-8
Treatment Settings . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1-9
Challenges to Expanding Access to OUD Medication . . . . . . . . . . . . . . . . . . . . 1-9
Resources . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1-10
Notes . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1-11

PART 2: ADDRESSING OPIOID USE DISORDER IN GENERAL MEDICAL
SETTINGS
Scope of the Problem . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2-1
Screening . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2-1
Assessment . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2-8
Treatment Planning or Referral . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2-17
Resources . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2-28
Appendix . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2-32
Notes . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2-39

ii

A111

MEDICATIONS FOR OPIOID USE DISORDER

TIP 63

PART 3: PHARMACOTHERAPY FOR OPIOID USE DISORDER
Pharmacotherapy for Opioid Use Disorder . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3-1
Chapter 3A: Overview of Pharmacotherapy for Opioid Use Disorder. . . . 3-5
Chapter 3B: Methadone. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3-15
Chapter 3C: Naltrexone . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3-35
Chapter 3D: Buprenorphine . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3-49
Chapter 3E: Medical Management Strategies for Patients
Taking OUD Medications in O ce-Based Settings . . . . . . . . . . . . . . . . . . . . . . 3-79
Chapter 3F: Medical Management of Patients Taking OUD
Medications in Hospital Settings . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3-99

PART 4: PARTNERING ADDICTION TREATMENT COUNSELORS WITH
CLIENTS AND HEALTHCARE PROFESSIONALS
Overview and Context . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4-1
Quick Guide to Medications . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4-12
Counselor–Prescriber Communications . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4-18
Creation of a Supportive Counseling Experience . . . . . . . . . . . . . . . . . . . . . . . 4-20
Other Common Counseling Concerns . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4-34
Notes . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4-37

PART 5: RESOURCES RELATED TO MEDICATIONS FOR OPIOID USE DISORDER
General Resources . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5-1
Resources for Counselors and Peer Providers . . . . . . . . . . . . . . . . . . . . . . . . . . 5-10
Resources for Clients and Families . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5-11
Provider Tools and Sample Forms . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5-17
Glossary of TIP Terminology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5-57
Notes . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5-60

iii

A112

This page intentionally left blank.

A113

TIP 63

MEDICATIONS FOR OPIOID USE DISORDER

Executive Summary
For Healthcare and Addiction Professionals, Policymakers, Patients, and Families
The Executive Summary of this Treatment Improvement Protocol provides an overview on the
use of the three Food and Drug Administration-approved medications used to treat opioid use
disorder—methadone, naltrexone, and buprenorphine—and the other strategies and services
needed to support recovery.

TIP Navigation

Executive Summary
For healthcare and addiction professionals, policymakers, patients, and families

Part 1: Introduction to Medications for Opioid Use Disorder Treatment
For healthcare and addiction professionals, policymakers, patients, and families
Part 2: Addressing Opioid Use Disorder in General Medical Settings
For healthcare professionals
Part 3: Pharmacotherapy for Opioid Use Disorder
For healthcare professionals
Part 4: Partnering Addiction Treatment Counselors With Clients and Healthcare Professionals
For healthcare and addiction professionals
Part 5: Resources Related to Medications for Opioid Use Disorder
For healthcare and addiction professionals, policymakers, patients, and families

A114

TIP 63

MEDICATIONS FOR OPIOID USE DISORDER—Executive Summary

EXECUTIVE SUMMARY
Foreword . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ES-iii
Introduction . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ES-1
Overall Key Messages . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ES-1
Content Overview . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ES-3
Notes . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ES-6
TIP Development Participants . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ES-8
Publication Information . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ES-12

ES-ii

A115

MEDICATIONS FOR OPIOID USE DISORDER—Executive Summary

TIP 63

Foreword
The Substance Abuse and Mental Health Services Administration (SAMHSA) is the U.S. Department of
Health and Human Services agency that leads public health efforts to advance the behavioral health
of the nation. SAMHSA’s mission is to reduce the impact of substance abuse and mental illness on
America’s communities.
The Treatment Improvement Protocol (TIP) series fulﬁlls SAMHSA’s mission by providing sciencebased best-practice guidance to the behavioral health ﬁeld. TIPs reﬂect careful consideration of all
relevant clinical and health service research, demonstrated experience, and implementation requirements. Select nonfederal clinical researchers, service providers, program administrators, and patient
advocates comprising each TIP’s consensus panel discuss these factors, offering input on the TIP’s
speciﬁc topic in their areas of expertise to reach consensus on best practices. Field reviewers then
assess draft content.
The talent, dedication, and hard work that TIP panelists and reviewers bring to this highly participatory
process have helped bridge the gap between the promise of research and the needs of practicing
clinicians and administrators to serve, in the most scientiﬁcally sound and effective ways, people in
need of behavioral health services. We are grateful to all who have joined with us to contribute to
advances in the behavioral health ﬁeld.

Elinore F. McCance-Katz, M.D., Ph.D.
Assistant Secretary for Mental Health and Substance Use
SAMHSA

A.

,
.

Director
Center for Substance
Abuse Treatment
SAMHSA

Frances M. Harding
Director
Center for Substance
Abuse Prevention
SAMHSA

Paolo del Vecchio,
M.S.W.
Director
Center for Mental
Health Services
SAMHSA

Daryl W. Kade, M.A.
Director
Center for Behavioral
Health Statistics and
Quality
SAMHSA

ES-iii

A116

This page intentionally left blank.

A117

TIP 63

MEDICATIONS FOR OPIOID USE DISORDER

Executive Summary
The goal of treatment for opioid addiction or opioid use disorder (OUD) is remission of the
disorder leading to lasting recovery. Recovery is a process of change through which individuals improve their health and wellness, live self-directed lives, and strive to reach their full
potential.1 This Treatment Improvement Protocol (TIP) reviews the use of the three Food
and Drug Administration (FDA)-approved medications used to treat OUD—methadone,
naltrexone, and buprenorphine—and the other strategies and services needed to support
recovery for people with OUD.

Introduction
Our nation faces a crisis of overdose deaths from
opioids, including heroin, illicit fentanyl, and
prescription opioids. These deaths represent a
mere fraction of the total number of Americans
harmed by opioid misuse and addiction. Many
Americans now suffer daily from a chronic
medical illness called “opioid addiction” or
OUD (see the Glossary in Part 5 of this TIP for
deﬁnitions). Healthcare professionals, treatment
providers, and policymakers have a responsibility
to expand access to evidence-based, effective
care for people with OUD.

(VWLPDWHG FRVW
RI WKH 23,2,'
(3,'(0,& ZDV

%,//,21
LQ

An expert panel developed the TIP’s content
based on a review of the literature and on their
extensive experience in the ﬁeld of addiction
treatment. Other professionals also generously
contributed their time and commitment to this
project.

$Q HVWLPDWHG

0

$0(5,&$16
KDYH 28' UHODWHG WR
RSLRLG SDLQNLOOHUV

. KDYH KHURLQ
UHODWHG 28'

The TIP is divided into parts so that readers can
easily ﬁnd the material they need. Part 1 is a
general introduction to providing medications
for OUD and issues related to providing that
treatment. Some readers may prefer to go directly
to those parts most relevant to their areas of
interest, but everyone is encouraged to read
Part 1 to establish a shared understanding of
key facts and issues covered in detail in this TIP.
Following is a summary of the TIP’s overall main
points and brief summaries of each of the ﬁve
TIP parts.

Overall Key Messages
Addiction is a chronic, treatable illness.
Opioid addiction, which generally corresponds
with moderate to severe forms of OUD, often
requires continuing care for effective treatment
rather than an episodic, acute-care treatment
approach.
ES-1

A118

TIP 63

Medications for Opioid Use Disorder

Opioid overdose caused

42,249 DEATHS
nationwide in 2016—
this exceeded the #
caused by motor vehicle
crashes.4,5

ﬁcacy in clinical medicine.

Some patients may beneﬁt fr

TIP deﬁnes, uses, and encourages pr

2.1 MILLION

e is no “one size ﬁts all” appr
Many people with OUD beneﬁt

people in the U.S.,
ages 12 and older,
had OUD involving

PRESCRIPTION
OPIOIDS, HEROIN,
or both in 2016.16

ES-2

A119

TIP 63

Executive Summary

OPIOID-RELATED

can beneﬁt fr

EMERGENCY

DEPARTMENT

visits nearly doubled
from 2005–2014.22

•
•
•
•

•

fective and cost beneﬁcial.

Content Overview

Part 1: Introduction to Medications for
Opioid Use Disorder Treatment

•

Only federally certiﬁed, accr

•
•

•
•

•
•

Part 2: Addressing Opioid Use Disorder in
General Medical Settings

•
•
•

ES-3

A120

TIP 63

Medications for Opioid Use Disorder

Part 3: Pharmacotherapy for Opioid Use
Disorder

2 3 , 2 , '

This part offers information and tools for healthcare professionals who prescribe, administer,
or dispense OUD medications or treat other
illnesses in patients who take these medications.
It provides guidance on the use of buprenorphine,
methadone, and naltrexone by healthcare
professionals in:

$'',&7,21
is linked with signi cant

025% ,',7< DQG
0 2 5 7$ / , 7 <
UHODWHG WR +,9 DQG
KHSDWLWLV &

•
•
•

+,9

General medical settings, including hospitals.
Ofﬁce-based opioid treatment settings.
Specialty addiction treatment programs,
including OTPs.

In Part 3, readers will learn that:

+HS &

•
•

In Part 2, readers will learn that:

•
•
•

•
•
•

•

All healthcare practices should screen for
alcohol, tobacco, and other substance misuse
(including opioid misuse).
Validated screening tools, symptom surveys,
and other resources are readily available; this
part lists many of them.
When patients screen positive for risk of harm
from substance use, practitioners should
assess them using tools that determine
whether substance use meets diagnostic
criteria for a substance use disorder (SUD).
Thorough assessment should address
patients’ medical, social, SUD, and family
histories.
Laboratory tests can inform treatment
planning.
Practitioners should develop treatment plans
or referral strategies (if onsite SUD treatment
is unavailable) for patients who need SUD
treatment.

•

•

ES-4

A121

OUD medications are safe and effective when
used appropriately.
OUD medications can help patients reduce or
stop illicit opioid use and improve their health
and functioning.
Pharmacotherapy should be considered for all
patients with OUD. Opioid pharmacotherapies should be reserved for those with moderate-to-severe OUD with physical dependence.
Patients with OUD should be informed of
the risks and beneﬁts of pharmacotherapy,
treatment without medication, and no
treatment.
Patients should be advised on where and how
to get treatment with OUD medication.

23,2,' 5(/$7('
LQSDWLHQW KRVSLWDO VWD\V

,1&5($6('
QDWLRQDOO\IURP

TIP 63

Executive Summary

•

Doses and schedules of pharmacotherapy
must be individualized.

23,2,' $'',&7,21
LV OLQNHG ZLWK KLJK UDWHV RI

Part 4: Partnering Addiction Treatment
Counselors With Clients and Healthcare
Professionals

,//(*$/ $&7,9,7< DQG
,1&$5&(5$7,21

This part recommends ways that addiction
treatment counselors can collaborate with
healthcare professionals to support clientcentered, trauma-informed OUD treatment
and recovery. It also serves as a quick guide to
medications that can treat OUD and presents
strategies for clear communication with prescribers, creation of supportive environments
for clients who take OUD medication, and ways
to address other common counseling concerns
when working with this population.

Part 5: Resources Related to Medications
for Opioid Use Disorder
This part has a glossary and audience-segmented
resource lists to help medical and behavioral
health service providers better understand how
to use OUD medications with their patients and
to help patients better understand how OUD
medications work. It is for all interested readers.

In Part 4, readers will learn that:

•
•
•
•

•
•

•

Many patients taking OUD medication beneﬁt
from counseling as part of treatment.
Counselors play the same role for clients with
OUD who take medication as for clients with
any other SUD.
Counselors help clients recover by addressing
the challenges and consequences of addiction.
OUD is often a chronic illness requiring
ongoing communication among patients and
providers to ensure that patients fully beneﬁt
from both pharmacotherapy and psychosocial
treatment and support.
OUD medications are safe and effective when
prescribed and taken appropriately.
Medication is integral to recovery for many
people with OUD. Medication usually
produces better treatment outcomes than
outpatient treatment without medication.
Supportive counseling environments for
clients who take OUD medication can
promote treatment and help build recovery
capital.

In Part 5, readers will learn that:

•

•

Practice guidelines and decision-making tools
can help healthcare professionals with OUD
screening, assessment, diagnosis, treatment
planning, and referral.
Patient- and family-oriented resources provide
information about opioid addiction in general;
the role of medication, behavioral and supportive services, and mutual-help groups in
the treatment of OUD; how-tos for identifying
recovery support services; and how-tos for
locating medical and behavioral health service
providers who specialize in treating OUD or
other SUDs.

ES-5

A122

TIP 63

Medications for Opioid Use Disorder

Notes

12 Degenhardt, L., Randall, D., Hall, W., Law, M., Butler,
T., & Burns, L. (2009). Mortality among clients of a
state-wide opioid pharmacotherapy program over 20
years: Risk factors and lives saved. Drug and Alcohol
Dependence, 105(1–2), 9–15.

1

Substance Abuse and Mental Health Services
Administration. (2017). Recovery and recovery support
[Webpage]. Retrieved November 17, 2017, from
www.samhsa.gov/recovery

2

Council of Economic Advisers. (2017, November). The
underestimated cost of the opioid crisis. Washington,
DC: Executive Ofﬁce of the President of the United
States.

3

Center for Behavioral Health Statistics and Quality.
(2017). Key substance use and mental health
indicators in the United States: Results from the 2016
National Survey on Drug Use and Health. Rockville,
MD: Substance Abuse and Mental Health Services
Administration.

4

Centers for Disease Control and Prevention. (2017).
Drug overdose death data [Webpage]. Retreived
January 9, 2018, from www.cdc.gov/drugoverdose
/data/statedeaths.html

16 Center for Behavioral Health Statistics and Quality.
(2017). Key substance use and mental health
indicators in the United States: Results from the 2016
National Survey on Drug Use and Health. Rockville,
MD: Substance Abuse and Mental Health Services
Administration.

National Safety Council. (2017). NSC motor vehicle
fatality estimates. Retrieved October 31, 2017, from
www.nsc.org/NewsDocuments/2017/12-month
-estimates.pdf

6

Johnson, R. E., Chutuape, M. A., Strain, E. C.,
Walsh, S. L., Stitzer, M. L., & Bigelow, G. E. (2000). A
comparison of levomethadyl acetate, buprenorphine,
and methadone for opioid dependence. New England
Journal of Medicine, 343(18), 1290–1297.

7

Krupitsky, E., Nunes, E. V., Ling, W., Illeperuma, A.,
Gastfriend, D. R., & Silverman, B. L. (2011, April 30).
Injectable extended-release naltrexone for opioid
dependence: A double-blind, placebo-controlled,
multicentre randomised trial. Lancet, 377(9776),
1506–1513.

9

14 Schwartz, R. P., Gryczynski, J., O’Grady, K. E.,
Sharfstein, J. M., Warren, G., Olsen, Y., … Jaffe, J. H.
(2013). Opioid agonist treatments and heroin overdose
deaths in Baltimore, Maryland, 1995–2009. American
Journal of Public Health, 103(5), 917–922.
15 World Health Organization. (2009). Guidelines for the
psychosocially assisted pharmacological treatment of
opioid dependence. Geneva, Switzerland: WHO Press.

5

8

13 Gibson, A., Degenhardt, L., Mattick, R. P., Ali, R.,
White, J., & O’Brien, S. (2008). Exposure to opioid
maintenance treatment reduces long-term mortality.
Addiction, 103(3), 462–468.

Lee, J. D., Friedmann, P. D., Kinlock, T. W., Nunes, E.
V., Boney, T. Y., Hoskinson, R. A., Jr., … O’Brien, C. P.
(2016). Extended-release naltrexone to prevent opioid
relapse in criminal justice offenders. New England
Journal of Medicine, 374(13), 1232–1242.
Mattick, R. P., Breen, C., Kimber, J., & Davoli, M. (2009).
Methadone maintenance therapy versus no opioid
replacement therapy for opioid dependence. Cochrane
Database of Systematic Reviews, 2009(3), 1–19.

10 Mattick, R. P., Breen, C., Kimber, J., & Davoli, M.
(2014). Buprenorphine maintenance versus placebo
or methadone maintenance for opioid dependence.
Cochrane Database of Systematic Reviews, 2014(2),
1–84.
11 Auriacombe, M., Fatséas, M., Dubernet, J., Daulouède,
J. P., & Tignol, J. (2004). French ﬁeld experience with
buprenorphine. American Journal on Addictions,
13(Suppl. 1), S17–S28.

17 Department of Health and Human Services, Ofﬁce
of the Surgeon General. (2016). Facing addiction in
America: The Surgeon General’s report on alcohol,
drugs, and health. Washington, DC: Department of
Health and Human Services.
18 Jones, C. M., Campopiano, M., Baldwin, G., &
McCance-Katz, E. (2015). National and state treatment
need and capacity for opioid agonist medicationassisted treatment. American Journal of Public Health,
105(8), e55–e63.
19 Jones, C. M., Campopiano, M., Baldwin, G., &
McCance-Katz, E. (2015). National and state treatment
need and capacity for opioid agonist medicationassisted treatment. American Journal of Public Health,
105(8), e55–e63.
20 Cartwright, W. S. (2000). Cost-beneﬁt analysis of drug
treatment services: Review of the literature. Journal of
Mental Health Policy and Economics, 3(1), 11–26.
21 McCollister, K. E., & French, M. T. (2003). The relative
contribution of outcome domains in the total economic
beneﬁt of addiction interventions: A review of ﬁrst
ﬁndings. Addiction, 98(12), 1647–1659.
22 Weiss, A. J., Elixhauser, A., Barrett, M. L., Steiner, C. A.,
Bailey, M. K., & O’Malley, L. (2017, January). Opioidrelated inpatient stays and emergency department
visits by state, 2009–2014. HCUP Statistical Brief No.
219. Rockville, MD: Agency for Healthcare Research
and Quality.

ES-6

A123

TIP 63

Executive Summary

23 Wang, X., Zhang, T., & Ho, W. Z. (2011). Opioids
and HIV/HCV infection. Journal of Neuroimmune
Pharmacology, 6(4), 477–489.

25 World Health Organization. (2009). Guidelines for the
psychosocially assisted pharmacological treatment of
opioid dependence. Geneva, Switzerland: WHO Press.

24 Weiss, A. J., Elixhauser, A., Barrett, M. L., Steiner, C. A.,
Bailey, M. K., & O’Malley, L. (2017, January). Opioidrelated inpatient stays and emergency department
visits by state, 2009–2014. HCUP Statistical Brief No.
219. Rockville, MD: Agency for Healthcare Research
and Quality.

26 Soyka, M., Träder, A., Klotsche, J., Haberthür, A.,
Bühringer, G., Rehm, J., & Wittchen, H. U. (2012).
Criminal behavior in opioid-dependent patients before
and during maintenance therapy: 6-year follow-up of
a nationally representative cohort sample. Journal of
Forensic Sciences, 57(6), 1524–1530.

ES-7

A124

TIP 63

Medications for Opioid Use Disorder

TIP Development Participants
Expert Panelists
Each Treatment Improvement Protocol’s (TIP’s) expert panel is a group of primarily nonfederal
addiction-focused clinical, research, administrative, and recovery support experts with deep
knowledge of the TIP’s topic. With the Substance Abuse and Mental Health Services Administration’s
(SAMHSA’s) Knowledge Application Program (KAP) team, they develop each TIP via a consensusdriven, collaborative process that blends evidence-based, best, and promising practices with the
panel’s expertise and combined wealth of experience.
Michelle Lofwall, M.D., DFASAM
Medical Director
University of Kentucky College of Medicine—
Straus Clinic
Associate Professor of Behavioral Science and
Psychiatry
Faculty in UK Center on Drug and Alcohol
Research
Lexington, KY

TIP Chair
Robert P. Schwartz, M.D.—TIP Chair
Medical Director/Senior Research Scientist
Friends Research Institute
Baltimore, MD

TIP Expert Panelists
Sarah Church, Ph.D.
Executive Director
Monteﬁore Medical Center
Wellness Center at Waters Place
Bronx, NY

Shannon C. Miller, M.D., DFASAM, DFAPA
(ad hoc panelist)
Director, Addiction Services
Veterans Affairs Medical Center
Cincinnati, OH

Diana Coffa, M.D., FM
Associate Professor
University of California School of Medicine
Family Community Medicine
San Francisco, CA
Zwaantje Hamming, M.S.N., FNP-C, CARN-AP
La Familia Medical Center
Santa Fe, NM
Ron Jackson, M.S.W., LICSW
Afﬁliate Professor
University of Washington School of Social Work
Seattle, WA
Hendree Jones, Ph.D.
Professor and Executive Director
Horizons Program
Chapel Hill, NC

Charles Schauberger, M.D.
Obstetrician-Gynecologist
Gundersen Health System
La Crosse, WI
Joycelyn Woods, M.A., CMA
Executive Director
National Alliance for Medication Assisted
Recovery
New York, NY

SAMHSA’s TIP Champion
Melinda Campopiano von Klimo, M.D.
Senior Medical Advisor
Center for Substance Abuse Treatment
SAMHSA
Rockville, MD

ES-8

A125

TIP 63

Executive Summary

Scienti c Reviewers
This TIP’s scientiﬁc reviewers are among the foremost experts on the three medications discussed in
this TIP to treat opioid use disorder. Their role in the collaborative TIP development process was to
help the KAP team include current, accurate, and comprehensive information and instructions about
the use of each of these medications.

Buprenorphine

Methadone

David A. Fiellin, M.D.
Professor of Investigative Medicine and Public
Health
Yale University School of Medicine
New Haven, CT

Andrew J. Saxon, M.D.
Professor
Department of Psychiatry and Behavioral
Sciences
University of Washington School of Medicine
Director
Center of Excellence in Substance Abuse
Treatment and Education
Veterans Affairs Puget Sound Health Care System
Seattle, WA

Naltrexone
Joshua D. Lee, M.D., M.Sc.
Associate Professor
Department of Population Health
Division of General Medicine and Clinical
Innovation
NYU Langone Health
New York, NY

Field Reviewers
Field reviewers represent each TIP’s intended target audiences. They work in addiction, mental health,
primary care, and adjacent ﬁelds. Their direct front-line experience related to the TIP’s topic allows
them to provide valuable input on a TIP’s relevance, utility, accuracy, and accessibility.
William Bograkos, M.A., D.O., FACOEP,
FACOFP
Adjunct Professor
Center for Excellence in the Neurosciences
University of New England (UNE)
Clinical Professor of Medical Military Science
Family Practice and Emergency Medicine, UNE
Biddeford, ME
Meg Brunner, M.L.I.S.
Librarian, Alcohol and Drug Abuse Institute
University of Washington
Seattle, WA
Kathryn Cates-Wessell
Chief Executive Ofﬁcer
American Academy of Addiction Psychiatry
East Providence, RI

Mary Catlin, BSN, MPH, CIC
Public Health Nurse
Alcohol and Drug Abuse Institute
University of Washington
Seattle, WA
Kelly J. Clark, M.D., M.B.A., DFASAM
President
American Society of Addiction Medicine
Rockville, MD
Marc Fishman, M.D.
Assistant Professor
Johns Hopkins University School of Medicine,
Psychiatry/Behavioral Sciences Expert Team
Baltimore, MD

ES-9

A126

TIP 63

Medications for Opioid Use Disorder

Katherine Fornili, D.N.P., M.P.H., RN, CARN
Assistant Professor
University of Maryland School of Nursing
Baltimore, MD

Megan Marx-Varela, M.P.A.
Associate Director
The Joint Commission—Behavioral Health Care
Accreditation
Oakbrook Terrace, IL

Adam Gordon, M.D., M.P.H., FACP, FASAM,
CMRO
Associate Professor of Medicine and Advisory
Dean
University of Pittsburgh School of Medicine
Pittsburgh, PA

Alison Newman, MPH
Continuing Education Specialist
Alcohol and Drug Abuse Institute
University of Washington
Seattle, WA

Ellie Grossman, M.D.
Instructor in Medicine
Cambridge Health Alliance
Somerville Hospital Primary Care
Somerville, MA

David O’Gurek, M.D., FAAFP
Assistant Professor
Family and Community Medicine, Lewis Katz
School of Medicine
Temple University
Philadelphia, PA

Kyle Kampman, M.D.
Professor, Department of Psychiatry
Perelman School of Medicine
University of Pennsylvania
Center for Studies of Addiction
Philadelphia, PA
Janice Kauffman, M.P.H., RN, CAS, CADC-1
Vice President of Addiction Treatment Services,
North Charles Foundation, Inc.
Director of Addictions Consultation, Department
of Psychiatry, Cambridge Health Alliance
Assistant Professor of Psychiatry, Harvard
Medical School, the Cambridge Hospital
Cambridge, MA
Jason Kletter, Ph.D.
President, Bay Area Addiction Research and
Treatment
President, California Opioid Maintenance
Providers
San Francisco, CA
William J. Lorman, J.D., Ph.D., MSN,
PMHNP-BC, CARN-AP
Vice President and Chief Clinical Ofﬁcer
Livengrin Foundation, Inc.
Bensalem, PA

Yngvild Olsen, M.D., M.P.H, FASAM
Medical Director
Institutes for Behavior Resources, Inc./Recovery
Enhanced by Access to Comprehensive
Healthcare (REACH) Health Services
Baltimore, MD
Shawn A. Ryan, M.D., M.B.A., ABEM, FASAM
President & Chief Medical Ofﬁcer
BrightView
Cincinnati, OH
Paul Stasiewicz, Ph.D.
Senior Research Scientist
Research Institute on Addictions
State University of New York-Buffalo
Buffalo, NY
Kenneth Stoller, M.D.
Director
Broadway Center for Addiction at the Johns
Hopkins Hospital
Assistant Professor of Psychiatry and Behavioral
Sciences
Johns Hopkins University
Baltimore, MD

ES-10

A127

TIP 63

Executive Summary

Mishka Terplan, M.D., M.P.H., FACOG
Professor
Department of Obstetrics and Gynecology,
Division of General Obstetrics and Gynecology
Virginia Commonwealth University
Richmond, VA
Christopher Welsh, M.D.
Associate Professor of Psychiatry
University of Maryland Medical Center
Baltimore, MD

George E. Woody, M.D.
Professor of Psychiatry
Department of Psychiatry Center for Studies of
Addiction
University of Pennsylvania’s Perelman School of
Medicine
Philadelphia, PA

ES-11

A128

TIP 63

MEDICATIONS FOR OPIOID USE DISORDER—Executive Summary

Publication Information
Acknowledgments
This publication was prepared under contract number 270-14-0445 by the Knowledge Application
Program (KAP) for the Center for Substance Abuse Treatment, Substance Abuse and Mental Health
Services Administration (SAMHSA), U.S. Department of Health and Human Services (HHS). Suzanne
Wise served as the Contracting Ofﬁcer’s Representative, and Candi Byrne served as KAP Project
Coordinator.

Disclaimer
The views, opinions, and content expressed herein are the views of the consensus panel members and
do not necessarily reﬂect the ofﬁcial position of SAMHSA or HHS. No ofﬁcial support of or endorsement by SAMHSA or HHS for these opinions or for the instruments or resources described is intended
or should be inferred. The guidelines presented should not be considered substitutes for individualized client care and treatment decisions.

Public Domain Notice
All materials appearing in this publication except those taken directly from copyrighted sources are
in the public domain and may be reproduced or copied without permission from SAMHSA or the
authors. Citation of the source is appreciated. However, this publication may not be reproduced or
distributed for a fee without the speciﬁc, written authorization of the Ofﬁce of Communications,
SAMHSA, HHS.

Electronic Access and Copies of Publication
This publication may be ordered or downloaded from SAMHSA’s Publications Ordering webpage at
https://store.samhsa.gov. Or, please call SAMHSA at 1-877-SAMHSA-7 (1-877-726-4727) (English and
Español).

Recommended Citation
Substance Abuse and Mental Health Services Administration. Medications for Opioid Use Disorder.
Treatment Improvement Protocol (TIP) Series 63, Full Document. HHS Publication No. (SMA) 185063FULLDOC. Rockville, MD: Substance Abuse and Mental Health Services Administration, 2018.

Originating O ce
Quality Improvement and Workforce Development Branch, Division of Services Improvement, Center
for Substance Abuse Treatment, Substance Abuse and Mental Health Services Administration, 5600
Fishers Lane, Rockville, MD 20857.

Nondiscrimination Notice
SAMHSA complies with applicable federal civil rights laws and does not discriminate on the basis of
race, color, national origin, age, disability, or sex. SAMHSA cumple con las leyes federales de derechos
civiles aplicables y no discrimina por motivos de raza, color, nacionalidad, edad, discapacidad, o sexo.
HHS Publication No. (SMA) 18-5063FULLDOC
Published 2018

ES-12

A129

TIP 63

MEDICATIONS FOR OPIOID USE DISORDER

Part 1: Introduction to Medications for Opioid Use Disorder Treatment
For Healthcare and Addiction Professionals, Policymakers, Patients, and Families
Part 1 of this Treatment Improvement Protocol (TIP) will help readers understand key facts and
issues related to providing Food and Drug Administration (FDA)-approved medications used to
treat opioid use disorder (OUD).

TIP Navigation

KEY MESSAGES

Executive Summary
For healthcare and addiction professionals,
policymakers, patients, and families

Increasing opioid overdose deaths,
illicit opioid use, and prescription opioid
misuse constitute a public health crisis.
OUD medications reduce illicit opioid use,
retain people in treatment, and reduce
risk of opioid overdose death better than
treatment with placebo or no medication.

Part 1: Introduction to Medications for
Opioid Use Disorder Treatment
For healthcare and addiction
professionals, policymakers,
patients, and families

Only physicians, nurse practitioners,
and physician assistants can prescribe
buprenorphine for OUD. They must get a
federal waiver to do so.

Part 2: Addressing Opioid Use Disorder in
General Medical Settings
For healthcare professionals

Only federally certiﬁed, accredited opioid
treatment programs (OTPs) can dispense
methadone to treat OUD. OTPs can
administer and dispense buprenorphine
without a federal waiver.

Part 3: Pharmacotherapy for Opioid Use
Disorder
For healthcare professionals
Part 4: Partnering Addiction Treatment
Counselors With Clients and
Healthcare Professionals
For healthcare and addiction professionals
Part 5: Resources Related to Medications for
Opioid Use Disorder
For healthcare and addiction professionals,
policymakers, patients, and families

A130

Any prescriber can offer naltrexone.
OUD medication can be taken on a shortor long-term basis, including as part of
medically supervised withdrawal and as
maintenance treatment.
Patients taking medication for OUD are
considered to be in recovery.
Several barriers contribute to the
underuse of medication for OUD.

TIP 63

MEDICATIONS FOR OPIOID USE DISORDER—Part 1 of 5

PART 1: AN INTRODUCTION TO MEDICATIONS FOR THE TREATMENT OF
OPIOID USE DISORDER
The Approach to OUD Care . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1-1
Overview of Medications for OUD . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1-3
Duration of Treatment With OUD Medication . . . . . . . . . . . . . . . . . . . . . . . . . . . 1-8
Treatment Settings . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1-9
Challenges to Expanding Access to OUD Medication . . . . . . . . . . . . . . . . . . . . 1-9
Resources . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1-10
Notes . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1-11

1-ii

A131

TIP 63

MEDICATIONS FOR OPIOID USE DISORDER

2#46 QH

Introduction to Medications for Opioid Use
Disorder Treatment
Part 1 of this TIP offers a general introduction to providing medications to address opioid use
disorder (OUD). It is for all audiences. Part 1 will help readers understand key facts and issues
related to providing FDA-approved medications used to treat OUD. TIP Parts 2 through 5 cover
these issues in more detail.

The Approach to OUD Care
According to the Substance Abuse and Mental
Health Services Administration (SAMHSA)
and the National Institute on Drug Abuse,
addiction is a chronic, treatable illness. Opioid
addiction, which generally corresponds with
moderate to severe forms of OUD (Exhibit 1.1),
often requires continuing care for effective
treatment rather than an episodic, acute-care
treatment approach.
The World Health Organization’s (WHO’s)
principles of good care for chronic diseases
can guide OUD care:1
Develop a treatment partnership with patients.
Focus on patients’ concerns and priorities.
Support patient self-management of illness.
Use the ﬁve A’s at every visit (assess, advise,
agree, assist, and arrange).
Organize proactive follow-up.
Link patients to community resources/support.
Work as a clinical team.
Involve “expert patients,” peer educators,
and support staff in the health facility.
Ensure continuity of care.
Chronic care management is effective for many
long-term medical conditions, such as diabetes
and cardiovascular disease, and it can offer

(VWLPDWHG FRVW
RI WKH 23,2,'
(3,'(0,& ZDV

%,//,21
LQ
similar beneﬁts to patients with substance use
disorders (SUDs); for example, it can help them
stabilize, achieve remission of symptoms, and
establish and maintain recovery. Good continuing care also provides, and links to, other
medical, behavioral health, and community and
recovery support services.
A noticeable theme in chronic disease
management is patient-centered care.
Patient-centered care empowers patients
with information that helps them make better
treatment decisions with the healthcare professionals involved in their care. Patients should
receive information from their healthcare team
that will help them understand OUD and the
options for treating it, including treatment
with FDA-approved medications. Healthcare
professionals should also make patients aware
of available, appropriate recovery support and
behavioral health services.

1-1

A132

TIP 63

Medications for Opioid Use Disorder

EXHIBIT 1.1. Key Terms
Addiction: As deﬁned by the American Society of Addiction Medicine, “a primary, chronic disease of

brain reward, motivation, memory, and related circuitry.” 3 It is characterized by inability to consistently
abstain, impairment in behavioral control, craving, diminished recognition of signiﬁcant problems with
one’s behaviors and interpersonal relationships, and a dysfunctional emotional response. Like other
chronic diseases, addiction often involves cycles of relapse and remission. The Diagnostic and Statistical
Manual of Mental Disorders, Fifth Edition4 (DSM-5), does not use the term for diagnostic purposes, but it
commonly describes the more severe forms of OUD.

Medically supervised withdrawal (formerly called detoxiﬁcation): Using an opioid agonist (or an

alpha-2 adrenergic agonist if an opioid agonist is not available) in tapering doses or other medications to
help a patient discontinue illicit or prescription opioids.

Opioid misuse: The use of prescription opioids in any way other than as directed by a prescriber; the
use of any opioid in a manner, situation, amount, or frequency that can cause harm to self or others.5

Opioid receptor agonist: A substance that has an afﬁnity for and stimulates physiological activity

at cell receptors in the central nervous system (CNS) that are normally stimulated by opioids. Mu-opioid
receptor full agonists (e.g., methadone) bind to the mu-opioid receptor and produce actions similar to
those produced by the endogenous opioid beta-endorphin. Increasing the dose increases the effect.
Mu-opioid receptor partial agonists (e.g., buprenorphine) bind to the mu-opioid receptor. Unlike with full
agonists, increasing their dose may not produce additional effects once they have reached their maximal
effect. At low doses, partial agonists may produce effects similar to those of full agonists.

Opioid receptor antagonist: A substance that has afﬁnity for opioid receptors in the CNS without
producing the physiological effects of opioid agonists. Mu-opioid receptor antagonists (e.g., naltrexone)
can block the effects of exogenously administered opioids.

Opioids: All natural, synthetic, and semisynthetic substances that have effects similar to morphine.
They can be used as medications having such effects (e.g., methadone, buprenorphine, oxycodone).

Opioid treatment program (OTP): An accredited treatment program with SAMHSA certiﬁcation

and Drug Enforcement Administration registration to administer and dispense opioid agonist
medications that are approved by FDA to treat opioid addiction. Currently, these include methadone and
buprenorphine products. Other pharmacotherapies, such as naltrexone, may be provided but are not
subject to these regulations. OTPs must provide adequate medical, counseling, vocational, educational,
and other assessment and treatment services either onsite or by referral to an outside agency or
practitioner through a formal agreement.6

Opioid use disorder (OUD): Per DSM-5, a disorder characterized by loss of control of opioid use,

risky opioid use, impaired social functioning, tolerance, and withdrawal. Tolerance and withdrawal do not
count toward the diagnosis in people experiencing these symptoms when using opioids under appropriate
medical supervision. OUD covers a range of severity and replaces what DSM-IV termed “opioid abuse” and
“opioid dependence.” An OUD diagnosis is applicable to a person who uses opioids and experiences at least 2
of the 11 symptoms in a 12-month period. (See Exhibit 2.13 in Part 2 for full DSM-5 diagnostic criteria for OUD.)

Recovery: A process of change through which individuals improve their health and wellness, live selfdirected lives, and strive to reach their full potential. Even individuals with severe and chronic SUDs can,
with help, overcome their SUDs and regain health and social function. Although abstinence from all
substance misuse is a cardinal feature of a recovery lifestyle, it is not the only healthy, prosocial feature.
Patients taking FDA-approved medication to treat OUD can be considered in recovery.

Relapse: A process in which a person with OUD who has been in remission experiences a return of

symptoms or loss of remission. A relapse is different from a return to opioid use in that it involves more
than a single incident of use. Relapses occur over a period of time and can be interrupted. Relapse need
not be long lasting. The TIP uses relapse to describe relapse prevention, a common treatment modality.

Remission: A medical term meaning a disappearance of signs and symptoms of the disease.7 DSM-5
deﬁnes remission as present in people who previously met OUD criteria but no longer meet any OUD
criteria (with the possible exception of craving).8 Remission is an essential element of recovery.

Return to opioid use: One or more instances of opioid misuse without a return of symptoms of
OUD. A return to opioid use may lead to relapse.

1-2

A133

Part 1 of 5—Introduction to Medications for Opioid Use Disorder Treatment

As is true for patients undergoing treatment
for any chronic medical condition, patients
with OUD should have access to medical,
mental health, addiction counseling, and
recovery support services that they may
need to supplement treatment with medication.
Medical care should include preventive services
and disease management. Patients with OUD
who have mental disorders should have access
to mental health services.
Treatment and support services should reﬂect
each patient’s individual needs and preferences.
Some patients, particularly those with cooccurring disorders, may require these treatments
and services to achieve sustained remission and
recovery.
The words you use to describe both OUD and
an individual with OUD are powerful and can
reinforce prejudice, negative attitudes, and
discrimination. Negative attitudes held by the
public and healthcare professionals can deter
people from seeking treatment, make patients
leave treatment prematurely, and contribute to
worse treatment outcomes. The TIP expert panel
recommends that providers always use medical
terms when discussing SUDs (e.g., positive or
negative urine sample, not dirty or clean sample)
and use person-ﬁrst language (e.g., a person
with an SUD, not a user, alcoholic, or addict).
Exhibit 1.1 deﬁnes some key terms. A full
glossary is in Part 5 of this TIP.

TIP 63

Overview of Medications for OUD
There is no “one size ﬁts all” approach to
OUD treatment. Many people with OUD beneﬁt
from treatment with medication for varying
lengths of time, including lifelong treatment.
Ongoing outpatient medication treatment for
OUD is linked to better retention and outcomes
than treatment without medication. Even so,
some people stop using opioids on their own;
others recover through support groups or
specialty outpatient or residential treatment
with or without medication. Still, FDA-approved
medication should be considered and offered to
patients with OUD as part of their treatment.

Bene ts
The three FDA-approved medications used
to treat OUD improve patients’ health and
wellness by:
Reducing or eliminating withdrawal
symptoms: methadone, buprenorphine.
Blunting or blocking the effects of
illicit opioids: methadone, naltrexone,
buprenorphine.
Reducing or eliminating cravings to
use opioids: methadone, naltrexone,
buprenorphine.
See Exhibit 1.2 for further comparison between
these medications.

E ectiveness
RESOURCE ALERT
Shared Decision Making
SAMHSA’s shared decision-making tool is helpful
for educating patients and their families about
OUD. The information this tool provides can help
patients make informed decisions about their
care (http://archive.samhsa.gov/MAT-Decisions
-in-Recovery/Default.aspx).

The science demonstrating the effectiveness
of medication for OUD is strong. For example,
methadone, extended-release injectable naltrexone (XR-NTX), and buprenorphine were each
found to be more effective in reducing illicit
opioid use than no medication in randomized
clinical trials,9,10,11,12 which are the gold standard
for demonstrating efﬁcacy in clinical medicine.
Methadone and buprenorphine treatment
have also been associated with reduced risk of
overdose death.13,14,15,16,17

1-3

A134

TIP 63

Medications for Opioid Use Disorder

EXHIBIT 1.2. Comparison of Medications for OUD
PRESCRIBING
CONSIDERATIONS

METHADONE

NALTREXONE

BUPRENORPHINE

Mechanism of
Action at muOpioid Receptor

Agonist

Antagonist

Partial agonist

Phase of
Treatment

Medically
supervised
withdrawal,
maintenance

Prevention of relapse
to opioid dependence,
following medically
supervised withdrawal

Medically supervised withdrawal,
maintenance

Route of
Administration

Oral

Oral, intramuscular
extended-release

Sublingual, buccal, subdermal
implant, subcutaneous extended
release

Possible Adverse
Effects

Constipation,
hyperhidrosis,
respiratory
depression,
sedation, QT
prolongation,
sexual dysfunction,
severe hypotension
including
orthostatic
hypotension and
syncope, misuse
potential, neonatal
abstinence
syndrome

Nausea, anxiety,
insomnia, precipitated
opioid withdrawal,
hepatotoxicity,
vulnerability to opioid
overdose, depression,
suicidality, muscle
cramps, dizziness or
syncope, somnolence
or sedation, anorexia,
decreased appetite or
other appetite disorders

Constipation, nausea,
precipitated opioid withdrawal,
excessive sweating, insomnia,
pain, peripheral edema,
respiratory depression
(particularly combined with
benzodiazepines or other CNS
depressants), misuse potential,
neonatal abstinence syndrome

Schedule II; only
available at federally
certiﬁed OTPs and
the acute inpatient
hospital setting for
OUD treatment

Not a scheduled
medication; not included
in OTP regulations;
requires prescription;
ofﬁce-based treatment
or specialty substance
use treatment programs,
including OTPs

Regulations and
Availability

Intramuscular: Pain,
swelling, induration
(including some cases
requiring surgical
intervention)

Implant: Nerve damage during
insertion/removal, accidental
overdose or misuse if extruded,
local migration or protrusion
Subcutaneous: Injection site
itching or pain, death f rom
intravenous injection
Schedule III; requires waiver to
prescribe outside OTPs
Implant: Prescribers must be
certiﬁed in the Probuphine
Risk Evaluation and Mitigation
Strategy (REMS) Program.
Providers who wish to insert/
remove implants are required
to obtain special training
and certiﬁcation in the REMS
Program
Subcutaneous: Healthcare
settings and pharmacies must be
certiﬁed in the Sublocade REMS
Program and only dispense the
medication directly to a provider
for administration

Adapted with permission.18 Copyrighted 2017. UBM Medica. 131265:0917SH

1-4

A135

Part 1 of 5—Introduction to Medications for Opioid Use Disorder Treatment

This doesn’t mean that remission and recovery
occur only through medication. Some people
achieve remission without OUD medication, just
as some people can manage type 2 diabetes
with exercise and diet alone. But just as it is
inadvisable to deny people with diabetes the
medication they need to help manage their
illness, it is also not sound medical practice to
deny people with OUD access to FDA-approved
medications for their illness.
Medication for OUD should be successfully
integrated with outpatient and residential
treatment. Some patients may beneﬁt from
different levels of care during the course of their
lives. These different levels include outpatient
counseling, intensive outpatient treatment,
inpatient treatment, or long-term therapeutic
communities. Patients receiving treatment in
these settings should have access to FDAapproved medications for OUD.
Patients treated with OUD medications can
beneﬁt from individualized psychosocial
supports. These can be offered by patients’
healthcare providers in the form of medication
management and supportive counseling and/or
by other providers offering adjunctive addiction
counseling, contingency management, recovery
coaching, mental health services, and other
services (e.g., housing supports) that particular
patients may need.

The TIP expert panel strongly
recommends informing all patients
with OUD about the risks and beneﬁts
of treatment of OUD with all FDAapproved medications. Alternatives
to these treatments and their risks
and beneﬁts should be discussed.
Patients should receive access to such
medications if clinically appropriate
and desired by the patients.

TIP 63

Expanding access to FDA-approved medications is an important public health strategy. 19
A substantial gap exists between the number of
people needing OUD treatment and the capacity
to treat those individuals with OUD medication.
In 2012, the gap was estimated at nearly 1
million people, with approximately 80 percent of
OTPs nationally operating at 80 percent capacity
or greater.20 Blue Cross Blue Shield reported a
493 percent increase in members diagnosed with
OUD from 2010 to 2016 but only a 65 percent
increase in the use of medication for OUD.21
Improving access is crucial to closing the wide
gap between the need for treatment with
OUD medications and the availability of such
treatment, given the strong evidence of OUD
medications’ effectiveness.22

Methadone
Methadone retains patients in treatment and
reduces illicit opioid use more effectively than
placebo, medically supervised withdrawal, or
no treatment, as numerous clinical trials and
meta-analyses of studies conducted in many
countries show.23,24,25 Higher methadone doses
are associated with superior outcomes.26,27 Given
the evidence of methadone’s effectiveness, WHO
lists it as an essential medication.28
Methadone treatment has by far the largest,
oldest evidence base of all treatment approaches to opioid addiction. Large multisite
longitudinal studies from the world over support
methadone maintenance’s effectiveness.29,30,31
Longitudinal studies have also found that it is
associated with:32,33,34,35,36,37,38,39,40
Reduced risk of overdose-related deaths.
Reduced risk of HIV and hepatitis C infection.
Lower rates of cellulitis.
Lower rates of HIV risk behavior.
Reduced criminal behavior.

1-5

A136

TIP 63

Medications for Opioid Use Disorder

Naltrexone
XR-NTX reduces illicit opioid use and retains
patients in treatment more effectively than
placebo and no medication, according to
ﬁndings from randomized controlled trials.41,42,43
In a two-group random assignment study of
adults who were opioid dependent and involved
in the justice system, all participants received
brief counseling and community treatment
referrals. One group received no medication,
and the other group received XR-NTX. During
the 6-month follow-up period, compared
with the no-medication group, the group that
received the medication demonstrated:44
Longer time to return to substance use (10.5
weeks versus 5.0 weeks).
A lower rate of return to use (43 percent
versus 64 percent).
A higher percentage of negative urine screens
(74 percent versus 56 percent).
There are two studies comparing XR-NTX to
sublingual buprenorphine. A multisite randomized trial assigned adult residential treatment
patients with OUD to either XR-NTX or buprenorphine. Patients randomly assigned to
buprenorphine had signiﬁcantly lower relapse
rates during 24 weeks of outpatient treatment
than patients assigned to XR-NTX.45 This ﬁnding
resulted from challenges in completing XR-NTX
induction, such that a signiﬁcant proportion
of patients did not actually receive XR-NTX.
However, when comparing only those participants who started their assigned medication, no
signiﬁcant between-group differences in relapse
rates were observed. Because dose induction
was conducted with inpatients, ﬁndings may not
be generalizable to dose induction in outpatient
settings, where most patients initiate treatment.
A 12-week trial among adults with opioid dependence in Norway who were opioid abstinent
at the time of random assignment found that
XR-NTX was as effective as buprenorphine in
retaining patients in treatment and in reducing
illicit opioid use.46

Oral naltrexone is also available, but it has not
been found to be superior to placebo or to no
medication in clinical trials.47 Nonadherence
limits its use.

Buprenorphine
Buprenorphine in its sublingual form retains
patients in treatment and reduces illicit opioid
use more effectively than placebo.48 It also
reduces HIV risk behaviors.49,50 A multisite
randomized trial with individuals addicted to
prescription opioids showed that continued
buprenorphine was superior to buprenorphine
dose taper in reducing illicit opioid use.51
Another randomized trial showed that continued
buprenorphine also improved treatment
retention and reduced illicit prescription opioid
use compared with buprenorphine dose taper.52
Long-term studies of buprenorphine show
its effectiveness outside of clinical research
protocols.53,54 Naloxone, a short-acting opioid
agonist, is also often included in the buprenorphine formulation to help prevent diversion to
injected misuse. Because of the evidence of
buprenorphine’s effectiveness, WHO lists it as
an essential medication.55 Buprenorphine is
available in “transmucosal” (i.e., sublingual or
buccal) formulations.
Buprenorphine implants can be effective
in stable patients. FDA approved implants
(Probuphine) after a clinical trial showed them to
be as effective as relatively low-dose (i.e., 8 mg
or less daily) sublingual buprenorphine/naloxone
(Suboxone) for patients who are already clinically
stable.56 More research is needed to establish
implants’ effectiveness outside of research
studies, but ﬁndings to date are promising.57,58
FDA approved buprenorphine extendedrelease injection (Sublocade) in November
2017 to treat patients with moderate
or severe OUD who have ﬁrst received
treatment with transmucosal buprenorphine
for at least 1 week. This buprenorphine formulation is a monthly subcutaneous injection.
Exhibit 1.2 compares medications for OUD.

1-6

A137

Part 1 of 5—Introduction to Medications for Opioid Use Disorder Treatment

TIP 63

Only federally certiﬁed and accredited OTPs
can dispense methadone for the treatment of
OUD. Methadone is typically given orally as a
liquid.65

Cost E ectiveness and Cost Bene ts
Cost-effectiveness and cost-beneﬁt analyses can
further our understanding of OUD medications’
effectiveness.
Data indicate that medications for OUD are
cost effective. Cost-effectiveness analyses
compare the cost of different treatments with
their associated outcomes (e.g., negative opioid
urine tests). Such analyses have found that:
Methadone and buprenorphine are more
cost effective than OUD treatment without
medication.59
Counseling plus buprenorphine leads to
signiﬁcantly lower healthcare costs than little
or no treatment among commercially insured
patients with OUD.60
Treatment with any of the three OUD medications this TIP covers led to lower healthcare
usage and costs than treatment without
medication in a study conducted in a large
health plan.61

OTPs can dispense buprenorphine under OTP
regulations without using a federal waiver.
Individual healthcare practitioners can
prescribe buprenorphine in any medical
setting, as long as they apply for and receive
waivers of the special registration requirements
deﬁned in the Controlled Substances Act by
meeting the requirements of the Drug Addiction
Treatment Act of 2000 (DATA 2000) and the
revised Comprehensive Addiction and Recovery
Act. Physicians can learn how to obtain a waiver
online (www.samhsa.gov/medication-assisted
-treatment/buprenorphine-waiver-management
/qualify-for-physician-waiver), as can nurse practitioners and physician assistants (www.samhsa
.gov/medication-assisted-treatment/qualify-nps
-pas-waivers).
Eligible physicians, nurse practitioners, and
physician assistants can treat up to 30 patients
at one time in the ﬁrst year of practice.
They can apply to increase this number to
100 patients in the second year.
After a year at the 100-patient limit, only
physicians may apply to increase to up to
275 patients (with additional practice and
reporting requirements).

Relatively few cost-beneﬁt analyses have
examined addiction treatment with medication separately from addiction treatment
in general.62 Cost-beneﬁt studies compare a
treatment’s cost with its beneﬁts. The treatment
is cost beneﬁcial if its beneﬁts outweigh its cost.
These beneﬁts can include:
Reduced expenditures because of decreased
crime.
Reduced expenditures related to decreases in
the use of the justice system.
Improved quality of life.
Reduced healthcare spending.
Greater earned income.
Methadone treatment in OTPs can reduce justice
system and healthcare costs.63,64

Requirements and Regulations
Following is a summary of regulations and
requirements that apply to the three OUD
medications. Part 3 of this TIP discusses the
pharmacology and dosing of these medications.

Prescribing buprenorphine implants requires
Probuphine REMS Program certiﬁcation.
Providers who wish to insert or remove
implants must obtain live training and certiﬁcation in the REMS Program.
Healthcare settings and pharmacies must get
Sublocade REMS Program certiﬁcation to
dispense this medication and can only dispense
it directly to healthcare providers for subcutaneous administration.
Naltrexone has no regulations beyond those
that apply to any prescription pharmaceutical. Any healthcare provider with prescribing

1-7

A138

TIP 63

Medications for Opioid Use Disorder

authority, including those practicing in OTPs, can
prescribe its oral formulation and administer its
long-acting injectable formulation.
The Controlled Substances Act contains a few
exceptions from the requirement to provide
methadone through an OTP or buprenorphine
through an OTP or a waivered practitioner.
These include (1) administering (not prescribing)
an opioid for no more than 3 days to a patient
in acute opioid withdrawal while preparations
are made for ongoing care and (2) administering
opioid medications in a hospital to maintain or
detoxify a patient as an “incidental adjunct to
medical or surgical treatment of conditions other
than addiction.”66

Duration of Treatment With OUD
Medication
Patients can take medication for OUD on
a short-term or long-term basis. However,
patients who discontinue OUD medication
generally return to illicit opioid use. Why is this
so, even when discontinuation occurs slowly
and carefully? Because the more severe form
of OUD (i.e., addiction) is more than physical

RESOURCE ALERT
OUD Medication Treatment Limits
and Reporting Requirements
The following websites provide information
about (1) the Department of Health and Human
Services ﬁnal rule to increase patient access
to medication for OUD and (2) associated
reporting requirements:
www.federalregister.gov/documents/2016/07
/08/2016-16120/medication-assisted-treatment
-for-opioid-use-disorders
www.samhsa.gov/sites/default/ﬁles/programs
_campaigns/medication_assisted/understanding
-patient-limit275.pdf

dependence. Addiction changes the reward
circuitry of the brain, affecting cognition,
emotions, and behavior. Providers and their
patients should base decisions about discontinuing OUD medication on knowledge of the
evidence base for the use of these medications,
individualized assessments, and an individualized
treatment plan they collaboratively develop
and agree upon. Arbitrary time limits on the
duration of treatment with OUD medication are
inadvisable.

Maintenance Treatment
The best results occur when a patient receives
medication for as long as it provides a beneﬁt.
This approach is often called “maintenance
treatment.”67,68 Once stabilized on OUD medication, many patients stop using illicit opioids
completely. Others continue to use for some
time, but less frequently and in smaller amounts,
which reduces their risk of morbidity and
overdose death.
OUD medication gives people the time
and ability to make necessary life changes
associated with long-term remission and
recovery (e.g., changing the people, places, and
things connected with their drug use), and to
do so more safely. Maintenance treatment also
minimizes cravings and withdrawal symptoms.
And it lets people better manage other aspects
of their life, such as parenting, attending school,
or working.

Medication Taper
After some time, patients may want to stop
opioid agonist therapy for OUD through
gradually tapering doses of the medication.
Their outcomes will vary based on factors such
as the length of their treatment, abstinence
from illicit drugs, ﬁnancial and social stability,
and motivation to discontinue medication.69
Longitudinal studies show that most patients who
try to stop methadone treatment relapse during
or after completing the taper.70,71 For example,
in a large, population-based retrospective
study, only 13 percent of patients who tapered

1-8

A139

Part 1 of 5—Introduction to Medications for Opioid Use Disorder Treatment

from methadone had successful outcomes (no
treatment reentry, death, or opioid-related
hospitalization within 18 months after taper).72
A clinical trial of XR-NTX versus treatment
without medication also found increased risk of
returning to illicit opioid use after discontinuing
medication.73

TIP 63

Primary care physicians are on the
front lines of providing ofﬁce-based
treatment with medication for OUD.

Treatment Settings

Adding psychosocial treatments to taper
regimens may not signiﬁcantly improve
outcomes compared with remaining on
medication. One study randomly assigned
participants to methadone maintenance or to
6 months of methadone treatment with a dose
taper plus intensive psychosocial treatment.
The maintenance group had more days in
treatment and lower rates of heroin use and HIV
risk behavior at 12-month follow-up.74 Patients
wishing to taper their opioid agonist medication
should be offered psychosocial and recovery
support services. They should be monitored
during and after dose taper, offered XR-NTX, and
encouraged to resume treatment with medication
quickly if they return to opioid use.

Medically Supervised Withdrawal
Medically supervised withdrawal is a process in
which providers offer methadone or buprenorphine on a short-term basis to reduce physical
withdrawal signs and symptoms. Formerly called
detoxiﬁcation, this process gradually decreases
the dose until the medication is discontinued,
typically over a period of days or weeks. Studies
show that most patients with OUD who undergo
medically supervised withdrawal will start using
opioids again and won’t continue in recommended care.75,76,77,78,79,80,81,82,83 Psychosocial treatment
strategies, such as contingency management,
can reduce dropout from medically supervised
withdrawal, opioid use during withdrawal, and
opioid use following completion of withdrawal.84
Medically supervised withdrawal is necessary for
patients starting naltrexone, which requires at
least 7 days without short-acting opioids and 10
to 14 days without long-acting opioids.

Almost all healthcare settings are appropriate for screening and assessing for
OUD and offering medication onsite or by
referral. Settings that offer OUD treatment
have expanded from specialty sites (certiﬁed
OTPs, residential facilities, outpatient addiction
treatment programs, and addiction specialist
physicians’ ofﬁces) to general primary care
practices, health centers, emergency departments, inpatient medical and psychiatric units,
jails and prisons, and other settings.
OUD medications should be available to
patients across all settings and at all levels
of care—as a tool for remission and recovery.
Because of the strength of the science, a 2016
report from the Surgeon General85 urged
adoption of medication for OUD along with
recovery supports and other behavioral health
services throughout the healthcare system.

Challenges to Expanding Access
to OUD Medication
Despite the urgent need for treatment
throughout the United States, only about 21.5
percent of people with OUD received treatment
from 2009 to 2013.86 The Centers for Disease
Control and Prevention lists more than 200 U.S.
counties as at risk for an HIV or a hepatitis C
virus outbreak related to injection drug use.87

Patients who complete medically supervised
withdrawal are at risk of opioid overdose.

Sustained public health efforts are
essential to address the urgent need for
OUD treatment and the risk of related
overdose, HIV, and hepatitis C virus
epidemics. These efforts must remove
barriers and increase access to OUD
medication.

1-9

A140

TIP 63

Medications for Opioid Use Disorder

Resources
Patient success stories are inspirational. They
highlight the power of OUD medication to help
people achieve remission and recovery. See the
“Patient Success Stories” section in Part 5 of this
TIP.

Part 5 of this TIP also contains community
resources and advocacy resources. The
community resources are for OTP, addiction
treatment, and ofﬁce-based providers The
advocacy resources can help patients and others
advocate for OUD medication for themselves
and in their communities.

1-10

A141

Part 1 of 5—Introduction to Medications for Opioid Use Disorder Treatment

Notes
1

World Health Organization. (2009). Guidelines for the
psychosocially assisted pharmacological treatment of
opioid dependence. Geneva, Switzerland: WHO Press.

2

Council of Economic Advisers. (2017). The
underestimated cost of the opioid crisis. Washington,
DC: Executive Ofﬁce of the President of the United
States.

3

American Society of Addiction Medicine. (2011).
Deﬁnition of addiction. Retrieved January 9, 2018, from
www.asam.org/resources/deﬁnition-of-addiction

4

American Psychiatric Association. (2013). Diagnostic
and statistical manual of mental disorders (5th ed.).
Arlington, VA: American Psychiatric Publishing.

5

6

Substance Abuse and Mental Health Services
Administration. (2015). Federal guidelines for opioid
treatment programs. HHS Publication No. (SMA)
PEP15-FEDGUIDEOTP. Rockville, MD: Substance Abuse
and Mental Health Services Administration.
National Cancer Institute. (n.d.). Remission. In NCI
dictionary of cancer terms. Retrieved November, 22,
2017, from www.cancer.gov/publications/dictionaries
/cancer-terms?cdrid=45867

8

American Psychiatric Association. (2013). Diagnostic
and statistical manual of mental disorders (5th ed.).
Arlington, VA: American Psychiatric Publishing.

9

Krupitsky, E., Nunes, E. V., Ling, W., Illeperuma, A.,
Gastfriend, D. R., & Silverman, B. L. (2011, April 30).
Injectable extended-release naltrexone for opioid
dependence: A double-blind, placebo-controlled,
multicentre randomised trial. Lancet, 377(9776),
1506–1513.

13 Auriacombe, M., Fatséas, M., Dubernet, J., Daulouède,
J. P., & Tignol, J. (2004). French ﬁeld experience with
buprenorphine. American Journal on Addictions,
13(Suppl. 1), S17–S28.
14 Degenhardt, L., Randall, D., Hall, W., Law, M., Butler,
T., & Burns, L. (2009). Mortality among clients of a
state-wide opioid pharmacotherapy program over 20
years: Risk factors and lives saved. Drug and Alcohol
Dependence, 105(1–2), 9–15.
15 Gibson, A., Degenhardt, L., Mattick, R. P., Ali, R.,
White, J., & O’Brien, S. (2008). Exposure to opioid
maintenance treatment reduces long-term mortality.
Addiction, 103(3), 462–468.
16 Schwartz, R. P., Gryczynski, J., O’Grady, K. E.,
Sharfstein, J. M., Warren, G., Olsen, Y., … Jaffe, J. H.
(2013). Opioid agonist treatments and heroin overdose
deaths in Baltimore, Maryland, 1995–2009. American
Journal of Public Health, 103(5), 917–922.

Department of Health and Human Services, Ofﬁce
of the Surgeon General. (2016). Facing addiction in
America: The Surgeon General’s report on alcohol,
drugs, and health. Washington, DC: Department of
Health and Human Services.

7

TIP 63

17 World Health Organization. (2009). Guidelines for the
psychosocially assisted pharmacological treatment of
opioid dependence. Geneva, Switzerland: WHO Press.
18 Brezing, C., & Bisaga, A. (2015, April 30). Opioid
use disorder: Update on diagnosis and treatment.
Psychiatric Times, 32(4) 1–4.
19 Department of Health and Human Services, Ofﬁce
of the Surgeon General. (2016). Facing addiction in
America: The Surgeon General’s report on alcohol,
drugs, and health. Washington, DC: Department of
Health and Human Services.
20 Jones, C. M., Campopiano, M., Baldwin, G., &
McCance-Katz, E. (2015). National and state treatment
need and capacity for opioid agonist medicationassisted treatment. American Journal of Public Health,
105(8), e55–e63.
21 Blue Cross Blue Shield. (2017). America’s opioid
epidemic and its effect on the nation’s commercially
insured population. Washington, DC: Blue Cross Blue
Shield Association.

10 Lee, J. D., Friedmann, P. D., Kinlock, T. W., Nunes, E.
V., Boney, T. Y., Hoskinson, R. A., Jr., … O’Brien, C. P.
(2016). Extended-release naltrexone to prevent opioid
relapse in criminal justice offenders. New England
Journal of Medicine, 374(13), 1232–1242.

22 Jones, C. M., Campopiano, M., Baldwin, G., &
McCance-Katz, E. (2015). National and state treatment
need and capacity for opioid agonist medicationassisted treatment. American Journal of Public Health,
105(8), e55–e63.

11 Mattick, R. P., Breen, C., Kimber, J., & Davoli, M. (2009).
Methadone maintenance therapy versus no opioid
replacement therapy for opioid dependence. Cochrane
Database of Systematic Reviews, 2009(3), 1–19.

23 Mattick, R. P., Breen, C., Kimber, J., & Davoli, M.
(2014). Buprenorphine maintenance versus placebo
or methadone maintenance for opioid dependence.
Cochrane Database of Systematic Reviews, 2014(2),
1–84.

12 Mattick, R. P., Breen, C., Kimber, J., & Davoli, M.
(2014). Buprenorphine maintenance versus placebo
or methadone maintenance for opioid dependence.
Cochrane Database of Systematic Reviews, 2014(2),
1–84.

24 Sees, K. L., Delucchi, K. L., Masson, C., Rosen, A.,
Clark, H. W., Robillard, H., … Hall, S. M. (2000).
Methadone maintenance vs 180-day psychosocially
enriched detoxiﬁcation for treatment of opioid
dependence: A randomized controlled trial. JAMA,
283(10), 1303–1310.

1-11

A142

TIP 63

Medications for Opioid Use Disorder

25 Nielsen, S., Larance, B., Degenhardt, L., Gowing,
L., Kehler, C., & Lintzeris, N. (2016). Opioid agonist
treatment for pharmaceutical opioid dependent
people. Cochrane Database of Systematic Reviews,
2016(5), 1–61.

37 Metzger, D. S., & Zhang, Y. (2010). Drug treatment as
HIV prevention: Expanding treatment options. Current
HIV/AIDS Reports, 7(4), 220–225.
38 Woody, G. E., Bruce, D., Korthuis, P. T., Chhatre, S.,
Poole, S., Hillhouse, M., … Ling, W. (2014). HIV risk
reduction with buprenorphine-naloxone or methadone:
Findings from a randomized trial. Journal of Acquired
Immune Deﬁciency Syndromes, 66(3), 288–293.

26 Amato, L., Davoli, M., Perucci, C. A., Ferri, M.,
Faggiano, F., & Mattick, R. P. (2005). An overview
of systematic reviews of the effectiveness of opiate
maintenance therapies: Available evidence to inform
clinical practice and research. Journal of Substance
Abuse Treatment, 28(4), 321–329.
27 Faggiano, F., Vigna-Taglianti, F., Versino, E., & Lemma,
P. (2003). Methadone maintenance at different dosages
for opioid dependence. Cochrane Database of
Systematic Reviews, 2003(3), 1–45.
28 Herget, G. (2005). Methadone and buprenorphine
added to the WHO list of essential medicines. HIV/
AIDS Policy and Law Review, 10(3), 23–24.
29 Gossop, M., Marsden, J., Stewart, D., & Kidd, T. (2003).
The National Treatment Outcome Research Study
(NTORS): 4–5 year follow-up results. Addiction, 98(3),
291–303.
30 Lawrinson, P., Ali, R., Buavirat, A., Chiamwongpaet, S.,
Dvoryak, S., Habrat, B., … Zhao, C. (2008). Key ﬁndings
from the WHO collaborative study on substitution
therapy for opioid dependence and HIV/AIDS.
Addiction, 103(9), 1484–1492.
31 Teesson, M., Ross, J., Darke, S., Lynskey, M., Ali, R.,
Ritter, A., & Cooke, R. (2006). One year outcomes
for heroin dependence: Findings from the Australian
Treatment Outcome Study (ATOS). Drug and Alcohol
Dependence, 83(2), 174–180.
32 Bruce, R. D. (2010). Methadone as HIV prevention: High
volume methadone sites to decrease HIV incidence
rates in resource limited settings. International Journal
on Drug Policy, 21(2), 122–124.
33 Fullerton, C. A., Kim, M., Thomas, C. P., Lyman, D.
R., Montejano, L. B., Dougherty, R. H., … DelphinRittmon, M. E. (2014). Medication-assisted treatment
with methadone: Assessing the evidence. Psychiatric
Services, 65(2), 146–157.
34 Gowing, L., Farrell, M. F., Bornemann, R., Sullivan, L. E.,
& Ali, R. (2011). Oral substitution treatment of injecting
opioid users for prevention of HIV infection. Cochrane
Database of Systematic Reviews, 2011(8), 1–117.
35 MacArthur, G. J., Minozzi, S., Martin, N., Vickerman, P.,
Deren, S., Bruneau, J., … Hickman, M. (2012). Opiate
substitution treatment and HIV transmission in people
who inject drugs: Systematic review and meta-analysis.
BMJ, 345, e5945.
36 Mattick, R. P., Breen, C., Kimber, J., & Davoli, M. (2009).
Methadone maintenance therapy versus no opioid
replacement therapy for opioid dependence. Cochrane
Database of Systematic Reviews, 2009(3), 1–19.

39 Fullerton, C. A., Kim, M., Thomas, C. P., Lyman, D.
R., Montejano, L. B., Dougherty, R. H., … DelphinRittmon, M. E. (2014). Medication-assisted treatment
with methadone: Assessing the evidence. Psychiatric
Services, 65(2), 146–157.
40 Schwartz, R. P., Jaffe, J. H., O’Grady, K. E., Kinlock, T.
W., Gordon, M. S., Kelly, S. M., … Ahmed, A. (2009).
Interim methadone treatment: Impact on arrests. Drug
and Alcohol Dependence, 103(3), 148–154.
41 Lee, J. D., Friedmann, P. D., Kinlock, T. W., Nunes, E.
V., Boney, T. Y., Hoskinson, R. A., Jr., … O’Brien, C. P.
(2016). Extended-release naltrexone to prevent opioid
relapse in criminal justice offenders. New England
Journal of Medicine, 374(13), 1232–1242.
42 Comer, S. D., Sullivan, M. A., Yu, E., Rothenberg,
J. L., Kleber, H. D., Kampman, K., … O’Brien, C. P.
(2006). Injectable, sustained-release naltrexone for
the treatment of opioid dependence: A randomized,
placebo-controlled trial. Archives of General Psychiatry,
63(2), 210–218.
43 Krupitsky, E., Nunes, E. V., Ling, W., Illeperuma, A.,
Gastfriend, D. R., & Silverman, B. L. (2011, April 30).
Injectable extended-release naltrexone for opioid
dependence: A double-blind, placebo-controlled,
multicentre randomised trial. Lancet, 377(9776),
1506–1513.
44 Lee, J. D., Friedmann, P. D., Kinlock, T. W., Nunes, E.
V., Boney, T. Y., Hoskinson, R. A., Jr., … O’Brien, C. P.
(2016). Extended-release naltrexone to prevent opioid
relapse in criminal justice offenders. New England
Journal of Medicine, 374(13), 1232–1242.
45 Lee, J. D., Nunes, E. V., Jr., Novo, P., Bachrach,
K., Bailey, G. L., Bhatt, S., … Rotrosen, J. (2018).
Comparative effectiveness of extended-release
naltrexone versus buprenorphine-naloxone for opioid
relapse prevention (X:BOT): A multicentre, open-label,
randomised controlled trial. Lancet, 391(10118),
309–318.
46 Tanum, L., Solli, K. K., Latif, Z. E., Benth, J. Š.,
Opheim, A., Sharma-Haase, K., … Kunøe, N.
(2017). Effectiveness of injectable extended-release
naltrexone vs daily buprenorphine-naloxone for opioid
dependence: A randomized clinical noninferiority trial.
JAMA Psychiatry, 74(12), 1197–1205.

1-12

A143

Part 1 of 5—Introduction to Medications for Opioid Use Disorder Treatment

47 Minozzi, S., Amato, L., Vecchi, S., Davoli, M.,
Kirchmayer, U., & Verster, A. (2011). Oral naltrexone
maintenance treatment for opioid dependence.
Cochrane Database of Systematic Reviews, 2011(2),
1–45.

57 Rosenthal, R. N., Lofwall, M. R., Kim, S., Chen,
M., Beebe, K. L., & Vocci, F. J. (2016). Effect of
buprenorphine implants on illicit opioid use among
abstinent adults with opioid dependence treated with
sublingual buprenorphine: A randomized clinical trial.
JAMA, 316(3), 282–290.

48 Mattick, R. P., Breen, C., Kimber, J., & Davoli, M.
(2014). Buprenorphine maintenance versus placebo
or methadone maintenance for opioid dependence.
Cochrane Database of Systematic Reviews, 2014(2),
1–84.
49 Edelman, E. J., Chantarat, T., Caffrey, S., Chaudhry, A.,
O’Connor, P. G., Weiss, L., … Fiellin, L. E. (2014). The
impact of buprenorphine/naloxone treatment on HIV
risk behaviors among HIV-infected, opioid-dependent
patients. Drug and Alcohol Dependence, 139, 79–85.
50 Sullivan, L. E., Moore, B. A., Chawarski, M. C., Pantalon,
M. V., Barry, D., O’Connor, P. G., … Fiellin, D. A. (2008).
Buprenorphine/naloxone treatment in primary care is
associated with decreased human immunodeﬁciency
virus risk behaviors. Journal of Substance Abuse
Treatment, 35(1), 87–92.
51 Weiss, R. D., Potter, J. S., Fiellin, D. A., Byrne, M.,
Connery, H. S., Dickinson, W., … Ling, W. (2011).
Adjunctive counseling during brief and extended
buprenorphine-naloxone treatment for prescription
opioid dependence: A 2-phase randomized controlled
trial. Archives of General Psychiatry, 68(12), 1238–1246.
52 Fiellin, D. A., Schottenfeld, R. S., Cutter, C. J., Moore,
B. A., Barry, D. T., & O’Connor, P. G. (2014). Primary
care-based buprenorphine taper vs maintenance
therapy for prescription opioid dependence: A
randomized clinical trial. JAMA Internal Medicine,
174(12), 1947–1954.
53 Fiellin, D. A., Moore, B. A., Sullivan, L. E., Becker, W.
C., Pantalon, M. V., Chawarski, M. C., … Schottenfeld,
R. S. (2008). Long-term treatment with buprenorphine/
naloxone in primary care: Results at 2–5 years.
American Journal on Addictions, 17(2), 116–120.
54 Soefﬁng, J. M., Martin, L. D., Fingerhood, M. I.,
Jasinski, D. R., & Rastegar, D. A. (2009). Buprenorphine
maintenance treatment in a primary care setting:
Outcomes at 1 year. Journal of Substance Abuse
Treatment, 37(4), 426–430.
55 Herget, G. (2005). Methadone and buprenorphine
added to the WHO list of essential medicines. HIV/
AIDS Policy and Law Review, 10(3), 23–24.
56 Rosenthal, R. N., Lofwall, M. R., Kim, S., Chen, M.,
Beebe, K. L., Vocci, F. J., & PRO-814 Study Group.
(2016). Effect of buprenorphine implants on illicit
opioid use among abstinent adults with opioid
dependence treated with sublingual buprenorphine:
A randomized clinical trial. Journal of the American
Medical Association, 316(3), 282–290.

TIP 63

58 Barnwal, P., Das, S., Mondal, S., Ramasamy, A., Maiti,
T., & Saha, A. (2017). Probuphine® (buprenorphine
implant): Promising candidate in opioid dependence.
Therapeutic Advances in Psychopharmacology, 7(3),
119–134.
59 Connock, M., Juarez-Garcia, A., Jowett, S., Frew, E.,
Liu, Z., Taylor, R. J., … Taylor, R. S. (2007, March).
Methadone and buprenorphine for the management of
opioid dependence: A systematic review and economic
evaluation. Health Technology Assessment, 11(9),
1–171, iii–iv.
60 Lynch, F. L., McCarty, D., Mertens, J., Perrin, N. A.,
Green, C. A., Parthasarathy, S., … Pating, D. (2014).
Costs of care for persons with opioid dependence
in commercial integrated health systems. Addiction
Science and Clinical Practice, 9, 16.
61 Baser, O., Chalk, M., Fiellin, D. A., & Gastfriend, D.
R. (2011). Cost and utilization outcomes of opioiddependence treatments. American Journal of Managed
Care, 17(Suppl. 8), S235–S248.
62 Schwartz, R. P., Alexandre, P. K., Kelly, S. M., O’Grady,
K. E., Gryczynski, J., & Jaffe, J. H. (2014). Interim versus
standard methadone treatment: A beneﬁt-cost analysis.
Journal of Substance Abuse Treatment, 46(3), 306–314.
63 Cartwright, W. S. (2000). Cost-beneﬁt analysis of drug
treatment services: Review of the literature. Journal of
Mental Health Policy and Economics, 3(1), 11–26.
64 McCollister, K. E., & French, M. T. (2003). The relative
contribution of outcome domains in the total economic
beneﬁt of addiction interventions: A review of ﬁrst
ﬁndings. Addiction, 98(12), 1647–1659.
65 Substance Abuse and Mental Health Services
Administration. (2015). Federal guidelines for opioid
treatment programs. HHS Publication No. (SMA)
PEP15-FEDGUIDEOTP. Rockville, MD: Substance Abuse
and Mental Health Services Administration.
66 Drug Enforcement Administration. (n.d.). Title 21 Code
of Federal Regulations. Part 1306—Prescriptions.
§1306.07 Administering or dispensing of narcotic
drugs. Retrieved November 22, 2017, from www
.deadiversion.usdoj.gov/21cfr/cfr/1306/1306_07.htm
67 Mattick, R. P., Breen, C., Kimber, J., & Davoli, M. (2009).
Methadone maintenance therapy versus no opioid
replacement therapy for opioid dependence. Cochrane
Database of Systematic Reviews, 2009(3), 1–19.
68 Mattick, R. P., Breen, C., Kimber, J., & Davoli, M.
(2014). Buprenorphine maintenance versus placebo
or methadone maintenance for opioid dependence.
Cochrane Database of Systematic Reviews, 2014(2),
1–84.
1-13

A144

TIP 63

Medications for Opioid Use Disorder

69 Calsyn, D. A., Malcy, J. A., & Saxon, A. J. (2006). Slow
tapering from methadone maintenance in a program
encouraging indeﬁnite maintenance. Journal of
Substance Abuse Treatment, 30, 159–163.
70 Stimmel, B., Goldberg, J., Rotkopf, E., & Cohen, M.
(1977). Ability to remain abstinent after methadone
detoxiﬁcation. JAMA, 237, 1216–1220.
71 Cushman, P. (1978). Abstinence following detoxiﬁcation
and methadone maintenance treatment. American
Journal of Medicine, 65, 46–52.
72 Nosyk, B., Sun, H., Evans, E., Marsh, D. C., Anglin, M.
D., Hser, Y. I., & Anis, A. H. (2012). Deﬁning dosing
pattern characteristics of successful tapers following
methadone maintenance treatment: Results from
a population-based retrospective cohort study.
Addiction, 107(9), 1621–1629.
73 Lee, J. D., Friedmann, P. D., Kinlock, T. W., Nunes, E.
V., Boney, T. Y., Hoskinson, R. A., Jr., … O’Brien, C. P.
(2016). Extended-release naltrexone to prevent opioid
relapse in criminal justice offenders. New England
Journal of Medicine, 374(13), 1232–1242.
74 Sees, K. L., Delucchi, K. L., Masson, C., Rosen, A.,
Clark, H. W., Robillard, H., … Hall, S. M. (2000).
Methadone maintenance vs 180-day psychosocially
enriched detoxiﬁcation for treatment of opioid
dependence: A randomized controlled trial. JAMA,
283(10), 1303–1310.

80 Fiellin, D., Schottenfeld, R., Cutter, C., Moore, A.,
Barry, D., & O’Connor, P. (2014). Primary care based
buprenorphine taper vs maintenance therapy for
prescription opioid dependence: A randomized clinical
trial. JAMA Internal Medicine, 174(12), 1947–1954.
81 Gruber, V., Delucchi, K., Kielstein, A., & Batki, S.
(2008). A randomized trial of six-month methadone
maintenance with standard or minimal counseling
versus 21-day methadone detoxiﬁcation. Drug and
Alcohol Dependence, 94, 199.
82 Ling, W., Hillhouse, M., Domier, C., Doraimani,
G., Hunter, J., Thomas, C., … Bilangi, R. (2009).
Buprenorphine tapering schedule and illicit opioid use.
Addiction, 104(2), 256–265.
83 Smyth, B. P., Barry, J., Keenan, E., & Ducray, K. (2010).
Lapse and relapse following inpatient treatment of
opiate dependence. Irish Medical Journal, 103(6),
176–179.
84 Amato, L., Minozzi, S., Davoli, M., & Vecchi, S. (2011).
Psychosocial and pharmacological treatments versus
pharmacological treatments for opioid detoxiﬁcation.
Cochrane Database of Systematic Reviews, 2011(9),
1–55.

75 Wines, J. D., Jr., Saitz, R., Horton, N. J., LloydTravaglini, C., & Samet, J. H. (2007). Overdose after
detoxiﬁcation: A prospective study. Drug and Alcohol
Dependence, 89(2–3), 161–169.
76 Strang, J., McCambridge, J., Best, D., Beswick, T.,
Bearn, J., Rees, S., & Gossop, M. (2003). Loss of
tolerance and overdose mortality after inpatient opiate
detoxiﬁcation: Follow up study. British Medical Journal,
326(7396), 959–960.
77 Weiss, R. D., Potter, J. S., Fiellin, D. A., Byrne, M.,
Connery, H. S., Dickinson, W., … Ling, W. (2011).
Adjunctive counseling during brief and extended
buprenorphine-naloxone treatment for prescription
opioid dependence: A 2-phase randomized controlled
trial. Archives of General Psychiatry, 68(12), 1238–1246.
78 Ling, W., Amass, L., Shoptaw, S., Annon, J. J.,
Hillhouse, M., Babcock, D., … Ziedonis, D. (2005).
A multi-center randomized trial of buprenorphinenaloxone versus clonidine for opioid detoxiﬁcation:
Findings from the National Institute on Drug Abuse
Clinical Trials Network. Addiction, 100(8), 1090–1100.

79 McCusker, J., Bigelow, C., Luippold, R., Zorn, M.,
& Lewis, B. F. (1995). Outcomes of a 21-day drug
detoxiﬁcation program: Retention, transfer to further
treatment, and HIV risk reduction. American Journal of
Drug and Alcohol Abuse, 21(1), 1–16.

85 Department of Health and Human Services, Ofﬁce
of the Surgeon General. (2016). Facing addiction in
America: The Surgeon General’s report on alcohol,
drugs, and health. Washington, DC: Department of
Health and Human Services.
86 Saloner, B., & Karthikeyan, S. (2015). Changes in
substance abuse treatment use among individuals with
opioid use disorders in the United States, 2004–2013.
JAMA, 314(14), 1515–1517.
87 Van Handel, M. M., Rose, C. E., Hallisey, E. J., Kolling,
J. L., Zibbell, J. E., Lewis, B., … Brooks, J. T. (2016).
County-level vulnerability assessment for rapid
dissemination of HIV or HCV infections among persons
who inject drugs, United States. Journal of Acquired
Immune Deﬁciency Syndromes, 73(3), 323–331.

1-14

A145

TIP 63

MEDICATIONS FOR OPIOID USE DISORDER

Part 2: Addressing Opioid Use Disorder in General Medical Settings
For Healthcare Professionals
Part 2 of this Treatment Improvement Protocol (TIP) will guide practitioners’ efforts to identify,
assess, and treat or refer patients with opioid use disorder (OUD) in general medical settings.

TIP Navigation

KEY MESSAGES

Executive Summary
For healthcare and addiction professionals,
policymakers, patients, and families
Part 1: Introduction to Medications for Opioid
Use Disorder Treatment
For healthcare and addiction professionals,
policymakers, patients, and families

All healthcare practices should screen
for alcohol, tobacco, and other substance
misuse (including opioid misuse).
Validated screening tools, symptom
surveys, and other resources are readily
available; this part lists many of them.

Part 2: Addressing Opioid Use Disorder in
General Medical Settings
For healthcare professionals

When patients screen positive for risk of
harm from substance use, practitioners
should assess them using tools that
determine whether substance use meets
diagnostic criteria for a substance use
disorder (SUD).

Part 3: Pharmacotherapy for Opioid Use
Disorder
For healthcare professionals

Thorough assessment should address
patients’ medical, social, SUD, and family
histories.
Laboratory tests can inform treatment
planning.

Part 4: Partnering Addiction Treatment
Counselors With Clients and
Healthcare Professionals
For healthcare and addiction professionals
Part 5: Resources Related to Medication for
Opioid Use Disorder
For healthcare and addiction professionals,
policymakers, patients, and families

A146

Practitioners should develop treatment
plans or referral strategies (if onsite SUD
treatment is unavailable) for patients
who need SUD treatment.

TIP 63

MEDICATIONS FOR OPIOID USE DISORDER—Part 2 of 5

PART 2: ADDRESSING OPIOID USE DISORDER IN GENERAL MEDICAL
SETTINGS
Scope of the Problem . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2-1
Screening . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2-1
Assessment . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2-8
Treatment Planning or Referral . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2-17
Resources . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2-28
Appendix . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2-32
Notes . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2-39

2-ii

A147

TIP 63
2#46

MEDICATIONS FOR OPIOID USE DISORDER

QH

Addressing Opioid Use Disorder in General
Medical Settings
Part 2 of this TIP is for healthcare professionals who work in general medical settings* and care
for patients who misuse opioids or have OUD. Healthcare professionals in such settings address
most personal healthcare needs, develop sustained partnerships with patients, and practice in
the context of family and community. Thus, they have a good basis from which to understand
patients’ needs related to OUD screening, assessment, and treatment (or referral to specialty
treatment.

Scope of the Problem

$Q HVWLPDWHG

The number of patients presenting with OUD
in medical clinics, community health centers,
and private practices is increasing. Healthcare
professionals in these general settings are in
an important position to identify, assess, and
treat OUD or to refer patients for treatment.
Moreover, patients who are medically and
mentally stable can beneﬁt from receiving OUD
medications in integrated care settings, where
they often have already established therapeutic
relationships with their healthcare providers.
Exhibit 2.1 deﬁnes key terms in Part 2. For more
deﬁnitions, see the glossary in Part 5 of this TIP.

Screening
Screening can identify patients who may
have diseases or conditions related to their
substance use. Health care in general medical
settings routinely includes screening for
common, treatable conditions such as cancer
that are associated with signiﬁcant morbidity and
mortality. Screening for SUDs is important, as
misuse of alcohol, tobacco, and other substances
is common among patients in medical settings
(Exhibit 2.2).1

0

$0(5,&$16
KDYH 28' UHODWHG WR
RSLRLG SDLQNLOOHUV

.

UHODWHG WR

KHURLQ

Screening can identify substance misuse in
patients who wouldn’t otherwise discuss it
or connect it with the negative consequences
they’re experiencing. Some patients may
spontaneously reveal their substance use and
ask for help. This is more likely when they’re
experiencing harmful consequences of substance
use. However, screening may identify unhealthy
substance use (e.g., binge drinking) and SUDs
The TIP expert panel recommends
that healthcare professionals
screen patients for alcohol, tobacco,
prescription drug, and illicit drug use
at least annually.

*In this TIP, the term “general medical setting” includes medical clinics, community health centers, and private practices.

2-1

A148

TIP 63

Medications for Opioid Use Disorder

EXHIBIT 2.1. Key Terms
Addiction: As deﬁned by the American Society of Addiction Medicine (ASAM),3 “a primary, chronic

disease of brain reward, motivation, memory, and related circuitry.” It is characterized by inability to
consistently abstain, impairment in behavioral control, craving, diminished recognition of signiﬁcant
problems with one’s behaviors and interpersonal relationships, and a dysfunctional emotional response.
Like other chronic diseases, addiction often involves cycles of relapse and remission. The Diagnostic
and Statistical Manual of Mental Disorders, Fifth Edition 4 (DSM-5), does not use the term for diagnostic
purposes, but it commonly describes the more severe forms of OUD.

Healthcare professionals: Physicians, nurse practitioners (NPs), physician assistants (PAs), and

other medical service professionals who are eligible to prescribe medications for and treat patients with
OUD. The term “prescribers” also refers to these healthcare professionals.

Maintenance treatment: Providing medications to achieve and sustain clinical remission of signs
and symptoms of OUD and support the individual process of recovery without a speciﬁc endpoint (as
with the typical standard of care in medical and psychiatric treatment of other chronic illnesses).

Medically supervised withdrawal (formerly called detoxiﬁcation): Using an opioid agonist (or an

alpha-2 adrenergic agonist if an opioid agonist is not available) in tapering doses or other medications to
help a patient discontinue illicit or prescription opioids.

Medical management: Process whereby healthcare professionals provide medication, basic brief

supportive counseling, monitoring of drug use and medication adherence, and referrals, when necessary,
to addiction counseling and other services to address the patient’s medical, mental health, comorbid
addiction, and psychosocial needs.

Ofﬁce-based opioid treatment (OBOT): Providing medication for OUD in outpatient settings
other than certiﬁed opioid treatment programs (OTPs).

Opioid misuse: The use of prescription opioids in any way other than as directed by a prescriber; the
use of any opioid in a manner, situation, amount, or frequency that can cause harm to self or others.5

Opioid receptor agonist: A substance that has an afﬁnity for and stimulates physiological activity at
cell receptors in the central nervous system that are normally stimulated by opioids. Mu-opioid receptor
full agonists (e.g., methadone) bind to the mu-opioid receptor and produce actions similar to those
produced by the endogenous opioid beta-endorphin. Increasing the dose increases the effect. Mu-opioid
receptor partial agonists (e.g., buprenorphine) bind to the mu-opioid receptor. Unlike with full agonists,
increasing their dose may not produce additional effects once they have reached their maximal effect. At
low doses, partial agonists may produce effects similar to those of full agonists.

Opioid receptor antagonist: A substance that has an afﬁnity for opioid receptors in the central
nervous system without producing the physiological effects of opioid agonists. Mu-opioid receptor
antagonists (e.g., naltrexone) can block the effects of exogenously administered opioids.

Opioid treatment program (OTP): An accredited treatment program with Substance Abuse and
Mental Health Services Administration (SAMHSA) certiﬁcation and Drug Enforcement Administration
(DEA) registration to administer and dispense opioid agonist medications that are approved by the
Food and Drug Administration (FDA) to treat opioid addiction. Currently, these include methadone and
buprenorphine products. Other pharmacotherapies, such as naltrexone, may be provided but are not
subject to these regulations. OTPs must provide adequate medical, counseling, vocational, educational,
and other assessment and treatment services either onsite or by referral to an outside agency or
practitioner through a formal agreement.6

Continued on next page

2-2

A149

Part 2 of 5—Addressing Opioid Use Disorder in General Medical Settings

TIP 63

EXHIBIT 2.1. Key Terms (continued)
Opioid use disorder (OUD): Per DSM-5,7 a disorder characterized by loss of control of opioid use,

risky opioid use, impaired social functioning, tolerance, and withdrawal. Tolerance and withdrawal do
not count toward the diagnosis in people experiencing these symptoms when using opioids under
appropriate medical supervision. OUD covers a range of severity and replaces what the Diagnostic and
Statistical Manual of Mental Disorders, Fourth Edition, termed “opioid abuse” and “opioid dependence.”
An OUD diagnosis is applicable to a person who uses opioids and experiences at least 2 of the 11
symptoms in a 12-month period. (See Exhibit 2.13 and the Appendix in Part 2 for full DSM-5 diagnostic
criteria for OUD.)

Recovery: A process of change through which individuals improve their health and wellness, live a

self-directed life, and strive to reach their full potential. Even individuals with severe and chronic SUDs
can, with help, overcome their SUDs and regain health and social function. Although abstinence from all
substance misuse is a cardinal feature of a recovery lifestyle, it is not the only healthy, prosocial feature.
Patients taking FDA-approved medication to treat OUD can be considered in recovery.

Relapse: A process in which a person with OUD who has been in remission experiences a return of

symptoms or loss of remission. A relapse is different f rom a return to opioid use in that it involves more
than a single incident of use. Relapses occur over a period of time and can be interrupted. Relapse need
not be long lasting. The TIP uses relapse to describe relapse prevention, a common treatment modality.

Remission: A medical term meaning a disappearance of signs and symptoms of the disease.8 DSM-5
deﬁnes remission as present in people who previously met OUD criteria but no longer meet any OUD
criteria (with the possible exception of craving).9 Remission is an essential element of recovery.

Return to opioid use: One or more instances of opioid misuse without a return of symptoms of
OUD. A return to opioid use may lead to relapse.

Tolerance: Alteration of the body’s responsiveness to alcohol or other drugs (including opioids) such

that higher doses are required to produce the same effect achieved during initial use. See also medically
supervised withdrawal.

before patients connect their substance use with
their presenting complaint. Screening is also
helpful when patients feel ashamed or afraid to
reveal their concerns spontaneously.

The following sections summarize reliable
screening tools. (See Part 5 for more resources.)

Every medical practice should determine
which screening tools to use and when, how,
and by whom they will be administered.
Each practice should also identify steps to take
when a patient screens positive. One efﬁcient
workﬂow strategy is to have clinical assistants
or nurses administer the screening instrument in
an interview or provide patients with a paper or
computer tablet version for self-administration.
(Self-administration is generally as reliable as
interviewer administration.)10 Providers should be
nonjudgmental and rely on established rapport
when discussing screening results with patients.

Screening for alcohol misuse can identify
patients at increased risk for opioid use.
When screening patients for opioid misuse,
providers should also screen for alcohol misuse
and alcohol use disorder (AUD), which cause
considerable morbidity and mortality.11 Providers
should warn patients who use opioids that
alcohol may increase opioid overdose risk.12 The
U.S. Preventive Services Task Force (USPSTF)
recommends screening adults for alcohol misuse,
including risky drinking and AUD. USPSTF also
recommends brief counseling for patients with
risky drinking.13,14

Alcohol Screening

2-3

A150

TIP 63

Medications for Opioid Use Disorder

EXHIBIT 2.2. Substance Misuse and SUD Screening

Substance misuse screening

Negative

Positive

Reinforce
healthy behavior

Assess substance use
and comorbidities

Substance misuse

Substance
use disorder

Brief counseling

Brief counseling and
treatment referral

- up
Monitoring/follow

Consider
pharmacotherapy

If misuse continues, negotiate
a plan and refer to treatment

Ongoing assessment
and support

Adapted with permission.15

USPSTF recommends the following alcohol
screeners:
The single-item National Institute on
Alcohol Abuse and Alcoholism (NIAAA)
Screener is the briefest tool available (Exhibit
2.3). It can help distinguish at-risk patients
who require further screening from those not
at risk for AUD. Encourage patients in the
latter category to maintain healthy behavior.
The Alcohol Use Disorders Identiﬁcation
Test (AUDIT)16 or its briefer version, the
AUDIT-Consumption,17 can elicit more information from patients who screen positive
on the single-item screener. The full AUDIT
tool (Exhibit 2.4) and its briefer version have

demonstrated acceptable reliability in AUD
screening.18 Assess patients with positive
screens for AUD.
Practitioners should consider pharmacotherapy and referral for counseling for people with
AUD. The three FDA-approved medications to
treat AUD—acamprosate, disulﬁram, and naltrexone (oral and extended-release injectable naltrexone [XR-NTX])—can be prescribed in general
medical and specialty SUD treatment settings.
(For more information on AUD treatment, see
the SAMHSA/NIAAA publication Medication for
the Treatment of Alcohol Use Disorder: A Brief
Guide.)19

2-4

A151

Part 2 of 5—Addressing Opioid Use Disorder in General Medical Settings

TIP 63

EXHIBIT 2.3. NIAAA Single-Item Screener
How many times in the past year have you
had ﬁve or more drinks in a day (four drinks
for women and all adults older than age 65)?

One or more times constitutes a positive
screen. Patients who screen positive
should have an assessment for AUD.

Adapted with permission.20

Tobacco Screening
More than 80 percent of patients who
are opioid dependent smoke cigarettes.21
Understanding of the major health consequences and risks associated with tobacco use
has grown signiﬁcantly over the past 50 years.
Among preventable causes of premature death,
smoking remains most prevalent, with more than
480,000 deaths per year in the United States.22 In
addition, more than 40 percent of all people who
smoke are mentally ill or have SUDs.23,24
USPSTF recommends that primary care
providers screen for tobacco use, advise
patients to quit, and provide counseling
and FDA-approved medications for tobacco
cessation.25 The six-item Fagerström Test for
Nicotine Dependence26 assesses cigarette use
and nicotine dependence. The maximum score
is 10; the higher the total score, the more severe
the patient’s nicotine dependence. The two-item
Heaviness of Smoking Index (Exhibit 2.5) is also
useful.27

Drug Screening

medical care adherence, and increase the odds
of patients getting needed interventions or
treatment.29
Brief screening instruments for drug use
can determine which patients need further
assessment. Providers should reinforce healthy
behaviors among patients who report “no use”
and direct those who report “some use” for
further screening and assessment to obtain a
diagnosis.
Several brief screening instruments for drug
use can help primary care practitioners identify
patients who use drugs.30,31 For example, a
single-item screen is available for the general
public (Exhibit 2.6).32 A two-item valid screener
is available for use with U.S. veterans (Exhibit
2.7).33
Brief drug screens don’t indicate speciﬁc
types of drugs used (nor does the longer
Drug Abuse Screening Test; see the Part 2
Appendix).34 If providers use nonspeciﬁc screens,
they need to assess further which substances
patients use and to what degree.

Screening for illicit drug use and prescription
medication misuse is clinically advantageous.
USPSTF’s position as of this writing is that
insufﬁcient evidence exists to recommend for
or against routine screening for illicit drug use
in primary care.28 However, there are clinical
reasons to screen for prescription medication
misuse and use of illicit substances. Identifying
misuse of prescription or illegal drugs can
prevent harmful drug interactions, lead to
adjustments in prescribing practices, improve

The TIP expert panel recommends
universal OUD screening. Given the
high prevalence of SUDs in patients
visiting primary care settings and the
effectiveness of medications to treat
OUD speciﬁcally, the TIP expert panel
recommends screening all patients for
opioid misuse.

2-5

A152

TIP 63

Medications for Opioid Use Disorder

EXHIBIT 2.4. AUDIT Screener
1. How often do you have a drink containing
alcohol?
(0)
(1)
(2)
(3)
(4)

6. How often during the last year have you
needed an alcoholic drink ﬁrst thing in the
morning to get yourself going after a night of
heavy drinking?

Never [Skip to Questions 9–10]
Monthly or less
2 to 4 times a month
2 to 3 times a week
4 or more times a week

(0)
(1)
(2)
(3)
(4)

2. How many drinks containing alcohol do you
have on a typical day when you are drinking?
(0)
(1)
(2)
(3)
(4)

(0)
(1)
(2)
(3)
(4)

7. How often during the last year have you had a
feeling of guilt or remorse after drinking?

1 or 2
3 or 4
5 or 6
7, 8, or 9
10 or more

(0)
(1)
(2)
(3)
(4)

3. How often do you have six or more drinks on
one occasion?
Never
Less than monthly
Monthly
Weekly
Daily or almost daily

(0)
(1)
(2)
(3)
(4)

4. How often during the last year have you found
that you were not able to stop drinking once
you had started?

Never
Less than monthly
Monthly
Weekly
Daily or almost daily

9. Have you or someone else been injured as a
result of your drinking?
(0)

(2)
(4)

Never
Less than monthly
Monthly
Weekly
Daily or almost daily

5. How often during the last year have you failed
to do what was normally expected f rom you
because of drinking?
(0)
(1)
(2)
(3)
(4)

Never
Less than monthly
Monthly
Weekly
Daily or almost daily

8. How often during the last year have you been
unable to remember what happened the night
before because you had been drinking?

Skip to Questions 9 and 10 if total score for
Questions 2 and 3 = 0

(0)
(1)
(2)
(3)
(4)

Never
Less than monthly
Monthly
Weekly
Daily or almost daily

No

Yes, but not in the last year
Yes, during the last year

10. Has a relative, friend, doctor, or another health
professional expressed concern about your
drinking or suggested you cut down?

Never
Less than monthly
Monthly
Weekly
Daily or almost daily

(0)

(2)
(4)

No

Yes, but not in the last year
Yes, during the last year

Note: Add up the points associated with answers. A score of 8 or more is considered a positive test for unhealthy drinking.
Adapted from material in the public domain. 35 Available online (http://auditscreen.org).

2-6

A153

Part 2 of 5—Addressing Opioid Use Disorder in General Medical Settings

TIP 63

EXHIBIT 2.5. Heaviness of
Smoking Index

EXHIBIT 2.6. Single-Item
Drug Screener

Ask these two questions of current or recent
smokers:

How many times in the past year have
you used an illegal drug or a prescription
medication for nonmedical reasons?

1.

2.

How soon after waking do you smoke your
ﬁrst cigarette?
Within 5 minutes (3 points)
5–30 minutes (2 points)
31–60 minutes (1 point)
61 or more minutes (no points)

(A positive screen is 1 or more days.)
Reprinted with permission.39

EXHIBIT 2.7. Two-Item Drug
Use Disorder Screener for
Primary Care Clinics Serving
U.S. Veterans

How many cigarettes a day do you smoke?
10 or less (no points)
11–20 (1 point)
21–30 (2 points)
31 or more (3 points)

Total score:
1–2 points = very low dependence
3 points = low to moderate dependence
4 points = moderate dependence
5 or more points = high dependence

Question 1: How many days in the past 12
months have you used drugs other than
alcohol? (A positive screen is 7 or more days.)
If fewer than 7, proceed with Question 2.
Question 2: How many days in the past 12
months have you used drugs more than you
meant to? (A positive screen is 2 or more days.)

Adapted with permission.36

The Alcohol, Smoking, and Substance
Involvement Screening Test (ASSIST) screens
patients for all categories of substance
misuse, including alcohol and tobacco. This
World Health Organization (WHO) screener also
assesses substance-speciﬁc risk. The ASSIST’s
length and rather complex scoring system have
hindered its adoption, but a computerized
version and a briefer hard copy version (ASSISTlite) make its use more efﬁcient.37,38 (See the
“Screening, Assessment, and Drug Testing
The TIP expert panel does not
recommend routine universal drug
testing with urine, blood, or oral ﬂuids
in primary care. Still, drug testing can
conﬁrm recent drug use in patients
receiving diagnostic workups for
changes in mental status, seizures, or
other disorders. Conduct drug testing
before patients start OUD medication
and during treatment for monitoring.

Adapted with permission.40

Resources” section for a link to a modiﬁed
version of the ASSIST.)
Follow up any positive one-question screen
with a brief assessment. An example of a
two-step screening and brief assessment is the
Tobacco, Alcohol, Prescription Medications,
and Other Substance Use (TAPS Tool; see Part
2 Appendix), developed and tested in primary
care settings.41 This tool is based on the National
Institute on Drug Abuse (NIDA) Quick Screen
V1.042,43 and a modiﬁed WHO ASSIST-lite.44
The TAPS Tool screens for clinically relevant
heroin and prescription opioid misuse (meeting
one or more DSM-5 SUD criteria) and misuse
of an array of other substances in primary care
patients. However, it may also detect SUDs only
for the most often-used substances (i.e., alcohol,
tobacco, and marijuana). Patients with positive
screens for heroin or prescription opioid misuse
need more indepth assessment.45
2-7

A154

TIP 63

Medications for Opioid Use Disorder

Assessment

2 3 , 2 , '

Determine the Need for and Extent of
Assessment

is linked with signi cant

$'',&7,21

025%,',7< DQG
0 2 57$ / ,7 <

Assess patients for OUD if:
They screen positive for opioid misuse.
They disclose opioid misuse.
Signs or symptoms of opioid misuse are
present.

UHODWHG WR +,9 DQG
KHSDWLWLV &

The extent of assessment depends on a
provider’s ability to treat patients directly.

+,9

If a provider does not offer pharmacotherapy,
the focus should be on medical assessment,
making a diagnosis of OUD, and patient
safety. This allows the provider to refer patients
to the appropriate level of treatment. The
provider can also conduct:
Assessment and treatment for co-occurring
medical conditions or mental disorders.
Motivational brief interventions to promote
safer behavior and foster effective treatment
engagement.
Overdose prevention education and provide a
naloxone prescription.
Education for patients who inject drugs on
how to access sterile injecting equipment.
An in-person follow-up, regardless of referral
to specialty treatment.
If the provider offers pharmacotherapy, the
patient needs more comprehensive assessment, including:
A review of the prescription drug monitoring
program (PDMP).
A history, including a review of systems.
A targeted physical exam for signs of opioid
withdrawal, intoxication, injection, and other
medical consequences of misuse.
Determination of OUD diagnosis and severity.
Appropriate laboratory tests (e.g., urine
or oral ﬂuid drug tests, liver function tests,
hepatitis B and C tests, HIV tests).46

+HS &

A comprehensive assessment is intended to:
Establish the diagnosis of OUD.
Determine the severity of OUD.
Identify contraindicated medications.
Indicate other medical conditions to address
during treatment.
Identify mental and social issues to address.

Set the Stage for Successful Assessment
The medical setting should create a welcoming
environment that is nonjudgmental, respectful, and empathetic. Many patients with OUD
are reluctant to discuss their opioid use in
medical settings.48 A welcoming environment can
help patients feel safe disclosing facts they may
ﬁnd embarrassing.49 Motivational interviewing
strategies, such as asking open-ended questions,
foster successful assessment.50 (Refer to TIP 34,
Brief Interventions and Brief Therapies for
Substance Abuse, for more speciﬁc examples
of interview questions and responses.)51
Staff should explore patients’ ambivalence
and highlight problem areas to help them ﬁnd
motivations for change. Almost all patients
have some ambivalence about their opioid
use. They will ﬁnd some aspects pleasant and

2-8

A155

Part 2 of 5—Addressing Opioid Use Disorder in General Medical Settings

Open-ended, thought-provoking
questions encourage patients to
explore their own experiences. Ask
questions like “In what ways has
oxycodone affected your life?” or “What
could you do to prevent infections
like this in the future?” Closed-ended
questions with yes/no answers—like
“Has oxycodone caused your family
trouble?”—can seem judgmental to
patients who already feel ashamed
and defensive. Closed-ended questions
don’t help patients become aware of
and express their own circumstances
and motivations, nor do they encourage
patients to identify what they see as the
consequences of their substance use.
beneﬁcial, but others problematic, painful, or
destructive. By exploring that ambivalence
and highlighting problem areas, providers can
help patients discover their own motivations
for change. Motivational Interviewing: Helping
People Change 52 discusses speciﬁc applications
of motivational interviewing in health care.

Take a Complete History
Staff should prioritize medical, mental
health, substance use, and SUD treatment
histories. When obtaining patient histories, staff
should address these domains before starting
treatment. As providers and staff build trust over
future visits, they can get into more detailed
elements of the assessment.

Highlight consequences that motivate change.
Identify medical issues (e.g., severe liver
disease) that contraindicate or alter dosing
approaches for OUD pharmacotherapies.
Reveal chronic pain issues.
Help providers consider interactions among
various medications and other substances.
Exhibit 2.8 lists medical problems associated
with opioid misuse.

Mental health history
Assessing for comorbid mental illness is
critical. Mental illness is prevalent among people
with SUDs; it can complicate their treatment
and worsen their prognosis. In one study, nearly
20 percent of primary care patients with OUD
had major depression.53 SUDs can also mimic
or induce depression and anxiety disorders.
Although substance-induced depression and
anxiety disorders may improve with abstinence,
they may still require treatment in their own right
after a period of careful observation.54 Take a
history of the relationship between a patient’s
psychiatric symptoms and periods of substance
use and abstinence. Treatment for mental
disorders and SUDs can occur concurrently.

Substance use history
Substance use histories can help gauge OUD
severity, inform treatment planning, clarify
potential drug interactions, and highlight the
negative consequences of patients’ opioid
use.
To help determine the severity of patients’
substance use, explore historical features of their
use, like:
Age at ﬁrst use.
Routes of ingestion (e.g., injection).
History of tolerance, withdrawal, drug mixing,
and overdose.

Medical history
Taking a complete medical history of patients
with OUD is critical, as it is for patients with any
other medical condition treatable with pharmacotherapy. Asking about patients’ medical/
surgical history can:
Reveal medical effects of substance use (e.g.,
endocarditis, soft tissue infection, hepatitis B
or C, HIV infection) that may need treatment.

TIP 63

Histories should also explore current patterns
of use,55 which inform treatment planning and
include:
Which drugs patients use.

2-9

A156

TIP 63

Medications for Opioid Use Disorder

EXHIBIT 2.8. Medical Problems Associated With Opioid Misuse56
CATEGORY

POSSIBLE COMPLICATIONS

Cancer

Injection drug use: Hepatocellular carcinoma related to hepatitis C

Cardiovascular

Injection drug use: Endocarditis, septic thrombophlebitis

Endocrine/metabolic

Opioids: Osteopenia, hypogonadism, erectile dysfunction, decreased sperm
motility, menstrual irregularity including amenorrhea, infertility

Hematologic

Injection drug use/sharing intranasal use equipment: Hematologic
consequences of liver disease f rom hepatitis C, hepatitis C‐related
cryoglobulinemia and purpura

Hepatic

Injection drug use/sharing intranasal use equipment: Hepatitis B, C, D;
infectious and toxic hepatitis

Infectious

Opioids: Aspiration pneumonia, sexually transmitted infections
Injection drug use: Endocarditis, cellulitis, necrotizing fasciitis, pneumonia,
septic thrombophlebitis, mycotic aneurysm, septic arthritis (unusual joints,
such as sternoclavicular), osteomyelitis (including vertebral), epidural and brain
abscess, abscesses and soft tissue infections, mediastinitis, malaria, tetanus,
hepatitis B, hepatitis C, hepatitis D, HIV, botulism

Neurologic

Opioids: Seizure (overdose and hypoxia), compression neuropathy (following
overdose), sleep disturbances

Nutritional

Opioids: Protein malnutrition

Other gastrointestinal

Opioids: Constipation, ileus, intestinal pseudo‐obstruction, sphincter of Oddi
spasm, nausea

Pulmonary

Opioids: Respiratory depression/failure, bronchospasm, exacerbation of sleep
apnea, noncardiogenic pulmonary edema, bullae
Injection drug use: Pulmonary hypertension, talc granulomatosis, septic
pulmonary embolism, pneumothorax, emphysema, needle embolization

Renal

Opioids: Rhabdomyolysis, acute renal failure (not direct toxic effect of
opioids but secondary to central nervous system depression and resulting
complications), factitious hematuria
Injection drug use: Focal glomerular sclerosis (HIV, heroin), glomerulonephritis
from hepatitis or endocarditis, chronic renal failure, amyloidosis, nephrotic
syndrome (hepatitis C)

Comorbid alcohol and tobacco use.
Frequency, recency, and intensity of use.

Family relationships.
Work/career status.
Legal involvement.
Housing status.

To diagnose an SUD, assess patients’ negative
consequences of use, which can affect:
Physical health.
Mental health.

Buprenorphine and methadone can cause
complications for patients who misuse or have

2-10

A157

Part 2 of 5—Addressing Opioid Use Disorder in General Medical Settings

SUDs involving alcohol or benzodiazepines.
Providers should take speciﬁc histories on the
use of these substances.

TIP 63

Understanding patients’ motivations
for change can be more useful than
assessing “readiness” for change.
Patients coerced into treatment—such
as through parole and probation or
drug courts—are as likely to succeed
in treatment as patients engaging
voluntarily. Readiness ﬂuctuates and
depends on context. Helping patients
explore why they want to change
their drug use can motivate them and
prepare their providers to support them
during assessment and treatment.

SUD treatment history
Information about a patient’s past efforts
to get treatment or quit independently can
inform treatment planning. The same is true
for details about the events and behaviors that
led to a patient’s return to substance use after
periods of abstinence and remission of SUD.
Similarly, identifying the features of successful
quit attempts can help guide treatment plan
decisions. Such features may involve:
Speciﬁc treatment settings.
Use of support groups.
Previous responses to OUD medications.

Social history
Information about a patient’s social environments and relationships can aid treatment
planning. Social factors that may inﬂuence
treatment engagement and retention, guide
treatment planning, and affect prognosis include:
Transportation and child care needs.
Adequacy and stability of housing.
Criminal justice involvement.
Employment status and quality of work
environment.
Close/ongoing relationships with people with
SUDs.
Details about drug use from people the
patient lives or spends time with (obtained
with patient’s consent).
Sexual orientation, identity, and history,
including risk factors for HIV/sexually transmitted infections.
Safety of the home environment. Substance
misuse substantially increases the risk of
intimate partner violence; screen all women
presenting for treatment for domestic
violence.57

of the strongest risk factors for developing SUDs
is having a parent with an SUD. Genetic factors,
exposure to substance use in the household
during childhood, or both can contribute to the
development of SUDs.58

Conduct a Physical Examination
Perform a physical exam as soon as possible
if recent exam records aren’t accessible.
Assess for:
Opioid intoxication or withdrawal.
Physical signs of opioid use.
Medical consequences of opioid use.
Exhibit 2.9 provides an overview of physical and
mental status ﬁndings for opioid intoxication.

Family history
Learn the substance use histories of patients’
parents, siblings, partners, and children. One

EXHIBIT 2.9. Signs of Opioid
Intoxication
Physical ﬁndings
Drowsy but arousable
Sleeping intermittently (“nodding off”)
Constricted pupils

Mental status ﬁndings
Slurred speech
Impaired memory or concentration
Normal to euphoric mood
2-11

A158

TIP 63

Medications for Opioid Use Disorder

PATIENT TESTIMONY

EXHIBIT 2.10. Physical Signs of
Opioid Withdrawal and Time to
Onset

Opioid Withdrawal
“Severe opioid withdrawal isn’t
something I’d wish on my worst
enemy. The last time I went cold
turkey, I was determined to come off
all the way. The physical symptoms
were just the tip of the iceberg.
My mind was a nightmare that I
thought I would never wake up
from. There were times when I was
almost convinced that dying would
be better than what I was feeling. I
did not experience a moment of ease
for the ﬁrst 3 months, and it was 6
months until I started to feel normal.”

STAGE

GRADE

Early withdrawal

Grade
1

Lacrimation,
rhinorrhea, or
both
Diaphoresis
Yawning
Restlessness
Insomnia

Grade
2

Dilated pupils
Piloerection
Muscle
twitching
Myalgia
Arthralgia
Abdominal pain

Grade
3

Tachycardia
Hypertension
Tachypnea
Fever
Anorexia or
nausea
Extreme
restlessness

Grade
4

Diarrhea,
vomiting, or
both
Dehydration
Hyperglycemia
Hypotension
Curled-up
position

Short-acting opioids:
8–24 hours after last
use
Long-acting opioids:
Up to 36 hours after
last use
Early withdrawal
Short-acting opioids:
8–24 hours after last
use
Long-acting opioids:
Up to 36 hours after
last use

Opioid withdrawal
Opioid withdrawal can be extremely uncomfortable. Symptoms are similar to experiencing
gastroenteritis, severe inﬂuenza, anxiety, and
dysphoria concurrently.

Fully developed
withdrawal
Short-acting opioids:
1–3 days after last use

Severity of withdrawal can indicate a patient’s
level of physical dependence and can inform
medication choices and dosing decisions. The
duration of withdrawal depends on the speciﬁc
opioid from which the patient is withdrawing and
can last 1 to 4 weeks. After the initial withdrawal
phase is complete, many patients experience a
prolonged phase of dysphoria, craving, insomnia,
and hyperalgesia that can last for weeks or months.
Assess opioid withdrawal in the physical exam
by noting physical signs and symptoms (Exhibit
2.10). Structured measures (e.g., Clinical Opiate
Withdrawal Scale [COWS]; Clinical Institute
Narcotic Assessment Scale for Withdrawal
Symptoms) can help standardize documentation
of signs and symptoms to support diagnosis,
initial management, and treatment planning. See
the “Resources” section for links to standardized

PHYSICAL
SIGNS
SYMPTOMS

Long-acting opioids:
72–96 hours after last
use
Fully developed
withdrawal
Short-acting opioids:
1–3 days after last use
Long-acting opioids:
72–96 hours after last
use
Total duration of withdrawal:
Short-acting opioids: 7–10 days

Long-acting opioids: 14 days or more

scales. Part 3 of this TIP covers withdrawal symptom
documentation for pharmacotherapy initiation.

2-12

A159

Part 2 of 5—Addressing Opioid Use Disorder in General Medical Settings

The physical signs of opioid misuse vary
depending on the route of ingestion:
Patients who primarily smoke or sniff
(“snort”) opioids or take them orally often
have few physical signs of use other than
signs of intoxication and withdrawal.
However, snorting can cause congestion
and damage nasal mucosa.
Patients who inject opioids may develop:
− Sclerosis or scarring of the veins and
needle marks, or “track marks,” in the
arms, legs, hands, neck, or feet
(intravenous use).
− Edema in the foot, hand, or both
(common in injection use, but may occur
in oral use).
− Abscesses or cellulitis.
− Jaundice, caput medusa, palmar
erythema, spider angiomata, or an
enlarged or hardened liver secondary
to liver disease.
− Heart murmur secondary to endocarditis.

TIP 63

Obtain Appropriate Laboratory Tests
Urine or oral uid drug testing
Urine or oral ﬂuid drug testing is useful before
initiating OUD pharmacotherapy. Testing
establishes a baseline of substances the patient
has used so that the provider can monitor the
patient’s response to treatment over time.
Testing for a range of commonly used substances
helps conﬁrm patient histories, facilitates discussion of recent drug use and symptoms, and
aids in diagnosing and determining severity of
SUDs. Drug testing is an important tool in the
diagnosis and treatment of addiction. A national
guideline on the use of drug testing is available
from ASAM.59 Exhibit 2.11 provides guidance on
talking with patients about drug testing.
During ongoing pharmacotherapy
with buprenorphine or methadone,
drug testing can conﬁrm medication
adherence.

EXHIBIT 2.11. Patient–Provider Dialog: Talking About Drug Testing
Frame drug testing in a clinical, nonpunitive way. For example, before obtaining a drug test, ask the
patient, “What do you think we’ll ﬁnd on this test?” The patient’s response is often quite informative and
may make the patient less defensive than confrontation with a positive test result.
SCENARIO: A provider discusses urine drug testing with a patient being assessed for OUD treatment with
medication.
Provider:

When we assess patients for medication for opioid addiction, we always check urine samples
for drugs.

Patient:

I’ll tell you if I used. You don’t need to test me.

Provider:

Thank you, I really appreciate that. The more we can talk about what’s going on with you, the
more I can help. I’m not checking the urine to catch you or because I don’t trust you. I trust
you. I can see how motivated you are. But I don’t trust the addiction because I know how
powerful addiction can be, too. To monitor your safety on medication and help determine
what other services you may need, it’s important for us to test you periodically and discuss
the results. Does that sound okay?

Patient:

Yeah, that makes sense.

2-13

A160

TIP 63

Medications for Opioid Use Disorder

To assess and manage patients with OUD
properly, providers must know which tests to
order and how to interpret results. There are
many drug testing panels; cutoffs for positive
results vary by laboratory. One widely used
panel, the NIDA-5, tests for cannabinoids,
cocaine, amphetamines, opiates, and phencyclidine. Additional testing for benzodiazepines, the
broader category of opioids, and speciﬁc drugs
commonly used in the patient’s locality may be
warranted. The typical opioid immunoassay will
only detect morphine, which is a metabolite
of heroin, codeine, and some other opioids.
The typical screen will not detect methadone,
buprenorphine, or fentanyl and may not detect
hydrocodone, hydromorphone, or oxycodone.
Speciﬁc testing is needed to identify these
substances.

Co-occurring SUDs require separate,
speciﬁc treatment plans.
Testing for substances that can complicate
OUD pharmacotherapy is essential. Testing
for cocaine, benzodiazepines, and methamphetamine is clinically important because these and
other substances (and related SUDs, which may
require treatment in their own right), especially
benzodiazepines, can complicate pharmacotherapy for OUD. Benzodiazepine and other sedative
misuse can increase the risk of overdose among
patients treated with opioid agonists. When
assessing benzodiazepine use, note that typical
benzodiazepine urine immunoassays will detect
diazepam but perhaps not lorazepam or clonazepam. Providers must speciﬁcally request testing
for these two benzodiazepines. Exhibit 2.12
shows urine drug testing windows of detection.

EXHIBIT 2.12. Urine Drug Testing Window of Detection60,61
DRUG

WINDOW OF
DETECTION*

POSITIVE TEST

COMMENTS

Amphetamine;
methamphetamine;
3,4-methylenedioxymethamphetamine

Amphetamine

1–2 days

False positives with bupropion,
chlorpromazine, desipramine, ﬂuoxetine,
labetalol, promethazine, ranitidine,
pseudoephedrine, trazadone, and
other common medications. Conﬁrm
unexpected positive results with the
laboratory.

Barbiturates

Barbiturates

Up to 6 weeks

N/A

Benzodiazepines

Benzodiazepines

1–3 days; up to 6
weeks with heavy
use of long-acting
benzodiazepines

Immunoassays may not be sensitive
to therapeutic doses, and most
immunoassays have low sensitivity to
clonazepam and lorazepam. Check with
your laboratory regarding sensitivity and
cutoffs. False positives with sertraline or
oxaprozin.

*Detection time may vary depending on the cutoff.
Continued on next page

2-14

A161

TIP 63

Part 2 of 5—Addressing Opioid Use Disorder in General Medical Settings

EXHIBIT 2.12. Urine Drug Testing Window of Detection (continued)
DRUG

POSITIVE TEST

WINDOW OF
DETECTION*

COMMENTS

Buprenorphine

Buprenorphine

3–4 days

Will screen negative on opiate screen.
Tramadol can cause false positives. Can be
tested for speciﬁcally.

Cocaine

Cocaine,
benzoylecgonine

2–4 days; 10–22
days with heavy
use

N/A

Codeine

Morphine,
codeine,
high-dose
hydrocodone

1–2 days

Will screen positive on opiate
immunoassay.

Fentanyl

Fentanyl

1–2 days

Will screen negative on opiate screen. Can
be tested for speciﬁcally. May not detect all
fentanyl-like substances.62

Heroin

Morphine,
codeine

1–2 days

Will screen positive on opiate
immunoassay. 6-monoacetylmorphine, a
unique metabolite of heroin, is present in
urine for about 6 hours. Can be tested for
speciﬁcally to distinguish morphine from
heroin, but this is rarely clinically useful.

Hydrocodone

Hydrocodone,
hydromorphone

2 days

May screen negative on opiate
immunoassay. Can be tested for
speciﬁcally.

Hydromorphone

May not be
detected

1–2 days

May screen negative on opiate
immunoassay. Can be tested for
speciﬁcally.

Marijuana

Tetrahydrocannabinol

Infrequent
use of 1–3 days;
chronic use of
up to 30 days

False positives possible with efavirenz,
ibuprofen, and pantoprazole.

Methadone

Methadone

2–11 days

Will screen negative on opiate screen. Can
be tested for speciﬁcally.

Morphine

Morphine,

1–2 days

Will screen positive on opiate
immunoassay. Ingestion of poppy plant/
seed may screen positive.

1–1.5 days

Typically screens negative on opiate
immunoassay. Can be tested for
speciﬁcally.

hydromorphone
Oxycodone

Oxymorphone

*Detection time may vary depending on the cutoff.

2-15

A162

TIP 63

Medications for Opioid Use Disorder

Positive opioid tests can conﬁrm recent
use. Document recent use before starting
patients on buprenorphine or methadone.
Positive methadone or buprenorphine tests are
expected for patients receiving these treatments.
Positive opioid tests contraindicate starting
naltrexone.
Negative opioid test results require careful
interpretation. A patient may test negative
for opioids despite presenting with opioid
withdrawal symptoms if he or she hasn’t used
opioids for several days. A negative opioid test
in the absence of symptoms of opioid withdrawal
likely indicates that the patient has little or no
opioid tolerance, which is important information
for assessment and treatment planning. Consider
that the opioid the patient reports using may not
be detected on the particular immunoassay.
Screening tests are not deﬁnitive; false positive
and false negative test results are possible.
Conﬁrmatory testing should follow all unexpected
positive screens. Urine drug testing will detect
metabolites from many prescription opioids but
miss others, so it is easy to misinterpret results in
patients taking these medications.63 False positives
are also common in amphetamine testing.64
Point-of-service testing provides the opportunity to discuss results with patients immediately. However, cutoffs for positive screens are
not standardized across point-of-service tests.
Know the speciﬁcations of the screens used.65

Other laboratory tests
Patients with OUD, particularly those who
inject drugs, are at risk for liver disease and
blood-borne viral infections. Pregnancy is
another important consideration in determining
treatment course. Recommended laboratory
tests for patients with OUD include:
Pregnancy testing, which is important because:
It is not advisable for patients to start naltrexone during pregnancy.
Pregnant women treated for active OUD
typically receive buprenorphine or methadone.

The American College of Obstetricians
and Gynecologists and a recent SAMHSAconvened expert panel on the treatment
of OUD in pregnancy66 recommend that
pregnant women with OUD receive opioid
receptor agonist pharmacotherapy.67
Providers should refer pregnant women
to prenatal care or, if qualiﬁed, provide it
themselves.
Liver function tests (e.g., aspartate aminotransferase, alanine aminotransferase, bilirubin), which can:
Guide medication selection and dosing.
Rule out severe liver disease, which may
contraindicate OUD medication (see Part 3
of this TIP).
Hepatitis B and C serology, which can indicate:
Patients with positive tests (evaluate for
hepatitis treatment).
The need to administer hepatitis A and B and
tetanus vaccines, if appropriate.
HIV serology, which can help identify:
Patients who are HIV positive (evaluate for
antiretroviral treatment).
Patients who are HIV negative (evaluate
for preexposure prophylaxis and targeted
education).

Review the PDMP
Before initiating OUD medication, providers
should check their states’ PDMPs to
determine whether their patients receive
prescriptions for controlled substances
from other healthcare professionals. Using
the PDMP improves the ability to manage the
risks of controlled substances and to identify
potentially harmful drug interactions.68 Although
OTPs are not permitted to report methadone
treatment to PDMPs, pharmacies that dispense
buprenorphine and other controlled substances
do report to PDMPs. Medications that need
monitoring and required frequency of updates
vary by state (for more information about state
PDMPs, visit www.pdmpassist.org/content
/state-proﬁles).

2-16

A163

Part 2 of 5—Addressing Opioid Use Disorder in General Medical Settings

Determine Diagnosis and Severity of OUD
Use DSM-5 criteria to make an OUD diagnosis
(Exhibit 2.13).69 Patients who meet two or three
criteria have mild OUD. Those meeting four
or ﬁve criteria have moderate OUD, and those
meeting six or more criteria have severe OUD.70
A printable checklist of DSM-571 criteria is
available in the Part 2 Appendix.

TIP 63

RESOURCE ALERT
Shared Decision-Making Tool for
Patients and Family Members
SAMHSA’s online shared decision-making tool
for patients is a good information source for
patients to review before their visit or in the

Treatment Planning or Referral

ofﬁce (http://brsstacs.com/Default.aspx). In

Making Decisions About Treatment

friends, and other potential recovery supports

Start by sharing the diagnosis with patients
and hearing their feedback. Patients with
OUD need to make several important
treatment decisions:

(e.g., 12-Step program sponsors, employers,

addition, providers can suggest that family,

clergy) read educational material tailored for
them. See Medication-Assisted Treatment
for Opioid Addiction: Facts for Families and
Friends (http://mha.ohio.gov/Portals/0/assets

Whether to begin medication to treat OUD.
What type of OUD medication to take.

/Initiatives/GCOAT/SMA14-4443.pdf).

EXHIBIT 2.13. DSM-5 Criteria for OUD72
A problematic pattern of opioid use leading to clinically signiﬁcant impairment or distress, as manifested
by at least two of the following, occurring within a 12-month period:
1.
2.
3.
4.
5.
6.

Opioids are often taken in larger amounts or over a longer period of time than was intended.
There is a persistent desire or unsuccessful efforts to cut down or control opioid use.
A great deal of time is spent in activities to obtain the opioid, use the opioid, or recover from its effects.
Craving, or a strong desire or urge to use opioids.
Recurrent opioid use resulting in a failure to fulﬁll major role obligations at work, school, or home.
Continued opioid use despite having persistent or recurrent social or interpersonal problems caused
by or exacerbated by the effects of opioids.
7. Important social, occupational, or recreational activities are given up or reduced because of opioid use.
8. Recurrent opioid use in situations in which it is physically hazardous.
9. Continued opioid use despite knowledge of having a persistent or recurrent physical or
psychological problem that’s likely to have been caused or exacerbated by the substance.
10. Tolerance,* as deﬁned by either of the following:
a. A need for markedly increased amounts of opioids to achieve intoxication or desired effect
b. A markedly diminished effect with continued use of the same amount of an opioid
11. Withdrawal,* as manifested by either of the following:
a. The characteristic opioid withdrawal syndrome
b. The same—or a closely related—substance is taken to relieve or avoid withdrawal symptoms
*This criterion is not met for individuals taking opioids solely under appropriate medical supervision.
Severity: mild = 2–3 symptoms; moderate = 4–5 symptoms; severe = 6 or more symptoms

2-17

A164

TIP 63

Medications for Opioid Use Disorder

Where and how to access desired treatment.
Whether to access potentially beneﬁcial
mental health, recovery support, and other
ancillary services, whether or not they choose
pharmacotherapy.

Part 1 of this TIP gives an overview of
the three FDA-approved medications
used to treat OUD. Part 3 covers the
details of their use.

Offer information to patients about the
various treatments for OUD and collaborate
with them to make decisions about treatment
plans or referrals (Exhibit 2.14). Consider
discussing:
Indications, risks, and beneﬁts of medications
and alternatives to pharmacotherapy.
Types of settings that deliver medications
(including healthcare professionals’ own
practice locations, if applicable).
Availability of and accessibility to treatment
(i.e., transportation).
Alternative treatments without medication
(e.g., residential treatment, which often offers
medically supervised opioid withdrawal).
Costs of treatment with OUD medication,
including insurance coverage and affordability.
Give patients’ expressed preferences significant weight when making decisions. Patient
characteristics can’t reliably predict greater likelihood of success with one approved medication or
another. For detailed information on medications
to treat OUD, refer to Part 3 of this TIP.
Strategies to engage patients in shared
decision making include:
Indicating to patients a desire to collaborate
with them to ﬁnd the best medication and
treatment setting for them.
Including family members in the treatment
planning process, if possible (and only with
patients’ consent).
Exploring what patients already know
about treatment options and dispelling
misconceptions.
Offering information on medications and their
side effects, beneﬁts, and risks (Exhibit 2.14;
Part 3).

Informing patients of the requirements of the
various treatment options (e.g., admission
criteria to an OTP; frequency of visits to an
OBOT or OTP).
Offering options, giving recommendations
after deliberation, and supporting patients’
informed decisions.

Understanding Treatment Settings and
Services
Support patient preferences for treatment
settings and services. Some patients prefer to
receive OUD medication via physicians’ ofﬁces.
Others choose outpatient treatment programs
that provide opioid receptor agonist treatment
for medically supervised withdrawal (with or
without naltrexone) or for ongoing opioid
receptor agonist maintenance treatment. Still
others may want OUD treatment in a residential
program with or without pharmacotherapy
(Exhibit 2.15).
Many patients initially form a preference for a
certain treatment without knowing all the risks,
beneﬁts, and alternatives. Providers should
ensure that patients understand the risks and
beneﬁts of all options. Without this understanding, patients can’t give truly informed consent.

Outpatient OUD Treatment Settings
Refer patients who prefer treatment with
methadone or buprenorphine via an OTP and
explain that:

2-18

A165

They will have to visit the program from 6 to 7
times per week at ﬁrst.
Additional methadone take-home doses are
possible at every 90 days of demonstrated
progress in treatment.
Buprenorphine take-home doses are not
bound by the same limits as methadone.

TIP 63

Part 2 of 5—Addressing Opioid Use Disorder in General Medical Settings

EXHIBIT 2.14. Comparison of OUD Medications To Guide Shared
Decision Making
CATEGORY

BUPRENORPHINE

METHADONE

NALTREXONE

Appropriate
patients

Typically for patients
with OUD who are
physiologically dependent
on opioids

Typically for patients
with OUD who are
physiologically dependent
on opioids and who meet
federal criteria for OTP
admission

Typically for patients with
OUD who are abstinent
from short-acting opioids
for 7 days and long-acting
opioids for 10–14 days

Outcome:
Retention in
treatment

Higher than treatment
without medication and
treatment with placebo73

Higher than treatment
without OUD medication
and treatment with
placebo74

Treatment retention with
oral naltrexone is no better
than with placebo or no
medication;75 for XR-NTX,
treatment retention is
higher than for treatment
without OUD medication
and treatment with
placebo;76,77 treatment
retention is lower than
with opioid receptor
agonist treatment

Outcome:
Suppression of
illicit opioid use

Effective

Effective

Effective

Outcome:
Overdose
mortality

Lower for people in
treatment than for
those not in it

Lower for people in
treatment than for
those not in it

Unknown

Location/
frequency of
ofﬁce visits

Ofﬁce/clinic: Begins daily
to weekly, then tailored to
patient’s needs

OTP only: 6–7 days/week
initially; take-homes are
allowed based on time
in treatment and patient
progress

Ofﬁce/clinic: Varies f rom
weekly to monthly

OTP physicians order the
medication; nurses and
pharmacists administer
and dispense it

Physicians, NPs,* and PAs*

OTP: Can treat with
buprenorphine 6–7 days/
week initially; takehomes are allowed
without the time-intreatment requirements of
methadone
Who can
prescribe/order?

Physicians, NPs,* and
PAs* possessing federal
waiver can prescribe
and dispense; can be
dispensed by a community
pharmacy or an OTP

*NPs and PAs should check with their state to determine whether prescribing buprenorphine, naltrexone, or both is
within their allowable scope of practice.
Continued on next page

2-19

A166

TIP 63

Medications for Opioid Use Disorder

EXHIBIT 2.14. Comparison of OUD Medications To Guide Shared
Decision Making (continued)
CATEGORY

BUPRENORPHINE

METHADONE

NALTREXONE

Administration

Sublingual/buccal; implant
by specially trained
provider, and only for
stabilized patients

Oral

Oral or intramuscular
(Note: Oral naltrexone
is less effective than the
other OUD medications.)

Misuse/diversion
potential

Low in OTPs or other
settings with observed
dose administration;
moderate for takehome doses; risk can be
mitigated by providing
take-homes to stable
patients and a diversion
control plan

Low in OTPs with directly
observed therapy;
moderate for takehome doses; risk can be
mitigated by a diversion
control plan

None

Sedation

Low unless concurrent
substances are
present (e.g., alcohol,
benzodiazepines)

Low unless dose titration
is too quick or dose is
not adjusted for the
presence of concurrent
substances (e.g., alcohol,
benzodiazepines)

None

Risk of
medicationinduced respiratory depression

Very rare; lower than
methadone

Rare, although higher than None
buprenorphine; may be
elevated during the ﬁrst 2
weeks of treatment or in
combination with other
sedating substances

Risk of
precipitated
withdrawal
when starting
medication

Can occur if started too
prematurely after recent
use of other opioids

None

Severe withdrawal is
possible if period of
abstinence is inadequate
before starting medication

Withdrawal
symptoms on
discontinuation

Present; lower than
methadone if abruptly
discontinued

Present; higher than
buprenorphine if abruptly
discontinued

None

Most common
side effects

Constipation, vomiting,
headache, sweating,
insomnia, blurred vision

Constipation, vomiting,
sweating, dizziness,
sedation

Difﬁculty sleeping, anxiety,
nausea, vomiting, low
energy, joint and muscle
pain, headache, liver
enzyme elevation
XR-NTX: Injection site pain,
nasopharyngitis, insomnia,
toothache

D. Coffa, December 2017 (personal communication). Adapted with permission.

2-20

A167

Part 2 of 5—Addressing Opioid Use Disorder in General Medical Settings

Outpatient medical settings

EXHIBIT 2.15. Treatment Setting
Based on Patient’s Choice of
OUD Medication
MEDICATION

Healthcare professionals cannot provide
methadone in their clinics. Only those with a
buprenorphine waiver can provide buprenorphine. Any healthcare professional with a license
can provide naltrexone.

POSSIBLE TREATMENT
SETTING

Buprenorphine

Ofﬁce-based treatment,
outpatient or residential
SUD treatment programs
(prescriber must have a
federal waiver), OTP

Methadone

OTP

Naltrexone

Ofﬁce-based treatment,
outpatient or residential
SUD treatment programs,
OTP

TIP 63

Counseling and drug testing are required
parts of OTP treatment.
Some programs also offer case management,
peer support, medical services, mental
disorder treatment, and other services.
Try to arrange OTP intake appointments for
patients before they leave the ofﬁce. If no
immediate openings are available, consider
starting buprenorphine as a bridge or alternative
to the OTP.
Gauge the appropriate intensity level
for patients seeking non-OTP outpatient
treatment for OUD. These programs range
from low intensity (individual or group counseling
once to a few times a week) to high intensity
(2 or more hours a day of individual and group
counseling several days a week). Appropriate
treatment intensity depends on each patient’s:78
Social circumstances.
Severity of addiction.
Personal preferences.
Psychiatric/psychological needs.
Ability to afford treatment at a given intensity.

Once providers obtain the necessary waiver,
they should offer buprenorphine treatment
to all patients who present with OUD if such
treatment is available and appropriate. Referring
them to treatment elsewhere will likely result in
delay or lack of patient access to care. Develop
a treatment plan to determine where patients
will receive continuing care (see the “Treatment
Planning” section). Continue to provide naltrexone for patients who were already receiving
it from some other setting (e.g., a prison, a
specialty addiction treatment program) or for
patients who meet opioid abstinence requirements and wish to take a medication for relapse
prevention.

Residential drug treatment settings
Patients who have OUD, concurrent other
substance use problems, unstable living
situations, or a combination of the three may
be appropriate candidates for residential
treatment, which can last from a week to
several weeks or more. Inform patients about
the services and requirements typical of this
treatment setting.
Some patients taking buprenorphine (or
methadone) who have other SUDs, such as
AUD or cocaine use disorder, can beneﬁt
from residential treatment. If such treatment
is indicated, determine whether the residential
program allows patients to continue their opioid
receptor agonist medication while in treatment.
Some residential programs require patients
to discontinue these medications to receive
residential treatment, which could destabilize
patients and result in opioid overdose.

2-21

A168

TIP 63

Medications for Opioid Use Disorder

Residential treatment programs typically
provide:

RESOURCE ALERT

Room and board.
Recovery support.
Counseling.
Case management.
Medically supervised withdrawal (in some
programs).
Starting buprenorphine or naltrexone (in some
programs).
Onsite mental health services (in some cases).
Buprenorphine or methadone continuation for
patients already enrolled in treatment prior
to admission if their healthcare professionals
have waivers or their OTP permits.
Transitioning out of residential settings
requires careful planning. During a patient’s
stay in residential treatment, plan for his or her
transition out of the program. A good transition
plan maximizes the likelihood of continuity of
care after discharge. Plans should also address
overdose risk. Patients who are no longer

Treatment and Provider Locator
SAMHSA’s Behavioral Health Treatment
Services Locator (https://ﬁndtreatment.samhsa
.gov) provides information on drug and alcohol
treatment programs across states. Another
SAMHSA tool identiﬁes the locations of
buprenorphine providers (www.samhsa.gov
/medication-assisted-treatment/physician
-program-data/treatment-physician-locator).

opioid tolerant are at heightened risk of opioid
overdose if they don’t get OUD medication at
discharge. Providing XR-NTX, buprenorphine,
or methadone during treatment and continuing
the medication after discharge can help prevent
return to opioid use after discharge. Providing a
naloxone prescription and overdose prevention
information is appropriate.

RESOURCE ALERT
Maintaining Conﬁdentiality
Providers who treat patients with addiction

Referrals to other behavioral health services

must know substance use-related disclosure

require consent for sharing information on

rules and conﬁdentiality requirements. SAMHSA’s

treatment progress.

webpage lists frequently asked questions on

Healthcare professionals should discuss

substance use conﬁdentiality and summarizes

conﬁdentiality and consent with patients

federal regulations about disclosure and patient

during the referral process.

records that federal programs maintain on

OUD pharmacotherapy prescribers may

addiction treatment (https://www.samhsa.gov

consider requiring patient consent for

/about-us/who-we-are/laws-regulations/conﬁden

communicating with treatment programs as

tiality-regulations-faqs). Key points include:

a condition of receiving OUD treatment.

Conﬁdentiality regulations prohibit specialty

Treatment program staff members can help

SUD treatment programs from sharing

identify returns to substance use, or risk of such,

information with healthcare professionals

before the prescriber and can work with the

about patients’ SUD treatment without speciﬁc

prescriber to stabilize patients.

consent from patients.

2-22

A169

Part 2 of 5—Addressing Opioid Use Disorder in General Medical Settings

Determining OUD Service Intensity and
Ensuring Follow-Through

TIP 63

RESOURCE ALERT

Use ASAM placement criteria for guidance on
selecting the right level of OUD treatment.
ASAM criteria deﬁne the level of care and key
features that may make a given level (e.g.,
residential, intensive outpatient, standard
outpatient) appropriate for a patient79 (see
the “Treatment Planning” section). To help
patients select programs, note that some focus
on speciﬁc populations (e.g., gender-speciﬁc
programs; parents with children; lesbian,
gay, bisexual, transgender, and questioning
populations).
Make an appointment with the referral
program during the patient’s visit rather than
giving the patient a phone number to call.
Follow up with the patient later to determine
whether he or she kept the appointment. Doing
so increases the chances of a successful referral.

Referring patients to behavioral health and
support services
Discuss patients’ potential need for behavioral
health, peer support, and other ancillary
services, like:

Mutual-Support Groups
For an introduction to mutual-support groups,
see SAMHSA’s Substance Abuse in Brief, “An
Introduction to Mutual Support Groups for
Alcohol and Drug Abuse” (https://store.samhsa
.gov/shin/content/SMA08-4336/SMA08-4336.pdf).

buprenorphine prescriber. There is evidence of
beneﬁts to adding contingency management to
pharmacotherapy.81,82,83,84,85
Make referrals to mutual-help groups.
Patients may wish to participate in mutualhelp groups (e.g., Alcoholics Anonymous,
Narcotics Anonymous, Methadone Anonymous,
Medication-Assisted Recovery Services, SMART
Recovery) in addition to or instead of specialized
treatment. These programs can be highly
supportive, but they may pressure patients to
stop taking OUD medication. If possible, refer
patients to groups that welcome patients who
take OUD medication.
Make referrals to medical and mental health
services. Respectful, consistent medical care can
support patients’ efforts to recover from OUD
and all other SUDs. As for any patient, providers
should make appropriate referrals for patients
with OUD to receive medical or mental health
services beyond the providers’ own scope of
practice.

Drug and alcohol counseling.
Mental health services.
Case management.
Mutual-help groups.
Peer recovery support services.
Offer referrals to counseling and tailored
psychosocial support to patients receiving
OUD medication (Exhibit 2.16).
Drug Addiction Treatment Act of 2000
legislation requires that buprenorphine prescribers be able to refer patients to counseling,
but making referrals is not mandatory.80 Many
patients beneﬁt from referral to mental health
services or specialized addiction counseling
and recovery support services. However, four
randomized trials found no extra beneﬁt to
adding adjunctive counseling to well-conducted
medical management visits delivered by the

Patients with depression, anxiety disorders, and
other mental disorders may be more likely to
succeed in addiction treatment if those conditions are managed.86 If the severity or type of
a patient’s psychiatric comorbidity is beyond a
provider’s scope of practice, the provider should
refer the patient to mental health services as
appropriate.
Make referrals to ancillary services. Besides
medical care and mental health services, OUD
patients, like patients with other illnesses, may

2-23

A170

TIP 63

Medications for Opioid Use Disorder

EXHIBIT 2.16. Referring Patients Who Receive OUD Pharmacotherapy
to Behavioral Health Therapies
Is the patient
willing to engage
in additional
behavioral health
therapies?
Yes

No
Offer best advice and

Is the patient

ongoing motivational

entering an OTP

interviewing; revisit

for methadone or

offer for behavioral

intensive treatment?

health therapies.

Yes

No

Counseling, peer

Identify speciﬁc

support, and case

needs, and refer

management will

appropriately to

likely be provided

one or more of

through the OTP.

the following:

Peer support groups:
Counseling:

Alcoholics Anonymous,

Individual, family,

Narcotics Anonymous,

and/or group

SMART Recovery,

Housing,
Case

Vocational

transportation,

management

training

food, legal, and other
support programs

buprenorphine groups

RESOURCE ALERT
Guidance on Providing Integrated Care
Fragmented healthcare services are less

The Agency for Healthcare Research and Quality’s

likely to meet all patient needs. Integrated

report Medication-Assisted Treatment Models of Care

medical and behavioral healthcare delivery

for Opioid Use Disorder in Primary Care Settings.

can effectively provide patient-focused,

(www.ncbi.nlm.nih.gov/books/NBK402352).

comprehensive treatments that address

The Agency for Healthcare Research and Quality’s

the full range of symptoms and service

Academy for Integrating Behavioral Mental Health and

needs patients with OUD often have.87 The

Primary Care. (https://integrationacademy.ahrq.gov).

key components of integration should be

SAMHSA’s Center for Integrated Health Solutions’

in place to make sure that SUD treatment

Resource Library for providing integrated care. (www

in a primary care setting works. For more

.samhsa.gov/integrated-health-solutions/resource-library

information about how to provide integrat-

?combine=substance+abuse&=Apply%20or%20https://

ed services for individuals taking medica-

www.samhsa.gov/integrated-health-solutions).

tion for OUD, see:

2-24

A171

TIP 63

Part 2 of 5—Addressing Opioid Use Disorder in General Medical Settings

OPPORTUNITY ALERT
Becoming an OUD Medication Treatment Provider
SAMHSA strongly urges

are assigned an additional DEA

Assisted Treatment (PCSS-MAT)

physicians, NPs, and PAs to

registration number (usually

provides the required 8-hour

obtain waivers that will qualify

their existing number with an

OUD medication waiver course

them to offer buprenorphine

added “X”).

for physicians and 24-hour

pharmacotherapy. They
can become qualiﬁed to
use buprenorphine to taper
appropriate patients with OUD
off illicit or prescription opioids
or to provide long-term OUD
treatment.
Only healthcare professionals
with a federal waiver may
prescribe buprenorphine for
the treatment of OUD. To get
waivers, providers must meet set
criteria, complete buprenorphine
training (online or in person),
and apply for a waiver from
SAMHSA. Waivered prescribers

NPs and PAs need to meet
additional criteria for waivers.88
Check with the state licensing
board about restrictions and
requirements at the state level
before applying for a waiver.
Waiver training: ASAM, the
American Academy of Addiction
Psychiatry, the American
Psychiatric Association, and the
American Osteopathic Academy
of Addiction Medicine all provide

for free (https://pcssmat.org
/education-training/mat-waiver
-training). ASAM and others also
provide NP and PA courses.
New prescribers can beneﬁt
from mentorship from
experienced providers in
their practice or community.
Mentorship is available for free
from PCSS-MAT (http://pcssmat
.org/mentoring).

the waiver training courses for

For detailed information on

physicians. Providers’ Clinical

prescribing OUD medications,

Support System for Medication

review Part 3 of this TIP.

Every visit is a chance to help patients begin
healthy changes and move toward treatment
and recovery. Patients may not be ready to
change right away. Successfully quitting drug use
can take many attempts. Returns to substance
use, even after periods of remission, are
expected parts of the recovery process.

need more support in some areas, including
ancillary services such as:

•
•
•
•
•
•

waiver course for NPs and PAs

Case management.
Food access.
Vocational training.
Housing.
Transportation.
Legal assistance.

Helping patients who are not ready to
engage in OUD treatment
Help reluctant patients be safer and approach
readiness. Patients may seem unwilling to discuss
their drug use if they’re ashamed or fear being
judged. Accepting, nonjudgmental attitudes help
patients overcome shame and discuss concerns
honestly while also instilling hope.

Patients with OUD are much more likely to
die than their peers,89,90 and HIV, hepatitis C,
and skin and soft tissue infections are common
among this population. Help reduce these OUDrelated risks by educating patients about:

•
•
•
•

Using new syringes.
Avoiding syringe sharing.
Avoiding sharing other supplies during the
injection process.
Preventing opioid overdose (see the
“Preventing Opioid-Related Overdose” section).

2-25

A172

TIP 63

Medications for Opioid Use Disorder

Obtaining overdose prevention information and resources (e.g., SAMHSA Opioid
Overdose Prevention Toolkit [https://store
.samhsa.gov/product/SAMHSA-Opioid
-Overdose-Prevention-Toolkit/SMA16-4742] ).
Obtaining naloxone and instructions for its use.
Refer patients to syringe exchange sites.
The North American Syringe Exchange Network
provides options (see the “Syringe Exchange”
section).

Preventing Opioid-Related Overdose
Every patient who misuses opioids or has
OUD should receive opioid overdose prevention education and a naloxone prescription.91
Healthcare professionals should educate
patients and their families about overdose risk,
prevention, identiﬁcation, and response (Exhibit
2.17). FDA has approved an autoinjectable
naloxone device (Evzio) and a naloxone nasal
spray (Narcan) for use by patients and others.
For information about all forms of naloxone,

EXHIBIT 2.17. Opioid Overdose: Risk, Prevention, Identiﬁcation,
and Response
Overdose risk

Overdose identiﬁcation

Using heroin (possibly mixed with illicitly
manufactured fentanyl or fentanyl analogs)
Using prescription opioids that were not
prescribed
Using prescription opioids more frequently or
at higher doses than prescribed
Using opioids after a period of abstinence or
reduced use (e.g., after medically supervised
withdrawal or incarceration)
Using opioids with alcohol, benzodiazepines,
or both

Fingernails or lips are blue or purple.
Breathing or heartbeat is slow or stopped.
The person is vomiting or making gurgling
noises.
The person can’t be awakened or is unable to
speak.

Overdose response
Call 9-1-1.
Administer naloxone (more than one dose may
be needed to restore adequate spontaneous
breathing).
Perform rescue breathing. If certiﬁed to provide
cardiopulmonary resuscitation, perform chest
compressions if there is no pulse.
Put the person in the “recovery position,” on his
or her side and with the mouth facing to the
side to prevent aspiration of vomit, if he or she is
breathing independently.
Stay with the person until emergency services
arrive. Naloxone’s duration of action is 30–90
minutes. The person should be observed
after this time for a return of opioid overdose
symptoms.

Overdose prevention
Don’t use opioids that were not prescribed.
Take medications only as prescribed.
Don’t use drugs when you are alone.
Don’t use multiple substances at once.
Have naloxone available and make sure others
know where it is and how to use it.
Use a small “test dose” if returning to opioid use
after a period of abstinence, if the substance
appears altered, or if it has been acquired from
an unfamiliar source. Beware: This doesn’t
guarantee safety; illicitly manufactured fentanyl
or other substances may be present in the drug,
and any use may be fatal.

Adapted from material in the public domain.92

2-26

A173

Part 2 of 5—Addressing Opioid Use Disorder in General Medical Settings

The United States is experiencing
a death epidemic related to opioid
overdose. Opioids (including
prescription opioids and heroin) killed
more than 33,000 people in 2015,
more than in any prior year. Almost
half of opioid overdose deaths involve
prescription opioids. Since 2010, heroin
overdose deaths have more than
quadrupled.93,94 Overdose deaths from
illicit fentanyl have risen sharply.95

TIP 63

prescribing, and patient and community
education, see the SAMHSA Opioid Overdose
Prevention Toolkit (https://store.samhsa.gov
/product/SAMHSA-Opioid-Overdose-Prevention
-Toolkit/SMA16-4742).
Municipalities with community-based naloxone
distribution programs have seen substantial
decreases in opioid overdose death rates.96,97
Many syringe exchange programs also dispense
naloxone. For information and resources on
prescribing naloxone for overdose prevention,
including educational patient handouts and
videos, see the “Opioid-Related Overdose
Prevention” section.

2-27

A174

TIP 63

Medications for Opioid Use Disorder

Resources

U.S. Department of Health and Human
Services’ Million Hearts Initiative: Provides
templates for developing and guidance on
implementing tobacco cessation programs
and guidance on implementing them as part
of clinical care. https://millionhearts.hhs.gov
/tools-protocols/protocols.html

The following selected resources address key
content presented in Part 2. Part 5 of this TIP
includes comprehensive resources on topics
pertaining to substance misuse and medications
to treat OUD.

Centers for Disease Control and Prevention
(CDC): Offers resources and information for
patients and clinicians; includes a webpage
with resource links for clinicians on treating
tobacco dependence. www.cdc.gov/tobacco
/index.htm and www.cdc.gov/tobacco/basic
_information/related_links/index.htm

Alcohol and Drug Use Screening
American Academy of Addiction Psychiatry:
Provides Performance in Practice Clinical
Modules for screening of tobacco use and
AUD. www.aaap.org/education-training
/cme-opportunities
NIAAA, Professional Education Materials:
Provides links to screening, treatment
planning, and general information for clinicians
in outpatient programs. www.niaaa.nih.gov
/publications/clinical-guides-and-manuals
NIDA, Medical and Health Professionals:
Provides resources for providers to increase
awareness of the impact of substance use
on patients’ health and help identify drug
use early and prevent it from escalating to
misuse or addiction. www.drugabuse.gov
/nidamed-medical-health-professionals

Buprenorphine Treatment Locator
SAMHSA, Buprenorphine Treatment
Practitioner Locator: Provides a state-bystate list of providers who offer buprenorphine. www.samhsa.gov/medication-assisted
-treatment/physician-program-data
/treatment-physician-locator

Buprenorphine Training, Mentorship,
and Waivers

Tobacco Screening
American Psychiatric Nursing Association,
Tobacco & Nicotine Use Screening Tools
and Assessments: Provides the Fagerström
screening tools for nicotine dependence and
smokeless tobacco and a screening checklist
for tobacco use. www.apna.org/i4a/pages
/index.cfm?pageID=6150
U.S. Department of Health and Human
Services’ Be Tobacco Free: Provides information for individuals struggling with nicotine
addiction and links for clinicians that provide
guidance on caring for patients with nicotine
addiction. https://betobaccofree.hhs.gov
/health-effects/nicotine-health

2-28

A175

SAMHSA, Buprenorphine Waiver
Management: Provides information on
buprenorphine waivers with links to waiver
applications; explains waiver processes,
requirements, and recordkeeping. www
.samhsa.gov/medication-assisted-treatment
/buprenorphine-waiver-management
SAMHSA, Buprenorphine Training for
Physicians: Provides links to organizations
that train physicians on buprenorphine
treatment. www.samhsa.gov/medication
-assisted-treatment/training-resources
/buprenorphine-physician-training
SAMHSA, Qualify for NPs and PAs Waiver:
Provides information for NPs and PAs about
the buprenorphine waiver training, with links
to trainings and the application process. www
.samhsa.gov/medication-assisted-treatment
/qualify-nps-pas-waivers

Part 2 of 5—Addressing Opioid Use Disorder in General Medical Settings

PCSS-MAT: Provides buprenorphine waiver
training and mentorship for healthcare professionals (physicians, NPs, and PAs); includes
updates and other resources about medication
for OUD. http://pcssmat.org

TIP 63

Department of Veterans Affairs/
Department of Defense, VA/DoD Clinical
Practice Guideline for the Management
of Substance Use Disorders: Provides
substance use disorder practice guidelines.
www.healthquality.va.gov/guidelines/MH/sud
/VADoDSUDCPGRevised22216.pdf

Medication Treatment for OUD

PCSS-MAT: Provides training and mentorship
for healthcare professionals (physicians, NPs,
and PAs) on medications for OUD treatment
including buprenorphine, naltrexone, and
methadone. https://pcssmat.org

SAMHSA, Medication-Assisted Treatment
of Opioid Use Disorder: Provides a clinical
pocket guide for medication treatment for
OUD. https://store.samhsa.gov/shin/content
/SMA16-4892PG/SMA16-4892PG.pdf
SAMHSA, MATx Mobile App to Support
Medication-Assisted Treatment of OUD:
Provides a mobile app to support healthcare
professionals providing medication treatment
for OUD. https://store.samhsa.gov/apps/mat
SAMHSA, Advisory, Sublingual and
Transmucosal Buprenorphine for Opioid
Use Disorder: Review and Update:
Summarizes information on the use of
buprenorphine to treat OUD. https://store
.samhsa.gov/product/Advisory-Sublingual
-and-Transmucosal-Buprenorphine-for
-Opioid-Use-Disorder-Review-and-Update
/SMA16-4938

Syringe Exchange
North American Syringe Exchange
Network: Provides a national directory of
syringe exchange programs in the United
States. https://nasen.org/directory

Opioid-Related Overdose Prevention
Prescribe To Prevent: Provides information
about naloxone prescribing for overdose
prevention, including educational patient
handouts and videos. http://prescribeto
prevent.org

SAMHSA, Clinical Use of Extended-Release
Injectable Naltrexone in the Treatment
of Opioid Use Disorder: A Brief Guide:
Provides a brief review of the use of XR-NTX.
https://store.samhsa.gov/product/Clinical
-Use-of-Extended-Release-Injectable
-Naltrexone-in-the-Treatment-of-Opioid
-Use-Disorder-A-Brief-Guide/SMA14-4892R
ASAM, The ASAM National Practice
Guideline for the Use of Medications in the
Treatment of Addiction Involving Opioid
Use: Provides national practice guidelines
for the use of medications to treat OUD.
www.asam.org/docs/default-source/practice
-support/guidelines-and-consensus-docs
/asam-national-practice-guideline-supplement
.pdf

SAMHSA Opioid Overdose Prevention
Toolkit: Provides healthcare professionals,
communities, and local governments with
material to develop practices and policies to
help prevent opioid-related overdoses and
deaths. It addresses issues for healthcare
professionals, ﬁrst responders, treatment
providers, and those recovering from opioid
overdose as well as their families. https://
store.samhsa.gov/product/SAMHSA
-Opioid-Overdose-Prevention-Toolkit
/SMA16-4742
CDC—Injury Prevention and Overdose:
Provides links and tools for clinicians to help
prevent opioid overdose deaths. https://www
.cdc.gov/drugoverdose/prevention/index.html

2-29

A176

TIP 63

Medications for Opioid Use Disorder

− Opioid Addiction Treatment: A Guide for

NIDA, Opioid Overdose Reversal with
Naloxone (Narcan, Evzio): Provides naloxone
information for providers. www.drugabuse
.gov/related-topics/opioid-overdose
-reversal-naloxone-narcan-evzio

Opioid Withdrawal Scales

Patients, Families, and Friends. https://
www.asam.org/docs/default-source
/publications/asam-opioid-patient-piece
_-5bopt2-5d_3d.pdf

Referral and Treatment Locators

WHO Guidelines for the Psychosocially
Assisted Pharmacological Treatment of
Opioid Dependence: Annex 10: Provides
COWS and other opioid withdrawal scales.
www.ncbi.nlm.nih.gov/books/NBK143183

SAMHSA, OTP Directory: Provides a stateby-state directory of methadone OTPs. https://
dpt2.samhsa.gov/treatment/directory.aspx
SAMHSA, Behavioral Health Treatment
Services Locator: Provides a directory of
treatment facilities. https://ﬁndtreatment
.samhsa.gov

The Clinical Institute Narcotic Assessment
Scale for Withdrawal Symptoms: Provides
a scale that measures signs and symptoms
observed in patients during withdrawal. www
.ncpoep.org/wp-content/uploads/2015/02
/Appendix_7_Clinical_Institute_Narcotic
_Assessment_CINA_Scale_for_Withdrawal
_Symptoms.pdf

SAMHSA, Behavioral Health Treatment
Services Locator—Self-Help, Peer Support,
and Consumer Groups: Provides a directory
for mutual-help groups. https://ﬁndtreatment
.samhsa.gov/locator/link-focSelfGP

Screening, Assessment, and Drug Testing
Resources

Patient and Family Education on
Medications To Treat OUD
SAMHSA Store: Provides patient and family
educational resources about OUD and
medication treatment for OUD; some
resources are available in multiple languages,
including Spanish. https://store.samhsa.gov

− Buprenorphine. https://store.samhsa.gov

/product/The-Facts-about-Buprenorphine
-for-Treatment-of-Opioid-Addiction
/SMA15-4442

− Methadone. https://store.samhsa.gov

/product/What-Every-Individual-Needs-to
-Know-About-Methadone-Maintenance
/SMA06-4123

ASAM Resources: Provides patient and family
education tools about addiction in general
and OUD speciﬁcally.

− Patient Resources. www.asam.org
/resources/patientresources

2-30

A177

NIDA, Screening, Assessment, and Drug
Testing Resources: Provides an evidencebased screening tool chart for adolescents
and adults, drug use screening tool support
materials, and a clinician resource and quick
reference guide for drug screening in general
medical settings, including a brief version of
the ASSIST-lite. www.drugabuse.gov/nidamed
-medical-health-professionals/tool-resources
-your-practice/additional-screening-resources
ASAM, The ASAM Appropriate Use of Drug
Testing in Clinical Addiction Medicine:
Discusses appropriate use of drug testing in
identifying, diagnosing, and treating people
with or at risk for SUDs. www.asam.org
/quality-practice/guidelines-and-consensus
-documents/drug-testing

Part 2 of 5—Addressing Opioid Use Disorder in General Medical Settings

Treatment Planning

TIP 63

An accompanying handbook is also available.
https://store.samhsa.gov/product/Decisions-in
-Recovery-Treatment-for-Opioid-Use
-Disorders/SMA16-4993

The ASAM Criteria: Provides criteria and a
comprehensive set of guidelines for
placement, continued stay, and transfer/
discharge of patients with addiction and
co-occurring conditions. The ASAM sixdimensional assessment tool is designed
to guide treatment planning and offers a
template to organize assessments and to
determine level of care.98 www.asam.org
/quality-practice/guidelines-and-consensus
-documents/the-asam-criteria

SAMHSA, TIP 42, Substance Abuse
Treatment for Persons With Co-Occurring
Disorders: Provides comprehensive treatment
guidance for individuals with co-occurring
mental and substance use disorders. https://
store.samhsa.gov/shin/content//SMA13-3992
/SMA13-3992.pdf

SAMHSA, Decisions in Recovery—
Treatment for Opioid Use Disorder: Provides
an online interactive tool to support people
with OUD in making informed decisions about
their care. https://archive.samhsa.gov
/MAT-Decisions-in-Recovery

2-31

A178

TIP 63

Medications for Opioid Use Disorder

Appendix
Stable Resource Toolkit
Audit-C – Overview
The AUDIT-C is a 3-item alcohol screen that can help identify persons who are hazardous drinkers or have active
alcohol use disorders (including alcohol abuse or dependence). The AUDIT-C is a modiﬁed version of the 10 question
AUDIT instrument.

Clinical Utility
The AUDIT-C is a brief alcohol screen that reliably identiﬁes patients who are hazardous drinkers or have active
alcohol use disorders.

Scoring
The AUDIT-C is scored on a scale of 0-12.
Each AUDIT-C question has 5 answer choices. Points allotted are:
a = 0 points, b = 1 point, c = 2 points, d = 3 points, e = 4 points
In men, a score of 4 or more is considered positive, optimal for identifying hazardous drinking or active alcohol use
disorders.
In women, a score of 3 or more is considered positive (same as above).
However, when the points are all from Question #1 alone (#2 & #3 are zero), it can be assumed that the patient is
drinking below recommended limits and it is suggested that the provider review the patient’s alcohol intake over
the past few months to conﬁrm accuracy.3
Generally, the higher the score, the more likely it is that the patient’s drinking is affecting his or her safety.

Psychometric Properties
For identifying patients with heavy/hazardous drinking and/or Active-DSM alcohol abuse or dependence
MEN1

WOMEN2

≥3

Sens: 0.95 / Spec. 0.60

Sens: 0.66 / Spec. 0.94

≥4

Sens: 0.86 / Spec. 0.72

Sens: 0.48 / Spec. 0.99

For identifying patients with active alcohol abuse or dependence
MEN1

WOMEN2

≥3

Sens: 0.90 / Spec. 0.45

Sens: 0.80 / Spec. 0.87

≥4

Sens: 0.79 / Spec. 0.56

Sens: 0.67 / Spec. 0.94

1. Bush K, Kivlahan DR, McDonell MB, et al. The AUDIT Alcohol Consumption Questions (AUDIT-C): An effective brief screening test
for problem drinking. Arch Internal Med. 1998 (3): 1789-1795.
2. Bradley KA, Bush KR, Epler AJ, et al. Two brief alcohol-screening tests from the Alcohol Use Disorders Identiﬁcation Test (AUDIT):
Validation in a female veterans affairs patient population. Arch Internal Med Vol 165, April 2003: 821-829.
3. Frequently Asked Questions guide to using the AUDIT-C can be found via the website:
https://www.queri.research.va.gov/tools/alcohol-misuse/alcohol-faqs-print.cfm

Continued on next page
2-32

A179

Part 2 of 5—Addressing Opioid Use Disorder in General Medical Settings

TIP 63

AUDIT-C Questionnaire
Patient Name: _____________________________________________________

Dates of Visit: ______________________

1.

How often do you have a drink containing alcohol?
a. Never

2.

How many standard drinks containing alcohol do you have on a typical day?
a. 1 or 2

3.

How often do you have six or more drinks on one occasion?
a. Never

□
□ b. Monthly or less
□ c. 2-4 times a month
□ d. 2-3 times a week
□ e. 4 or more times a week
□
□ b. 3 or 4
□ c. 5 or 6
□ d. 7 to 9
□ e. 10 or more

□
□ b. Less than monthly
□ c. Monthly
□ d. Weekly
□ e. Daily or almost daily

AUDIT-C is available for use in the public domain.

Reprinted from material in the public domain.99 Available online (https://www.integration.samhsa.gov/images/res/tool
_auditc.pdf).

2-33

A180

TIP 63

Medications for Opioid Use Disorder

Drug Abuse Screening Test (DAST-10)
General Instructions
“Drug use” refers to (1) the use of prescribed or over-the-counter drugs in excess of the directions, and (2) any nonmedical
use of drugs. The various classes of drugs may include cannabis (i.e., marijuana, hashish), solvents (e.g., paint thinner), tranquilizers (e.g., Valium), barbiturates, cocaine, stimulants (e.g., speed), hallucinogens (e.g., LSD), or narcotics (e.g., heroin).
The questions do not include alcoholic beverages.
Please answer every question. If you have trouble with a question, then choose the response that is mostly right.
Segment: ____________

Visit Number: ___________

Date of Assessment: ______/______/________

These questions refer to drug use in the past 12 months. Please answer No or Yes.
1.

Have you used drugs other than those required for medical reasons?

□ No

□ Yes

2.

Do you use more than one drug at a time?

□ No

□ Yes

3.

Are you always able to stop using drugs when you want to?

□ No

□ Yes

4.

Have you had “blackouts” or “ﬂashbacks” as a result of drug use?

□ No

□ Yes

5.

Do you ever feel bad or guilty about your drug use?

□ No

□ Yes

6.

Does your spouse (or parents) ever complain about your involvement with drugs?

□ No

□ Yes

7.

Have you neglected your family because of your use of drugs?

□ No

□ Yes

8.

Have you engaged in illegal activities to obtain drugs?

□ No

□ Yes

9.

Have you ever experienced withdrawal symptoms (i.e., felt sick) when you stopped
taking drugs?

□ No

□ Yes

10.

Have you had medical problems as a result of your drug use (e.g., memory loss,
hepatitis, convulsions, bleeding)?

□ No

□ Yes

Comments:
Scoring
Score 1 point for each “Yes,” except for question 3, for which a “No” receives 1 point.
DAST Score: __________
Interpretation of Score:
Score

Degree of Problems Related to Drug Abuse

Suggested Action

0

No problems reported

None at this time

1–2

Low level

Monitor, reassess at a later date

3–5

Moderate level

Further investigation

6–8

Substantial level

Intensive assessment

9–10

Severe level

Intensive assessment

Adapted with permission.

100,101

2-34

A181

Part 2 of 5—Addressing Opioid Use Disorder in General Medical Settings

TIP 63

DSM-5 Opioid Use Disorder Checklist102
Patient’s Name: ____________________________________________________________

Date of Birth: _______________________

Worksheet for DSM-5 Criteria for Diagnosis of Opioid Use Disorder
MEETS
CRITERIA?

DIAGNOSTIC CRITERIA
(Opioid use disorder requires that at least 2 criteria be
met within a 12-month period.)

Yes OR No

1.

Opioids are often taken in larger amounts or over
a longer period of time than intended.

2.

There is a persistent desire or unsuccessful efforts
to cut down or control opioid use.

3.

A lot of time is spent in activities necessary to
obtain the opioid, use the opioid, or recover from
its effects.

4.

Craving, or a strong desire to use opioids.

5.

Recurrent opioid use resulting in failure to fulﬁll
major role obligations at work, school, or home.

6.

Continued opioid use despite having persistent or
recurrent social or interpersonal problems caused
or exacerbated by the effects of opioids.

7.

Important social, occupational, or recreational
activities are given up or reduced because of
opioid use.

8.

Recurrent opioid use in situations in which it is
physically hazardous.

9.

Continued use despite knowledge of having a
persistent or recurrent physical or psychological
problem that is likely to have been caused or
exacerbated by opioids.

NOTES SUPPORTING INFORMATION

10. Tolerance,* as deﬁned by either of the following:
(a) a need for markedly increased amounts of
opioids to achieve intoxication or desired effect
(b) markedly diminished effect with continued use
of the same amount of an opioid
11.

Withdrawal,* as manifested by either of the
following:
(a) the characteristic opioid withdrawal syndrome
(b) the same (or a closely related) substance is
taken to relieve or avoid withdrawal symptoms

*This criterion is not met for individuals taking opioids solely under appropriate medical supervision.
Severity: mild = 2–3 symptoms; moderate = 4–5 symptoms; severe = 6 or more symptoms

Signed: _____________________________________________________

Date: _______________________
2-35

A182

TIP 63

Medications for Opioid Use Disorder

TAPS Tool Part I
Directions: The TAPS Tool Part 1 is a 4-item screening for tobacco use, alcohol use, prescription medication
misuse, and illicit substance use in the PAST YEAR. Question 2 should be answered by males, and Question 3
should be answered by females. Each of the four multiple-choice items has ﬁve possible responses to choose
from. Check the box to select your answer.

In the PAST 12 MONTHS:
1.

How often have you used any tobacco product (for example, cigarettes, ecigarettes, cigars, pipes, or smokeless
tobacco)?

□ Never
2.

□ Daily or almost daily

□ Less than monthly

□ Monthly

□ Weekly

□ Daily or almost daily

□ Less than monthly

□ Monthly

□ Weekly

□ Daily or almost daily

How often have you used any drugs including marijuana, cocaine or crack, heroin, methamphetamine (crystal meth),
hallucinogens, or ecstasy/MDMA?

□ Never
5.

□ Weekly

How often have you had 4 or more drinks containing alcohol in 1 day? One standard drink is about 1 small glass
of wine (5 oz), 1 beer (12 oz), or 1 single shot of liquor. (Note: This question should only be answered by females.)

□ Never
4.

□ Monthly

How often have you had 5 or more drinks containing alcohol in 1 day? One standard drink is about 1 small glass
of wine (5 oz), 1 beer (12 oz), or 1 single shot of liquor. (Note: This question should only be answered by males.)

□ Never
3.

□ Less than monthly

□ Less than monthly

□ Monthly

□ Weekly

□ Daily or almost daily

How often have you used any prescription medications just for the feeling, more than prescribed, or that were not
prescribed for you? Prescription medications that may be used this way include opiate pain relievers (for example,
OxyContin, Vicodin, Percocet, or methadone), medications for anxiety or sleeping (for example, Xanax, Ativan, or
Klonopin), or medications for ADHD (for example, Adderall or Ritalin).

□ Never

□ Less than monthly

□ Monthly

2-36

A183

□ Weekly

□ Daily or almost daily

TIP 63

Part 2 of 5—Addressing Opioid Use Disorder in General Medical Settings

TAPS Tool Part 2
Directions: The TAPS Tool Part 2 is a brief assessment for tobacco use, alcohol use, illicit substance use, and
prescription medication misuse in the PAST 3 MONTHS ONLY. Each of the following questions and subquestions
has two possible answers, yes or no. Check the box to select your answer.

In the PAST 3 MONTHS:
1.

□ Yes □ No

Did you smoke a cigarette containing tobacco?
If “Yes,” answer the following questions:
Did you usually smoke more than 10 cigarettes each day?
Did you usually smoke within 30 minutes after waking?

2.

□ Yes □ No

Did you have a drink containing alcohol?
If “Yes,” answer the following questions:
Did you have 4 or more drinks containing alcohol in a day?*
(Note: This question should only be answered by females.)
Did you have 5 or more drinks containing alcohol in a day?*
(Note: This question should only be answered by males.)
Have you tried and failed to control, cut down, or stop drinking?
Has anyone expressed concern about your drinking?

3.

Have you had a strong desire or urge to use marijuana at least once a week or more often?
Has anyone expressed concern about your use of marijuana?
Did you use cocaine, crack, or methamphetamine (crystal meth)?
If “Yes,” answer the following questions:
Did you use cocaine, crack, or methamphetamine (crystal meth) at least once a week or more often?
Has anyone expressed concern about your use of cocaine, crack, or methamphetamine (crystal
meth)?
5.

□ No
□ No
□ No
□ No

□ Yes □ No
□ Yes □ No
□ Yes □ No
□ Yes □ No
□ Yes □ No
□ Yes □ No

Did you use heroin?
If “Yes,” answer the following questions:
Have you tried and failed to control, cut down, or stop using heroin?
Has anyone expressed concern about your use of heroin?

6.

□ Yes
□ Yes
□ Yes
□ Yes

□ Yes □ No

Did you use marijuana (hash, weed)?
If “Yes,” answer the following questions:

4.

□ Yes □ No
□ Yes □ No

Did you use a prescription opiate pain reliever (for example, Percocet or Vicodin) not as
prescribed or that was not prescribed for you?
If “Yes,” answer the following questions:
Have you tried and failed to control, cut down, or stop using an opiate pain reliever?
Has anyone expressed concern about your use of an opiate pain reliever?

□ Yes □ No
□ Yes □ No
□ Yes □ No
□ Yes □ No
□ Yes □ No

*One standard drink is about 1 small glass of wine (5 oz), 1 beer (12 oz), or 1 single shot of liquor.
Continued on next page

2-37

A184

TIP 63

Medications for Opioid Use Disorder

TAPS Tool Part 2 (continued)
7.

Did you use medication for anxiety or sleep (for example, Xanax, Ativan, or Klonopin)
not as prescribed or that was not prescribed for you?
If “Yes,” answer the following questions:
Have you had a strong desire or urge to use medications for anxiety or sleep at least once
a week or more often?
Has anyone expressed concern about your use of medication for anxiety or sleep?

8.

Did you use medication for ADHD (for example, Adderall or Ritalin) not as prescribed
or that was not prescribed for you?
If “Yes,” answer the following questions:
Did you use a medication for ADHD (for example, Adderall or Ritalin) at least once a week or
more often?
Has anyone expressed concern about your use of medication for ADHD (for example, Adderall
or Ritalin)?

9.

Did you use any other illegal or recreational drugs (for example, ecstasy, molly, GHB,
poppers, LSD, mushrooms, special K, bath salts, synthetic marijuana ["spice"], or whip-its)?

□ Yes □ No
□ Yes □ No
□ Yes □ No
□ Yes □ No
□ Yes □ No
□ Yes □ No
□ Yes □ No

If “Yes,” answer the following question:
What were the other drug(s) you used? (write in response)

The complete tool is available online (https://cde.drugabuse.gov/instrument/29b23e2e-e266-f095-e050-bb89ad43472f).
Adapted from material in the public domain.103

2-38

A185

Part 2 of 5—Addressing Opioid Use Disorder in General Medical Settings

Notes
1

2

Shapiro, B., Coffa, D., & McCance-Katz, E. F. (2013). A
primary care approach to substance misuse. American
Family Physician, 88(2), 113–121.
Center for Behavioral Health Statistics and Quality.
(2017). Key substance use and mental health
indicators in the United States: Results from the 2016
National Survey on Drug Use and Health. Rockville,
MD: Substance Abuse and Mental Health Services
Administration.

3

American Society of Addiction Medicine. (2011).
Deﬁnition of addiction. Retrieved October 30, 2017,
from www.asam.org/resources/deﬁnition-of-addiction

4

American Psychiatric Association. (2013). Diagnostic
and statistical manual of mental disorders (5th ed.).
Arlington, VA: American Psychiatric Publishing.

5

Department of Health and Human Services, Ofﬁce
of the Surgeon General. (2016). Facing addiction in
America: The Surgeon General’s report on alcohol,
drugs, and health. Washington, DC: Department of
Health and Human Services.

6

American Psychiatric Association. (2013). Diagnostic
and statistical manual of mental disorders (5th ed.).
Arlington, VA: American Psychiatric Publishing.

8

National Cancer Institute. (n.d.). Remission. In NCI
dictionary of cancer terms. Retrieved November 22,
2017, from www.cancer.gov/publications/dictionaries
/cancer-terms?cdrid=45867

9

American Psychiatric Association. (2013). Diagnostic
and statistical manual of mental disorders (5th ed.).
Arlington, VA: American Psychiatric Publishing.

12 Warner-Smith, M., Darke, S., Lynskey, M., & Hall, W.
(2001). Heroin overdose: Causes and consequences.
Addiction, 96(8), 1113–1125.
13 Moyer, V. A. (2013). Screening and behavioral
counseling interventions in primary care to reduce
alcohol misuse: U.S. Preventive Services Task Force
recommendation statement. Annals of Internal
Medicine, 159(3), 210–218.
14 U.S. Preventive Services Task Force. (2013). Final
recommendation statement: Alcohol misuse: Screening
and behavioral counseling interventions in primary
care. Retrieved October 12, 2017, from www
.uspreventiveservicestaskforce.org/Page/Document
/RecommendationStatementFinal/alcohol-misuse
-screening-and-behavioral-counseling-interventions
-in-primary-care
15 Shapiro, B., Coffa, D., & McCance-Katz, E. F. (2013). A
primary care approach to substance misuse. American
Family Physician, 88(2), 113–121.

Substance Abuse and Mental Health Services
Administration. (2015). Federal guidelines for opioid
treatment programs. HHS Publication No. (SMA)
PEP15-FEDGUIDEOTP. Rockville, MD: Substance Abuse
and Mental Health Services Administration.

7

TIP 63

16 Babor, T. F., Higgins-Biddle, J. C., Saunders, J. B., &
Monteiro, M. G. (2001). The Alcohol Use Disorders
Identiﬁcation Test: Guidelines for use in primary
care (2nd ed.). Geneva, Switzerland: World Health
Organization.
17 Bush, K., Kivlahan, D. R., McDonell, M. B., Fihn, S. D., &
Bradley, K. A. (1998). The AUDIT alcohol consumption
questions (AUDIT-C): An effective brief screening
test for problem drinking. Ambulatory Care Quality
Improvement Project (ACQUIP). Alcohol Use Disorders
Identiﬁcation Test. Archives of Internal Medicine,
158(16), 1789–1795.
18 Dawson, D. A., Smith, S. M., Saha, T. D., Rubinsky, A.
D., & Grant, B. F. (2012). Comparative performance
of the AUDIT-C in screening for DSM-IV and DSM-5
alcohol use disorders. Drug and Alcohol Dependence,
126(3), 384–388.
19 Substance Abuse and Mental Health Services
Administration, & National Institute on Alcohol Abuse
and Alcoholism. (2015). Medication for the treatment
of alcohol use disorder: A brief guide. HHS Publication
No. (SMA) 15-4907. Rockville, MD: Substance Abuse
and Mental Health Services Administration.

10 McNeely, J., Wu, L. T., Subramaniam, G., Sharma, G.,
Cathers, L. A., Svikis, D., … Schwartz, R. P. (2016).
Performance of the Tobacco, Alcohol, Prescription
Medication, and Other Substance Use (TAPS) Tool
for substance use screening in primary care patients.
Annals of Internal Medicine, 165(10), 690–699.
11 Centers for Disease Control and Prevention. (2013).
Alcohol and public health: Alcohol-Related Disease
Impact (ARDI). Average for United States 2006-2010
alcohol-attributable deaths due to excessive alcohol
use. Retrieved October 12, 2017, from https://nccd
.cdc.gov/DPH_ARDI/Default/Report.aspx?T=AAM&P
=f6d7eda7-036e-4553-9968-9b17ffad620e&R
=d7a9b303-48e9-4440-bf47-070a4827e1fd&M
=8E1C5233-5640-4EE8-9247-1ECA7DA325B9&F=&D=

20 Smith, P. C., Schmidt, S. M., Allensworth-Davies, D.,
& Saitz, R. (2009). Primary care validation of a singlequestion alcohol screening test. Journal of General
Internal Medicine, 24(7), 783–788.
21 Kalman, D., Morissette, S. B., & George, T. P. (2005).
Co-morbidity of smoking in patients with psychiatric
and substance use disorders. American Journal of
Addictions, 14, 106–123.

2-39

A186

TIP 63

Medications for Opioid Use Disorder

22 Department of Health and Human Services. (2014). The
health consequences of smoking—50 years of progress:
A report of the Surgeon General. Atlanta, GA:
Department of Health and Human Services, Centers
for Disease Control and Prevention, National Center
for Chronic Disease Prevention and Health Promotion,
Ofﬁce on Smoking and Health.
23 Lasser, K., Boyd, J. W., Woolhandler, S., Himmelstein,
D. U., McCormick, D., & Bor, D. H. (2000). Smoking and
mental illness: A population-based prevalence study.
JAMA, 284, 2606–2610.
24 Ong, M. O., Zhou, Q., & Sung, H. (2011). Primary
care providers advising smokers to quit: Comparing
effectiveness between those with and without alcohol,
drug, or mental disorders. Nicotine and Tobacco
Research, 13(12), 1193–1201.
25 U.S. Preventive Services Task Force. (2015).
Tobacco smoking cessation in adults, including
pregnant women: Behavioral and pharmacotherapy
interventions. Retrieved October 12, 2017, from www
.uspreventiveservicestaskforce.org/Page/Document
/UpdateSummaryFinal/tobacco-use-in-adults-and
-pregnant-women-counseling-and-interventions1
26 Heatherton, T. F., Kozlowski, L. T., Frecker, R. C., &
Fagerström, K. O. (1991). The Fagerström Test for
Nicotine Dependence: A revision of the Fagerström
Tolerance Questionnaire. British Journal of Addiction,
86(9), 1119–1127.
27 John, U., Meyer, C., Schumann, A., Hapke, U., Rumpf,
H. J., Adam, C., … Lüdemann, J. (2004). A short form
of the Fagerström Test for Nicotine Dependence
and the Heaviness of Smoking Index in two adult
population samples. Addictive Behaviors, 29(6),
1207–1212.
28 U.S. Preventive Services Task Force. (2008). Drug use,
illicit: Screening. Retrieved November 22, 2017, from
www.uspreventiveservicestaskforce.org/Page
/Document/UpdateSummaryFinal/drug-use-illicit
-screening
29 Shapiro, B., Coffa, D., & McCance-Katz, E. F. (2013). A
primary care approach to substance misuse. American
Family Physician, 88(2), 113–121.
30 McNeely, J., Cleland, C. M., Strauss, S. M., Palamar, J.
J., Rotrosen, J., & Saitz, R. (2015). Validation of selfadministered single-item screening questions (SISQs)
for unhealthy alcohol and drug use in primary care
patients. Journal of General Internal Medicine, 30(12),
1757–1764.
31 McNeely, J., Wu, L. T., Subramaniam, G., Sharma, G.,
Cathers, L. A., Svikis, D., … Schwartz, R. P. (2016).
Performance of the Tobacco, Alcohol, Prescription
Medication, and Other Substance Use (TAPS) Tool
for substance use screening in primary care patients.
Annals of Internal Medicine, 165(10), 690–699.

32 Smith, P. C., Schmidt, S. M., Allensworth-Davies, D.,
& Saitz, R. (2010). A single-question screening test for
drug use in primary care. Archives of Internal Medicine,
170(13), 1155–1160.
33 Tiet, Q. Q., Leyva, Y. E., Moos, R. H., Frayne, S. M.,
Osterberg, L., & Smith, B. (2015). Screen of drug use:
Diagnostic accuracy of a new brief tool for primary
care. JAMA Internal Medicine, 175(8), 1371–1377.
34 Skinner, H. A. (1982). The Drug Abuse Screening Test.
Addictive Behaviors, 7(4), 363–371.
35 Babor, T. F., Higgins-Biddle, J. C., Saunders, J. B., &
Monteiro, M. G. (2001). The Alcohol Use Disorders
Identiﬁcation Test: Guidelines for use in primary
care (2nd ed.). Geneva, Switzerland: World Health
Organization.
36 Heatherton, T. F., Kozlowski, L. T., Frecker, R. C., &
Fagerström, K. O. (1991). The Fagerström Test for
Nicotine Dependence: A revision of the Fagerström
Tolerance Questionnaire. British Journal of Addiction,
86(9), 1119–1127.
37 McNeely, J., Strauss, S. M., Rotrosen, J., Ramautar,
A., & Gourevitch, M. N. (2016). Validation of an audio
computer-assisted self-interview (ACASI) version of
the Alcohol, Smoking and Substance Involvement
Screening Test (ASSIST) in primary care patients.
Addiction, 111(2), 233–244.
38 Ali, R., Meena, S., Eastwood, B., Richards, I., &
Marsden, J. (2013). Ultra-rapid screening for substanceuse disorders: The Alcohol, Smoking and Substance
Involvement Screening Test (ASSIST-Lite). Drug and
Alcohol Dependence, 132(1–2), 352–361.
39 Smith, P. C., Schmidt, S. M., Allensworth-Davies, D.,
& Saitz, R. (2010). A single-question screening test for
drug use in primary care. Archives of Internal Medicine,
170(13), 1155–1160.
40 Tiet, Q. Q., Leyva, Y. E., Moos, R. H., Frayne, S. M.,
Osterberg, L., & Smith, B. (2015). Screen of drug use:
Diagnostic accuracy of a new brief tool for primary
care. JAMA Internal Medicine, 175(8), 1371–1377.
41 McNeely, J., Wu, L. T., Subramaniam, G., Sharma, G.,
Cathers, L. A., Svikis, D., … Schwartz, R. P. (2016).
Performance of the Tobacco, Alcohol, Prescription
Medication, and Other Substance Use (TAPS) Tool
for substance use screening in primary care patients.
Annals of Internal Medicine, 165(10), 690–699.
42 National Institute on Drug Abuse. (2012). Resource
guide: Screening for drug use in general medical
settings. Rockville, MD: Author.
43 National Institute on Drug Abuse. (n.d.). NIDA Quick
Screen V1. Retrieved October 16, 2017, from www
.drugabuse.gov/sites/default/ﬁles/pdf/nmassist.pdf

2-40

A187

Part 2 of 5—Addressing Opioid Use Disorder in General Medical Settings

44 Ali, R., Meena, S., Eastwood, B., Richards, I., &
Marsden, J. (2013). Ultra-rapid screening for substanceuse disorders: The Alcohol, Smoking and Substance
Involvement Screening Test (ASSIST-Lite). Drug and
Alcohol Dependence, 132(1–2), 352–361.
45 Schwartz, R. P., McNeely, J., Wu, L. T., Sharma, G.,
Wahle, A., Cushing, C., … Subramaniam, G. (2017).
Identifying substance misuse in primary care: TAPS Tool
compared to the WHO ASSIST. Journal of Substance
Abuse Treatment, 76, 69–76.
46 Wang, X., Zhang, T., & Ho, W. Z. (2011). Opioids
and HIV/HCV infection. Journal of Neuroimmune
Pharmacology, 6(4), 477–489.

TIP 63

57 Soper, R. G. (2014, October 6). Intimate partner
violence and co-occurring substance abuse/addiction.
ASAM Magazine. Retrieved October 16, 2017, from
www.asam.org/magazine/read/article/2014/10/06
/intimate-partner-violence-and-co-occurring-substance
-abuse-addiction
58 Stone, A. L., Becker, L. G., Huber, A. M., & Catalano,
R. F. (2012). Review of risk and protective factors of
substance use and problem use in emerging adulthood.
Addictive Behaviors, 37(7), 747–775.
59 American Society of Addiction Medicine. (2017).
The ASAM appropriate use of drug testing in clinical
addiction medicine. Rockville, MD: ASAM. Retrieved
October 30, 2017, through www.asam.org/resources
/guidelines-and-consensus-documents/drug-testing

47 Wang, X., Zhang, T., & Ho, W. Z. (2011). Opioids
and HIV/HCV infection. Journal of Neuroimmune
Pharmacology, 6(4), 477–489.
48 Merrill, J. O., Rhodes, L. A., Deyo, R. A., Marlatt, G. A.,
& Bradley, K. A. (2002). Mutual mistrust in the medical
care of drug users: The keys to the “narc” cabinet.
Journal of General Internal Medicine, 17(5), 327–333.
49 Shapiro, B., Coffa, D., & McCance-Katz, E. F. (2013). A
primary care approach to substance misuse. American
Family Physician, 88(2), 113–121.
50 Miller, W. R., & Rollnick, S. (2013). Motivational
interviewing: Helping people change (3rd ed.). New
York, NY: Guilford Press.

60 Lynch, K. (2014). San Francisco General Hospital
laboratory protocol. San Francisco, CA: San Francisco
General Hospital.
61 Warner, E., & Lorch, E. (2014). Laboratory diagnosis.
In R. K. Ries, D. A. Fiellin, S. C. Miller, & R. Saitz (Eds.),
Principles of addiction medicine (5th ed., pp. 332–343).
Philadelphia, PA: Wolters Kluwer.
62 Milone, M. C. (2012). Laboratory testing for
prescription opioids. Journal of Medical Toxicology,
8(4), 408–416.
63 Reisﬁeld, G. M., Bertholf, R., Barkin, R. L., Webb, F., &
Wilson, G. (2007). Urine drug test interpretation: What
do physicians know? Journal of Opioid Management,
3(2), 80–86.

51 Center for Substance Abuse Treatment. (1999).
Brief interventions and brief therapies for substance
abuse. Treatment Improvement Protocol (TIP) Series.
34. HHS Publication No. (SMA) 12-3952. Rockville,
MD: Substance Abuse and Mental Health Services
Administration.

64 Standridge, J. B., Adams, S. M., & Zotos, A. P. (2010).
Urine drug screening: A valuable ofﬁce procedure.
American Family Physician, 81(5), 635–640.

52 Miller, W. R., & Rollnick, S. (2013). Motivational
interviewing: Helping people change (3rd ed.). New
York, NY: Guilford Press.
53 Savant, J. D., Barry, D. T., Cutter, C. J., Joy, M. T.,
Dinh, A., Schottenfeld, R. S., & Fiellin, D. A. (2013).
Prevalence of mood and substance use disorders
among patients seeking primary care ofﬁce-based
buprenorphine/naloxone treatment. Drug and Alcohol
Dependence, 127(1–3), 243–247.
54 Hassan, A. N., Howe, A. S., Samokhvalov, A. V., Le Foll,
B., & George, T. P. (2017). Management of mood and
anxiety disorders in patients receiving opioid agonist
therapy: Review and meta-analysis. American Journal
on Addictions, 26(6), 551–563.
55 Hall, W. D., & Strang, J. (2017). Alcohol problems need
more attention in patients receiving long-term opioid
substitution therapy. Lancet Psychiatry, 4(4), 265–266.
56 Saitz, R. (2014). Medical and surgical complications of
addiction. In R. K. Ries, D. A. Fiellin, S. C. Miller, & R.
Saitz (Eds.), The ASAM principles of addiction medicine
(5th ed.). Philadelphia, PA: Wolters Kluwer.

65 Warner, E., & Lorch, E. (2014). Laboratory diagnosis.
In R. K. Ries, D. A. Fiellin, S. C. Miller, & R. Saitz (Eds.),
Principles of addiction medicine (5th ed., pp. 332–343).
Philadelphia, PA: Wolters Kluwer.
66 Substance Abuse and Mental Health Services
Administration. (2018). Clinical guidance for treating
pregnant and parenting women with opioid use
disorder and their infants. HHS Publication No. (SMA)
18-5054. Rockville, MD: Substance Abuse and Mental
Health Services Administration.
67 American College of Obstetricians and Gynecologists.
(2017, August). Opioid use and opioid use disorder
in pregnancy. Retrieved October 30, 2017, from
www.acog.org/-/media/Committee-Opinions
/Committee-on-Obstetric-Practice/co711
.pdf?dmc=1&ts=20170929T1541517316
68 Ali, M. M., Dowd, N., Classen, T., Mutter, R., & Scott,
P. (2017). Prescription drugs monitoring program,
nonmedical use of prescription drug and heroin use:
Evidence from the National Survey of Drug Use and
Health. Addictive Behaviors, 69, 65–77.

2-41

A188

TIP 63

Medications for Opioid Use Disorder

69 American Psychiatric Association. (2013). Diagnostic
and statistical manual of mental disorders (5th ed.).
Arlington, VA: American Psychiatric Publishing.

82 Fiellin, D. A., Barry, D. T., Sullivan, L. E., Cutter, C.
J., Moore, B. A., O’Connor, P. G., & Schottenfeld, R.
S. (2013). A randomized trial of cognitive behavioral
therapy in primary care-based buprenorphine.
American Journal of Medicine, 126(1), 74.e11–74.e77.

70 American Psychiatric Association. (2013). Diagnostic
and statistical manual of mental disorders (5th ed.).
Arlington, VA: American Psychiatric Publishing.

83 Fiellin, D. A., Pantalon, M. V., Chawarski, M. C., Moore,
B. A., Sullivan, L. E., O’Connor, P. G., & Schottenfeld,
R. S. (2006). Counseling plus buprenorphine-naloxone
maintenance therapy for opioid dependence. New
England Journal of Medicine, 355(4), 365–374.

71 Clinical Tools. (n.d.). DSM 5 opioid use disorder
checklist. Retrieved October 16, 2017, from www
.buppractice.com/printpdf/19556
72 American Psychiatric Association. (2013). Diagnostic
and statistical manual of mental disorders (5th ed.).
Arlington, VA: American Psychiatric Publishing.

84 Ling, W., Hillhouse, M., Ang, A., Jenkins, J., & Fahey, J.
(2013). Comparison of behavioral treatment conditions
in buprenorphine maintenance. Addiction, 108(10),
1788–1798.

73 Mattick, R. P., Breen, C., Kimber, J., & Davoli, M.
(2014). Buprenorphine maintenance versus placebo
or methadone maintenance for opioid dependence.
Cochrane Database of Systematic Reviews, 2014(2),
1–84.
74 Mattick, R. P., Breen, C., Kimber, J., & Davoli, M. (2009).
Methadone maintenance therapy versus no opioid
replacement therapy for opioid dependence. Cochrane
Database of Systematic Reviews, 2009(3), 1–19.
75 Minozzi, S., Amato, L., Vecchi, S., Davoli, M.,
Kirchmayer, U., & Verster, A. (2011). Oral naltrexone
maintenance treatment for opioid dependence.
Cochrane Database of Systematic Reviews, 4,
CD001333.
76 Krupitsky, E., Zvartau, E., Blokhina, E., Verbitskaya,
E., Wahlgren, V., Tsoy-Podosenin, M., … Woody, G.
E. (2012). Randomized trial of long-acting sustainedrelease naltrexone implant vs oral naltrexone or
placebo for preventing relapse to opioid dependence.
Archives of General Psychiatry, 69(9), 973–981.
77 Lee, J. D., Friedmann, P. D., Kinlock, T. W., Nunes, E.
V., Boney, T. Y., Hoskinson, R. A., Jr., … O’Brien, C. P.
(2016). Extended-release naltrexone to prevent opioid
relapse in criminal justice offenders. New England
Journal of Medicine, 374(13), 1232–1242.
78 McCarty, D., Braude, L., Lyman, D. R., Dougherty, R. H.,
Daniels, A. S., Ghose, S. S., & Delphin-Rittmon, M. E.
(2014). Substance abuse intensive outpatient programs:
Assessing the evidence. Psychiatric Services, 65(6),
718–726.
79 Mee-Lee, D., Shulman, G. D., Fishman, M. J.,
Gastfriend, D. R., & Miller, M. M. (Eds.). (2013).
The ASAM criteria: Treatment criteria for addictive,
substance-related, and co-occurring conditions (3rd
ed.). Carson City, NV: The Change Companies.
80 Drug Enforcement Administration. (n.d.). Informational
documents. Retrieved November 21, 2017, from
www.deadiversion.usdoj.gov/pubs/docs/index.html
81 Carroll, K. M., & Weiss, R. D. (2016). The role of
behavioral interventions in buprenorphine maintenance
treatment: A review. American Journal of Psychiatry,
174(8), 738–774.

85 Weiss, R. D., Potter, J. S., Fiellin, D. A., Byrne, M.,
Connery, H. S., Dickinson, W., … Ling, W. (2011).
Adjunctive counseling during brief and extended
buprenorphine-naloxone treatment for prescription
opioid dependence: A 2-phase randomized controlled
trial. Archives of General Psychiatry, 68(12), 1238–1246.
86 Pettinati, H. M., O’Brien, C. P., & Dundon, W. D. (2013).
Current status of co-occurring mood and substance use
disorders: A new therapeutic target. American Journal
of Psychiatry, 170(1), 23–30.
87 Chou, R., Korthuis, P. T., Weimer, M., Bougatsos,
C., Blazina, I., Zakher, B., … McCarty, D. (2016).
Medication-assisted treatment models of care for
opioid use disorder in primary care settings. Technical
Brief No. 28. Rockville, MD: Agency for Healthcare
Research and Quality.
88 American Society of Addiction Medicine. (n.d.). Nurse
practitioners and physician assistants prescribing
buprenorphine. Retrieved October 16, 2017, from
www.asam.org/quality-practice/practice-resources
/nurse-practitioners-and-physician-assistants
-prescribing-buprenorphine
89 Bogdanowicz, K. M., Stewart, R., Broadbent, M., Hatch,
S. L., Hotopf, M., Strang, J., & Hayes, R. D. (2015).
Double trouble: Psychiatric comorbidity and opioid
addiction—All-cause and cause-speciﬁc mortality. Drug
and Alcohol Dependence, 148, 85–92.
90 Bogdanowicz, K. M., Stewart, R., Chang, C. K., Downs,
J., Khondoker, M., Shetty, H., … Hayes, R. D. (2016).
Identifying mortality risks in patients with opioid use
disorder using brief screening assessment: Secondary
mental health clinical records analysis. Drug and
Alcohol Dependence, 164, 82–88.
91 Department of Health and Human Services. (2016). The
opioid epidemic: By the numbers. Washington, DC:
Department of Health and Human Services.
92 Substance Abuse and Mental Health Services
Administration. (2016). SAMHSA opioid overdose
prevention toolkit. HHS Publication No. (SMA) 16-4742.
Rockville, MD: Author.

2-42

A189

Part 2 of 5—Addressing Opioid Use Disorder in General Medical Settings

93 Centers for Disease Control and Prevention. (2017).
Opioid overdose. Retrieved October 16, 2017, from
www.cdc.gov/drugoverdose
94 Centers for Disease Control and Prevention. (2017).
Heroin overdose data. Retrieved November 20, 2017,
from www.cdc.gov/drugoverdose/data/heroin.html
95 Centers for Disease Control and Prevention. (2016).
Increases in drug and opioid-involved overdose
deaths—United States, 2010–2015. Morbidity and
Mortality Weekly Report, 65(50–51), 1445–1452.

TIP 63

99 Bush, K., Kivlahan, D. R., McDonell, M. B., Fihn, S. D., &
Bradley, K. A. (1998). The AUDIT alcohol consumption
questions (AUDIT-C): An effective brief screening
test for problem drinking. Ambulatory Care Quality
Improvement Project (ACQUIP). Alcohol Use Disorders
Identiﬁcation Test. Archives of Internal Medicine,
158(16), 1789–1795.
100 Skinner, H. A. (1982). The Drug Abuse Screening Test.
Addictive Behavior, 7(4), 363–371.

96 Albert, S., Brason, F. W., II, Sanford, C. K., Dasgupta,
N., Graham, J., & Lovette, B. (2011). Project Lazarus:
Community-based overdose prevention in rural North
Carolina. Pain Medicine, 12(Suppl. 2), S77–S85.
97 Walley, A. Y., Xuan, Z., Hackman, H. H., Quinn, E.,
Doe-Simkins, M., Sorensen-Alawad, A., … Ozonoff, A.
(2013). Opioid overdose rates and implementation of
overdose education and nasal naloxone distribution in
Massachusetts: Interrupted time series analysis. British
Medical Journal, 346, f174.
98 Mee-Lee, D. (2013, November–December). How to
really use the new edition of The ASAM Criteria: What
to do and what not to do. Counselor, 14(6), 34–40.

101 Yudko, E., Lozhkina, O., & Fouts, A. (2007). A
comprehensive review of the psychometric properties
of the Drug Abuse Screening Test. Journal of
Substance Abuse Treatment, 32, 189–198.
102 American Psychiatric Association. (2013). Diagnostic
and statistical manual of mental disorders (5th ed., p.
541). Arlington, VA: American Psychiatric Publishing.
103 McNeely, J., Wu, L. T., Subramaniam, G., Sharma, G.,
Cathers, L. A., Svikis, D., … Schwartz, R. P. (2016).
Performance of the Tobacco, Alcohol, Prescription
Medication, and Other Substance Use (TAPS) Tool
for substance use screening in primary care patients.
Annals of Internal Medicine, 165(10), 690–699.

2-43

A190

This page intentionally left blank.

A191

TIP 63

MEDICATIONS FOR OPIOID USE DISORDER

Part 3: Pharmacotherapy for Opioid Use Disorder
For Healthcare Professionals
Part 3 of this Treatment Improvement Protocol (TIP) describes general principles of opioid use
disorder (OUD) pharmacotherapy and discusses medication formulations, indications, and dosing
for the three medications used to treat OUD—methadone, naltrexone, and buprenorphine.

TIP Navigation

KEY MESSAGES

Executive Summary
For healthcare and addiction professionals,
policymakers, patients, and families

‡ OUD medications are safe and effective
when used appropriately.

Part 1: Introduction to Medications for Opioid
Use Disorder Treatment
For healthcare and addiction professionals,
policymakers, patients, and families

‡ OUD medications can help patients

reduce or stop illicit opioid use and
improve their health and functioning.

‡ Pharmacotherapy should be considered

for all patients with OUD. Reserve opioid
pharmacotherapies for those with
moderate-to-severe OUD with physical
dependence.

Part 2: Addressing Opioid Use Disorder in
General Medical Settings
For healthcare professionals

‡ Patients with OUD should be

Part 3: Pharmacotherapy for Opioid Use
Disorder
For healthcare professionals

informed of the risks and beneﬁts of
pharmacotherapy, treatment without
medication, and no treatment.

‡ Patients should be advised on where
and how to get treatment with OUD
medication.

Part 4: Partnering Addiction Treatment
Counselors With Clients and
Healthcare Professionals
For healthcare and addiction professionals

‡ Doses and schedules of pharmacotherapy
must be individualized.

Part 5: Resources Related to Medications for
Opioid Use Disorder
For healthcare and addiction professionals,
policymakers, patients, and families

A192

TIP 63

MEDICATIONS FOR OPIOID USE DISORDER—Part 3 of 5

PART 3: PHARMACOTHERAPY FOR OPIOID USE DISORDER
Pharmacotherapy for Opioid Use Disorder . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3-1
Chapter 3A: Overview of Pharmacotherapy for Opioid Use Disorder. . . . 3-5
Chapter 3B: Methadone. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3-15
Chapter 3C: Naltrexone . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3-35
Chapter 3D: Buprenorphine . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3-49
Chapter 3E: Medical Management Strategies for Patients
Taking OUD Medications in O ce-Based Settings . . . . . . . . . . . . . . . . . . . . 3-79
Chapter 3F: Medical Management of Patients Taking OUD
Medications in Hospital Settings . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3-99

3-ii

A193

2#46

QH

Pharmacotherapy for Opioid Use Disorder
Part 3 of this TIP describes general principles of OUD pharmacotherapy and discusses medication
formulations, indications, and dosing for the three Food and Drug Administration (FDA)-approved
medications used to treat OUD—methadone, naltrexone, and buprenorphine. Part 3 also discusses
patient management and monitoring in outpatient settings other than opioid treatment programs
(OTPs) as well as medical management of patients with OUD in hospital settings.

Scope of the Problem

23,2,' 5(/$7('

(0(5*(1&<

The United States is experiencing an opioid
addiction epidemic.1 In 2016, an estimated
2.1 million Americans had OUD.2 Illicit opioid
use contributes to the development of OUD,
the spread of HIV and hepatitis infections, and
increasing numbers of overdose deaths.

'(3$570(17
YLVLWV QHDUO\ GRXEOHG
IURP

OUD is a set of cognitive, behavioral, and
physiological symptoms marked by an inability
to stop opioid use despite negative consequences.3 When severe, it can present as a chronic,
recurring condition with compulsive opioid use
that is often termed “addiction.” It can cause
serious physical and mental health, employment,
legal, and family problems.
Each FDA-approved medication used to treat
OUD can help patients achieve remission and

begin or maintain recovery. Pharmacotherapy
for OUD should be accompanied by individually
tailored medical management and psychosocial
and recovery support services as needed and
wanted by patients to support their remission
and recovery.
Medication supports the efforts of the
individual to achieve lasting recovery.
Exhibit 3.1 deﬁnes key terms in Part 3. For more
deﬁnitions, see the glossary in Part 5 of this TIP.

NOTE TO HEALTHCARE PROFESSIONALS
This TIP cannot replace sound clinical judgment and shared decision making based on
careful patient assessment. Providers should familiarize themselves with FDA labeling
of all OUD medications and current practices standards described here and in other
resources such as the Providers’ Clinical Support System (https://pcssmat.org).

3-1

A194

TIP 63

Medications for Opioid Use Disorder

EXHIBIT 3.1. Key Terms
Addiction: As deﬁned by the American Society of Addiction Medicine,5 “a primary, chronic disease of
brain reward, motivation, memory, and related circuitry.” It is characterized by inability to consistently
abstain, impairment in behavioral control, craving, diminished recognition of signiﬁcant problems
with one’s behaviors and interpersonal relationships, and a dysfunctional emotional response. Like
other chronic diseases, addiction often involves cycles of relapse and remission. The Diagnostic and
Statistical Manual of Mental Disorders, Fifth Edition,6 does not use the term for diagnostic purposes, but
it commonly describes the more severe forms of OUD.
Induction: Process of initial dosing with medication for OUD treatment until the patient reaches a state
of stability; also called initiation.
Maintenance treatment: Providing medications to achieve and sustain clinical remission of signs
and symptoms of OUD and support the individual process of recovery without a speciﬁc endpoint (as is
the typical standard of care in medical and psychiatric treatment of other chronic illnesses).
Medically supervised withdrawal (formerly called detoxiﬁcation): Using an opioid agonist (or an
alpha-2 adrenergic agonist if opioid agonist is not available) in tapering doses or other medications to
help a patient discontinue illicit or prescription opioids.
Medical management: Process whereby healthcare professionals provide medication, basic brief
supportive counseling, monitoring of drug use and medication adherence, and referrals, when necessary,
to addiction counseling and other services to address the patient’s medical, mental health, comorbid
addiction, and psychosocial needs.
Ofﬁce-based opioid treatment: Providing medication for OUD in outpatient settings other than

certiﬁed OTPs.

Opioid treatment program (OTP): An accredited treatment program with Substance Abuse and
Mental Health Services Administration certiﬁcation and Drug Enforcement Administration registration to
administer and dispense opioid agonist medications that are approved by FDA to treat opioid addiction.
Currently, these include methadone and buprenorphine products. Other pharmacotherapies, such as
naltrexone, may be provided but are not subject to these regulations. OTPs must provide adequate
medical, counseling, vocational, educational, and other assessment and treatment services either onsite
or by referral to an outside agency or practitioner through a formal agreement.7
Key Terms Related to OUD Medication Pharmacology
Abuse liability: The likelihood that a medication with central nervous system activity will cause
desirable psychological effects, such as euphoria or mood changes, that promote the medication’s
misuse.
Bioavailability: Proportion of medication administered that reaches the bloodstream.
Cross-tolerance: Potential for people tolerant to one opioid (e.g., heroin) to be tolerant to another

(e.g., methadone).

Dissociation: Rate at which a drug uncouples from the receptor. A drug with a longer dissociation rate
will have a longer duration of action than a drug with a shorter dissociation rate.
Half-life: Rate of removal of a drug from the body. One half-life removes 50 percent from the
plasma. After a drug is stopped, it takes ﬁve half-lives to remove about 95 percent from the plasma. If
a drug is continued at the same dose, its plasma level will continue to rise until it reaches steady-state
concentrations after about ﬁve half-lives.

3-2

A195

Part 3 of 5—Pharmacotherapy for Opioid Use Disorder

TIP 63

EXHIBIT 3.1. Key Terms (continued)
Intrinsic activity: The degree of receptor activation attributable to drug binding. Full agonist, partial
agonist, and antagonist are terms that describe the intrinsic activity of a drug.
Opiates: A subclass of opioids derived from opium (e.g., morphine, codeine, thebaine).
Opioid blockade: Blunting or blocking of the euphoric effects of an opioid through opioid receptor
occupancy by an opioid agonist (e.g., methadone, buprenorphine) or antagonist (e.g., naltrexone).
Opioid receptor agonist: A substance that has an afﬁnity for and stimulates physiological activity
at cell receptors in the nervous system that are normally stimulated by opioids. Mu-opioid receptor full
agonists (e.g., methadone) bind to the mu-opioid receptor and produce actions similar to those produced
by the endogenous opioid beta-endorphin. Increasing the dose increases the effect. Mu-opioid receptor
partial agonists (e.g., buprenorphine) bind to the mu-opioid receptor. Unlike with full agonists, increasing
their dose in an opioid-tolerant individual may not produce additional effects once they have reached
their maximal effect. At low doses, partial agonists may produce effects similar to those of full agonists.
Methadone and buprenorphine can blunt or block the effects of exogenously administered opioids.
Opioid receptor antagonist: A substance that has an afﬁnity for opioid receptors in the central
nervous system without producing the physiological effects of opioid agonists. Mu-opioid receptor
antagonists (e.g., naltrexone) can block the effects of exogenously administered opioids.
Opioids: All natural, synthetic, and semisynthetic substances that have effects similar to morphine. They
can be used as medications having such effects (e.g., methadone, buprenorphine, oxycodone).
Receptor afﬁnity: Strength of the bond between a medication and its receptor. A medication with
high mu-opioid receptor afﬁnity requires lower concentrations to occupy the same number of mu-opioid
receptors as a drug with lower mu-opioid receptor afﬁnity. Drugs with high mu-opioid receptor afﬁnity
may displace drugs with lower afﬁnity.

3-3

A196

This page intentionally left blank.

A197

TIP 63

Part 3 of 5—Pharmacotherapy for Opioid Use Disorder

Chapter 3A: Overview of Pharmacotherapy
for Opioid Use Disorder
Chapter 3A describes general principles of OUD pharmacotherapy and summarizes
formulations, indications, and dosing for the three FDA-approved OUD medications.

There are three FDA-approved medications
used to treat OUD, including the mu-opioid
receptor partial agonist buprenorphine, the
mu-opioid receptor full agonist methadone, and
the mu-opioid receptor antagonist naltrexone.
Extended-release naltrexone (XR-NTX) is FDA
approved to prevent relapse in patients who have
remained opioid abstinent for sufﬁcient time.
Discussing medications that can treat OUD
with patients who have this disorder is the
clinical standard of care and should cover
at least:

‡

‡
‡
‡

The proven effectiveness of methadone,
naltrexone, and buprenorphine compared
with placebo and with outpatient counseling
without medication.
Risks and beneﬁts of pharmacotherapy with all
three types of medication, treatment without
medication, and no treatment.
Safety and effectiveness of the medications
when used appropriately.
Pharmacologic properties, routes of administration, and where and how to access
treatment with each medication (Exhibit 3A.1).

EXHIBIT 3A.1. OUD Medications: An Overview8,9
CATEGORY

BUPRENORPHINE*

METHADONE

XR NTX**

Appropriate
patients

Typically for patients with
Typically for patients with
OUD who are physiologically OUD who are physiologically
dependent on opioids.
dependent on opioids and
who meet federal criteria for
OTP admission.

Typically for patients with
OUD who have abstained
from short-acting opioids
for at least 7–10 days and
long-acting opioids for at
least 10–14 days.

Pharmacology

Opioid receptor partial
agonist

Opioid receptor agonist

Opioid receptor antagonist

Reduces opioid withdrawal
and craving; blunts or blocks
euphoric effects of selfadministered illicit opioids
through cross-tolerance and
opioid receptor occupancy.

Blocks euphoric effects
of self-administered illicit
opioids through opioid
receptor occupancy. Causes
no opioid effects.

Reduces opioid withdrawal
and craving; blunts or blocks
euphoric effects of selfadministered illicit opioids
through cross-tolerance and
opioid receptor occupancy.

*Long-acting buprenorphine implants (every 6 months) for patients on a stable dose of buprenorphine are also available
through implanters and prescribers with additional training and certiﬁcation through the Probuphine Risk Evaluation
and Mitigation Strategy (REMS) Program. Extended-release buprenorphine monthly subcutaneous injections are available
only through prescribers and pharmacies registered with the Sublocade REMS Program.
**Naltrexone hydrochloride tablets (50 mg each) are also available for daily oral dosing but have not been shown to be
more effective than treatment without medication or placebo because of poor patient adherence.
Continued on next page

3-5

A198

TIP 63

Medications for Opioid Use Disorder

EXHIBIT 3A.1. OUD Medications: An Overview (continued)
CATEGORY

Patient
education

BUPRENORPHINE*

METHADONE

XR NTX**

Tell patients:

Tell patients:

Tell patients:

‡

‡

‡ That they will need to be

That they will need to be
in opioid withdrawal to
receive their ﬁrst dose
to avoid buprenorphineprecipitated opioid
withdrawal.

‡ About the risk of

overdose with concurrent
benzodiazepine or
alcohol use, with injecting
buprenorphine, and after
stopping the medication.

That their dose will start
low and build up slowly
to avoid oversedation; it
takes several days for a
given dose to have its full
effect.

‡ About overdose risk in the

ﬁrst 2 weeks of treatment,
especially with concurrent
benzodiazepine or alcohol
use, and after stopping
the medication.

opioid f ree for at least
7–10 days for short-acting
opioids and at least
10–14 days for long-acting
opioids before their ﬁrst
dose to avoid XR-NTXprecipitated opioid
withdrawal (which may
require hospitalization).

‡ About the risk of overdose
after stopping the
medication.

Administration

Daily (or off-label less-thandaily dosing regimens)
administration of sublingual
or buccal tablet or ﬁlm.
Subdermal implants every
6 months, for up to 1 year,
for stable patients. Monthly
subcutaneous injection
of extended-release
formulation in abdominal
region for patients treated
with transmucosal
buprenorphine for at least 1
week.

Daily oral administration
as liquid concentrate,
tablet, or oral solution f rom
dispersible tablet or powder
(unless patients can take
some home).

Every 4 weeks or onceper-month intramuscular
injection.

Prescribing

Physicians, nurse
practitioners (NPs), and
physician assistants (PAs)
need a waiver to prescribe.
Any pharmacy can ﬁll a
prescription for sublingual
or buccal formulations.
OTPs can administer/
dispense by OTP physician
order without a waiver.

SAMHSA-certiﬁed OTPs can
provide methadone for daily
onsite administration or athome self-administration for
stable patients.

Physicians, NPs, or
PAs prescribe or order
administration by qualiﬁed
healthcare professionals.

*Long-acting buprenorphine implants (every 6 months) for patients on a stable dose of buprenorphine are also available
through implanters and prescribers with additional training and certiﬁcation through the Probuphine Risk Evaluation
and Mitigation Strategy (REMS) Program. Extended-release buprenorphine monthly subcutaneous injections are available
only through prescribers and pharmacies registered with the Sublocade REMS Program.
**Naltrexone hydrochloride tablets (50 mg each) are also available for daily oral dosing but have not been shown to be
more effective than treatment without medication or placebo because of poor patient adherence.

3-6

A199

TIP 63

Part 3 of 5—Pharmacotherapy for Opioid Use Disorder

Introduction to Medications That
Address OUD

RESOURCE ALERT
Substance Abuse and Mental
Health Services Administration
(SAMHSA) Federal Guidelines for
OTPs

Methadone
Methadone is the most used and most studied
OUD medication in the world.10,11 The World
Health Organization (WHO) considers it an
essential medication.12 Many clinical trials and
meta-analyses have shown that it effectively
reduces illicit opioid use, treats OUD, and
retains patients in treatment better than
placebo or no medication.13,14,15 (Part 1 of this
Treatment Improvement Protocol [TIP] further
covers methadone’s efﬁcacy.)
In the United States, roughly 1,500 federally
certiﬁed opioid treatment programs (OTPs) offer
methadone for OUD. Increasingly, they also
offer buprenorphine, and some provide XR-NTX.
Core OTP services include medical oversight of
treatment, direct observation of dose administration, take-home dose dispensing under certain
conditions, counseling, and drug testing.
Some OTPs provide other services, including
mental health and primary care, HIV and
hepatitis C virus care, and recovery support.
Even so, signiﬁcant demand remains for better
integration and coordination of care among
OTPs, primary care services, and mental health
services to treat the range of needs common in
people with OUD.16 Coordination is especially
important for people with co-occurring medical,
mental, and substance use disorders, who
need multiple services and face challenges in
treatment access and adherence.
Although only OTPs can administer
or dispense methadone for OUD,
all healthcare professionals and
addiction and mental health
counselors should be familiar with
methadone. Their patients may be
enrolled in or need referral to OTPs.

Federal Guidelines for Opioid Treatment
Programs offers guidance on how to satisfy
federal OTP regulations (https://store.samhsa
.gov/shin/content//PEP15-FEDGUIDEOTP/PEP15
-FEDGUIDEOTP.pdf).

Naltrexone
XR-NTX has demonstrated efﬁcacy in
reducing return to illicit opioid use, increasing
treatment retention, and reducing opioid
craving compared with placebo or no medication in randomized controlled trials.17,18,19 (See
Part 1 for more information on naltrexone’s
efﬁcacy in OUD treatment.) Because the injectable form was approved more recently by FDA
than methadone and buprenorphine, XR-NTX
has been less studied than those medications.
Physicians, NPs, and PAs may prescribe or
order XR-NTX for administration by qualiﬁed
staff members without additional waiver
requirements.
XR-NTX initiated prior to release from
controlled environments (e.g., jails, prisons,
residential rehabilitation programs) may be
useful in preventing return to opioid use after
release.20 These settings are typically associated
with extended periods of opioid abstinence, so
maintaining abstinence for sufﬁcient time to start
naltrexone is less challenging than initiating it
among outpatients in the community. Short-term
pilot studies show that offering naltrexone under
these circumstances can increase treatment
engagement after release.21,22
The oral formulation of naltrexone is not
widely used to treat OUD because of low
rates of patient acceptance and high rates of

3-7

A200

TIP 63

Medications for Opioid Use Disorder

Transmucosal buprenorphine is available by
prescription through pharmacies, because the
Drug Addiction Treatment Act of 2000 (DATA
2000) created an exception to the Controlled
Substances Act to permit FDA schedule III, IV,
and V medications approved to treat opioid
dependence to be prescribed for that purpose
outside OTPs. Buprenorphine, in various formulations, is the only medication to which DATA
2000 currently applies.

RESOURCE ALERT
SAMHSA Brief Guide on the Use
of XR-NTX
SAMHSA’s Clinical Use of Extended-Release
Injectable Naltrexone in the Treatment of
Opioid Use Disorder: A Brief Guide offers
guidance on the use of XR-NTX and is available
online (https://store.samhsa.gov/product

Qualifying physicians, NPs, and PAs can
prescribe buprenorphine if they receive
special training, obtain a SAMHSA waiver
under DATA 2000, and get a unique Drug
Enforcement Administration registration
number. This has greatly increased the number
and type of settings where medication for
OUD is available and the number of patients in
treatment. New settings include non-OTP outpatient addiction treatment programs, as well as
general medical and mental health practices or
clinics (ofﬁce-based opioid treatment). OTPs can
also provide buprenorphine.

/Clinical-Use-of-Extended-Release-Injectable
-Naltrexone-in-the-Treatment-of-Opioid-Use
-Disorder-A-Brief-Guide/SMA14-4892R).

nonadherence leading to a lack of efﬁcacy.23
However, consideration should be given to
its use in situations where adherence can be
ensured, such as with observed daily dosing.
Naltrexone is also FDA approved for the
treatment of alcohol use disorder and therefore
may be useful for patients with both OUD and
alcohol use disorder.

Buprenorphine
Buprenorphine is effective in retaining
patients in treatment and reducing illicit
opioid use, as demonstrated by many clinical
trials comparing buprenorphine with placebo
or no medication.24 Buprenorphine treatment is
available throughout the world. WHO includes it
in its list of essential medicines.25 (See Part 1 for
more information on buprenorphine’s efﬁcacy in
OUD treatment.)
Buprenorphine is a partial agonist with a
ceiling effect on opioid activity. Hence, it
is less likely than methadone and other full
agonists to cause respiratory depression in an
accidental overdose. This property contributed
to the decision permitting buprenorphine to
be prescribed to treat opioid dependence
outside OTPs.26 That being said, lethal overdose
with buprenorphine is possible in opioid-naïve
individuals or when it is taken in combination
with central nervous system depressants such as
benzodiazepines or alcohol.

In 2016, FDA approved buprenorphine implants
(Probuphine) that last about 6 months for
patients stabilized on sublingual or buccal formulations. Implants have been found to be more
effective than placebo in reducing illicit opioid
use among opioid-dependent patients receiving
counseling.27 Implants are available in the same
settings as other buprenorphine formulations but
require waivered providers to receive speciﬁc
training from the manufacturer on insertion and
removal per the FDA-approved REMS (www
.accessdata.fda.gov/scripts/cder/rems/index
.cfm?event=IndvRemsDetails.page&REMS=356).
In 2017, FDA approved a monthly extendedrelease buprenorphine injectable formulation
(Sublocade) for patients with moderate-to-

3-8

A201

DATA 2000 restrictions currently
apply only to buprenorphine used
to treat OUD. They do not apply to
pain treatment using buprenorphine
formulations approved to treat pain.

Part 3 of 5—Pharmacotherapy for Opioid Use Disorder

TIP 63

risks, and beneﬁts of each of the three OUD
medications, treatment without medication, and
no treatment. Emphasize that OUD medications
are safe and effective when used appropriately,
and point out that these medications can help
patients reduce or stop illicit opioid use and
improve their health and functioning.

RESOURCE ALERT
How To Obtain a Waiver To
Prescribe Buprenorphine

‡ Learn how to qualify for a DATA 2000

physician waiver: www.samhsa.gov/medication
-assisted-treatment/buprenorphine-waiver

Tailor decisions to patients’ medical, psychiatric,
and substance use histories; to their preferences; and to treatment availability when
deciding which medication and treatment to
provide. Consider:

-management/qualify-for-physician-waiver

‡ Learn how to qualify for an NP or PA waiver:
www.samhsa.gov/medication-assisted
-treatment/qualify-nps-pas-waivers

‡
‡
‡

‡ Learn how waivered physicians can increase

their patient limit from 30 to 100, and then to
275 patients: www.samhsa.gov/sites/default
/ﬁles/programs_campaigns/medication

‡

_assisted/understanding-patient-limit275.pdf

severe OUD who had been initiated and treated
with transmucosal buprenorphine for at least
7 days. The medication is for subcutaneous
abdominal injection by a healthcare provider
and is intended to be available for ordering and
dispensing (not by prescription to patients) in
healthcare settings that receive special certiﬁcation, pursuant to the FDA-approved REMS (www
.accessdata.fda.gov/scripts/cder/rems/index
.cfm?event=IndvRemsDetails.page&REMS=376).

‡
‡
‡

Choosing an OUD Medication
Currently, no empirical data indicate which
patients will respond better to which OUD
medications. All patients considering treatment
should be educated about the effectiveness,

‡

Patients’ prior response to a medication.
The medication’s side effect proﬁle.
The strength of the published data on safety
and effectiveness.
Patients’ use of other substances (e.g.,
naltrexone is also approved for the treatment
of alcohol dependence).
Patients’ occupation. For patients in safetysensitive occupations, consider naltrexone.
Patients’ pregnancy status.*
Patients’ physical dependence on opioids.
Patients not currently physically dependent on
opioids who are returning to the community
from a residential treatment program or incarceration should have the option of XR-NTX,28
methadone, or buprenorphine based on which
best suits their needs and circumstances (see
below for special safety dosing considerations
for methadone and buprenorphine in nontolerant patients).29,30,31,32
Patients’ preferences. Respect patients’
preferences for agonist versus antagonist
medication. (See Part 2 of this TIP for an
indepth discussion of treatment planning.)

*Methadone or buprenorphine maintenance is recommended for OUD treatment during pregnancy,33 as these medications
have better maternal and infant outcomes than no treatment or medically supervised withdrawal.34,35,36 Methadone and
buprenorphine are not associated with birth defects and have minimal long-term neurodevelopmental impact on infants.37
However, neonatal abstinence syndrome can occur, which requires hospitalization.38 The American College of Obstetricians
and Gynecologists notes that limited data exist on the safety and effectiveness of naltrexone in pregnancy.39 Starting
naltrexone rather than opioid agonist treatment in pregnancy is not recommended, given the risk of precipitated withdrawal.
An expert panel did not agree on whether women already receiving treatment with naltrexone at the onset of pregnancy
should remain on that medication during pregnancy.40 Patients who were taking naltrexone before their pregnancy should
weigh with their providers the risks regarding unknown potential harm to the developing fetus versus the potential beneﬁts
of continuing this medication during pregnancy.41 Pregnant patients who discontinue naltrexone and return to opioid use
should be considered for methadone or buprenorphine treatment.42
3-9

A202

TIP 63

Medications for Opioid Use Disorder

Comparative E ectiveness
A Cochrane review of 5 randomized clinical
trials with 788 participants found that, when
provided at ﬂexible doses on an outpatient basis,
methadone retained patients in treatment longer
than buprenorphine.43 That same review found
that methadone and buprenorphine equally
reduced illicit opioid use based on 8 studies with
urine drug testing data from 1,027 participants
and 4 studies with self-reported drug use from
501 participants.
There is not yet a Cochrane review on the
comparative effectiveness of XR-NTX and buprenorphine. However, in 2017, two randomized
trials comparing buprenorphine to XR-NTX were
published. A multisite study with 570 participants in the United States compared initiating
buprenorphine versus XR-NTX at 8 inpatient
treatment programs.44 That study found that
patients randomly assigned to start buprenorphine had signiﬁcantly lower return-to-use
rates during 24 weeks of outpatient treatment
compared with those patients assigned to start
XR-NTX. This ﬁnding was due to the known
difﬁculty in successfully completing induction in
the XR-NTX group. However, comparing only
the subgroups of those participants who did
start their assigned medication, there were no
signiﬁcant between-group differences in returnto-use rates. In a 12-week trial in Norway with
159 participants who were opioid abstinent at the
time of random assignment, XR-NTX was found
to be noninferior to buprenorphine in terms of
treatment retention and illicit opioid use.45 There
is no extant literature evaluating the comparative
effectiveness of methadone, XR-NTX, buprenorphine implant, or extended-release buprenorphine injection to one another.

Duration of Medication
Continued treatment with buprenorphine
or methadone is associated with better
outcomes than medically supervised
withdrawal.46,47,48 Continued treatment with
XR-NTX is associated with better outcomes

The TIP expert panel recommends
offering maintenance therapy with
medication, not short-term medically
supervised withdrawal. The TIP expert
panel also supports maintaining
patients on OUD medication for years,
decades, and even a lifetime if patients
are beneﬁting.
than discontinuing XR-NTX.49 Patients should be
informed of the risks and beneﬁts of discontinuing medication. Buprenorphine or methadone
can be used for medically supervised withdrawal
over a period of days to weeks (Exhibit 3A.2)
for patients who prefer it to ongoing opioid
agonist treatment. When opioid agonist medications are unavailable, the alpha2-adrenergic
agonist clonidine can relieve some withdrawal
symptoms, although clinical trials found it less
effective.50 Pair medically supervised withdrawal
with the chance to begin XR-NTX. Discontinuing
medication increases risk of return to substance
use and overdose death.51 Stable patients can
continue on their selected OUD medication
indeﬁnitely as long as it is beneﬁcial.52,53,54,55
During medically supervised withdrawal, ancillary
medications can treat some of the withdrawal
symptoms (Exhibit 3A.3).

Principles of OUD Pharmacotherapy
Basic Function
Several factors underlie the development of
addiction involving opioids and the difﬁculty
people have in achieving and maintaining abstinence from them. These factors include:56,57

‡
‡
‡

3-10

A203

Short-term direct and indirect mu-opioid
receptor agonist effects.
Neuroplastic changes in the brain.
Genetic, developmental, and environmental
factors (e.g., exposure to high-risk environments, effect of stress on the hypothalamic–
pituitary–adrenal axis).

TIP 63

Part 3 of 5—Pharmacotherapy for Opioid Use Disorder

EXHIBIT 3A.2. Medically Supervised Withdrawal Using Buprenorphine
or Methadone
Medically supervised withdrawal using buprenorphine or methadone is appropriate when patients:

‡ Prefer it to treatment without medications, after they have been told the risks and beneﬁts of this
‡
‡

approach compared with treatment with medications.
Wish to start XR-NTX, which is also FDA approved for the treatment of alcohol dependence.
Are entering a controlled environment or workplace that disallows opioid agonists.

Data conﬂict on the ideal duration of medically supervised withdrawal.58,59,60 Even so, shorter term dose
reductions alone (formerly, “detoxiﬁcation”) are rarely effective.61,62,63

The TIP expert panel does not recommend short-term medically supervised withdrawal alone
because of its high rates of return to illicit opioid use.64,65,66 If patients prefer this approach, it should
be provided with psychosocial treatment.67 XR-NTX treatment should always be considered to
reduce the likelihood of return to use after medically supervised withdrawal is completed and an
adequate period of abstinence achieved,68 as well as to reduce the likelihood of overdose death
upon a return to opioid use.

If withdrawal is appropriate for the patient, the TIP expert panel recommends the following strategies:

‡ Individualize supervised withdrawal duration per patient preference and response to lower medication
doses.

‡ Note that patients may beneﬁt from nonopioid medication (e.g., clonidine, ondansetron, loperamide)
‡
‡
‡

or nonsteroidal anti-inﬂammatory medications to manage withdrawal symptoms near the end of the
taper.
Consider discontinuing dose reduction and increasing the dose if the patient begins to use illicit
opioids.
Encourage patients to continue receiving counseling, monitoring, and other psychosocial support after
medication discontinuation.
Urge patients to reenter treatment promptly if they return or think they may return to illicit opioid use.

EXHIBIT 3A.3. Medications for Management of Opioid Withdrawal
Symptoms
SYMPTOM

MEDICATION

Nausea

Ondansetron, metoclopramide (avoid promethazine; it potentiates opioids)

Diarrhea

Loperamide

Anxiety, irritability, sweating

Clonidine

Insomnia

Diphenhydramine, trazodone

Pain

Nonsteroidal anti-inﬂammatory drugs

3-11

A204

TIP 63

Medications for Opioid Use Disorder

Methadone, buprenorphine, and naltrexone
bind to the mu-opioid receptors in the central
and peripheral nervous systems, gastrointestinal
tract, and vascular system. In the brain, these
receptors mediate opioids’ analgesic and other
effects (e.g., euphoria, respiratory depression,
meiosis).69,70,71 Through modulation of mu-opioid
receptor activity in the brain, these medications
exert therapeutic efﬁcacy in treating OUD.

Intrinsic Activity
Intrinsic activity at the mu-opioid receptor
varies based on whether the medication is a full
agonist, partial agonist, or antagonist (Exhibit
3A.4). The amount of intrinsic activity corresponds to the amount of opioid receptor agonist
effects. A full agonist exerts maximal effects
at increasing doses. A partial agonist has a
ceiling effect. Its opioid effects increase as the
dose increases, but only up to a certain point. An
antagonist binds to the opioid receptor but
does not stimulate the receptor at all. Thus, it
has no intrinsic activity regardless of its dose.

Overview of Medication
Indications and Dosing
Healthcare professionals should consider pharmacotherapy for all patients with OUD. Prescribers
must read FDA labels (i.e., package inserts) for
the medications they prescribe. They must also
evaluate patients clinically to determine the safety
and effectiveness of the medication and dose.
Exhibit 3A.5 summarizes OUD medication formulations, indications, and dosing.
The dosing guidance in subsequent chapters for
methadone (Chapter 3B), naltrexone (Chapter
3C), and buprenorphine (Chapter 3D) is for
healthcare professionals in general medical and
addiction treatment settings. This guidance is
based on:

‡
‡
‡
‡

A review of the literature.
A review of national and international
organizations’ guidelines.
FDA-approved medication labels.
The TIP expert panel’s recommendations.

EXHIBIT 3A.4. Intrinsic Activity of OUD Medications72
100
90

Full Agonist
(Methadone)

80

Intrinsic Activity

70
60
50

Partial Agonist
(Buprenorphine)

40
30
20
10

Antagonist (Naltrexone)
0
-10

-9

-8

-7
Log Dose of Opioid

3-12

A205

-6

-5

-4

TIP 63

Part 3 of 5—Pharmacotherapy for Opioid Use Disorder

EXHIBIT 3A.5. OUD Medications: Formulations73,74
GENERIC
TRADE NAME

FORMULATIONS

ACTION AT THE
RECEPTOR

FDA INDICATIONS

DOSING REGIMEN

Methadone
(Methadose,
Dolophine)

Orally as liquid
concentrate,
tablet, or oral
solution of
powder or
dispersible
tablet

Mu-opioid receptor
full agonist

Medically supervised
withdrawal and
maintenance
treatment of opioid
dependence; additional
formulations FDA
approved for pain are
not a focus of this TIP

Once daily (also
off-label dosing
regimens if
appropriate, such
as split dose twice
daily)

Generic
buprenorphine
monoproduct

Sublingual tablet

Mu-opioid receptor
partial agonist

Treatment of opioid
dependence; additional
formulations FDA
approved for pain are
not a focus of this TIP

Once daily (also
alternative off-label
regimens)

Generic
buprenorphine/
naloxone
combination
product

Sublingual tablet

Mu-opioid receptor
partial agonist
combined with
mu-opioid receptor
antagonist;
the latter is
not absorbed
sublingually

Treatment of opioid
dependence

Once daily (also
alternative off-label
regimens)

Buprenorphine/
naloxone
(Zubsolv)

Sublingual tablet

Mu-opioid receptor
partial agonist
combined with
mu-opioid receptor
antagonist;
the latter is
not absorbed
sublingually

Treatment of opioid
dependence

Once daily (also
alternative off-label
regimens)

Buprenorphine/
naloxone
(Bunavail)

Buccal ﬁlm

Mu-opioid receptor
partial agonist
combined with
mu-opioid receptor
antagonist;
the latter is
not absorbed
sublingually

Treatment of opioid
dependence

Once daily (also
alternative off-label
regimens)

Buprenorphine/
naloxone
(Suboxone)

Sublingual ﬁlm;
may also be
administered
buccally

Mu-opioid receptor
partial agonist
combined with
mu-opioid receptor
antagonist;
the latter is
not absorbed
sublingually

Treatment of opioid
dependence

Once daily (also
alternative off-label
regimens)

Continued on next page

3-13

A206

TIP 63

Medications for Opioid Use Disorder

EXHIBIT 3A.5. OUD Medications: Formulations (continued)
GENERIC
TRADE NAME

FORMULATIONS

ACTION AT THE
RECEPTOR

FDA INDICATIONS

DOSING REGIMEN

Buprenorphine
(Probuphine)

Implants

Mu-opioid receptor
partial agonist

Maintenance treatment
of opioid dependence
in clinically stable
patients taking 8 mg/
day or less of Suboxone
equivalents

Implants last for
6 months and are
then removed,
after which a
second set can be
inserted

Extendedrelease
injection
buprenorphine
(Sublocade)

Subcutaneous
injection in
the abdominal
region

Mu-opioid receptor
partial agonist

Treatment of
moderate-to-severe
OUD among patients
initiated and taking
transmucosal
buprenorphine for at
least 7 days

Monthly

Oral naltrexone
(Revia)

Oral tablet

Mu-opioid receptor
antagonist

Block the effects of
administered opioid
agonists

Once daily (also
alternative off-label
regimens)

XR-NTX (Vivitrol)

Intramuscular
injection

Mu-opioid receptor
antagonist

Prevent return to opioid
dependence after
medically supervised
opioid withdrawal

Once monthly by
injection

3-14

A207

Part 3 of 5—Pharmacotherapy for Opioid Use Disorder

TIP 63

Chapter 3B: Methadone
Chapter 3B provides an overview of methadone pharmacology and discussion of
key methadone dosing considerations for healthcare professionals working in opioid
treatment programs (OTPs).

Methadone is the most studied pharmacotherapy for opioid use disorder (OUD). Of all OUD
pharmacotherapies, it is used to treat the most
people throughout the world and has by far
the longest track record (nearly 50 years).75,76
Numerous clinical trials and meta-analyses have
shown that methadone treatment is associated
with signiﬁcantly higher rates of treatment
retention and lower rates of illicit opioid use
compared with placebo and with no treatment.77
Other research associates methadone treatment
with reduced mortality, criminal behavior, and
HIV seroconversion. 78,79,80 A Cochrane metaanalysis found that, at ﬂexible doses, methadone
compared with buprenorphine retains patients
in treatment signiﬁcantly longer and equally
reduces illicit opioid use.81
In the United States, OTPs can offer
methadone to treat OUD, but all providers
who may care for patients with OUD should
be familiar with this treatment.

Formulations
There are several formulations of methadone:

‡
‡
‡
‡

Liquid concentrate, which is the formulation
most commonly used in treatment programs.
Powder, which is dissolved in water and
administered as a liquid.
Dispersible tablets, which are scored tablets
that are dissolved in water.
Tablets, which are most commonly used
outside of OTPs for analgesia.

Pharmacology
Methadone, a long-acting mu-opioid receptor
full agonist, is a schedule II controlled medication. It is highly plasma–protein bound and binds
to proteins within tissues throughout the body.82
Through mu-opioid receptor binding and opioid
cross-tolerance to other mu-opioid agonists, at
adequate doses, methadone reduces opioid
craving and withdrawal and blunts or blocks
the effects of illicit opioids.
There is wide individual variability in
methadone pharmacokinetics. The half-life
of methadone can vary from 8 to 59 hours83
depending on the patient. The average is 24
hours.84
Methadone has no ceiling effect. As a full
agonist, increasing doses of methadone produce
maximal physiological effects at the opioid
receptors. Plasma levels reach steady state
in about 5 days (i.e., ﬁve half-lives). Before
achievement of steady state, release from tissue
reservoirs can lead to increasing serum plasma
levels and toxicity, even if the daily methadone
dose is not changed.
Methadone induction, thus, should begin at
a low dose and increase gradually with daily
monitoring over days or weeks. At stable daily
doses, serum levels peak 2 to 4 hours after
dosing, then slowly decrease, providing 24 hours
without overmedication or withdrawal.85

3-15

A208

TIP 63

Medications for Opioid Use Disorder

Bioavailability
Methadone is approximately 70 to 80 percent
bioavailable when patients take it orally for
OUD. There is notable individual variability
in bioavailability, ranging from 36 to 100
percent.86,87
The liver’s CYP450 3A4 enzyme is primarily
responsible for metabolizing methadone,88
although CYP2B6 and CYP2D6 enzymes are also
involved.89 At the start of methadone treatment,
methadone can increase CYP3A4 activity
and accelerate its own metabolism in some
individuals.90
Dosing must be individualized because
methadone’s bioavailability, clearance, and
half-life can vary considerably among patients.
Providers should check for potential drug–drug
interactions and monitor patients receiving concomitant medications. Some medications (e.g.,
benzodiazepines, anticonvulsants, antibiotics,
antiretroviral agents, some antidepressants)
can induce or inhibit CYP450 enzymes, resulting
in potential changes in methadone serum
concentration, effectiveness, and side effect
proﬁle.

Methadone is indicated for people meeting
OTP admission criteria, which for people 18
and older are:

‡
‡

‡
‡
‡

Women who are pregnant.
Former patients (up to 2 years after
discharge).
Patients within 6 months of release from
incarceration.

For patients younger than 18, admission
criteria are different. They include two
documented, unsuccessful, medically supervised
withdrawals or treatments without OUD medication (e.g., methadone) in a 12-month period.
The parent or legal guardian must provide
written informed consent.

Contraindications
Contraindications to treatment with methadone
include an allergy to methadone and other
instances in which opioids are contraindicated,
such as acute asthma, in patients with abnormally high carbon dioxide blood levels (e.g., from
pulmonary disease or sleep apnea), or paralytic
ileus.

Precautions and Warnings
Respiratory depression

Dosing Considerations

‡

OTP physicians can waive the history requirement per Code of Federal Regulations (42 CFR
8.12)92 for:

Being currently “opioid-addicted”—the term
the Substance Abuse and Mental Health
Services Administration (SAMHSA) OTP
regulations use (e.g., meeting Diagnostic and
Statistical Manual of Mental Disorders, Fifth
Edition,91 criteria for OUD). Not all patients
meeting OUD criteria, particularly those with
mild OUD, are appropriate candidates for
methadone. This is discussed in detail in Part 2
of this Treatment Improvement Protocol (TIP).
Having a history of at least 1 year of opioid
addiction before admission.
Providing voluntary, written informed consent.

Methadone can cause respiratory depression,
particularly during initial dosing and dose
titration. The goal of methadone dosing in the
ﬁrst weeks of treatment (i.e., induction) is to
relieve withdrawal but avoid oversedation and
respiratory depression. Patients who are older
or cachectic or who have chronic obstructive
pulmonary disease are more susceptible to
respiratory depression and should be treated
cautiously with lower doses.

3-16

A209

A standard formula for dose induction
for all patients, without careful
monitoring of response to treatment,
and individualized dose adjustment is
inadvisable. This can lead to methadone
intoxication and overdose death.

Part 3 of 5—Pharmacotherapy for Opioid Use Disorder

Individualize dosing decisions through daily
monitoring of patients’ responses to treatment.
Opioid tolerance cannot be accurately gauged
based on patient self-reports of the type, amount,
or purity of the opioids they’ve used or of the
severity of their opioid withdrawal symptoms.
The best approach to dosing is to start low
and go slow. Methadone has a relatively long
half-life (24–36 hours or longer). Steady-state
serum levels are generally not reached until
about ﬁve half-lives. This means that patients
will not feel the full effect of the initial dose
for 4 or more days even if the daily dose is the
same. Slow release of methadone from tissues
causes serum levels to continue to increase until
reaching steady state. Initially a dose may seem
appropriate, but the third or fourth day of the
same dose can lead to oversedation and even
respiratory depression and death.93

‡
‡
‡

with alcohol or benzodiazepine use disorders
is challenging and should be undertaken with
care. A 2017 Food and Drug Administration
(FDA) Drug Safety Communication noted that
although concomitant use of buprenorphine or
methadone with benzodiazepines increases the
risk of an adverse reaction, including overdose
death, opioid agonist treatment should not be
denied to patients solely on the basis of their
taking benzodiazepines, because untreated
OUD can pose a greater risk of morbidity and
mortality.95 FDA advises that careful medication
management by healthcare professionals can
reduce risk (see www.fda.gov/downloads
/Drugs/DrugSafety/UCM576377.pdf for more
information).
Strategies to manage patients with concurrent
alcohol or benzodiazepine use disorders
include the following (see also Exhibit 3B.1):

‡

Use a lower-than-usual starting dose in
individuals with no or low opioid tolerance
(5 mg to 10 mg). Increase doses slowly and with
careful monitoring for patients who:
Have not used opioids for 5 or more days
(e.g., after leaving a controlled environment).
Do not use opioids daily.
Use weaker opioids (e.g., codeine).

Do not determine doses by analgesic
equivalence dose conversion tables for
patients using high doses of prescription opioids,
whether by prescription or illicitly. This can lead
to death owing to incomplete cross-tolerance94
and the unique pharmacology of methadone.

‡

‡

Concurrent substance use disorders (SUDs)
involving benzodiazepines or alcohol
Concurrent misuse of alcohol or benzodiazepines with methadone (or buprenorphine)
increases respiratory depression risk. Use
of alcohol and benzodiazepines (illicit and
prescription) is common in patients with OUD.
Managing OUD with methadone for patients

TIP 63

‡

Obtain permission to communicate with the
benzodiazepine prescriber to conﬁrm the
reason for use, adherence to treatment, and
prescriber awareness of the patient’s OUD. It
can also help to speak (with permission) with
close family members or friends to assess the
extent and impact of any alcohol or benzodiazepine misuse.
Ensure that patients understand the risk
of potential respiratory depression and unintentional overdose death when combining
methadone with alcohol, benzodiazepines,
or other central nervous system (CNS)
depressants.
Determine whether patients require
medically supervised withdrawal or
tapering from alcohol or benzodiazepines.
Patients at risk for serious alcohol or benzodiazepine withdrawal syndrome (including
seizures and delirium tremens) may need
inpatient medically supervised withdrawal.
Attempt gradual outpatient medically
supervised withdrawal for benzodiazepines when indicated. Some OTPs have the
stafﬁng and capacity to provide a supervised

3-17

A210

TIP 63

Medications for Opioid Use Disorder

EXHIBIT 3B.1. Strategies for Managing Benzodiazepine Use by
Patients in OUD Treatment

‡ Carefully assess the patient’s benzodiazepine

‡ Coordinate with other prescribers. Some

use, including:
Intent of use.
Source (check the state’s prescription drug
monitoring program [PDMP]).
Amount and route of use.
Binge use.
Prior overdoses.
Harms (e.g., car crashes, criminal acts, sleep
trouble).
Co-use with other substances that further
increase risk for respiratory depression and
overdose.
Withdrawal history (e.g., seizures, delirium).

‡
‡
‡

‡ Also assess for:

Psychiatric and medical comorbidity.
Motivation for change.
Psychosocial support system (obtain history
from a signiﬁcant other if the patient permits).

‡ Gauge level of care and setting needed (e.g.,

residential, outpatient). Inpatient treatment may
be best for patients with poor motivation, limited
psychosocial support, serious or complicated
comorbidity, or injection or binge use.

‡

outpatient taper from benzodiazepines.
This usually requires use of a long-acting
benzodiazepine, management of anxiety and
sleeplessness, and careful monitoring with
observed dosing and toxicology screening. It
may also require lower-than-usual methadone
doses. Engage in outpatient medically supervised withdrawal only with patients who are
physically dependent on benzodiazepines
but do not inject or binge. This may only be
successful in a minority of patients. Attempt
the taper while continuing treatment with
methadone, subject to certain conditions that
promote safety and reduce risk.
Consider increasing counseling frequency
as appropriate.

‡

patients may have taken appropriately
prescribed benzodiazepines for years with
limited or no evidence of misuse. For such
patients, tapering benzodiazepines may be
contraindicated and unrealistic.
Address comorbid mental disorders (e.g.,
anxiety, depression) with other medications or
psychosocial treatments, when feasible.
Provide medically supervised withdrawal from
benzodiazepines or refer to specialty care for
same.
Create a treatment plan with built-in conditions
(e.g., urine testing, more frequent visits, short
medication supply).
Frequently review patient progress and
objective outcomes, such as:
Urine drug testing.
PDMP reports.
Psychosocial functioning.
Reports from signiﬁcant others.

‡ Revise treatment plans as needed, and

document the rationale for treatment decisions.

Adapted with permission.96

For more information on managing benzodiazepine use, see Management of Benzodiazepines
in Medication-Assisted Treatment (http://ireta
.org/wp-content/uploads/2014/12/BP_Guidelines
_for_Benzodiazepines.pdf).

QTc prolongation and cardiac arrhythmia
Methadone treatment has been associated
with QTc prolongation, which often occurs
without clinical consequences.97,98 Since 2006,
methadone has had an FDA black box warning
on QTc prolongation and Torsades de Pointes.
QTc intervals above 500 milliseconds can
increase risk for this rare ventricular arrhythmia,
which can be lethal.99,100 The prevalence of QTc
prolongation among methadone patients is

3-18

A211

Part 3 of 5—Pharmacotherapy for Opioid Use Disorder

QTc prolongation is an abnormally
long time in electrocardiogram (ECG)
tracing between the start of a Q
wave and the end of a T wave. Various
cutoffs deﬁne prolonged QTc interval,
including greater than 450 milliseconds
for men, greater than 460 to 470
milliseconds for women, or greater than
450 milliseconds for either gender.101
However, the faster the heart rate, the
shorter the QTc interval. Hence, correct
the QTc interval for heart rate; divide
the QTc interval in milliseconds by
the square root of the R-R interval in
seconds.102
not known with certainty. It has been estimated
that about 2 percent of patients in methadone
treatment have QTc intervals greater than 500
milliseconds.103 According to methadone’s
FDA label, most Torsades de Pointes cases
occur in patients receiving methadone for pain
treatment, although some cases have occurred
among those in methadone maintenance.104
High methadone doses may be associated with
prolonged QTc intervals.105 Other risk factors
include:106

‡
‡
‡
‡

TIP 63

risk for cardiac arrhythmia. The TIP expert panel
concurs with the recommendations of other
expert panels (which included cardiologists)
that OTPs develop a cardiac risk management
plan,109,110 to the extent possible. OTPs should
consider the following elements in crafting a
cardiac risk management plan:

‡

An intake assessment of risk factors, which
can include:
− Family history of sudden cardiac death,
arrhythmia, myocardial infarction, heart
failure, prolonged QTc interval, or unexplained syncope.
− Patient history of arrhythmia, myocardial
infarction, heart failure, prolonged QTc
interval, unexplained syncope, palpitations,
or seizures.
− Current use of medications that may
increase QTc interval (for a complete list,
see www.crediblemeds.org/pdftemp/pdf
/CompositeList.pdf; register for free for the
most current list).
− Patient history of use of cocaine and
methamphetamines (which can prolong the
QTc interval).
− Electrolyte assessment (for hypokalemia or
hypomagnesemia).

‡

A risk stratiﬁcation plan, which can include
the following:
− Conduct an ECG for patients with signiﬁcant risk factors at admission; repeat
within 30 days. Repeat once a year and if
the patient is treated with more than 120
mg of methadone per day.
− Discuss risks and beneﬁts of methadone
with patients with QTc intervals between
450 and 500 milliseconds. Adjust modiﬁable risk factors to reduce their risk.
− Do not start methadone treatment for
patients with known QTc intervals above
500 milliseconds. If such an interval is
discovered during treatment, have a risk/
beneﬁt discussion. Strongly consider
lowering the methadone dose, changing
concurrent medications that prolong the

Some medications (e.g., antidepressants,
antibiotics, antifungals).
Congenital prolonged QTc interval.
Hypokalemia.
Bradycardia.

There is considerable controversy about how
best to screen for QTc prolongation without
creating barriers to methadone treatment
entry.107 Indeed, a Cochrane review of the literature was unable to draw any conclusions about
the effectiveness of QTc screening strategies in
preventing cardiac morbidity or mortality among
methadone patients.108 Notwithstanding the
uncertainty about the best approach, OTPs can
take steps to identify patients who may be at

3-19

A212

TIP 63

Medications for Opioid Use Disorder

QTc interval, eliminating other risk factors,
and, if necessary, switching to buprenorphine. Include follow-up ECG monitoring.
− Consider providing routine universal ECG
screening if feasible, although there is insufﬁcient evidence to formally recommend
doing so.111

Adrenal insu ciency
Adrenal insufﬁciency has been reported in
patients treated with opioids. Ask patients to
alert healthcare providers of nausea, vomiting,
loss of appetite, fatigue, weakness, dizziness, or
low blood pressure.115

Drug Interactions

Accidental ingestion
Inform patients that accidental ingestion can
be fatal for opioid-naïve individuals, particularly
children. Patients should safeguard take-home
methadone in a lockbox out of the reach of
children.

Neonatal abstinence syndrome (NAS)
Ensure awareness among pregnant patients
or patients who may become pregnant that
NAS can occur in newborns of mothers treated
with methadone. Women receiving methadone
treatment while pregnant should talk with their
healthcare provider about NAS and how to
reduce it. Research has shown that the dose of
opioid agonist medication is not reliably related
to the severity of NAS.112,113,114 Thus, each woman
should receive the dose of medication that best
manages her illness.

Misuse and diversion

Methadone has more clinically signiﬁcant
drug–drug interaction than buprenorphine.116
Carefully monitor each patient’s response to
treatment if they are prescribed or stop taking
a CYP450 34A inducer or inhibitor. Methadone
dosages may need to be adjusted up or down
depending on the medication and whether
treatment is starting or stopping. Exhibit 3B.2
lists common interactions between methadone
and other medications.
Medications that induce CYP450 activity can
increase methadone metabolism. Patients
may experience craving or opioid withdrawal
symptoms between doses if they begin these
medications or become sedated if they discontinue them:

‡
‡
‡

Alert patients to the potential for misuse and
diversion of methadone.

Physical dependence
Inform patients that they will develop physical
dependence on methadone and will experience
opioid withdrawal if they stop taking it.

Sedation
Caution patients that methadone may affect
cognition and psychomotor performance and
can have sedating effects. Urge patients to be
cautious in using heavy machinery and driving
until they are sure that their abilities are not
compromised.

Some antibiotics (e.g., rifampin).
Antiretrovirals (e.g., efavirenz, nevirapine,
ritonavir).
Anticonvulsants (carbamazepine, phenobarbital, phenytoin).

Other medications can inhibit CYP450 activity
and decrease methadone metabolism, causing
symptoms of overmedication (e.g., sedation)
when the medication is started and possibly
withdrawal or cravings when it is stopped.
Among such medications are:117

‡
‡
‡
‡

Some antibiotics (ciproﬂoxacin, erythromycin).
Antacids (cimetidine).
Antifungals (ﬂuconazole).
Antidepressants (e.g., ﬂuvoxamine, paroxetine, sertraline).

Methadone can affect the metabolism of other
medications. For example, zidovudine levels
are reported to increase signiﬁcantly during

3-20

A213

TIP 63

Part 3 of 5—Pharmacotherapy for Opioid Use Disorder

EXHIBIT 3B.2. Common Potential Methadone Drug–Drug Interactions
Antiretrovirals
CLASS OR SPECIFIC DRUG

PUTATIVE
MECHANISM

INTERACTION

NOTES

Efavirenz, lopinavir,
nevirapine

Reduction in serum
methadone levels

Induction of
CYP450 enzymes

Clinically signiﬁcant opioid
withdrawal symptoms likely

Abacavir, etravirine,
nelﬁnavir, ritonavir,
saquinavir, tipranavir

May reduce serum
methadone levels

Induction of
CYP450 enzymes

Clinically pertinent opioid
withdrawal symptoms
unlikely

Didanosine

Reduction in didanosine
plasma concentrations

Decreased
bioavailability

Possible decreased efﬁcacy
of didanosine

Zidovudine

Increase in zidovudine
plasma concentration

Unknown

Risk of zidovudine toxicity

Antidepressants
CLASS OR SPECIFIC DRUG

PUTATIVE
MECHANISM

INTERACTION

NOTES

Tricyclic: Amitriptyline,
clomipramine, desipramine, doxepin, imipramine, nortriptyline, protriptyline, trimipramine

Increased risk for
constipation, sedation,
QTc prolongation, and
arrhythmia

Anticholinergic
effects; blockade
of human ether-ago-go-related gene
(hERG) channel

Clinical experience with
combination indicates it is
generally safe with careful
clinical monitoring

Serotonin reuptake
inhibitors: citalopram, escitalopram, ﬂuvoxamine,
ﬂuoxetine, paroxetine,
sertraline

May increase serum
methadone levels;
increased risk for
serotonin syndrome

Inhibition of CYP
enzymes; blockade
of serotonin
transporter

Clinical experience with
combination indicates it is
generally safe with careful
clinical monitoring

Monoamine oxidase
inhibitors: Isocarboxazid,
phenelzine, selegiline,
tranylcypromine

Increased risk for
serotonin syndrome

Inhibition
of serotonin
metabolism

Avoid or use with extreme
caution and careful clinical
monitoring

Serotonin/norepinephrine reuptake inhibitors:
Duloxetine, desvenlafaxine, venlafaxine

Increased risk for
serotonin syndrome;
increased risk for QTc
prolongation and
arrhythmia (venlafaxine)

Blockade of
serotonin
transporter;
blockade of
hERG channel
(venlafaxine)

Clinical experience with
combination indicates it is
generally safe with careful
clinical monitoring

Continued on next page

3-21

A214

TIP 63

Medications for Opioid Use Disorder

EXHIBIT 3B.2. Common Potential Methadone Drug–Drug Interactions
(continued)

Antibiotics
INTERACTION

PUTATIVE
MECHANISM

Ciproﬂoxacin, clarithromycin, erythromycin,
azithromycin

May increase methadone
serum levels; increased
risk for QTc prolongation
and arrhythmia

Inhibition of
CYP enzymes;
blockade of hERG
channel

One case report of sedation
(ciproﬂoxacin); clinical
monitoring required

Rifampin

Reduction in serum
methadone levels

Induction of CYP
enzymes

Severe opioid withdrawal
can occur; need increased
methadone dose

CLASS OR SPECIFIC DRUG

NOTES

Antifungals
CLASS OR SPECIFIC DRUG

INTERACTION

Ketoconazole, ﬂuconazole

May increase methadone
serum levels

PUTATIVE
MECHANISM

Inhibition of CYP
enzymes

NOTES

Little evidence for important
clinical effects

Anticonvulsants
CLASS OR SPECIFIC DRUG

INTERACTION

Carbamazepine, phenytoin, phenobarbital

Reduction in serum
methadone levels

PUTATIVE
MECHANISM

Induction of CYP
enzymes

NOTES

Severe opioid withdrawal
can occur; will need
increased methadone dose

Antiarrhythmics
CLASS OR SPECIFIC DRUG

PUTATIVE
MECHANISM

INTERACTION

NOTES

Procainamide, quinidine

Increases risk for QTc
prolongation and
arrhythmia

Blockade of hERG
channel

Careful clinical monitoring
required

Amiodarone

May increase methadone
serum levels; increased
risk for QTc prolongation
and arrhythmia

Inhibition of
CYP enzymes;
blockade of hERG
channel

Careful clinical monitoring
required

Continued on next page

3-22

A215

TIP 63

Part 3 of 5—Pharmacotherapy for Opioid Use Disorder

EXHIBIT 3B.2. Common Potential Methadone Drug–Drug Interactions
(continued)

Other Drugs and Speciﬁc Classes
CLASS OR SPECIFIC
DRUG

PUTATIVE
MECHANISM

INTERACTION

NOTES

Benzodiazepines

Additive CNS and
respiratory depressant
effects

Increased GABA
activity

Careful clinical monitoring
required

Barbiturates

Additive CNS and
respiratory depressant
effects

Increased GABA
activity

Careful clinical monitoring
required

Cimetidine

May increase serum
methadone levels

Inhibition of CYP
enzymes

No evidence of major
clinical effect

Naltrexone

Precipitated opioid
withdrawal

Displaces
methadone from
mu-opioid receptors

Contraindicated

Adapted with permission.118

methadone treatment. Monitoring for zidovudine
side effects during treatment is warranted.119
Check drug–drug interactions online (www
.drugs.com/drug_interactions.php).

Side E ects
Possible side effects of methadone include
the following (methadone FDA labels list all
potential side effects and are available at
https://dailymed.nlm.nih.gov/dailymed/search
.cfm?labeltype=all&query=METHADONE:

‡
‡
‡
‡
‡
‡
‡
‡

Constipation
Nausea
Sweating
Sexual dysfunction or decreased libido
Drowsiness
Amenorrhea
Weight gain
Edema

Assessment
A thorough assessment will help decide whether
a patient is appropriate for admission and meets
federal and any state regulatory requirements
for methadone treatment. (See Part 2 of this TIP
for detailed discussion of screening and assessment.) Before ordering methadone:

‡

‡

Check the state PDMP for opioid or benzodiazepine prescriptions from other providers
(see www.nascsa.org/stateproﬁles.htm for
links to state PDMPs). Note that methadone
for OUD treatment will not appear in the
PDMP because of conﬁdentiality regulations
regarding substance use treatment records.
Obtain the patient’s consent to release information and speak with treating providers to
coordinate care for patient safety.
Take the patient’s history.
− Conduct a medical, psychiatric, substance
use, and substance use treatment history.

3-23

A216

TIP 63

Medications for Opioid Use Disorder

− Assess recent opioid use, including

frequency, quantity, type, route, and
recency (last day of use and use in the past
30 days).
− Establish OUD diagnosis.
− Assess for other SUDs, including those
that involve alcohol, benzodiazepines, or
stimulants.

‡

‡

Conduct a physical exam.
− Assess for signs and symptoms of
intoxication. Do not give patients who
are sedated or intoxicated their ﬁrst
dose. Instead, assess and treat them
appropriately:

‡
‡
‡
‡

Identify causes of sedation or
intoxication.
Ensure the patient’s immediate safety.
Reassess methadone induction
appropriateness.
Develop a plan to reattempt induction
or follow a different course of treatment
as appropriate.

Obtain laboratory tests.
− Conduct drug and alcohol tests. Use
reliable urine tests for drugs, including
opioids (e.g., morphine, methadone,
buprenorphine, oxycodone), benzodiazepines, cocaine, and other drugs that may
be commonly used in the area (e.g., methamphetamine). Obtain an opioid urine or
oral ﬂuid test before initiating treatment.
A negative opioid test in the absence
of clear opioid withdrawal symptoms
indicates that the patient is likely no longer
opioid tolerant; diagnosis should be
reconﬁrmed. If such patients are to start
taking methadone (rather than naltrexone
for relapse prevention), use caution in
initiating treatment (see the subsection
“First dose for patients without current
opioid tolerance” in the section “Initiating
Methadone Treatment”). Use an alcohol
breathalyzer to estimate the patient’s blood
alcohol content. Do not provide methadone
until the alcohol reading is considerably
below the legal level of alcohol intoxication.

− Assess for signs and symptoms of opioid

withdrawal and physiological dependence. One approach to documenting
withdrawal symptoms is to use a scale such
as the Clinical Opioid Withdrawal Scale
(COWS) or the Clinical Institute Narcotic
Assessment (CINA) Scale for Withdrawal
Symptoms (see “Resource Alert: Opioid
Withdrawal Scales”). Before the ﬁrst dose
of methadone, conﬁrm signs of opioid
withdrawal to provide some conﬁdence
that the patient is opioid tolerant and
can begin dose induction. The Naloxone
Challenge should not be routinely used to
determine physiologic withdrawal because
withdrawal symptoms will be visible, if
present, on physical exam if enough time
has passed since last opioid use.120

3-24

A217

RESOURCE ALERT
Opioid Withdrawal Scales
The COWS and other opioid withdrawal
scales from Annex 10 of the World Health
Organization’s Guidelines for the Psychosocially
Assisted Pharmacological Treatment of Opioid
Dependence can be downloaded from the
National Center for Biotechnology Information
website (www.ncbi.nlm.nih.gov/books
/NBK143183).
The CINA Scale for Withdrawal Symptoms
also is available online (www.ncbi.nlm.nih.gov
/books/NBK64244/table/A72912).

TIP 63

Part 3 of 5—Pharmacotherapy for Opioid Use Disorder

− Conduct a pregnancy test. Pregnant

patients with OUD should be treated with
methadone or transmucosal buprenorphine.121,122 Discuss risks and beneﬁts of
treatment with methadone and alternative
approaches for each patient and fetus
versus the risks of continued illicit opioid
use. Refer pregnant patients to prenatal
care. Women should be advised that their
menstrual cycle may return to normal once
they are stabilized on medication, and
hence they should use birth control if they
wish to avoid pregnancy.
− Conduct liver function tests. If possible,
assess liver function tests. It is not
necessary to wait for the results of these
tests to begin treatment, because the risk
of not starting methadone outweighs the
beneﬁts of having the test results. Patients
with suspected cirrhosis based on history
and clinical exam should be started at
a lower methadone dose than typical
patients, with more cautious titration.
Patients who have chronic hepatitis can
be treated with methadone. Have a risk/
beneﬁt discussion with patients whose liver
enzymes are at or greater than ﬁve times
the normal level and monitor their liver
function during treatment.
− Conduct hepatitis and HIV testing.
Hepatitis B and C are common among
patients who enter methadone treatment.
HIV infection is also prevalent. If possible,
test patients for these infections and refer
them to treatment as appropriate. The
Centers for Disease Control and Prevention
recommends hepatitis B vaccination for
people seeking treatment for SUDs.123

Patient Selection

Patients who responded well to methadone
in the past should be considered for this
treatment.
Unsuccessful treatment experiences with
methadone in the past do not necessarily
indicate that methadone will be ineffective
again. Motivation and circumstances change
over time. Also, treatment varies by OTP, as it
does for other medical illnesses. Records from
previous providers can contextualize the extent
of past treatment.
Pregnant women should be considered for
methadone treatment.
Methadone (or buprenorphine) treatment
through OTPs may be best for patients who
need a higher level of outpatient structure or
supervision of medication adherence. Tailor
medication decisions to patients’ medical and
substance use histories, patient preferences, and
treatment availability.

Informed Consent
Inform all patients of:

‡
‡
‡

Their OUD diagnosis and the nature of the
disorder.
Risks and beneﬁts of methadone and other
OUD medications.
Risks and beneﬁts of nonmedication
treatments.

Patients should sign consent forms before
starting treatment. The Chapter 3B Appendix
provides a sample consent form for treatment in
an OTP.
Educate patients about what to expect when
receiving methadone treatment (Exhibit 3B.3).
Caution them against using alcohol and drugs

No evidence clearly predicts which patients
will respond best to methadone treatment
versus alternative pharmacotherapies. Inform
patients of all options and the settings in
which they’re available, as appropriate. (See
“Treatment Planning or Referral” in Part 2 of this
TIP for more on shared decision making.)

Use language and written materials
appropriate to each patient’s
comprehension level to ensure that he
or she understands the options and can
make informed decisions.
3-25

A218

TIP 63

Medications for Opioid Use Disorder

EXHIBIT 3B.3. Key Points of Patient Education for Methadone

‡ Inform OTP nursing/medical staff about

Before starting OUD treatment with methadone,
patients should:

‡ Be told that the methadone dose is started low

‡

‡
‡
‡

and increased slowly over days and weeks with
monitoring, because it takes 4 or more days
for the body to adjust to a dose change. This is
necessary to avoid the risk of overdose.
Understand that the goal of the ﬁrst weeks of
treatment is to improve withdrawal symptoms
without oversedation. Patients should inform
providers if they feel sedated or “high” within the
ﬁrst 4 hours after their dose.
Learn the symptoms of methadone intoxication
and how to seek emergency care. The ﬁrst 2
weeks of treatment have the highest risk of
overdose.
Be aware that rescue naloxone does not last
very long, so they should remain in emergency
care for observation if they are treated for opioid
overdose.
Know that concurrent alcohol, benzodiazepine,
or other sedative use with methadone increases
the risk of overdose and death.

‡
‡
‡
‡
‡
‡

during methadone treatment. Warn them of
the increased risk of overdose during the ﬁrst 2
weeks of treatment. Also warn them that discontinuing treatment and returning to opioid use
will increase their risk of overdose. Document
patient education in the medical record.
Educate patients about the importance of
safe storage of take-home methadone doses.
Discuss with patients where they will store their
take-home medication. Advise them against
storing medication in common areas of the home
where visitors or children would have access,
such as kitchens and bathrooms. Take-home
doses should be kept in their original childproof
packaging in a lockbox. The key should not be
left in the box. Inform patients that any portion
of a dose taken by another person, a child,
or pet can be deadly. If this occurs, call 9-1-1
immediately.
3-26

A219

prescribed and over-the-counter medications
and herbs (e.g., St. John’s wort) they are
taking, stopping, or changing doses of to allow
assessment of potential drug–drug interactions.
Inform other treating healthcare professionals
that they are receiving methadone treatment.
Plan to avoid driving or operating heavy
machinery until their dose is stabilized.
Learn about other possible side effects of
methadone, including dizziness, nausea,
vomiting, sweating, constipation, edema, and
sexual dysfunction.
Agree to keep take-home doses locked up and
out of the reach of others. Understand that
giving methadone, even small amounts, to
others may be fatal.
Inform providers if they become pregnant.
Understand that stopping methadone increases
their risk of overdose death if they return to illicit
opioid use.

RESOURCE ALERT
Patient and Family Member
Educational Resources
Decisions in Recovery: Treatment for Opioid
Use Disorder offers information for patients on
the use of medications for OUD (https://store
.samhsa.gov/product/SMA16-4993)
Medication-Assisted Treatment for Opioid
Addiction: Facts for Families and Friends
offers information for family members and
friends (www.ct.gov/dmhas/lib/dmhas
/publications/MAT-InfoFamilyFriends.pdf)

Part 3 of 5—Pharmacotherapy for Opioid Use Disorder

Initiating Methadone Treatment
Observing patients directly when they take
doses early in treatment is not just required;
it’s beneﬁcial. It maximizes adherence, provides
a daily opportunity to assess response to the
medication, and minimizes the likelihood of medication diversion. Federal OTP regulations permit
patients to receive one take-home dose per
week, given routine clinic closure on weekends.
Patients who demonstrate progress can earn
one additional take-home dose per week for the
ﬁrst 90 days of treatment at the OTP medical
director’s discretion. All other doses are directly
observed at the clinic in the ﬁrst 90 days.
The goal of initiating methadone treatment is to
increase the patient’s methadone dose gradually
and safely, stabilizing the patient and reducing
his or her opioid use while recognizing that the
risk of dropout or overdose from illicit opioid use
may increase if induction is too slow.

‡

‡

Day 1
The ﬁrst dose should reduce opioid withdrawal
symptoms. Perform induction cautiously; it’s
impossible to judge a patient’s level of tolerance
with certainty. For patients addicted to prescription opioids, opioid conversion tables should not
be relied on to determine methadone dosage.

First dose for patients with opioid tolerance
The ﬁrst dose for patients tolerant to opioids
is generally between 10 mg and 30 mg
(30 mg is the maximum ﬁrst dose per federal
OTP regulations). After the ﬁrst dose, patients
should remain for observation for 2 to 4 hours if
possible to see whether the dose is sedating or
relieves withdrawal signs.

‡
‡

If withdrawal symptoms lessen, the patient
should return the next day to be reassessed
and to continue the dose induction process.
If sedation or intoxication occurs after the ﬁrst
dose, the patient should stay under observation at the clinic until symptoms resolve. In
this case, the patient should be reassessed the
following day, and the subsequent day’s dose

TIP 63

should be substantially reduced. Extremely
rarely, the patient will need to be treated for
overdose with naloxone. If necessary, begin
rescue breathing and call 9-1-1.
If the patient shows neither sedation nor
reduction of objective signs of opioid withdrawal during the 2- to 4-hour waiting period,
administer another 5 mg dose. A ﬁnal 5 mg
dose after another waiting period of 2 to 4
hours can be administered if necessary. The
maximum total methadone dose on the ﬁrst
day of treatment should not exceed 40 mg.124
However, caution dictates against exceeding
a total ﬁrst day’s dose of 30 mg except in rare
cases. In such cases, the patient should be
carefully monitored on subsequent days to
rule out oversedation.
Patients transferring from another OTP
whose methadone dose and last date of
medication administration can be conﬁrmed
by the medical staff and documented in the
medical record can be continued on the same
methadone dose administered in the original
OTP, even if the dose exceeds the maximum
permitted 40 mg.

For some patients, the lower range of initial
doses is best. Dose with 10 mg to 20 mg in
patients who:

‡
‡
‡
‡
‡

‡

Are ages 60 and older.
May have lower levels of opioid tolerance
based on their recent history.
Use sedating medications, such as benzodiazepines, antipsychotics, or antidepressants.
Engage in problem drinking or have alcohol
use disorder.
Take medications that can increase
methadone serum levels or are stopping
medications that decrease methadone serum
levels.125
Have medical disorders that may cause
hypoxia, hypercapnia, or cardiac arrhythmias.
These include:
− Asthma, chronic obstructive pulmonary
disease, and kyphoscoliosis.
− Obesity.

3-27

A220

TIP 63

Medications for Opioid Use Disorder

− Sleep apnea.
− QTc prolongation.
− A family history of cardiac arrhythmias,

fainting or dizziness, or sudden death.
− Cor pulmonale.
− Electrolyte abnormalities, such as hypokalemia or hypomagnesemia.

First dose for patients without current
opioid dependence
In some circumstances, patients who are
not currently dependent on opioids may
be admitted to an OTP (e.g., individuals
with a history of OUD who are returning from
controlled environments).126 In these instances,
consider treatment with extended-release
naltrexone (XR-NTX) to avoid establishing new
physiological opioid dependence. Instead of
starting methadone, consider starting with a low
dose of buprenorphine because of buprenorphine’s superior safety threshold.127 In one such
study, 1 mg of buprenorphine was the starting
dose, which was increased slowly128 (see Chapter
3D of this TIP). If XR-NTX and buprenorphine are
not available, or the patient prefers methadone
treatment, consider starting methadone at a 5
mg daily dose (as was done in one study129) after
discussing risks and beneﬁts with the patient.
Titrate the dose much more slowly than for
patients who are opioid tolerant. Increase
initially by 5 mg about every week, based on
patient response. Doses can be increased
somewhat more rapidly after careful assessment
of response if the patient begins to use illicit
opioids. As with other methadone dosing,
induction in these cases should not be based on
a standing order.

Dose Titration (Weeks 1 to 2)
The goals of early dose titration for patients
with current opioid dependence starting on
Day 2 of the ﬁrst week of treatment through
stabilization are to avoid sedation at peak
serum levels and to gradually extend time

without opioid withdrawal symptoms and
craving. When patients attend the program,
before dose administration, nursing and/or
medical staff members should ask patients
whether they felt sedation, opioid intoxication
effects, or opioid withdrawal symptoms 2 to
4 hours after their methadone administration
the prior day (Exhibit 3B.4). Doses should be
decreased for reports of symptoms of opioid
intoxication or oversedation. Dosing must be
individualized based on careful patient assessment and generally should not be increased
every day, because plasma methadone levels
do not reach steady state until about ﬁve
methadone half-lives (Exhibit 3B.5).
Even when holding the methadone dose
constant over several days, the patient’s
methadone serum level will rise each day until it
reaches steady state (Exhibit 3B.5). For example,
if the patient remains on 20 mg per day for the
ﬁrst few days of induction, the serum level on
Day 2 would reﬂect the 20 mg second day’s dose
plus 10 mg that remained in the body from the
ﬁrst day’s dose (for the equivalent single dose
total of 30 mg). The third day would reﬂect the
20 mg third day’s dose, plus 10 mg remaining
in the body from the second day’s dose, and 5
mg remaining from the ﬁrst day’s dose (for the
equivalent single dose total of 35 mg), and so
on. Patients who report relief from withdrawal
4 to 12 hours after their last dose may beneﬁt
from staying at that same dose for a few days
so that their serum level can stabilize.130
An American Society of Addiction Medicine
expert panel recommended increasing the
methadone dose in this phase by 5 mg or less
every 5 or more days.131 Other expert recommendations suggest somewhat faster dose
increases,132 including increases of 5 mg to 10
mg no sooner than every 3 to 4 days.133,134 The
most important principle is to individualize dose
induction based on careful assessment of the
patient’s response to the medication.

3-28

A221

TIP 63

Part 3 of 5—Pharmacotherapy for Opioid Use Disorder

EXHIBIT 3B.4. Using Signs and Symptoms To Determine Optimal
Methadone Level
Opioid Overmedication Signs:
Pinpoint pupils, drowsy or nodding off, listless mental status, itching/scratching,
ﬂushing, decreased body temperature, slowed heartbeat and/or respirations
Peak
Methadone
Comfort
Zone

No Illicit Opioid Use
No Withdrawal or Overmedication

Trough

Opioid Withdrawal—Subjective Symptoms:
Drug craving, anxious feelings or depression, irritability, fatigue, insomnia, hot/cold
ﬂashes, aching muscles/joints, nausea, disorientation, restlessness
Severe Opioid Withdrawal—Objective Signs:
Dilated pupils, illicit opioid use, “goose ﬂesh,” perspiring, shaking, diarrhea, vomiting, runny
nose, sneezing, yawning, fever, hypertension, increased heartbeat and/or respirations

Serum
Level

0

2

4

6

8

10

12
14
Hours

16

18

20

22

24

Adapted with permission.135

Dose Titration (Weeks 3 to 4)

EXHIBIT 3B.5. Steady-State
Methadone Concentration
Reached in About 5 Days

Serum Methadone Level

Methadone doses can be increased further
in 5 mg increments about every 3 to 5 days
based on the patient’s symptoms of opioid
withdrawal or sedation.138 Patients who miss
more than four doses must be reassessed. Their
next methadone dose should be decreased
substantially and built back up gradually. It
may be necessary to restart the dose induction
process from Day 1. Be aware of any speciﬁc
state requirements regarding missed doses.

Serum Levels

1

2

3

4

5

6

7

8

9

Dosing must be individualized because methadone’s bioavailability, clearance, and half-life
vary among patients, affecting their clinical
responses and requiring doses to be changed.
Many factors can affect serum levels and clinical
responses to treatment. Along with age and
diet, these factors include:

10

Time (Days)

Adapted with permission.136,137

3-29

A222

TIP 63

‡
‡
‡
‡

Medications for Opioid Use Disorder

Other medications and herbs (e.g., St. John’s
wort).
Genetic differences in metabolizing enzymes.
Pregnancy.
Changes in urinary pH.139

Consider measuring serum methadone levels
in patients who, after being on a stable
methadone dose, report feeling drowsy 2 to
4 hours after dose administration but develop
craving or withdrawal symptoms before the
next dose is due to be administered. This
may occur in the third trimester of pregnancy,
when concomitant medications interact with
methadone, or when patients rapidly metabolize
opioids. In such cases, consider dividing the daily
methadone dose into twice-daily dosing.140
To assess serum methadone levels, draw peak
and trough blood specimens at about 3 hours
and 24 hours, respectively, after dose administration. Serum methadone levels generally correlate
with methadone dose,141 but there is no deﬁned
therapeutic window based on serum methadone
level because response varies widely among
patients. Minimum trough methadone levels of
300 ng/mL to 400 ng/mL may be associated with
reduced likelihood of heroin use,142 but determining the therapeutic dose should depend
on the overall patient response, not the serum
plasma levels. Peak:trough ratios above 2:1 may
indicate rapid metabolism.143

Dose Stabilization (Week 5 and Beyond)
Once the patient achieves an adequate dose,
extended continuation is possible without
dose adjustment. Continuing treatment goals
are to avoid sedation, eliminate withdrawal and
craving, and blunt or block euphoric effects of
illicit opioids.
There may be reasons to further adjust the
dose, including:

‡

Changes in health that can affect medications (e.g., acute hepatitis, exacerbation of
pulmonary disease, sleep apnea).

The TIP expert panel advises against
arbitrary methadone dosage caps.

‡
‡

‡

Changes in patient medications.
Pregnancy. Increased metabolism in the
last trimester may warrant dose increase or
split dosing.144,145 This may require a
SAMHSA exception for daily take-home
half-doses via an SMA-168 Exception Request
(www.samhsa.gov/medication-assisted
-treatment/opioid-treatment-programs
/submit-exception-request).
Concurrent illicit opioid or other drug or
alcohol use.

As illicit opioid use stops and stabilization is
achieved, the patient may wish to lower the
dose to reduce any unpleasant side effects.
Typical stabilization doses of at least 60 mg are
associated with greater treatment retention;
80 mg to 120 mg146 is the typical daily range.147
However, there is wide variation, and some
patients beneﬁt from higher daily doses.

Take-Home Medication
OTPs can provide gradually increasing
numbers of take-home doses to patients who
discontinue illicit drug use and begin achieving
treatment goals, commensurate with their
tenure in the program. This provides a powerful
incentive for patients to achieve treatment
goals.148 It also furthers patients’ recovery goals
by allowing them to attend work, school, or
other activities without daily OTP visits.
Federal OTP regulations describe the
conditions under which take-home doses
are permitted. Some states have additional
regulations. OTPs should be familiar with these
regulations and have written procedures to
address take-home dosing.
The beneﬁts of take-home doses must
outweigh the risks and further patients’
rehabilitation goals. When deciding
whether patients can handle the responsibility of take-home doses of methadone or

3-30

A223

TIP 63

Part 3 of 5—Pharmacotherapy for Opioid Use Disorder

buprenorphine, OTP medical directors should
consider whether patients demonstrate:

‡
‡
‡
‡
‡
‡
‡
‡

No recent misuse of substances.
Regular clinic attendance.
No serious behavioral problems at the clinic.
No recent criminal activity (e.g., selling drugs).
Stability at home and in social relationships.
Sufﬁcient time in treatment.
Ability and intent to store take-home
medication safely.
Rehabilitative beneﬁts from decreasing the
frequency of clinic attendance that outweigh
the potential risks of diversion.

Federal regulations based on patients’ time
in treatment determine eligibility to be
considered for receiving take-home doses of
methadone (but buprenorphine is not bound
by these limits):

‡

‡
‡
‡
‡
‡

OTPs must assess patients’ adherence to
responsible take-home-dose handling and
have a diversion control plan. The plan may
require that the OTP:

‡

‡

‡

‡

One earned dose/week (beyond a weekly
clinic closure day or federal holiday, when
clinics typically close) in the ﬁrst 90 days of
treatment
Two doses during the second 90 days
Three doses during the third 90 days
Up to 6 doses during the last 90 days
Up to 2 weeks of doses after 1 year
Up to 1 month of doses after 2 years

Remain open 7 days per week or arrange
dosing at another clinic on days the clinic is
closed for certain patients to avoid providing
take-home doses to new or unstable patients.
Contact patients randomly and request
that they return their take-home containers
within a day or two to see whether they still
have the medication in their possession or
have altered the medication in any way.
Establish an appropriate drug testing
program with policies to prevent falsiﬁcation
of specimens and to respond to tests that are
negative for methadone.
Require patients to store their take-home
medication in a lockbox to prevent theft or
accidental use by children or others.

Duration of Methadone
Treatment
Longer lengths of stay in methadone treatment
are associated with superior treatment
outcomes.151 Leaving methadone treatment
is associated with increased risk of death from
overdose and other causes.152,153 Patients should
continue as long as they beneﬁt, want to, and
develop no contraindications.

Assessing responsible handling of
take-home doses
Methadone diversion is a risk. People with
OUD who are not in treatment more frequently
use illicit methadone to self-medicate withdrawal
symptoms than to achieve euphoria.149,150 Still,
diversion is a public health risk; people who
self-medicate may not know what dose they are
taking. Moreover, opioid-naïve people (including
children) who ingest methadone can die of
methadone intoxication.

RESOURCE ALERT
Guidance on Federal Take-Home
Methadone Dose Regulations
For more information on federal take-home
dose regulations for OTPs, see SAMHSA’s
Federal Guidelines for Opioid Treatment
Programs (https://store.samhsa.gov/shin
/content/PEP15-FEDGUIDEOTP/PEP15-FED
GUIDEOTP.pdf).

3-31

A224

TIP 63

Medications for Opioid Use Disorder

The TIP expert panel considers
arbitrary time limits on OUD treatment
with methadone to be medically
unwarranted and inappropriate. They
pose a risk to patients and the public.

Dose Tapering and Methadone
Discontinuation
Discuss risks and beneﬁts with patients who
wish to discontinue treatment. Explore their
reasons for wanting to discontinue and solutions
for potential barriers to treatment, which may
include:

‡

‡
‡
‡

‡

Logistics (e.g., travel, scheduling).
Transportation services, including publicly
funded ride services, ride sharing, or peer
support workers, may be available. If not,
transferring patients to a closer OTP or to
one with more suitable hours of operation
may resolve the problem.
Costs. Providers can help patients explore
publicly supported treatment options or apply
for insurance.
Side effects. Changing the dose or treating
side effects may resolve the problem.
Opinions of friends or family. When external
pressure from family or friends drives the
decision, a discussion with the patient and
those individuals may help.
A desire to switch to buprenorphine or
XR-NTX treatment. These options should be
discussed.

encourage them to return to treatment. Prescribe
naloxone to use in case of overdose.
Create a plan collaboratively with stable
patients who wish to discontinue treatment
that addresses:

‡
‡
‡
‡
‡

Gradually tapering their dose.
Increasing psychosocial and recovery
supports.
Discontinuing dose reduction if necessary.
Returning to medication treatment after
discontinuation if they return to illicit opioid
use.
Increasing dosage if destabilization occurs.

Individualize the pace of methadone dose
reduction to the patient’s response. One
approach is to decrease the methadone dose
gradually by 5 to 10 percent every 1 to 2 weeks.
Once patients reach a relatively low dose, often
between 20 mg and 40 mg, they may begin to
feel more craving. Some patients may choose
to switch to buprenorphine for a period to
complete the dose reduction. They may also
wish to begin XR-NTX after an appropriate
period of opioid abstinence.
Encourage patients to use techniques for
preventing return to use, such as participating
in recovery support groups and gaining support
from counseling and family. Doing so can help
patients succeed in tapering off their medication.

Caution patients who are not yet stable
against discontinuing treatment, because of
high rates of return to illicit opioid use and
increased chance of overdose death. 154 Discuss
the alternative of switching to a different OUD
medication. Give patients who stop treatment
information about overdose prevention and

3-32

A225

RESOURCE ALERT
Guidance on Opioid Overdose
Prevention
For more information on preventing opioid
overdose, see the SAMHSA Opioid Overdose
Prevention Toolkit (https://store.samhsa.gov
/shin/content//SMA16-4742/SMA16-4742.pdf).

Part 3 of 5—Pharmacotherapy for Opioid Use Disorder

Methadone Dosing Summary
The initial goal is to reduce opioid withdrawal
and craving safely.

‡

‡
‡

Use the “start low and go slow” approach but
increase dose at a rate that minimizes chances
of continued illicit drug use, while monitoring
for side effects.
Increase doses gradually over several weeks.
Assess for sedation at peak serum concentration (2–4 hours after the dose).

The eventual target is an adequate dose that:

‡
‡
‡

Stops withdrawal symptoms for 24 hours.
Reduces or eliminates craving.
Blunts or blocks euphoria from selfadministered illicit opioids.

In general, after induction is complete, higher
doses are more effective than lower doses.

Enhancing Access to OUD
Medication in OTPs
Individuals on waiting lists for OTPs should
receive interim methadone maintenance
treatment. People on waiting lists typically
continue to use illicit opioids. Many never gain
admission through the waiting list process.
Federal OTP regulations permit use of interim
methadone maintenance to address this problem
by providing methadone treatment for up to 120
days to someone on an OTP waiting list. Routine
counseling and treatment planning are not
required during this period.

TIP 63

Interim methadone maintenance has been
shown to be more effective than a waiting
list to facilitate entry into comprehensive
methadone treatment and to reduce illicit
opioid use, according to two randomized
trials.155,156 Interim methadone requires approval
by SAMHSA and the state opioid treatment
authority. For more detailed information on
interim methadone maintenance, see SAMHSA’s
Federal Guidelines for Opioid Treatment
Programs (https://store.samhsa.gov/shin/content
/PEP15-FEDGUIDEOTP/PEP15-FEDGUIDEOTP
.pdf).
OTPs can overcome geographic barriers
by opening a medication unit of the parent
OTP site. Under the aegis of a certiﬁed OTP,
a medication unit may provide methadone
or buprenorphine administration, dispensing
capacity, and urine drug testing, but not counseling. The parent clinic must provide counseling
and other required services. Such arrangements
can lessen the amount of time required to drive
to a parent OTP location in large states with rural
populations.
SAMHSA’s Federal Guidelines for Opioid
Treatment Programs offers more information
on medication units and other OTP regulations
(https://store.samhsa.gov/shin/content/PEP15
-FEDGUIDEOTP/PEP15-FEDGUIDEOTP.pdf)

3-33

A226

TIP 63

Medications for Opioid Use Disorder

Chapter 3B Appendix
Sample Standard Consent to Opioid Maintenance Treatment Form for OTPs
CONSENT TO PARTICIPATE IN METHADONE OR BUPRENORPHINE TREATMENT
Patient’s Name: _____________________________________________________

Date: _______________

I authorize and give voluntary consent to _________________________________ [insert name of program]
to dispense and administer medications—including methadone or buprenorphine—to treat my opioid
use disorder. Treatment procedures have been explained to me, and I understand that I should take my
medication at the schedule determined by the program physician, or his/her designee, in accordance
with federal and state regulations.
I understand that, like all other medications, methadone or buprenorphine can be harmful if not taken
as prescribed. It has been explained to me that I must safeguard these medications and not share them
with anyone because they can be fatal to children and adults if taken without medical supervision.
I also understand that methadone and buprenorphine produce physical opioid dependence.
Like all medications, they may have side effects. Possible side effects, as well as alternative treatments
and their risks and beneﬁts, have been explained to me.
I understand that it is important for me to inform any medical and psychiatric provider who may treat
me that I am enrolled in an opioid treatment program. In this way, the provider will be aware of all the
medications I am taking, can provide the best possible care, and can avoid prescribing medications that
might affect my treatment with methadone or buprenorphine or my recovery.
I understand that I may withdraw voluntarily from this treatment program and discontinue the use of
these medications at any time. If I choose this option, I understand I will be offered medically supervised
withdrawal.
For women of childbearing age: Pregnant women treated with methadone or sublingual or buccal
buprenorphine have better outcomes than pregnant women not in treatment who continue to use opioid
drugs. Newborns of mothers who are receiving methadone or buprenorphine treatment may have opioid
withdrawal symptoms (i.e., neonatal abstinence syndrome). The delivery hospital may require babies
who are exposed to opioids before birth to spend a number of days in the hospital for monitoring of
withdrawal symptoms. Some babies may also need medication to stop withdrawal. If I am or become
pregnant, I understand that I should tell the medical staff of the OTP right away so I can receive or
be referred to prenatal care. I understand that there are ways to maximize the healthy course of my
pregnancy while I am taking methadone or buprenorphine.
Signature of Patient: ___________________________________________________
Date: ________________

Date of Birth: ________________

Witness: ______________________________________________________________________

Adapted from material in the public domain157

3-34

A227

Part 3 of 5—Pharmacotherapy for Opioid Use Disorder

TIP 63

Chapter 3C: Naltrexone
Chapter 3C gives an overview of naltrexone pharmacology and speciﬁc guidance on
dosing for oral and injectable naltrexone.

The opioid receptor antagonist naltrexone was
synthesized in the 1960s to block the euphoric
effects of morphine.158 Oral naltrexone was
approved by the Food and Drug Administration
(FDA) in 1984 for the blockade of the effects of
exogenously administered opioids. Long-acting,
sustained-release opioid agonist preparations
have been investigated since the 1970s to
improve adherence over oral medications. In
2010, FDA approved injectable extended-release
naltrexone (XR-NTX) for preventing return to
opioid dependence after medically supervised
withdrawal.
Despite its potential advantages (e.g., no abuse
liability, no special regulatory requirements), oral
naltrexone is not widely used to treat opioid use
disorder (OUD) because of low rates of patient
acceptance, difﬁculty in achieving abstinence for
the necessary time before initiation of treatment,
and high rates of medication nonadherence.159
Before initiating either formulation of naltrexone, patients must be opioid abstinent for
an adequate period of time after completing
opioid withdrawal. Medically supervised opioid
withdrawal can be conducted on an outpatient
or inpatient basis. The latter is often reserved
for patients with co-occurring substance use
disorders (SUDs) or medical or psychiatric illness.
There are several pharmacological approaches
to medically supervised withdrawal. Methadone
can be used for this purpose in opioid treatment
programs (OTPs) and hospital settings. Patients
in opioid withdrawal typically receive an individualized dose between 20 mg and 30 mg per
day, gradually reduced over 6 days or more.
Buprenorphine can be used in an adequate

dose to lessen withdrawal symptoms and
then reduced gradually over several days or
more. If an opioid agonist is used for medically
supervised withdrawal, an adequate interval of
time following the last dose must occur before
naltrexone induction. When it is not possible to
use opioid agonists, alpha-2 adrenergic agonists
such as clonidine can be used off label at doses
from 0.1 mg to 0.3 mg every 6 to 8 hours to treat
symptoms.160

Formulations
Oral: Oral naltrexone is a 50 mg tablet of
naltrexone hydrochloride. It was approved
by FDA in 1984 for blockade of the effects of
exogenously administered opioids and in 1994
for alcohol dependence treatment. A Cochrane
review examined 13 randomized trials among
1,158 patients who were opioid dependent and
provided counseling. They were treated with or
without oral naltrexone. The review concluded
that oral naltrexone was not superior to
placebo or to no medication in treatment
retention or illicit opioid use reduction. 161
XR-NTX: In 2006, FDA approved XR-NTX as
an intramuscular (IM) injection every 4 weeks
or once a month for the treatment of alcohol
dependence. In 2010, FDA approved XR-NTX for
the prevention of return to opioid dependence
following medically supervised withdrawal.
XR-NTX is a suspension of 380 mg naltrexone
embedded in microspheres made from a biodegradable copolymer that undergoes hydrolysis as
it absorbs water. XR-NTX requires refrigeration
and is supplied as a vial of dry powder along
with a separate vial of an aqueous diluent, which
providers combine just before use.162

3-35

A228

TIP 63

Medications for Opioid Use Disorder

XR-NTX is more effective than placebo163 or
no medication164 in reducing risk of return to
opioid use.165 A multisite randomized trial in the
United States started in residential treatment
programs found that buprenorphine treatment
was associated with lower rates of return to use
during 24 weeks of postdischarge outpatient
treatment compared with XR-NTX,166 given the
signiﬁcant proportion of patients who did not
actually receive XR-NTX because of challenges
related to XR-NTX induction. The same study
found no signiﬁcant between-group differences in
rates of return to use when data were analyzed
based solely on patients who did begin assigned
medications. Study ﬁndings may not generalize to
outpatient settings, where naltrexone induction
may be more difﬁcult than in residential
treatment settings.
One additional study merits mention. A 12-week
trial was conducted in Norway with 159 participants who, at the time of random assignment
to XR-NTX or buprenorphine, had completed
medically supervised withdrawal or were already
opioid abstinent. XR-NTX was found to be noninferior to buprenorphine in terms of treatment
retention or reduction in illicit opioid use.167

Pharmacology
Naltrexone is a competitive mu-opioid receptor
antagonist with strong receptor afﬁnity.
Naltrexone does not activate the mu-opioid
receptor and exerts no opioid effects. Unlike
opioid agonists, naltrexone will not alleviate
withdrawal symptoms, will not cause withdrawal
when stopped, and cannot be diverted.
If patients maintained on naltrexone use
opioid agonists, naltrexone can block their
effects—a key feature of its therapeutic efﬁcacy.
However, because the interaction at the receptor
is competitive, the blockade can potentially be
overridden with high doses of opioids.
Taking naltrexone after recent use of opioids
can precipitate opioid withdrawal. Given its
strong afﬁnity, naltrexone can displace other
opioids from the receptor. Patients must typically

wait 7 to 10 days after their last use of shortacting opioids and 10 to 14 days after their last
use of long-acting opioids before taking their
ﬁrst dose of naltrexone.

Bioavailability
Oral: The gastrointestinal tract readily absorbs
oral naltrexone. Peak concentrations occur in 1
to 2 hours.168
XR-NTX: IM injection causes a transient peak
blood concentration 2 hours after injection and
another at 2 to 3 days after injection.169 About
14 days after injection, concentrations gradually
diminish, with measurable blood levels for more
than 1 month.
Both formulations are extensively metabolized
by the kidneys and liver, but without CYP450
enzyme system involvement. Unlike methadone
and buprenorphine, naltrexone has limited
potential drug–drug interactions. Its major
metabolite, 6-beta naltrexol, is also a mu-opioid
receptor antagonist. It is eliminated primarily by
the kidneys in the urine.170
Orally administered naltrexone has a half-life
of approximately 4 hours. Its primary metabolite, 6-beta-naltrexol, is a weak mu-opioid
receptor antagonist with a half-life of approximately 12 hours.171
XR-NTX, or “depot naltrexone,” is encapsulated in biodegradable polymer microspheres.
It provides opioid blockade by delivering
steady naltrexone concentrations for about
1 month.172 Elimination half-life is 5 to 10 days.
Repeated administration causes no accumulation
of naltrexone or its metabolites.

Dosing Considerations
XR-NTX
XR-NTX is indicated for the prevention of return
to opioid dependence following medically
supervised opioid withdrawal. Appropriate
patients should have an adequate period of
abstinence with no signs of opioid withdrawal
before XR-NTX administration. Patients must be

3-36

A229

Part 3 of 5—Pharmacotherapy for Opioid Use Disorder

willing to receive monthly IM injections. Become
acquainted with the FDA label for XR-NTX,
which is available online (https://dailymed.nlm
.nih.gov/dailymed/drugInfo.cfm?setid=cd11c435
-b0f0-4bb9-ae78-60f101f3703f).

‡

Contraindications
Contraindications to receiving XR-NTX (as
well as to receiving oral naltrexone, with the
exception of hypersensitivity to the XR-NTX
suspension and diluent) include:173

‡
‡
‡
‡
‡
‡
‡

Current pain treatment with opioid analgesics.
Current physiological opioid dependence.
Current acute opioid withdrawal.
Severe hepatic impairment.
Naloxone challenge (Exhibit 3C.1) or oral
naltrexone dose causing opioid withdrawal
symptoms.
Positive urine opioid screen for morphine,
methadone, buprenorphine, oxycodone,
fentanyl, or other opioids.
History of hypersensitivity to naltrexone,
polylactide-co-glycolide, carboxymethylcellulose, or any other components of the diluent.

Precautions and warnings

‡

‡

‡

Discuss the risks and beneﬁts of continuing
naltrexone with patients who become
pregnant while receiving naltrexone
treatment and whose OUD is in remission.
Unlike methadone and buprenorphine, naltrexone has been little researched in pregnant
populations.174,175
Patients are vulnerable to opioid overdose
death after completing the every-4-weeks or
once-monthly dosing period, missing a dose,
or stopping treatment. Trying to override
opioid blockade with high opioid doses may
cause overdose.
Patients may experience injection site
reactions including pain, tenderness, induration, swelling, erythema, bruising, or pruritus.
Severe injection site reactions may occur (e.g.,
cellulitis, hematoma, abscess, sterile abscess,
necrosis). Some cases may require surgical
intervention and may result in signiﬁcant

‡

‡

‡
‡

‡

TIP 63

scarring. (See the Chapter 3C Appendix for
techniques to reduce injection site reactions).
As with any IM injection, use caution in
patients with thrombocytopenia or a coagulation disorder.
Precipitated opioid withdrawal can occur
in patients who used illicit opioids recently
or switched from an opioid agonist medication. Symptoms may be severe enough
for hospitalization. To avoid precipitated
withdrawal from either formulation, patients
should typically stop use of short-acting
opioid agonists for 7 to 10 days and longacting agonists for 10 to 14 days.176 There
is active research on approaches to initiate
XR-NTX more quickly for patients physically
dependent on opioid agonists.177
Hepatitis has been associated with XR-NTX,
often in the presence of other potential
causes of hepatic toxicity (e.g., alcohol liver
disease, viral hepatitis). Monitor liver function
tests during treatment. Stop naltrexone in
the presence of acute hepatitis and severe
liver disease.178 Initiate or refer patients to
treatment for hepatitis.
Use cautiously in patients with moderateto-severe renal impairment, because the
medication is eliminated primarily through the
kidneys.
Hypersensitivity reactions can occur,
including rash, urticaria, angioedema, and
anaphylaxis.
Monitor patients with OUD for depression and suicidal ideation. Naltrexone
use has been occasionally associated with
dysphoria,179 although it’s unclear whether this
is a side effect of the medication or a manifestation of underlying depression or depressed
mood related to OUD.180 Monitor patients for
depression, which is common with OUD.
If a patient needs emergency pain
treatment, regional anesthesia or nonopioid
analgesics are alternatives to opioid analgesics. A patient who must have opioids for pain
treatment or anesthesia requires continuous
monitoring in an anesthesia care setting.

3-37

A230

TIP 63

Medications for Opioid Use Disorder

EXHIBIT 3C.1. Naloxone Challenge
Use the naloxone challenge to assess lack of physical opioid dependence. Naloxone can be
administered via intravenous, subcutaneous, or IM routes to patients who report an adequate
period of opioid abstinence and have a negative opioid urine test (including morphine, methadone,
buprenorphine, and oxycodone). A negative naloxone challenge does not guarantee that the patient
will not experience precipitated opioid withdrawal upon naltrexone administration.181

Intravenous Administration
1.
2.
3.
4.

5.

6.

7.

8.

Draw 0.8 mg naloxone into a sterile syringe.
Inject 0.2 mg naloxone intravenously.
Wait 30 seconds for signs and symptoms of withdrawal. If withdrawal signs/symptoms are present,
stop the naloxone challenge and treat symptomatically.
If no withdrawal signs and symptoms are present and vital signs are stable, inject remaining
naloxone (0.6 mg) and observe for 20 minutes. Check the patient’s vital signs and monitor for
withdrawal.
If withdrawal signs and symptoms are present, stop the naloxone challenge and treat
symptomatically. The test can be repeated in 24 hours or the patient can be considered for opioid
agonist treatment.
If no withdrawal signs and symptoms are present* and oral naltrexone is the desired treatment
course, give the patient two tablets of 25 mg naltrexone (take one tablet on each of the next 2 days)
and a sufﬁcient number of 50 mg naltrexone tablets (take one 50 mg tablet daily starting on the
third day) until they are able to ﬁll their prescription for oral naltrexone. Skip to Step 8.
If no withdrawal signs and symptoms are present** and XR-NTX is the desired treatment course,
administer XR-NTX in the upper outer quadrant of the buttock, following package insert directions
(summarized below).
Instruct the patient about the risk of overdose and death if they use opioids to override the blockade.

Subcutaneous Administration
1.
2.
3.

4.

Inject 0.8 mg naloxone subcutaneously.
Wait 20 minutes while checking vital signs and observing for signs and symptoms of opioid
withdrawal.
If withdrawal signs and symptom are present, stop the naloxone challenge and treat
symptomatically. The test can be repeated in 24 hours or the patient can be considered for opioid
agonist treatment.
If no withdrawal signs and symptoms are present, follow Step 6 (for oral naltrexone treatment) or
Step 7 (for XR-NTX treatment) above.

* Optional: If withdrawal signs and symptoms are absent, administer 25 mg oral naltrexone and observe for 2 hours.
If the patient develops opioid withdrawal, treat symptomatically. If no withdrawal signs or symptoms are present
following the 25 mg naltrexone dose and oral naltrexone is the desired treatment course, give the patient one tablet
of 25 mg naltrexone to take the next day and 50 mg naltrexone tablets to take daily starting the day after.
** Optional: If withdrawal signs and symptoms are absent, administer 25 mg oral naltrexone and observe for 2
hours. If the patient develops opioid withdrawal, treat symptomatically and do not administer XR-NTX. This step is
recommended to minimize the likelihood of longer lasting precipitated withdrawal in patients given XR-NTX who took
buprenorphine recently (naloxone may not displace it from opioid receptors). This step can help identify a naltrexone
allergy before providing XR-NTX. If no withdrawal symptoms are present following the 25 mg naltrexone dose and
XR-NTX is the desired course, administer XR-NTX as described above.
Adapted from material in the public domain.182

3-38

A231

TIP 63

Part 3 of 5—Pharmacotherapy for Opioid Use Disorder

or the Clinical Institute Narcotic
Assessment (CINA) Scale for Withdrawal
Symptoms can be used to assess withdrawal signs (see “Resource Alert: Opioid
Withdrawal Scales”). The patient should
not exhibit any signs of opioid withdrawal
before taking the ﬁrst dose of naltrexone,
to avoid precipitated withdrawal.

Side e ects
Possible side effects of XR-NTX include (see the
FDA label for a complete list https://dailymed
.nlm.nih.gov/dailymed/drugInfo.cfm?setid=cd
11c435-b0f0-4bb9-ae78-60f101f3703f):183

‡
‡
‡
‡

Insomnia.
Injection site pain.
Hepatic enzyme abnormalities.
Nasopharyngitis.

‡

Assessment
Thorough assessment helps determine whether
naltrexone treatment is appropriate for a patient.
(Part 2 of this Treatment Improvement Protocol
[TIP] covers screening and assessment in more
detail.)
Patients who have been abstinent from
short-acting opioids (including tramadol) for
7 to 10 days or long-acting opioids (e.g.,
methadone, buprenorphine) for 10 to 14 days
can initiate naltrexone following assessment
that includes:

‡
‡

‡

Checking the state prescription drug monitoring program database.
Taking the patient’s history.
− Conduct a medical, psychiatric, substance
use, and substance use treatment history.
− Assess recent opioid use, including
frequency, quantity, type, route, and last
day of use. Conﬁrm an adequate opioid
abstinence period.
− Establish OUD diagnosis.
− Assess for other SUDs, including those
that involve alcohol, benzodiazepines, or
stimulants.
Conducting a physical exam.
− Assess for signs and symptoms of intoxication. Do not give a ﬁrst dose to a patient
who is sedated or intoxicated. Assess and
treat him or her appropriately.
− Assess for evidence of opioid withdrawal
and physiological dependence. The
Clinical Opioid Withdrawal Scale (COWS)

Obtaining laboratory tests.
− Conduct drug and alcohol tests. Use
reliable urine tests for opioids (including
morphine, methadone, buprenorphine,
and oxycodone), benzodiazepines,
cocaine, and other drugs commonly used
in the area. Use a breathalyzer to estimate
the patient’s blood alcohol content.
− Conduct a pregnancy test. Naltrexone
is not recommended for OUD treatment
in pregnancy. Refer pregnant patients to
prenatal care.184
− Assess liver function. Obtain liver function
tests followed by periodic monitoring at 6or 12-month intervals during treatment.185
− Obtain kidney function tests (e.g., creatinine) for people who inject drugs.

RESOURCE ALERT
Opioid Withdrawal Scales
The COWS and other opioid withdrawal
scales from Annex 10 of the World Health
Organization’s Guidelines for the Psychosocially
Assisted Pharmacological Treatment of Opioid
Dependence can be downloaded from the
National Center for Biotechnology Information
website (www.ncbi.nlm.nih.gov/books
/NBK143183).
The CINA Scale for Withdrawal Symptoms is
also available online (www.ncpoep.org/wp
-content/uploads/2015/02/Appendix_7_Clinical
_Institute_Narcotic_Assessment_CINA _Scale
_for_Withdrawal_Symptoms.pdf).

3-39

A232

TIP 63

Medications for Opioid Use Disorder

− Conduct hepatitis and HIV tests.

Hepatitis B and C are common among
patients entering naltrexone treatment.
HIV infection is also prevalent. If possible,
test the patient for these infections and
refer to treatment as appropriate. The
Centers for Disease Control and Prevention
recommends hepatitis B vaccine for individuals seeking treatment for SUDs.186

During assessment, discuss with patients the
risks and beneﬁts of naltrexone and alternative treatment approaches. Explore patients’
motivation to initiate medication treatment
and to adhere to the dosing regimen. Start
naltrexone if the patient:

‡
‡
‡
‡
‡
‡
‡
‡
‡
‡
‡

clinical severity, level of functioning, craving,
and HIV serostatus.187
Inform patients of all their treatment options
and the settings in which they are available.
OTPs may be best for patients needing more
structure. Tailor decisions about which medication to use to patients’ medical and substance
use histories, patient preferences, and treatment
availability.
Pregnant women are not appropriate
candidates for XR-NTX treatment.
Consider for XR-NTX treatment patients
who:188

Meets Diagnostic and Statistical Manual of
Mental Disorders, Fifth Edition, criteria for OUD.
Understands risks and beneﬁts.
Reports opioid abstinence for 7 to 10 days
(short acting) or 10 to 14 days (long acting).
Reports no allergies to naltrexone or the
components of the XR-NTX preparation.
Does not have a coagulation disorder.
Will not soon require opioid analgesia.
Has a negative pregnancy test.
Has a negative urine opioid screen for
morphine, methadone, buprenorphine,
oxycodone, and other opioids.
Is free of current opioid withdrawal signs
and symptoms (Exhibit 3C.2).
Has liver function test results that do not
indicate acute hepatitis or liver failure.
Has a negative naloxone challenge result
(Exhibit 3C.1).

‡
‡

Patient selection
No evidence clearly predicts which patients
are best treated with XR-NTX versus other
OUD medications. A secondary analysis of the
data from a randomized trial of XR-NTX versus
placebo conducted in Russia found no signiﬁcant
baseline predictors of successes among the 25
variables examined, including demographics,

3-40

A233

Do not wish to take opioid agonists.
Have been opioid abstinent for at least
1 week, have recently been or will soon be
released from controlled environments (e.g.,
incarceration, residential addiction treatment),
and do not wish to initiate (or are not able
to access) opioid agonist treatment. For
patients requesting opioid agonist treatment,
methadone or buprenorphine must be started
at much lower doses and increased much
more slowly than for opioid-tolerant patients
(see sections on methadone and buprenorphine dosing).

EXHIBIT 3C.2. Signs and
Symptoms of Opioid
Withdrawal
Signs

Symptoms

Runny nose
Tearing
Yawning
Sweating
Tremor
Vomiting
Piloerection
Pupillary dilation

Skin crawling
Abdominal cramps
Temperature changes
Nausea
Vomiting
Diarrhea
Bone or muscle pain
Dysphoria
Craving for opioids

Part 3 of 5—Pharmacotherapy for Opioid Use Disorder

‡
‡

‡

Have not responded well to prior adequate
treatment with opioid agonist therapy.189
Are part of an overall program with
external monitoring and signiﬁcant,
immediate external consequences for lack of
adherence. These patients (e.g., healthcare
professionals, pilots, probationers, parolees)
may show higher rates of retention with
XR-NTX because of required external
monitoring.190
Have home locations or work schedules
making daily or almost-daily OTP visits
impossible or risky (e.g., job loss).

Informed consent
Inform all patients of the following basic
information:

‡
‡
‡

Their OUD diagnosis and the nature of the
disorder
Risks and beneﬁts of XR-NTX and other OUD
medications
Risks and beneﬁts of nonmedication
treatments

Consider asking patients to sign a treatment
agreement form before starting treatment.
(See Appendix 3C for a sample treatment
agreement.) Document informed consent discussions in the medical record.
Educate patients and their families about what
to expect from naltrexone treatment (Exhibit
3C.3). A naltrexone medication guide should
be dispensed to patients with each injection.
Caution them about increased risk of overdose
if they stop treatment and return to illicit opioid
use or attempt to override the receptor blockade
of XR-NTX. Document education in the medical
record. Chapter 3C Appendix has a patient
education counseling tool for XR-NTX.
Use language and written materials
appropriate to each patient’s
comprehension level to ensure that he
or she understands the options and can
make informed decisions.

TIP 63

Initiating XR-NTX treatment
Storage and preparation
A pharmacy will send XR-NTX and its diluent in a
refrigerated package with two sets of administration needles (1.5 and 2 inches), a 1-inch preparation needle, and a needle protection device.
The XR-NTX microspheres are temperature
sensitive. When the carton arrives from the
pharmacy, store it in a refrigerator at 36 to 46
degrees Fahrenheit (2 to 8 degrees Celsius). The
refrigerator should have a working thermometer;
check the temperature regularly.
Do not freeze the carton or expose it to temperatures above 77 degrees Fahrenheit (25
degrees Celsius). XR-NTX can be stored unrefrigerated for up to 7 days before administration.
Before preparing XR-NTX for administration,
keep it at room temperature for about 45
minutes. Examine the microspheres and diluent
to ensure that no particulate matter or discoloration are present. Mix following FDA-approved
package insert directions, using the 1-inch
preparation needle. Resulting suspension should
be milky white, without clumps, and able to
move freely down the wall of the vial.
Two sets of needles of two different lengths are
shipped with the medication in case the ﬁrst
needle clogs before injection. Use the 1.5-inch
needle for lean patients and the 2-inch
needle for patients with more subcutaneous
tissue overlying the gluteal muscle. The longer
needle helps ensure that the injection reaches
the muscle. Inject patients with average body
habitus with either needle.

Administration
Administer XR-NTX every 4 weeks or once
a month as a 380 mg IM gluteal injection.
Alternate buttocks for each 4-week injection.
Given the risk of severe injection site reactions,
FDA requires a risk evaluation and mitigation
strategy (www.vivitrolrems.com) for XR-NTX
including a patient counseling tool, a patient
medication guide, and a visual aid to reinforce
proper XR-NTX injection technique.
3-41

A234

TIP 63

Medications for Opioid Use Disorder

EXHIBIT 3C.3. Key Points of Patient Education for Naltrexone

‡ Do not use any opioids in the 7 to 10 days (for

Blisters.
Blackening.
Scabs.
An open wound.

short acting) or 10 to 14 days (for long acting)
before starting XR-NTX, to avoid potentially
serious opioid withdrawal symptoms. Opioids
include:
Heroin.
Prescription opioid analgesics (including
tramadol).
Cough, diarrhea, or other medications that
contain codeine or other opioids.
Methadone.
Buprenorphine.

Some of these reactions could require surgery to
repair (rarely).

‡ Report signs and symptoms of hepatitis (e.g.,
‡

‡ Seek immediate medical help if symptoms of

‡

allergic reaction or anaphylaxis occur, such as:
Itching.
Swelling.
Hives.
Shortness of breath.
Throat tightness.

‡
‡

‡ Do not try to override the opioid blockade with

‡
‡

‡

‡

‡

large amounts of opioids, which could result in
overdose.
Understand the risk of overdose from using
opioids near the time of the next injection, after
missing a dose, or after stopping medications.
Report injection site reactions including:

Pain.
Hardening.
Lumps.

Follow-up care a er rst dose
Examine patients within a week of administering their ﬁrst XR-NTX dose. It can be clinically
beneﬁcial to maintain weekly contact in the ﬁrst
month to:

‡
‡
‡
‡
‡

Provide supportive counseling.
Assess ongoing drug or alcohol use.
Monitor side effects.
Obtain drug testing.
Follow up on status of referrals to
counseling or other services.

‡

fatigue, abdominal pain, yellowing skin or eyes,
dark urine).
Report depression or suicidal thoughts. Seek
immediate medical attention if these symptoms
appear.
Seek medical help if symptoms of pneumonia
appear (e.g., shortness of breath, fever).
Inform providers of naltrexone treatment,
as treatment differs for various types of
pneumonia.
Inform all healthcare professionals of XR-NTX
treatment.
Report pregnancy.
Inform providers of any upcoming medical
procedures that may require pain medication.
Understand that taking naltrexone may result
in difﬁculty achieving adequate pain control if
acute medical illness or trauma causes severe
acute pain.
Wear medical alert jewelry and carry a medical
alert card indicating you are taking XR-NTX. A
patient wallet card or medical alert bracelet can
be ordered at 1-800-848-4876.

Patients who test the opioid blockade of XR-NTX
may discontinue use because of the blocking of
the euphoric effects of illicit opioids.191 Patients
who miss a dose can restart medication (use
procedures outlined earlier in this section) after
an adequate period of opioid abstinence (7 to 14
days).
The TIP expert panel cautions that,
based on current data, arbitrary time
limits on XR-NTX are inappropriate.

3-42

A235

TIP 63

Part 3 of 5—Pharmacotherapy for Opioid Use Disorder

See Chapter 3E for information on the management of patients taking naltrexone in ofﬁcebased treatment settings.

‡
‡
‡

Duration of treatment

Patients who discontinue should have a
recovery plan that may include monitoring as
well as adjunctive counseling and recovery
support. If they return to opioid use, encourage
them to return for assessment and reentry into
treatment.

Barring contraindications, patients should
continue taking XR-NTX as long as they
beneﬁt from it and want to continue. Data are
limited on the long-term effectiveness of XR-NTX
compared with methadone or buprenorphine.

Treatment discontinuation
When patients wish to discontinue naltrexone,
engage in shared decision making and explore:

‡
‡
‡
‡

Their reasons for wanting to discontinue.
The risks and beneﬁts of discontinuing.
Problem-solving strategies that can help them
make an informed choice.
Their appropriateness for buprenorphine or
methadone treatment.

Discourage patients who are not yet stable
from discontinuing treatment, because of the
high rate of return to illicit opioid use and the
increased chance of overdose death.
Signs that a patient may be ready to discontinue
medication include:192

‡
‡

Sustaining illicit drug abstinence over time.
Having stable housing and income.

RESOURCE ALERT
Patient and Family Educational
Resources
Decisions in Recovery: Treatment for Opioid
Use Disorder offers information for patients on
the use of medications for OUD (https://store
.samhsa.gov/product/SMA16-4993)
Medication-Assisted Treatment for Opioid
Addiction: Facts for Families and Friends offers
information for family and friends (www.ct.gov
/dmhas/lib/dmhas/publications/MAT-InfoFamily
Friends.pdf)

Having no legal problems.
Having substantially reduced craving.
Attending counseling or mutual-help groups.

Given the high risk of return to illicit opioid
use, offer patients information about opioid
overdose prevention and a naloxone prescription they can use in case of overdose. When
patients stop using naltrexone, they will have no
tolerance for opioids. Their risk of overdose is
very high if they use again. For more information,
see the SAMHSA Opioid Overdose Prevention
Toolkit (https://store.samhsa.gov/shin/content
//SMA16-4742/SMA16-4742.pdf).

Rapid naltrexone induction
Patients with OUD need to discontinue
opioids and wait 7 to 14 days after last
opioid use (including any given for withdrawal treatment) before receiving XR-NTX.
As described above, they can do so through
medically supervised withdrawal in a controlled
environment, such as an inpatient unit, residential addiction treatment program, correctional
facility, or hospital, or on an outpatient basis.
Financial issues and managed care constraints
may inﬂuence patients’ access to controlled
treatment environments. The alternative—
abstaining long enough after outpatient
medically supervised withdrawal—is challenging. Thus, various approaches to rapid naltrexone
induction have been developed193 and more
recently reﬁned in research settings.194,195,196
Consider rapid induction in specialty addiction
treatment programs, not general medical
settings. It may be hard for providers in general
medical settings to start XR-NTX successfully
with patients who need medically supervised
opioid withdrawal. Rapid induction approaches
are likely beyond the scope of general outpatient
3-43

A236

TIP 63

Medications for Opioid Use Disorder

settings. However, patients can successfully
initiate XR-NTX in a general outpatient medical
setting if they:

‡
‡

Have been abstinent for sufﬁcient time and
pass the naloxone challenge.
Started taking XR-NTX elsewhere and are due
for the next injection.

One randomized trial compared two approaches
to starting XR-NTX on an outpatient basis. This
study assigned adults dependent on opioids
to either a standard 14-day buprenorphineassisted opioid withdrawal or more rapid 7-day
oral naltrexone-assisted opioid withdrawal.197
Naltrexone-assisted withdrawal was conducted
over 7 days. It included 1 day of buprenorphine
administration; 1 day with ancillary medications
including clonidine and clonazepam but no
buprenorphine; followed by 4 days of ancillary
medications and increasing daily doses of oral
naltrexone (starting with 1 mg, 3 mg, 12 mg,
and 25 mg); and concluding on day 7 with
XR-NTX administration. Buprenorphine-assisted
withdrawal consisted of a 7-day buprenorphine
taper followed by the recommended 7 days
without opioids. The naltrexone-assisted
withdrawal group was signiﬁcantly more
likely to begin XR-NTX compared with the
buprenorphine-assisted withdrawal group (56.1
percent versus 32.7 percent, respectively). This
type of approach, which must be conducted
with careful daily monitoring, is used in some
residential programs and may prove to be a
useful approach to outpatient XR-NTX induction
in specialty programs. More discussion on rapid
induction approaches is available in Implementing
Antagonist-Based Relapse Prevention Treatment
for Buprenorphine-Treated Individuals,198
available online (http://pcssmat.org/wp-content
/uploads/2015/02/PCSSMAT-Implementing
-Antagonist-with-Case.Bisaga.CME_.pdf).

out of care. One study found signiﬁcantly lower
patient retention in treatment after incarceration for patients treated with oral naltrexone
compared with methadone.199
Oral naltrexone blocks opioid-induced euphoria
for only a day or two. When patients stop taking
it, risks of return to opioid use and overdose
increase.
The TIP expert panel doesn’t recommend
using oral naltrexone except in the limited
circumstances described in the following
sections. This view is in keeping with expert
reviews for the United Kingdom’s National
Health Service,200 a clinical practice guideline
published by the Department of Veterans Affairs
and Department of Defense,201 and a Cochrane
review.202

Indications and contraindications,
precautions and warnings, side e ects, and
assessment.
All are similar to those for XR-NTX, save issues
speciﬁc to suspension/diluent contents and the
injection itself.

Patient Selection
In limited circumstances, oral naltrexone may
be considered after the risks and beneﬁts, as
well as alternative treatments, are discussed with
the patient. Examples include:

‡
‡

Oral Naltrexone
The effectiveness of oral naltrexone is limited,
given poor adherence and the requirement of 7
to 14 days of opioid abstinence before initiation.
During this waiting period, patients may drop

3-44

A237

Patients who cannot afford XR-NTX but
wish to take an opioid receptor antagonist.
Patients with high levels of monitoring and
negative consequences for nonadherence,
such as healthcare professionals who may
not be permitted to have opioid agonist
treatment.203,204
The TIP expert panel does not
recommend that payers require
patients to fail oral naltrexone before
providing access to XR-NTX, given the
risk of unintentional overdose death if
the patient returns to illicit opioid use.

TIP 63

Part 3 of 5—Pharmacotherapy for Opioid Use Disorder

‡

Patients leaving controlled environments
(e.g., prisons, hospitals, inpatient addiction rehabilitation) who may beneﬁt from medication
to prevent return to illicit drug use but cannot
or will not take XR-NTX and do not wish to be
treated with (or do not have access to) opioid
agonists.

Patients who have taken methadone or extensively used heroin are especially poor oral
naltrexone candidates.205

Dosing
Following a negative naloxone challenge, the
ﬁrst oral dose of naltrexone can be 25 mg (half
of the usual daily naltrexone maintenance dose).
This reduces risk of a more severe precipitated
opioid withdrawal than could occur with a full
50 mg dose. This lower dose may also reduce
nausea associated with the ﬁrst naltrexone dose.
The dose can be increased to 50 mg daily on the
second day.
To increase adherence, arrange for directly
observed administration of oral naltrexone.
This is more feasible if patients who tolerate a
daily dose of 50 mg are switched to a 3-daysper-week regimen for a total weekly dose of 350
mg (e.g., administer 100 mg on Monday and
Wednesday and 150 mg on Friday). A member
of the patient’s social network (e.g., spouse) may
also directly observe therapy.

Duration of treatment

If patients continue to test the blockade,
immediately discuss alternative treatment
plans that include:

‡
‡
‡
‡
‡
‡

Naltrexone Dosing Summary
XR-NTX

‡
‡

‡
‡
‡
‡

Use of illicit opioids during treatment with oral
naltrexone is a cause of concern and may be a
precursor to treatment discontinuation.206 Some
patients will initially test the opioid blockade
with illicit opioids and then discontinue opioid
use. However, others will continue using illicit
opioids.207

Before administering XR-NTX, keep it at room
temperature for about 45 minutes.
Use the correct needle length to ensure the
injection is in the gluteal muscle.
− Use the 2-inch needle for patients with
more subcutaneous tissue and the 1.5-inch
needle for patients with less adipose tissue.
− Use either length in patients with normal
body habitus.
Use proper aseptic technique.
Use proper gluteal IM injection technique.
Never inject intravenously or subcutaneously.
Repeat the injection every 4 weeks or once
per month.

Oral Naltrexone

‡

The optimal length of treatment with oral
naltrexone is not known. In general, the
longer patients take an effective medication,
the better their outcomes.

Increased counseling.
Switching to XR-NTX.
Closer monitoring.
Directly observed oral naltrexone therapy.
Residential treatment.
Assessment for the appropriateness of buprenorphine or methadone.

‡
‡
‡
‡

Use in limited circumstances after discussing
risks and beneﬁts, as well as alternative
treatment options, with the patient.
Do the naloxone challenge.
The ﬁrst oral naltrexone dose should be 25 mg.
The dose can be increased on the second day
to 50 mg daily if necessary.
If desired, switch patients who tolerate a daily
dose of 50 mg to a 3-days-per-week regimen
for a total weekly dose of 350 mg.

3-45

A238

TIP 63

Medications for Opioid Use Disorder

Chapter 3C Appendix
Sample XR-NTX Treatment Agreement
This form is for educational/informational purposes only. It doesn’t establish a legal or medical standard of care. Healthcare
professionals should use their judgment in interpreting this form and applying it in the circumstances of their individual
patients and practice arrangements. The information provided in this form is provided “as is” with no guarantee as to its
accuracy or completeness.
TREATMENT AGREEMENT
I agree to accept the following treatment agreement for extended-release injectable naltrexone ofﬁce-based opioid
use disorder treatment:
1.
2.
3.
4.
5.
6.
7.
8.
9.
10.
11.
12.
13.
14.
15.
16.
17.
18.
19.
20.

The risks and beneﬁts of extended-release injectable naltrexone treatment have been explained to me.
The risks and beneﬁts of other treatment for opioid use disorder (including methadone, buprenorphine, and
nonmedication treatments) have been explained to me.
I will be on time to my appointments and respectful to the ofﬁce staff and other patients.
I will keep my healthcare provider informed of all my medications (including herbs and vitamins) and medical
problems.
I agree not to obtain or take prescription opioid medications prescribed by any other healthcare provider without
consultation from my naltrexone prescriber.
If I am going to have a medical procedure that will cause pain, I will let my healthcare provider know in advance
so that my pain will be adequately treated.
If I miss a scheduled appointment for my next extended-release naltrexone injection, I understand that I should
reschedule the appointment as soon as possible because it is important to receive the medication on time to
reduce the risk of opioid overdose should I return to use.
If I come to the ofﬁce intoxicated, I understand that my healthcare provider will not see me.
Violence, threatening language or behavior, or participation in any illegal activity at the ofﬁce will result in
treatment termination from the clinic.
I understand that random urine drug testing is a treatment requirement. If I do not provide a urine sample, it will
count as a positive drug test.
I understand that initially I will have weekly ofﬁce visits until my condition is stable.
I can be seen every 2 weeks in the ofﬁce starting the second month of treatment if I have two negative urine drug
tests in a row.
I may be seen less than every 2 weeks based on goals made by my healthcare provider and me.
I understand that people have died trying to overcome the naltrexone opioid blockade by taking large amounts
of opioids.
I understand that treatment of opioid use disorder involves more than just taking medication. I agree to follow
my healthcare provider’s recommendations for additional counseling and/or for help with other problems.
I understand that there is no ﬁxed time for being on naltrexone and that the goal of treatment is for me to stop
using all illicit drugs and become successful in all aspects of my life.
I understand that my risk of overdose increases if I go back to using opioids after stopping naltrexone.
I have been educated about the other two FDA-approved medications used to treat opioid use disorder,
methadone and buprenorphine, and I prefer to receive treatment with naltrexone.
I have been educated about the increased chance of pregnancy when stopping illicit opioid use and starting
naltrexone treatment and have been informed about methods for preventing pregnancy.
I have been informed that if I become pregnant during naltrexone treatment, I should inform my provider and
have a discussion about the risks and beneﬁts of continuing to take naltrexone.

Other speciﬁc items unique to my treatment include:
Patient’s Name (print): _____________________________________________________
Patient’s Signature: ________________________________________________________ Date: ____________________
This form is adapted from the American Society of Addiction Medicine’s Sample Treatment Agreement, which is updated
periodically; the most current version of the agreement is available online (www.asam.org/docs/default-source/advocacy/sample
-treatment-agreement30fa159472bc604ca5b7ff000030b21a.pdf?sfvrsn=0).
Adapted with permission.208

3-46

A239

TIP 63

Part 3 of 5—Pharmacotherapy for Opioid Use Disorder

Patient Counseling Tool for XR-NTX

Patient Counseling Tool
VIVITROL® (naltrexone for extended-release injectable suspension)
Risk of sudden opioid withdrawal during initiation and re-initiation of VIVITROL

Using any type of opioid including street drugs, prescription pain medicines, cough, cold or diarrhea medicines
that contain opioids, or opioid dependence treatments buprenorphine or methadone, in the 7 to 14 days before
starting VIVITROL may cause severe and potentially dangerous sudden opioid withdrawal.

Risk of opioid overdose

Patients may be more sensitive to the effects of lower amounts of opioids:
• After stopping opioids (detoxi cation)

• If a dose of VIVITROL is missed

• When the next VIVITROL dose is due

• After VIVITROL treatment stops

Patients should tell their family and people close to them about the increased sensitivity to opioids and the
risk of overdose even when using lower doses of opioids or amounts that they used before treatment. Using
large amounts of opioids, such as prescription pain pills or heroin, to overcome effects of VIVITROL can lead to
serious injury, coma, and death.

Risk of severe reactions at the injection site

Remind patients of these possible symptoms at the injection site:
• Intense pain

• Blisters

• The area feels hard

• Open wound

• Large areas of swelling

• Dark scab

• Lumps
Some of these injection site reactions have required surgery.
Tell your patients to contact a healthcare provider if they have any reactions at the injection site.

Risk of liver injury, including liver damage or hepatitis

Remind patients of the possible symptoms of liver damage or hepatitis.
• Stomach area pain lasting more than a few days • Yellowing of the whites of eyes
• Dark urine

• Tiredness

Patients may not feel the therapeutic effects of opioid-containing medicines for pain, cough or
cold, or diarrhea while taking VIVITROL.
Patients should carry written information with them at all times to alert healthcare providers that they are
taking VIVITROL, so they can be treated properly in an emergency.
A Patient Wallet Card or Medical Alert Bracelet can be ordered from: 1-800-848-4876, Option #1.
PLEASE SEE PRESCRIBING INFORMATION AND MEDICATION GUIDE.

Alkermes® and VIVITROL® are registered trademarks of Alkermes, Inc.
©2013 Alkermes, Inc.
All rights reserved VIV-001317 Printed in U.S.A

w w w.vivitrol.com

Available online (www.vivitrolrems.com/content/pdf/patinfo-counseling-tool.pdf).
Reprinted with permission.209
3-47

A240

TIP 63

Medications for Opioid Use Disorder

Key Techniques for Reducing Injection Site Reactions210
To reduce severe injection site reactions when administering XR-NTX via intramuscular injection, use
the following techniques:

‡

Use one of the administration needles provided with the XR-NTX kit to ensure that the
injection reaches the gluteal muscle. Use the 2-inch needle for patients who have more subcutaneous adipose tissue. Use the 1.5-inch needle for patients with less subcutaneous adipose tissue.
Either needle is appropriate for use with patients who have average amounts of subcutaneous
adipose tissue.

‡

Use aseptic technique when administering intramuscularly. Using a circular motion, clean the
injection site with an alcohol swab. Let the area dry before administering the injection. Do not
touch this area again before administration.

‡

Use proper deep intramuscular injection technique into the gluteal muscle. XR-NTX must not
be injected intravenously, subcutaneously, or into adipose tissue. Accidental subcutaneous injection
may increase the risk of severe injection site reactions.

− Administer the suspension by deep intramuscular injection into the upper outer quadrant

of gluteal muscle, alternating buttocks per monthly injection.
− Remember to aspirate for blood before injection. If blood aspirates or the needle clogs, do
not inject. Change to the spare needle provided in the package and administer into an adjacent
site in the same gluteal region, again aspirating for blood before injection.
− Inject the suspension in a smooth, continuous motion.
A patient counseling tool is available to help you counsel your patients before administration about
the serious risks associated with XR-NTX.
The above information is a selection of key safety information about the XR-NTX injection. For
complete safety information, refer to the directions for use and the prescribing information provided
in the medication kit. You can also obtain this information online (www.vivitrolrems.com) or by calling
1-800-VIVITROL.
Available online (www.vivitrolrems.com/content/pdf/patinfo-injection-poster.pdf).

3-48

A241

TIP 63

Part 3 of 5—Pharmacotherapy for Opioid Use Disorder

Chapter 3D: Buprenorphine
Chapter 3D is an overview of buprenorphine pharmacology and speciﬁc dosing guidance
for sublingual and buccal formulations and buprenorphine implants.

Buprenorphine and buprenorphine/naloxone
formulations are effective treatments for opioid
use disorder (OUD). Numerous clinical studies
and randomized clinical trials have demonstrated
buprenorphine’s efﬁcacy in retaining patients
in treatment and reducing illicit opioid use
compared with treatment without medication
and medically supervised withdrawal.211,212,213
Other research has associated it with reduction
in HIV risk behavior and risk of overdose death,
and its effectiveness has been shown in primary
care settings.214,215,216,217,218 Buprenorphine is on
the World Health Organization (WHO) list of
essential medications.219
The Treatment Improvement Protocol (TIP)
expert panel recommends offering the option
of Food and Drug Administration (FDA)approved buprenorphine formulations to
appropriate patients with OUD, considering
patient preferences for and experience with
other medications or no medication. These
recommendations align with recent Department
of Veterans Affairs guidelines.220

Formulations

‡
‡
‡
‡
‡

FDA approved generic buprenorphine and
buprenorphine/naloxone formulations based
on evidence that they produce similar (within
90 percent conﬁdence intervals) bioequivalence
on pharmacokinetic measures, such as peak
serum concentration, compared with the original
sublingual buprenorphine/naloxone product.
The 2013 and 2014 branded formulations
have greater bioavailability than Suboxone,
meaning they deliver more buprenorphine
to the bloodstream, thus achieving the same
effect as the original product with lower
doses. For example, 5.7 mg/1.4 mg of Zubsolv
and 4.2 mg/0.7 mg of Bunavail provide the
same buprenorphine exposure as 8 mg/2 mg
of Suboxone.

History of Approvals
FDA originally approved buprenorphine for
analgesia. Formulations for OUD treatment were
approved in:

‡

2010: Buprenorphine/naloxone sublingual ﬁlms.
2013: Buprenorphine/naloxone sublingual
tablets (Zubsolv).221
2014: Buprenorphine/naloxone buccal ﬁlms
(Bunavail).222
2016: Buprenorphine implants (Probuphine).
2017: Buprenorphine extended-release
injection (Sublocade).

2002: Sublingual buprenorphine/naloxone
sublingual tablets (Suboxone); sublingual
buprenorphine tablets (Subutex). The manufacturer discontinued the tablet dosage of
the latter from the U.S. market after the ﬁlm’s
approval, but generic tablet formulations are
still available (Exhibit 3A.5, Chapter 3A).

Opioid treatment programs (OTPs)
may administer or dispense
buprenorphine, but only providers
with Substance Abuse and Mental
Health Services Administration
(SAMHSA) waivers can prescribe
buprenorphine for OUD. See “Resource
Alert: How To Obtain a Waiver To
Prescribe Buprenorphine” in Chapter
3A of this TIP.

3-49

A242

TIP 63

Medications for Opioid Use Disorder

Exhibit 3D.1 lists product strengths and recommended once-daily maintenance doses. For
simplicity, dosing information here refers to
sublingual Suboxone equivalents. An 8 mg/2 mg
tablet of sublingual Suboxone is equivalent to
5.7 mg/1.4 mg of sublingual Zubsolv and
4.2 mg/0.7 mg of buccal Bunavail.
Patients who switch formulations may experience
clinically signiﬁcant plasma concentration changes
that may require dose adjustments; bioavailability is similar, but not identical, between
formulations.

Implants
In 2016, FDA approved buprenorphine
implants for OUD maintenance treatment in
patients who have achieved sustained clinical
stability (e.g., periods of abstinence, minimal or
no desire to use illicit opioids, stable housing,
social support) while taking no more than 8 mg
of daily Subutex (buprenorphine monoproduct) or Suboxone (buprenorphine/naloxone)
equivalents. The implants are a set of four rods,
each 2.5 mm in diameter and 26 mm in length.
Each rod contains the equivalent of 80 mg of

EXHIBIT 3D.1. Buprenorphine Transmucosal Products for OUD
Treatment
PRODUCT NAME
ACTIVE INGREDIENT

Bunavail223

ROUTE OF
ADMINISTRATION
FORM

Buccal ﬁlm

‡ Buprenorphine hydrochloride
‡ Naloxone hydrochloride
Generic combination product224,225

Sublingual tablet

‡
‡ Naloxone hydrochloride

Buprenorphine hydrochloride

Generic monoproduct226,227

Sublingual tablet

‡ Buprenorphine hydrochloride
Suboxone228,229

Sublingual ﬁlm

‡ Buprenorphine hydrochloride
‡ Naloxone hydrochloride
Zubsolv230,231

Sublingual tablet

‡ Buprenorphine hydrochloride
‡ Naloxone hydrochloride

AVAILABLE
STRENGTHS

RECOMMENDED ONCE
DAILY MAINTENANCE
DOSE

2.1 mg/0.3 mg
4.2 mg/0.7 mg
6.3 mg/1 mg

Target: 8.4 mg/1.4 mg

2 mg/0.5 mg
8 mg/2 mg

Target: 16 mg/4 mg

2 mg
8 mg

Target: 16 mg

2 mg/0.5 mg
4 mg/1 mg
8 mg/2 mg
12 mg/3 mg

Target: 16 mg/4 mg

0.7 mg/0.18 mg
1.4 mg/0.36 mg
2.9 mg/0.71 mg
5.7 mg/1.4 mg
8.6 mg/2.1 mg
11.4 mg/2.9 mg

Target: 11.4 mg/2.9 mg

Range: 2.1 mg/0.3 mg to
12.6 mg/2.1 mg

Range: 4 mg/1 mg to
24 mg/6 mg*

Range: 4 mg to 24 mg*

Range: 4 mg/1 mg to
24 mg/6 mg*

Range: 2.9 mg/0.71 mg
to 17.2 mg/4.2 mg

*Dosages above 24 mg buprenorphine or 24 mg/6 mg buprenorphine/naloxone per day have shown no clinical
advantage.232,233
Adapted from material in the public domain.234

3-50

A243

Part 3 of 5—Pharmacotherapy for Opioid Use Disorder

TIP 63

buprenorphine hydrochloride. The implants
are for subdermal insertion on the inside of the
upper arm and provide 6 months of buprenorphine. The implants must be removed after 6
months.

receptor afﬁnity. This prevents other opioids
with lower afﬁnity (e.g., heroin) from binding.
The net result is a blunting or blocking of the
euphoria, respiratory depression, and other
effects of these opioids.

Peak buprenorphine plasma concentrations
occur 12 hours after implant insertion, slowly
decrease, and reach steady-state concentrations
in about 4 weeks. Steady-state concentrations
are comparable to trough buprenorphine plasma
levels produced by daily sublingual buprenorphine doses of 8 mg or less. Implant effectiveness lasts up to 6 months.

Buprenorphine has less potential to cause
respiratory depression, given its ceiling effect.
As a partial agonist, buprenorphine’s maximum
effect on respiratory depression is more limited
than full agonists. Once reaching a moderate
dose, its effects no longer increase if the dose is
increased.236,237,238

Injectables
In November 2017, FDA approved extendedrelease (monthly) subcutaneous injectable
buprenorphine for moderate-to-severe
OUD treatment among patients who initiated
treatment with transmucosal buprenorphine,
followed by at least 7 days of dose adjustment.
It is available in two doses, 300 mg/1.5 mL and
100 mg/0.5 mL. Both are stored refrigerated
in preﬁlled syringes with safety needles and
administered by subcutaneous injection in the
abdomen. The ﬁrst two monthly doses recommended are 300 mg each followed by a 100 mg
monthly maintenance dose. Peak buprenorphine
concentrations occur about 24 hours after the
injection. Steady state is achieved after 4 to 6
months. After discontinuation, patients may have
detectable plasma levels of buprenorphine for
12 months or longer. Duration of detection in
urine is not known.235

Pharmacology
Buprenorphine, an opioid receptor partial
agonist, is a schedule III controlled medication
derived from the opium alkaloid thebaine.
Through cross-tolerance and mu-opioid receptor
occupancy, at adequate doses, buprenorphine
reduces opioid withdrawal and craving and
blunts the effects of illicit opioids.
Buprenorphine binds tightly to the mu-opioid
receptor because of its particularly high

There is wide individual variability in buprenorphine pharmacokinetics. For example,
the mean time to maximum plasma buprenorphine concentration after a single sublingual
dose ranges from 40 minutes to 3.5 hours.239
Thus, after providing the ﬁrst dose of buprenorphine, wait at least 2 hours to decide whether a
second dose is necessary.
Buprenorphine has a long elimination half-life,
which varies from 24 to 69 hours240 with a mean
half-life of 24 to 42 hours.241 It dissociates slowly
from the receptor.
Buprenorphine can be safely dosed (even at
double the stabilized dose) less than daily.242
For example, a patient stabilized on 12 mg of
buprenorphine/naloxone daily can be treated
with 24 mg every other day or 24 mg on
Monday/Wednesday and 36 mg on Friday. Such
schedules reduce travel burden for patients who
need or want supervised dosing at an OTP or
a clinic. Such schedules may also be useful for
patients who must spend weekends in jails that
disallow buprenorphine dosing.

Bioavailability
Buprenorphine has poor oral bioavailability
compared with sublingual and buccal bioavailability. Naloxone, a short-acting mu-opioid
receptor antagonist, has very poor oral, sublingual, and buccal bioavailability but is absorbed
when injected or snorted. The addition of
naloxone decreases buprenorphine’s potential

3-51

A244

TIP 63

Medications for Opioid Use Disorder

for misuse. In the Suboxone formulation of
buprenorphine/naloxone, the ratio of buprenorphine to naloxone is 4:1. The ratio of buprenorphine to naloxone varies across products, as the
absorption of both active ingredients is different
for buccal versus sublingual ﬁlms versus tablets.
Buprenorphine/naloxone transmucosal
products are abuse-deterrent formulations,
although they can still be misused. When a
patient takes these formulations as prescribed,
he or she absorbs buprenorphine but only a
biologically negligible amount of naloxone. But if
crushed or dissolved for intranasal or intravenous
(IV) misuse, both medications are bioavailable.
Naloxone then blunts the immediate opioid
agonist effects of buprenorphine. It also induces
opioid withdrawal in people who are physically
dependent on opioids. This reduces misuse
liability compared with transmucosal formulations
with buprenorphine alone.243,244
Subdermal buprenorphine implants release buprenorphine in steady concentrations over 6
months. These concentrations are approximately
equivalent to 8 mg or less of the buprenorphine
sublingual formulations. Once implanted, these
rods are unlikely to be diverted.
Extended-release buprenorphine for subcutaneous injection releases buprenorphine over
at least a 1-month period. After injection, an
initial buprenorphine plasma level peaks around
24 hours and then slowly declines to a plateau.
With monthly injections, steady state is reached
at 4 to 6 months.245

Metabolism and Excretion
Buprenorphine:246,247

‡
‡
‡
‡

Is highly plasma bound.
Crosses the blood–brain barrier readily
because of its high lipid solubility.
Is excreted in urine and feces.
Has only one known pharmacologically active
metabolite: norbuprenorphine.

Be aware of potential CYP450 3A4 inducers,248
substrates, and inhibitors while monitoring
for potential drug–drug interactions (see
the “Drug Interactions” section below).
Buprenorphine undergoes metabolism in the
liver primarily by cytochrome P450 (CYP450) 3A4
enzymes. Coadministration of other medications
metabolized along this pathway can affect the
rate of buprenorphine metabolism.
Buprenorphine has fewer clinically relevant
drug interactions than methadone in general.
For detailed explanations of metabolism and
excretion, see the package inserts for each
buprenorphine product.

Dosing Considerations
Buprenorphine is used for the treatment of OUD.
Formulations are available as sublingual tablets
and ﬁlm, buccal ﬁlm, implants, and extendedrelease injection (Exhibit 3A.5 in Chapter 3A of
this TIP).

Contraindications
Buprenorphine is contraindicated in patients
who are allergic to it. Patients with true allergic
reactions to naloxone should not be treated
with the combination buprenorphine/naloxone
product. Allergy to naloxone is infrequent.
Some patients may falsely or mistakenly claim an
allergy to naloxone and request buprenorphine
monoproduct. Carefully assess such claims and
explain the differences between an allergic
reaction and symptoms of opioid withdrawal
precipitated by buprenorphine or naloxone;
the monoproduct has more abuse liability than
buprenorphine/naloxone.249

Precautions and Warnings

‡

3-52

A245

Respiratory depression and overdoses
are uncommon in adults, but they do
happen.250 Most fatal overdoses involve IV
buprenorphine misuse or concurrent central
nervous system depressant use, including high
doses of benzodiazepines, alcohol, or other

TIP 63

Part 3 of 5—Pharmacotherapy for Opioid Use Disorder

‡

sedatives.251,252 However, fatal overdoses have
been reported in opioid-naïve patients treated
with 2 mg buprenorphine for pain.253 Exhibit
3D.2 summarizes the management of patients
with preexisting respiratory impairment.
Unintentional pediatric exposure can be life
threatening or fatal.254 Thus, emphasize safe
storage of medication, and teach patients to
remove any buprenorphine found in a child’s
mouth immediately (even if it was only a
partial tablet or ﬁlm). Call 9-1-1 so the child
can go to the nearest emergency department
for immediate medical attention.

‡

Cases of hepatitis and liver failure exist
but often involve predisposing hepatic
risk factors, such as preexisting liver enzyme
abnormalities, hepatitis B or C infections, and
use of other potentially hepatotoxic drugs
or IV drugs. A multisite randomized trial of
hepatic effects in patients taking methadone
or buprenorphine found no evidence of liver
damage in the ﬁrst 6 months of treatment.
The authors concluded that prescribing these
medications should not cause major concern
for liver injury.255 Exhibit 3D.2 summarizes management of patients with hepatic impairment.

EXHIBIT 3D.2. Medication Management for Patients With Respiratory
or Hepatic Impairment
CONTRAINDICATION CAUTION

Compromised respiratory function
For example, chronic obstructive
pulmonary disease, decreased respiratory
reserve, hypoxia, hypercapnia (abnormally
elevated blood levels of carbon dioxide),
preexisting respiratory depression.
Hepatic impairment
Buprenorphine and naloxone are
extensively metabolized by the liver.
Moderate-to-severe impairment results
in decreased clearance, increased overall
exposure to both medications, and
higher risk of buprenorphine toxicity
and precipitated withdrawal from
naloxone. These effects have not been
observed in patients with mild hepatic
impairment.257,258

MANAGEMENT

‡ Prescribe with caution; monitor closely.
‡ Warn patients about the risk of using benzodiazepines or
other depressants while taking buprenorphine.256

‡ Support patients in their attempts to discontinue tobacco
use.

‡ Mild impairment (Child-Pugh score of 5–6):
adjustment needed.

259

No dose

‡ Moderate impairment (Child-Pugh score of 7–9):

260

Combination products are not recommended; they may
precipitate withdrawal.
*Use combination products cautiously for maintenance
treatment in patients who’ve been inducted with a
monoproduct;261,262 monitor for signs and symptoms of
buprenorphine toxicity or overdose.263 Naloxone may
interfere with buprenorphine’s efﬁcacy.264,265

‡ Severe impairment (Child-Pugh score of 10–15):

266
Do not
use the combination product.267 For monoproduct, consider
halving the starting and titration doses used in patients
with normal liver function; monitor for signs and symptoms
of toxicity or overdose caused by increased buprenorphine
levels.268

*Moderate-to-severe impairment results in much more reduced clearance of naloxone than of buprenorphine. Nasser et
al. 269 found that moderate impairment doubled or tripled exposure (compared with subjects with no or mild impairment)
for both medications. In subjects with severe impairment, buprenorphine exposure was also two to three times higher;
naloxone exposure increased more than tenfold.
Adapted from material in the public domain.270

3-53

A246

TIP 63

‡

‡

‡
‡

‡

‡
‡

Medications for Opioid Use Disorder

Potential for misuse and diversion exists.
People can misuse buprenorphine via intranasal or IV routes or divert it for others to
misuse. Do not give early or multiple reﬁlls
without careful assessment and monitoring
suited to the patient’s level of stability.271,272
Discourage misuse and diversion by:
− Requiring frequent ofﬁce visits until
patients are stable.
− Testing urine for buprenorphine and norbuprenorphine or buprenorphine glucuronide
(both metabolites of buprenorphine).
− Using other methods to ensure adequate
adherence to the medication as prescribed, such as developing and adopting
a diversion control plan (see Chapter 3E:
Medical Management Strategies).

− Current level of opioid physical depen-

dence. The higher the level of physical
dependence, the higher the likelihood of
precipitating withdrawal.276 Ensuring that
patients are in opioid withdrawal when
initiating buprenorphine decreases this risk.
− Time since the last mu-opioid receptor full
agonist dose. The longer the time since
the last dose, the lower the likelihood of
precipitated withdrawal.277
− Dose of buprenorphine administered. The
smaller the dose of buprenorphine, the less
likely it is to precipitate withdrawal.278,279

‡

Adrenal insufﬁciency has been reported
with opioid use, most often after more than
1 month of buprenorphine maintenance.273
Patients will develop physical dependence
on buprenorphine. Alert patients that they’ll
experience opioid withdrawal if they stop
buprenorphine.
Buprenorphine may affect cognition and
psychomotor performance and can have
sedating effects in some people (particularly
those who’ve lost tolerance after a period of
abstinence from opioids). Concurrent use of
illicit drugs, other prescribed medications, or
medical or psychiatric comorbidity can affect
cognition and psychomotor performance.
Urge patients to exercise caution in using
heavy machinery and driving until they’re sure
that their abilities are not compromised.274
Allergic reactions have occurred in patients
treated with buprenorphine, including rash,
urticaria, angioedema, and anaphylaxis.
Buprenorphine can cause precipitated
opioid withdrawal. It has weaker opioid
agonist effects and stronger receptor afﬁnity
than full agonists (e.g., heroin, methadone).
It can displace full agonists from receptors,
precipitating opioid withdrawal.275 Factors
affecting this possibility include:

3-54

A247

Neonatal abstinence syndrome (NAS) may
occur in newborns of pregnant women
who take buprenorphine. Women receiving
opioid agonist therapy while pregnant should
talk with their healthcare provider about NAS
and how to reduce it. Not all babies born to
women treated with opioid agonists require
treatment for NAS. Research has shown that
the dose of opioid agonist medication is not
reliably related to the severity of NAS.280,281,282
Thus, each woman should receive the dose of
medication that best manages her illness.

REDUCING NAS SEVERITY
Offer the following advice to pregnant women
receiving treatment with an opioid agonist:

‡ Avoid smoking during pregnancy.
‡ Avoid benzodiazepines.
‡ Meet with the neonatologist and/or pediatrician
‡
‡
‡

to learn how the hospital assesses and treats
NAS and what they suggest you can do as a
parent to help soothe a baby with NAS.
Request rooming-in with the child.
Talk with the healthcare professional providing
obstetric care about breastfeeding, as this may
help make NAS less severe.
In the ﬁrst week after birth, keeping lights low,
speaking softly, avoiding too much stimulation,
and providing frequent skin-to-skin contact can
help prevent or limit symptoms of NAS.

TIP 63

Part 3 of 5—Pharmacotherapy for Opioid Use Disorder

Drug Interactions
Buprenorphine has fewer documented
clinically signiﬁcant drug interactions than
methadone,283 but monitoring is still needed
for patients who are starting or stopping

medications that are CYP450 3A4 enzyme
inhibitors or inducers for overdosing/underdosing of buprenorphine or coadministered
medication. Exhibit 3D.3 lists these medications,
including some anticonvulsants, antibiotics, and

EXHIBIT 3D.3. Partial List of Medications Metabolized by Cytochrome
P450 3A4
Inhibitors (Potentially Increase Blood Levels of Buprenorphine)
Amiodarone
Atazanavir
Atazanavir/ritonavir
Clarithromycin
Delavirdine
Erythromycin
Fluconazole

Fluoxetine
Fluvoxamine
Grapefruit juice
Indinavir
Itraconazole
Ketoconazole
Metronidazole

Miconazole
Nefazodone
Nelﬁnavir
Nicardipine
Norﬂoxacin
Omeprazol
Paroxetine

Ritonavir
Saquinavir
Sertraline
Verapamil
Zaﬁrlukast
Zileuton

Disopyramide
Doxorubicin
Erythromycin
Estrogens
Etoposide
Felodipine
Fentanyl
Fexofenadine
Glyburide
Ifosfamide
Indinavir
Ketoconazole
Lansoprazole
Lidocaine

Loratadine
Losartan
Lovastatin
Miconazole
Midazolam
Navelbine
Nefazodone
Nelﬁnavir
Nicardipine
Nifedipine
Nimodipine
Ondansetron
Oral contraceptives
Paclitaxel

Prednisone
Progestins
Quinidine
Rifampin
Ritonavir
R-Warfarin
Saquinavir
Sertraline
Simvastatin
Tacrolimus
Tamoxifen
Verapamil
Vinblastine
Zileuton

Substrates
Alprazolam
Amlodipine
Astemizole
Atorvastatin
Carbamazepine
Cisapride
Clindamycin
Clonazepam
Cyclobenzaprine
Cyclosporine
Dapsone
Delavirdine
Dexamethasone
Diazepam
Diltiazem

Inducers (Potentially Decrease Blood Levels of Buprenorphine)
Carbamazepine
Dexamethasone
Efavirenz

Ethosuximide
Nevirapine

Phenobarbital
Phenytoin

Primidone
Rifampin

Note: Consult a point-of-service medical reference application for the most up-to-date drug–drug interactions before
making medication management decisions.
Adapted from material in the public domain.284

3-55

A248

TIP 63

Medications for Opioid Use Disorder

HIV medications, and Exhibit 3D.4 lists more HIV
medications. More information on drug–drug
interactions is available online (www.drugs.com
/drug-interactions/buprenorphine-index.html
?ﬁlter=3&generic_only=).
Monitor responses to buprenorphine in
patients taking nonnucleoside reverse transcriptase inhibitors. Changes in buprenorphine
concentrations can be clinically signiﬁcant.285
Combination antiretroviral therapy (atazanavir/ritonavir) increases buprenorphine and
norbuprenorphine serum concentrations.286
Case reports have demonstrated signs of
buprenorphine excess (sedation). Decreasing
buprenorphine can improve this symptom.287
Other research has demonstrated no need to

adjust the buprenorphine dose among patients
taking atazanavir.288
For tuberculosis treatment, rifampin but not
rifabutin may decrease buprenorphine concentrations. Rifampin produced opioid withdrawal
in 50 percent of research volunteers with opioid
dependence.289
FDA warns of increased serotonin syndrome
risk with prescription opioids, including buprenorphine. Serotonin syndrome can include:

‡
‡
‡
‡
‡

Changes in mental status.
Fever.
Tremor.
Sweating.
Dilated pupils.

EXHIBIT 3D.4. Potential Interactions Between Buprenorphine and HIV
Medications
MEDICATION

TYPE

POTENTIAL INTERACTION

Atazanavir

Protease inhibitor

Increased buprenorphine concentrations. May cause
cognitive impairment290,291 or oversedation.292,293 Slower
titration or dose reduction of buprenorphine may be
warranted.294, 295

Darunavir-ritonavir

Protease inhibitor

Some pharmacokinetic (PK) effect; dose adjustments
unlikely to be needed, but clinical monitoring is
recommended.296

Delavirdine

Nonnucleoside reverse
transcriptase inhibitor

Increased buprenorphine concentrations, but no
clinically signiﬁcant effect. Dose adjustments unlikely
to be needed. However, use with caution, as longterm effects (more than 7 days) are unknown.297,298

Efavirenz

Nonnucleoside reverse
transcriptase inhibitor

Some PK effect; dose adjustments unlikely to be
needed.299

Elvitegravir (with
cobicistat)

Integrase inhibitor

Some PK effect; no dose adjustments needed.300

Nevirapine

Nonnucleoside reverse
transcriptase inhibitor

Some PK effect; no dose adjustments needed.301

Ritonavir

Protease inhibitor

Some PK effect; no dose adjustments needed.302

Tipranavir

Protease inhibitor

Some PK effect; no dose adjustments needed.303

Adapted from material in the public domain.304

3-56

A249

TIP 63

Part 3 of 5—Pharmacotherapy for Opioid Use Disorder

Serotonin syndrome can occur with simultaneous
opioid and antidepressant treatment. There are
only a few case reports of serotonin syndrome
with buprenorphine,305 but be aware of this
possibility given the frequent treatment of mood
disorders in patients with OUD.

Side E ects
Buprenorphine’s side effects may be less
intense than those of full agonists. Otherwise,
they resemble those of other mu-opioid
agonists. Possible side effects include the
following (buprenorphine FDA labels list all
potential side effects https://dailymed.nlm.nih
.gov/dailymed/drugInfo.cfm?setid=8a5edcf9
-828c-4f97-b671-268ab13a8ecd):

‡
‡
‡
‡
‡
‡
‡
‡
‡
‡
‡
‡

Oral hypoesthesia (oral numbness)
Constipation
Glossodynia (tongue pain)
Oral mucosal erythema
Vomiting
Intoxication
Disturbance in attention
Palpitations
Insomnia
Opioid withdrawal syndrome
Excessive sweating
Blurred vision

out. If the implant comes out, patients should
safely store and dispose of it (following local
and federal regulations) to protect others from
unintended exposure.
Serious injection site adverse events for the
extended-release formulation are uncommon
but possible. The most common injection site
adverse reactions were pain (7.2 percent),
pruritus (6.6 percent), and erythema (4.7 percent)
in phase three trials. Two cases of surgical
removal of the monthly depot were reported
in premarketing clinical studies. Surgical
excision under local anesthesia within 14 days
of injection is possible. It is recommended that,
before treatment, baseline liver function tests
be assessed with monthly monitoring during
treatment, particularly with the 300 mg dose.
There are limited data regarding use of the
extended-release injection formulation in
pregnant women with OUD. In animal reproductive studies with Sublocade’s excipient,
N-Methyl-2-pyrrolidone, there were reported
fetal adverse reactions. Women should be
advised that the use of Sublocade during
pregnancy should be considered only if the
beneﬁts outweigh the risks (see FDA package
insert for full details www.accessdata.fda.gov
/drugsatfda_docs/label/2017/209819s000lbl.pdf).

Assessment

Serious implant-related adverse events are
uncommon but possible according to the FDA
label (www.accessdata.fda.gov/drugsatfda_docs
/label/2016/204442Orig1s000lbl.pdf). Still, more
than 10 percent of patients experience implant
site pain, itching, or swelling. Migration beyond
the local insertion site is rare but possible, as is
nerve damage. Buprenorphine may be extruded
from implants for potential misuse. Insert
implants only in stable patients, for whom FDA
has approved this formulation.

No evidence clearly predicts which patients
are best matched to buprenorphine versus
other OUD medications. Thorough assessment helps determine whether buprenorphine
treatment is appropriate for a patient. (Part 2 of
this TIP covers screening and assessment in more
detail.) Before prescribing buprenorphine:

‡
‡

Implants may extrude and potentially come
out (e.g., from incomplete insertion or infection).
Tell patients to call the implanting physician if
an implant looks like it is extruding or comes

Check the state prescription drug monitoring
program database.
Assess the patient’s history.
− Conduct a medical, psychiatric, substance
use, and substance use treatment history.
− Assess recent opioid use, including
frequency, quantity, type, route, and last
day of use.

3-57

A250

TIP 63

Medications for Opioid Use Disorder

− Establish OUD diagnosis.
− Assess for other substance use disorders

‡

‡

(SUDs), including those involving alcohol,
benzodiazepines, or stimulants.
Conduct a focused physical examination,
refer for a physical exam, or get a record of a
recent one.
− Assess for signs and symptoms of intoxication. Do not give a ﬁrst dose to a patient
who is sedated or intoxicated. Assess and
treat him or her appropriately.
− Assess for evidence of opioid withdrawal and physiological dependence.
The Clinical Opioid Withdrawal Scale
(COWS) or the Clinical Institute Narcotic
Assessment (CINA) Scale for Withdrawal
Symptoms can be used to assess
withdrawal signs (see “Resource Alert:
Opioid Withdrawal Scales”). The patient
should exhibit signs of opioid withdrawal
before taking the ﬁrst dose of buprenorphine to avoid precipitated withdrawal.
For example, the Risk Evaluation and
Mitigation Strategy (REMS) for buprenorphine indicates that a COWS score of 12 or
higher is typically adequate for a ﬁrst dose.
Conﬁrming opioid withdrawal suggests
that the patient is physically dependent
on opioids and can begin induction with a
typical 2 mg/0.5 mg or 4 mg/1 mg buprenorphine/naloxone dose.
Obtain laboratory tests.
− Conduct drug and alcohol tests. Use
reliable urine tests for opioids (including
morphine, methadone, buprenorphine,
and oxycodone), benzodiazepines,
cocaine, and other drugs commonly used
in the area. Use a breathalyzer to estimate
the patient’s blood alcohol content. Do not
provide buprenorphine until the alcohol
reading is considerably below the legal
level of alcohol intoxication.
− Conduct a pregnancy test. Transmucosal
buprenorphine or methadone maintenance
treatment is recommended for OUD
in pregnancy.306 There are limited data

3-58

A251

regarding use in pregnant women with
OUD with the buprenorphine implants and
with the extended-release injection formulation. If buprenorphine is used during
pregnancy, it should generally be transmucosal monoproduct.307 Refer pregnant
patients to prenatal care.
− Assess liver function. If possible, obtain
liver function tests, but do not wait for
results before starting transmucosal
buprenorphine treatment. A patient
with chronic hepatitis can receive OUD
treatment with buprenorphine. Discuss
risks and beneﬁts if the patient’s liver
enzymes are at or above ﬁve times the
normal level and monitor liver function
during treatment. Patients with transaminase levels less than ﬁve times normal
levels, including patients with hepatitis
C virus, appear to tolerate buprenorphine well.308,309 Exhibit 3D.2 gives more
information about hepatic impairment
and buprenorphine. Liver function tests
should be obtained and reviewed before
initiating buprenorphine implants or
extended-release buprenorphine because
these formulations are long acting.

RESOURCE ALERT
Opioid Withdrawal Scales
The COWS and other opioid withdrawal
scales can be downloaded from Annex 10
of WHO’s Guidelines for the Psychosocially
Assisted Pharmacological Treatment of Opioid
Dependence from the National Center for
Biotechnology Information website (www.ncbi
.nlm.nih.gov/books/NBK143183).
The CINA Scale for Withdrawal Symptoms is
also available online (www.ncpoep.org/wp
-content/uploads/2015/02/Appendix_7_Clinical
_Institute_Narcotic_Assessment_CINA _Scale
_for_Withdrawal_Symptoms.pdf).

TIP 63

Part 3 of 5—Pharmacotherapy for Opioid Use Disorder

− Conduct hepatitis and HIV tests.

Hepatitis B and C are common among
patients entering buprenorphine
treatment. HIV infection is also prevalent.
If possible, test the patient for these infections and refer to treatment as appropriate.
The Centers for Disease Control and
Prevention recommends hepatitis B vaccination for individuals seeking treatment for
SUDs.310

Patient Selection
No evidence clearly predicts which patients
are best treated with buprenorphine versus
other OUD medications. Inform all patients
with OUD about treatment with transmucosal
buprenorphine and where it’s available. (See
“Treatment Planning or Referral” in Part 2 of this
TIP for more on shared decision making.)
Patients who responded well to buprenorphine
in the past should be considered for this
treatment.
Prior use of diverted buprenorphine doesn’t
rule out OUD treatment with buprenorphine.
Diverted buprenorphine is often associated with
an inability to access treatment,311 and it’s often
used to self-treat opioid withdrawal rather than
to “get high.”312,313
Unsuccessful treatment experiences with
buprenorphine in the past do not necessarily
indicate that buprenorphine will be ineffective
again. Motivation and circumstances change
over time. Also, treatment varies by provider,
clinic, and setting, as it does for other medical
illnesses. Records from previous providers can
contextualize the extent of past treatment.

Do not taper patients to 8 mg daily
solely to switch them to implants.
taking transmucosal buprenorphine for at least
90 days. Their current dose should be 8 mg/
day or less.314 There is no absolute deﬁnition of
clinical stability, but per the implant package
insert, patients may be stable if they are:315

‡
‡
‡
‡
‡
‡
‡

Abstaining currently from illicit opioids.
Having little or no craving for illicit opioids.
Living in a stable environment.
Participating in a structured job or activity.
Engaging in a positive social support system.
Lacking recent hospitalizations, emergency
department visits, or crisis interventions for
substance use or mental illness.
Adhering to clinic appointments and other
aspects of treatment and recovery plans.

Informed Consent
Inform all patients of:

‡
‡
‡

Their OUD diagnosis and the nature of the
disorder.
Risks and beneﬁts of all available medications
for OUD.
Risks and beneﬁts of nonmedication
treatments.

Educate patients about basic buprenorphine
pharmacology and induction expectations
(Exhibit 3D.5). They should understand the need
to be in opioid withdrawal that’s visible to the
prescriber (or, for home induction, that meets
predeﬁned self-assessment criteria) to avoid
precipitated withdrawal.

Pregnant women should be considered for
transmucosal buprenorphine treatment.
Stable patients are the best candidates for
buprenorphine implants. Implants are indicated
for patients who have already achieved illicit
opioid abstinence and clinical stability while

Use language and written materials
appropriate to each patient’s
comprehension level to ensure that
he or she understands the options
and can make informed decisions.

3-59

A252

TIP 63

EXHIBIT 3D.5. Key Points
of Patient Education for
Buprenorphine
Before starting OUD treatment with
buprenorphine, patients should:

‡ Tell providers the prescribed and over-the‡
‡
‡
‡

counter medications they take to allow drug
interaction assessment.
Understand the goal of the ﬁrst week of
treatment: To improve withdrawal symptoms
without oversedation.
Tell providers if they feel sedated or euphoric
within 1 to 4 hours after their dose.
Be given the appropriate buprenorphine
medication guide.
Know possible side effects, including:
Headache.
Dizziness.
Nausea.
Vomiting.
Sweating.
Constipation.
Sexual dysfunction.

Medications for Opioid Use Disorder

Initiating Buprenorphine
Treatment
It can be helpful to use a buprenorphine
treatment agreement for patients treated in
ofﬁce-based settings (see Chapter 3D Appendix
for a sample treatment agreement).
Induction can occur in the ofﬁce or at home.
Most clinical trials were conducted with ofﬁcebased induction, and extant guidance recommends this approach.316 However, ofﬁce-based
induction can be a barrier to treatment initiation. Home induction is increasingly common.317

O ce-Based Induction
Providers can perform ofﬁce-based induction
by ordering and storing induction doses in the
ofﬁce or by prescribing medication and instructing patients to bring it to the ofﬁce on the day
of induction. Ofﬁce-based induction allows
providers to:

‡

‡ Agree to store medication securely and out of
the reach of others.

‡ Alert providers if they discontinue
‡
‡
‡
‡
‡

medications, start new ones, or change their
medication dose.
Understand that discontinuing
buprenorphine increases risk of overdose
death upon return to illicit opioid use.
Know that use of alcohol or benzodiazepines
with buprenorphine increases the risk of
overdose and death.
Understand the importance of informing
providers if they become pregnant.
Tell providers if they are having a procedure
that may require pain medication.
Be aware of resources through which to
obtain further education for:
Themselves: Decisions in Recovery:
Treatment for Opioid Use Disorder (https://
store.samhsa.gov/product/SMA16-4993)
Their families and friends: MedicationAssisted Treatment for Opioid Addiction:
Facts for Families and Friends (http://www
.ct.gov/dmhas/lib/dmhas/publications/MAT
-InfoFamilyFriends.pdf)

‡
‡
‡
‡

Ensure that patients know how to take
medication without swallowing or spitting it
out if they have too much saliva or experience
unpleasant tastes. Tell them to wait to eat or
drink until the medication is totally dissolved.
Enhance the therapeutic relationship.
Verify the presence of opioid withdrawal
and absence of precipitated opioid
withdrawal.
Ensure the lack of sedation 1 to 2 hours
after the ﬁrst dose in patients taking
sedatives.
Use time between doses for patient selfassessment. See the Chapter 3D Appendix
for sample goal-setting forms that help
patients identify treatment goals and triggers
for use.

Home Induction
Home induction can be safe and effective.318
Retention rates are similar to ofﬁce inductions,319
but no comparison data from large randomized
controlled studies exist. The American Society of
Addiction Medicine National Practice Guideline
recommends home induction only if the
patient or prescriber has experience with using

3-60

A253

TIP 63

Part 3 of 5—Pharmacotherapy for Opioid Use Disorder

Induction

buprenorphine.320,321 Clinical experience indicates
that patients suitable for home induction:

‡
‡
‡

Can describe, understand, and rate
withdrawal.
Can understand induction dosing instructions.
Can and will contact their provider about
problems.

Educate patients about how to assess their
withdrawal, when to start the ﬁrst dose, how
to take the medication properly, and how to
manage withdrawal on induction day. Instruct
patients to take their ﬁrst dose when they experience opioid withdrawal at least 12 hours after
last use of heroin or a short-acting prescription
opioid. Effectively switching from methadone to
buprenorphine can be challenging. This should
generally be started with ofﬁce-based induction.
Consult with a medical expert knowledgeable
about methadone in these situations until experience is gained. Withdrawal can include:

‡
‡
‡
‡
‡
‡

Goose bumps.
Nausea.
Abdominal cramps.
Running nose.
Tearing.
Yawning.

Patients should begin buprenorphine when
they are exhibiting clear signs of opioid
withdrawal. Induction typically starts with a
2 mg to 4 mg dose of buprenorphine or a 2
mg/0.5 mg to 4 mg/1 mg dose of buprenorphine/naloxone.322 Depending on the formulation used and whether a given patient has a dry
mouth, the dose can take between 3 and 10
minutes to dissolve fully. After approximately
2 hours, an additional 2 mg to 4 mg dose of
buprenorphine/naloxone can be given if there
is continued withdrawal and lack of sedation.
Always individualize dosing. The FDA label
recommends a maximum buprenorphine/
naloxone dose of 8 mg on Day 1 and 16 mg on
Day 2.323 When dosing outside of FDA recommendations, document the clinical rationale,
including risks and beneﬁts. Remember that
some patients stabilize on lower doses.
If patients experience sedation upon ﬁrst
dose, stop and reevaluate the following:

‡

Be available for phone consultation during the
induction period and for an in-ofﬁce evaluation should the need arise. See patients in the
ofﬁce within approximately 7 days of the start of
home induction. (See the Chapter 3D Appendix
for a sample buprenorphine/naloxone home
dosage schedule.)
Advise patients to abstain from
tobacco before dosing. Many patients
with OUD use tobacco products.
Nicotine causes vasoconstriction,
decreasing the surface area of blood
vessels that absorb buprenorphine.

Patients who are currently physically
dependent on opioids

‡
‡
‡
‡

Did they recently take other sedating
medications (e.g., benzodiazepines)?
Have they recently been in a controlled environment, such as a hospital, jail, or residential
drug treatment facility?
Was the history of recency and amount of
opioid use inaccurate?
Was the heroin used of poor quality?
Was their use mostly of low-potency opioids
(e.g., codeine)?

Consider whether a dose decrease, change
in treatment plan, or both are necessary. If
induction is still indicated, adjust the dose
more slowly as needed to minimize sedation.
The dose can be adjusted on subsequent days to
address continued withdrawal or uncontrollable
craving if the patient is not sedated.

3-61

A254

TIP 63

Medications for Opioid Use Disorder

Patients with a history of OUD who are not
currently physically dependent on opioids
Buprenorphine induction can be appropriate
for certain patients with a history of opioid
addiction at high risk for return to use of opioids
but not currently dependent on them. This
includes patients who’ve been incarcerated
or in other controlled environments.324 Before
starting treatment, discuss risks and beneﬁts of
buprenorphine and other medications (including
extended-release naltrexone [XR-NXT]).
Buprenorphine doses should begin at lowerthan-usual levels (e.g., 1 mg). They should be
increased more slowly than in tolerant patients
to avoid oversedation and possible overdose.
Take particular care with patients who are being
treated with other central nervous system
depressant medications.325 At the beginning
of treatment, directly administer doses in an
OTP or in the ofﬁce. This will allow patients to
be observed for sedation after dosing and will
reduce the risk that patients take more
medication than prescribed.
In one study, research participants not currently
physically dependent on opioids but with a
history of OUD were started on 1 mg buprenorphine with weekly 1 mg dose increases to 4 mg,
followed by 2 mg weekly increases to 8 mg.
Most patients tolerated this dose induction, and
the mean daily dose exceeded 8 mg per day
by the ﬁfth week, when the planned dose was
6 mg.326 As with all opioid agonist treatment,
dosing should be individualized and based on
careful patient assessment during treatment.

in medication. Experienced prescribers should
conduct this procedure in the ofﬁce, not via
home induction. The lower the methadone dose
and the longer it’s been since the last dose, the
easier the transition.
Before initiating buprenorphine, carefully
taper methadone to lower the risk of return
to illicit opioid use during transition. Patients
who take methadone for OUD should taper to
30 mg to 40 mg methadone per day and remain
on that dose for at least 1 week before starting
buprenorphine.327 With patients’ permission,
OTPs can conﬁrm the time and amount of
patients’ last methadone dose.
Do not start buprenorphine until the patient
manifests signs of opioid withdrawal. At least
24 hours should pass between the last dose of
methadone and the ﬁrst dose of buprenorphine.
Waiting 36 hours or more reduces risk of precipitated withdrawal. Lower doses of buprenorphine/naloxone are less likely to precipitate
methadone withdrawal.328 For example, once
opioid withdrawal is veriﬁed, an initial dose of
2 mg/0.5 mg can be given. If patients continue
to have unrelieved opioid withdrawal after the
ﬁrst 2 mg dose, administer another 2 mg/0.5 mg
dose approximately every 2 hours as needed
(holding for sedation). Induction should be
conducted slowly; consider palliating unrelieved
withdrawal with nonopioid therapies for the ﬁrst
few days of transition to buprenorphine. Be alert
to any increase in withdrawal symptoms, as this
may suggest precipitated withdrawal.

Dose Stabilization

Patients who are currently taking
methadone

Stabilization occurs when there is evidence of:

Some patients who take methadone may wish to
switch to buprenorphine treatment for a variety
of reasons. This often requires methadone
dose reduction before switching medications,
which may increase the risk of return to opioid
use. Exercise caution with this approach and
thoroughly discuss the risks and beneﬁts with
the patients before embarking on the change

‡
‡
‡
‡
‡

3-62

A255

Markedly reduced or eliminated illicit opioid
use.
Reduced craving.
Suppression of opioid withdrawal.
Minimal side effects.
Patient-reported blunted or blocked euphoria
during illicit opioid use.

Part 3 of 5—Pharmacotherapy for Opioid Use Disorder

Remind patients to take their dose once daily
rather than splitting it. Document reduced illicit
drug use via patient self-report and urine drug
testing. Consecutive negative urine test results
suggest a positive prognosis.
Continue monitoring dose effectiveness
during early stabilization. Dose adjustments may still be necessary (Exhibit 3D.6).
Buprenorphine treatment should substantially
reduce opioid cravings. See Chapter 3E: Medical
Management Strategies for detailed information
on the management of patients taking buprenorphine in ofﬁce-based treatment settings.

TIP 63

Once patients have stabilized, continue to
screen and evaluate for mental disorders and
psychosocial problems that may need to be
addressed (e.g., having a spouse or cohabitant
who is using illicit opioids). Support patients’
engagement in prosocial activities and progress
toward treatment goals and recovery as they
decrease use of illicit substances.
Offer referrals for adjunctive counseling and
recovery support services as needed. It may
not be possible to eliminate opioid craving
completely, regardless of the dose. Counseling
can help patients reduce and manage craving.

EXHIBIT 3D.6. Adjusting the Buprenorphine Dose
When to increase the dose:

‡ Are patients taking medication correctly and as scheduled?

If they take at least 16 mg per day, mu-opioid receptors are approximately 80 to 95 percent occupied.329
If there are adherence problems, assess causes and intervene to promote adherence and proper
administration (e.g., offer supervised dosing at the clinic, by a network support, at a pharmacy).
If patients are taking doses correctly, a dose increase may be indicated, if certain conditions exist.

‡ Are patients taking other medications that may interfere with buprenorphine metabolism?
‡ If patients are taking doses properly, increase the dose if they still have opioid withdrawal (document
with a clinical tool like COWS), opioid craving, or “good” effects (e.g., feeling “high”) from using illicit
opioids.
Craving can be a conditioned response. It may not decrease with dose increases if patients spend
time with people who use opioids in their presence.
Dose increases typically occur in 2 mg to 4 mg increments.
It will take about 5 to 7 days to reach steady-state plasma concentrations after a dose increase.
Offer psychosocial referrals to help decrease and manage cravings.

‡ Determine whether nonpharmacological problems are contributing to the need for increase.

For example, do patients show signs and symptoms of untreated major depressive or generalized
anxiety disorders? Are they living in a chaotic household? Do they have childcare problems or
ﬁnancial difﬁculties? Are they experiencing trauma or trauma-related mental disorders?
Address or refer to counseling to address these problems.

When to decrease the dose:

‡ Decrease the dose when there is evidence of dose toxicity (i.e., sedation or, rarely, clearly linked
clinically relevant increases in liver function tests).

‡ Hold the dose when there is acute alcohol or benzodiazepine intoxication.

3-63

A256

TIP 63

Medications for Opioid Use Disorder

A more important measure of dose adequacy
than craving is whether patients report that
the feeling of euphoria associated with selfadministered illicit opioids is blunted or blocked.
Patients who were not interested in adjunctive addiction or mental health counseling
during induction may become receptive to it
when they are feeling more stable.
Be cautious when increasing doses above 24
mg/6 mg per day. Nearly all patients stabilize
on daily doses of 4 mg/1 mg to 24 mg/6 mg.
Very limited data show additional beneﬁts of
doses higher than the FDA label’s recommended
maximum of 24 mg/6 mg.330 Carefully document
clinical justiﬁcation for higher doses and always
have a diversion control plan in place. Doses
above 24 mg/6 mg a day may unintentionally
heighten diversion risk. Patients not responding
to high doses of buprenorphine at the upper
limit approved by FDA should be considered for
methadone treatment.

Risk Evaluation and Mitigation Strategy

See also “Buprenorphine Induction and
Maintenance Appropriate Use Checklists” in
Chapter 3D Appendix.

Transmucosal Buprenorphine Dosing
Summary
Induction and stabilization
The goal is to reduce or eliminate opioid withdrawal and craving without causing sedation:

‡

‡
‡

Practitioners should become familiar with the
FDA-approved REMS for buprenorphine. It
provides useful information and checklists for
providers. REMS can be found online for:

‡

‡

‡

‡

Buprenorphine monoproduct and
buprenorphine/naloxone
(www.accessdata.fda.gov/scripts/cder
/rems/index.cfm?event=IndvRemsDetails
.page&REMS=352)
Transmucosal buprenorphine
(www.accessdata.fda.gov/scripts/cder
/rems/index.cfm?event=RemsDetails
.page&REMS=9)
Buprenorphine implants
(www.accessdata.fda.gov/scripts/cder
/rems/index.cfm?event=IndvRemsDetails
.page&REMS=356)
Buprenorphine extended-release injection
(www.accessdata.fda.gov/scripts/cder
/rems/index.cfm?event=indvremsdetails
.page&rems=376)

‡

‡

3-64

A257

Induction and stabilization strategies can
vary based on patient variables and use of
short- versus long-acting opioids. For more
discussion on induction models, see the
Providers’ Clinical Support System’s Models
of Buprenorphine Induction (http://pcssmat
.org/wp-content/uploads/2015/01/Models
-of-Buprenorphine-Induction.pdf).
The combination buprenorphine/naloxone
product is safe to use for induction for most
patients.
The buprenorphine monoproduct (without
naloxone) has been recommended for the
treatment of pregnant women331 because of
the danger to the fetus of precipitated opioid
withdrawal if the combination product were to
be injected. Although there are some publications with small sample sizes that indicate that
the combination product appears to be safe in
pregnancy,332,333 the safety data are insufﬁcient
at this time to recommend its use.334 This is
an area of some uncertainty. An expert panel
on the treatment of OUD in pregnancy was
unable to agree whether pregnant women
should be treated with the monoproduct or
combination product.335
Prescribers should observe the patient taking
the medication to ensure proper use, especially if the patient is new to buprenorphine
treatment. It can be helpful to do this periodically after induction, especially when the
prescribed dose is not providing the expected
beneﬁt.
Before the ﬁrst dose, the patient should be
in opioid withdrawal (to avoid precipitated
withdrawal).

TIP 63

Part 3 of 5—Pharmacotherapy for Opioid Use Disorder

‡
‡

The ﬁrst dose is typically 4 mg/1 mg (2 mg if
withdrawal is from methadone).
Repeat dose as needed for continuing withdrawal every 2 hours up to typically 8 mg on
the ﬁrst day.

ensure that the implanter has completed the
required training. For more information, see the
Probuphine REMS program webpage (http://
probuphinerems.com/probuphine-locator).

At the start of the next day, patients typically
take the ﬁrst day’s total dose all at once:

‡

‡

If necessary, an additional 2 mg to 4 mg can
be given every 2 hours up to approximately
a 16 mg total daily dose to treat continuing
opioid withdrawal and craving on Day 2 or 3,
barring sedation.
The initial stabilization dose can often be
achieved within the ﬁrst several days of
treatment.

Maintenance
Typical maintenance doses range from 4 mg/1
mg to 24 mg/6 mg per day. An effective maintenance dose is the lowest dose that can:

‡
‡
‡
‡

Eliminate withdrawal.
Reduce or eliminate opioid craving.
Reduce or stop illicit opioid use’s desirable
effects.
Be well tolerated (e.g., not produce sedation).

Duration of treatment

‡
‡

Treatment should last for as long as patients
beneﬁt from treatment.
Longer treatment length is associated with
positive treatment outcomes.

The prescriber and implanter/remover must
record the number of implanted/removed
rods and their serial numbers and location, the
date of the implant, and who performed the
procedure. The implanter should document
implant and inspection procedures, as with any
other standard procedure.
Instruct patients to take the last transmucosal dose of buprenorphine 12 to 24 hours
before insertion. Remind them to shower and
thoroughly wash the nondominant arm, which is
preferred for insertion.

Implant procedure
Subdermal insertion of the four rods takes less
than 30 minutes. Local anesthetic (lidocaine) is
typically used. The implant procedure includes
the following steps:

‡
‡
‡
‡

‡

Initiation of Buprenorphine Implants
Prescribers and implanters of buprenorphine
implants require special certiﬁcation to make
this formulation available to their patients. In
addition, implanters must get special training in
the Probuphine REMS program to obtain certiﬁcation to implant and remove this formulation.
After completing training, providers can order
implants through a central pharmacy for delivery,
along with an implant insertion kit that contains
all necessary implant procedure materials
except a local anesthetic. If the prescriber is not
performing the procedure, the prescriber should

‡
‡
‡
‡

Provide education about what to expect
during the procedure.
Obtain appropriate consent form(s).
Provide a local anesthetic (e.g., lidocaine).
Using sterile procedures, make a single
incision in the inner upper arm between the
biceps and triceps muscles, about 8 cm to 10
cm from the medial epicondyle.
Using a cannula and an obturator, insert rods
serially, pivoting the cannula slightly after
each rod insertion in the subdermal space so
that the rods lie next to one another, nearly
parallel in a fanlike pattern.
After implantation, apply butterﬂy strips and a
pressure bandage.
Review wound care with the patient, and
provide a copy of the instructions.
Advise the patient not to drive or engage
in heavy physical activity for approximately
24 hours.
Do not give the patient a prescription for
transmucosal buprenorphine at this time.

3-65

A258

TIP 63

Medications for Opioid Use Disorder

Wound care
The patient should return within 1 week of the
implant procedure for a wound care check.
Check for signs of infection, trouble healing, or
implant extrusion. The rods are subdermal, so
they should remain palpable. Document that all
four rods were palpated.

Stabilization

treatment. Patients should follow the same
directions to prepare for implant removal as they
did for insertion. The removal procedure may
require stitches. Patients should visit the clinic
for removal of stitches and wound assessment
within 1 week of removal. Store and dispose of
rods safely in accordance with local and federal
regulations.

Initiation of Buprenorphine ExtendedRelease Injection

Maintain contact with patients after implant
placement. Even among highly stable patients,
return to illicit opioid use can occur. Explain the
risk of unintentional overdose if patients return
to illicit opioid or alcohol or benzodiazepine
use while implants are in place. It is important
to monitor the patient between implant
placements.
Schedule ofﬁce visits no less than once a
month for continued assessment of maintenance of stability, manual palpation of the
four implanted rods, and ongoing psychosocial
support and counseling per the FDA label (www
.accessdata.fda.gov/drugsatfda_docs/label/2016
/204442Orig1s000lbl.pdf). If the patient returns
to illicit opioid use, consider whether adequate
psychosocial treatment has been given.
Consider transmucosal medication supplementation if a patient with implants destabilizes
and reports inadequate opioid blockade. In
one study,336 17.9 percent of participants with
buprenorphine implants needed supplemental
sublingual buprenorphine/naloxone. Most
required small doses, such as 2 mg/0.5 mg per
day. Consider more frequent assessment and
higher intensity of treatment for patients who
continue using illicit opioids or other substances.

Removal
After 6 months, have a certiﬁed implanter
remove them. Implantation of a second set of
rods in the opposite arm can then occur. There is
no experience with inserting additional implants
into other sites or second insertion into a previously used arm. After one insertion in each arm,
most patients should transition to a transmucosal
buprenorphine-containing product for continued

Healthcare settings and pharmacies need
special certiﬁcation to order and dispense
extended-release injectable buprenorphine to
ensure long-acting preparations are dispensed
directly to healthcare providers for administration and by healthcare providers to patients (see
www.accessdata.fda.gov/scripts/cder/rems/index
.cfm?event=indvremsdetails.page&rems=376 for
more details).
Before initiating extended-release buprenorphine treatment, patients with moderateto-severe OUD should be stabilized on transmucosal buprenorphine (8 mg to 24 mg daily)
for at least 7 days. Do not use in opioid-naïve
patients. Obtain liver function and pregnancy
tests. Extended-release buprenorphine is not
recommended for patients with severe hepatic
impairment and may not be appropriate for
patients with moderate hepatic impairment
because of the long-acting nature of this formulation. There are insufﬁcient data on its use in
pregnancy to recommend initiating this formulation during pregnancy.
Inform patients that:

‡

‡

3-66

A259

The medication is only available in a restricted
program (the Sublocade REMS Program) via
speciﬁc pharmacies and healthcare providers,
as intravenous self-injection by patients can
cause death.
After abdominal injection, a lump may be
present at the injection site for a few weeks. It
will get gradually smaller. Patients should not
rub or massage it or let belts or waistbands
rub against it.

TIP 63

Part 3 of 5—Pharmacotherapy for Opioid Use Disorder

‡
‡

‡

‡

Patients should tell their healthcare providers
that they are being treated with this
medication.
Using alcohol, benzodiazepines, sleeping pills,
antidepressants, or some other medications
with extended-release buprenorphine can
lead to drowsiness or overdose.
The most common side effects are constipation, headache, nausea, vomiting, increased
liver enzymes, tiredness, and injection site
itching or pain.
Patients should inform their provider if they
become pregnant during treatment with this
formulation. They should have a risk/beneﬁt
discussion about continuing with this formulation given the limited safety data on its
impact on the developing fetus. They should
be informed that their newborn can have
symptoms of opioid withdrawal at birth.

Storage
Follow package insert directions for medication
storage under refrigeration. Keep at room
temperature for at least 15 minutes before
injection (discard if left at room temperature for
more than 7 days).

Administration
Rotate the abdominal subcutaneous injection
site with each injection, following the instructions
in the package insert. Record the location of
each injection in the medical record. Each of the
ﬁrst two monthly doses (with at least 26 days
between doses) should be 300 mg. Subsequent
monthly doses should be 100 mg. Some patients
may beneﬁt from increasing the maintenance
dose to 300 mg monthly if they have tolerated
the 100 mg dose but continue to use illicit
opioids.

medication. If the medication is discontinued,
the patient should continue to be seen and
evaluated for several months for sustained
progress in treatment and for signs and
symptoms of opioid withdrawal, which should be
treated as clinically appropriate.

Duration of Buprenorphine
Treatment
There is no known duration of therapy with
buprenorphine (or methadone or XR-NTX) after
which patients can stop medication and be
certain not to return to illicit opioid use. Those
who stay in treatment often abstain longer from
illicit opioid use and show increasing clinical
stability. Long-term treatment outcomes up to 8
years after buprenorphine treatment entry show
lower illicit opioid use among those with more
time on medication.337
Patients should take buprenorphine as long
as they beneﬁt from it and wish to continue.

Successful Buprenorphine Treatment
The goal of buprenorphine treatment is full
remission from OUD. Maintaining illicit opioid
abstinence is ideal, but imperfect abstinence
does not preclude treatment beneﬁts. Patients
should do better in treatment than before
treatment. If not, seek alternatives.
Do not judge treatment progress and success
on the amount of medication a patient needs
or how long treatment is required. Rather,
gauge treatment progress and success based
on patients’ achievement of speciﬁc goals that
were agreed on in a shared decision-making and
treatment planning process.
Given the often-chronic nature of OUD
and the potentially fatal consequences
of unintended opioid overdose, it
is critical that you base patients’
length of time in treatment on their
individual needs.

Medical management
Monitor patient progress and response to
treatment during regular ofﬁce visits and
with periodic urine drug testing. Examine
the injection site for reactions, infections, or
evidence of attempts to remove the depot

3-67

A260

TIP 63

Medications for Opioid Use Disorder

Consider this analogy: A patient with poorly
controlled diabetes was previously unable to
work and was admitted to the hospital several
times for diabetic ketoacidosis. When taking
insulin regularly, the patient worked part time,
had fewer hospitalizations for diabetic ketoacidosis despite a nondiabetic diet, and had lower
(but still high) hemoglobin A1C. This patient’s
treatment with insulin is not a “failure” because
perfect control and function were not restored,
and the patient would not be discharged from
care against his or her will.

Dose Tapering and Buprenorphine
Discontinuation
Following short-term medically supervised
withdrawal, patients frequently restart illicit
opioid use.338 In contrast to short-term medically
supervised withdrawal, dose tapering refers to
gradually reducing the buprenorphine dose in
patients who have been stabilized on the medication for some time.
Base decisions to decrease dose or stop
buprenorphine on patients’ circumstances and
preferences. Successful dose reductions may
be more likely when patients have sustained
abstinence from opioids and other drugs,
psychosocial support, housing, effective coping
strategies, stable mental health, employment,
and involvement in mutual-help programs or
other meaningful activities.339 However, there is
no guarantee that even patients with years of abstinence, full-time employment, stable housing,
and psychosocial supports can remain abstinent
after discontinuing buprenorphine.

Before beginning to taper the dose of medication, explore these considerations with
patients:

‡

‡

‡
‡
‡

‡
‡

It is up to patients to decide whether to
taper or eventually discontinue medication.
Help them make informed choices by educating
them about the process and fully including
them in decision making. Invite them to reenter
treatment if they believe they may return or have
already returned to opioid use.

3-68

A261

How have they responded to treatment
so far? Are they in full remission from OUD?
Do they have adequate mental and social
supports to remain in remission and maintain
recovery?
Why do they want to taper? They may be
motivated by inconvenience, expense, loss
of insurance coverage, side effects, feelings
of shame, pressure from family, and lack of
recovery supports. Many of these reasons are
not predictive of a successful outcome.
What do they expect to be different after
tapering or discontinuing buprenorphine?
Do they understand the risks and beneﬁts
of dose decrease and discontinuation of
buprenorphine?
What strategies do they have for engaging
family members and recovery supports to
reduce the risk of return to illicit substance
use?
Do they grasp the risk of overdose associated with a return to illicit opioid use?
Do they have a safety plan? To reduce
overdose risk after a return to use, plans
should include:
− A prescription for naloxone or a naloxone kit.
− Instructions on recognizing and responding
to an overdose.
− Information on naloxone use for family
members and others in the patient’s
recovery support network.
− See the SAMHSA Opioid Overdose
Prevention Toolkit (https://store.samhsa
.gov/shin/content/SMA16-4742/SMA16
-4742.pdf) for more guidance.
− If patients return to opioid use, it may be
appropriate for them to restart buprenorphine or switch to methadone or XR-NTX
treatment. These options should be
discussed with them.

Part 3 of 5—Pharmacotherapy for Opioid Use Disorder

‡

Have they thought about how they will feel
if they attempt to taper off of medication
but cannot do so? Convey to patients that
the inability to taper is not a failure and that
they should not be afraid or embarrassed to
discuss stopping the taper.

Document the discussion, patient education,
and decision in the medical record.
There is no ideal tapering protocol. Providers
and patients should understand this before
beginning a taper. Whether buprenorphine is
ultimately discontinued, patients need additional
psychosocial and recovery support during
this time. Generally, taper occurs over several
months to permit patients to acclimate to the
lower dose and to reduce potential discomfort
from opioid withdrawal and craving.
For patients who wish to discontinue
buprenorphine, national and international

TIP 63

guidelines recommend gradual dose reductions
and advice to patients that they can stop the
taper at any time.340,341,342
Consider increased monitoring and proactive
discussions about how to address and manage
cravings and withdrawal symptoms. Taper
protocols vary in duration and may include use of
ancillary medication, such as clonidine, if needed
(Exhibit 3A.2).343
Continue to monitor patients who successfully
taper off buprenorphine completely. Establish
a post-taper monitoring and support plan (see
Chapter 3E for more information on medical
management strategies). Continue to assess and
monitor patients’ progress and how they cope
with stress and triggers to use. Discuss the role of
XR-NTX in preventing return to opioid use after
completing treatment with an opioid agonist (see
Chapter 3C for more information on naltrexone).

3-69

A262

TIP 63

Medications for Opioid Use Disorder

Chapter 3D Appendix
Buprenorphine Induction and Maintenance Appropriate Use Checklists

Continued on next page
3-70

A263

Part 3 of 5—Pharmacotherapy for Opioid Use Disorder

TIP 63

Available online (www.accessdata.fda.gov/drugsatfda_docs/rems/BTOD_2017-01-23_Appropriate_Use_Checklist.pdf).
Reprinted from material in the public domain.344

3-71

A264

TIP 63

Medications for Opioid Use Disorder

Sample Goal Sheet and Coping Strategies Form
Patient’s Name: _______________________________________________________________

3-MONTH
GOALS

1

2

3

6-MONTH
GOALS

1

2

3

1-YEAR
GOALS

1

2

3

List of Triggers to Using Drugs

People To Stay Away From

Places To Stay Away From

Ways To Cope or Manage Stress Without Using Drugs
M. Lofwall, February 27, 2017 (personal communication). Adapted with permission.

3-72

A265

Date: _________________________

TIP 63

Part 3 of 5—Pharmacotherapy for Opioid Use Disorder

Sample Goal-Setting Form
Patient’s Name: ________________________________________________________________

CURRENT
SITUATION SCORE
GOAL CATEGORY

10 = major problems
and 0 = no problems

Date: _________________________

PRIORITY SCORE
What would need
to change to decrease
this score?

10 = highest priority (“I really
want to work on this”) and
1 = lowest priority (“I really do
not want to work on this”)

Opioid use
Other illicit drug use: ______________
Alcohol use
Tobacco use
Physical health
Mental health
Legal/court issues
Finances
Job/employment
Hobbies
Family relations
Partner relations
Supportive drug-f ree network
Education
Keeping medication safe
(e.g., not giving it away, selling it,
having it stolen)
Other
Other
M. Lofwall, February 27, 2017 (personal communication). Adapted with permission.

3-73

A266

TIP 63

Medications for Opioid Use Disorder

Buprenorphine/Naloxone Home Dosage Schedule: Films or Tablets
Name: ________________________________________________________________

Date: ___________________________

Procedure for taking buprenorphine:
‡ Let the medication dissolve under your tongue for at least 10 minutes. Do not suck on it.*
‡ Do not eat, drink, or smoke cigarettes for 30 minutes after you take your medication.
‡ Wait 2 hours between each dose.
The maximum dose is 16 mg/4 mg. If you reach this dose, you cannot increase further without calling the ofﬁce ﬁrst.
The ofﬁce phone number is ____________________________________ [insert phone number].

Day 1 Induction Day (In Ofﬁce): You have taken a total dose of _______ mg.
Day 2 in the Morning: Take the total dose you took on Day 1 = _______ mg.

‡
‡
‡
‡

If you experience withdrawal 2 hours later, you may take one 2 mg/0.5 mg ﬁlm or tablet.
Record your withdrawal symptoms: __________________________________.
If you continue to experience withdrawal 2 hours later, you may take one more 2 mg/0.5 mg ﬁlm or tablet.
Record your withdrawal symptoms: __________________________________.

Your total dose on Day 2 cannot exceed _______ mg. Record your total dose on Day 2: ______ mg.
Day 3 in the Morning: Take the total dose you took on Day 2 = _______ mg.

‡
‡
‡
‡

If you experience withdrawal 2 hours later, you may take one more 2 mg/0.5 mg ﬁlm or tablet.
Record your withdrawal symptoms: ___________________________________.
If you continue to experience withdrawal 2 hours later, you may take one more 2 mg/0.5 mg ﬁlm or tablet.
Record your withdrawal symptoms: _____________________________________.

Your total dose on Day 3 cannot exceed _______ mg. Record your total dose on Day 3: ______ mg.
Day 4 in the Morning: Take the total dose you took on Day 3 = _______ mg.

‡
‡
‡
‡

If you experience withdrawal 2 hours later, you may take one more 2 mg/0.5 mg ﬁlm or tablet.
Record your withdrawal symptoms: ___________________________________.
If you continue to experience withdrawal 2 hours later, you may take one more 2 mg/0.5 mg ﬁlm or tablet.
Record your withdrawal symptoms: _____________________________________.

Your total dose on Day 4 cannot exceed _______ mg. Record your total dose on Day 4: ______ mg.
Day 5 to next visit: In the morning, take the total dose you took on Day 4 = _______ mg.

General Rules
‡ The maximum dose is 16 mg/4 mg. If you reach this dose, you cannot increase further without calling the ofﬁce ﬁrst.
The ofﬁce phone number is _______________________________ [insert phone number].
‡ Please call if you have any questions. There are no “stupid” questions.
‡ Call us if you feel sleepy after your dose.
‡ Please bring this record to your next visit.
‡ It’s okay to take Tylenol (acetaminophen) or Motrin (ibuprofen) for aches/pains.
BRING THIS WITH YOU TO YOUR NEXT APPOINTMENT, scheduled for ______________________ [insert date and time].
Notes:

*If prescribing the buccal ﬁlm, ensure the patient understands that the buccal ﬁlm is placed on the inner cheek (buccal
mucosa) rather than sublingually (under the tongue).
M. Lofwall, February 27, 2017 (personal communication). Adapted with permission.

3-74

A267

Part 3 of 5—Pharmacotherapy for Opioid Use Disorder

TIP 63

Buprenorphine Treatment Agreement
This form is for educational/informational purposes only. It doesn’t establish a legal or medical standard of care.
Healthcare professionals should use their judgment in interpreting this form and applying it in the circumstances
of their individual patients and practice arrangements. The information provided in this form is provided “as is”
with no guarantee as to its accuracy or completeness.

TREATMENT AGREEMENT
I agree to accept the following treatment contract for buprenorphine ofﬁce-based opioid addiction treatment:
1.
2.
3.
4.

5.
6.
7.
8.
9.
10.
11.
12.
13.
14.
15.
16.
17.
18.
19.

The risks and beneﬁts of buprenorphine treatment have been explained to me.
The risks and beneﬁts of other treatment for opioid use disorder (including methadone, naltrexone, and
nonmedication treatments) have been explained to me.
I will keep my medication in a safe, secure place away from children (for example, in a lockbox). My plan is to
store it [describe where and how _____________________________________________________________________].
I will take the medication exactly as my healthcare provider prescribes. If I want to change my medication dose,
I will speak with my healthcare provider ﬁrst. Taking more medication than my healthcare provider prescribes
or taking it more than once daily as my healthcare provider prescribes is medication misuse and may result in
supervised dosing at the clinic. Taking the medication by snorting or by injection is also medication misuse and
may result in supervised dosing at the clinic, referral to a higher level of care, or change in medication based on
my healthcare provider’s evaluation.
I will be on time to my appointments and respectful to the ofﬁce staff and other patients.
I will keep my healthcare provider informed of all my medications (including herbs and vitamins) and medical
problems.
I agree not to obtain or take prescription opioid medications prescribed by any other healthcare provider without
consulting my buprenorphine prescriber.
If I am going to have a medical procedure that will cause pain, I will let my healthcare provider know in advance
so that my pain will be adequately treated.
If I miss an appointment or lose my medication, I understand that I will not get more medication until my next
ofﬁce visit. I may also have to start having supervised buprenorphine dosing.
If I come to the ofﬁce intoxicated, I understand that my healthcare provider will not see me, and I will not receive
more medication until the next ofﬁce visit. I may also have to start having supervised buprenorphine dosing.
I understand that it’s illegal to give away or sell my medication; this is diversion. If I do this, my treatment will no
longer include unsupervised buprenorphine dosing and may require referral to a higher level of care, supervised
dosing at the clinic, and/or a change in medication based on my healthcare provider’s evaluation.
Violence, threatening language or behavior, or participation in any illegal activity at the ofﬁce will result in
treatment termination from the clinic.
I understand that random urine drug testing is a treatment requirement. If I do not provide a urine sample, it will
count as a positive drug test.
I understand that I will be called at random times to bring my medication container into the ofﬁce for a pill or ﬁlm
count. Missing medication doses could result in supervised dosing or referral to a higher level of care at this clinic
or potentially at another treatment provider based on my individual needs.
I understand that initially I will have weekly ofﬁce visits until I am stable. I will get a prescription for 7 days of
medication at each visit.
I can be seen every 2 weeks in the ofﬁce starting the second month of treatment if I have two negative urine drug
tests in a row. I will then get a prescription for 14 days of medication at each visit.
I will go back to weekly visits if I have a positive drug test. I can go back to visits every 2 weeks when I have two
negative drug tests in a row again.
I may be seen less than every 2 weeks based on goals made by my healthcare provider and me.
I understand that people have died by mixing buprenorphine with alcohol and other drugs like benzodiazepines
(drugs like Valium, Klonopin, and Xanax).

Continued on next page

3-75

A268

TIP 63

Medications for Opioid Use Disorder

20. I understand that treatment of opioid use disorder involves more than just taking medication. I agree to comply
with my healthcare provider’s recommendations for additional counseling and/or for help with other problems.
21. I understand that there is no ﬁxed time for being on buprenorphine and that the goal of treatment is for me to
stop using all illicit drugs and become successful in all aspects of my life.
22. I understand that I may experience opioid withdrawal symptoms when I stop taking buprenorphine.
23. I have been educated about the other two FDA-approved medications used for opioid dependence treatment,
methadone and naltrexone.
24. I have been educated about the increased chance of pregnancy when stopping illicit opioid use and starting
buprenorphine treatment and been informed about methods for preventing pregnancy.
Other speciﬁc items unique to my treatment include:

Patient’s Name (print): _____________________________________________________
Patient’s Signature: ________________________________________________________ Date: ____________________
This form is adapted from the American Society of Addiction Medicine’s Sample Treatment Agreement, which is
updated periodically; the most current version of the agreement is available online (https://www.asam.org/docs
/default-source/advocacy/sample-treatment-agreement30fa159472bc604ca5b7ff000030b21a.pdf?sfvrsn
=bd4675c2_0).
Adapted with permission.345

3-76

A269

TIP 63

Part 3 of 5—Pharmacotherapy for Opioid Use Disorder

Patient Urine Drug Screen and Medication Count Monitoring Form
Patient’s Name: ______________________________________________________

Date To Be Called:______________________

Called for:

□ Urine Drug Screen
□ Medication Count at □ Ofﬁce or □ Pharmacy FOR: _____________________________________________________________
□ Buprenorphine/Naloxone
□ Other (list drug: ___________________________, ___________________________, ___________________________)
Documentation of Phone Call to Patient
Patient was called at _____________________________ (insert phone #) on ____________________ (date) at
_____:_____ (time) and informed of monitoring required (described above) within the next _______ hours.
Check One:

□ I spoke with patient
□ Message left on answering machine/voicemail
□ Message left with ________________________________________________
□ Other __________________________________________________________
Signature of Staff Member Making Phone Call: _______________________________________________________

M. Lofwall, February 27, 2017 (personal communication). Adapted with permission.

3-77

A270

TIP 63

Medications for Opioid Use Disorder

Pharmacy Tablet/Film Count Form
(Note: Before sending this form, discuss with the pharmacist ﬁrst to explain goals and procedures and to ensure
agreement and understanding.)

Date: ___________________
To:

Pharmacists @ ________________________________________ Pharmacy

From:

Healthcare Provider: ____________________________________________
Clinic Address: _________________________________________________
Phone Number: ________________________________________________

My patient, __________________________________, is starting ofﬁce-based buprenorphine treatment for opioid
dependence.
As part of monitoring this treatment, we ask the patient to do buprenorphine tablet/ﬁlm counts at random times (we
call the patient when it’s time for a pill/ﬁlm count).
The above-named patient lives much closer to your pharmacy than to our treatment clinic. It would be a big help to
me and this patient if you would be able to perform periodic tablet/ﬁlm counts on his/her buprenorphine and then fax
this form to us.
On the days we call the patient for a random tablet/ﬁlm count, the patient would come to your pharmacy with his or
her pill bottle. When we call the patient to go for a random tablet/ﬁlm count, we will fax this form to you. We would
appreciate if you could record the tablet/ﬁlm count results on this form and fax it back to us the same day. This would
be a real help to me in monitoring my patient’s treatment and also a great service to the patient.
Thank you very much for your help with this! Sincerely,

________________________________________________
Signature

Buprenorphine/Naloxone formulation: _________________________________________
Dose per tablet/ﬁlm: _______________
Total # of tablets/ﬁlms remaining in bottle: ______________

Fill date on bottle: ___________________

Total # of tablets/ﬁlms dispensed on ﬁll date: ____________

Tablet/ﬁlm count correct?

Please fax this back to: _____________________________________
Thank You!

M. Lofwall, February 27, 2017 (personal communication). Adapted with permission.

3-78

A271

□Yes □No

TIP 63

Part 3 of 5—Pharmacotherapy for Opioid Use Disorder

Chapter 3E: Medical Management Strategies
for Patients Taking OUD Medications in
O ce-Based Settings
Chapter 3E examines key issues in medical management of patients who are prescribed
buprenorphine or naltrexone in ofﬁce-based opioid treatment (OBOT) settings. It covers
regulatory and administrative concerns speciﬁc to buprenorphine and naltrexone that
affect medical management of patients in ofﬁce settings.

Management of patients taking medications
for opioid use disorder (OUD) varies by setting.
OBOT stabilize on buprenorphine or naltrexone,
providers focus on medication management and
treatment of other substance use, medical comorbidities, and psychosocial needs. Treatment
of comorbid conditions should be offered onsite
or via referral and should be veriﬁed as having
been received.

Patient Selection
To assess patients’ chances of success with
standard ofﬁce-based treatment, consider:

‡

Exhibit 3E.1 addresses use of terminology in this
chapter.

EXHIBIT 3E.1. Key Terms
In addition to the key terms deﬁned in Exhibit
3.1 of this Treatment Improvement Protocol
(TIP), these terms appear in Chapter 3E:

Psychosocial support: Ancillary services
to enhance a patient’s overall functioning
and well-being, including recovery support
services, case management, housing,
employment, and educational services.

‡

Psychosocial treatment: Interventions
that seek to enhance patient’s social and
mental functioning, including addiction
counseling, contingency management, and
mental health services.

Concurrent substance use disorder (SUD)
involving alcohol or benzodiazepines.
Benzodiazepine (illicit and prescription) and
alcohol use are common in patients with OUD.
This use presents clinical challenges, including
increased risk of respiratory depression
and unintentional overdose or death. Some
patients may have taken appropriately prescribed benzodiazepines for years with limited
or no evidence of misuse. For such patients,
tapering benzodiazepines may be contraindicated and unrealistic. Others may require
treatment for a benzodiazepine use disorder.
(See Exhibit 3B.1 for strategies for assessing
and managing patients in OUD treatment who
have concurrent benzodiazepine use disorder.)
Although concomitant use of buprenorphine
with benzodiazepines increases the risk of
an adverse reaction, including overdose
death, opioid agonist treatment should not
be denied to patients solely because they
take benzodiazepines,346 because untreated
OUD can pose a greater risk of morbidity and
mortality. The Food and Drug Administration
(FDA) advises that careful medication management by healthcare professionals can
reduce risk (see www.fda.gov/Drugs/Drug
Safety/ucm575307.htm for more information).

3-79

A272

TIP 63

Medications for Opioid Use Disorder

‡

Approaches to addressing concurrent benzodiazepine use include:

− Get patients’ permission to contact their

benzodiazepine prescribers to conﬁrm
their histories. Speaking with close family
members or friends (with patients’ permission) can also help in evaluating evidence
of alcohol or benzodiazepine misuse (e.g.,
intoxication, accidents, withdrawal seizures).
− Make sure patients understand that
combining buprenorphine with alcohol,
benzodiazepines, or other central nervous
system depressants risks potential respiratory depression and unintentional
overdose death.347 Overdose death with
buprenorphine is most often associated
with intravenous benzodiazepine and
heavy alcohol use.
− For patients misusing benzodiazepines
(e.g., taking in high doses, bingeing, using
intravenously), the TIP expert panel recommends referral to higher intensity addiction
treatment with medically supervised benzodiazepine withdrawal if available (e.g.,
intensive outpatient programs, residential
treatment). Do not rule out concurrent use
of buprenorphine or extended-release injectable naltrexone (XR-NTX) for treatment
of OUD in more structured settings for
these patients.
− For patients who are physically dependent
on illicit benzodiazepines but do not inject
or binge, a gradual outpatient medically
supervised withdrawal can be attempted
using long-acting benzodiazepines, under
certain conditions that promote safety and
reduce risk. These conditions may include:
‡ Requiring frequent ofﬁce visits with observation of patients taking medication.
‡ Having signiﬁcant others monitor
patients and report back to the ofﬁce.
‡ Offering a short-duration prescription
supply.
‡ Monitoring prescription drug monitoring
program (PDMP) reports more frequently.
‡ Conducting frequent urine tests.

Using written treatment agreements
outlining conditions for dual buprenorphine and benzodiazepine prescriptions.

− Review patient progress regularly; adjust

treatment plans as needed. Document
treatment decisions, as research showing
the effectiveness and safety of these
approaches is lacking.348

‡

‡

Signiﬁcant comorbid mental illness or
suicidal or homicidal ideation. Patients
who are actively suicidal, homicidal, severely
depressed, or psychotic or who are having
other signiﬁcant psychiatric problems may
need assessment and treatment by a mental
health professional who can treat both
the psychiatric comorbidity and the OUD.
Depending on the severity, they may need
higher levels of mental health services in
a crisis center, emergency department, or
inpatient setting. An addiction psychiatrist can
treat such patients upon discharge.
Signiﬁcant medical comorbidity, including
infections. Severe abscesses, endocarditis, or
osteomyelitis from injecting drugs may require
hospitalization. If hospitalization is necessary,
buprenorphine can be initiated.349 Initiation of
HIV and hepatitis C virus treatments do not
contraindicate buprenorphine treatment.350

Patient Management and
Treatment Monitoring
Base management of OUD on a comprehensive assessment that is updated throughout
treatment (see Part 2 of this TIP for more
information on conducting assessments). Tailor
the management approach to patients’ needs
and goals. Components of the management
approach include:

‡
‡
‡
‡

3-80

A273

The length and frequency of ofﬁce visits.
The length of time between prescriptions or
XR-NTX injections.
The frequency of drug testing.
Ancillary psychosocial and medical treatments
and referrals.

Part 3 of 5—Pharmacotherapy for Opioid Use Disorder

Course of Treatment
The typical course of OUD treatment is
varied. There is often not a direct pathway
from heavy illicit opioid use to no illicit opioid
use.351 Some patients have only occasional
returns to use and do not require reinduction
on buprenorphine or naltrexone. Other patients
may return to use in the context of medication
nonadherence, requiring reinduction and
restabilization on buprenorphine or medically
supervised withdrawal from opioids and an
appropriate period of abstinence before restarting naltrexone. Some patients may have
sustained abstinence and choose to remain on
their maintenance buprenorphine or naltrexone
dose. However, others may try to taper their
buprenorphine dose, discontinue naltrexone,
consider a change in pharmacotherapy (e.g.,
from buprenorphine to naltrexone or naltrexone
to buprenorphine), or attempt maintenance of
remission of OUD without any medication.
Because OUD is often a chronic and relapsing
illness, patients may have different types and

TIP 63

durations of treatment over their lifetimes.
Some may have periods of successful outpatient treatment at different times with all three
available FDA-approved medications for OUD.
Others may experience forced medication
discontinuation (e.g., insurance lapse, time
in controlled environments that disallow or
discriminate against OUD medication, cases in
family and drug courts, parole and probation).
A relative few may remain in remission after
successfully discontinuing medication voluntarily.
Different treatment journeys occur in different
treatment settings (e.g., intensive outpatient,
residential programs) and with different pharmacotherapies and ancillary psychosocial and
recovery support services.
To the extent possible, coordinate primary
care, behavioral health, and wraparound
services needed and desired by the patients
to address their medical, social, and recovery
needs. Individuals with co-occurring physical,
mental, and substance use disorders may beneﬁt
from collaborative care.352

RESOURCE ALERT
Substance Abuse and Mental Health Services Administration (SAMHSA)
Treatment Guidance for Individuals With Co-Occurring Disorders
TIP 42, Substance Abuse Treatment for Persons With Co-Occurring Disorders, provides treatment
strategies for SUD treatment for individuals with mental disorders (https://store.samhsa.gov/shin/content
//SMA13-3992/SMA13-3992.pdf).
General Principles for the Use of Pharmacological Agents To Treat Individuals With Co-Occurring
Mental and Substance Use Disorders offers assistance for the planning, delivery, and evaluation of
pharmacotherapy for individuals with co-occurring mental and substance use disorders (https://store
.samhsa.gov/shin/content//SMA12-4689/SMA12-4689.pdf).
Pharmacologic Guidelines for Treating Individuals With Post-Traumatic Stress Disorder and CoOccurring Opioid Use Disorders is tailored to the provision of medication for OUD to individuals also
diagnosed with posttraumatic stress disorder (https://store.samhsa.gov/shin/content//SMA12-4688
/SMA12-4688.pdf).

3-81

A274

TIP 63

Medications for Opioid Use Disorder

Role of the Treatment Plan and
Treatment Agreement in Medical
Management

If a patient does not discontinue all
illicit drugs for extended periods, it
doesn’t mean treatment has failed
and should not result in automatic
discharge. It means the treatment plan
may require modiﬁcation to meet the
patient’s needs.

The initial treatment plan should include:

‡
‡
‡

Treatment goals.
Conditions for changing or stopping
treatment (the Chapter 3E Appendix has a
sample goal-setting form).
Therapeutic contingencies for nonadherence and failure to meet initial goals, such
as:
− Increase in the intensity or scope of
services at the ofﬁce or through referral.
− More intensive psychosocial treatment,
including inpatient treatment or transfer
to an opioid treatment program (OTP)
for observed buprenorphine dosing if the
ofﬁce-based practice is unable to provide
such services.
− Reassessment to ensure psychiatric and
other comorbid addictions are adequately
addressed via consultation with mental
health, addiction treatment, or pain
management providers as available and
indicated.

Some patients may need a more structured
environment when there is continued opioid
use or comorbid use of substances other than
opioids or when mental disorders are impeding
their progress toward remission and recovery. In
these cases, medication for OUD should not be
interrupted.
Treatment agreements can help clarify expectations for patients and healthcare professionals (see the Chapter 3C Appendix and Chapter
3D Appendix for sample treatment agreement
forms for naltrexone and buprenorphine, respectively). Review and amend treatment plans and
treatment agreements periodically as patients
progress (or destabilize) and new goals emerge.
This will help healthcare professionals across
settings deliver coordinated, effective care.
Updating treatment plans and agreements helps

patients recognize their progress and supports
their motivation to remain engaged. Involving
patients’ support networks makes patients
accountable to a group of caring people rather
than to a single healthcare professional.
Engage patients’ family members and other
recovery supports (with patients’ written
consent) by sharing their treatment goals and
agreements. Identify speciﬁc ways they can
support patients’ goals.353

Medical Management Strategies
Medical management includes:

‡
‡
‡

‡
‡
‡
‡

3-82

A275

Providing brief supportive counseling.
Referring to ancillary psychosocial services.
Referring to psychiatric and medical care if
not directly provided by the healthcare professional prescribing or administering OUD
medication.
Adjusting the frequency of ofﬁce visits.
Conducting drug tests.
Monitoring patient adherence to medication
with occasional observed dosing, random
medication inventorying, or both.
Addressing patient concerns about side effects.
The TIP expert panel recommends
medication management and brief
supportive counseling at each
visit. Refer for adjunctive addiction
counseling and other psychosocial
supports as clinically indicated.

TIP 63

Part 3 of 5—Pharmacotherapy for Opioid Use Disorder

‡
‡

Discussing any concerns with the patient or
their support network.
Prescribing medication for co-occurring
alcohol use disorder (e.g., disulﬁram,
acamprosate).

Referral to counseling and other
psychosocial supports

Strategies for optimizing medical management
and brief supportive counseling involve:

‡
‡

‡

‡
‡

‡
‡
‡

Helping the patient manage stressors and
identify triggers for a return to illicit opioid
use.
Providing empathic listening and nonjudgmental discussion of triggers that precede
use or increased craving and how to manage
them.
Providing ongoing assessment to mark
progress. Revise treatment goals via shared
decision making to incorporate new insights.
(See “Treatment Planning or Referral” in Part
2 of this TIP for more on shared decision
making.)
Providing medical care for comorbid health
conditions.
Referring patients as needed to:
− Adjunctive psychiatric treatment.
− Addiction counseling.
− Case management.
− Community-based recovery support
groups.
Inviting supportive family members and
friends to medical visits to discuss strategies
to support patients.
Engaging and educating family members
and friends who are reluctant to accept
medication’s role in treatment.
Advocating for patients as needed if
their treatment becomes threatened by
their employer, housing provider, insurance
company, the courts, or criminal justice
agencies. These threats, refusal of service, or
frank coercion may constitute potential violations of the Americans with Disabilities Act or
other discrimination or parity violations.

Prescribers of buprenorphine must be able
to refer patients for appropriate adjunctive
counseling and ancillary services as needed
according to federal law.354 (However, patients
can still receive buprenorphine treatment even
if they do not use such services.) There’s no such
referral requirement for naltrexone treatment,
but patients should receive medical management and be referred as needed for adjunctive
addiction, mental health, or recovery services.
To achieve clinical stability and abstinence
from illicit drug use, many patients need
psychosocial counseling and support services
beyond what their buprenorphine prescriber’s
practice offers. For example, patients with
mental disorders (e.g., depression, posttraumatic stress disorder)355 should be assessed
and treated with appropriate medications (as
indicated) and adjunctive mental health services.
Some patients are reluctant to engage in
addiction counseling or recovery support
groups until they stabilize on medication. Once
stabilized, they may see beneﬁts to participating
in these supports. Recommend additional
addiction, mental health, and social services as
appropriate if patients:

‡
‡
‡

Do not achieve full remission.
Continue to misuse nonopioid substances.
Do not reach their treatment goals with
medication management alone.

Behavioral treatment with contingency management (e.g., rewards for illicit drug abstinence)
is highly effective and is offered in some
specialty treatment programs. It can motivate
the patient to reduce illicit drug use, including
opioids and stimulants, and increase medication
adherence.356
Alcoholics Anonymous, Narcotics Anonymous,
Self-Management and Recovery Training, and
other peer recovery support groups can be

3-83

A276

TIP 63

Medications for Opioid Use Disorder

helpful to patients, especially if they ﬁnd
groups with accepting attitudes toward OUD
medication and people who take it. (See Part
5 of this TIP for resources on recovery support
groups.) Some peer recovery support groups
consider patients taking methadone and buprenorphine for OUD treatment as not being
abstinent from opioids. Check with local groups
before referring a patient. Groups not accepting
of OUD medications are not appropriate for
patients taking them. Patients are most likely
to beneﬁt from peer support programs if they
actively participate in offered recovery activities.357
Monitor recovery activities to ensure that
patients are accessing appropriate supports
and are beneﬁting from them (Exhibit 3E.2)

Refer to psychosocial services as appropriate.
Get patient consent to share information and
make provider introductions, just as referrals to
other medical specialists would occur. Strategies
include:

‡

‡

‡

Patients may need many other psychosocial
services. Case managers can help patients
obtain:

‡
‡
‡
‡
‡
‡

Housing support.
Medicaid or other health insurance.
Income support.
Food assistance services.
Vocational and educational services.
Mental health and family therapy.

Referring per program availability, affordability, and patients’ needs, preferences,
and treatment responses. Ensure referrals to
programs that accept and support patients
receiving OUD medication.
If possible, personally introducing patients to
the new behavioral health service providers or
peer recovery support specialists if changing
settings, to encourage a successful transition.
Developing and maintaining a list of referral
resources, including:
− Drug and alcohol counselors.
− Inpatient, residential, and outpatient
addiction counseling programs.
− OTPs.
− Inpatient/outpatient behavioral health
programs.
− Primary care and mental health providers.
− Community-based services.
− Recovery support groups.

EXHIBIT 3E.2. Monitoring Recovery Activities
At medical management visits, do not simply ask about attendance at recovery support meetings—
explore the level of participation and engagement in those activities. Some activities include:

‡ Finding and working closely with a sponsor.
‡ “Working” the 12 Steps at 12-Step meetings and with a sponsor.
‡ Doing service at meetings (e.g., setting up chairs, making coffee, going on a “commitment” to speak at
a meeting in a jail or an inpatient drug and alcohol program).

‡ Having and frequently attending a regular “home” group.

358

Remember this statement from recovery experts A. Thomas McLellan and William White:

Recovery status is best deﬁned by factors other than medication status.
Neither medication-assisted treatment of opioid addiction nor the cessation
of such treatment by itself constitutes recovery. Recovery status instead
hinges on broader achievements in health and social functioning—with or
without medication support.”359

3-84

A277

Part 3 of 5—Pharmacotherapy for Opioid Use Disorder

‡

‡
‡

Using active referral procedures (e.g., linking
patients directly via phone to a speciﬁc
program staff member) instead of passive
ones (e.g., giving a patient a name and a
phone number to call).
Avoiding leaving patients to ﬁnd their own
referrals.
Monitoring patients’ follow-through via phone
contact or at the next ofﬁce visit.

Frequency of medical management visits
The TIP expert panel and the American
Society of Addiction Medicine (ASAM)
recommend that patients be seen approximately once a week until they demonstrate
signiﬁcant reductions in or abstinence from
illicit substance use.360 This is also a time
to ensure adherence to pharmacotherapy.
Nonadherence to naltrexone or buprenorphine
prevents optimal treatment outcomes. In scheduling patient visits, be sensitive to treatment
barriers such as:

‡
‡
‡
‡

Work and childcare obligations.
Cost of care and lack of insurance coverage.
Driving time.
Lack of public transportation to visits, which
may be particularly challenging for patients in
rural areas.

Goals of weekly visits include:

‡
‡
‡
‡
‡

Assessing patients’ clinical needs and
challenges.
Assessing medication effectiveness and side
effects.
Assessing functional status (e.g., home, work,
school).
Assessing and monitoring stress coping
strategies and potential triggers for return to
substance use.
Assessing adherence to the recommended
frequency of attendance for XR-NTX injections
or the prescribed buprenorphine dosing
regimen and responsible handling of the
medication (e.g., safely storing out of reach
of children, taking as prescribed, not sharing
or losing it).

‡

‡

TIP 63

Monitoring use of alcohol and illicit drugs
and ensuring adequate therapeutic dosing
(e.g., opioid blockade if there is ongoing illicit
opioid use and adherence to medication).
Following up on any referrals made, such
as adjunctive counseling, recovery support
groups, or other psychosocial services (the
Chapter 3E Appendix has a sample medical
management visit form).

Once patients adhere to therapeutic doses
of OUD medication, decrease illicit drug and
alcohol use, and increase negative opioid
toxicological samples, consider less frequent
visits. Monthly visits (or less for carefully selected
patients who have been stable on buprenorphine
for extended periods with adequate support)
are reasonable for patients taking naltrexone
or buprenorphine who show progress toward
treatment objectives. Indications that a patient is
ready to come less than weekly include:

‡
‡
‡
‡
‡
‡
‡

Several weeks of illicit opioid abstinence
based on self-report and negative drug tests.
Adherence to appointments and treatment
plan.
No ongoing drug use that may risk patient
safety (e.g., alcohol or benzodiazepine misuse).
Absence of signiﬁcant medication side effects.
Stable mental health and medical conditions.
Responsible handling of medication (e.g., safe
storage, no requests for early reﬁlls).
Absence of unexpected controlled medication
prescriptions from other providers in the
PDMP.

As visits become less frequent, consider
random urine drug testing, medication counts
(buprenorphine tablets or ﬁlms), and involvement of network supports if available.
Buprenorphine implants are indicated only for
stable patients already taking transmucosal
buprenorphine with positive treatment
response. Extended-release buprenorphine
is indicated for patients treated with transmucosal buprenorphine for at least 1 week. It’s
expected that patients with the implants or those

3-85

A278

TIP 63

Medications for Opioid Use Disorder

Visit frequency should not depend
only on dosing schedule for longacting OUD medications. Also consider
patients’ treatment needs, preferences,
and responses. To ensure continued
engagement, consider adding to the
treatment agreement the expected
visit frequency and f requency of
other ancillary treatments tailored to
patients’ needs, goals, and preferences.
treated with extended-release buprenorphine
will receive medication management services
with visits approximately weekly at the start
and then less frequently as clinically indicated
based on patient treatment response. Likewise,
patients treated with XR-NTX should be seen
more than once per month when initiating the
medication to monitor progress and assess and
address any side effects.

Drug testing in ongoing medical management
Ongoing clinical monitoring that includes
drug testing of urine or oral ﬂuid specimens
is part of good practice. Objective evidence of
any ongoing illicit substance use is important to
consider along with patient reports. Patients may
not wish to disclose recent drug use because
of shame, fear of punishment, or even fear of
discharge from treatment.
Explain to patients that testing will help them
meet treatment goals and is not performed to
render punishments. Results help:

‡
‡
‡
‡

Detect medication nonadherence that could
cause harm (e.g., unintentional overdose).
Monitor abstinence and response to medication treatment.
Counsel and improve treatment plans.
Detect a return to illicit opioid use or other
substance use.

The TIP expert panel recommends periodic
random testing. Drug testing frequency should
be clinically determined. It should occur at least
at the time of the initial evaluation and initiation
of medication (naltrexone, buprenorphine) and
at a frequency consistent with ofﬁce visits (e.g.,
weekly initially).
Point-of-service tests give immediate results,
allowing ﬁndings and implications to be
discussed with patients during visits. However,
some circumstances require conﬁrmatory laboratory testing, such as when the patient contests
the results and when testing for employment or
legal monitoring. In these cases, samples may
need to be collected and sent to a Department
of Health and Human Services-certiﬁed laboratory under strict chain-of-custody procedure. In
addition, norbuprenorphine may not be available
in point-of-service tests and therefore, periodically, a specimen should be sent to a laboratory
for testing. Important aspects of testing include:

‡
‡
‡
‡
‡
‡
‡

Testing technology.
The cutoffs for positive tests.
Any administrative requirements.
Time windows to detect a positive result.
Cross-reactivity, sensitivity, and speciﬁcity.
Test interpretation. (See Part 2 for more
information about how to interpret drug
testing results.)
Consideration of panels based on drugs most
commonly used in the region.

Conduct point-of-service drug tests following
the manufacturer’s instructions. Use Clinical
Laboratory Improvement Amendments-waived
testing kits. A provider’s ofﬁce must enroll and
pay a modest fee for certiﬁcation. The application is available online (www.cms.gov/Medicare
/CMS-Forms/CMS-Forms/downloads/cms116
.pdf).

3-86

A279

Part 3 of 5—Pharmacotherapy for Opioid Use Disorder

TIP 63

Sample collection via oral swab is straightforward;
follow the manufacturer’s directions. If collecting
urine samples, take steps to reduce the
likelihood of tampering. In settings that treat
many patients or treat patients potentially facing
criminal justice sanctions, consider taking these
measures:

morphine (e.g., codeine, heroin). Semisynthetic
and synthetic opioids, such as methadone,
buprenorphine, and others (e.g., fentanyl,
oxycodone), are not metabolized to morphine
and do not test positive on most opiate tests.
Speciﬁc point-of-service tests exist for these
opioids.

‡

Some point-of-service and laboratory tests can
detect methadone, buprenorphine, and other
opioids. Patients taking buprenorphine should
have buprenorphine speciﬁcally included in their
urine test panel to assure the prescriber that the
patient is indeed taking the medication. Some
patients may put some of their buprenorphine
in the urine to mask nonadherence. Periodically
testing for a buprenorphine metabolite (e.g.,
norbuprenorphine, buprenorphine glucuronide)
is advised.

‡
‡
‡

Have patients visit the bathroom alone,
without bags or jackets, to deter use of
another person’s urine specimen.
Set the sink to run only cold water and use a
colored toilet bowl cleaner to prevent dilution
of urine specimens.
Use specimen cups with speciﬁc gravity
testing, if possible, to identify diluted
samples.
Use temperature-sensitive strips in collection
cups to identify tampered specimens.

Assessing buprenorphine adherence

Ongoing positive opioid tests during
treatment indicate the need to reassess
the patient and revise the treatment plan.
Repeated positives may indicate that patients:

‡
‡
‡
‡
‡
‡

Are not taking some or all of their medication
or may be taking the medication incorrectly.
Need a different medication.
Need directly observed medication administration in the ofﬁce or at an OTP.
Need a buprenorphine dose increase.
Need more counseling or a higher level of a
specialty addiction treatment program.
Need to participate in recovery support
services.

For more information on drug testing in the
primary care setting, see Technical Assistance
Publication 32, Clinical Drug Testing in Primary
Care361 (https://store.samhsa.gov/shin/content
//SMA12-4668/SMA12-4668.pdf) and ASAM’s
Consensus Statement on Appropriate Use of
Drug Testing in Clinical Addiction Medicine.362

Opioids and opiates in point-of-service tests
Point-of-service and laboratory screening tests
for opiates only test for opioids metabolized to

Medication nonadherence and diversion can
signal inadequately treated OUD (e.g., return
to use with positive urine drug tests). Assess
such behaviors clinically and develop therapeutic
responses to them.
Remember that nonadherence, misuse, and
diversion occur with other medications as
well—those with and without abuse potential.
For instance, it’s clear that opioid analgesics
have been overprescribed for pain, misused,
and diverted; they have contributed to deaths
among individuals prescribed as well as those
not prescribed these medications. Antibiotics for
bacterial infections are also overprescribed, and
patient nonadherence (e.g., not completing the
full course), misuse (e.g., saving leftover medication for a later self-diagnosed and self-treated
infection), and diversion (e.g., giving leftover
medication to ill family members or friends) can
cause signiﬁcant public health harm, given the
spread of drug-resistant bacteria. Medication
nonadherence has largely fueled development
of longer acting medications (e.g., depot antipsychotics, long-acting contraceptives, XR-NTX,
buprenorphine implants).

3-87

A280

TIP 63

Medications for Opioid Use Disorder

Strategies for addressing medication nonadherence and diversion include carefully
assessing the patient to understand underlying causes of the behavior. Address these
causes and monitor adherence. For instance,
if a patient gives his or her medication to a
relative on a waiting list for treatment, getting
the relative into treatment can help that patient
become adherent. Monitor adherence by:

‡
‡
‡
‡
‡
‡
‡
‡
‡

buprenorphine dose taper plan, if needed, and
a robust plan to sustain recovery and reengage
in treatment before any return to substance
use. Before patients begin a buprenorphine
dose taper or discontinue XR-NTX, they should
demonstrate:

Asking patients to bring their unused medication into the ofﬁce for counting.
Increasing the frequency of ofﬁce visits.
Increasing urine drug testing.
Talking with family members or signiﬁcant
others.
Writing prescriptions for shorter duration.
Observing medication administration at the
ofﬁce, pharmacy, or OTP.
Checking urine for buprenorphine and its
metabolites.
Checking the PDMP.
Avoiding doses over 24 mg (save in rare
cases).

Chapter 3D Appendix includes a sample patient
urine drug screen and medication count form, as
well as a pharmacy tablet/ﬁlm count form.
If these steps have no positive effect, patients
may need referral to higher levels of care
at OTPs or residential addiction treatment
programs. Different formulations or pharmacotherapy may need to be considered.363 If a
change in setting is required, consider patients
for return to OBOT once they stabilize.

Discontinuing medication for OUD
Patients should decide whether to taper off
or discontinue pharmacotherapy with the
support of their healthcare professional and,
if applicable, their addiction or mental health
counselor, family, and peer recovery supports
(e.g., peer support specialist, recovery coach).
If patients’ goals include stopping medication,
discuss the risks and beneﬁts of discontinuing.
Work closely with patients to develop a

‡
‡
‡
‡
‡

Medication adherence.
Abstinence from illicit opioid use.
A stable living environment.
Social support.
Sustained improvements in functioning at
home and at school or work.

Consider treatment with XR-NTX following
successful taper from an opioid agonist or partial
agonist (after an appropriate period of abstinence). Data are limited on the effectiveness of
this approach.
The TIP expert panel recommends that
providers not discharge patients from
treatment solely because of continued
illicit opioid use if the beneﬁts of treatment
continue to outweigh the risks. If risks
outweigh beneﬁts or alternative treatments may
offer more beneﬁt, refer patients to alternative
treatment (e.g., OTP). Discharging patients
without attempting meaningful referral when
illicit opioid use is ongoing can worsen the
patient’s condition and may be considered
patient abandonment.

Forced tapers or abrupt discontinuation
Forcing a patient to taper off of medication
for nonmedical reasons or because of ongoing
substance misuse is generally inappropriate.
Many patients are abruptly discontinued or
tapered from OUD medication against their will

3-88

A281

Do not require discontinuation
of pharmacotherapy because of
incomplete treatment response. Doing
so is not a rational therapeutic response
to the predicted course of a chronic
condition.

TIP 63

Part 3 of 5—Pharmacotherapy for Opioid Use Disorder

while detained or awaiting trial. A randomized
trial of continuing versus tapering off methadone
for detainees found that those who kept taking
medication in detention were signiﬁcantly more
likely to return to treatment on release.364 It’s
likely that the same holds true for forced discontinuation from buprenorphine during detention.
As is sometimes the case in general medical
practice, patients who are unable to pay
their bills should not be discontinued from
treatment without attempting meaningful
referral. Attempt referrals to publicly funded
addiction treatment services (e.g., specialty
treatment programs, federally qualiﬁed health
centers). If patients cannot continue treatment
because of inability to pay, providers can contact
the pharmaceutical company about patient
assistance programs to help defer the cost of
medications.
Forced dose tapers against the patient’s
desire may be clinically indicated when risks of
treatment outweigh beneﬁts or, in unusual cases,
where the patient has been violent toward staff
or other patients. In these cases, attempt to
place the patient in a higher level of care and
document the attempt. In some circumstances,
forced tapering or abrupt discontinuation may
violate the Americans with Disabilities Act.
The Legal Action Center (www.lac.org) and
the National Alliance for Medication Assisted
Recovery (www.methadone.org) offer information on how to legally manage forced tapers.

Patient follow-up
Medical management should not end when
patients taper off of medication. The TIP
expert panel recommends regular follow-up
visits (or phone checkups by clinical staff or
recovery support specialists) to help patients
manage their condition, address potential
concerns about returning to illicit opioid use, and
discuss reinitiating OUD maintenance medication
if warranted. Attendance at drug counseling
or mutual-help groups can be helpful, as can
periodic drug testing.

Administrative Considerations
Patient Limits
Physicians
After taking the necessary training, qualiﬁed
physicians can obtain waivers to prescribe
buprenorphine to up to 30 active patients at
any one time. Such providers may apply to
SAMHSA to increase their patient limit to up to
100 patients if they’ve had a waiver for at least
1 year. Physicians with a waiver to prescribe to
up to 100 patients for at least 1 year may apply
to SAMHSA to prescribe to up to 275 patients
under more restrictive conditions. More information on patient limits and applying for limit
increases is available from SAMHSA (www
.samhsa.gov/sites/default/ﬁles/programs
_campaigns/medication_assisted/understanding
-patient-limit275.pdf).

Nurse practitioners and physician assistants
Qualiﬁed nurse practitioners and physician
assistants can obtain waivers to prescribe
buprenorphine to up to 30 patients the ﬁrst year
and 100 patients thereafter. These practitioners
must complete 24 hours of additional training
to qualify. More information is available from
SAMHSA (www.samhsa.gov/medication-assisted
-treatment/qualify-nps-pas-waivers).

Diversion Control Policies for OBOT With
Buprenorphine
Controlled substance diversion refers to unauthorized provision of medication to someone
for whom it was not prescribed.365 Patients may
divert buprenorphine for various reasons, such
as:

‡
‡
‡

To “help” someone who needs medically supervised withdrawal or awaits treatment.366,367
To provide income for the seller.
To enable someone else to experience the
euphoric effect of the medication.368

3-89

A282

TIP 63

Medications for Opioid Use Disorder

‡

Address diversion of controlled substances
with patients using the following strategies:

‡

‡

‡

‡

Clarify that continuing in ofﬁce-based
treatment depends largely on taking medication as prescribed; nonadherence and
diversion are thus problematic.
In a nonjudgmental way, discuss to whom
within their network of family, friends, and
acquaintances they might be tempted to
divert their medication and why they might be
tempted to do so.
Instruct patients to store medication
securely (children may inadvertently ingest it
and overdose, or other people may take the
medication for their own use or to sell).369
− Discuss patients’ plans to safely store
buprenorphine. Advise patients to keep
the medication in the original packaging
and out of the reach of children.370
− Tell patients not to store their medication
in common areas (e.g., kitchen, bathroom)
where others may access it.
− Educate patients that any portion of a dose
taken by a child or pet can be deadly and
that they should call 9-1-1 immediately if
this occurs.
Explain how diversion causes negative views
of treatment, leading to discrimination against
people with OUD. Therefore, healthcare professionals must proactively address diversion
to help prevent it.

Possible signs that a patient is diverting buprenorphine371 include:

‡
‡
‡
‡
‡
‡

Frequently missed appointments.
Requests for early reﬁlls because medication
was reportedly lost or stolen.
Negative buprenorphine urine screens.
Positive buprenorphine urine screens that are
negative for buprenorphine metabolites.
Speciﬁc requests for the buprenorphine
monoproduct owing to naloxone allergy.
Speciﬁc requests for doses of buprenorphine
greater than 24 mg/6 mg.

‡

PDMP shows prescription ﬁlls for opioids or
other medications that are not positive on his
or her drug tests.
Failed ﬁlm/pill callback counts.

Establish a diversion control plan to minimize
OUD medication diversion. The plan provides
measures to reduce diversion and assigns
speciﬁc responsibility to medical and administrative staff members for carrying out these
measures.372 It should address medication
storage, dispensing and administration (if
applicable), and prescribing373 (see the Chapter
3E Appendix for a sample diversion control
policy). For providers who store buprenorphine
for administration and dispensing, plans should
indicate how they will control diversion and which
approaches they will use to ensure that patients
take their medication. Exhibit 3E.3 summarizes
key elements of a diversion control plan.
Physicians who prescribe buprenorphine to
more than 100 patients need a diversion
control plan. Document diversion incidents and
responses to incidents in the patient record.
More information about Drug Enforcement
Administration (DEA) requirements for Drug
Addiction Treatment Act of 2000 (DATA 2000)waivered healthcare professionals is available
online (www.deadiversion.usdoj.gov/pubs/docs
/dwp_buprenorphine.htm).

Storage of Buprenorphine
Practices that store buprenorphine onsite
must have appropriate security, which includes
storing the medication in a securely locked,
substantially constructed cabinet.374 If a signiﬁcant amount of stored buprenorphine is lost or
stolen, providers must notify the local DEA ofﬁce
in writing within 1 business day and complete a
Form DEA-106 (https://apps.deadiversion.usdoj
.gov/webforms/dtlLogin.jsp).
Employees convicted of a felony related to
a controlled substance or who had a DEA
registration denied, revoked, or surrendered
“for cause” are not permitted to have access
to buprenorphine.

3-90

A283

TIP 63

Part 3 of 5—Pharmacotherapy for Opioid Use Disorder

EXHIBIT 3E.3. Key Elements of an OBOT Clinic Diversion Control Plan375
New Patients

Ongoing Patients

Check the state’s PDMP before admission
to determine whether patients are receiving
opioids or benzodiazepine prescriptions from
other providers.

Periodically check the state’s PDMP.
Conduct random urine tests that include
a wide spectrum of opioids—including
morphine, oxycodone, and buprenorphine—and
periodically include buprenorphine metabolites.
This will help monitor response to treatment and
determine whether patients are taking at least
some of their prescribed buprenorphine.

Ask patients to sign a release of information to
speak with the other prescribers. Patients who
are unwilling to sign a release of information are
poor candidates for outpatient treatment.

Use unobserved specimen collection to
preserve patient privacy and dignity:

Review the clinic diversion control policy with
new patients. This should include counseling
patients to:

‡ Do not let patients bring backpacks, jackets, or

‡ Keep buprenorphine locked up and out of
‡
‡
‡
‡
‡

‡
‡

children’s reach.
Never share medication with anyone.
Never sell medication to anyone.
Acknowledge giving or selling medication to
others as illegal.
Take medication only as prescribed.
Review, understand, and agree to the
practice’s buprenorphine treatment
agreement before they start.

Use observed specimen collection (obtained by
a staff member of the same gender) or oral ﬂuid
testing if there is reason to suspect tampering or
falsiﬁcation.
Contact patients at random; ask them to bring
in their medication within a reasonable period
(24 to 48 hours) to count the tablets/ﬁlms to
ensure that all medication is accounted for.

Prescribe buprenorphine/naloxone when
possible rather than monoproduct. Exceptions
include prescribing the monoproduct for
pregnant women with OUD.

Provide a limited number of days of medication
per prescription without reﬁlls (e.g., several days
or 1 week per prescription) until the patient has
demonstrated stability and lowered diversion
risk.

Prescribe an adequate but not excessive dose.
Most patients respond to doses at or below
24 mg per day. Carefully evaluate requests
for higher doses and conﬁrm, document, and
assess medication adherence continuously.

Records for Dispensers

The diversion control plan should include
approaches to ensuring that patients take the
medication and do not divert it to others.

Ofﬁce-based practices that dispense buprenorphine must keep records of:376

‡
‡
‡

other items into the bathroom.
Do not let others enter bathrooms with patients.
Temperature test the urine sample.

The number of units and doses dispensed
with the names and addresses of the patients.
The dates the medication was dispensed.
The names (or initials) of the staff members
who dispensed or administered the
medication.

Recordkeeping for ordering, storing, and
dispensing buprenorphine in the o ce
All prescribers and staff members must follow
federal and state laws for ordering, storing,
administering, and dispensing buprenorphine
in outpatient settings. Records of inventories of

3-91

A284

TIP 63

Medications for Opioid Use Disorder

medication received, dispensed, destroyed, and
lost or stolen must be maintained. For guidance
on how to comply with federal requirements, see:

‡
‡

Diversion Control Division’s Practitioner’s
Manual (www.deadiversion.usdoj.gov/pubs
/manuals/pract).
FDA Recordkeeping Requirements for
Buprenorphine Treatment (www.buppractice
.com/node/12246).

Recordkeeping for prescribing buprenorphine
Consider writing an initial prescription for
only a few days. An example of a 1-day in-ofﬁce
induction prescription is:
Buprenorphine/naloxone 2mg /0.5 mg:
Dispense #4 for in-ofﬁce induction, no
reﬁlls, ﬁll on __________________________
[insert date that is 1 day before the
scheduled induction to make it less
tempting for patients to use on their
own before induction]

Clinics that provide buprenorphine or
naltrexone do not need special emergency
protocols, crash carts, or other special
equipment. However, for patient safety, the TIP
expert panel recommends having injectable or
intranasal naloxone onsite. Clinics that administer XR-NTX or buprenorphine should have a
written policy and procedure for responding
to precipitated withdrawal and medication
allergies.
On-call services and backup during absences
should be available either directly or through
contracts or cooperative agreements with other
local providers with waivers. Qualiﬁed medical
staff can offer routine medical and psychiatric
coverage even without a buprenorphine waiver.

Recommendations for Sta
Member Training

Keep a log for possible DEA inspection that
includes:

‡
‡
‡

Emergency Protocols and Patient
Safety Measures

Patients’ names (or ID numbers).
Dates of prescriptions.
The names, strengths, and quantities of the
medications.

Although not required, such a log facilitates
inspection and indicates that the provider is
within the approved patient limits. Alternatively,
electronic health records can be used for this
purpose.

All staff members who interact with patients
are part of the treatment environment. They
can affect patients’ treatment experiences and,
ultimately, their outcomes. Staff members who
interact with patients can include receptionists,
billing clerks, urine specimen collection clerks,
and all clinical staff members. Therefore, it is
useful to educate and train all staff members
in key areas, including:

‡
‡

DEA Inspections
Under DATA 2000, DEA must ensure that
providers administering, dispensing, or prescribing buprenorphine are following recordkeeping,
security, and other requirements. To fulﬁll this
requirement, DEA conducts routine, unannounced onsite inspections. A description
of the inspection process and how to comply
with its requirements is available online (https://
pcssmat.org/wp-content/uploads/2014/02/FINAL
-How-to-Prepare-for-a-DEA-Inspection.pdf).

‡

3-92

A285

Organizational mission.
The scientiﬁc and empirical underpinnings
for the use of FDA-approved medications for
OUD, how these medications work, and the
evidence for their effectiveness.
The similarity of medical management and
support of patients with OUD to that of
patients with other chronic illnesses.
Providers who give more than 100
patients buprenorphine must have oncall services. Such services are valuable
regardless of the number of patients in
treatment.

TIP 63

Part 3 of 5—Pharmacotherapy for Opioid Use Disorder

‡
‡
‡
‡

‡
‡

The importance of maintaining a nonjudgmental and welcoming attitude toward patients.
How to hold discussions about negative
perceptions and prejudices associated with
OUD.
Side effects of OUD medications and procedures to alert staff members when patients
exhibit them.
The effect of OUD and other substance use
and mental disorders (including posttraumatic
stress disorder) on patients’ behavior and how
staff members can respond appropriately.
Procedures for seeking help from other staff
members to deescalate disagreements or
solve problems.
Procedures for protecting patients’ conﬁdentiality and safety.

focus on the rewarding aspects of developing
long-term relationships with patients as they
work to overcome negative effects of OUD on
their lives and improve their health.

Treating OUD can be a challenging yet
rewarding part of a clinical practice.
Addressing key administrative issues keeps the

RESOURCE ALERT
Training and Mentorship for
Prescribers
The Providers’ Clinical Support System, with the
American Academy of Addiction Psychiatry as
the lead organization along with partners from
ASAM and other professional organizations,
delivers education, training, and mentorship
to providers who wish to treat OUD with
medications. More information about training
and professional mentorship is available online
(http://pcssmat.org).

3-93

A286

TIP 63

Medications for Opioid Use Disorder

Chapter 3E Appendix
Sample Goal-Setting Form
Patient’s Name: ________________________________________________________________

CURRENT
SITUATION SCORE
GOAL CATEGORY

10 = major problems
and 0 = no problems

PRIORITY SCORE
What would need
to change to decrease
this score?

Opioid use
Other illicit drug use: ______________
Alcohol use
Tobacco use
Physical health
Mental health
Legal/court issues
Finances
Job/employment
Hobbies
Family relations
Partner relations
Supportive drug-f ree network
Education
Keeping medication safe
(e.g., not giving it away, selling it,
having it stolen)
Other
Other
M. Lofwall, February 27, 2017 (personal communication). Adapted with permission.

3-94

A287

Date: _________________________

10 = highest priority (“I really
want to work on this”) and
1 = lowest priority (“I really do
not want to work on this”)

TIP 63

Part 3 of 5—Pharmacotherapy for Opioid Use Disorder

Sample Medical Management Visit Form
Patient’s Name: ___________________________________________________________
Date: ____________________

Week#: _________

ID#____________________________

Dose: ________ mg

□ No Show

Heroin/cocaine or other illicit drug use since last visit?
________________________________________________________________________________________________________________
Symptoms or signs that might indicate return to use (e.g., changes in mood, physical appearance)?
________________________________________________________________________________________________________________

Since the last visit, are there any problems with the following:
If yes, explain
Drug Use
Alcohol Use
Psychiatric
Medical
Employment
Social/Family
Legal

□ Yes
□ Yes
□ Yes
□ Yes
□ Yes
□ Yes
□ Yes

□ No
□ No
□ No
□ No
□ No
□ No
□ No

Any new problem to add to Treatment Plan Review?

□ Yes □ No

________________________________________________________________________________________________________________
Plan to address any new problem _________________________________________________________________________________
________________________________________________________________________________________________________________
Participation in Narcotics Anonymous or Alcoholics Anonymous since last visit?
Length of Session: ________________

□ Yes □ No

Healthcare Professional Signature: ___________________________________________

D. Fiellin, December 3, 2016 (personal communication). Adapted with permission.

3-95

A288

TIP 63

Medications for Opioid Use Disorder

Sample Buprenorphine Diversion Control Policy
XYZ Medical Practice
Ofﬁce-Based Opioid Use Disorder Policy and Procedure Manual
Policy Title:

Diversion Control for Patients Prescribed Transmucosal (Sublingual) Buprenorphine

Effective Date:

______________________ (Month, Day, Year)

This Diversion Control Policy is provided for educational and informational purposes only. It is intended to offer healthcare
professionals guiding principles and policies regarding best practices in diversion control for patients who are prescribed
buprenorphine. This policy is not intended to establish a legal or medical standard of care. Healthcare professionals should
use their personal and professional judgment in interpreting these guidelines and applying them to the particular circumstances of their individual patients and practice arrangements. The information provided in this Policy is provided “as is”
with no guarantee as to its accuracy or completeness.
Preamble: Healthcare professionals can now treat up to 275 patients with buprenorphine. This increased access may contribute to increased diversion, misuse, and related harms. Signs that a patient is misusing or diverting buprenorphine include (1)
missed appointments; (2) requests for early reﬁlls because pills were lost, stolen, or other reasons; (3) urine screens negative
for buprenorphine, positive for opioids; (4) claims of being allergic or intolerant to naloxone and requesting monotherapy;
(5) nonhealing or fresh track marks; or (5) police reports of selling on the streets. Likewise, there are a range of reasons for
diversion and misuse (e.g., diverting to family/friends with untreated opioid addiction with the intent of trying to “help”
convince them to also get treatment; diverting to family/friends on a treatment waiting list; selling some or all of the
medication to pay off old drug debts/purchase preferred opioid of misuse/pay for treatment in places where there are
inadequate addiction treatment professionals taking private insurance or Medicaid for such reasons as inadequate reimbursement/no reimbursement/burdensome prior authorization process).
The safety and health of patients and others in the community could be at risk if misuse and diversion are not addressed
proactively throughout treatment. The reputation of XYZ Medical Practice may also be put at risk.
Deﬁnitions: Diversion is deﬁned as the unauthorized rerouting or misappropriation of prescription medication to someone
other than for whom it was intended (including sharing or selling a prescribed medication); misuse includes taking medication in a manner, by route or by dose, other than prescribed.377
Purpose: Misuse and diversion should be deﬁned and discussed with patients at the time of treatment entry; periodically
throughout treatment, particularly when there have been returns to illicit drug use; and when suspected (e.g., incorrect
buprenorphine pill/ﬁlm count) or conﬁrmed. These procedures will establish the steps to be taken to prevent, monitor, and
respond to misuse and diversion of buprenorphine. The response should be therapeutic and matched to the patients’ needs,
as untreated opioid use disorder and treatment dropout/administrative discharges may lead to increased patient morbidity
and mortality and further use of diverted medications or illicit opioids associated with overdose death.

Procedures for Prevention:
‡ Use buprenorphine/naloxone combination products when medically indicated and cost is not an issue. Reserve

the daily buprenorphine monoproducts for pregnant patients and patients who could not afford treatment if the
combination product were required, who have a history of stability in treatment and low diversion risk, or who have
arrangements for observed dosing. Buprenorphine monoproducts are recommended for pregnant women.
‡ Counsel patients on safe storage of, and nonsharing of, medications. Patients must agree to safe storage of their
medication. This is even more critical if there are children in the home where the patient lives. Counsel patients
about acquiring locked devices and avoiding storage in parts of the home frequented by visitors (e.g., do not
recommend storage in the kitchen or common bathrooms). Proactively discuss how medication should be stored and
transported when traveling to minimize risk of unintended loss.
‡ Counsel patients on taking medication as instructed and not sharing medication. Explicitly explain to patients the
deﬁnitions of diversion and misuse, with examples. Patients are required to take medication as instructed by the
healthcare professional; for example, they may not crush or inject the medication.
‡ Check the prescription drug monitoring program for new patients and check regularly thereafter. Prescription drug
monitoring program reports can be a useful resource when there is little history available or when there is a concern
based on observation. Check for prescriptions that interact with buprenorphine and for other buprenorphine
prescribers.

3-96

A289

Part 3 of 5—Pharmacotherapy for Opioid Use Disorder

TIP 63

‡ Prescribe a therapeutic dose that is tailored to the patient’s needs. Do not routinely provide an additional supply

“just in case.” Question patients who say they need a signiﬁcantly higher dose, particularly when they are already at
24 mg per day of buprenorphine equivalents.
‡ Make sure the patient understands the practice’s treatment agreement and prescription policies. The XYZ Medical
Practice’s treatment agreement and other documentation are clear about policies regarding number of doses in
each prescription, reﬁlls, and rules on “lost” prescriptions. Review the policies in person with the patient. Offer an
opportunity for questions. Patient and provider must sign the agreement. Review the policies again with the patient
at subsequent appointments. See Sample Buprenorphine Treatment Agreement or Sample XR-NTX Treatment
Agreement as needed.

Procedures for Monitoring:
‡ Request random urine tests. The presence of buprenorphine in the urine indicates that the patient has taken some

‡
‡
‡

‡

portion of the prescribed dose. Absence of buprenorphine in the urine supports nonadherence. Testing for buprenorphine metabolites (which are present only if buprenorphine is metabolized) should periodically be included to
minimize the possibility that buprenorphine is added directly to the urine sample. Dipstick tests can be subverted or
replaced. A range of strategies can be used to minimize falsiﬁed urine collections, including (1) observed collection;
(2) disallowing carry-in items (e.g., purses, backpacks) in the bathroom; (3) turning off running water and coloring
toilet water to eliminate the possibility of dilution; (4) monitoring the bathroom door so that only one person can go
in; and (5) testing the temperature of the urine immediately after voiding.
Schedule unannounced pill/ﬁlm counts. Periodically ask patients who are at high risk at initial or subsequent appointments to bring in their medication containers for a pill/ﬁlm count.
With unannounced monitoring (both pill/ﬁlm counts and urine tests), the patient is contacted and must appear within
a speciﬁed time period (e.g., 24 hours) after the phone call. If the patient doesn’t show, then the provider should
consider this as a positive indicator of misuse or diversion.
Directly observe ingestion. Patients take medication in front of the healthcare professional or another qualiﬁed
clinician and are observed until the medication dissolves in the mouth (transmucosal [sublingual or buccal] absorption). Patients who are having difﬁculty adhering to their buprenorphine can have their medication provided under
direct observation in the ofﬁce for a designated frequency (e.g., three times/week).
Limit medication supply. When directly observed doses in the ofﬁce are not practical, short prescription time spans
can be used (e.g., weekly, 3 days at a time).

Procedures To Respond to Misuse or Diversion:
Misuse or diversion doesn’t mean automatic discharge from the practice. However, it will require consideration of one or
more of the following procedures:

‡ Evaluate the misuse and diversion. For instance, describe the incident of misuse (e.g., “the patient took the pre-

scribed dose on three or more occasions by intravenous route immediately after starting treatment, stating that she
believed the dose would not be adequate by sublingual route; she has just initiated treatment”) or diversion (“the
patient gave half of dose to his wife, who is still using heroin and was withdrawing, because he did not want her to
have to buy heroin off the street; she is on a waiting list for treatment”) and tailor the response to the behavior (e.g.,
reeducation of the patient on buprenorphine pharmacology in the ﬁrst example above; assistance with treatment
entry for the spouse in the second example). Reassess the treatment plan and patient progress. Strongly consider
smaller supplies of medication and supervised dosing for any patient who is taking medication intravenously or intranasally or diverting, regardless of reason. Treatment structure may need to be increased, including more frequent
appointments, supervised administration, and increased psychosocial support.
‡ Intensify treatment or level of care, if needed. Some patients may require an alternative treatment setting or pharmacotherapy such as methadone. The clinician will discuss these alternatives with the patient to ensure optimal patient
outcome. This should be discussed at treatment onset so the patient is aware of the consequences of misuse and
diversion.
‡ Document and describe the misuse and diversion incident. Also document the clinical thinking that supports the
clinical response, which should be aimed at minimizing risk of diversion and misuse and treating the patient’s opioid
use disorder at the level of care needed.
Policy adapted from ASAM’s Ofﬁce-Based Opioid Use Disorder Policy and Procedure Manual, which is updated periodically;
the most current version is available online (https://www.asam.org/docs/default-source/advocacy/sample-diversion-policy
.pdf?sfvrsn=6).
Adapted with permission.378

3-97

A290

This page intentionally left blank.

A291

TIP 63

Part 3 of 5—Pharmacotherapy for Opioid Use Disorder

Chapter 3F: Medical Management of
Patients Taking OUD Medications in
Hospital Settings
Chapter 3F guides the management of patients taking OUD medications in hospital
settings. The audience is healthcare professionals in emergency, general medical, surgical,
psychiatric, and obstetric units.

23,2,' 5(/$7('

Patients with opioid use disorder (OUD) who
present to emergency departments (EDs) or
are admitted to hospitals for acute medical or
psychiatric care can beneﬁt from medication
to treat OUD in the hospital setting. During
acute medical illness, patients experiencing
consequences of opioid use may be motivated
to change.379 Hospital-based providers can take
this opportunity to initiate long-term medication
maintenance.380,381
Unfortunately, less than one-quarter of patients
with an opioid-related hospitalization are offered
Food and Drug Administration-approved medication for OUD within 30 days of discharge.382
Patients who already take OUD medication
may also present to the hospital. Thus, a broad
understanding of how to manage their OUD
medication during hospitalization is necessary.

LQSDWLHQW KRVSLWDO VWD\V

,1&5($6('
QDWLRQDOO\ IURP

Hospitalized or ED Patients Taking
Medication for OUD

The keys to effective patient management in
general hospital settings are:

Buprenorphine, methadone, and naltrexone may
be ordered in EDs or inpatient hospital units. It’s
essential for the patient to continue receiving
OUD medication while hospitalized.

‡

Pain Management

‡
‡

Balancing pharmacotherapy for OUD with
other medical concerns (e.g., surgery, pain
management) during hospitalization.
Careful management after discharge.
Seamless transfer to opioid treatment via
an opioid treatment program (OTP) or ofﬁcebased opioid treatment (OBOT) provider after
discharge.

Pain management for hospitalized patients
who take OUD medication is a key element of
medical management. Discuss pain management and engage in a shared decision-making
process with patients being treated for OUD
with buprenorphine, methadone, or naltrexone.
Patients may have strong preferences and

3-99

A292

TIP 63

Medications for Opioid Use Disorder

opinions about pain and use of opioid analgesics
for pain treatment. Some patients may want to
avoid opioid analgesics. For others, inadequately
treated pain may be a trigger for illicit drug
use. Involve primary care pain specialists and
addiction treatment providers in discussing
options for managing OUD medication and pain
during patient hospitalization.

Patients with pain may continue their
buprenorphine while in the hospital. For
mild-to-moderate pain, dividing the patient’s
usual buprenorphine dose three times per day
(TID) may provide sufﬁcient pain relief. 385 In
some cases, increased buprenorphine dose
may be appropriate. For moderate-to-severe
pain, additional analgesia will be necessary.
Two approaches to consider:

Buprenorphine

1.

Continue buprenorphine treatment and
use full agonist opioids for added pain
relief. Because of the partial blockade
caused by buprenorphine, higher-than-usual
doses of opioids will probably be required
for pain relief. Fentanyl, hydromorphone,
and morphine have relatively high binding
afﬁnities for the mu-opioid receptor and are
most likely to displace buprenorphine from
receptors and provide improved analgesia.
Once the painful condition has improved,
if mild-to-moderate pain persists, buprenorphine can be divided TID to manage
residual pain. This approach is usually
successful and allows the patient to remain
stable on buprenorphine.

2.

Discontinue buprenorphine upon hospitalization and use full agonist opioids to
treat pain and prevent withdrawal. This
approach avoids the blockade effect of
buprenorphine on the mu-opioid receptors
but leaves the patient vulnerable to a return
to illicit opioid use. It may be useful if the
ﬁrst approach does not achieve adequate
pain control.386 Consider a consult by an
addiction medicine, psychiatric, or pain
management provider if appropriate and
available.

The hospital team will need to manage buprenorphine for patients who present to the
ED or are hospitalized on buprenorphine maintenance. Physicians in inpatient settings can
legally order buprenorphine without a waiver
if a patient is admitted primarily for other
medical reasons.384 Key medication management strategies include:

‡

Obtaining written consent to contact the
patient’s providers, including:
− Primary care provider.
− Buprenorphine prescriber.
− Pharmacy.

‡

Conﬁrming the patient’s outpatient buprenorphine dose by:
− Checking prescribing records.
− Contacting the prescriber or pharmacy.
− Examining recent prescription bottles.
− Checking the prescription drug monitoring
program database before administering
buprenorphine.

‡
‡
‡

‡

Providing the usual daily dose to the patient,
once that dose is conﬁrmed.
Ensuring the patient’s outpatient prescriber
understands the reason for any missed visits.
Informing the patient’s outpatient prescriber
that the patient may test positive for opioids
if treated with opioid analgesics while in the
hospital.
Maintaining contact with the patient’s prescriber, especially when a buprenorphine
dose change is considered and in discharge
planning.

Pregnant women on buprenorphine can
continue buprenorphine through their labor.
Labor pain for pregnant patients on buprenorphine can be managed effectively with epidural
analgesia or intravenous opioids. Spinal anesthesia is effective in patients on buprenorphine;
patients can receive general anesthesia if
needed.387

3-100

A293

TIP 63

Part 3 of 5—Pharmacotherapy for Opioid Use Disorder

Perioperative pain management of patients on
buprenorphine requires further study, but multiple
approaches have been found effective. Most
patients can continue buprenorphine through
the operative period. Treat postoperative
pain with regional anesthesia, nonopioid pain
management, or full agonist opioids. Remember
that higher doses are likely to be necessary. Some
data suggest that buprenorphine divided TID may
even be as effective as morphine for postoperative pain control.388 Alternatively, buprenorphine
can be discontinued 72 hours before a planned
surgery and restarted after resolution of acute
postoperative pain. The risk of this approach is
that it leaves the patient vulnerable to a return to
use of illicit opioids.389

Methadone
The hospital team will need to manage
methadone for patients who present to
the ED or are hospitalized on methadone
maintenance treatment. This includes pregnant
women. Generally, only physicians in OTPs
can order methadone to treat OUD. However,
physicians in an inpatient setting can legally
order methadone administration to patients
admitted primarily for other reasons.390

The expert panel for this
Treatment Improvement Protocol
(TIP) recommends restarting
buprenorphine before discharge
when possible, with a proper handoff
between inpatient and outpatient
providers.
They’ll need pain medication in addition to
their usual methadone dose. If their condition
is painful enough to require opioids, prescribe
short-acting opioids as scheduled, not asneeded, treatment. Because these patients are
already opioid tolerant, they’ll likely require
higher doses of opioids than patients without
tolerance.391 However, as with any patient, use
nonopioid multimodal pain management when
possible to minimize reliance on opioids and
maximize pain control.392

CLINICAL CAUTION
Do Not Rely Solely on Patient SelfReport of Methadone Dosage

Contact the patient’s OTP directly to conﬁrm
the outpatient methadone dose, the last
day of dose administration, and whether
the patient was dispensed take-home doses
(and how many doses) after the last dose
administration at the OTP. This is to avoid
double dosing and to avoid providing a full
dose to a patient who hasn’t been to the OTP
for several days. Notify the OTP of the patient’s
admission and discharge so that OTP staff is
aware of:

Do not administer the methadone dose based

‡
‡
‡

can be administered to treat opioid withdrawal

The patient’s upcoming missed visits.
Medications received during hospitalization.
Medications prescribed at discharge.

on patient self-report of OTP enrollment and
methadone dose; get OTP conﬁrmation. This
is important because doses above 30 mg can
be lethal if the patient is not currently receiving
methadone treatment and has relatively low
tolerance to opioids. If it’s not possible to
conﬁrm the patient’s methadone dose because
the OTP is closed on nights or weekends and
has no emergency contact, up to 20 mg per day
symptoms, but monitor for signs of opioid
intoxication. If the patient shows no signs of

Patients in pain should receive their full usual
daily dose of methadone, barring contraindications. This is their baseline dose and should
not be considered a dose for pain management.

sedation or opioid intoxication 3 to 4 hours
after the initial dose and continues to display
symptoms of withdrawal, an additional 5 mg to
10 mg may be safe to administer.

3-101

A294

TIP 63

Medications for Opioid Use Disorder

It is important to tell patients who receive
take-home doses that they should not take their
own medication while in the hospital. They will
receive methadone from the treatment team.
Patients can be asked to lock their take-home
medications with their other valuables. It is also
important to monitor these patients closely
after the initial and subsequent methadone
administration in the hospital. Some patients
who receive take-home doses do not take their
entire dose every day, so they may display signs
of intoxication or frank overdose if the hospital
staff gives them the full dose.

Naltrexone
Patients taking oral naltrexone for OUD
treatment may continue naltrexone when
admitted to the hospital if they do not have
and are not at risk for developing a painful
condition requiring opioid analgesia. Oral
naltrexone provides full blockade of opioid
receptors for up to 72 hours. Extended-release
injectable naltrexone (XR-NTX) provides measurable naltrexone levels for 1 month or longer.
Thus, managing acute pain in patients taking
XR-NTX is complicated.
In patients who have taken naltrexone, manage
severe pain intensively via nonopioid approaches, such as regional anesthesia or injected nonsteroidal anti-inﬂammatory drugs.
Naltrexone blockade can be overcome with
very high doses of opioids, but patients must be
closely monitored for respiratory depression in a
setting with anesthesia services. This is especially
true upon discontinuation of oral naltrexone,
which dissociates from opioid receptors.

provision of medication can be a critical entry
point into care. Research supports the efﬁcacy
of initiating either buprenorphine or methadone
during acute hospital stays393,394 and starting
patients on buprenorphine in the ED.395

Buprenorphine Induction in the Hospital
Setting
Patients admitted to the hospital for medical
conditions incident to OUD can undergo
medically supervised withdrawal or receive
buprenorphine maintenance treatment
during their inpatient stay.396 It is important
to adequately address opioid withdrawal
because hospital patients may otherwise sign
out against medical advice or use illicit opioids
in the hospital. Buprenorphine can also be
initiated for maintenance treatment if there is
a system in place that allows smooth and reliable
discharge to an outpatient buprenorphine prescriber. Unlike methadone, a several-day delay
between discharge and the ﬁrst visit to the outpatient provider is acceptable for stable patients,
as long as sufﬁcient medication is provided until
the patient begins outpatient treatment. The
prescription for medication to be taken outside
the hospital must be written by a prescriber with
a buprenorphine waiver. If there is no prescriber
with a waiver, it is possible to have a patient
return to the hospital ED or a clinic within the
hospital to have the buprenorphine dose administered by a physician (who does not need to be
waivered) for up to 3 days.
To provide continuity of care at discharge, use
these strategies:

‡

Hospitalized or ED Patients Not
Taking Medication for OUD

‡

Patients with OUD who present to the ED
or are admitted to the hospital for an acute
medical problem may beneﬁt from initiating
medications for OUD during their hospitalization. A thoughtful and respectful discussion
of treatment options and patient-centered

‡

3-102

A295

Develop and maintain a network of local
buprenorphine prescribers and other drug
treatment providers.
Discharge patients directly to a speciﬁc
outpatient prescriber for stabilization and
maintenance after inpatient buprenorphine
induction.
Send discharge information directly to the
outpatient prescriber, including treatment
course, medications administered, and medications prescribed.

TIP 63

Part 3 of 5—Pharmacotherapy for Opioid Use Disorder

To initiate buprenorphine during hospitalization:

‡
‡
‡
‡
‡
‡

Conﬁrm that there are no contraindications to
buprenorphine before initiation.
Discontinue opioids for pain management
only when no longer needed and the patient
is stable enough to tolerate withdrawal.
Wait for patients to develop opioid withdrawal symptoms.
Initiate buprenorphine treatment.
Individualize buprenorphine dosing.
Follow the dosing guidance found in Chapter
3D of this TIP.

A clinical trial found that starting buprenorphine
in the ED to treat OUD was more effective in
linking patients to buprenorphine treatment in
the community than were two other approaches
without medication.397 When patients presented
in opioid withdrawal, they received 8 mg of
buprenorphine in the ED. Patients who were not
in withdrawal received a detailed self-medication
guide and were provided buprenorphine for
an unobserved home induction. In both cases,
patients were given sufﬁcient buprenorphine to
take 16 mg per day at home until they could see
an outpatient prescriber within 72 hours. Close
follow-up with an outpatient buprenorphine
prescriber was critical for dose stabilization and
ongoing medication management.

RESOURCE ALERT
Telehealth Tools for the Treatment
of OUD
The Substance Abuse and Mental Health
Services Administration and other federal
agencies have developed numerous resources
to guide healthcare professionals in their use
of telehealth and telemedicine approaches for
OUD. These resources include information on:

‡ Guidance on the use of telemedicine in OTPs
(https://store.samhsa.gov/shin/content/PEP15
-FEDGUIDEOTP/PEP15-FEDGUIDEOTP.pdf).

‡ The policies that must be put in place (to

comply with the Controlled Substances Act)
by physicians who wish to use telehealth
in treating patients with buprenorphine for
OUD under the Drug Addiction Treatment
Act of 2000. Federal (and sometimes state)
restrictions apply, which can be reviewed by
accessing 21 USC § 802 (www.gpo.gov/fdsys
/pkg/USCODE-2011-title21/pdf/USCODE-2011
-title21-chap13-subchapI-partA-sec802.pdf).

‡ Centers for Medicare and Medicaid guidance
on telehealth (www.cms.gov/Medicare

/Medicare-General-Information/Telehealth
/index.html).

Methadone Induction in the Hospital
Setting

‡ Challenges and opportunities in using

Offer to treat hospitalized patients in opioid
withdrawal with methadone (or buprenorphine) maintenance if they can continue
the medication in an OTP seamlessly after
discharge. Do not start patients on methadone
maintenance in the hospital without a clear
follow-up plan. Form relationships with local
OTPs that allow discharging of patients directly
into methadone maintenance treatment.

telehealth for rural populations (https://store
.samhsa.gov/shin/content/SMA16-4989/SMA16
-4989.pdf).

‡ How certiﬁed community behavioral health
clinics can use telehealth approaches to
expand their services (www.samhsa.gov
/section-223/care-coordination/telehealth
-telemedicine).

3-103

A296

TIP 63

Medications for Opioid Use Disorder

The TIP expert panel urges providers
not to force patients to withdraw
from opioid agonist treatment in the
hospital, especially if they have acute
illness, pain, or a mental illness.
Inpatient methadone inductions should follow
the same “start low, go slow” principles that
outpatient inductions do (see Chapter 3B of
this TIP). The initial dose should be from 10 mg
to 20 mg per day. Increase slowly by 5 mg every
few days in response to symptoms of opioid
withdrawal and level of sedation at the peak
plasma level 2 to 4 hours after dosing.

Consider XR-NTX initiation for patients who
complete withdrawal in the hospital and are
opioid free for 7 days (short acting) and up to 14
days (long acting). Only do so if:

‡
‡

If a patient desires and gives informed consent
for medically supervised withdrawal and naltrexone initiation while in the hospital, a ﬁrst dose
of naltrexone can be given before discharge.
As with other medications for OUD, discharge
coordination is critical. Hospitals that develop
naltrexone induction protocols need to have a
clear discharge plan in place for patients who will
then need to continue naltrexone in the outpatient setting. Patients should be advised about
the risk of overdose if return to opioid use occurs
after discontinuing naltrexone.

Medical Management Plan

Naltrexone Induction in the Hospital
Setting

‡

No published data indicate this approach’s
effectiveness.

There are no contraindications (such as the
need for opioid analgesia).
The patient prefers it after a risk/beneﬁt
discussion that covers alternative treatments.
There are available follow-up opportunities
for ongoing medication maintenance upon
discharge.

The key to effective treatment is to involve
patients and all treating healthcare professionals in developing a comprehensive plan
for managing treatment with OUD medication
during and after hospitalization. This plan
should include:

‡
‡
‡

Strategies for pain management (if required).
In-hospital dosing procedures.
Postdischarge coordination of care with outpatient programs and outpatient providers.

This plan ensures effective pain relief as well as
continuity of ongoing care for patients taking
medication for OUD.398

3-104

A297

Part 3 of 5—Pharmacotherapy for Opioid Use Disorder

Notes

TIP 63

1

Department of Health and Human Services. (2016). The
opioid epidemic: By the numbers. Washington, DC:
Author.

13 Mattick, R. P., Breen, C., Kimber, J., & Davoli, M.
(2014). Buprenorphine maintenance versus placebo
or methadone maintenance for opioid dependence.
Cochrane Database of Systematic Reviews, 2014(2),
1–84.

2

Center for Behavioral Health Statistics and Quality.
(2017). Key substance use and mental health
indicators in the United States: Results from the 2016
National Survey on Drug Use and Health. Rockville,
MD: Substance Abuse and Mental Health Services
Administration.

14 Sees, K. L., Delucchi, K. L., Masson, C., Rosen, A.,
Clark, H. W., Robillard, H., … Hall, S. M. (2000).
Methadone maintenance vs 180-day psychosocially
enriched detoxiﬁcation for treatment of opioid
dependence: A randomized controlled trial. JAMA,
283(10), 1303–1310.

3

American Psychiatric Association. (2013). Diagnostic
and statistical manual of mental disorders (5th ed.).
Arlington, VA: American Psychiatric Publishing.

4

Weiss, A. J., Elixhauser, A., Barrett, M. L., Steiner, C. A.,
Bailey, M. K., & O’Malley, L. (2017, January). Opioidrelated inpatient stays and emergency department
visits by state, 2009–2014. HCUP Statistical Brief No.
219. Rockville, MD: Agency for Healthcare Research
and Quality.

15 Nielsen, S., Larance, B., Degenhardt, L., Gowing,
L., Kehler, C., & Lintzeris, N. (2016). Opioid agonist
treatment for pharmaceutical opioid dependent
people. Cochrane Database of Systematic Reviews,
2016(5), 1–61.

5

American Society of Addiction Medicine. (2011).
Deﬁnition of addiction. Chevy Chase, MD: American
Society of Addiction Medicine. Retrieved January 5,
2018, from www.asam.org/resources/deﬁnition
-of-addiction

16 Stoller, K. B., Stephens, M. A. C., & Schorr, A. (2016).
Integrated service delivery models for opioid treatment
programs in an era of increasing opioid addiction,
health reform, and parity. Retrieved October 16, 2017,
from www.aatod.org/wp-content/uploads/2016/07
/2nd-Whitepaper-.pdf

6

American Psychiatric Association. (2013). Diagnostic
and statistical manual of mental disorders (5th ed.).
Arlington, VA: American Psychiatric Publishing.

17 Comer, S. D., Sullivan, M. A., Yu, E., Rothenberg,
J. L., Kleber, H. D., Kampman, K., … O’Brien, C. P.
(2006). Injectable, sustained-release naltrexone for
the treatment of opioid dependence: A randomized,
placebo-controlled trial. Archives of General Psychiatry,
63(2), 210–218.

7

Substance Abuse and Mental Health Services
Administration. (2015). Federal guidelines for opioid
treatment programs. HHS Publication No. (SMA)
PEP15-FEDGUIDEOTP. Rockville, MD: Substance Abuse
and Mental Health Services Administration.

18 Krupitsky, E., Nunes, E. V., Ling, W., Illeperuma, A.,
Gastfriend, D. R., & Silverman, B. L. (2011). Injectable
extended-release naltrexone for opioid dependence:
A double-blind, placebo-controlled, multicentre
randomised trial. Lancet, 377(9776), 1506–1513.

8

Substance Abuse and Mental Health Services
Administration. (2016). Pocket guide: Medicationassisted treatment of opioid use disorder. HHS
Publication No. (SMA) 16-4892PG. Rockville, MD:
Substance Abuse and Mental Health Services
Administration.

19 Lee, J. D., Friedmann, P. D., Kinlock, T. W., Nunes, E.
V., Boney, T. Y., Hoskinson, R. A., Jr., … O’Brien, C. P.
(2016). Extended-release naltrexone to prevent opioid
relapse in criminal justice offenders. New England
Journal of Medicine, 374(13), 1232–1242.

9

Substance Abuse and Mental Health Services
Administration. (2015). Clinical use of extended-release
injectable naltrexone in the treatment of opioid use
disorder: A brief guide. HHS Publication No. (SMA)
14-4892R. Rockville, MD: Substance Abuse and Mental
Health Services Administration.

10 Kreek, M. J., Borg, L., Ducat, E., & Ray, B. (2010).
Pharmacotherapy in the treatment of addiction:
Methadone. Journal of Addictive Diseases, 29(2),
200–216.
11 Mattick, R. P., Breen, C., Kimber, J., & Davoli, M. (2009).
Methadone maintenance therapy versus no opioid
replacement therapy for opioid dependence. Cochrane
Database of Systematic Reviews, 2009(3), 1–19.
12 World Health Organization. (2015). 19th WHO model
list of essential medicines. Geneva, Switzerland: Author.

20 American Society of Addiction Medicine. (2015).
The ASAM national practice guideline for the use of
medications in the treatment of addiction involving
opioid use. Chevy Chase, MD: Author.
21 Lee, J. D., McDonald, R., Grossman, E., McNeely,
J., Laska, E., Rotrosen, J., & Gourevitch, M. N.
(2015). Opioid treatment at release from jail using
extended-release naltrexone: A pilot proof-of-concept
randomized effectiveness trial. Addiction, 110(6),
1008–1014.
22 Leslie, D. L., Milchak, W., Gastfriend, D. R., Herschman,
P. L., Bixler, E. O., Velott, D. L., & Meyer, R. E. (2015).
Effects of injectable extended-release naltrexone
(XR-NTX) for opioid dependence on residential
rehabilitation outcomes and early follow-up. American
Journal on Addictions, 24(3), 265–270.

3-105

A298

TIP 63

Medications for Opioid Use Disorder

23 Sullivan, M. A., Garawi, F., Bisaga, A., Comer, S. D.,
Carpenter, K., Raby, W. N., … Nunes, E. V. (2007).
Management of relapse in naltrexone maintenance for
heroin dependence. Drug and Alcohol Dependence,
91(2–3), 289–292.
24 Mattick, R. P., Breen, C., Kimber, J., & Davoli, M.
(2014). Buprenorphine maintenance versus placebo
or methadone maintenance for opioid dependence.
Cochrane Database of Systematic Reviews, 2014(2),
1–84.
25 World Health Organization. (2015). 19th WHO model
list of essential medicines. Geneva, Switzerland: Author.
26 Jaffe, J. H., & O’Keeffe, C. (2003). From morphine
clinics to buprenorphine: Regulating opioid agonist
treatment of addiction in the United States. Drug and
Alcohol Dependence, 70(2 Suppl.), S3–S11.
27 Ling, W., Casadonte, P., Bigelow, G., Kampman, K.
M., Patkar, A., Bailey, G. L., … Beebe, K. L. (2010).
Buprenorphine implants for treatment of opioid
dependence: A randomized controlled trial. JAMA,
304(14), 1576–1583.
28 Substance Abuse and Mental Health Services
Administration. (2015). Clinical use of extended-release
injectable naltrexone in the treatment of opioid use
disorder: A brief guide. HHS Publication No. (SMA)
14-4892R. Rockville, MD: Substance Abuse and Mental
Health Services Administration.
29 Kinlock, T. W., Gordon, M. S., Schwartz, R. P.,
Fitzgerald, T. T., & O’Grady, K. E. (2009). A randomized
clinical trial of methadone maintenance for prisoners:
Results at twelve-months post-release. Journal of
Substance Abuse Treatment, 37(3), 277–285.
30 McKenzie, M., Zaller, N., Dickman, S. L., Green, T.
C., Parihk, A., Friedmann, P. D., & Rich, J. D. (2012).
A randomized trial of methadone initiation prior to
release from incarceration. Substance Abuse, 33(1),
19–29.
31 Gordon, M. S., Kinlock, T. W., Schwartz, R. P.,
O’Grady, K. E., Fitzgerald, T. T., & Vocci, F. J. (2017).
A randomized trial of buprenorphine for prisoners:
Findings at 12-months post-release. Drug and Alcohol
Dependence, 172, 34–42.
32 Vocci, F. J., Schwartz, R. P., Wilson, M. E., Gordon, M.
S., Kinlock, T. W., Fitzgerald, T. T., O’Grady, K. E., &
Jaffe, J. H. (2015). Buprenorphine dose induction in
non-opioid-tolerant pre-release prisoners. Drug and
Alcohol Dependence, 156, 133–138.
33 Substance Abuse and Mental Health Services
Administration. (2018). Clinical guidance for treating
pregnant and parenting women with opioid use
disorder and their infants. HHS Publication No. (SMA)
18-5054. Rockville, MD: Substance Abuse and Mental
Health Services Administration.

34 Binder, T., & Vavrinková, B. (2008). Prospective
randomised comparative study of the effect of
buprenorphine, methadone and heroin on the
course of pregnancy, birthweight of newborns, early
postpartum adaptation and course of the neonatal
abstinence syndrome (NAS) in women followed up
in the outpatient department. Neuro Endocrinology
Letters, 29(1), 80–86.
35 Fajemirokun-Odudeyi, O., Sinha, C., Tutty, S.,
Pairaudeau, P., Armstrong, D., Phillips, T., & Lindow,
S. W. (2006). Pregnancy outcome in women who use
opiates. European Journal of Obstetrics & Gynecology
and Reproductive Biology, 126(2), 170–175.
36 Stimmel, B., & Adamsons, K. (1976). Narcotic
dependency in pregnancy. Methadone maintenance
compared to use of street drugs. JAMA, 235,
1121–1124.
37 Substance Abuse and Mental Health Services
Administration. (2018). Clinical guidance for treating
pregnant and parenting women with opioid use
disorder and their infants. HHS Publication No. (SMA)
18-5054. Rockville, MD: Substance Abuse and Mental
Health Services Administration.
38 Substance Abuse and Mental Health Services
Administration. (2015). Clinical use of extended-release
injectable naltrexone in the treatment of opioid use
disorder: A brief guide. HHS Publication No. (SMA)
14-4892R. Rockville, MD: Substance Abuse and Mental
Health Services Administration.
39 American College of Obstetricians and Gynecologists
Committee Opinion. (2017, August). Opioid use
and opioid use disorder in pregnancy. Number 711.
Retrieved October 30, 2017, from www.acog.org
/Resources-And-Publications/Committee-Opinions
/Committee-on-Obstetric-Practice/Opioid-Use-and
-Opioid-Use-Disorder-in-Pregnancy
40 Substance Abuse and Mental Health Services
Administration. (2018). Clinical guidance for treating
pregnant and parenting women with opioid use
disorder and their infants. HHS Publication No. (SMA)
18-5054. Rockville, MD: Substance Abuse and Mental
Health Services Administration.
41 American College of Obstetricians and Gynecologists
Committee Opinion. (2017, August). Opioid use
and opioid use disorder in pregnancy. Number 711.
Retrieved October 30, 2017, from www.acog.org
/Resources-And-Publications/Committee-Opinions
/Committee-on-Obstetric-Practice/Opioid-Use-and
-Opioid-Use-Disorder-in-Pregnancy
42 American Society of Addiction Medicine. (2015).
The ASAM national practice guideline for the use of
medications in the treatment of addiction involving
opioid use. Chevy Chase, MD: Author.

3-106

A299

Part 3 of 5—Pharmacotherapy for Opioid Use Disorder

43 Mattick, R. P., Breen, C., Kimber, J., & Davoli, M.
(2014). Buprenorphine maintenance versus placebo
or methadone maintenance for opioid dependence.
Cochrane Database of Systematic Reviews, 2014(2).
CD002207.

TIP 63

53 Novick, D. M., Salsitz, E. A., Joseph, H., & Kreek,
M. J. (2015). Methadone medical maintenance: An
early 21st-century perspective. Journal of Addictive
Diseases, 34(2–3), 226–237.

44 Lee, J. D., Nunes, E. V., Jr., Novo, P., Bachrach,
K., Bailey, G. L., Bhatt, S., … Rotrosen, J. (2018).
Comparative effectiveness of extended-release
naltrexone versus buprenorphine-naloxone for opioid
relapse prevention (X:BOT): A multicentre, open-label,
randomised controlled trial. Lancet, 391(10118),
309–318.
45 Tanum, L., Solli, K. K., Latif, Z. E., Benth, J. Š.,
Opheim, A., Sharma-Haase, K., … Kunøe, N. (2017).
The effectiveness of injectable extended-release
naltrexone vs daily buprenorphine-naloxone for opioid
dependence: A randomized clinical noninferiority trial.
JAMA Psychiatry, 74(12), 1197–1205.
46 Department of Veterans Affairs & Department of
Defense. (2015). VA/DoD clinical practice guideline for
the management of substance use disorders. Retrieved
October 16, 2017, from www.healthquality.va.gov
/guidelines/MH/sud/VADoDSUDCPGRevised22216.pdf
47 Sees, K. L., Delucchi, K. L., Masson, C., Rosen, A.,
Clark, H. W., Robillard, H., … Hall, S. M. (2000).
Methadone maintenance vs 180-day psychosocially
enriched detoxiﬁcation for treatment of opioid
dependence: A randomized controlled trial. JAMA,
283(10), 1303–1310.

54 Fiellin, D. A., Moore, B. A., Sullivan, L. E., Becker, W.
C., Pantalon, M. V., Chawarski, M. C., … Schottenfeld,
R. S. (2008). Long-term treatment with buprenorphine/
naloxone in primary care: Results at 2-5 years.
American Journal on Addictions, 17(2), 116–120.
55 Krupitsky, E., Nunes, E. V., Ling, W., Gastfriend, D. R.,
Memisoglu, A., & Silverman, B. L. (2013). Injectable
extended-release naltrexone (XR-NTX) for opioid
dependence: long-term safety and effectiveness.
Addiction, 108(9), 162–1637.
56 Kreek, M. J., Levran, O., Reed, B., Schlussman,
S. D., Zhou, Y., & Butelman, E. R. (2012). Opiate
addiction and cocaine addiction: Underlying molecular
neurobiology and genetics. Journal of Clinical
Investigation, 122(10), 3387–3393.
57 Volkow, N. D., Koob, G. F., & McLellan, A. T. (2016).
Neurobiologic advances from the brain disease model
of addiction. New England Journal of Medicine, 374(4),
363–371.
58 Ling, W., Hillhouse, M., Domier, C., Doraimani,
G., Hunter, J., Thomas, C., … Bilangi, R. (2009).
Buprenorphine tapering schedule and illicit opioid use.
Addiction, 104(2), 256–265.

48 Weiss, R. D., Potter, J. S., Fiellin, D. A., Byrne, M.,
Connery, H. S., Dickinson, W., … Ling, W. (2011).
Adjunctive counseling during brief and extended
buprenorphine-naloxone treatment for prescription
opioid dependence: A 2-phase randomized controlled
trial. Archives of General Psychiatry, 68(12), 1238–1246.
49 Lee, J. D., Friedmann, P. D., Kinlock, T. W., Nunes, E.
V., Boney, T. Y., Hoskinson, R. A., Jr., … O’Brien, C. P.
(2016). Extended-release naltrexone to prevent opioid
relapse in criminal justice offenders. New England
Journal of Medicine, 374(13), 1232–1242.
50 Gowing, L., Ali, R., White, J. M., & Mbewe, D. (2017).
Buprenorphine for managing opioid withdrawal.
Cochrane Database of Systematic Reviews, 2017(2).
CD002025.

59 Senay, E. C., Dorus, W., & Thornton, W. (1977).
Withdrawal from methadone maintenance: Rate of
withdrawal and expectation. Archives of General
Psychiatry, 34(3), 361–367.
60 Sigmon, S. C., Dunn, K. E., Saulsgiver, K., Patrick, M.
E., Badger, G. J., Heil, S. H., … Higgins, S. T. (2013). A
randomized, double-blind evaluation of buprenorphine
taper duration in primary prescription opioid abusers.
JAMA Psychiatry, 70(12), 1347–1354.
61 Department of Veterans Affairs & Department of
Defense. (2015). VA/DoD clinical practice guideline for
the management of substance use disorders. Retrieved
October 16, 2017, from www.healthquality.va.gov
/guidelines/MH/sud/VADoDSUDCPGRevised22216.pdf
62 Fullerton, C. A., Kim, M., Thomas, C. P., Lyman, D.
R., Montejano, L. B., Dougherty, R. H., … DelphinRittmon, M. E. (2014). Medication-assisted treatment
with methadone: Assessing the evidence. Psychiatric
Services, 65(2), 146–157.

51 Degenhardt, L., Randall, D., Hall, W., Law, M., Butler,
T., & Burns, L. (2009). Mortality among clients of a
state-wide opioid pharmacotherapy program over 20
years: Risk factors and lives saved. Drug and Alcohol
Dependence, 105(1–2), 9–15.
52 Hser, Y. I., Huang, D., Saxon, A. J., Woody, G.,
Moskowitz, A. L., Matthews, A. G., & Ling, W.
(2017). Distinctive trajectories of opioid use over an
extended follow-up of patients in a multisite trial on
buprenorphine + naloxone and methadone. Journal of
Addiction Medicine, 11(1), 63–69.

63 Weiss, R. D., Potter, J. S., Fiellin, D. A., Byrne, M.,
Connery, H. S., Dickinson, W., … Ling, W. (2011).
Adjunctive counseling during brief and extended
buprenorphine-naloxone treatment for prescription
opioid dependence: A 2-phase randomized controlled
trial. Archives of General Psychiatry, 68(12), 1238–1246.

3-107

A300

TIP 63

Medications for Opioid Use Disorder

64 Amato, L., Davoli, M., Minozzi, S., Ferroni, E., Ali, R., &
Ferri M. (2013). Methadone at tapered doses for the
management of opioid withdrawal. Cochrane Database
of Systematic Reviews, 2013(2). CD003409.

77 Mattick, R. P., Breen, C., Kimber, J., & Davoli, M. (2009).
Methadone maintenance therapy versus no opioid
replacement therapy for opioid dependence. Cochrane
Database of Systematic Reviews, 2009(3), 1–19.

65 Weiss, R. D., Potter, J. S., Fiellin, D. A., Byrne, M.,
Connery, H. S., Dickinson, W., … Ling, W. (2011).
Adjunctive counseling during brief and extended
buprenorphine-naloxone treatment for prescription
opioid dependence: A 2-phase randomized controlled
trial. Archives of General Psychiatry, 68(12), 1238–1246.

78 Degenhardt, L., Randall, D., Hall, W., Law, M., Butler,
T., & Burns, L. (2009). Mortality among clients of a
state-wide opioid pharmacotherapy program over 20
years: Risk factors and lives saved. Drug and Alcohol
Dependence, 105(1–2), 9–15.

66 Ling, W., Hillhouse, M., Domier, C., Doraimani,
G., Hunter, J., Thomas, C., & Bilangi, R. (2009)
Buprenorphine tapering schedule and illicit opioid use.
Addiction, 104(2), 256–265.
67 Amato, L., Minozzi, S., Davoli, M., & Vecchi, S. (2011).
Psychosocial and pharmacological treatments versus
pharmacological treatments for opioid detoxiﬁcation.
Cochrane Database of Systematic Reviews, 2011(9).
CD005031.

79 Metzger, D. S., Woody, G. E., McLellan, A. T., O’Brien,
C. P., Druley, P., Navaline, H., … Abrutyn, E. J. (1993).
Human immunodeﬁciency virus seroconversion among
intravenous drug users in- and out-of-treatment: An
18-month prospective follow-up. Journal of Acquired
Immune Deﬁciency Syndromes, 6(9), 1049–1056.
80 Ball, J. C., & Ross, A. (1991). The effectiveness of
methadone maintenance treatment. New York, NY:
Springer Verlag.
81 Mattick, R. P., Breen, C., Kimber, J., & Davoli, M.
(2014). Buprenorphine maintenance versus placebo
or methadone maintenance for opioid dependence.
Cochrane Database of Systematic Reviews, 2014(2).
CD002207.

68 Nunes, E. V., Gordon, M., Friedmann, P. D., Fishman,
M. J., Lee, J. D., Chen, D. T., … O’Brien, C. P. (2018).
Relapse to opioid use disorder after inpatient
treatment: Protective effect of injection naltrexone.
Journal of Substance Abuse Treatment, 85, 49–55.

82 Walsh, S. L., & Strain, E. C. (2006). Pharmacology
of methadone. In E. C. Strain & M. L. Stitzer (Eds.),
The treatment of opioid dependence (pp. 59–76).
Baltimore, MD: John Hopkins University Press.

69 Satoh, M., & Minami, M. (1995). Molecular
pharmacology of the opioid receptors. Pharmacology
& Therapeutics, 68(3), 343–364.
70 Akbarali, H. I., Inkisar, A., & Dewey, W. L. (2014).
Site and mechanism of morphine tolerance in the
gastrointestinal tract. Neurogastroenterology and
Motility, 26(10), 1361–1367.
71 Bodnar, R. J. (2017). Endogenous opiates and behavior,
2015. Peptides, 88, 126–188.
72 Johnson, R. E., Strain, E. C., & Amass, L. (2003).
Buprenorphine: How to use it right. Drug and Alcohol
Dependence, 70(Suppl.), S59–S77.
73 Minozzi, S., Amato, L., Vecchi, S., Davoli, M.,
Kirchmayer, U., & Verster, A. (2011). Oral naltrexone
maintenance treatment for opioid dependence.
Cochrane Database of Systematic Reviews, 2011(2).
CD001333.

83 Mallinckrodt Pharmaceuticals. (2017). Label: Methadose
- methadone hydrochloride concentrate; Methadose
sugar-free- methadone hydrochloride concentrate.
Retrieved on January 9, 2018, from https://dailymed
.nlm.nih.gov/dailymed/drugInfo.cfm?setid=808a9d0b
-720b-4034-a862-5122ff514608
84 Walsh, S. L., & Strain, E. C. (2006). Pharmacology
of methadone. In E. C. Strain & M. L. Stitzer (Eds.),
The treatment of opioid dependence (pp. 59–76).
Baltimore, MD: John Hopkins University Press.
85 Payte, J. T., & Zweben, J. E. (1998). Opioid
maintenance therapies. In A. W. Graham, T. K. Schultz,
& B. B. Wilford (Eds.), Principles of addiction medicine
(pp. 557–570). Chevy Chase, MD: American Society of
Addiction Medicine.

74 Substance Abuse and Mental Health Services
Administration. (2016). Sublingual and transmucosal
buprenorphine for opioid use disorder: Review
and update. Advisory, Vol. 15, Issue 1. Rockville,
MD: Substance Abuse and Mental Health Services
Administration.

86 Eap, C. B., Buclin, T., & Baumann, P. (2002).
Interindividual variability of the clinical
pharmacokinetics of methadone: Implications
for the treatment of opioid dependence. Clinical
Pharmacokinetics, 41(14), 1153–1193.

75 Kreek, M. J., Borg, L., Ducat, E., & Ray, B. (2010).
Pharmacotherapy in the treatment of addiction:
Methadone. Journal of Addictive Diseases, 29(2),
200–216.
76 Mattick, R. P., Breen, C., Kimber, J., & Davoli, M. (2009).
Methadone maintenance therapy versus no opioid
replacement therapy for opioid dependence. Cochrane
Database of Systematic Reviews, 2009(3), 1–19.

87 Mallinckrodt Pharmaceuticals. (2017). Label: Methadose
- methadone hydrochloride concentrate; Methadose
sugar-free- methadone hydrochloride concentrate.
Retrieved on January 9, 2018, from https://dailymed
.nlm.nih.gov/dailymed/drugInfo.cfm?setid=808a9d0b
-720b-4034-a862-5122ff514608

3-108

A301

Part 3 of 5—Pharmacotherapy for Opioid Use Disorder

TIP 63

88 Oda, Y., & Kharasch, E. D. (2001). Metabolism of
methadone and levo-alpha-acetylmethadol (LAAM)
by human intestinal cytochrome P450 3A4 (CYP3A4):
Potential contribution of intestinal metabolism to
presystemic clearance and bioactivation. Journal of
Pharmacology and Experimental Therapeutics, 298(3),
1021–1032.

99 Bednar, M. M., Harrigan, E. P., & Ruskin, J. N. (2002).
Torsades de pointes associated with nonantiarrhythmic
drugs and observations on gender and QTc. American
Journal of Cardiology, 89(11), 1316–1319.

89 Eap, C. B., Buclin, T., & Baumann, P. (2002).
Interindividual variability of the clinical
pharmacokinetics of methadone: Implications
for the treatment of opioid dependence. Clinical
Pharmacokinetics, 41(14), 1153–1193.

101 Martin, J. A., Campbell, A., Killip, T., Kotz, M., Krantz,
M. J., Kreek, M. J., … Wilford, B. B. (2011). QT interval
screening in methadone maintenance treatment:
Report of a SAMHSA expert panel. Journal of
Addictive Diseases, 30(4), 283–306.

90 Eap, C. B., Buclin, T., & Baumann, P. (2002).
Interindividual variability of the clinical
pharmacokinetics of methadone: Implications
for the treatment of opioid dependence. Clinical
Pharmacokinetics, 41(14), 1153–1193.

102 Bazett, H. C. (1997). An analysis of the time-relations
of electrocardiograms. Annals of Noninvasive
Electrocardiology, 2(2), 177–194.
103 Martin, J. A., Campbell, A., Killip, T., Kotz, M., Krantz,
M. J., Kreek, M. J., … Wilford, B. B. (2011). QT interval
screening in methadone maintenance treatment:
Report of a SAMHSA expert panel. Journal of
Addictive Diseases, 30(4), 283–306.

91 American Psychiatric Association. (2013). Diagnostic
and statistical manual of mental disorders (5th ed.).
Arlington, VA: American Psychiatric Publishing.
92 Federal opioid treatment standards, 42 CFR § 8.12
(2015).

104 Mallinckrodt Pharmaceuticals. (2015). Methadose™
dispersible tablets, 40 mg (Methadone hydrochloride
tablets for oral suspension USP), CII - Generic products.
Retrieved October 16, 2017, from https://dailymed.nlm
.nih.gov/dailymed/archives/fdaDrugInfo.cfm?archiveid
=8731

93 Chou, R., Cruciani, R. A., Fiellin, D. A., Compton,
P., Farrar, J. T., Haigney, M. C., … Zeltzer, L. (2014).
Methadone safety: A clinical practice guideline from
the American Pain Society and College on Problems
of Drug Dependence, in collaboration with the Heart
Rhythm Society. Journal of Pain, 15(4), 321–337.
94 Baxter, L. E., Sr., Campbell, A., Deshields, M., Levounis,
P., Martin, J. A., McNicholas, L., … Wilford, B. B. (2013).
Safe methadone induction and stabilization: Report of
an expert panel. Journal of Addiction Medicine, 7(6),
377–386.
95 Food and Drug Administration. (2016, March). FDA
Drug Safety Communications, FDA urges caution about
withholding opioid addiction medications from patients
taking benzodiazepines or CNS depressant: Careful
medication management can reduce risks. Retrieved
January 3, 2018, from www.fda.gov/downloads/Drugs
/DrugSafety/UCM576377.pdf
96 Lintzeris, N., & Nielsen, S. (2010). Benzodiazepines,
methadone and buprenorphine: Interactions and
clinical management. American Journal on Addictions,
19(1), 59–72.
97 Bart, G., Wyman, Z., Wang, Q., Hodges, J. S., Karim, R.,
& Bart, B. A. (2017). Methadone and the QTc interval:
Paucity of clinically signiﬁcant factors in a retrospective
cohort. Journal of Addiction Medicine, 11(6), 489–493.
98 Chou, R., Cruciani, R. A., Fiellin, D. A., Compton,
P., Farrar, J. T., Haigney, M. C., … Zeltzer, L. (2014).
Methadone safety: A clinical practice guideline from
the American Pain Society and College on Problems
of Drug Dependence, in collaboration with the Heart
Rhythm Society. Journal of Pain, 15(4), 321–337.

100 Al-Khatib, S. M., LaPointe, N. M. A., Kramer, J. M., &
Califf, R. M. (2003). What clinicians should know about
the QT interval. JAMA, 289(16), 2120–2127.

105 Chou, R., Cruciani, R. A., Fiellin, D. A., Compton,
P., Farrar, J. T., Haigney, M. C., … Zeltzer, L. (2014).
Methadone safety: A clinical practice guideline from
the American Pain Society and College on Problems
of Drug Dependence, in collaboration with the Heart
Rhythm Society. Journal of Pain, 15(4), 321–337.
106 Krantz, M. J., Martin, J., Stimmel, B., Mehta, D.,
& Haigney, M. C. (2009). QTc interval screening in
methadone treatment. Annals of Internal Medicine,
150(6), 387–395.
107 Bart, G., Wyman, Z., Wang, Q., Hodges, J. S., Karim, R.,
& Bart, B. A. (2017). Methadone and the QTc interval:
Paucity of clinically signiﬁcant factors in a retrospective
cohort. Journal of Addiction Medicine, 11(6), 489–493.
108 Pani, P. P., Trogu, E., Maremmani, I., & Pacini, M. (2013).
QTc interval screening for cardiac risk in methadone
treatment of opioid dependence. Cochrane Database
of Systematic Reviews, 2013(6). CD008939.
109 Martin, J. A., Campbell, A., Killip, T., Kotz, M., Krantz,
M. J., Kreek, M. J., … Wilford, B. B. (2011). QT interval
screening in methadone maintenance treatment:
Report of a SAMHSA expert panel. Journal of
Addictive Diseases, 30(4), 283–306.
110 Chou, R., Cruciani, R. A., Fiellin, D. A., Compton,
P., Farrar, J. T., Haigney, M. C., … Zeltzer, L. (2014).
Methadone safety: A clinical practice guideline from
the American Pain Society and College on Problems
of Drug Dependence, in collaboration with the Heart
Rhythm Society. Journal of Pain, 15(4), 321–337.

3-109

A302

TIP 63

Medications for Opioid Use Disorder

111 Chou, R., Cruciani, R. A., Fiellin, D. A., Compton,
P., Farrar, J. T., Haigney, M. C., … Zeltzer, L. (2014).
Methadone safety: A clinical practice guideline from
the American Pain Society and College on Problems
of Drug Dependence, in collaboration with the Heart
Rhythm Society. Journal of Pain, 15(4), 321–337.
112 Jones, H. E., Dengler, E., Garrison, A., O’Grady, K.
E., Seashore, C., Horton, E., … Thorp, J. (2014).
Neonatal outcomes and their relationship to maternal
buprenorphine dose during pregnancy. Drug and
Alcohol Dependence, 134, 414–417.
113 Cleary, B. J., Reynolds, K., Eogan, M., O’Connell, M.
P., Fahey, T., Gallagher, P. J., … Murphy, D. J. (2014).
Methadone dosing and prescribed medication use in
a prospective cohort of opioid-dependent pregnant
women. Addiction, 108(4), 762–770.

121 American College of Obstetricians and Gynecologists
Committee Opinion. (2017, August). Opioid use
and opioid use disorder in pregnancy. Number 711.
Retrieved October 30, 2017, from www.acog.org
/Resources-And-Publications/Committee-Opinions
/Committee-on-Obstetric-Practice/Opioid-Use-and
-Opioid-Use-Disorder-in-Pregnancy
122 Substance Abuse and Mental Health Services
Administration. (2018). Clinical guidance for treating
pregnant and parenting women with opioid use
disorder and their infants. HHS Publication No. (SMA)
18-5054. Rockville, MD: Substance Abuse and Mental
Health Services Administration.
123 Centers for Disease Control and Prevention. (2016).
Viral hepatitis. Retrieved December 1, 2017, from
www.cdc.gov/hepatitis/hbv/bfaq.htm

114 Kaltenbach, K., Holbrook, A. M., Coyle, M. G., Heil, S.
H., Salisbury, A. L., Stine, S. M., … Jones, H. E. (2012).
Predicting treatment for neonatal abstinence syndrome
in infants born to women maintained on opioid agonist
medication. Addiction, 107(Suppl. 1), 45–52.

124 Baxter, L. E., Sr., Campbell, A., Deshields, M., Levounis,
P., Martin, J. A., McNicholas, L., … Wilford, B. B. (2013).
Safe methadone induction and stabilization: Report of
an expert panel. Journal of Addiction Medicine, 7(6),
377–386.

115 Food and Drug Administration. (2016, March). FDA
Drug Safety Communication: FDA warns about several
safety issues with opioid pain medicines; requires label
changes. Retrieved December 18, 2017, from www.fda
.gov/downloads/Drugs/DrugSafety/UCM491302.pdf

125 McCance-Katz, E. F., Sullivan, L. E., & Nallani, S. (2010).
Drug interactions of clinical importance among the
opioids, methadone and buprenorphine, and other
frequently prescribed medications: A review. American
Journal on Addictions, 19(1), 4–16.

116 McCance-Katz, E. F., Sullivan, L. E., & Nallani, S. (2010).
Drug interactions of clinical importance among the
opioids, methadone and buprenorphine, and other
frequently prescribed medications: A review. American
Journal on Addictions, 19(1), 4–16.

126 Baxter, L. E., Sr., Campbell, A., Deshields, M., Levounis,
P., Martin, J. A., McNicholas, L., … Wilford, B. B. (2013).
Safe methadone induction and stabilization: Report of
an expert panel. Journal of Addiction Medicine, 7(6),
377–386.

117 Martin, J., Zweben, J. E., & Payte, J. T. (2014). Opioid
maintenance treatment. In R. K. Ries, D. A. Fiellin,
S. C. Miller, & R. Saitz (Eds.), The ASAM principles
of addiction medicine (5th ed., pp. 759–777).
Philadelphia, PA: Wolters Kluwer Health.

127 Jones, H. E. (2004). Practical considerations for the
clinical use of buprenorphine. Science and Practice
Perspectives, 2(2), 4–20.

118 Saxon, A. J., & Miotto, K. (2011). Methadone
maintenance. In P. Ruiz & E. Strain (Eds.), Lowinson and
Ruiz’s substance abuse: A comprehensive textbook (5th
ed., pp. 419–436). Philadelphia, PA: Wolters Kluwer
Health.
119 McCance-Katz, E. F., Rainey, P. M., Jatlow, P., &
Friedland, G. (1998). Methadone effects on zidovudine
disposition (AIDS Clinical Trials Group 262). Journal of
Acquired Immune Deﬁciency Syndromes and Human
Retrovirology, 18(5), 435–443.
120 World Health Organization. (2009). Guidelines for the
psychosocially assisted pharmacological treatment of
opioid dependence. Geneva, Switzerland: WHO Press.

128 Vocci, F. J., Schwartz, R. P., Wilson, M. E., Gordon, M.
S., Kinlock, T. W., Fitzgerald, T. T., … Jaffe, J. H. (2015).
Buprenorphine dose induction in non-opioid-tolerant
pre-release prisoners. Drug and Alcohol Dependence,
156, 133–138.
129 Kinlock, T. W., Gordon, M. S., Schwartz, R. P.,
& O’Grady, K. E. (2008). A study of methadone
maintenance for male prisoners: 3-month postrelease
outcomes. Criminal Justice and Behavior, 35(1), 34–47.
130 Martin, J., Zweben, J. E., & Payte, J. T. (2014). Opioid
maintenance treatment. In R. K. Ries, D. A. Fiellin,
S. C. Miller, & R. Saitz (Eds.), The ASAM principles
of addiction medicine (5th ed., pp. 759–777).
Philadelphia, PA: Wolters Kluwer.
131 Baxter, L. E., Sr., Campbell, A., Deshields, M., Levounis,
P., Martin, J. A., McNicholas, L., … Wilford, B. B. (2013).
Safe methadone induction and stabilization: Report of
an expert panel. Journal of Addiction Medicine, 7(6),
377–386.

3-110

A303

Part 3 of 5—Pharmacotherapy for Opioid Use Disorder

TIP 63

132 Center for Substance Abuse Treatment. (1993). State
methadone treatment guidelines. HHS Publication No.
(SMA) 93-1991. Rockville, MD: Substance Abuse and
Mental Health Services Administration.

144 Drozdick, J., III, Berghella, V., Hill, M., & Kaltenbach,
K. (2002). Methadone trough levels in pregnancy.
American Journal of Obstetrics and Gynecology,
187(5), 1184–1188.

133 Chou, R., Cruciani, R. A., Fiellin, D. A., Compton,
P., Farrar, J. T., Haigney, M. C., … Zeltzer, L. (2014).
Methadone safety: A clinical practice guideline from
the American Pain Society and College on Problems
of Drug Dependence, in collaboration with the Heart
Rhythm Society. Journal of Pain, 15(4), 321–337.

145 Substance Abuse and Mental Health Services
Administration. (2018). Clinical guidance for treating
pregnant and parenting women with opioid use
disorder and their infants. HHS Publication No. (SMA)
18-5054. Rockville, MD: Substance Abuse and Mental
Health Services Administration.

134 Gowing, L., Ali, R., Dunlop, A., Farrell, M., & Lintzeris,
N. (2014). National guidelines for medication-assisted
treatment of opioid dependence. Retrieved January 4,
2018, from www.nationaldrugstrategy.gov.au/internet
/drugstrategy/Publishing.nsf/content/AD14DA97D8
EE00E8CA257CD1001E0E5D/$File/National
_Guidelines_2014.pdf

146 Food and Drug Administration. (2008). Methadose™
oral concentrate. Retrieved October 16, 2017, from
www.accessdata.fda.gov/drugsatfda_docs/label/2008
/017116s021lbl.pdf

135 Leavitt, S. B., Shinderman, M., Maxwell, S., Eap, C. B.,
& Paris, P. (2000). When “enough” is not enough: New
perspectives on optimal methadone maintenance dose.
Mount Sinai Journal of Medicine, 67(5–6), 404–411.
136 Payte, J. T. (2002). Opioid agonist treatment of
addiction. Slide presentation at ASAM Review Course
in Addiction Medicine.
137 Leavitt, S. B. (2003). The methadone dose debate
continues. Addiction Treatment Forum, 12(1), 1,3.
138 Substance Abuse and Mental Health Services
Administration. (2018). Clinical guidance for treating
pregnant and parenting women with opioid use
disorder and their infants. HHS Publication No. (SMA)
18-5054. Rockville, MD: Substance Abuse and Mental
Health Services Administration.
139 Benmebarek, M., Devaud, C., Gex-Fabry, M., Powell
Golay, K., Brogli, C., Baumann, P., … Eap, C. B. (2004).
Effects of grapefruit juice on the pharmacokinetics of
the enantiomers of methadone. Clinical Pharmacology
and Therapeutics, 76(1), 55–63.
140 Drozdick, J., III, Berghella, V., Hill, M., & Kaltenbach,
K. (2002). Methadone trough levels in pregnancy.
American Journal of Obstetrics and Gynecology,
187(5), 1184–1188.
141 Leavitt, S. B., Shinderman, M., Maxwell, S., Eap, C. B.,
& Paris, P. (2000). When “enough” is not enough: New
perspectives on optimal methadone maintenance dose.
Mount Sinai Journal of Medicine, 67(5–6), 404–411.
142 Hallinan, R., Ray, J., Byrne, A., Agho, K., & Attia,
J. (2006). Therapeutic thresholds in methadone
maintenance treatment: A receiver operating
characteristic analysis. Drug and Alcohol Dependence,
81, 129–136.
143 Stine, S. M., & Kosten, T. R. (2014). Pharmacologic
interventions for opioid dependence. In R. K. Ries,
D. A. Fiellin, S. C. Miller, & R. Saitz (Eds.), The ASAM
principles of addiction medicine (5th ed., pp. 745–758).
Philadelphia, PA: Wolters Kluwer.

147 Department of Veterans Affairs & Department of
Defense. (2015). VA/DoD clinical practice guideline for
the management of substance use disorders. Retrieved
October 16, 2017, from www.healthquality.va.gov
/guidelines/MH/sud/VADoDSUDCPGRevised22216.pdf
148 Stitzer, M. L., Iguchi, M. Y., & Felch, L. J. (1992).
Contingent take-home incentive: Effects on drug
use of methadone maintenance patients. Journal of
Consulting and Clinical Psychology, 60(6), 927–934.
149 Gwin Mitchell, S., Kelly, S. M., Brown, B. S., Schacht
Reisinger, H., Peterson, J. A., Ruhf, A., … Schwartz,
R. P. (2009). Uses of diverted methadone and
buprenorphine by opioid-addicted individuals in
Baltimore, Maryland. American Journal on Addictions,
18(5), 346–355.
150 Vlahov, D., O’Driscoll, P., Mehta, S. H., Ompad, D. C.,
Gern, R., Galai, N., & Kirk, G. D. (2007). Risk factors for
methadone outside treatment programs: Implications
for HIV treatment among injection drug users.
Addiction, 102(5), 771–777.
151 Timko, C., Schultz, N. R., Cucciare, M. A., Vittorio, L.,
& Garrison-Diehn, C. (2016). Retention in medicationassisted treatment for opiate dependence: A
systematic review. Journal of Addictive Diseases, 35(1),
22–35.
152 Woody, G. E., Kane, V., Lewis, K., & Thompson,
R. (2007). Premature deaths after discharge from
methadone maintenance: A replication. Journal of
Addiction Medicine, 1(4), 180–185.
153 Sordo, L., Barrio, G., Bravo, M. J., Indave, I.,
Degenhardt, L., Wiessing, L., Ferri, M., & PastorBarriuso, R. (2017). Mortality risk during and after
opioid substitution treatment: Systematic review and
meta-analysis of cohort studies. BMJ, 357, j1550.
154 Gibson, A., Degenhardt, L., Mattick, R. P., Ali, R.,
White, J., & O’Brien, S. (2008). Exposure to opioid
maintenance treatment reduces long-term mortality.
Addiction, 103(3), 462–468.

3-111

A304

TIP 63

Medications for Opioid Use Disorder

155 Schwartz, R. P., Highﬁeld, D. A., Jaffe, J. H., Brady, J.
V., Butler, C. B., Rouse, C. O., … Battjes, R. J. (2006).
A randomized controlled trial of interim methadone
maintenance. Archives of General Psychiatry, 63(1),
102–109.
156 Yancovitz, S. R., Des Jarlais, D. C., Peyser, N. P., Drew,
E., Friedmann, P., Trigg, H. L., & Robinson, J. W.
(1991). A randomized trial of an interim methadone
maintenance clinic. American Journal of Public Health,
81(9), 1185–1191.
157 Substance Abuse and Mental Health Services
Administration. (2015). Federal guidelines for opioid
treatment programs. HHS Publication No. (SMA)
PEP15-FEDGUIDEOTP. Rockville, MD: Substance Abuse
and Mental Health Services Administration.
158 Martin, W. R., Jasinski, D. R., & Mansky, P. A. (1973).
Naltrexone, an antagonist for the treatment of heroin
dependence: Effects in man. Archives of General
Psychiatry, 28(6), 784–791.
159 Sullivan, M. A., Garawi, F., Bisaga, A., Comer, S. D.,
Carpenter, K., Raby, W. N., … Nunes, E. V. (2007).
Management of relapse in naltrexone maintenance for
heroin dependence. Drug and Alcohol Dependence,
91(2–3), 289–292.
160 American Society of Addiction Medicine. (2015).
National practice guideline for the use of medications
in the treatment of addiction involving opioid use.
Retrieved December 1, 2017, from www.asam.org
/docs/default-source/practice-support/guidelines-and
-consensus-docs/asam-national-practice-guideline
-supplement.pdf?sfvrsn=24

166 Lee, J. D., Nunes, E. V., Jr., Novo, P., Bachrach,
K., Bailey, G. L., Bhatt, S., … Rotrosen J. (2018).
Comparative effectiveness of extended-release
naltrexone versus buprenorphine-naloxone for opioid
relapse prevention (X:BOT): A multicentre, open-label,
randomised controlled trial. Lancet, 391(10118),
309–318.
167 Tanum, L., Solli, K. K., Latif, Z. E., Benth, J. Š.,
Opheim, A., Sharma-Haase, K., … Kunøe, N. (2017).
The effectiveness of injectable extended-release
naltrexone vs daily buprenorphine-naloxone for opioid
dependence: A randomized clinical noninferiority trial.
JAMA Psychiatry, 74(12), 1197–1205.
168 Meyer, M. C., Straughn, A. B., Lo, M. W., Schary, W.
L., & Whitney, C. C. (1984). Bioequivalence, doseproportionality, and pharmacokinetics of naltrexone
after oral administration. Journal of Clinical Psychiatry,
45(9 Pt 2), 15–19.
169 Alkermes. (2015). Vivitrol (naltrexone for extended
release injectable suspension) 380 mg/vial. Retrieved
on January 9, 2018, from www.vivitrol.com/content
/pdfs/prescribing-information.pdf
170 Alkermes. (2015). Vivitrol (naltrexone for extended
release injectable suspension) 380 mg/vial. Retrieved
on January 9, 2018, from www.vivitrol.com/content
/pdfs/prescribing-information.pdf
171 Meyer, M. C., Straughn, A. B., Lo, M. W., Schary, W.
L., & Whitney, C. C. (1984). Bioequivalence, doseproportionality, and pharmacokinetics of naltrexone
after oral administration. Journal of Clinical Psychiatry,
45(9, Pt. 2), 15–19.

161 Minozzi, S., Amato, L., Vecchi, S., Davoli, M.,
Kirchmayer, U., & Verster, A. (2011). Oral naltrexone
maintenance treatment for opioid dependence.
Cochrane Database of Systematic Reviews, 2011(2),
1–45. doi:10.1002/14651858.CD001333.pub3

172 Bigelow, G. E., Preston, K. L., Schmittner, J., Dong, Q.,
& Gastfriend, D. R. (2012). Opioid challenge evaluation
of blockade by extended-release naltrexone in opioidabusing adults: Dose-effects and time-course. Drug and
Alcohol Dependence, 123(1–3), 57–65.

162 Alkermes. (2015). Vivitrol. Retrieved May 21, 2017,
from http://medlibrary.org/lib/rx/meds/vivitrol/page/6

173 Tetrault, J. M., Tate, J. P., McGinnis, K. A., Goulet, J.
L., Sullivan, L. E., Bryant, K., … Fiellin, D. A. (2012).
Hepatic safety and antiretroviral effectiveness in
HIV-infected patients receiving naltrexone. Alcoholism:
Clinical and Experimental Research, 36(2), 318–324.

163 Krupitsky, E., Nunes, E. V., Ling, W., Illeperuma, A.,
Gastfriend, D. R., & Silverman, B. L. (2011). Injectable
extended-release naltrexone for opioid dependence:
A double-blind, placebo-controlled, multicentre
randomised trial. Lancet, 377(9776), 1506–1513.
164 Lee, J. D., Friedmann, P. D., Kinlock, T. W., Nunes, E.
V., Boney, T. Y., Hoskinson, R. A., Jr., … O’Brien, C. P.
(2016). Extended-release naltrexone to prevent opioid
relapse in criminal justice offenders. New England
Journal of Medicine, 374(13), 1232–1242.
165 Krupitsky, E., Nunes, E. V., Ling, W., Illeperuma, A.,
Gastfriend, D. R., & Silverman, B. L. (2011, April 30).
Injectable extended-release naltrexone for opioid
dependence: A double-blind, placebo-controlled,
multicentre randomised trial. Lancet, 377(9776),
1506–1513.

174 Jones, H. E., Kaltenbach, K., Heil, S. H., Stine, S.
M., Coyle, M. G., Arria, A. M., … Fischer, G. (2010).
Neonatal abstinence syndrome after methadone or
buprenorphine exposure. New England Journal of
Medicine, 363(24), 2320–2331.
175 Mozurkewich, E. L., & Rayburn, W. F. (2014).
Buprenorphine and methadone for opioid addiction
during pregnancy. Obstetrics and Gynecology Clinics of
North America, 41(2), 241–253.
176 Alkermes. (2015). Vivitrol. Retrieved October 16, 2017,
from http://medlibrary.org/lib/rx/meds/vivitrol/page/6

3-112

A305

Part 3 of 5—Pharmacotherapy for Opioid Use Disorder

TIP 63

177 Sullivan, M., Bisaga, A., Pavlicova, M., Choi, C. J.,
Mishlen, K., Carpenter, K. M., … Nunes, E. V. (2017).
Long-acting injectable naltrexone induction: A
randomized trial of outpatient opioid detoxiﬁcation
with naltrexone versus buprenorphine. American
Journal of Psychiatry, 174(5), 459–467.

188 Substance Abuse and Mental Health Services
Administration. (2015). Clinical use of extended-release
injectable naltrexone in the treatment of opioid use
disorder: A brief guide. HHS Publication No. (SMA)
14-4892R. Rockville, MD: Substance Abuse and Mental
Health Services Administration.

178 Tetrault, J. M., Tate, J. P., McGinnis, K. A., Goulet, J.
L., Sullivan, L. E., Bryant, K., … Fiellin, D. A. (2012).
Hepatic safety and antiretroviral effectiveness in
HIV-infected patients receiving naltrexone. Alcoholism:
Clinical and Experimental Research, 36(2), 318–324.

189 Sigmon, S. C., Bisaga, A., Nunes, E. V., O’Connor, P. G.,
Kosten, T., & Woody, G. (2012). Opioid detoxiﬁcation
and naltrexone induction strategies: Recommendations
for clinical practice. American Journal of Drug and
Alcohol Abuse, 38(3), 187–199.

179 Crowley, T. J., Wagner, J. E., Zerbe, G., & Macdonald,
M. (1985). Naltrexone-induced dysphoria in former
opioid addicts. American Journal of Psychiatry, 142(9),
1081–1084.

190 Substance Abuse and Mental Health Services
Administration. (2015). Clinical use of extended-release
injectable naltrexone in the treatment of opioid use
disorder: A brief guide. HHS Publication No. (SMA)
14-4892R. Rockville, MD: Substance Abuse and Mental
Health Services Administration.

180 Miotto, K., McCann, M., Basch, J., Rawson, R., & Ling,
W. (2002). Naltrexone and dysphoria: Fact or myth?
American Journal on Addictions, 11(2), 151–160.
181 Substance Abuse and Mental Health Services
Administration. (2015). Clinical use of extended-release
injectable naltrexone in the treatment of opioid use
disorder: A brief guide. HHS Publication No. (SMA)
14-4892R. Rockville, MD: Substance Abuse and Mental
Health Services Administration.
182 National Library of Medicine. (2014). NALTREXONE
HYDROCHLORIDE - naltrexone hydrochloride tablet,
ﬁlm coated DAILY MED. Retrieved October 16, 2017,
from https://dailymed.nlm.nih.gov/dailymed/drugInfo
.cfm?setid=06ff2d5a-e62b-4fa4-bbdb-01938535bc65
183 Substance Abuse and Mental Health Services
Administration. (2015). Clinical use of extended-release
injectable naltrexone in the treatment of opioid use
disorder: A brief guide. HHS Publication No. (SMA)
14-4892R. Rockville, MD: Substance Abuse and Mental
Health Services Administration.
184 Substance Abuse and Mental Health Services
Administration. (2018). Clinical guidance for treating
pregnant and parenting women with opioid use
disorder and their infants. HHS Publication No. (SMA)
18-5054. Rockville, MD: Substance Abuse and Mental
Health Services Administration.
185 Substance Abuse and Mental Health Services
Administration. (2015). Clinical use of extended-release
injectable naltrexone in the treatment of opioid use
disorder: A brief guide. HHS Publication No. (SMA)
14-4892R. Rockville, MD: Substance Abuse and Mental
Health Services Administration.
186 Centers for Disease Control and Prevention. (2016).
Viral hepatitis. Retrieved October 16, 2017, from
www.cdc.gov/hepatitis/hbv/bfaq.htm
187 Nunes, E. V., Krupitsky, E., Ling, W., Zummo, J.,
Memisoglu, A., Silverman, B. L., & Gastfriend, D. R.
(2015). Treating opioid dependence with injectable
extended-release naltrexone (XR-NTX): Who will
respond? Journal of Addiction Medicine, 9(3), 238–243.

191 Sullivan, M. A., Bisaga, A., Mariani, J. J., Glass, A.,
Levin, F. R., Comer, S. D., & Nunes, E. V. (2013).
Naltrexone treatment for opioid dependence: Does its
effectiveness depend on testing the blockade? Drug
and Alcohol Dependence, 133(1), 80–85.
192 Substance Abuse and Mental Health Services
Administration. (2015). Clinical use of extended-release
injectable naltrexone in the treatment of opioid use
disorder: A brief guide. HHS Publication No. (SMA)
14-4892R. Rockville, MD: Substance Abuse and Mental
Health Services Administration.
193 Kosten, T. R., Morgan, C., & Kleber, H. D. (1992). Phase
II clinical trials of buprenorphine: Detoxiﬁcation and
induction onto naltrexone. NIDA Research Monograph,
121, 101–119.
194 Bisaga, A., Sullivan, M. A., Glass, A., Mishlen, K.,
Pavlicova, M., Haney, M., … Nunes, E. V. (2015).
The effects of dronabinol during detoxiﬁcation and
the initiation of treatment with extended release
naltrexone. Drug and Alcohol Dependence, 154,
38–45.
195 Sigmon, S. C., Bisaga, A., Nunes, E. V., O’Connor, P. G.,
Kosten, T., & Woody, G. (2012). Opioid detoxiﬁcation
and naltrexone induction strategies: Recommendations
for clinical practice. American Journal of Drug and
Alcohol Abuse, 38(3), 187–199.
196 Sullivan, M., Bisaga, A., Pavlicova, M., Choi, C. J.,
Mishlen, K., Carpenter, K. M., … Nunes, E. V. (2017).
Long-acting injectable naltrexone induction: A
randomized trial of outpatient opioid detoxiﬁcation
with naltrexone versus buprenorphine. American
Journal of Psychiatry, 174(5), 459–467.
197 Sullivan, M., Bisaga, A., Pavlicova, M., Choi, C. J.,
Mishlen, K., Carpenter, K. M., … Nunes, E. V. (2017).
Long-acting injectable naltrexone induction: A
randomized trial of outpatient opioid detoxiﬁcation
with naltrexone versus buprenorphine. American
Journal of Psychiatry, 174(5), 459–467.

3-113

A306

TIP 63

Medications for Opioid Use Disorder

198 Bisaga, A. (2015). Implementing antagonist-based
relapse prevention treatment for buprenorphinetreated individuals. Providence, RI: Providers’ Clinical
Support System for Medication-Assisted Treatment.

209 Alkermes. (2013). Patient counseling tool: VIVITROL
(naltrexone for extended-release injectable suspension.
Retrieved January 9, 2018, from www.vivitrolrems.com
/content/pdf/patinfo-counseling-tool.pdf

199 Shearer, J., Wodak, A. D., & Dolan, K. A. (2007).
Evaluation of a prison-based naltrexone program.
International Journal of Prisoner Health, 3(3), 214–224.

210 Alkermes. (2015). Key techniques to reduce severe
injection site reactions: VIVITROL (naltrexone for
extended release injectable suspension) intramuscular
injection. Retrieved January 9, 2018, from www
.vivitrolrems.com/content/pdf/patinfo-injection
-poster.pdf

200 Adi, Y., Juarez-Garcia, A., Wang, D., Jowett, S., Frew,
E., Day, E., … Burls, A. (2007). Oral naltrexone as a
treatment for relapse prevention in formerly opioiddependent drug users: A systematic review and
economic evaluation. Health Technology Assessment,
11(6), iii–iv, 1–85.
201 Department of Veterans Affairs & Department of
Defense. (2015). VA/DoD clinical practice guideline for
the management of substance use disorders. Retrieved
October 16, 2017, from www.healthquality.va.gov
/guidelines/MH/sud/VADoDSUDCPGRevised22216.pdf
202 Minozzi, S., Amato, L., Vecchi, S., Davoli, M.,
Kirchmayer, U., & Verster, A. (2011). Oral naltrexone
maintenance treatment for opioid dependence.
Cochrane Database of Systematic Reviews, 2011(2),
1–45.
203 Ling, W., & Wesson, D. R. (1984). Naltrexone treatment
for addicted health-care professionals: A collaborative
private practice experience. Journal of Clinical
Psychiatry, 45(9 Pt. 2), 46–48.
204 Washton, A. M., Gold, M. S., & Pottash, A. C. (1984).
Successful use of naltrexone in addicted physicians
and business executives. Advances in Alcohol and
Substance Abuse, 4(2), 89–96.
205 Sullivan, M. A., Rothenberg, J. L., Vosburg, S. K.,
Church, S. H., Feldman, S. J., Epstein, E. M., … Nunes,
E. V. (2006). Predictors of retention in naltrexone
maintenance for opioid dependence: Analysis of a
Stage I trial. American Journal on Addictions, 15(2),
150–159.
206 Sullivan, M. A., Garawi, F., Bisaga, A., Comer, S. D.,
Carpenter, K., Raby, W. N., … Nunes, E. V. (2007).
Management of relapse in naltrexone maintenance for
heroin dependence. Drug and Alcohol Dependence,
91(2–3), 289–292.
207 Sullivan, M. A., Garawi, F., Bisaga, A., Comer, S. D.,
Carpenter, K., Raby, W. N., … Nunes, E. V. (2007).
Management of relapse in naltrexone maintenance for
heroin dependence. Drug and Alcohol Dependence,
91(2–3), 289–292.
208 American Society of Addiction Medicine. (2017).
Sample treatment agreement. Retrieved October 19,
2017, from www.asam.org/docs/default-source
/advocacy/sample-treatment-agreement30fa159472bc
604ca5b7ff000030b21a.pdf?sfvrsn=0

211 Mattick, R. P., Breen, C., Kimber, J., & Davoli, M.
(2014). Buprenorphine maintenance versus placebo
or methadone maintenance for opioid dependence.
Cochrane Database of Systematic Reviews, 2014(2),
1–84.
212 Caldiero, R. M., Parran, T. J., Adelman, C. L., &
Piche, B. (2006). Inpatient initiation of buprenorphine
maintenance vs. detoxiﬁcation: Can retention of
opioid-dependent patients in outpatient counseling be
improved? American Journal on Addictions, 15(1), 1–7.
213 Weiss, R. D., Potter, J. S., Fiellin, D. A., Byrne, M.,
Connery, H. S., Dickinson, W., … Ling, W. (2011).
Adjunctive counseling during brief and extended
buprenorphine-naloxone treatment for prescription
opioid dependence: A 2-phase randomized controlled
trial. Archives of General Psychiatry, 68(12), 1238–1246.
214 Fiellin, D. A., Moore, B. A., Sullivan, L. E., Becker, W.
C., Pantalon, M. V., Chawarski, M. C., … Schottenfeld,
R. S. (2008). Long-term treatment with buprenorphine/
naloxone in primary care: Results at 2–5 years.
American Journal on Addictions, 17(2), 116–120.
215 Edelman, E. J., Chantarat, T., Caffrey, S., Chaudhry, A.,
O’Connor, P. G., Weiss, L., … Fiellin, L. E. (2014). The
impact of buprenorphine/naloxone treatment on HIV
risk behaviors among HIV-infected, opioid-dependent
patients. Drug and Alcohol Dependence, 139, 79–85.
216 Sullivan, L. E., Moore, B. A., Chawarski, M. C., Pantalon,
M. V., Barry, D., O’Connor, P. G., … Fiellin, D. A. (2008).
Buprenorphine/naloxone treatment in primary care is
associated with decreased human immunodeﬁciency
virus risk behaviors. Journal of Substance Abuse
Treatment, 35(1), 87–92.
217 Auriacombe, M., Fatséas, M., Dubernet, J., Daulouède,
J. P., & Tignol, J. (2004). French ﬁeld experience with
buprenorphine. American Journal on Addictions,
13(Suppl. 1), S17–S28.
218 Degenhardt, L., Randall, D., Hall, W., Law, M., Butler,
T., & Burns, L. (2009). Mortality among clients of a
state-wide opioid pharmacotherapy program over 20
years: Risk factors and lives saved. Drug and Alcohol
Dependence, 105(1–2), 9–15.
219 Herget, G. (2005). Methadone and buprenorphine
added to the WHO list of essential medicines. HIV/
AIDS Policy and Law Review, 10(3), 23–24.

3-114

A307

Part 3 of 5—Pharmacotherapy for Opioid Use Disorder

220 Department of Veterans Affairs & Department of
Defense. (2015). VA/DoD clinical practice guideline for
the management of substance use disorders. Retrieved
October 16, 2017, from substance use disorders.
Retrieved October 16, 2017, from www.healthquality
.va.gov/guidelines/MH/sud/VADoDSUDCPG
Revised22216.pdf
221 Orexo US. (2016). Zubsolv (buprenorphine and
naloxone) sublingual tablets: Full prescribing
information. Retrieved October 16, 2017, from
www.zubsolv.com/wp-content/uploads/2015/01
/ZubsolvFullPrescribingInformation.pdf

231 Food and Drug Administration. (n.d.). Drugs@FDA:
FDA approved drug products. Retrieved October 16,
2017, from www.accessdata.fda.gov/scripts/cder
/drugsatfda/index.cfm
232 Roxane Laboratories. (2015). Buprenorphine HCl
sublingual tablets: Full prescribing information.
Retrieved October 16, 2017, from http://dailymed
.nlm.nih.gov/dailymed/drugInfo.cfm?setid=1bf8b35a
-b769-465c-a2f8-099868dfcd2f
233 Indivior. (2015). Suboxone (buprenorphine and
naloxone) sublingual ﬁlm: Full prescribing information.
Retrieved October 16, 2017, from www.suboxone.com
/content/pdfs/prescribing-information.pdf

222 BioDelivery Sciences International. (2015). Bunavail
(buprenorphine and naloxone) buccal ﬁlm: Full
prescribing information. Retrieved from https://
bunavail.com/hcp/assets/pdfs/BUNAVAIL_Full
_Prescribing_Information.pdf
223 BioDelivery Sciences International. (2015). Bunavail
(buprenorphine and naloxone) buccal ﬁlm: Full
prescribing information. Retrieved October 16, 2017,
from https://bunavail.com/hcp/assets/pdfs/BUNAVAIL
_Full_Prescribing_Information.pdf
224 Food and Drug Administration. (n.d.). Drugs@FDA:
FDA approved drug products. Retrieved October 16,
2017, through www.accessdata.fda.gov/scripts/cder
/drugsatfda/index.cfm

234 Substance Abuse and Mental Health Services
Administration. (2016). Sublingual and transmucosal
buprenorphine for opioid use disorder: Review
and update. Advisory, Vol. 15, Issue 1. Rockville,
MD: Substance Abuse and Mental Health Services
Administration.
235 Indivor. (2017). Label: Sublocade (buprenorphine
extended-release injection, for subcutaneous use.
Retrieved January 9, 2018, from www.accessdata.fda
.gov/drugsatfda_docs/label/2017/209819s000lbl.pdf
236 Amass, L., Kamien, J. B., & Mikulich, S. K. (2001).
Thrice-weekly supervised dosing with the combination
buprenorphine-naloxone tablet is preferred to daily
supervised dosing by opioid-dependent humans. Drug
and Alcohol Dependence, 61(2), 173–181.

225 Roxane Laboratories. (2015). Buprenorphine
and naloxone sublingual tablets: Full prescribing
information. Retrieved October 16, 2017, from
http://dailymed.nlm.nih.gov/dailymed/drugInfo.cfm
?setid=713db2c6-0544-4633-b874-cfbeaf93db89

237 Schottenfeld, R. S., Pakes, J., O’Connor, P., Chawarski,
M., Oliveto, A., & Kosten, T. R. (2000). Thrice-weekly
versus daily buprenorphine maintenance. Biological
Psychiatry, 47(12), 1072–1079.

226 Food and Drug Administration. (n.d.). Drugs@FDA:
FDA approved drug products. Retrieved October 16,
2017, through www.accessdata.fda.gov/scripts/cder
/drugsatfda/index.cfm

238 Walsh, S. L., Preston, K. L., Stitzer, M. L., Cone, E.
J., & Bigelow, G. E. (1994). Clinical pharmacology of
buprenorphine: Ceiling effects at high doses. Clinical
Pharmacology and Therapeutics, 55(5), 569–580.

227 Roxane Laboratories. (2015). Buprenorphine HCl
sublingual tablets: Full prescribing information.
Retrieved October 16, 2017, from http://dailymed
.nlm.nih.gov/dailymed/drugInfo.cfm?setid=1bf8b35a
-b769-465c-a2f8-099868dfcd2f

239 Elkader, A., & Sproule, B. (2005). Buprenorphine:
Clinical pharmacokinetics in the treatment of opioid
dependence. Clinical Pharmacokinetics, 44(7), 661–680.

228 Food and Drug Administration. (n.d.). Drugs@FDA:
FDA approved drug products. Retrieved October 16,
2017, from www.accessdata.fda.gov/scripts/cder
/drugsatfda/index.cfm
229 Indivior. (2015). Suboxone (buprenorphine and
naloxone) sublingual ﬁlm: Full prescribing information.
Retrieved October 16, 2017, from www.suboxone.com
/content/pdfs/prescribing-information.pdf
230 Orexo US. (2015). Zubsolv (buprenorphine and
naloxone) sublingual tablets: Full prescribing
information. Retrieved October 16, 2017, from
www.zubsolv.com/wp-content/uploads/2015/01
/ZubsolvFullPrescribingInformation.pdf

TIP 63

240 Kuhlman, J. J., Jr., Levine, B., Johnson, R. E., Fudala,
P. J., & Cone, E. J. (1998). Relationship of plasma
buprenorphine and norbuprenorphine to withdrawal
symptoms during dose induction, maintenance and
withdrawal from sublingual buprenorphine. Addiction,
93(4), 549–559.
241 Indivor. (2016). Label: Suboxone – buprenorphine
hydrochloride, naloxone hydrochloride ﬁlm, soluble.
Retrieved January 9, 2018, from https://dailymed
.nlm.nih.gov/dailymed/drugInfo.cfm?setid
=8a5edcf9-828c-4f97-b671-268ab13a8ecd
242 Marsch, L. A., Bickel, W. K., Badger, G. J., & Jacobs,
E. A. (2005). Buprenorphine treatment for opioid
dependence: The relative efﬁcacy of daily, twice and
thrice weekly dosing. Drug & Alcohol Dependence,
77(2), 195–204.

3-115

A308

TIP 63

Medications for Opioid Use Disorder

243 Jones, J. D., Sullivan, M. A., Vosburg, S. K., Manubay,
J. M., Mogali, S., Metz, V., & Comer, S. D. (2015).
Abuse potential of intranasal buprenorphine versus
buprenorphine/naloxone in buprenorphine-maintained
heroin users. Addiction Biology, 20(4), 784–798.

255 Saxon, A. J., Ling, W., Hillhouse, M., Thomas,
C., Hasson, A., Ang, A., … Jacobs, P. (2013).
Buprenorphine/naloxone and methadone effects on
laboratory indices of liver health: A randomized trial.
Drug and Alcohol Dependence, 128(1–2), 71–76.

244 Walsh, S. L., Nuzzo, P. A., Babalonis, S., Casselton, V.,
& Lofwall, M. R. (2016). Intranasal buprenorphine alone
and in combination with naloxone: Abuse liability and
reinforcing efﬁcacy in physically dependent opioid
abusers. Drug and Alcohol Dependence, 162, 190–198.

256 Roxane Laboratories. (2015). Buprenorphine HCl
sublingual tablets: Full prescribing information.
Retrieved October 16, 2017, from http://dailymed
.nlm.nih.gov/dailymed/drugInfo.cfm?setid=1bf8b35a
-b769-465c-a2f8-099868dfcd2f

245 Indivior. (2017). Sublocade (buprenorphine extendedrelease) injection: Full prescribing information.
Retrieved December 18, 2017, from www.accessdata
.fda.gov/drugsatfda_docs/label/2017/209819s000lbl
.pdf

257 Roxane Laboratories. (2015). Buprenorphine HCl
sublingual tablets: Full prescribing information.
Retrieved October 16, 2017, from http://dailymed
.nlm.nih.gov/dailymed/drugInfo.cfm?setid=1bf8b35a
-b769-465c-a2f8-099868dfcd2f

246 Elkader, A., & Sproule, B. (2005). Buprenorphine:
Clinical pharmacokinetics in the treatment of opioid
dependence. Clinical Pharmacokinetics, 44(7), 661–680.

258 Nasser, A. F., Heidbreder, C., Liu, Y., & Fudala, P. J.
(2015). Pharmacokinetics of sublingual buprenorphine
and naloxone in subjects with mild to severe hepatic
impairment (Child-Pugh classes A, B, and C), in
hepatitis C virus-seropositive subjects, and in healthy
volunteers. Clinical Pharmacokinetics, 54(8), 837–849.

247 Zhang, W., Ramamoorthy, Y., Tyndale, R. F., & Sellers,
E. M. (2003). Interaction of buprenorphine and its
metabolite norbuprenorphine with cytochromes
p450 in vitro. Drug Metabolism and Disposition: The
Biological Fate of Chemicals, 31(6), 768–772.

259 Durand, F., & Valla, D. (2008). Assessment of prognosis
of cirrhosis. Seminars in Liver Disease, 28(1), 110–122.

248 McCance-Katz, E. F., Sullivan, L. E., & Nallani, S. (2010).
Drug interactions of clinical importance among the
opioids, methadone and buprenorphine, and other
frequently prescribed medications: A review. American
Journal on Addictions, 19(1), 4–16.
249 Lofwall, M. R., & Walsh, S. L. (2014). A review of
buprenorphine diversion and misuse: The current
evidence base and experiences from around the world.
Journal of Addiction Medicine, 8(5), 315–326.
250 Lofwall, M. R., & Walsh, S. L. (2014). A review of
buprenorphine diversion and misuse: The current
evidence base and experiences from around the world.
Journal of Addiction Medicine, 8(5), 315–326.
251 Selden, T., Ahlner, J., Druid, H., & Kronstrand, R. (2012).
Toxicological and pathological ﬁndings in a series of
buprenorphine related deaths. Possible risk factors for
fatal outcome. Forensic Science International, 220(1–3),
284–290.
252 Hakkinen, M., Launiainen, T., Vuori, E., & Ojanpera, I.
(2012). Benzodiazepines and alcohol are associated
with cases of fatal buprenorphine poisoning. European
Journal of Clinical Pharmacology, 68(3), 301–309.
253 Indivior. (2015). Suboxone (buprenorphine and
naloxone) sublingual ﬁlm: Full prescribing information.
Retrieved October 16, 2017, from www.suboxone.com
/content/pdfs/prescribing-information.pdf
254 Toce, M. S., Burns, M. M., & O’Donnell, K. A. (2017).
Clinical effects of unintentional pediatric buprenorphine
exposures: Experience at a single tertiary care center.
Clinical Toxicology (Philadelphia, Pa.), 55(1), 12–17.

260 Durand, F., & Valla, D. (2008). Assessment of prognosis
of cirrhosis. Seminars in Liver Disease, 28(1), 110–122.
261 Indivior. (2015). Suboxone (buprenorphine and
naloxone) sublingual ﬁlm: Full prescribing information.
Retrieved October 16, 2017, from www.suboxone.com/
content/pdfs/prescribing-information.pdf
262 Nasser, A. F., Heidbreder, C., Liu, Y., & Fudala, P. J.
(2015). Pharmacokinetics of sublingual buprenorphine
and naloxone in subjects with mild to severe hepatic
impairment (Child-Pugh classes A, B, and C), in
hepatitis C virus-seropositive subjects, and in healthy
volunteers. Clinical Pharmacokinetics, 54(8), 837–849.
263 Roxane Laboratories. (2015). Buprenorphine HCl
sublingual tablets: Full prescribing information.
Retrieved October 16, 2017, from http://dailymed
.nlm.nih.gov/dailymed/drugInfo.cfm?setid=1bf8b35a
-b769-465c-a2f8-099868dfcd2f
264 Indivior. (2015). Suboxone (buprenorphine and
naloxone) sublingual ﬁlm: Full prescribing information.
Retrieved October 16, 2017, from www.suboxone.com
/content/pdfs/prescribing-information.pdf
265 Nasser, A. F., Heidbreder, C., Liu, Y., & Fudala, P. J.
(2015). Pharmacokinetics of sublingual buprenorphine
and naloxone in subjects with mild to severe hepatic
impairment (Child-Pugh classes A, B, and C), in
hepatitis C virus-seropositive subjects, and in healthy
volunteers. Clinical Pharmacokinetics, 54(8), 837–849.
266 Durand, F., & Valla, D. (2008). Assessment of prognosis
of cirrhosis. Seminars in Liver Disease, 28(1), 110–122.

3-116

A309

Part 3 of 5—Pharmacotherapy for Opioid Use Disorder

267 Nasser, A. F., Heidbreder, C., Liu, Y., & Fudala, P. J.
(2015). Pharmacokinetics of sublingual buprenorphine
and naloxone in subjects with mild to severe hepatic
impairment (Child-Pugh classes A, B, and C), in
hepatitis C virus-seropositive subjects, and in healthy
volunteers. Clinical Pharmacokinetics, 54(8), 837–849.
268 Roxane Laboratories. (2015). Buprenorphine HCl
sublingual tablets: Full prescribing information.
Retrieved October 16, 2017, from http://dailymed
.nlm.nih.gov/dailymed/drugInfo.cfm?setid=1bf8b35a
-b769-465c-a2f8-099868dfcd2f
269 Nasser, A. F., Heidbreder, C., Liu, Y., & Fudala, P. J.
(2015). Pharmacokinetics of sublingual buprenorphine
and naloxone in subjects with mild to severe hepatic
impairment (Child-Pugh classes A, B, and C), in
hepatitis C virus-seropositive subjects, and in healthy
volunteers. Clinical Pharmacokinetic, 54(8), 837–849.
270 Substance Abuse and Mental Health Services
Administration. (2016). Sublingual and transmucosal
buprenorphine for opioid use disorder: Review
and update. Advisory, Vol. 15, Issue 1. Rockville,
MD: Substance Abuse and Mental Health Services
Administration.
271 Lofwall, M. R., & Walsh, S. L. (2014). A review of
buprenorphine diversion and misuse: The current
evidence base and experiences from around the world.
Journal of Addiction Medicine, 8(5), 315–326.
272 Lofwall, M. R., Martin, J., Tierney, M., Fatseas, M.,
Auriacombe, M., & Lintzeris, N. (2014). Buprenorphine
diversion and misuse in outpatient practice. Journal of
Addiction Medicine, 8(5), 327–332.
273 Indivior. (2016). Suboxone (buprenorphine and
naloxone) sublingual ﬁlm: Full prescribing information.
Retrieved October 16, 2017, from www.suboxone.com
/content/pdfs/prescribing-information.pdf
274 Indivior. (2016). Suboxone (buprenorphine and
naloxone) sublingual ﬁlm: Full prescribing information.
Retrieved October 16, 2017, from www.suboxone.com
/content/pdfs/prescribing-information.pdf
275 Strain, E. C., & Lofwall, M. R. (Eds.). (2008).
Buprenorphine. The American Psychiatric Publishing
textbook of substance abuse treatment (4th ed.).
Arlington, VA: American Psychiatric Publishing.

TIP 63

278 Rosado, J., Walsh, S. L., Bigelow, G. E., & Strain,
E. C. (2007). Sublingual buprenorphine/naloxone
precipitated withdrawal in subjects maintained
on 100mg of daily methadone. Drug and Alcohol
Dependence, 90(2–3), 261–269.
279 Walsh, S. L., June, H. L., Schuh, K. J., Preston, K.
L., Bigelow, G. E., & Stitzer, M. L. (1995). Effects
of buprenorphine and methadone in methadonemaintained subjects. Psychopharmacology, 119(3),
268–276.
280 Jones, H. E., Dengler, E., Garrison, A., O’Grady, K.
E., Seashore, C., Horton, E., … Thorp, J. (2014).
Neonatal outcomes and their relationship to maternal
buprenorphine dose during pregnancy. Drug and
Alcohol Dependence, 134, 414–417.
281 Cleary, B. J., Reynolds, K., Eogan, M., O’Connell, M.
P., Fahey, T., Gallagher, P. J., … Murphy, D. J. (2014).
Methadone dosing and prescribed medication use in
a prospective cohort of opioid-dependent pregnant
women. Addiction, 108(4), 762–770.
282 Kaltenbach, K., Holbrook, A. M., Coyle, M. G., Heil, S.
H., Salisbury, A. L. Stine, S. M., … Jones, H. E. (2012).
Predicting treatment for neonatal abstinence syndrome
in infants born to women maintained on opioid agonist
medication. Addiction, 107(Suppl. 1), 45–52.
283 McCance-Katz, E. F., Sullivan, L. E., & Nallani, S. (2010).
Drug interactions of clinical importance among the
opioids, methadone and buprenorphine, and other
frequently prescribed medications: A review. American
Journal on Addictions, 19(1), 4–16.
284 Center for Substance Abuse Treatment. (2004).
Clinical guidelines for the use of buprenorphine in the
treatment of opioid addiction. Treatment Improvement
Protocol (TIP) Series 40. HHS Publication No. (SMA)
04-3939. Rockville, MD: Substance Abuse and Mental
Health Services Administration.
285 Indivior. (2016). Suboxone (buprenorphine and
naloxone) sublingual ﬁlm: Full prescribing information.
Retrieved October 16, 2017, from www.suboxone.com
/content/pdfs/prescribing-information.pdf
286 McCance-Katz, E. F., Moody, D. E., Morse, G. D.,
Ma, Q., DiFrancesco, R., Friedland, G., … Rainey, P.
M. (2007). Interaction between buprenorphine and
atazanavir or atazanavir/ritonavir. Drug and Alcohol
Dependence, 91(2–3), 269–278.

276 Walsh, S. L., June, H. L., Schuh, K. J., Preston, K.
L., Bigelow, G. E., & Stitzer, M. L. (1995). Effects
of buprenorphine and methadone in methadonemaintained subjects. Psychopharmacology, 119(3),
268–276.
277 Strain, E. C., Preston, K. L., Liebson, I. A., & Bigelow,
G. E. (1995). Buprenorphine effects in methadonemaintained volunteers: Effects at two hours after
methadone. Journal of Pharmacology and Experimental
Therapeutics, 272(2), 628–638.

287 Bruce, R. D., & Altice, F. L. (2006). Three case
reports of a clinical pharmacokinetic interaction with
buprenorphine and atazanavir plus ritonavir. AIDS,
20(5), 783–784.
288 Vergara-Rodriguez, P., Tozzi, M. J., Botsko, M., Nandi,
V., Altice, F., Egan, J. E., … Fiellin, D. A. (2011).
Hepatic safety and lack of antiretroviral interactions
with buprenorphine/naloxone in HIV-infected opioiddependent patients. Journal of Acquired Immune
Deﬁciency Syndromes, 56(Suppl. 1), S62–S67.

3-117

A310

TIP 63

Medications for Opioid Use Disorder

289 McCance-Katz, E. F., Moody, D. E., Prathikanti, S.,
Friedland, G., & Rainey, P. M. (2011). Rifampin, but
not rifabutin, may produce opiate withdrawal in
buprenorphine-maintained patients. Drug and Alcohol
Dependence, 118(2–3), 326–334.
290 Roxane Laboratories. (2015). Buprenorphine HCl
sublingual tablets: Full prescribing information.
Retrieved October 16, 2017, from http://dailymed
.nlm.nih.gov/dailymed/drugInfo.cfm?setid=1bf8b35a
-b769-465c-a2f8-099868dfcd2f

299 McCance-Katz, E. F., Moody, D. E., Morse, G. D.,
Friedland, G., Pade, P., Baker, J., … Rainey, P. M. (2006).
Interactions between buprenorphine and antiretrovirals.
I. The nonnucleoside reverse-transcriptase inhibitors
efavirenz and delavirdine. Clinical Infectious Diseases,
43(Suppl. 4), S224–S234.
300 Bruce, R. D., Winkle, P., Custodio, J., Yin, X., Rhee, M.,
Andrews, J., … Ramanathan, S. (2012, September).
Pharmacokinetics of cobicistat-boosted elvitegravir
administered in combination with methadone or
buprenorphine/naloxone. Paper presented at the 52nd
Interscience Conference on Antimicrobial Agents and
Chemotherapy, San Francisco, CA.

291 McCance-Katz, E. F., Moody, D. E., Morse, G. D.,
Ma, Q., DiFrancesco, R., Friedland, G., … Rainey, P.
M. (2007). Interaction between buprenorphine and
atazanavir or atazanavir/ritonavir. Drug and Alcohol
Dependence, 91(2–3), 269–278.

301 McCance-Katz, E. F., Moody, D. E., Morse, G. D.,
Ma, Q., & Rainey, P. M. (2010). Lack of clinically
signiﬁcant drug interactions between nevirapine and
buprenorphine. American Journal on Addictions, 19(1),
30–37.

292 McCance-Katz, E. F., Moody, D. E., Morse, G. D.,
Ma, Q., DiFrancesco, R., Friedland, G., … Rainey, P.
M. (2007). Interaction between buprenorphine and
atazanavir or atazanavir/ritonavir. Drug and Alcohol
Dependence, 91(2–3), 269–278.
293 Bruce, R. D., Moody, D. E., Altice, F. L., Gourevitch,
M. N., & Friedland, G. H. (2013). A review of
pharmacological interactions between HIV or hepatitis
C virus medications and opioid agonist therapy:
Implications and management for clinical practice.
Expert Review of Clinical Pharmacology, 6(3), 249–269.
294 Roxane Laboratories. (2015). Buprenorphine HCl
sublingual tablets: Full prescribing information.
Retrieved October 16, 2017, from http://dailymed.nlm
.nih.gov/dailymed/drugInfo.cfm?setid=1bf8b35a
-b769-465c-a2f8-099868dfcd2f
295 Bruce, R. D., Moody, D. E., Altice, F. L., Gourevitch,
M. N., & Friedland, G. H. (2013). A review of
pharmacological interactions between HIV or hepatitis
C virus medications and opioid agonist therapy:
Implications and management for clinical practice.
Expert Review of Clinical Pharmacology, 6(3), 249–269.
296 Gruber, V. A., Rainey, P. M., Moody, D. E., Morse, G. D.,
Ma, Q., Prathikanti, S., … McCance-Katz, E. F. (2012).
Interactions between buprenorphine and the protease
inhibitors darunavir-ritonavir and fosamprenavirritonavir. Clinical Infectious Diseases, 54(3), 414–423.
297 Bruce, R. D., Moody, D. E., Altice, F. L., Gourevitch,
M. N., & Friedland, G. H. (2013). A review of
pharmacological interactions between HIV or hepatitis
C virus medications and opioid agonist therapy:
Implications and management for clinical practice.
Expert Review of Clinical Pharmacology, 6(3), 249–269.
298 McCance-Katz, E. F., Moody, D. E., Morse, G. D.,
Friedland, G., Pade, P., Baker, J., … Rainey, P. M. (2006).
Interactions between buprenorphine and antiretrovirals.
I. The nonnucleoside reverse-transcriptase inhibitors
efavirenz and delavirdine. Clinical Infectious Diseases,
43(Suppl. 4), S224–S234.

302 McCance-Katz, E. F., Moody, D. E., Smith, P. F., Morse,
G. D., Friedland, G., Pade, P., … Rainey, P. (2006).
Interactions between buprenorphine and antiretrovirals.
II. The protease inhibitors nelﬁnavir, lopinavir/ritonavir,
and ritonavir. Clinical Infectious Diseases, 43(Suppl. 4),
S235–S246.
303 Bruce, R. D., Altice, F. L., Moody, D. E., Lin, S. N.,
Fang, W. B., Sabo, J. P., … Friedland, G. H. (2009).
Pharmacokinetic interactions between buprenorphine/
naloxone and tipranavir/ritonavir in HIV-negative
subjects chronically receiving buprenorphine/naloxone.
Drug and Alcohol Dependence, 105(3), 234–239.
304 Substance Abuse and Mental Health Services
Administration. (2016). Sublingual and transmucosal
buprenorphine for opioid use disorder: Review
and update. Advisory, Vol. 15, Issue 1. Rockville,
MD: Substance Abuse and Mental Health Services
Administration.
305 Isenberg, D., Wong, S. C., & Curtis, J. A. (2008).
Serotonin syndrome triggered by a single dose of
Suboxone. American Journal of Emergency Medicine,
26(7), 840.e3–840.e5.
306 Substance Abuse and Mental Health Services
Administration. (2018). Clinical guidance for treating
pregnant and parenting women with opioid use
disorder and their infants. HHS Publication No. (SMA)
18-5054. Rockville, MD: Substance Abuse and Mental
Health Services Administration.
307 Soyka, M. (2013). Buprenorphine use in pregnant
opioid users: A critical review. CNS Drugs, 27(8),
653–662.
308 Saxon, A. J., Ling, W., Hillhouse, M., Thomas,
C., Hasson, A., Ang, A., … Jacobs, P. (2013).
Buprenorphine/naloxone and methadone effects on
laboratory indices of liver health: A randomized trial.
Drug and Alcohol Dependence, 128(1–2), 71–76.

3-118

A311

Part 3 of 5—Pharmacotherapy for Opioid Use Disorder

309 Vergara-Rodriguez, P., Tozzi, M. J., Botsko, M., Nandi,
V., Altice, F., Egan, J. E., … Fiellin, D. A. (2011).
Hepatic safety and lack of antiretroviral interactions
with buprenorphine/naloxone in HIV-infected opioiddependent patients. Journal of Acquired Immune
Deﬁciency Syndromes, 56(Suppl. 1), S62–S67.
310 Centers for Disease Control and Prevention. (2016).
Viral hepatitis. Retrieved October 16, 2017, from
www.cdc.gov/hepatitis/hbv/bfaq.htm
311 Lofwall, M. R., & Havens, J. R. (2012). Inability to
access buprenorphine treatment as a risk factor for
using diverted buprenorphine. Drug and Alcohol
Dependence, 126(3), 379–383.
312 Bazazi, A. R., Yokell, M., Fu, J. J., Rich, J. D., & Zaller,
N. D. (2011). Illicit use of buprenorphine/naloxone
among injecting and noninjecting opioid users. Journal
of Addiction Medicine, 5(3), 175–180.
313 Moratti, E., Kashanpour, H., Lombardelli, T., & Maisto,
M. (2010). Intravenous misuse of buprenorphine:
Characteristics and extent among patients undergoing
drug maintenance therapy. Clinical Drug Investigation,
30(Suppl. 1), 3–11.

TIP 63

320 American Society of Addiction Medicine. (2015).
The ASAM national practice guideline for the use of
medications in the treatment of addiction involving
opioid use. Chevy Chase, MD: Author.
321 Providers Clinical Support System for Medication
Assisted Treatment. (2013, November). PCSS
Guidance. Retrieved December 18, 2017, from http://
pcssmat.org/wp-content/uploads/2014/02/PCSS-MAT
GuidanceBuprenorphineInduction.Casadonte.pdf
322 Tompkins, D. A., & Strain, E. C. (2011). Buprenorphine
in the treatment of opioid dependence. In P. Ruiz & E.
C. Strain (Eds.), Substance abuse. A comprehensive
textbook (5th ed., pp. 437–446). Philadelphia, PA:
Wolters Kluwer.
323 Indivior. (2016). Suboxone (buprenorphine and
naloxone) sublingual ﬁlm: Full prescribing information.
Retrieved October 16, 2017, from www.suboxone.com
/content/pdfs/prescribing-information.pdf
324 Strain, E. C. (2006). Clinical use of buprenorphine. In E.
C. Strain & M. L. Stitzer (Eds.) The treatment of opioid
dependence (pp. 230–252). Baltimore, MD: Johns
Hopkins University Press.

314 Braeburn Pharmaceuticals. (2016). Probuphine
(buprenorphine) implant: Full prescribing information.
Retrieved October 16, 2017, from www.accessdata.fda
.gov/drugsatfda_docs/label/2016/204442Orig1s000lbl
.pdf

325 Rich, J. D., McKenzie, M., Dickman, S., Bratberg, J.,
Lee, J. D., & Schwartz, R. P. (2011). An adverse reaction
to buprenorphine/naloxone induction in prison: A case
report. Addictive Disorders and Their Treatment, 10(4),
199–200.

315 Braeburn Pharmaceuticals. (2016). Probuphine
(buprenorphine) implant: Full prescribing information.
Retrieved October 16, 2017, from www.accessdata.fda
.gov/drugsatfda_docs/label/2016/204442Orig1s000lbl
.pdf

326 Vocci, F. J., Schwartz, R. P., Wilson, M. E., Gordon, M.
S., Kinlock, T. W., Fitzgerald, T. T., … Jaffe, J. H. (2015).
Buprenorphine dose induction in non-opioid-tolerant
pre-release prisoners. Drug and Alcohol Dependence,
156, 133–138.

316 Center for Substance Abuse Treatment. (2004).
Clinical guidelines for the use of buprenorphine in the
treatment of opioid addiction. Treatment Improvement
Protocol (TIP) Series 40. HHS Publication No. (SMA)
04-3939. Rockville, MD: Substance Abuse and Mental
Health Services Administration.

327 Tompkins, D. A., & Strain, E. C. (2011). Buprenorphine
in the treatment of opioid dependence. In P. Ruiz & E.
C. Strain (Eds.), Substance abuse: A comprehensive
textbook (5th ed., pp. 437–446). Philadelphia, PA:
Wolters Kluwer.

317 Walley, A. Y., Alperen, J. K., Cheng, D. M., Botticelli,
M., Castro-Donlan, C., Samet, J. H., & Alford, D.
P. (2008). Ofﬁce-based management of opioid
dependence with buprenorphine: Clinical practices and
barriers. Journal of General Internal Medicine, 23(9),
1393–1398.
318 Gunderson, E. W., Wang, X. Q., Fiellin, D. A., Bryan,
B., & Levin, F. R. (2010). Unobserved versus observed
ofﬁce buprenorphine/naloxone induction: A pilot
randomized clinical trial. Addictive Behaviors, 35(5),
537–540.
319 Lee, J. D., Vocci, F., & Fiellin, D. A. (2014). Unobserved
“home” induction onto buprenorphine. Journal of
Addiction Medicine, 8(5), 299–308.

328 Rosado, J., Walsh, S. L., Bigelow, G. E., & Strain,
E. C. (2007). Sublingual buprenorphine/naloxone
precipitated withdrawal in subjects maintained
on 100mg of daily methadone. Drug and Alcohol
Dependence, 90(2–3), 261–269.
329 Zubieta, J., Greenwald, M. K., Lombardi, U.,
Woods, J. H., Kilbourn, M. R., Jewett, D. M., …
Johanson, C. E. (2000). Buprenorphine-induced
changes in mu-opioid receptor availability in male
heroin-dependent volunteers: A preliminary study.
Neuropsychopharmacology, 23(3), 326–334.
330 Hser, Y., Saxon, A. J., Huang, D., Hasson, A.,
Thomas, C., Hillhouse, M. … Ling, W. (2014).
Treatment retention among patients randomized to
buprenorphine/naloxone compared to methadone in a
multi-site trial. Addiction, 109(1), 79–87.

3-119

A312

TIP 63

Medications for Opioid Use Disorder

331 American College of Obstetricians and Gynecologists
Committee Opinion. (2017, August). Opioid use
and opioid use disorder in pregnancy. Number 711.
Retrieved October 30, 2017, from www.acog.org
/Resources-And-Publications/Committee-Opinions
/Committee-on-Obstetric-Practice/Opioid-Use-and
-Opioid-Use-Disorder-in-Pregnancy

341 Henry-Edwards, S., Gowing, L., White, J., Ali, R.,
Bell, J., Brough, R., … Quigley, A. (2003). Clinical
guidelines and procedures for the use of methadone
in the maintenance treatment of opioid dependence.
Publication approval number: 3263 (JN 7616).

332 Debelak, K., Morrone, W. R., O’Grady, K. E., &
Jones, H. E. (2013). Buprenorphine + naloxone in the
treatment of opioid dependence during pregnancyinitial patient care and outcome data. American Journal
on Addictions, 22, 252–254.
333 Wiegand, S. L., Stringer, E. M., Stuebe, A. M., Jones,
H., Seashore, C., & Thorp, J. (2015). Buprenorphine
and naloxone compared with methadone treatment in
pregnancy. Obstetrics & Gynecology, 125, 363–368.
334 American Society of Addiction Medicine. (2015).
The ASAM national practice guideline for the use of
medications in the treatment of addiction involving
opioid use. Chevy Chase, MD: Author.
335 Substance Abuse and Mental Health Services
Administration. (2018). Clinical guidance for treating
pregnant and parenting women with opioid use
disorder and their infants. HHS Publication No. (SMA)
18-5054. Rockville, MD: Substance Abuse and Mental
Health Services Administration.
336 Chavoustie, S., Frost, M., Snyder, O., Owen, J.,
Darwish, M., Dammerman, R., & Sanjurjo, V. (2017).
Buprenorphine implants in medical treatment of opioid
addiction. Expert Review of Clinical Pharmacology,
10(8), 799–807.
337 Hser, Y. I., Huang, D., Saxon, A. J., Woody, G.,
Moskowitz, A. L., Matthews, A. G., & Ling, W.
(2017). Distinctive trajectories of opioid use over an
extended follow-up of patients in a multisite trial on
buprenorphine + naloxone and methadone. Journal of
Addiction Medicine, 11(1), 63–69.
338 Ling, W., Hillhouse, M., Domier, C., Doraimani,
G., Hunter, J., Thomas, C., … Bilangi, R. (2009).
Buprenorphine tapering schedule and illicit opioid use.
Addiction, 104(2), 256–265.
339 Substance Abuse and Mental Health Services
Administration. (2016). Sublingual and transmucosal
buprenorphine for opioid use disorder: Review
and update. Advisory, Vol. 15, Issue 1. Rockville,
MD: Substance Abuse and Mental Health Services
Administration.
340 American Society of Addiction Medicine. (2015).
The ASAM national practice guideline for the use of
medications in the treatment of addiction involving
opioid use. Chevy Chase, MD: Author.

342 World Health Organization. (2009). Guidelines for the
psychosocially assisted pharmacological treatment of
opioid dependence. Geneva, Switzerland: WHO Press.
343 Ling, W., Hillhouse, M., Domier, C., Doraimani,
G., Hunter, J., Thomas, C., … Bilangi, R. (2009).
Buprenorphine tapering schedule and illicit opioid use.
Addiction, 104(2), 256–265.
344 Food and Drug Administration. (2017, May).
Appropriate use checklist: Buprenorphine-containing
transmucosal products for opioid dependence. Silver
Spring, MD: Author.
345 American Society of Addiction Medicine. (2017).
Sample treatment agreement. Retrieved October 19,
2017, from www.asam.org/docs/default-source
/advocacy/sample-treatment-agreement30fa
159472bc604ca5b7ff000030b21a.pdf?sfvrsn=0
346 Food and Drug Administration. (2017). FDA Drug
Safety Communication: FDA urges caution about
withholding opioid addiction medications from patients
taking benzodiazepines or CNS depressants: Careful
medication management can reduce risks. Retrieved
December 18, 2017, from www.fda.gov/Drugs/Drug
Safety/ucm575307.htm
347 Lintzeris, N., & Nielsen, S. (2010). Benzodiazepines,
methadone and buprenorphine: Interactions and
clinical management. American Journal on Addictions,
19(1), 59–72.
348 Lofwall, M. R., & Walsh, S. L. (2014). A review of
buprenorphine diversion and misuse: The current
evidence base and experiences from around the world.
Journal of Addiction Medicine, 8(5), 315–326.
349 Liebschutz, J. M., Crooks, D., Herman, D., Anderson,
B., Tsui, J., Meshesha, L. Z., … Stein, M. (2014).
Buprenorphine treatment for hospitalized, opioiddependent patients: A randomized clinical trial. JAMA
Internal Medicine, 174(8), 1369–1376.
350 Weiss, L., Netherland, J., Egan, J. E., Flanigan, T. P.,
Fiellin, D. A., Finkelstein, R., & Altice, F. L. (2011).
Integration of buprenorphine/naloxone treatment
into HIV clinical care: Lessons from the BHIVES
collaborative. Journal of Acquired Immune Deﬁciency
Syndromes, 56(Suppl. 1), S68–S75.
351 Weiss, R. D., Potter, J. S., Grifﬁn, M. L., Provost, S. E.,
Fitzmaurice, G. M., McDermott, K. A., … Carroll, K. M.
(2015). Long-term outcomes from the National Drug
Abuse Treatment Clinical Trials Network Prescription
Opioid Addiction Treatment Study. Drug and Alcohol
Dependence, 150, 112–119.

3-120

A313

Part 3 of 5—Pharmacotherapy for Opioid Use Disorder

TIP 63

352 Substance Abuse and Mental Health Services
Administration. (2005). Substance abuse treatment
for persons with cooccurring disorders. Treatment
Improvement Protocol (TIP) Series 42. HHS Publication
No. (SMA) 133992. Rockville, MD: Substance Abuse
and Mental Health Services Administration.

363 Stoller, K. B., Stephens, M. A. C., & Schorr, A. (2016).
Integrated service delivery models for opioid treatment
programs in an era of increasing opioid addiction,
health reform, and parity. Retrieved May 21, 2017, from
www.aatod.org/wp-content/uploads/2016/07/2nd
-Whitepaper-.pdf

353 Center for Substance Abuse Treatment. (2004).
Clinical guidelines for the use of buprenorphine in the
treatment of opioid addiction. Treatment Improvement
Protocol (TIP) Series 40. HHS Publication No. (SMA)
04-3939. Rockville, MD: Substance Abuse and Mental
Health Services Administration.

364 Rich, J. D., McKenzie, M., Larney, S., Wong, J. B., Tran,
L., Clarke, J., … Zaller, N. (2015, July 25). Methadone
continuation versus forced withdrawal on incarceration
in a combined US prison and jail: A randomised, openlabel trial. Lancet, 386(9991), 350–359.

354 Drug Addiction Treatment Act of 2000, H. R. 2634
(1999–2000).
355 Vujanovic, A. A., Bonn-Miller, M. O., & Petry, N.
M. (2016). Co-occurring posttraumatic stress and
substance use: Emerging research on correlates,
mechanisms, and treatments—Introduction to the
special issue. Psychology of Addictive Behaviors, 30(7),
713–719.
356 Stitzer, M. L., & Vandrey, R. (2008). Contingency
management: Utility in the treatment of drug abuse
disorders. Clinical Pharmacology and Therapeutics,
83(4), 644–647.
357 Donovan, D. M., Ingalsbe, M. H., Benbow, J., & Daley,
D. C. (2013). 12-step interventions and mutual support
programs for substance use disorders: An overview.
Social Work in Public Health, 28(3–4), 313–332.
358 Donovan, D. M., Ingalsbe, M. H., Benbow, J., & Daley,
D. C. (2013). 12-step interventions and mutual support
programs for substance use disorders: An overview.
Social Work in Public Health, 28(3–4), 313–332.
359 McLellan, A. T., & White, W. (2012). Opioid
maintenance and recovery-oriented systems of care: It
is time to integrate (p. 2). London, England: National
Treatment Agency for Substance Misuse.
360 American Society of Addiction Medicine. (2015).
The ASAM national practice guideline for the use of
medications in the treatment of addiction involving
opioid use. Chevy Chase, MD: Author.
361 Substance Abuse and Mental Health Services
Administration. (2012). Clinical drug testing in primary
care. Technical Assistance Publication (TAP) Series
32. HHS Publication No. (SMA) 12-4668. Rockville,
MD: Substance Abuse and Mental Health Services
Administration.
362 Jarvis, M., Williams, J., Hurford, M., Lindsay, D., Lincoln,
P., Giles, L., … Safarian, T. (2017.) Appropriate use of
drug testing in clinical addiction medicine. Journal of
Addiction Medicine, 11(3), 163–173.

365 Lofwall, M. R., & Walsh, S. L. (2014). A review of
buprenorphine diversion and misuse: The current
evidence base and experiences from around the world.
Journal of Addiction Medicine, 8(5), 315–326.
366 Genberg, B. L., Gillespie, M., Schuster, C. R., Johanson,
C.-E., Astemborski, J., Kirk, G. D., … Mehta, S. H.
(2013). Prevalence and correlates of street-obtained
buprenorphine use among current and former injectors
in Baltimore, Maryland. Addictive Behaviors, 38(12),
2868–2873.
367 Schuman-Olivier, Z., Albanese, M., Nelson, S. E.,
Roland, L., Puopolo, F., Klinker, L., & Shaffer, H. J.
(2010). Self-treatment: Illicit buprenorphine use by
opioid-dependent treatment seekers. Journal of
Substance Abuse Treatment, 39(1), 41–50.
368 Cicero, T. J., Ellis, M. S., Surratt, H. L., & Kurtz,
S. P. (2014). Factors contributing to the rise of
buprenorphine misuse: 2008-2013. Drug and Alcohol
Dependence, 142, 98–104.
369 Lofwall, M. R., & Walsh, S. L. (2014). A review of
buprenorphine diversion and misuse: The current
evidence base and experiences from around the world.
Journal of Addiction Medicine, 8(5), 315–326.
370 United States National Library of Medicine. (2017,
October). Buprenorphine sublingual and buccal (opioid
dependence). Retrieved December 18, 2017, from
https://medlineplus.gov/druginfo/meds/a605002.html
371 American Society of Addiction Medicine. (2016).
Sample ofﬁce-based opioid use disorder policy and
procedure manual. Retrieved October 19, 2017, from
www.asam.org/docs/default-source/advocacy/sample
-diversion-policy.pdf?sfvrsn=0
372 Substance Abuse and Mental Health Services
Administration. (2015). Federal guidelines for opioid
treatment programs. HHS Publication No. (SMA)
PEP15-FEDGUIDEOTP. Rockville, MD: Substance Abuse
and Mental Health Services Administration.
373 Medication Assisted Treatment for Opioid Use
Disorders. HHS Final Rule, Fed. Reg. 81 44711 (July 8,
2016) (to be codiﬁed at 42 CFR pt. 8).

3-121

A314

TIP 63

Medications for Opioid Use Disorder

374 Physical security controls for practitioners, 21 CFR §
1301.75 (2016).

386 Sen, S., Arulkumar, S., Cornett, E. M., Gayle, J. A.,
Flower, R. R., Fox, C. J., & Kaye, A. D. (2016). New
pain management options for the surgical patient
on methadone and buprenorphine. Current Pain and
Headache Reports, 20(3), 16.

375 American Society of Addiction Medicine. (2016).
Sample ofﬁce-based opioid use disorder policy and
procedure manual. Retrieved October 19, 2017, from
www.asam.org/docs/default-source/advocacy/sample
-diversion-policy.pdf?sfvrsn=0

387 Jones, H. E., Deppen, K., Hudak, M. L., Leffert, L.,
McClelland, C., Sahin, L., … Creanga, A. A. (2014).
Clinical care for opioid-using pregnant and postpartum
women: The role of obstetric providers. American
Journal of Obstetrics and Gynecology, 210(4), 302–310.

376 Records for manufacturers, distributors, dispensers,
researchers, importers, exporters, registrants that
reverse distribute, and collectors, 21 CFR § 1304.22
(2014).
377 Lofwall, M., & Walsh, S. (2014). A review of
buprenorphine diversion and misuse: The current
evidence base and experiences from around the world
(p. 316). Journal of Addiction Medicine, 8(5), 315–326.

388 Alizadeh, S., Mahmoudi, G. A., Solhi, H., SadeghiSedeh, B., Behzadi, R., & Kazemifar, A. M. (2015).
Post-operative analgesia in opioid dependent patients:
Comparison of intravenous morphine and sublingual
buprenorphine. Addiction and Health, 7(1–2), 60–65.

378 American Society of Addiction Medicine. (2016).
Sample ofﬁce-based opioid use disorder policy and
procedure manual. Retrieved October 19, 2017, from
www.asam.org/docs/default-source/advocacy/sample
-diversion-policy.pdf?sfvrsn=0

389 Sen, S., Arulkumar, S., Cornett, E. M., Gayle, J. A.,
Flower, R. R., Fox, C. J., & Kaye, A. D. (2016). New
pain management options for the surgical patient
on methadone and buprenorphine. Current Pain and
Headache Reports, 20(3),16.

379 Velez, C. M., Nicolaidis, C., Korthuis, P. T., & Englander,
H. (2016). “It’s been an experience, a life learning
experience”: A qualitative study of hospitalized
patients with substance use disorders. Journal of
General Internal Medicine, 32(3), 296–303.

390 Administering or dispensing of narcotic drugs, 21 CFR
§ 1306.07 (2005).

380 Liebschutz, J. M., Crooks, D., Herman, D., Anderson,
B., Tsui, J., Meshesha, L. Z., … Stein, M. (2014).
Buprenorphine treatment for hospitalized, opioiddependent patients: A randomized clinical trial. JAMA
Internal Medicine, 174(8), 1369–1376.
381 D’Onofrio, G., O’Connor, P. G., Pantalon, M. V.,
Chawarski, M. C., Busch, S. H., Owens, P. H., …
Fiellin, D. A. (2015). Emergency department-initiated
buprenorphine/naloxone treatment for opioid
dependence: A randomized clinical trial. JAMA,
313(16), 1636–1644.

392 Devin, C. J., & McGirt, M. J. (2015). Best evidence in
multimodal pain management in spine surgery and
means of assessing postoperative pain and functional
outcomes. Journal of Clinical Neuroscience, 22(6),
930–938.
393 Noska, A., Mohan, A., Wakeman, S., Rich, J., &
Boutwell, A. (2015). Managing opioid use disorder
during and after acute hospitalization: A case-based
review clarifying methadone regulation for acute care
settings. Journal of Addictive Behaviors, Therapy and
Rehabilitation, 4(2), 1000138.

382 Naeger, S., Ali, M. M., Mutter, R., Mark, T., & Hughey,
L. (2016). Post-discharge prescription ﬁlls following
an opioid hospitalization. Psychiatric Services, 67(11),
1264–1267.
383 Weiss, A. J., Elixhauser, A., Barrett, M. L., Steiner, C. A.,
Bailey, M. K., & O’Malley, L. (2017, January). Opioidrelated inpatient stays and emergency department
visits by state, 2009–2014. HCUP Statistical Brief No.
219. Rockville, MD: Agency for Healthcare Research
and Quality.
384 Administering or dispensing of narcotic drugs, 21 CFR
§ 1306.07 (2005).
385 Alford, D., Compton, P., & Samet, H. (2006). Acute
pain management for patients receiving maintenance
methadone or buprenorphine therapy. Annals of
Internal Medicine, 144(2), 127–134.

391 Alford, D. P., Compton, P., & Samet, J. H. (2006). Acute
pain management for patients receiving maintenance
methadone or buprenorphine therapy. Annals of
Internal Medicine, 144(2), 127–134.

394 Liebschutz, J. M., Crooks, D., Herman, D., Anderson,
B., Tsui, J., Meshesha, L. Z., … Stein, M. (2014).
Buprenorphine treatment for hospitalized, opioiddependent patients: A randomized clinical trial. JAMA
Internal Medicine, 174(8), 1369–1376.
395 D’Onofrio, G., O’Connor, P. G., Pantalon, M. V.,
Chawarski, M. C., Busch, S. H., Owens, P. H., …
Fiellin, D. A. (2015). Emergency department-initiated
buprenorphine/naloxone treatment for opioid
dependence: A randomized clinical trial. JAMA,
313(16), 1636–1644.
396 Substance Abuse and Mental Health Services
Administration. (2016, March). Special circumstances
for providing buprenorphine. Retrieved December 18,
2017, from www.samhsa.gov/medication-assisted
-treatment/legislation-regulations-guidelines/special
-circumstances-providing-buprenorphine

3-122

A315

Part 3 of 5—Pharmacotherapy for Opioid Use Disorder

397 D’Onofrio, G., O’Connor, P. G., Pantalon, M. V.,
Chawarski, M. C., Busch, S. H., Owens, P. H., …
Fiellin, D. A. (2015). Emergency department-initiated
buprenorphine/naloxone treatment for opioid
dependence: A randomized clinical trial. JAMA,
313(16), 1636–1644.

TIP 63

398 Huxtable, C. A., Roberts, L. J., Somogyi, A. A., &
Macintyre, P. E. (2011). Acute pain management
in opioid-tolerant patients: A growing challenge.
Anaesthesia and Intensive Care, 39(5), 804–823.

3-123

A316

This page intentionally left blank.

A317

TIP 63

MEDICATIONS FOR OPIOID USE DISORDER

Part 4: Partnering Addiction Treatment Counselors With Clients and
Healthcare Professionals
For Healthcare and Addiction Professionals
Part 4 of this Treatment Improvement Protocol (TIP) is for addiction treatment professionals
and peer recovery support specialists who work with individuals who take a Food and Drug
Administration (FDA)-approved medication to treat opioid use disorder (OUD).

TIP Navigation

KEY MESSAGES

Executive Summary
For healthcare and addiction professionals,
policymakers, patients, and families

• Many patients taking OUD medication

Part 1: Introduction to Medications for Opioid
Use Disorder Treatment
For healthcare and addiction professionals,
policymakers, patients, and families

beneﬁt f rom counseling as part of their
treatment.

• Counselors play the same role for clients
with OUD who take medication as for
clients with any other SUD.

Part 2: Addressing Opioid Use Disorder in
General Medical Settings
For healthcare professionals

• Counselors help clients recover

Part 3: Pharmacotherapy for Opioid Use
Disorder
For healthcare professionals

• OUD is often a chronic illness requiring

Part 4: Partnering Addiction Treatment
Counselors With Clients and
Healthcare Professionals
For healthcare and addiction professionals

• OUD medications are safe and effective

by addressing the challenges and
consequences of addiction.
ongoing communication among patients
and providers to ensure that patients
fully beneﬁt f rom both pharmacotherapy
and psychosocial treatment and support.
when prescribed and taken appropriately.

• Medication is integral to recovery for

Part 5: Resources Related to Medications for
Opioid Use Disorder
For healthcare and addiction professionals,
policymakers, patients, and families

many people with OUD. Medication
usually produces better treatment
outcomes than outpatient treatment
without medication.

• Supportive counseling environments

A318

for clients who take OUD medication
can promote treatment and help build
recovery capital.

TIP 63

MEDICATIONS FOR OPIOID USE DISORDER—Part 4 of 5

PART 4: PARTNERING ADDICTION TREATMENT COUNSELORS WITH
CLIENTS AND HEALTHCARE PROFESSIONALS
Overview and Context . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4-1
Quick Guide to Medications . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4-12
Counselor–Prescriber Communications . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4-18
Creation of a Supportive Counseling Experience . . . . . . . . . . . . . . . . . . . . . . . 4-20
Other Common Counseling Concerns . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4-34
Notes . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4-37

4-ii

A319

2#46

QH

Partnering Addiction Treatment Counselors
With Clients and Healthcare Professionals
Part 4 of this TIP is for addiction treatment professionals and peer recovery support specialists
who work with individuals who take an FDA-approved medication for OUD—methadone,
naltrexone, or buprenorphine. These providers have direct helping relationships with clients.
They don’t prescribe or administer OUD medications, but they interact with healthcare professionals who do. They also help people who take OUD medication access supportive services
(e.g., transportation, child care, housing).

Overview and Context

0,//,21

SHRSOH LQ WKH 8 6
DJHV
DQG ROGHU
KDG 28' LQYROYLQJ

Scope of the Problem
Opioid misuse has caused a growing nationwide
epidemic of OUD and unintentional overdose
deaths. 1 This epidemic affects people in all
regions, of all ages, and from all walks of life.
Opioid misuse devastates families, burdens
emergency departments and ﬁrst responders,
fuels increases in hospital admissions, and strains
criminal justice and child welfare systems.

35(6&5,37,21
23,2,'6 +(52,1
RU ERWK LQ

Counselors can play an integral role in
addressing this crisis. Counseling helps people
with OUD and other substance use disorders
(SUDs) change how they think, cope, react, and
acquire the skills and conﬁdence necessary for
recovery. Counseling can provide support for
people who take medication to treat their OUD.
Patients may get counseling from prescribers or
other staff members in the prescribers’ practices
or by referral to counselors at specialty addiction
treatment programs or in private practice.
Counselors and peer recovery support specialists
can work with patients who take OUD medication and refer patients with active OUD to
healthcare professionals for an assessment for
treatment with medication.

Part 4 uses “counselor” to refer to the range of
professionals—including recovery coaches and
other peer recovery support services specialists
—who may counsel, coach, or mentor people
who take OUD medication, although their titles,
credentials, and range of responsibilities vary. At
times, Part 4 refers to individuals as “clients.” For
other key terms, see Exhibit 4.1. Part 5 of this
TIP provides a full glossary and other resources
related to the treatment of OUD.
Counseling clients who take OUD medication
requires understanding:

•
•
•
•

Basic information about OUD.
The role and function of OUD medications.
Ways to create a supportive environment that
helps clients work toward recovery.
Counseling’s role within a system of
whole-person, recovery-oriented OUD care.

4-1

A320

TIP 63

Medications for Opioid Use Disorder

EXHIBIT 4.1. Key Terms
Addiction: As deﬁned by the American Society of Addiction Medicine,3 “a primary, chronic disease of
brain reward, motivation, memory, and related circuitry” (p. 1). It is characterized by inability to consistently
abstain, impairment in behavioral control, craving, diminished recognition of signiﬁcant problems with
one’s behaviors and interpersonal relationships, and a dysfunctional emotional response. Like other
chronic diseases, addiction often involves cycles of relapse and remission. The Diagnostic and Statistical
Manual of Mental Disorders, Fifth Edition 4 (DSM-5), does not use the term for diagnostic purposes, but it
commonly describes the more severe forms of OUD.
Care provider: Encompasses both healthcare professionals and other professionals who do not
provide medical services, such as counselors or providers of supportive services. Often shortened to
“provider.”
Healthcare professionals: Physicians, nurse practitioners, physician assistants, and other medical
service professionals who are eligible to prescribe medications for and treat patients with OUD. The term
“prescribers” also refers to these healthcare professionals.
Maintenance treatment: Providing medications to achieve and sustain clinical remission of signs
and symptoms of OUD and support the individual process of recovery without a speciﬁc endpoint (as is
the typical standard of care in medical and psychiatric treatment of other chronic illnesses).
Mutual-help groups: Groups of people who work together on obtaining and maintaining recovery.
Unlike peer support (e.g., the use of recovery coaches), mutual-help groups consist entirely of people
who volunteer their time and typically have no ofﬁcial connection to treatment programs. Most are selfsupporting. Although 12-Step groups such as Alcoholics Anonymous (AA) and Narcotics Anonymous (NA)
are the most widespread and well-researched type of mutual-help groups, other groups may be available
in some areas. They range from groups afﬁliated with a religion (e.g., Celebrate Recovery, Millati Islami) to
purely secular groups (e.g., SMART Recovery, Women for Sobriety).
Opioid misuse: The use of prescription opioids in any way other than as directed by a doctor; the use
of any opioid in a manner, situation, amount, or frequency that can cause harm to self or others.5
Opioid receptor agonist: A substance that has an afﬁnity for and stimulates physiological activity
at cell receptors in the central nervous system (CNS) that are normally stimulated by opioids. Mu-opioid
receptor full agonists (e.g., methadone) bind to the mu-opioid receptor and produce actions similar to
those produced by the endogenous opioid beta-endorphin. Increasing the dose increases the effect. Muopioid receptor partial agonists (e.g., buprenorphine) bind to the mu-opioid receptor. Unlike with full
agonists, increasing their dose may not produce additional effects once they have reached their maximal
effect. At low doses, partial agonists may produce effects similar to those of full agonists.
Opioid receptor antagonist: A substance that has an afﬁnity for opioid receptors in the CNS
without producing the physiological effects of opioid agonists. Mu-opioid receptor antagonists (e.g.,
naltrexone) can block the effects of exogenously administered opioids.
Opioids: All natural, synthetic, and semisynthetic substances that have effects similar to morphine. They
can be used as medications having such effects (e.g., methadone, buprenorphine, oxycodone).
Opioid treatment program (OTP): An accredited treatment program with Substance Abuse and
Mental Health Services Administration (SAMHSA) certiﬁcation and Drug Enforcement Administration
registration to administer and dispense opioid agonist medications that are approved by FDA to treat
opioid addiction. Currently, these include methadone and buprenorphine. Other pharmacotherapies,
such as naltrexone, may be provided but are not subject to these regulations. OTPs must provide
adequate medical, counseling, vocational, educational, and other assessment and treatment services
either onsite or by referral to an outside agency or practitioner through a formal agreement.6

4-2

A321

Part 4 of 5—Partnering Addiction Counselors With Clients and Healthcare Professionals

TIP 63

EXHIBIT 4.1. Key Terms (continued)
Opioid use disorder (OUD): Per DSM-5,7 a disorder characterized by loss of control of opioid use,

risky opioid use, impaired social functioning, tolerance, and withdrawal. Tolerance and withdrawal do
not count toward the diagnosis in people experiencing these symptoms when using opioids under
appropriate medical supervision. OUD covers a range of severity and replaces what the Diagnostic and
Statistical Manual of Mental Disorders, Fourth Edition, termed “opioid abuse” and “opioid dependence.”
An OUD diagnosis is applicable to a person who uses opioids and experiences at least 2 of the 11
symptoms in a 12-month period. (See Exhibit 2.13 and the Appendix in Part 2 for full DSM-5 diagnostic
criteria for OUD.)

Peer support: The use of peer support specialists in recovery to provide nonclinical (i.e., not requiring

training in diagnosis or treatment) recovery support services to individuals in recovery from addiction and
to their families.

Peer support specialist: Someone in recovery who has lived experience in addiction plus skills

learned in formal training. Peer support specialists may be paid professionals or volunteers. They are
distinguished from members of mutual-help groups because they maintain contact with treatment staff.
They offer experiential knowledge that treatment staff often lack.

Prescribers: Healthcare professionals who are eligible to prescribe medications for OUD.
Psychosocial support: Ancillary services to enhance a patient’s overall functioning and well-being,

including recovery support services, case management, housing, employment, and educational services.

Psychosocial treatment: Interventions that seek to enhance a patient’s social and mental

functioning, including addiction counseling, contingency management, and mental health services.

Recovery: A process of change through which individuals improve their health and wellness, live a

self-directed life, and strive to reach their full potential. Even individuals with severe and chronic SUDs
can, with help, overcome their SUDs and regain health and social function. Although abstinence from all
substance misuse is a cardinal feature of a recovery lifestyle, it is not the only healthy, prosocial feature.
Patients taking FDA-approved medication to treat OUD can be considered in recovery.

Recovery capital: The sum of the internal (e.g., motivation, self-efﬁcacy, spirituality) and external (e.g.,
access to health care, employment, family support) resources that an individual can draw upon to begin
and sustain recovery from SUDs.

Recovery-oriented care: A service orientation that supports individuals with behavioral health

conditions in a process of change through which they can improve their health and wellness, live selfdirected lives, and strive to reach their full potential.

Relapse: A process in which a person with OUD who has been in remission experiences a return of

symptoms or loss of remission. A relapse is different f rom a return to opioid use in that it involves more
than a single incident of use. Relapses occur over a period of time and can be interrupted. Relapse need
not be long lasting. The TIP uses relapse to describe relapse prevention, a common treatment modality.

Remission: A medical term meaning a disappearance of signs and symptoms of the disease.8 DSM-5
deﬁnes remission as present in people who previously met OUD criteria but no longer meet any OUD
criteria (with the possible exception of craving).9 Remission is an essential element of recovery.

Return to opioid use: One or more instances of opioid misuse without a return of symptoms of
OUD. A return to opioid use may lead to relapse.

4-3

A322

TIP 63

Medications for Opioid Use Disorder

Setting the Stage
Since the 1990s, dramatic increases in controlled
medication prescriptions—particularly opioid pain
relievers—have coincided with increases in their
misuse.10 Since the mid-2000s, heroin11,12 and
fentanyl (mainly illicit formulations)13 consumption
has also sharply increased. People who turn to
illicit drugs after misusing opioid medications
have driven greater use of heroin and fentanyl,
which are cheaper and easier to obtain.
Approximately 1,500 OTPs currently dispense
methadone, buprenorphine, or both.14 They
may also offer naltrexone. Historically, OTPs were
the only source of OUD medication and offered
only methadone.
Buprenorphine is increasingly available in
general medical settings. Physicians, nurse
practitioners, and physician assistants (whether
or not they’re addiction specialists) can get
a federal waiver to prescribe buprenorphine.
These healthcare professionals can also prescribe
and administer naltrexone, which does not
require a waiver or OTP program certiﬁcation.
People with OUD should have access to
the medication most appropriate for them.
Medication helps establish and maintain OUD
remission. By controlling withdrawal and cravings
and blocking the euphoric effects of illicit
opioids, OUD medication helps patients stop
illicit opioid use and resolve OUD’s psychosocial
problems. For some people, OUD medication
may be lifesaving. Ideally, patients with OUD
should have access to all three FDA-approved
pharmacotherapies. (See the “Quick Guide to
Medications” section for an overview of each
medication.)
Many patients taking OUD medication beneﬁt
from counseling as part of their treatment.
Counseling helps people with OUD change how
they think, cope, react, and acquire the skills and
conﬁdence needed for recovery. Patients may get
counseling from medication prescribers or staff
members in prescribers’ practices or by referral
to counselors at specialty addiction treatment
programs or in private practice. Exhibit 4.2

The counselor’s role with clients who
take OUD medication is the same as
it is with all clients who have SUDs:
Help them achieve recovery by
addressing addiction’s challenges and
consequences.
discusses recommending versus requiring counseling as part of medication treatment for OUD.

Distinguishing OUD From Physical
Dependence on Opioid Medications
According to DSM-5,15 OUD falls under the
general category of SUDs and is marked by:

•
•
•
•
•

Compulsion and craving.
Tolerance.
Loss of control.
Withdrawal when use stops.
Continued opioid use despite adverse
consequences.

Properly taken, some medications cause
tolerance and physical dependence.
Medications for some chronic illnesses (e.g.,
steroids for systemic lupus erythematosus) can
make the body build tolerance to the medications over time. If people abruptly stop taking
medications on which they’ve become physically
dependent, they can experience withdrawal
symptoms. This can be serious, even fatal.
Physical dependence on a prescribed,
properly taken opioid medication is distinct
from OUD and opioid addiction. OUD is a behavioral disorder associated with loss of control
of opioid use, use despite adverse consequences, reduction in functioning, and compulsion
to use. The professionals who revised DSM-5
diagnostic criteria for OUD made several signiﬁcant changes. Among the most notable was
differentiating physical dependence from OUD:

•

4-4

A323

Tolerance or withdrawal symptoms related
to FDA-approved medications appropriately
prescribed and taken to treat OUD (buprenorphine, methadone) don’t count toward
diagnostic criteria for OUD.

Part 4 of 5—Partnering Addiction Counselors With Clients and Healthcare Professionals

TIP 63

EXHIBIT 4.2. Recommending Versus Requiring Counseling
The TIP expert panel afﬁrms that counseling and ancillary services greatly beneﬁt many patients.
However, such counseling and ancillary services should target patients’ needs and shouldn’t be
arbitrarily required as a condition for receiving OUD medication (although they are required by
regulations in OTPs), especially when the beneﬁts of medication outweigh the risks of not receiving
counseling.
The TIP expert panel recommends individualized treatment. Patients who choose to start medication
and medication management with their prescriber without adjunctive counseling and don’t adequately
respond to such treatment should be referred to adjunctive counseling and more intensive services as
needed.16
The law requires buprenorphine prescribers to be able to refer patients taking OUD medication to
counseling and ancillary services. Buprenorphine prescribers may meet this requirement by keeping a
list of referrals or by providing counseling themselves. The law doesn’t require naltrexone prescribers to
refer patients to additional services. However, FDA labels for both medications recommend counseling
as part of treatment.
Some treatment environments require counseling by regulation or contractual obligation. In other
cases, a healthcare professional may believe that a patient taking OUD medication would beneﬁt
from counseling. Some healthcare professionals may require counseling, particularly if patients aren’t
responding well to medication.

OUD is often a chronic medical illness.17
Treatment isn’t a cure.

•

If the individual is being treated with an OUD
medication and meets no OUD criteria other
than tolerance, withdrawal, or craving (but did
meet OUD criteria in the past), he or she is
considered in remission on pharmacotherapy.

Accepting this distinction is essential to
working with clients taking OUD medication. One common question about patients
taking medication for OUD is “Aren’t they still
addicted?” The new DSM-5 distinction makes
the answer to this question “No, they’re not still
addicted.” A person can require OUD medication and be physically dependent on it but still
be in remission and recovery from OUD.

when counseling clients who could beneﬁt from
or who take medication for OUD, know that:

•

•

•

Understanding the Bene ts of
Medication for OUD
Medication is an effective treatment for
OUD.18,19,20 People with OUD should be referred
for an assessment for pharmacotherapy unless
they decline.21 To be supportive and effective

Treatment with methadone and buprenorphine is associated with lower likelihood of
overdose death compared with not taking
these medications.22,23,24,25,26
Medication helps people reduce or stop
opioid misuse.27,28,29,30 As Jessica’s story in
Exhibit 4.3 shows, even if people return to
opioid use during treatment or don’t achieve
abstinence in the short term, medication
lessens misuse and its health risks (e.g.,
overdose, injection-related infections).31
Patients taking FDA-approved medication
used to treat OUD can join residential or
outpatient treatment. Decades of clinical
experience in OTPs, which must provide
counseling, suggest that patients taking OUD
medication can fully participate in group and
individual counseling, both cognitively and
emotionally. Patients with concurrent SUDs
(involving stimulants or alcohol) can beneﬁt
from residential treatment while continuing to
take their OUD medication.
4-5

A324

TIP 63

Medications for Opioid Use Disorder

EXHIBIT 4.3. Jessica’s Story About Medication
Jessica is a 32-year-old who unsuccessfully quit heroin dozens of times. She had been in and out of
treatment but says, “It just never stuck. I’d always start using again when I left the program.” Three years
ago, her primary care doctor started prescribing her buprenorphine. Now Jessica says:

5QOG FC[U + RKPEJ O[UGNH + ECP V DGNKGXG + IQV O[ NKHG DCEM
+ VTKGF SWKVVKPI UQ OCP[ VKOGU DWV CNYC[U IQV RWNNGF DCEM KPVQ VJG UEGPG
'XGT UKPEG + XG DGGP QP DWRTGPQTRJKPG + JCXGP V JCF CP[ ETCXKPIU 'XGP
YJGP + O CTQWPF VTKIIGTU VJG[ LWUV FQP V UGV OG QHH VJG UCOG YC[ + XG DGGP
CDNG VQ IGV C LQD CPF + O UVCTVKPI VQ DWKNF C EQOOWPKV[ QH HTKGPFU YJQ FQP V
WUG 6JG JCTFGUV RCTV CDQWV DGKPI QP DWRTGPQTRJKPG KU VJCV O[ GOQVKQPU
CTGP V OCUMGF CP[OQTG + JCXG VQ HGGN CNN QH VJG UCFPGUU CPF HGCT VJCV + YCU
CXQKFKPI CNN VJGUG [GCTU $WV KV U IQQF + O IGVVKPI C EJCPEG VQ YQTM VJTQWIJ KV

•

•

Randomized clinical trials indicate that OUD
medication improves treatment retention
and reduces illicit opioid use.32,33,34 Retention
in treatment increases the opportunity to
provide counseling and supportive services
that can help patients stabilize their lives and
maintain recovery.
The longer patients take medication, the
less likely they are to return to opioid use,
whereas short-term medically supervised withdrawal rarely prevents return to use:35,36,37,38,39
− Conducting short-term medically supervised withdrawal may increase the risk
of unintentional fatal overdose because
of decreased tolerance after withdrawal
completion.40,41
− Providing short-term medical treatment for
OUD is the same as treating a heart attack
without managing the underlying coronary
disease.
− Providing longer courses of medication
that extend beyond withdrawal can allow
patients to stabilize.
− Getting stabilized, which may take months
or even years, allows patients to focus on
building and maintaining a healthy lifestyle.

•

Patients taking OUD medication can
achieve long-term recovery. People who
continue to take medication can be in remission
from OUD and live healthy, productive lives.42

Reviewing the Evidence on Counseling in
Support of Medication To Treat OUD
Dedicated counseling can help clients address
the challenges of extended recovery. For
clients who seek a self-directed, purposeful life,
counseling can help them:

•
•
•
•

Improve problem-solving and interpersonal
skills.
Find incentives for reduced use and
abstinence.
Build a set of techniques to resist drug use.
Replace drug use with constructive, rewarding
activities.

Moreover, evidence shows that counseling can
be a useful part of OUD treatment for people
who take OUD medication. Impact studies of
counseling for people with SUDs show that:

•

4-6

A325

Motivational enhancement/interviewing is
generally beneﬁcial.43 This approach helps
get people into treatment. It also supports
behavior change and, thus, recovery.

Part 4 of 5—Partnering Addiction Counselors With Clients and Healthcare Professionals

•

•

Cognitive–behavioral therapy (CBT) has
demonstrated efﬁcacy in the treatment of
SUDs, whether used alone or in combination
with other strategies.44 Clinical trials have not
shown that CBT added to buprenorphine
treatment with medical management is associated with signiﬁcantly lower rates of illicit
opioid use.45,46 However, a secondary analysis
of one of those trials found that CBT added
to buprenorphine and medical management
was associated with signiﬁcantly greater
reduction in any drug use among participants
whose OUD was primarily linked to misuse
of prescription opioids than among those
whose OUD involved only heroin.47 Thus, CBT
may be helpful to those patients receiving
buprenorphine treatment who have nonopioid
drug use problems.
Case management helps establish the
stability necessary for SUD remission.48,49,50
Case management helps some people in SUD
treatment get or sustain access to services
and necessities, such as:
− Food.
− Shelter.
− Income support.
− Legal aid.
− Dental services.
− Transportation.
− Vocational services.

•

•

•

•

TIP 63

Family therapy can address SUDs and
various other family problems (e.g., family
conﬂict, unemployment, conduct disorders).
Several forms of family therapy are effective
with adolescents51 and can potentially address
family members’ biases about use of medication for OUD.52
There is more research on combined
methadone treatment and various psychosocial treatments (e.g., different levels of
counseling, contingency management) than
on buprenorphine or naltrexone treatment
in ofﬁce-based settings. More research is
needed to identify the best interventions to
use with speciﬁc medications, populations,
and treatment phases in outpatient settings.53
Motivational intervention, case management, or both can improve likelihood of
entry into medication treatment for OUD
among people who inject opioids, according
to a systematic review of 13 studies plus data
from a prior systematic review.54
Clinical trials have shown no differences in
outcomes for buprenorphine with medical
management between participants who get
adjunctive counseling and those who don’t
(i.e., prescriber-provided guidance focused
speciﬁcally on use of the medication).55,56,57,58

RESOURCE ALERT
Principles of Effective Treatment
In its Principles of Drug Addiction Treatment, the

in returning to productive functioning in the

National Institute on Drug Abuse lists 13 principles

family, workplace, and society.”

of effective treatment (p. 2).59 Two principles that

• “Effective treatment attends to multiple needs

pertain to counseling are:

of the individual, not just his or her drug

• “No single treatment is effective for everyone.

Treatment varies depending on the type of drug
and the characteristics of the patients. Matching
treatment settings, interventions, and services

abuse. To be effective, treatment must address
the individual’s drug abuse and any associated
medical, psychological, social, vocational,
and legal problems. It is also important that
treatment be appropriate to the individual’s

to an individual’s particular problems and

age, gender, ethnicity, and culture.”

needs is critical to his or her ultimate success

4-7

A326

TIP 63

Medications for Opioid Use Disorder

Yet those trials:
− Relied on well-structured medical management sessions that may not be typical in
practice.
− Excluded patients with certain co-occurring
disorders or factors that complicated
treatment.

•

Beneﬁts from counseling may depend on
factors such as the number of sessions and
adherence.60

•
•
•
•
•

the most thorough document on this topic
currently available and is applicable to clients
receiving other medications for OUD (www
.attcnetwork.org/userﬁles/ﬁle/GreatLakes

Recovery-Oriented Methadone Maintenance
(www.ccbh.com/pdfs/providers/healthchoices
/bestpractice/MethadoneBestPracticeGuideline
.pdf) and Supporting Recovery From Opioid
Addiction: Community Care Best Practice
Guidelines for Buprenorphine and Suboxone

Other SUDs (e.g., alcohol use disorder,
cannabis use disorder).62,63,64
Mental distress65 (i.e., high levels of
symptoms) and disorders66,67,68 (e.g., major
depressive disorder, posttraumatic stress
disorder).
Medical problems (e.g., hepatitis, diabetes).69
History of trauma.70,71
Poor diet, lack of physical activity, or both.72
Lack of social support.73
Unemployment.74

Recovery occurs via many pathways.75 OUD
medication may play a role in the beginning,
middle, or entire continuum of care.
Support clients in making their own informed
decisions about treatment. Counselors don’t
need to agree with clients’ decisions but must
respect them. Educate new clients about:

•

This guide by White and Mojer-Torres is

Community Care Best Practice Guidelines for

Acknowledge many pathways to recovery

•

Recovery-Oriented Methadone Maintenance:

Supporting Recovery From Opioid Addiction:

Counseling for OUD gives patients tools to
manage their illness, achieve and sustain
better health, and improve their quality of
life. There are limits to how much medication
alone can accomplish. OUD medication will
improve quality of life,61 but many clients in
addiction treatment have complex issues that
may decrease quality of life, such as:

•

Recovery-Oriented Treatment

/5th%20Monograph_RM_Methadone.pdf).

Using a Recovery-Oriented Approach to
Treating Patients With OUD

•

RESOURCE ALERT

Addiction as a chronic disease inﬂuenced by
genetics and environment.
How medications for OUD work.

(www.ccbh.com/pdfs/providers/healthchoices
/bestpractice/Community_Care_BP_Guidelines
_for_Buprenorphine_and_Suboxone.pdf)
outline phase-speciﬁc tasks and accompanying
strategies for programs that provide services to
clients who take these medications.

SAMHSA’S GUIDING PRINCIPLES
OF RECOVERY76

• Recovery emerges from hope.
• Recovery is person driven.
• Recovery occurs via many pathways.
• Recovery is holistic.
• Recovery is supported by peers and allies.
• Recovery is supported through relationships
•
•
•
•

4-8

A327

and social networks.
Recovery is culturally based and inﬂuenced.
Recovery is supported by addressing trauma.
Recovery involves individual, family, and
community strengths and responsibilities.
Recovery is based on respect.

Part 4 of 5—Partnering Addiction Counselors With Clients and Healthcare Professionals

•
•

What occurs during dose stabilization.
The beneﬁts of longer term medication use
and the risks of abruptly ending treatment.

•
•

Promote recovery for clients with OUD
Focus on addressing personal and practical
problems of greatest concern to clients, which
can improve their engagement in treatment.77
Recovery supports can sustain the progress
clients made in treatment and further improve
their quality of life. Addressing the full range of
client needs can improve clients’ quality of life
and lead to better long-term recovery outcomes.
A recovery-oriented approach to traditional SUD
counseling may help address client needs. 78,79
Increasing recovery capital supports long-term
abstinence and improved quality of life, especially for clients who decide to stop medication.
Clients with substantial periods of abstinence
from illicit drugs identify these strategies for
increasing recovery capital as helpful:80,81,82

•
•
•
•
•
•
•

Forging new relationships with friends/family
Obtaining support from friends, family,
partners, and communities
Using positive coping strategies
Finding meaning or a sense of purpose in life
Engaging in a church or in spiritual practices
Pursuing education, employment, or both
Engaging in new interests or activities (e.g.,
joining a community group, exercising)

TIP 63

Building conﬁdence in ability to maintain
abstinence (i.e., increasing abstinence-related
self-efﬁcacy)
Finding ways to help other individuals who are
new to recovery

Help clients further grow recovery capital
by offering or connecting them to a range of
services, such as:
• Ancillary services (e.g., vocational rehabilitation,
supported housing).
• Additional counseling.
• Medical services.
• Mental health services.

Provide person-centered care
Clients’ conﬁdence in their ability to stay
away from illicit substances, or self-efﬁcacy,
is an important factor in successful change. In
person-centered care, also known as patientcentered care:

•
•
•
•

Clients control the amount, duration, and
scope of services they receive.
They select the professionals they work with.
Care is holistic; it respects and responds to
clients’ cultural, linguistic, and socioenvironmental needs.83
Providers implement services that recognize
patients as equal partners in planning, developing, and monitoring care to ensure that it
meets each patient’s unique needs.84

RESOURCE ALERT

RESOURCE ALERT

Decision-Making Tool
Decisions in Recovery: Treatment for Opioid

Relapse Prevention and Recovery
Promotion TIP

Use Disorders is a SAMHSA web-based

Relapse Prevention and Recovery Promotion

tool (http://brsstacs.com/Default.aspx) and

in Behavioral Health Services is a planned

handbook (https://store.samhsa.gov/product

TIP, which will be available on the SAMHSA

/ SMA16-4993) to help people with OUD make

Publications Ordering webpage (https://store

decisions about treatment and recovery.

.samhsa.gov), that will cover the closely related
topics of relapse prevention and recovery
promotion for SUDs and many mental
disorders.85
4-9

A328

TIP 63

Medications for Opioid Use Disorder

The confrontational/expert model that
characterized much of SUD treatment
in the past may harm some patients
and inhibit or prevent recovery.86

RESOURCE ALERT
Treatment Guidance for CoOccurring Substance Use and
Mental Disorders

A person-centered approach to OUD
treatment empowers clients in making
decisions, such as:87

‡
‡
‡

TIP 42, Substance Abuse Treatment for Persons
With Co-Occurring Disorders, provides SUD
treatment strategies for people with mental

Whether to take OUD medication.
Which medication to take.
Which counseling and ancillary services
to receive.

disorders (https://store.samhsa.gov/shin
/content//SMA13-3992/SMA13-3992.pdf).
Integrated Treatment for Co-Occurring

Fragmented healthcare services are less
likely to meet the full range of patients’
needs. Integrated medical and behavioral
healthcare delivery provides patient-focused,
comprehensive treatment that meets the wide
range of symptoms and service needs that
patients with OUD may have. Signiﬁcant demand
remains for better integrated and coordinated
SUD treatment (including OTP), medical, and
mental health services.88 Such improvements are
particularly important for the many individuals
with co-occurring substance use and mental
disorders who receive OUD medication.89,90 In
a randomized trial of methadone patients with
co-occurring mental disorders receiving onsite
versus offsite mental health services, those
receiving services onsite had less psychiatric
distress at follow-up.91

provides practical guidance for integrating
mental health services and SUD treatment
(https://store.samhsa.gov/product/Integrated
-Treatment-for-Co-Occurring-Disorders
-Evidence-Based-Practices-EBP-KIT/SMA08
-4367).

their recovery.98 Most have at least one nearby
family member who does not use illicit drugs.99
A client’s community may provide a cultural
context for their recovery and culturally speciﬁc
supports that may not otherwise be available in
treatment.100
Help clients develop and support positive
relations with their families by:

‡

Promote family and social support
Support from family and friends can be the
most important factor in long-term recovery,
according to many people who have achieved
long-term recovery from OUD.92,93 Support from
intimate partners helps all clients, especially
women, avoid return to opioid use.94,95 But the
more people in clients’ social networks who use
drugs, the more likely clients are to return to
use.96,97
Most clients are willing to invite a substancefree family member or friend to support

Disorders Evidence-Based Practices KIT

‡
‡
‡
‡

4-10

A329

Suggesting that clients invite family and
friends to aid in the recovery planning process
(Exhibit 4.4).
Emphasizing the importance of relationships
with family and friends who actively support
recovery.
Supporting clients in mending broken
relationships with loved ones.
Helping clients cut ties with individuals who
still use drugs or enable clients’ drug use.
Encouraging clients to build new relationships
that support recovery.

Part 4 of 5—Partnering Addiction Counselors With Clients and Healthcare Professionals

TIP 63

EXHIBIT 4.4. Engaging Reluctant Family Members in a Client’s
Treatment
If the client agrees and has signed the appropriate releases, help even reluctant family members engage
in the client’s treatment to offer support. To reach out to family members who hesitate to engage, try to:

• Recognize that they have been harmed by

•
•

their family member’s substance use and that
their participation in his or her recovery can help
them heal too.
Ask them to recall some positive experiences
they have had with the client.
Introduce them to mutual-help groups and
other supports for families (e.g., Nar-Anon, Learn
to Cope, Parents of Addicted Loved Ones Group).
Ensure that suggested groups don’t have an
antimedication bias.

• Help them understand OUD, the treatment

•

•

Provide trauma-informed care

•

Trauma-informed service requires providers to
realize the signiﬁcance of trauma. According to
SAMHSA,101 trauma-informed counselors know
what trauma is and also:

•

•
•
•
•
•

•

Understand how trauma can affect clients,
families, and communities.
Apply knowledge of trauma extensively and
consistently in both practice and policy.
Know ways to promote recovery from trauma.
Recognize the signs and symptoms of trauma
in clients, families, staff members, and others.
Resist things that may retraumatize or harm
clients or staff.

Incorporate trauma-informed principles of
care into recovery promotion efforts, because:

•

Trauma histories and trauma-related disorders
may increase clients’ risk for various problems,
including early drop-out from treatment102 and
greater problems with pain.103

process, and medication’s role in recovery.
This knowledge can keep family members
from pressuring the client to taper medication
prematurely.
Hold multifamily therapy groups or informal
discussion sessions for families (with or without
clients present) so that family members can learn
from one another and share their experiences.
Offer family or couples therapy as an option
for additional support.

Childhood trauma is highly prevalent among
people with OUD.104,105
People often suffer multiple traumas during
opioid misuse.106
An intervention that integrated trauma
treatment and standard care (which goes
further than the trauma-informed care
detailed here) had better outcomes than
standard care alone in a diverse group of
women treated in various settings, including
an OTP.107

RESOURCE ALERT
Trauma-Informed Care TIP
TIP 57, Trauma-Informed Care in Behavioral
Health Services, has more information on
providing trauma-informed care in SUD
treatment programs (https://store.samhsa
.gov/product/TIP-57-Trauma-Informed-Care
-in-Behavioral-Health-Services/SMA14-4816).

4-11

A330

TIP 63

Medications for Opioid Use Disorder

Quick Guide to Medications
This section introduces the neurochemistry
and biology of OUD and the medications that
treat it. Reading this section will familiarize
counselors with terminology healthcare professionals may use in discussing patients who take
OUD medication (see also Exhibit 4.1 and the
comprehensive glossary in Part 5).

Understanding the Neurobiology of OUD
Opioid receptors are a part of the body’s
natural endorphin system. Endorphins are
chemicals our bodies release to help reduce our
experience of pain. They can also contribute to
euphoric feelings like the “runner’s high” that
some people experience. When endorphins or
opioids bind to opioid receptors, the receptors
activate, causing a variety of effects.
After taking opioids, molecules bind to and
activate the brain’s opioid receptors and
release dopamine in a brain area called the
nucleus accumbens (NAc), causing euphoria. Like
opioid receptors, the NAc has a natural, healthy
function. For example, when a person eats,
the NAc releases dopamine to reinforce this
essential behavior. The NAc is a key part of the
brain’s reward system.
Opioid use leads to an above-normal release
of dopamine, essentially swamping the
natural reward pathway and turning the brain
strongly toward continued use. The brain also
learns environmental cues associated with this
dopamine release. It associates speciﬁc people,
places, and things (e.g., music, drug paraphernalia) with the euphoria; these environmental cues
then become triggers for drug use.
Intermittent opioid use causes periods of
euphoria followed by periods of withdrawal.
The brain’s strong draw toward euphoria drives
repeated and continued use. Few people with
OUD reexperience the euphoria they obtained
early in their opioid use, yet they continue to
seek it.

Changes in brain function that result from
repeated drug use cause a person who once
took the drug for euphoria to seek it out of
habit, then compulsion. People with OUD
use opioids to stave off withdrawal. Without
opioids, the person feels dysphoric and physically
ill, only feeling normal by taking opioids again.
At the same time, other areas of the brain begin
to change:108

•
•
•
•

The amygdala, which is associated with
feelings of danger, fear, and anger, becomes
overactive.
The frontal cortex, which is associated
with planning and self-control, becomes
underactive.
The ability to control impulses diminishes,
and drug use becomes compulsive.
The need to escape the discomfort and
intensely negative emotional states of
withdrawal becomes the driving force of
continued use.

Even after opioid use stops, brain changes
linger. A person’s ability to make plans and
manage impulses stays underactive. That’s why
return to substance use is very common even
after a period of abstinence.
Medications for OUD promote emotional,
psychological, and behavioral stabilization.
By acting directly on the same opioid receptors
as misused opioids (but in different ways),
medications can stabilize abnormal brain
activity.

Learning How OUD Medications Work
The following sections describe how each of
the OUD medications functions (Exhibit 4.5; see
also Part 3 of this TIP for greater detail). Discuss
questions or concerns about a patient’s medication, side effects, or dosage with the patient’s
prescriber after getting the patient’s consent.

4-12

A331

Part 4 of 5—Partnering Addiction Counselors With Clients and Healthcare Professionals

TIP 63

EXHIBIT 4.5. FDA-Approved Medications Used To Treat OUD: Key Points
MEDICATION

Buprenorphine

Methadone

HOW IT’S TAKEN

WHY IT
WORKS

SIDE EFFECTS

Tablet dissolved
under the tongue
or ﬁlm dissolved
under the tongue
or against the
inside of the
cheek. Taken
once daily, every
other day, or 3
times a week. It
also comes as an
implant that lasts
6 months or as an
injection that lasts
1 month.

Partially
activates
the opioid
receptor.
Reduces
craving and
blocks the
euphoric
effect of
opioids.

Liquid or tablet
once daily.

Fully activates
the opioid
receptor.
Reduces
craving and
blocks the
euphoric
effect of
opioids.

Dose may be
divided for twicedaily dosing
if medically
necessary.

Can cause constipation,
headache, nausea, insomnia,
excessive sweating, or opioid
withdrawal.
Overdose is possible but less
likely than with methadone.
Overdose death risk is increased
if buprenorphine is taken
with alcohol or intravenously
in combination with
benzodiazepines or other CNS
depressants.
Neonatal abstinence syndrome
(NAS)
Can cause constipation,
sleepiness, sweating, swelling
of hands and feet, sexual
dysfunction, heart arrhythmias,
low blood pressure, fainting, and
substance misuse.
Can cause overdose death if
increased too rapidly, taken
in a much higher than usual
dose, or taken concurrently
with some substances and
medications, particularly CNS
depressants such as alcohol or
benzodiazepines.

NOTES

Less sedating
than methadone.
Prescribers
must have a
special SAMHSA
waiver but don’t
need to be part
of a federally
certiﬁed
OTP. Can be
prescribed
through
pharmacies or
provided via
OTPs.
Initially requires
visits 6 to 7 times
per week to an
OTP. Patients
can decrease
attendance
gradually based
on time in
treatment and
clinical stability.

NAS
Naltrexone

Daily tablet (can
also be taken 3
times a week) or
monthly injection
in buttock.

Occupies
the opioid
receptors.
Reduces
craving and
blocks the
euphoric
effect of
opioids.

Can cause nausea, headache,
dizziness, fatigue, liver toxicity,
depression and suicidality,
muscle cramps, fainting, and
loss of or decreased appetite
or other appetite disorders; in
the extended-release injectable
formulation, can cause pain,
swelling, and other complications
at the injection site.

Tablets are
rarely effective.
Monthly
injections are
more effective
than tablets.

Patient must complete
withdrawal and stay opioid
abstinent for at least 7 days
before starting naltrexone and
longer (e.g., 10 or more days)
for long-acting opioids, such as
methadone.

4-13

A332

TIP 63

Medications for Opioid Use Disorder

Buprenorphine
Buprenorphine reduces opioid misuse,
HIV risk behaviors, and risk of overdose
death.109,110,111,112 Buprenorphine only partially
activates opioid receptors; it is a partial agonist.
It binds to and activates receptors sufﬁciently
to prevent craving and withdrawal and to block
the effects of illicit opioids. Appropriate doses
of buprenorphine shouldn’t make patients feel
euphoric, sleepy, or foggy headed.
Buprenorphine has the beneﬁt of a ceiling
effect. Its effectiveness and sedation or
respiratory effects don’t increase after a
certain dosing level, even if more is taken. This
lowers risk of overdose and misuse.113 Groups
at particular risk for buprenorphine overdose
include children who accidentally ingest the
medication114 and patients who also use CNS
depressants like benzodiazepines or alcohol.115,116
(See Part 3 of this TIP for more information
on concurrent use of CNS depressants and
buprenorphine.)

receptors to activate them. Naloxone is poorly
absorbed under the tongue/against the cheek,
so when taking the combined medication as
directed, it has no effect. If injected, naloxone
causes sudden opioid withdrawal.
Buprenorphine comes in two forms that
melt on the inside of the cheek or under the
tongue: ﬁlms (combined with naloxone) or
tablets (buprenorphine/naloxone or buprenorphine alone). For treatment of OUD, patients
take the ﬁlms or tablets once daily, every other
day, or three times a week. Various companies
manufacture these forms of the medication.
Some are brand name, and some are generic.
The different kinds vary in strength or number
of milligrams, but they have been designed and
tested to provide roughly the same amount of
medication as the ﬁrst approved product (Exhibit
3A.5 in Part 3).

Buprenorphine is available outside of OTPs,
through non-OTP healthcare settings (e.g.,
physicians’ ofﬁces, outpatient drug treatment
programs). Healthcare professionals (including
nurse practitioners and physician assistants, per
the Comprehensive Addiction and Recovery
Act of 2016) can prescribe it outside of an OTP
provided they have a speciﬁc federal waiver.
This is often referred to as “being waivered” to
prescribe buprenorphine.

Buprenorphine is also available in a longacting implant that specially trained healthcare
professionals place under the skin (subdermal
implant) and an extended-release formulation
that is administered under the skin (subcutaneous injection). The implant is appropriate for
patients who have been stable on low doses of
the ﬁlms or tablets. It lasts for 6 months and can
be replaced once after 6 months. The extendedrelease formulation lasts for 1 month and can be
repeated monthly. It is appropriate for patients
who have been stabilized on the ﬁlms or tablets
for at least 7 days.

Buprenorphine can cause opioid withdrawal
in patients who have recently taken a full
opioid agonist (e.g., heroin, oxycodone). This
occurs because buprenorphine pushes the full
opioid activator molecules off the receptors and
replaces them with its weaker, partially activating
effect. For this reason, patients must be in opioid
withdrawal when they take their ﬁrst dose of
buprenorphine.

Healthcare professionals with waivers can
prescribe buprenorphine. Physicians who
take an 8-hour training and get a waiver can
prescribe buprenorphine. Nurse practitioners
and physician assistants are eligible to apply for
waivers after 24 hours of training. Providers who
wish to deliver buprenorphine implants must
receive special training on how to insert and
remove them.

The most common buprenorphine formulation
contains naloxone to reduce misuse. Naloxone
is an opioid antagonist. It blocks rather than
activates receptors and lets no opioids sit on

Buprenorphine can cause side effects including
constipation, headache, nausea, and insomnia.
These often improve over time and can be
managed with dosage adjustments or other
approaches.

4-14

A333

Part 4 of 5—Partnering Addiction Counselors With Clients and Healthcare Professionals

observe patients’ response to medication and
discourage diversion to others. Visit frequency
can lessen after patients spend time in treatment
and show evidence of progress.

Methadone
Methadone is highly effective. Many studies
over decades of research show that it:117,118,119

•
•
•
•

Increases treatment retention.
Reduces opioid misuse.
Reduces drug-related HIV risk behavior.
Lowers risk of overdose death.

Methadone can cause certain side effects.
Common potential side effects of methadone
include:

Methadone is slow in onset and long acting,
avoiding the highs and lows of short-acting
opioids. It is a full agonist. Patients who take
the same appropriate dose of methadone daily
as prescribed will neither feel euphoric from the
medication nor experience opioid withdrawal.
Methadone is an oral medication that is taken
daily under observation by a nurse or pharmacist and under the supervision of an OTP
physician. Methadone is available as a liquid
concentrate, a tablet, or an oral solution made
from a dispersible tablet or powder.
Methadone blunts or blocks the euphoric
effects of illicit opioids because it occupies the
opioid receptors. This “opioid blockade” helps
patients stop taking illicit opioids because they
no longer feel euphoric if they use illicit opioids.
When on a proper dose of methadone, patients
can:

•
•
•

TIP 63

Keep regular schedules.
Lead productive, healthy lives.
Meet obligations (family, social, work).

Methadone can lead to overdose death in
people who use a dose that’s considerably
higher than usual, as methadone is a full
agonist. People who don’t usually take opioids
or have abstained from them for a while could
overdose on a fairly small amount of methadone.
Thus, patients start on low doses of methadone
and gradually adjust upward to identify the
optimal maintenance dose level.
Patients must attend a clinic for dose administration 6 to 7 days per week during the start
of treatment. Healthcare professionals can thus

•
•
•
•
•

Constipation.
Sleepiness.
Sweating.
Sexual dysfunction.
Swelling of the hands and feet.

Sleepiness can be a warning sign of potential
overdose. Patients who are drowsy should
receive prompt medical assessment to determine
the cause and appropriate steps to take—which
may require a reduction in methadone dose.
Some patients may appear sleepy or have
trouble staying awake when idle, even if there
is no immediate danger of evolving overdose.
These patients may need a lower dose or may
be taking other prescribed or nonprescribed
medications (e.g., benzodiazepines, clonidine)
that are interacting with the methadone.

Naltrexone
Naltrexone stops opioids from reaching and
activating receptors, preventing any reward
from use. Naltrexone is an antagonist of the
opioid receptors—it does not activate them at
all. Instead, it sits on the receptors and blocks
other opioids from activating them.
Naltrexone appears to reduce opioid craving120
but not opioid withdrawal (unlike buprenorphine
and methadone, which reduce both craving
and withdrawal). Someone starting naltrexone
must be abstinent from short-acting opioids for
at least 7 days and from long-acting opioids
for 10 to 14 days before taking the ﬁrst dose.
Otherwise, it will cause opioid withdrawal,
which can be more severe than that caused by
reducing or stopping opioid use.

4-15

A334

TIP 63

Medications for Opioid Use Disorder

Naltrexone comes in two forms: tablet and
injection.

•

•

•

Patients take naltrexone tablets daily or three
times per week. Tablets are rarely effective,
as patients typically stop taking them after a
short time.121,122,123
Highly externally monitored populations
in remission may do well with the
tablet,124,125,126 such as physicians who have
mandatory frequent urine drug testing and
are at risk of losing their licenses.
The injected form is more effective than the
tablet because it lasts for 1 month. Patients
can come to a clinic to receive an intramuscular injection in their buttock.

Naltrexone can produce certain side effects,
which may include:

•
•
•
•

Nausea.
Headache.
Dizziness.
Fatigue.

For the extended-release injectable formulation,
potential reactions at the injection site include:

•
•
•
•

Pain.
Bumps.
Blistering.
Skin lesions (may require surgery).

Knowing What Prescribers Do
The following sections will help explain the role
healthcare professionals play in providing each
OUD medication as part of collaborative care.
Part 3 of this TIP offers more detailed clinical
information.

Administer buprenorphine
Patients typically begin buprenorphine in
opioid withdrawal. Patients may take their ﬁrst
dose in the prescriber’s ofﬁce so the prescriber
can observe its initial effects. Increasingly often,
patients take their ﬁrst dose at home and follow
up with prescribers by phone. Most people are
stable on buprenorphine dosages between 8 mg
and 24 mg each day.

Patients who take buprenorphine visit their
prescriber regularly to allow monitoring of
their response to treatment and side effects
and to receive supportive counseling. The
visits may result in speciﬁc actions, such as
adjusting the dosage or making a referral for
psychosocial services. Stable patients may obtain
up to a 30-day prescription of this medication
through community pharmacies. Visits may
include urine drug testing. Early in treatment,
patients typically see their prescribers at least
weekly. Further along, they may visit prescribers
every 1 to 2 weeks and then as infrequently as
once a month or less.
The prescriber will make dosage adjustments
as needed, reducing for side effects or increasing
for unrelieved withdrawal or ongoing opioid
misuse. OTPs that provide buprenorphine
will typically follow a similar process, with the
principal difference being that the program
will administer or dispense the medication
rather than the patient ﬁlling a prescription at
a pharmacy.

Administer methadone
Only SAMHSA-certiﬁed OTPs may provide
methadone by physician order for daily
observed administration onsite or for selfadministration at home by stable patients.127
The physician will start patients on a low dose
of methadone. People in early methadone
treatment are required by federal regulation
to visit the OTP six to seven times per week to
take their medication under observation. The
physician will monitor patients’ initial response
to the methadone and slowly increase the dose
until withdrawal is completely relieved for 24
hours.
A prescriber can’t predict at the start of
treatment what daily methadone dose will
work for a patient. An effective dose is one
that eliminates withdrawal symptoms and most
craving and blunts euphoria from selfadministered illicit opioids without producing
sedation. On average, higher dosages of
methadone (60 mg to 100 mg daily) are
associated with better outcomes than lower

4-16

A335

Part 4 of 5—Partnering Addiction Counselors With Clients and Healthcare Professionals

dosages.128,129 That said, an effective dose of
methadone for a particular patient can be above
or below that range.
The prescriber will continue to monitor the
patient and adjust dosage slowly up or down
to ﬁnd the optimum dose level. The dose may
need further adjustment if the patient returns
to opioid use, experiences side effects such
as sedation, starts new medications that may
interact with methadone, or has a change in
health that causes the previously effective dose
to become inadequate or too strong.
If patients taking methadone drink heavily
or take sedatives (e.g., benzodiazepines),
physicians may:

•
•
•
•

TIP 63

Healthcare professionals typically see patients
at least monthly to give naltrexone injections.
For those taking oral naltrexone, prescribers
schedule visits at their discretion. Thus, urine
drug testing may be less frequent for these
patients than for patients taking buprenorphine.
But periodic drug testing should occur.
There is only one dose level for injected
naltrexone,131 so prescribers cannot adjust the
dose. However, they can slightly shorten the
dosing interval if the medication’s effectiveness
decreases toward the end of the monthly dosing
interval. If the patient is having side effects or
intense cravings, the prescriber may recommend
switching to a different medication.

Set expectations

Treat the alcohol misuse.
Refer to a higher level of care.
Address comorbid anxiety or depression.
Decrease dosage to prevent overdose.

Administer naltrexone
To avoid severe withdrawal, prescribers
will ensure that patients are abstinent from
opioids at least 7 to 10 days before initiating
or resuming naltrexone. Prescribers may require
longer periods of abstinence for patients transitioning from buprenorphine or methadone to
naltrexone.
Prescribers typically take urine drug screens
to conﬁrm abstinence before giving naltrexone. Healthcare professionals can conﬁrm abstinence through a “challenge test” with naloxone,
a short-acting opioid antagonist.
Healthcare professionals manage withdrawal
symptoms with nonopioid medication.
Prescribers are prepared to handle withdrawal
caused by naltrexone despite a period of
abstinence.130 Ideally, they administer the ﬁrst
injection before patients’ release from residential
treatment or other controlled settings (e.g.,
prison) so qualiﬁed individuals can monitor them
for symptoms of withdrawal.

Ideally, prescribers will collaborate with
counselors and other care providers involved
in patients’ care to set reasonable patient
expectations. Medications can effectively treat
OUD, but they don’t treat other SUDs (save
naltrexone, also FDA-approved to treat alcohol
use disorder). Patients may still need:

•
•
•

Counseling for psychosocial issues.
Social supports/treatment to get back on track.
Medications, therapy, or both for co-occurring
conditions.

Collaboration between all involved healthcare
providers helps patients understand the
OUD treatment timeline, which generally lasts
months or years. Courses of medically supervised
withdrawal or tapering are considerably less
effective than longer term maintenance treatment
with buprenorphine or methadone and are often
associated with return to substance use and a
heightened risk of overdose.132,133,134,135
Patients may still beneﬁt from the
counseling you can offer in addition
to care from other providers, even if
you can’t communicate with those
providers directly.

4-17

A336

TIP 63

Medications for Opioid Use Disorder

Counselor–Prescriber
Communications

Good communication with prescribers
and other treatment team members
allows everyone to work together to:

OUD medication can support counselors’ work
with clients who have OUD, and counseling
supports the work prescribers do with them.
Good communication facilitates mutually
supportive work (Exhibit 4.6). A counselor will
probably:

•
•
•
•
•

• Assess patient progress.
• Change treatment plans if needed.
• Make informed decisions about
OUD medication.

See patients more frequently than prescribers.
Have a more complete sense of patients’
issues.
Offer providers valuable context and
perspective.
Help patients take medications appropriately.
Ensure that patients receive high-quality care
from their other providers.

Obtaining Consent
Get written consent from patients allowing
communication directly with their providers
(unless the counselor and the providers work
in the same treatment program). The consent
must explicitly state that the patient allows

the counselor to discuss substance-use-related
issues. It should also specify which kinds of information the counselor can share (e.g., medical
records, diagnoses). Consent forms must comply
with federal and state conﬁdentiality laws that
govern the sharing of information about patients
with SUDs.136,137
Carefully protect any identifying information about patients and their medical and
treatment information. Don’t send such information through unsecured channels, such as:

•
•
•

Text messaging.
Unsecure, unencrypted emails.
Faxes to unsecured machines.

EXHIBIT 4.6. Example of Counselor–Prescriber Communication
Counselor:

Dr. Smith, thank you for referring Jeff to my counseling practice. I’d like to review with you
the elements of the treatment plan we’ve developed.

Prescriber:

That would be really helpful.

Counselor:

We agreed to meet weekly while he’s getting stabilized on the buprenorphine. The initial
focus of our sessions will be helping Jeff expand his recovery support network.

Prescriber:

I’m glad to hear that you’re following up on that. My nurse reported that he’s alone in the
waiting room before his appointments, and he also mentioned to me that he doesn’t
have anybody to talk with.

Counselor:

I suggested a support group for people taking buprenorphine that’s in his neighborhood.
We’ve also begun talking about recreational activities that can help him ﬁll the time he
used to spend with drug-using friends.

Prescriber:

I’ll reinforce your suggestions when he comes in this Friday.

Counselor:

Also, he seems confused about where the ﬁlm goes in his mouth. I urged him to discuss
that with you.

Prescriber:

I’ll make a note to go over that with him again on Friday.

4-18

A337

Part 4 of 5—Partnering Addiction Counselors With Clients and Healthcare Professionals

Phone calls are the most secure way to discuss
patient cases, although it may be more convenient to reach out to healthcare professionals
ﬁrst through email.

Structuring Communications With
Prescribers

•

Regular, structured communication can
improve the ﬂow of information between
treatment teams. Some multidisciplinary
programs produce regular reports for prescribers
about patient progress. Exhibit 4.7 provides
some strategies for discussing patient care with
healthcare professionals.

Helping Clients Overcome Challenges in
Accessing Resources
By collaborating with healthcare professionals in
OUD care, counselors can help clients overcome
challenges they face in obtaining treatment, such
as:

•

•

Ability to pay for OUD medication.
Counselors are often already skilled in helping
clients address treatment costs (e.g., facilitating Medicaid applications, linking them
to insurance navigators). Try to refer clients
who face difﬁculty meeting prescription
costs or copays back to the agency’s ﬁnancial

TIP 63

department for sliding scale adjustments and
ability-to-pay assessments. Also try to help
patients ﬁnd and apply for relevant pharmaceutical company medication prescription
plans.
Transportation. Options to offer clients may
include:
− Providing vouchers for public
transportation.
− Providing information on other subsidized
transportation options.
− Linking clients to peer support specialists
and case managers who can arrange
transportation.
− Assisting eligible clients in navigating
Medicaid to obtain transportation services.
− If available, arranging for telehealth services
to overcome clients’ transportation barriers.
Access to medication in disaster situations.
Counselors can review options with patients
for obtaining prescription replacements
and reﬁlls or daily medicine dosing under
various scenarios. This could include if their
usual clinic or primary pharmacy is closed or
if they’re relocated without notice because
of an unforeseen emergency. Also advise
patients on the items to take with them in
such scenarios to facilitate reﬁlls from a new

EXHIBIT 4.7. Tips for Discussing Patient Care With Prescribers

• Identify the patient. Once the counselor has established secure communication through encrypted
•
•
•
•

email or by phone, he or she should state the patient’s name, date of birth, and medical record number
(if obtained).
Let prescribers know up f ront the purpose of the call. Begin by clearly describing the question or
concern leading to the call. If it is simply to establish contact because of a shared patient, that’s ﬁne.
Share any relevant information about the patient (if the patient has consented). If there is a concern
about a side effect, for example, describe observed changes to the healthcare professional. If there is a
concern about return to opioid use, describe which elements of the patient’s behavior are worrisome.
Work together to build a shared understanding of the patient’s situation. The counselor likely has key
information about the patient that the prescriber does not have, and vice versa.
Discuss next steps with the healthcare provider before ending any communication to help coordinate
patient care. Consider scheduling a check-in with each other to assess patient progress.

4-19

A338

TIP 63

Medications for Opioid Use Disorder

medication-dispensing facility. Key materials
include:
− Photo identiﬁcation.
− Medication containers of currently prescribed medications (even if empty).
− Written prescriptions.
− Packaging labels that contain dosage,
prescriber, and reﬁll information.
− Any payment receipts that contain
medication information.

•

− Inform patients from intake onward that

To overcome systemic barriers, help enact
collaborative policies and procedures. Work
with program management and the community
at large to address the following issues:

•

−
−

Connection to treatment: Counselors may
be able to participate in community efforts
to ensure that information on how to obtain
treatment for OUD is available wherever
people with OUD:
− Gather (e.g., all-night diners, bars, free health
clinics, injection equipment exchanges).
− Seek help (e.g., emergency departments,
houses of worship, social service agencies).
− Reveal a need for help (e.g., encounters
with law enforcement and child welfare
agencies).
Encourage buprenorphine prescribers to make
known their availability if they are prepared to
accept new patients. Help disseminate lists of
addiction treatment providers and share their
information via peer recovery specialists (see
Part 5).

•

Return to treatment: When patients discontinue treatment prematurely and return
to use of opioids, it can be hard for them to
reengage in treatment because of the shame
they feel or because there is a waiting list
for admission. The waitlist problem may not
be solvable because of capacity limitations,
but all collaborative care team members—
including counselors and prescribers—should:

Rapid assessment and treatment initiation:
Try to help OUD pharmacotherapy providers,
particularly in OTPs, streamline counseling
intake processes to help patients receive
medication efﬁciently. The expert panel of
this TIP recognizes that same-day admission
of patients with OUD may not be possible
in all settings, but it’s a worthwhile goal.
Every program should streamline its intake
processes and expedite admissions.

−

−
−

the program will readmit them even if they
drop out.
Encourage patients to seek readmission if
they return to opioid use or feel that they
are at risk for returning to opioid use.
Inform patients of the importance of
overdose prevention (see the “Counseling
Patients on Overdose Prevention and
Treatment” section).
Provide continued monitoring if possible; it
can range from informal quarterly check-ins
to regularly scheduled remote counseling or
peer support (e.g., from a recovery coach).
Offer an expedited reentry process to
encourage patients to return if they need to.
Engage in active outreach and reengagement with OTP patients, which can be
effective.138,139 Try to contact patients who
have dropped out to encourage them to
return.

Creation of a Supportive
Counseling Experience
Maintaining the Therapeutic Alliance
The therapeutic alliance is a counselor’s most
powerful tool for inﬂuencing outcomes.140
It underlies all types and modalities of therapy
and helping services. A strong alliance welcomes
patients into treatment and creates a sense of
safety.

4-20

A339

Part 4 of 5—Partnering Addiction Counselors With Clients and Healthcare Professionals

TIP 63

COUNSELING PATIENTS WITH OUD WHO DON’T TAKE MEDICATION
Patients who don’t take an OUD medication after withdrawal are at high risk of return to opioid use, which
can be fatal given the loss of opioid tolerance. Provide these patients with overdose prevention education
and the overdose-reversal medication naloxone, or educate them about naloxone and how they can
obtain it in their community. Advise them to report a return to opioid use or a feeling that they are at risk
of relapsing. Work with them and their care team to either resume medication for OUD or enter a more
intensive level of behavioral care.

Certain counselor skills help build and
maintain a therapeutic alliance, including:

•
•
•

Projecting empathy and warmth.
Making patients feel respected and
understood.
Not allowing personal opinions, anecdotes, or
feelings to inﬂuence the counseling process
(unless done deliberately and with therapeutic
intention).141

These skills are relevant for working with all
patients, including those taking medication for
OUD. Apply them consistently from the very ﬁrst
interaction with a patient through the conclusion
of services. For example, recognize and reconcile
personal views about medication for OUD so
that they don’t inﬂuence counseling sessions.

Educating Patients About OUD and a
Chronic Care Approach to Its Treatment
Help ensure that patients understand the
chronic care approach to OUD and their:

•
•
•
•
•
•

Diagnosis.
Prognosis.
Treatment options.
Available recovery supports.
Prescribed medications.
Risk of overdose (and strategies to reduce it).

Seek to understand patients’ preferences and
goals. Doing so can help convey information
meaningfully so patients understand the choices
available to them. Also, help communicate
patients’ preferences and goals to healthcare
professionals and family members.

Educate colleagues and other staff members
so they can help create a supportive experience
for patients with OUD:

•
•
•
•
•

Provide basic education to colleagues about
medications for OUD and how they work.
Share evidence on how these medications
reduce risky behavior, improve outcomes, and
save lives.
Note that major U.S. and international guidelines afﬁrm use of medication to treat OUD.
Ask about and address speciﬁc fears and
concerns.
Provide resources for additional information.

Counseling Patients on Overdose
Prevention and Treatment
Know how to use naloxone to treat opioid
overdose; share this information with
patients and their family members and
friends. Available by prescription (or without
a prescription in some states), naloxone is an
opioid antagonist that has successfully reversed
many thousands of opioid overdoses. It comes
in auto-injector and nasal spray formulations
easy for laypeople to administer immediately
on the scene of an overdose, before emergency
responders arrive.
Ask patients if they have a naloxone prescription or help them get it without one if
possible. Providers may prescribe naloxone in
addition to OUD medication. Counselors should
check state laws to learn their jurisdiction’s
naloxone prescription and dispensation policies
(see “Resource Alert: Overdose Prevention/
Treatment”).

4-21

A340

TIP 63

Medications for Opioid Use Disorder

Inform clients and their friends and families of
any Good Samaritan laws in the jurisdiction,
which protect against drug offenses for people
who call for medical help while experiencing or
observing overdose.

order from a physician. Clients are more likely
to access naloxone if their program provides it
directly to them rather than sending them to
another organization to get it. Learn more at
Prescribe to Prevent (http://prescribetoprevent.org).

Emphasize that a person given naloxone to
reverse overdose must go to the emergency
department, because overdose can start again
when naloxone wears off.

Helping Patients Cope With Bias and
Discrimination

Consider working with the program administrator to place a naloxone rescue kit in the
ofﬁce, if one is not already available. To be ready
for an emergency, learn:

•
•
•

The signs of overmedication (which may
progress to overdose) and overdose itself.
What to do if an overdose is suspected.
How to administer naloxone.

Consider working with the program administrators to set up a program to distribute
naloxone directly to patients. Many states
allow organizations to do this under a standing

RESOURCE ALERT
Overdose Prevention/Treatment
SAMHSA Opioid Overdose Prevention Toolkit
(https://store.samhsa.gov/product/SAMHSA
-Opioid-Overdose-Prevention-Toolkit/SMA16-4742)
National Conference of State Legislatures’ Drug
Overdose Immunity and Good Samaritan Laws
(www.ncsl.org/research/civil-and-criminal
-justice/drug-overdose-immunity-good
-samaritan-laws.aspx)

Patients taking medication for OUD must
deal with people—including family members,
friends, colleagues, employers, and community
members—who are misinformed or biased about
the nature of OUD and effective treatments for it
(Exhibit 4.8).
Wherever possible, such as in a counseling
session or a community education forum,
counter misunderstandings with accurate
information. Emphasize the message that
addiction is governed by more powerful brain
forces than those that determine habits. As a
result, having a lot of positive intent, wanting to
quit, and working hard at it sometimes won’t be
enough.
Remind patients about building recovery
capital and sticking with their treatment plan
and goals. A particularly good opportunity to
do so arises when patients ask how to “get off
medication.” Statements such as “The longer
you take medication, the more of your life you
can get back and the less likely you are to return
to opioid use” and “We usually recommend
continuing medication long term because it
helps people maintain recovery” can help clients
understand that they are following medical recommendations and doing a good job of caring
for themselves (Exhibit 4.9).

Project Lazarus’ Naloxone: The Overdose

People may think that addiction is just
a bad habit or willful self-destruction
and that someone who has difﬁculty
stopping opioid misuse is lazy. They
may view OUD medication as “just
another drug” and urge patients to
stop taking it.

Antidote (www.projectlazarus.org/naloxone)
Prescription Drug Abuse Policy System’s:
Interactive Map of Naloxone Overdose
Prevention Laws (http://pdaps.org/datasets
/laws-regulating-administration-of
-naloxone-1501695139)

4-22

A341

Part 4 of 5—Partnering Addiction Counselors With Clients and Healthcare Professionals

TIP 63

EXHIBIT 4.8. Conversation: Addressing Misinformation
Mother of Patient:

They want to put my son on methadone, but it’s going to rot his teeth.

Father of Patient:

Yeah. I don’t want him to look like he’s on drugs when he’s ﬁnally off them.

Counselor:

You have the impression that people who use drugs have bad teeth. And in many
cases, that’s true. But there are a lot of reasons why people with a substance
use disorder develop teeth and gum problems—such as a high-sugar diet, cooccurring depression that prevents them from taking good care of themselves,
poor health that allows oral disease to develop, and lack of access to preventive
dental care or treatment. But if your son practices good oral hygiene, his mouth
will stay healthy while he takes methadone.

Mother of Patient:

What do you mean by “oral hygiene”?

Counselor:

Like all of us, he’ll have to limit his sweets and brush and ﬂoss regularly.
Methadone can reduce the ﬂow of saliva, which means that not as much of the
bacteria on his teeth will get washed away. So, he’ll want to get good dental
advice on how to address dry mouth if that’s a problem for him. Regular dental
checkups will be really important, too.

Father of Patient:

So, he won’t trade his teeth for his recovery. Thanks—that’s one less thing to worry
about!

Review a client’s motivation for tapering or
quitting medication (Exhibit 4.10) and have a
conversation about the best timing for such a
change (Exhibit 4.11). If the client has consented
to communication with other providers, inform
the client’s prescriber about the client’s desires
or intent so that shared decision making can take
place.
Be proactive in dispelling myths and providing
facts about medications for OUD when countering misconceptions and judgmental attitudes.
Point out that multiple organizations consider
individuals to be in recovery if they take OUD
medication as prescribed, including:

•
•
•
•
•
•

The American Medical Association.
The American Society of Addiction Medicine.143
The National Institute on Drug Abuse.144
The Ofﬁce of the Surgeon General.145
SAMHSA.146
The World Health Organization.147
142

Explain that alcohol and opioids are different
substances with different effects on the
body and brain. This counters the mistaken
belief that people receiving buprenorphine or
methadone are always “high” and as impaired
as if they drank alcohol all day. People acquire
tolerance to impairments that drinking causes in
motor control and cognition. But this tolerance
is partial; alcohol consumption always results in
some deﬁcits. Opioids don’t have the same motor
or cognitive effects. Complete tolerance develops
to the psychoactive effects and related motor
impairments opioids cause.
If a person takes a therapeutic dose of opioid
agonist medication as prescribed, he or she
may be as capable as anyone else of driving,
being emotionally open, and working productively. Some people worry that OUD medication
causes a “high” because they’ve seen patients
taking OUD medication whose behavior was
affected by other substances (e.g., benzodiazepines). Others may assume that someone is high

4-23

A342

TIP 63

Medications for Opioid Use Disorder

EXHIBIT 4.9. Addressing the Misconception That an Opioid Medication
Is “Just Another Drug”
Concerned Colleague: These patients are just replacing one drug with another. Instead of heroin, they’re
using buprenorphine or methadone.
Counselor:

Actually, there’s substantial research that medication for opioid use disorder
helps patients stop feeling withdrawal and craving and allows them to get their
life back on track. These medications keep patients in treatment and reduce
crime and HIV risk behavior.

Concerned Colleague: Yeah, but aren’t they still addicted?

Counselor:

Physically dependent, yes; but addicted, no. There’s an important difference.
Someone addicted to heroin has to take the drug several times a day to avoid
withdrawal. This usually leads to craving, loss of control, and taking more than
intended. Drug-seeking behavior causes loss of family and friends. It makes the
person unable to perform daily roles and meet obligations.

Concerned Colleague: Yes, I know how addiction works. But isn’t taking methadone an addiction, too?
Counselor:

Patients only take methadone once a day, and its makeup is different from
heroin. Daily methadone lets the body stabilize so patients don’t have the highs
and lows that come f rom heroin use. If patients use heroin, the methadone
blocks its effects; they don’t get high. Methadone is taken orally, so there isn’t the
same danger of infection that comes with injection drug use. Taking methadone
as part of a treatment program lets patients feel normal and focus on changing
the other aspects of their lives that led to drug use.

Concerned Colleague: But you just said they take methadone every day.
Counselor:

Yes. That is true of most medications for any disease, if you think about it. Patients
have a physical dependence on the medication but are in remission from addiction.

on a medication for OUD who isn’t taking any
such medication at all.
Point out that many thousands of people are
prescribed medication for OUD every year,
are receiving appropriate treatment, and are
indistinguishable from other people. People
taking OUD medication rely on it to maintain
daily function, like people with diabetes rely
on insulin. Nevertheless, some people think that
individuals taking buprenorphine or methadone
are still addicted to opioids (Exhibit 4.9), even
if they don’t use illicit drugs. For people with
OUD, the medication addresses the compulsion
and craving to use. It also blocks the euphoric
effects of illicit opioids, which over time helps
people stop attempting to use. For people with

4-24

A343

EXHIBIT 4.10. When a Patient
Wants To Taper Medication or
Stop Altogether

• Review the decision with the patient to

•
•

determine the motivation for tapering or
quitting medication and the best timing for
such a change.
Tell the prescriber that the patient wants to
taper; shared decision making should guide
the patient’s decision.
Avoid encouraging tapering, which can imply
that recovery can only truly occur off of the
medication.

Part 4 of 5—Partnering Addiction Counselors With Clients and Healthcare Professionals

TIP 63

EXHIBIT 4.11. Responding to a Patient’s Desire To Taper Medication
for OUD
Patient:

I want to taper off the buprenorphine.

Counselor:

You’d like to taper—can you tell me why?

Patient:

I’m getting married. I want a fresh start.

Counselor:

You’re saying you’d like to have this all behind you for the new phase in your life.

Patient:

Yeah, that’s it.

Counselor:

Would it be alright if I share my concerns about that?

Patient:

Okay.

Counselor:

A big change—whether it’s having a baby, getting a new job, or getting married like
you’re about to do—can be very exciting. But it can also be surprisingly stressful. You
may want to consider staying on the medication during this transition to make sure you
maintain your recovery. I’m just suggesting postponing a taper decision until you start
getting settled into married life.

Patient:

I hear you. The last thing I want to do is mess up my marriage right away by using again.

It would be inappropriate for a medical
team to refuse radiation for cancer
patients because the team believes
chemotherapy is always needed, or to
refuse chemotherapy because they
believe that radiation is always needed,
regardless of each patient’s diagnosis
and condition. It would be just as
inappropriate to refuse evidencebased treatment with medication for
a patient with OUD, when that may be
the most clinically appropriate course
of treatment.
diabetes, medication addresses the problems
caused by inadequate production of insulin by
the pancreas. Medication allows both populations to live life more fully.
Focus on common ground—all patients want
a healthy recovery, and judging or isolating
someone for return to use doesn’t aid
anyone’s recovery. A divide may occur between

patients in a group setting over return to opioid
use. People in the OUD community typically are
forgiving of return to opioid use and recognize
that it can occur on the path to long-term
recovery. However, some people in mutual-help
communities judge those who return to use (see
the “Helping Clients Find Accepting Mutual-Help
Groups” section). Address judgmental attitudes
through this analogy: People with diabetes whose
blood sugar spikes aren’t condemned and ejected
from treatment.
Dispel the myth that OUD medications make
people sick. In fact, methadone and buprenorphine relieve opioid withdrawal, even if patients
don’t feel complete relief in the ﬁrst few days.
Taking naltrexone too soon after opioid use
can cause opioid withdrawal, but withdrawal
symptoms can generally be managed successfully. Point out that people taking medication
for OUD sometimes get colds, the ﬂu, or other
illnesses, like everyone else. A similar misconception is that OUD medications make all patients
sleepy. Exhibit 4.12 offers a sample dialog for
responding to this misconception.

4-25

A344

TIP 63

Medications for Opioid Use Disorder

EXHIBIT 4.12. Conversation: Redirecting a Concern to the Prescriber
Concerned Colleague: A patient in my group was falling asleep. I think his methadone dose is too high.
Counselor:

That’s an important observation. That certainly is possible, although there are
many other possible explanations. What makes you think it’s the medication and
not lack of sleep or some other reason?

Concerned Colleague: Because everyone taking methadone falls asleep in group.
Counselor:

Our medical staff members work hard to make sure that each patient is on the
right dose. If a patient is falling asleep in group, you should alert the patient’s
physician right away, regardless of what medication they’re taking. But I’m
wondering if anything besides medication could be causing this issue.

Concerned Colleague: Well, this patient is struggling with having an all-night job.
Counselor:

It may be helpful to talk to the patient about moving to a group that meets at
a time when he can be more rested. In any case, to be safe, you should call the
patient’s prescriber about reassessing him.

When return to opioid use comes up in a group
counseling setting, messages about getting back
on track and avoiding shaming and blaming
apply just as much to the patients taking OUD
medication as to other participants. This topic
is an opportunity to address the dangers of
overdose, especially the dangers of using
an opioid after a period of abstinence or
together with other CNS depressants.

Helping Patients Advocate for
Themselves
Educate clients so they can advocate for their
treatment and personal needs. Key topics
include:

•
•
•
•
•

Addiction as a chronic disease inﬂuenced by
genetics and environment.
The ways that medications for OUD work.
The process of dose stabilization.
The beneﬁts of longer term medication use
and risks of abrupt treatment termination.
The role of recovery supports (e.g., mutualhelp groups) in helping achieve goals.

family and friends know how important they are
and how valuable their support is. Also urge
patients to ask loved ones to help them express
concerns or fears.
Role-playing can help patients self-advocate.
It allows them to practice what to say, what
reactions to expect, and ways to respond. Coach
patients in active listening and in focusing on
solutions rather than problems. Exhibit 4.13
gives an example of a counselor helping a client
self-advocate.
Urge patients to advocate for themselves
beyond one-on-one conversations. Options
include sharing educational pamphlets, inviting
loved ones to a counseling session, or referring
them to websites.

Addressing Discrimination Against
Clients Who Take OUD Medication

Offer clients’ family and friends education on
these topics as well so that they can advocate
for their loved ones. Encourage patients to let

Patients can face discriminatory actions
when dealing with individuals, organizations,
or systems that make decisions based on misinformation about, or biases against, the use
of medication for OUD. The following sections
highlight issues patients taking OUD medication
may face and how counselors can help.

4-26

A345

Part 4 of 5—Partnering Addiction Counselors With Clients and Healthcare Professionals

TIP 63

EXHIBIT 4.13. Conversation: Helping a Client Self-Advocate
Patient:

My mom is driving me to my back surgery. I’m worried that she’ll ﬁnd out I’m taking
buprenorphine.

Counselor:

It sounds like you’re worried she’ll reject you and be upset if she knows you’re taking
medication.

Patient:

I think she’ll be disappointed in me. She thinks people who take addiction medication
are still on drugs.

Counselor:

What would you think about ﬁnding a time before your surgery to tell your mother that
you’re taking buprenorphine? You can explain how it works and remind her how well
you’ve been doing maintaining your job, regaining custody of your children, and living
a balanced and healthy life. That may help ease her fears.

Patient:

Thanks. I’ll give that a try.

Counselor:

If you want, you could invite her to one of our sessions so that I can answer any questions
she has.

Patient:

Yeah, she may hear it better from you. I like the idea of having her come in after I’ve told her.

Counselor:

When would be a good time to bring up this topic?

Patient:

She’s driving me to my pre-op appointment on Friday. Maybe I’ll suggest we go for
coffee after.

Counselor:

That’s a good idea. How about we practice that conversation? I’ll play the role of your mom.

Help clients address employmentrelated issues
Under the Americans With Disabilities Act,
employers cannot discriminate against
patients taking medication for OUD.148
However, the law doesn’t always stop employers
from taking such action. For example, some
employers conduct workplace urine drug
testing, either before offering employment
or randomly during employment. The OUD
medication they test for most frequently is
methadone, but it’s possible to test for buprenorphine. Naltrexone is generally not tested
for. The TIP expert panel concludes, based on
multiple patient experiences, that patients who
take OUD medication ﬁnd it intimidating to
explain to their employers why their urine test
results are positive for opioids. Yet if they offer
no explanation, they don’t get the callback for
the job or are let go from the job they have.

Direct patients to legal resources and help
them consider how to respond to discrimination at work based on misinterpreted drug
tests. Offer to speak with their prospective/
current employers to address concerns and
misperceptions about OUD medication and its
effect on their ability to do work tasks.

RESOURCE ALERT
Becoming a Certiﬁed MedicationAssisted Treatment Advocate
The National Alliance for Medication Assisted
Recovery has a training and credentialing
program for interested people—not just those
who receive medication for OUD—to become
Certiﬁed Medication-Assisted Treatment
Advocates (www.methadone.org/certiﬁcation
/faq.html).

4-27

A346

TIP 63

Medications for Opioid Use Disorder

Understand potential legal issues

23,2,' $'',&7,21

This section describes issues that can affect access
to care for patients involved in the justice system
who take buprenorphine or methadone for OUD.
These issues usually don’t apply for naltrexone.
Many jails (short term) and prisons (long term)
restrict or disallow access to OUD medication
despite the federal mandate that people who are
incarcerated have access to medical care.149,150
For example:

•
•
•

A jail may not continue methadone treatment
or allow methadone delivery by patients’ OTPs.
Patients’ medication may be seized upon arrest.
Jail health ofﬁcials may deny patients’ buprenorphine prescriptions.

Help negotiate patient access to OUD
medication during incarceration. Negotiating
access to OUD medication can be problematic
and often requires multiple meetings between
care providers and jail staff members to resolve
successfully. Patients taking OUD medication
may be forced to go without medication during
incarceration. This increases their risk for opioid
overdose if they return to use after reentering
the community, given the decreased tolerance
that results from interrupted treatment.
Encourage patients to reengage in treatment
as soon as they’re released. People with OUD
released from prison or jail who don’t take OUD
medication have higher risk of overdose death
during their ﬁrst few weeks in the community.
Early after release, they are at very high risk of
overdose, given possible:

•
•
•
•

Decrease in opioid tolerance while incarcerated.
Lack of appropriate OUD therapy while
incarcerated.
OUD medication initiation right before release.
Release without coordination or a slot for
community-based treatment.

Patients who aren’t opioid tolerant need a lower
starting dose that prescribers will increase more
slowly than usual. Extended-release injectable
naltrexone can be an effective alternative for these
patients.

LV OLQNHG ZLWK KLJK UDWHV RI

,//(*$/ $&7,9,7< DQG
,1&$5&(5$7,21

Support patients in getting legal advice or
counsel via their OUD medication prescribers’
healthcare organization. Members of the TIP
expert panel have observed situations in which
law enforcement personnel arrested patients
leaving methadone clinics and charged them
with driving under the inﬂuence or arrested them
after ﬁnding buprenorphine prescription bottles
in their cars. Discussions among treatment organizations and local law enforcement leadership
can help address such situations.
Address concerns and advocate for addiction
specialists to select treatments best suited
for each patient. Sometimes, authorities insist
that patients enter a particular kind of treatment
or follow particular rules related to their OUD.
To ensure a patient-centered focus, help involve
addiction specialists in determining what kind of
treatment best meets patients’ needs. This kind
of advocacy works best when counselors and the
programs for which they work have preexisting
relationships with personnel in local employment, law enforcement, drug court, and child
welfare facilities.

Address issues in dealing with healthcare
providers
Misunderstandings about OUD and its
treatment aren’t rare among healthcare
providers:

•
•
•

4-28

A347

Patients admitted to the hospital for medical
issues may face prejudice from hospital staff
members.
Providers may not know how to manage
patients’ OUD medication during their
hospital stay.
Some providers don’t know how to manage
pain in someone taking medication for OUD.

Part 4 of 5—Partnering Addiction Counselors With Clients and Healthcare Professionals

TIP 63

Help communicate issues to patients’
prescribers, who can advocate for proper
handling of OUD medication. It is also possible
to help hospital staff members see the patient
as a whole person who deserves respect and to
provide them with essential information about
treatment for OUD.

Hospital policies on screening infants for
prenatal substance exposure vary considerably.
A positive screen may trigger involvement of
Child Protective Services. This may occur even
when the positive screen results from treatment
with OUD medication under a physician’s care
rather than opioid misuse.

Inpatient SUD treatment facilities may refuse
admission until patients are off buprenorphine
or methadone. Sometimes, patients taking
OUD medication seek admission to inpatient
facilities for treatment of an additional SUD,
a mental disorder, or both. If a facility won’t
accept someone on OUD medication, call on
local or state regulatory authorities (e.g., the
State Opioid Treatment Authority) and patients’
healthcare professionals to intervene with the
facility’s professional staff and management.

Help pregnant and postnatal clients in these
situations by:

Demonstrate awareness of pregnancy and
parenting issues
Healthcare professionals may be unaware
of current guidelines for treating pregnant
women with OUD (Exhibit 4.14). As a result,
they may inappropriately:

•
•
•

Deny OUD medication to pregnant women.
Discourage breastfeeding by mothers taking
OUD medication.
Direct women who become pregnant while
taking OUD medication to undergo withdrawal from their medication and attempt
abstinence.

•
•
•

Educating them and encouraging them to
share pertinent information and resources with
healthcare professionals involved in their care.
Coordinating with their prescribers to help
them get prenatal and postnatal care from
well-informed healthcare professionals.
Getting involved in efforts to educate
the local healthcare community about
best practices for the care of pregnant and
postnatal women with OUD.

Legal problems can arise if Child Protective
Services or legal personnel don’t understand
that parents receiving OUD medication are
fully capable of caring for children and contributing to their families. Judges, probation
or parole ofﬁcers, or Child Protective Services
workers may inappropriately request that patients
discontinue medication as a condition of family
reuniﬁcation. Such orders are medically inappropriate and should be challenged. Possible ways
to help:

RESOURCE ALERT

RESOURCE ALERT

Treatment of Pain in Patients
With OUD

Pregnancy- and Parenting-Related
Issues

SAMHSA’s TIP 54, Managing Chronic Pain in

SAMHSA’s Clinical Guidance for Treating

Adults With or in Recovery From Substance Use

Pregnant and Parenting Women With Opioid

Disorders (https://store.samhsa.gov/product/TIP

Use Disorder and Their Infants (https://store

-54-Managing-Chronic-Pain-in-Adults-With-or

.samhsa.gov/product/SMA18-5054)

-in-Recovery-From-Substance-Use-Disorders
/SMA13-4671)

4-29

A348

TIP 63

Medications for Opioid Use Disorder

EXHIBIT 4.14. Summary of Current Guidance for the Treatment
of Pregnant Women With OUD

• An obstetrician and an addiction treatment provider should comanage care, and the woman should
•
•

•
•

receive counseling and supportive services as needed to assist her in achieving a stable life.
Treatment with methadone or buprenorphine without naloxone during pregnancy is recommended.
Treatment with naltrexone is not recommended during pregnancy.
Medically supervised withdrawal during pregnancy is typically not advisable. If not done with great
care in a controlled setting, it can cause premature labor, fetal distress, and miscarriage. Attempts at
abstinence from opioids without the support of medication are generally not advised because of the
risk of return to opioid use, which can adversely affect both mother and fetus.
Newborns of women who take OUD medication often show symptoms of NAS, which is treatable. NAS
from opioid agonist treatment is not as harmful to the fetus
as continued use of illicit opioids during pregnancy.
Mothers stabilized on medication for OUD are encouraged to breastfeed.

Summarized from SAMHSA’s publication A Collaborative Approach to the Treatment of Pregnant
Women With Opioid Use Disorders (https://store.samhsa.gov/product/A-Collaborative-Approach-to
-the-Treatment-of-Pregnant-Women-with-Opioid-Use-Disorders/SMA16-4978).153

•
•
•

Write letters to judges and lawyers explaining
how effective OUD medication can be.
Send judges and lawyers literature about
current medical recommendations (including
this TIP).
Testify in court, if necessary.

Helping Clients Find Accepting MutualHelp Groups

Clients taking medication for OUD may face
challenges in attending mutual-help groups.
For example:

•

•

Voluntary participation in 12-Step groups can
improve abstinence and recovery-related skills
and behaviors for some people with SUDs.
Greater involvement (e.g., being a 12-Step
sponsor) can increase these beneﬁts.154,155,156,157
However, not much research has explored less
widespread types of groups (e.g., groups that
follow a given religion’s principles, secular
groups that downplay the spiritual aspects of
12-Step groups). Research exploring longitudinal
outcomes for people with OUD who attend NA
is limited, but ﬁndings link more frequent attendance with abstinence.158,159,160

•
•

•

4-30

A349

NA, the most widely available program, treats
illicit opioids and OUD medications equally in
gauging abstinence and recovery. NA doesn’t
consider people taking OUD medication
“clean and sober.”161
Local chapters of NA may decide not to allow
people taking OUD medication to participate
at meetings or may limit their participation
(e.g., not allowing service work).
Clients attending some NA meetings may
encounter hostile attitudes toward the use of
medication.
AA’s ofﬁcial policy is more accepting of the
use of prescribed medication, but clients may
still encounter negative attitudes toward their
use of medications for OUD.
Other groups, such as some religious mutualhelp programs, SMART Recovery, and LifeRing
Secular Recovery, also have policies that could
challenge clients for taking medication for OUD.

Part 4 of 5—Partnering Addiction Counselors With Clients and Healthcare Professionals

TIP 63

Prepare clients who take medication for
OUD to attend mutual-help meetings

RESOURCE ALERT

Clients will be better able to ﬁnd supportive
mutual-help groups if their counselor and
program:

Addressing Bias and Discrimination
Are You in Recovery From Alcohol or Drug
Problems? Know Your Rights: Rights for

•

Individuals on Medication-Assisted Treatment:
SAMHSA publication explaining patient rights

•

and federal laws that protect people receiving
OUD medication. Describes whom these

•

laws protect and what they cover, including
employment, housing, services, and public
accommodations (http://store.samhsa.gov

•

/product/Rights-for-Individuals-on-Medication
-Assisted-Treatment/SMA09-4449)
Know Your Rights: Employment Discrimination

•

Against People With Alcohol/Drug Histories:
Legal Action Center webinar (http://lac.org

•

/resources/substance-use-resources
/employment-education-housing-resources

•

/webinar-know-rights-employment
-discrimination-people-alcoholdrug-histories)
Medication-Assisted Treatment for Opioid

Evaluate attitudes toward medication for
OUD among local mutual-help groups.
Keep on hand information about all mutualhelp options available in the clients’ area.
Recruit volunteers from mutual-help
groups to help clients ﬁnd and attend
meetings (e.g., by providing transportation,
serving as “sponsors,” introducing clients).
Do not mandate meeting attendance.
Recommending participation is just as
effective.162
Keep track of clients’ experiences at
different groups to ensure that meetings
remain welcoming.
Help clients start onsite mutual-help
groups.
Ask staff members to evaluate their own
feelings and beliefs about mutual-help
groups.163

Center publication that dispels myths and

Facilitate positive mutual-help group
experiences

provides facts about OUD medication

•

Addiction: Myths and Facts: Legal Action

(http://lac.org/wp-content/uploads/2016/02
/Myth-Fact-for-MAT.pdf)
Methadone Maintenance Myths and

•

Resources: Missouri Department of Mental
Health factsheet (http://dmh.mo.gov/docs/ada

•

/methadonemyths.pdf)

•
•

Educate clients about mutual-help groups.
Explore group types, risks and beneﬁts of
participation, and limitations of research in
support of those risks and beneﬁts.
Suggest buddying up. Clients can attend
meetings with other people who take medication for OUD.
Review with clients their understanding of
and prior experience with mutual help.
Explore clients’ understanding of the
beneﬁts and risks of disclosure about
taking OUD medication.
Develop a risk-reduction plan for disclosure
if clients want to share their use of OUD
medication (e.g., talking with an individual
group member instead of disclosing to the
entire group).

4-31

A350

TIP 63

•

•

•

•

Medications for Opioid Use Disorder

Help clients anticipate and learn to handle
negative responses:
− Develop sample scripts clients can use
when questioned about their medication.
− Role-play scenarios in which clients respond
to questions about their use of medication.
Respect the privacy of clients’ participation
in mutual-help groups and recognize that
some groups ask that participants not discuss
what occurs in meetings.
Make sure clients know they can talk about
their experiences in mutual-help groups
but don’t pressure them to disclose in these
groups that they take OUD medication.
Consider mutual-help participation using
groups more open to OUD medication (e.g.,
attending AA even if the client has no alcohol
use disorder; attending groups for cooccurring substance use and mental disorders,
such as Dual Recovery Anonymous or Double
Trouble in Recovery). Clients with OUD who
attend AA and not NA have similar recoveryrelated outcomes and retention rates.164

Online mutual-help groups
Before recommending an online group, check
its content and tone on the use of medication.
Mutual help using the Internet (either through
real-time chat rooms or discussion boards
where one posts and waits for responses) has
been growing in popularity. This is an especially
valuable resource for clients living in rural and
remote areas. Groups range from general
meetings for people with a particular SUD (e.g.,
online AA meetings) to those that are very
speciﬁc (e.g., Moms on Methadone). Moderated
groups are preferable to unmoderated groups.
TIP 60, Using Technology-Based Therapeutic
Tools in Behavioral Health Services, addresses
many of the pros and cons of online support
groups.165 Part 5 of this TIP gives links for several
groups that the TIP expert panel has identiﬁed
as helpful.

RESOURCE ALERT
Mutual Help for Clients With OUD
William White’s Narcotics Anonymous and the

RESOURCE ALERT

Pharmacotherapeutic Treatment of Opioid
Addiction in the United States:Publication

How To Use Technology-Based
Tools in Behavioral Health Services

that gives more information on the pros and
cons of 12-Step groups for people receiving

SAMHSA’s TIP 60, Using Technology-Based

medication for OUD and how to prepare them

Therapeutic Tools in Behavioral Health

for meetings166 (http://atforum.com/documents

Services, is available from the SAMHSA Store

/2011NAandMedication-assistedTreatment.pdf)

(https://store.samhsa.gov/product/TIP-60

White, Galanter, Humphreys, and Kelly’s “The

-Using-Technology-Based-Therapeutic-Tools

Paucity of Attention to Narcotics Anonymous

-in-Behavioral-Health-Services/SMA15-4924).

in Current Public, Professional, and Policy

In addition to discussing online mutual-help

Responses to Rising Opioid Addiction”: Peer-

groups, this TIP can help counselors implement

reviewed journal article on the beneﬁts of NA

technology-assisted care for patients with OUD.

and the need to include it among the options

It highlights the importance of using technology-

offered to people receiving medication for OUD167

based assessments and interventions and

(www.tandfonline.com/doi/abs/10.1080/0734732

discusses how technology reduces barriers to

4.2016.1217712)

treatment.

4-32

A351

Part 4 of 5—Partnering Addiction Counselors With Clients and Healthcare Professionals

Mutual-help groups speci c to OTPs

•

Although these meetings occur mostly on
the premises of OTPs, it may be possible to
use the models developed by OTPs in more
general SUD treatment settings. Because they
serve only patients receiving medication to treat
OUD, OTPs can create and sustain onsite mutualhelp groups speciﬁc to this population. Such
groups include Methadone Anonymous (MA),168
other variations on a 12-Step model,169,170 and
the mutual-help component of MedicationAssisted Recovery Services (MARS). MARS is
a recovery community organization, not just a
mutual-help program. MARS members design,
implement, and evaluate a variety of peerdelivered recovery support services in addition
to providing meetings. More information on
these programs is in the articles cited and online
resources presented in Part 5.

Facilitating Groups That Include Patients
Taking OUD Medication
Foster acceptance via attitude and behavior
when facilitating groups that include patients
taking OUD medication:

•

•
•
•

TIP 63

Be proactive. State up front that ground
rules apply to everyone, regardless of a given
person’s decisions about whether to include
OUD medication in his or her path to recovery.
Ask members to discuss how to address
any negative comments, should they occur.
This is especially important for mixed groups.
Ask group members to afﬁrm that they will
abide by the rules.
Provide consistent reminders throughout
each session about the ground rules.

Group members may still make negative
comments about medication for OUD. Avoid
feeding the negativity with attention, which
can worsen the situation. Reframe negative
comments to express underlying motivations,
often based on fear or misunderstanding.
Remain positive; model expected behavior,
which can beneﬁt the person who made the
negative remark (Exhibit 4.15).
Additional tips for leading mixed groups include
the following:

•

Establish ground rules about being respectful, avoiding negative comments about group
members, and keeping statements made in
the group conﬁdential—as with any group.

Treat patients taking OUD medication
the same as other patients in the group.
Patients taking medication can participate
in and beneﬁt from individual and group
counseling just like other patients. There is
no need to have separate counseling tracks

EXHIBIT 4.15. Redirecting Negative Comments
Petra:

How can you say Joni is in recovery when she’s still taking a drug every day? I struggled
every day and never took anything for 10 years.

Counselor:

I hear your concern for Joni. You want her recovery to follow the same path you took in yours.

Petra:

Right! And she’s taking methadone, which is an opioid. People use opioids to get high.

Counselor:

In this treatment program, we see addiction as a brain disease. Methadone treats the
brain disease part of addiction. It stabilizes the brain and allows the person to focus on
learning new ways of thinking and reacting. It works by blocking the effects of other
opioids. Patients on a proper dose can’t get high even if they try to use. This helps
discourage future drug use. Joni, would you like to add anything?

Joni:

Petra, it’s great that you stopped using opioids and stayed in recovery without
medication—but everyone has a different path to recovery. For me, medication helps me
hold a job, take care of my kids, stay focused in my counseling sessions, and feel normal.

4-33

A352

TIP 63

•

•

•

•

•

Medications for Opioid Use Disorder

based on OUD medication status, nor should
that status limit a participant’s responsibilities,
leadership role, or level of participation.
Meet with patients taking OUD medication
in advance to prepare them for mixedgroup settings. Advise them that they don’t
have to disclose their medication status to the
group, just as they don’t have to disclose any
other health issues. Counsel them that if they
choose to talk about their medication status,
it helps to talk about how medication has
helped shape their personal recovery.
Don’t single out patients taking OUD
medication. Let participants decide whether
to tell the group about any issue they want to
share, including medication status. If a patient
chooses to disclose that status, follow up after
the session to ensure that he or she is in a
positive space and feels supported.
Keep the session’s focus on the topic and
not on the pros and cons of medication for
OUD. If the person receiving medication for
OUD or other group members have speciﬁc
questions about such medications, have them
ask their healthcare professionals.
Reinforce messages of acceptance. During
the wrap-up discussion at the end of a
session, members may comment on points
that stood out for them. This is a chance to
restate information accurately and model
respect for each patient’s road to recovery,
whether it includes OUD medication or not.
Review conﬁdentiality rules. Afﬁrm that
patients’ OUD medication status will not be
shared with other group members. Remind
participants to think carefully before sharing
personal details such as their medication
status with the group, because other participants may not respect conﬁdentiality even
if they have agreed to do so as part of the
group guidelines.

Other Common Counseling
Concerns
Patients must sign releases to permit ongoing
conversations between care providers in
accordance with federal regulations on conﬁdentiality of medical records for patients in
treatment for an SUD (42 CFR Part 2). When
patients’ primary care providers, prescribers
of medication for OUD, and addiction-speciﬁc
counselors don’t work for the same entity,
patients must consent for them to share
information.
It can be challenging when a patient refuses
to consent to collaborative communication
among his or her healthcare team members.
In these cases, the professionals involved must
decide whether they will continue to provide
either medication or counseling services without
permission to collaborate. In other words,
is cross-communication among all providers
required for collaborative care? The answer to
this complicated question depends on each
patient’s circumstances.

4-34

A353

The TIP expert panel recommends
communication among providers
as the standard of care for OUD
treatment and recovery support.
Carefully consider deviations from this
standard, which should occur only
rarely. That said, individualize decisions
about collaborative communication
among providers to each patient’s
unique preferences, needs, and
circumstances.

Part 4 of 5—Partnering Addiction Counselors With Clients and Healthcare Professionals

Patients may not consent to communication
among providers if they:

•
•
•

•

Have experienced discrimination in healthcare systems.
Have developed OUD after taking opioid
pain medication.
Have legitimate cause not to trust
providers (e.g., perceiving themselves
as having been abused by a healthcare
professional).171
Are not ready to make primary care
providers aware of their disorder, even

•

TIP 63

(or especially) if those providers have been
prescribing opioid pain medication.
Encounter problems in making progress
toward recovery. After typically consenting
to communication among providers, a
patient’s sudden revocation may signal
trouble in recovery.

Exhibit 4.16 lists common collaborative care
issues and responses counselors can consider.
Suggested responses assume that patients have
consented to open exchange of information
among all providers.

EXHIBIT 4.16. Common Collaborative Care Issues and Possible
Counselor Responses
POTENTIAL MEDICATION
RELATED ISSUE

The patient complains of
continued cravings.

COUNSELOR RESPONSE

Talk with the patient about his or her medication adherence. Review
with the patient strategies for overcoming cravings using a CBT
model.
Communicate with the prescriber to see whether dosage can be
adjusted to subdue the cravings.

A patient taking methadone
does not appear engaged
in counseling sessions
and seems drowsy during
conversations.

Ask the patient whether drowsiness is caused by lack of sleep,
disturbed sleep, substance use, or overmedication. Consider
obtaining a spot urine test (if available).

The patient is at risk for
return to opioid use.

Inform the prescriber if the patient appears at risk for return to use
given cravings, life stressors, changes in social circumstances, new
triggers, or the like. This alerts the prescriber to monitor the patient
more closely and consider medication changes to reduce likelihood
of return to use.

The patient has recently
returned to opioid misuse
after a period of abstinence.

Gather details about circumstances surrounding the incident of use
and, in collaboration with the prescriber and the patient, adjust the
treatment plan accordingly. Reinforce the patient’s understanding of
the increased risk of opioid overdose given altered levels of tolerance.

In all cases of drowsiness, alert the prescriber immediately so that the
cause can be determined. This is particularly important during the
ﬁrst few weeks of treatment.

Continued on next page

4-35

A354

TIP 63

Medications for Opioid Use Disorder

EXHIBIT 4.16. Common Collaborative Care Issues and Possible
Counselor Responses (continued)
POTENTIAL MEDICATION
RELATED ISSUE

COUNSELOR RESPONSE

The patient is discussing
chronic pain with the
counselor.

Direct the patient to a healthcare professional for assessment of pain
and medical treatment as necessary.

The patient is asking the
counselor for medical advice
on what dose to take, side
effects, how long to stay on
the medication, and the like.

Answer questions based on your knowledge of medications for
treatment of OUD but don’t provide medical advice. Refer the patient
to the prescriber for that.

The counselor or patient
is concerned that the
prescriber is not giving
quality care.

As appropriate, advocate for the patient with the prescribing medical
team.

The patient discloses use of
other drugs.

Use motivational interviewing techniques to have a collaborative
conversation about the details of this drug use. For example, give a
response like “Tell me more about this,” followed by questions about
the speciﬁc drugs used, why they were used, and what the patient’s
thoughts are about changing that drug use.

The patient discloses that
she is pregnant.

Advise the patient to contact her prescriber immediately no matter
what medication she is taking. Work with her to help her get access
to prenatal care (if she doesn’t have it already) and other health
services related to pregnancy as needed.

The patient has a positive
urine screen.

Using motivational interviewing tools, discuss with the patient the
context of the substance use and what implications this use may
have for the treatment plan. If the patient denies the substance use,
reconsider the patient’s readiness to change and how it affects the
treatment plan.

If indicated as appropriate by a healthcare professional, provide CBT
for dealing with pain or instruct the patient in adjunct methods for
pain relief (e.g., meditation, exercise, physical therapy).

As appropriate, contact the prescriber with the patient to have a
three-way discussion.

4-36

A355

Part 4 of 5—Partnering Addiction Counselors With Clients and Healthcare Professionals

Notes
1

2

14 Substance Abuse and Mental Health Services
Administration. (n.d.). Opioid treatment program
directory. Retrieved October 19, 2017, from https://
dpt2.samhsa.gov/treatment/directory.aspx

Centers for Disease Control and Prevention. (2016).
Increases in drug and opioid-involved overdose
deaths—United States, 2010–2015. Morbidity and
Mortality Weekly Report, 65(50–51),1445–1452.

15 American Psychiatric Association. (2013). Diagnostic
and statistical manual of mental disorders (5th ed.).
Arlington, VA: American Psychiatric Publishing.

Center for Behavioral Health Statistics and Quality.
(2017). Key substance use and mental health
indicators in the United States: Results from the 2016
National Survey on Drug Use and Health. Rockville,
MD: Substance Abuse and Mental Health Services
Administration.

16 Carroll, K. M., & Weiss, R. D. (2016). The role of
behavioral interventions in buprenorphine maintenance
treatment: A review. American Journal of Psychiatry,
174(8), 738–747.
17 McLellan, A. T., Lewis, D. C., O’Brien, C. P., & Kleber, H.
D. (2000). Drug dependence, a chronic medical illness:
Implications for treatment, insurance, and outcomes
evaluation. JAMA, 284(13), 1689–1695.

3

American Society of Addiction Medicine. (2011).
Deﬁnition of addiction. Retrieved October 30, 2017,
from www.asam.org/resources/deﬁnition-of-addiction

4

American Psychiatric Association. (2013). Diagnostic
and statistical manual of mental disorders (5th ed.).
Arlington, VA: American Psychiatric Publishing.

5

Department of Health and Human Services, Ofﬁce
of the Surgeon General. (2016). Facing addiction in
America: The Surgeon General’s report on alcohol,
drugs, and health. Washington, DC: Department of
Health and Human Services.

6

Substance Abuse and Mental Health Services
Administration. (2015). Federal guidelines for opioid
treatment programs. HHS Publication No. (SMA)
PEP15-FEDGUIDEOTP. Rockville, MD: Substance Abuse
and Mental Health Services Administration.

7

American Psychiatric Association. (2013). Diagnostic
and statistical manual of mental disorders (5th ed.).
Arlington, VA: American Psychiatric Association.

8

National Cancer Institute. (n.d.). Remission. In NCI
dictionary of cancer terms. Retrieved November, 22,
2017, from www.cancer.gov/publications/dictionaries
/cancer-terms?cdrid=45867

9

18 Connery, H. S. (2015). Medication-assisted treatment of
opioid use disorder: Review of the evidence and future
directions. Harvard Review of Psychiatry, 23(2), 63–75.
19 Fullerton, C. A., Kim, M., Thomas, C. P., Lyman, D.
R., Montejano, L. B., Dougherty, R. H., ... DelphinRittmon, M. E. (2014). Medication-assisted treatment
with methadone: Assessing the evidence. Psychiatric
Services, 65(2), 146–157.
20 Thomas, C. P., Fullerton, C. A., Kim, M., Montejano,
L., Lyman, D. R., Dougherty, R. H., ... Delphin-Rittman,
M. E. (2014). Medication-assisted treatment with
buprenorphine: Assessing the evidence. Psychiatric
Services, 65(2), 158–170.
21 American Society of Addiction Medicine. (2015).
The ASAM national practice guideline for the use of
medications in the treatment of addiction involving
opioid use. Chevy Chase, MD: Author.
22 Sordo, L., Barrio, G., Bravo, M. J., Indave, B. I.,
Degenhardt, L., Wiessing, L., ... Pastor-Barriuso,
R. (2017). Mortality risk during and after opioid
substitution treatment: Systematic review and metaanalysis of cohort studies. British Medical Journal
(Clinical Research Ed.), 357, j1550.

American Psychiatric Association. (2013). Diagnostic
and statistical manual of mental disorders (5th ed.).
Arlington, VA: American Psychiatric Publishing.

10 Manchikanti, L. (2007). National drug control policy
and prescription drug abuse: Facts and fallacies. Pain
Physician, 10, 399–424.
11 Jones, C. M. (2013). Heroin use and heroin use risk
behaviors among nonmedical users of prescription
opioid pain relievers—United States, 2002–2004 and
2008–2010. Drug and Alcohol Dependence, 132(1–2),
95–100.
12 Hedegaard, H., Chen, L. H, & Warner, M. (2015).
Drug-poisoning deaths involving heroin: United States,
2000–2013. NCHS Data Brief, No. 190. Hyattsville, MD:
National Center for Health Statistics.
13 Centers for Disease Control and Prevention. (2016).
Increases in drug and opioid-involved overdose
deaths—United States, 2010–2015. Morbidity and
Mortality Weekly Report, 65(50–51),1445–1452.

TIP 63

23 Mattick, R. P., Breen, C., Kimber, J., & Davoli, M.
(2014). Buprenorphine maintenance versus placebo
or methadone maintenance for opioid dependence.
Cochrane Database of Systematic Reviews, 2014(2),
1–84.
24 Auriacombe, M., Fatséas, M., Dubernet, J., Daulouède,
J. P., & Tignol, J. (2004). French ﬁeld experience with
buprenorphine. American Journal on Addictions,
13(Suppl. 1), S17–S28.
25 Degenhardt, L., Randall, D., Hall, W., Law, M., Butler,
T., & Burns, L. (2009). Mortality among clients of a
state-wide opioid pharmacotherapy program over 20
years: Risk factors and lives saved. Drug and Alcohol
Dependence, 105(1–2), 9–15.

4-37

A356

TIP 63

Medications for Opioid Use Disorder

26 Gibson, A., Degenhardt, L., Mattick, R. P., Ali, R.,
White, J., & O’Brien, S. (2008). Exposure to opioid
maintenance treatment reduces long-term mortality.
Addiction, 103(3), 462–468.

37 Sees, K. L., Delucchi, K. L., Masson, C., Rosen, A.,
Clark, H. W., Robillard, H., ... Hall, S. M. (2000).
Methadone maintenance vs 180-day psychosocially
enriched detoxiﬁcation for treatment of opioid
dependence: A randomized controlled trial. JAMA,
283(10), 1303–1310.

27 Merlo, L. J., Greene, W. M., & Pomm, R. (2011).
Mandatory naltrexone treatment prevents relapse
among opiate-dependent anesthesiologists returning
to practice. Journal of Addiction Medicine, 5(4),
279–283.

38 Weiss, R. D., Potter, J. S., Fiellin, D. A., Byrne, M.,
Connery, H. S., Dickinson, W., ... Ling, W. (2011).
Adjunctive counseling during brief and extended
buprenorphine-naloxone treatment for prescription
opioid dependence: A 2-phase randomized controlled
trial. Archives of General Psychiatry, 68(12), 1238–1246.

28 Minozzi, S., Amato, L., Vecchi, S., Davoli, M.,
Kirchmayer, U., & Verster, A. (2011). Oral naltrexone
maintenance treatment for opioid dependence.
Cochrane Database of Systematic Reviews, 2011(4),
1–45.

39 Amato, L., Davoli, M., Minozzi, S., Ferroni, E., Ali, R., &
Ferri, M. (2013). Methadone at tapered doses for the
management of opioid withdrawal. Cochrane Database
of Systematic Reviews, 2013(2), 1–68.

29 Fullerton, C. A., Kim, M., Thomas, C. P., Lyman, D.
R., Montejano, L. B., Dougherty, R. H., ... DelphinRittmon, M. E. (2014). Medication-assisted treatment
with methadone: Assessing the evidence. Psychiatric
Services, 65(2), 146–157.

40 Bart, G. (2012). Maintenance medication for opiate
addiction: The foundation of recovery. Journal of
Addictive Diseases, 31(3), 207–225.

30 Mattick, R. P., Breen, C., Kimber, J., & Davoli, M.
(2014). Buprenorphine maintenance versus placebo
or methadone maintenance for opioid dependence.
Cochrane Database of Systematic Reviews, 2014(2),
1–84.

41 Fiellin, D. A., Schottenfeld, R. S., Cutter, C. J., Moore,
B. A., Barry, D. T., & O’Connor, P. G. (2014). Primary
care-based buprenorphine taper vs maintenance
therapy for prescription opioid dependence: A
randomized clinical trial. JAMA Internal Medicine,
174(12), 1947–1954.

31 Kresina, T. F., & Lubran, R. (2011). Improving
public health through access to and utilization of
medication assisted treatment. International Journal
of Environmental Research and Public Health, 8(10),
4102–4117.

42 White, W. L. (2012). Medication-assisted recovery
from opioid addiction: Historical and contemporary
perspectives. Journal of Addictive Diseases, 31(3),
199–206.

32 Krupitsky, E., Nunes, E. V., Ling, W., Illeperuma, A.,
Gastﬁend, D. R., & Silverman, B. L. (2011). Injectable
extended-release naltrexone for opioid dependence:
A double-blind, placebo-controlled, multicentre
randomized trial. Lancet, 377(9776), 1506–1533.

43 Substance Abuse and Mental Health Services
Administration. (1999). Enhancing motivation for
change in substance abuse treatment. Treatment
Improvement Protocol (TIP) Series 35. HHS Publication
No. (SMA) 13-4212. Rockville, MD: Substance Abuse
and Mental Health Services Administration.

33 Mattick, R. P., Breen, C., Kimber, J., & Davoli, M.
(2014). Buprenorphine maintenance versus placebo
or methadone maintenance for opioid dependence.
Cochrane Database of Systematic Reviews, 2014(2),
1–84.

44 McHugh, R. K., Hearon, B. A., & Otto, M. W. (2010).
Cognitive behavioral therapy for substance use
disorders. Psychiatric Clinics of North America, 33(3),
511–525.

34 Timko, C., Schultz, N. R., Cucciare, M. A., Vittorio, L.,
& Garrison-Diehn, C. (2016). Retention in medicationassisted treatment for opiate dependence: A
systematic review. Journal of Addictive Diseases, 35(1),
22–35.
35 Fiellin, D. A., Schottenfeld, R. S., Cutter, C. J., Moore,
B. A., Barry, D. T., & O’Connor, P. G. (2014). Primary
care-based buprenorphine taper vs maintenance
therapy for prescription opioid dependence: A
randomized clinical trial. JAMA Internal Medicine,
174(12), 1947–1954.
36 Kakko, J., Svanborg, K. D., Kreek, M. J., & Heilig,
M. (2003). 1-year retention and social function after
buprenorphine-assisted relapse prevention treatment
for heroin dependence in Sweden: A randomised,
placebo-controlled trial. Lancet, 361(9358), 662–668.

45 Ling, W., Hillhouse, M., Ang, A., Jenkins, J., & Fahey, J.
(2013). Comparison of behavioral treatment conditions
in buprenorphine maintenance. Addiction, 108(10),
1788–1798.
46 Fiellin, D. A., Barry, D. T., Sullivan, L. E., Cutter, C.
J., Moore, B. A., O’Connor, P. G., & Schottenfeld, R.
S. (2013). A randomized trial of cognitive behavioral
therapy in primary care-based buprenorphine.
American Journal of Medicine, 126(1), 74.e11– 74.e17.
47 Moore, B. A., Fiellin, D. A., Cutter, C. J., Biondo, F. D.,
Barry, D. C., Fiellin, L. E., … Schottenfeld, R. S. (2016).
Cognitive behavioral therapy improves treatment
outcomes for prescription opioid users in primary care
buprenorphine treatment. Journal of Substance Abuse
Treatment, 71, 54–57.

4-38

A357

Part 4 of 5—Partnering Addiction Counselors With Clients and Healthcare Professionals

TIP 63

48 Abbott, P. J. (2010). Case management: Ongoing
evaluation of patients’ needs in an opioid treatment
program. Professional Case Management, 15(3),
145–152.

59 National Institute on Drug Abuse. (2012). Principles
of drug addiction treatment: A research-based guide
(3rd ed.). NIH Publication No. 12–4180. Bethesda, MD:
Author.

49 Morgenstern, J., Neighbors, C. J., Kermis, A., Riordan,
A., Blanchard, K. A., McVeigh, K. H., ... McCredie,
B. (2009). Improving 24-month abstinence and
employment outcomes for substance-dependent
women receiving temporary assistance for needy
families with intensive case management. American
Journal of Public Health, 99(2), 328–333.

60 Weiss, R. D., Grifﬁn, M. L., Potter, J. S., Dodd, D. R.,
Dreifuss, J. A., Connery, H. S., & Carroll, K. M. (2014).
Who beneﬁts from additional drug counseling among
prescription opioid-dependent patients receiving
buprenorphine-naloxone and standard medical
management? Drug and Alcohol Dependence, 140,
118–122.

50 Substance Abuse and Mental Health Services
Administration. (2000). Comprehensive case
management for substance abuse treatment. Treatment
Improvement Protocol (TIP) Series 27. HHS Publication
No. (SMA) 15-4215. Rockville, MD: Substance Abuse
and Mental Health Services Administration.

61 Connock, M., Juarez-Garcia, A., Jowett, S., Frew, E.,
Liu, Z., Taylor, R. J., … Taylor, R. S. (2007). Methadone
and buprenorphine for the management of opioid
dependence: A systematic review and economic
evaluation. Health Technology Assessment, 11(9),
1–171, iii–iv.

51 National Institute on Drug Abuse. (2012). Principles
of drug addiction treatment: A research-based guide
(3rd ed.). NIH Publication No. 12–4180. Bethesda, MD:
Author.

62 De Maeyer, J., Vanderplasschen, W., & Broekaert,
E. (2010). Quality of life among opiate-dependent
individuals: A review of the literature. International
Journal on Drug Policy, 21(5), 364–380.

52 Woo, J., Bhalerao, A., Bawor, M., Bhatt, M., Dennis, B.,
Mouravska, N., … Samaan, Z. (2017). “Don’t judge a
book by its cover”: A qualitative study of methadone
patients’ experiences of stigma. Substance Abuse:
Research and Treatment, 11, 1–12.

63 Carpentier, P. J., Krabbe, P. F., van Gogh, M. T.,
Knapen, L. J., Buitelaar, J. K., & de Jong, C. A. (2009).
Psychiatric comorbidity reduces quality of life in chronic
methadone maintained patients. American Journal on
Addictions, 18(6), 470–480.

53 Dugosh, K., Abraham, A., Seymour, B., McLoyd, K.,
Chalk, M., & Festinger, D. (2016). A systematic review
on the use of psychosocial interventions in conjunction
with medications for the treatment of opioid addiction.
Journal of Addiction Medicine, 10(2), 93–103.

64 Muller, A. E., Skurtveit, S., & Clausen, T. (2016). Many
correlates of poor quality of life among substance users
entering treatment are not addiction-speciﬁc. Health
and Quality of Life Outcomes, 14, 1–10.

54 Roberts, J., Annett, H., & Hickman, M. (2011). A
systematic review of interventions to increase the
uptake of opiate substitution therapy in injecting drug
users. Journal of Public Health, 33(3), 378–384.
55 Fiellin, D. A., Barry, D. T., Sullivan, L. E., Cutter, C.
J., Moore, B. A., O’Connor, P. G., & Schottenfeld, R.
S. (2013). A randomized trial of cognitive behavioral
therapy in primary care-based buprenorphine.
American Journal of Medicine, 126(1), 74.e11–74.e17.
56 Ling, W., Hillhouse, M., Ang, A., Jenkins, J., & Fahey, J.
(2013). Comparison of behavioral treatment conditions
in buprenorphine maintenance. Addiction, 108(10),
1788–1798.
57 Weiss, R. D., Potter, J. S., Fiellin, D. A., Byrne, M.,
Connery, H. S., Dickinson, W., ... Ling, W. (2011).
Adjunctive counseling during brief and extended
buprenorphine-naloxone treatment for prescription
opioid dependence: A 2-phase randomized controlled
trial. Archives of General Psychiatry, 68(12), 1238–1246.
58 Ling, W., Hillhouse, M., Ang, A., Jenkins, J., & Fahey, J.
(2013). Comparison of behavioral treatment conditions
in buprenorphine maintenance. Addiction, 108(10),
1788–1798.

65 De Maeyer, J., Vanderplasschen, W., & Broekaert,
E. (2010). Quality of life among opiate-dependent
individuals: A review of the literature. International
Journal on Drug Policy, 21(5), 364–380.
66 Carpentier, P. J., Krabbe, P. F., van Gogh, M. T.,
Knapen, L. J., Buitelaar, J. K., & de Jong, C. A. (2009).
Psychiatric comorbidity reduces quality of life in chronic
methadone maintained patients. American Journal on
Addictions, 18(6), 470–480.
67 Fei, J. T. B., Yee, A., Habil, M. H. B., & Danaee, M.
(2016). Effectiveness of methadone maintenance
therapy and improvement in quality of life following a
decade of implementation. Journal of Substance Abuse
Treatment, 69, 50–56.
68 Millson, P., Challacombe, L., Villeneuve, P. J., Strike,
C. J., Fischer, B., Myers, T., ... Hopkins, S. (2006).
Determinants of health-related quality of life of opiate
users at entry to low-threshold methadone programs.
European Addiction Research, 12(2), 74–82.
69 Krebs, E., Kerr, T., Wood, E., & Nosyk, B. (2016).
Characterizing long-term health related quality of life
trajectories of individuals with opioid use disorder.
Journal of Substance Abuse Treatment, 67, 30–37.

4-39

A358

TIP 63

Medications for Opioid Use Disorder

70 Millson, P., Challacombe, L., Villeneuve, P. J., Strike,
C. J., Fischer, B., Myers, T., … Hopkins, S. (2006).
Determinants of health-related quality of life of opiate
users at entry to low-threshold methadone programs.
European Addiction Research, 12(2), 74–82.

82 Skinner, M. L., Haggerty, K. P., Fleming, C. B., Catalano,
R. F., & Gainey, R. R. (2011). Opiate-addicted parents
in methadone treatment: Long-term recovery, health,
and family relationships. Journal of Addictive Diseases,
30(1), 17–26.

71 De Maeyer, J., Vanderplasschen, W., & Broekaert,
E. (2010). Quality of life among opiate-dependent
individuals: A review of the literature. International
Journal on Drug Policy, 21(5), 364–380.

83 Substance Abuse and Mental Health Services
Administration. (2016). Person- and family-centered
care and peer support. Retrieved October 23, 2017,
from https://www.samhsa.gov/section-223/care
-coordination/person-family-centered

72 Muller, A. E., Skurtveit, S., & Clausen, T. (2016). Many
correlates of poor quality of life among substance users
entering treatment are not addiction-speciﬁc. Health
and Quality of Life Outcomes, 14, 1–10.
73 Cavaiola, A. A., Fulmer, B. A., & Stout, D. (2015). The
impact of social support and attachment style on
quality of life and readiness to change in a sample of
individuals receiving medication-assisted treatment for
opioid dependence. Substance Abuse, 36(2), 183–191.
74 Millson, P., Challacombe, L., Villeneuve, P. J., Strike,
C. J., Fischer, B., Myers, T., … Hopkins, S. (2006).
Determinants of health-related quality of life of opiate
users at entry to low-threshold methadone programs.
European Addiction Research, 12(2), 74–82.
75 Center for Substance Abuse Treatment. (2007).
National Summit on Recovery: Conference report.
HHS Publication No. (SMA) 07–4276. Rockville,
MD: Substance Abuse and Mental Health Services
Administration.
76 Substance Abuse and Mental Health Services
Administration. (2012). SAMHSA’s working deﬁnition
of recovery. Retrieved November 24, 2017, from
https://store.samhsa.gov/shin/content/PEP12-RECDEF
/PEP12-RECDEF.pdf
77 Jackson, L. A., Buxton, J. A., Dingwell, J., Dykeman,
M., Gahagan, J., Gallant, K., … Davison, C. (2014).
Improving psychosocial health and employment
outcomes for individuals receiving methadone
treatment: A realist synthesis of what makes
interventions work. BMC Psychology, 2, 1–20.

85 Substance Abuse and Mental Health Services
Administration. (planned). Relapse prevention and
recovery promotion in behavioral health services.
Treatment Improvement Protocol (TIP) Series. Rockville,
MD: Substance Abuse and Mental Health Services
Administration.
86 White, W., & Miller, W. (2007). The use of confrontation
in addiction treatment: History, science and time for
change. Counselor, 8(4), 12–30.
87 Lindgren, B. M., Eklund, M., Melin, Y., & Graneheim, U.
H. (2015). From resistance to existence—Experiences of
medication-assisted treatment as disclosed by people
with opioid dependence. Issues in Mental Health
Nursing, 36(12), 963–970.
88 Stoller, K. B., Stephens, M. A. C., & Schorr, A. (2016).
Integrated service delivery models for opioid treatment
programs in an era of increasing opioid addiction,
health reform, and parity. Retrieved October 23, 2017,
from www.aatod.org/wp-content/uploads/2016/07
/2nd-Whitepaper-.pdf
89 Brooner, R. K., King, V. L., Kidorf, M., Schmidt, C. W.,
Jr., & Bigelow, G. E. (1997). Psychiatric and substance
use comorbidity among treatment-seeking opioid
abusers. Archives of General Psychiatry, 54(1), 71–80.

78 Kaplan, L. (2008). The role of recovery support services
in recovery-oriented systems of care. HHS Publication
No. (SMA) 08-4315. Rockville, MD: Substance Abuse
and Mental Health Services Administration.
79 White, W. L., & Mojer-Torres, L. (2010). Recoveryoriented methadone maintenance. Retrieved October
23, 2017, from www.attcnetwork.org/userﬁles/ﬁle
/GreatLakes/5th%20Monograph_RM_Methadone.pdf
80 Hser, Y. I. (2007). Predicting long-term stable recovery
from heroin addiction: Findings from a 33-year
follow-up study. Journal of Addictive Diseases, 26(1),
51–60.
81 Laudet, A. B., & White, W. L. (2008). Recovery capital
as prospective predictor of sustained recovery, life
satisfaction, and stress among former poly-substance
users. Substance Use and Misuse, 43(1), 27–54.

84 Robinson, J. H., Callister, L. C., Berry, J. A., &
Dearing, K. A. (2008). Patient-centered care and
adherence: Deﬁnitions and applications to improve
outcomes. Journal of the American Academy of Nurse
Practitioners, 20(12), 600–607.

90 Savant, J. D., Barry, D. T., Cutter, C. J., Joy, M. T.,
Dinh, A., Schottenfeld, R. S., & Fiellin, D. A. (2013).
Prevalence of mood and substance use disorders
among patients seeking primary care ofﬁce-based
buprenorphine/naloxone treatment. Drug and Alcohol
Dependence, 127(1–3), 243–247.
91 Brooner, R. K., Kidorf, M. S., King, V. L., Peirce,
J., Neufeld, K., Stoller, K., & Kolodner, K. (2013).
Managing psychiatric comorbidity within versus outside
of methadone treatment settings: A randomized and
controlled evaluation. Addiction, 108(11), 1942–1951.
92 Hser, Y. I., Evans, E., Grella, C., Ling, W., & Anglin, D.
(2015). Long-term course of opioid addiction. Harvard
Review of Psychiatry, 23(2), 76–89.

4-40

A359

Part 4 of 5—Partnering Addiction Counselors With Clients and Healthcare Professionals

TIP 63

93 Flynn, P. M., Joe, G. W., Broome, K. M., Simpson, D. D.,
& Brown, B. S. (2003). Recovery from opioid addiction
in DATOS. Journal of Substance Abuse Treatment,
25(3), 177–186.

104 Sansone, R. A., Whitecar, P., & Wiederman, M. W.
(2009). The prevalence of childhood trauma among
those seeking buprenorphine treatment. Journal of
Addictive Disorders, 28(1), 64–67.

94 Havassy, B. E., Hall, S. M., & Wasserman, D. A. (1991).
Social support and relapse: Commonalities among
alcoholics, opiate users, and cigarette smokers.
Addictive Behaviors, 16(5), 235–246.

105 Lawson, K. M., Back, S. E., Hartwell, K. J., Moran-Santa,
M. M., & Brady, K. T. (2013). A comparison of trauma
proﬁles among individuals with prescription opioid,
nicotine, or cocaine dependence. American Journal of
Addiction, 22(2), 127–131.

95 Tuten, M., & Jones, H. E. (2003). A partner’s drug-using
status impacts women’s drug treatment outcome. Drug
and Alcohol Dependence, 70(3), 327–330.
96 Schroeder, J. R., Latkin, C. A., Hoover, D. R., Curry,
A. D., Knowlton, A. R., & Celentano, D. D. (2001).
Illicit drug use in one’s social network and in one’s
neighborhood predicts individual heroin and cocaine
use. Annals of Epidemiology, 11(6), 389–394.
97 Trocchio, S., Chassler, D., Storbjörk, J., Delucchi, K.,
Witbrodt, J., & Lundgren, L. (2013). The association
between self-reported mental health status and alcohol
and drug abstinence 5 years post-assessment for
an addiction disorder in U.S. and Swedish samples.
Journal of Addictive Diseases, 32(2), 180–193.
98 Kidorf, M., Latkin, C., & Brooner, R. K. (2016). Presence
of drug-free family and friends in the personal social
networks of people receiving treatment for opioid use
disorder. Journal of Substance Abuse Treatment, 70,
87–92.
99 Kidorf, M., Latkin, C., & Brooner, R. K. (2016). Presence
of drug-free family and friends in the personal social
networks of people receiving treatment for opioid use
disorder. Journal of Substance Abuse Treatment, 70,
87–92.
100 Substance Abuse and Mental Health Services
Administration. (2014). Improving cultural competence.
Treatment Improvement Protocol (TIP) Series 59.
HHS Publication No. (SMA) 14-4849. Rockville,
MD: Substance Abuse and Mental Health Services
Administration.
101 Substance Abuse and Mental Health Services
Administration. (2014). SAMHSA’s concept of trauma
and guidance for a trauma-informed approach.
HHS Publication No. (SMA) 14-4884. Rockville,
MD: Substance Abuse and Mental Health Services
Administration.
102 Kumar, N., Stowe, Z. N., Han, X., & Mancino, M.
J. (2016). Impact of early childhood trauma on
retention and phase advancement in an outpatient
buprenorphine treatment program. American Journal
on Addictions, 25(7), 542–548.
103 Barry, D. T., Beitel, M., Cutter, C. J., Garnet, B., Joshi,
D., Rosenblum, A., & Schottenfeld, R. S. (2011).
Exploring relations among traumatic, posttraumatic,
and physical pain experiences in methadonemaintained patients. Journal of Pain, 12(1), 22–28.

106 Jessell, L., Mateu-Gelabert, P., Guarino, H., Vakharia,
S. P., Syckes, C., Goodbody, E., … Friedman, S. (2017).
Sexual violence in the context of drug use among
young adult opioid users in New York City. Journal of
Interpersonal Violence, 32(19), 2885–2907.
107 Amaro, H., Dai, J., Arévalo, S., Acevedo, A.,
Matsumoto, A., Nieves, R., & Prado, G. (2007). Effects
of integrated trauma treatment on outcomes in a
racially/ethnically diverse sample of women in urban
community-based substance abuse treatment. Journal
of Urban Health, 84(4), 508–522.
108 Volkow, N. D., Koob, G. F., & McLellan, A. T. (2016).
Neurobiologic advances from the brain disease model
of addiction. New England Journal of Medicine, 374(4),
363–371.
109 Edelman, E. J., Chantarat, T., Caffrey, S., Chaudhry, A.,
O’Connor, P. G., Weiss, L., ... Fiellin, L. E. (2014). The
impact of buprenorphine/naloxone treatment on HIV
risk behaviors among HIV-infected, opioid-dependent
patients. Drug and Alcohol Dependence, 139, 79–85.
110 Gibson, A., Degenhardt, L., Mattick, R. P., Ali, R.,
White, J., & O’Brien, S. (2008). Exposure to opioid
maintenance treatment reduces long-term mortality.
Addiction, 103(3), 462–468.
111 Rosenthal, R. N., Ling, W., Casadonte, P., Vocci, F.,
Bailey, G. L., Kampman, K., ... Beebe, K. L. (2013).
Buprenorphine implants for treatment of opioid
dependence: Randomized comparison to placebo
and sublingual buprenorphine/naloxone. Addiction,
108(12), 2141–2149.
112 Sullivan, L. E., Moore, B. A., Chawarski, M. C., Pantalon,
M. V., Barry, D., O’Connor, P. G., ... Fiellin, D. A. (2008).
Buprenorphine/naloxone treatment in primary care is
associated with decreased human immunodeﬁciency
virus risk behaviors. Journal of Substance Abuse
Treatment, 35(1), 87–92.
113 Substance Abuse and Mental Health Services
Administration. (2016). Buprenorphine. Retrieved
October 23, 2017, from www.samhsa.gov/medication
-assisted-treatment/treatment/buprenorphine
114 Lovegrove, M. C., Mathew, J., Hampp, C., Governale,
L., Wysowski, D. K., & Budnitz, D. S. (2014). Emergency
hospitalizations for unsupervised prescription
medication ingestions by young children. Pediatrics,
134(4), e1009–e1016.

4-41

A360

TIP 63

Medications for Opioid Use Disorder

115 Hakkinen, M., Launiainen, T., Vuori, E., & Ojanpera, I.
(2012). Benzodiazepines and alcohol are associated
with cases of fatal buprenorphine poisoning. European
Journal of Clinical Pharmacology, 68(3), 301–309.
116 Schuman-Olivier, Z., Hoeppner, B. B., Weiss, R. D.,
Borodovsky, J., Shaffer, H. J., & Albanese, M. J. (2013).
Benzodiazepine use during buprenorphine treatment
for opioid dependence: Clinical and safety outcomes.
Drug and Alcohol Dependence, 132(3), 580–586.
117 Fullerton, C. A., Kim, M., Thomas, C. P., Lyman, D.
R., Montejano, L. B., Dougherty, R. H., ... DelphinRittmon, M. E. (2014). Medication-assisted treatment
with methadone: Assessing the evidence. Psychiatric
Services, 65(2), 146–157.

128 Faggiano, F., Vigna-Taglianti, F., Versino, E., & Lemma,
P. (2003). Methadone maintenance at different dosages
for opioid dependence. Cochrane Database of
Systematic Reviews, 2003(3), 1–45.
129 Fareed, A., Casarella, J., Amar, R., Vayalapalli, S., &
Drexler, K. (2010). Methadone maintenance dosing
guideline for opioid dependence, a literature review.
Journal of Addictive Diseases, 29(1), 1–14.

118 Gibson, A., Degenhardt, L., Mattick, R. P., Ali, R.,
White, J., & O’Brien, S. (2008). Exposure to opioid
maintenance treatment reduces long-term mortality.
Addiction, 103(3), 462–468.
119 Gowing, L. R., Farrell, M., Bornemann, R., Sullivan, L. E.,
& Ali, R. L. (2006). Brief report: Methadone treatment
of injecting opioid users for prevention of HIV infection.
Journal of General Internal Medicine, 21(2), 193–195.
120 Lee, J. D., Friedmann, P. D., Kinlock, T. W., Nunes, E.
V., Boney, T. Y., Hoskinson, R. A., Jr., ... O’Brien, C. P.
(2016). Extended-release naltrexone to prevent opioid
relapse in criminal justice offenders. New England
Journal of Medicine, 374(13), 1232–1242.
121 Merlo, L. J., Greene, W. M., & Pomm, R. (2011).
Mandatory naltrexone treatment prevents relapse
among opiate-dependent anesthesiologists returning
to practice. Journal of Addiction Medicine, 5(4),
279–283.

130 Substance Abuse and Mental Health Services
Administration. (2015). Clinical use of extended-release
injectable naltrexone in the treatment of opioid use
disorder: A brief guide. HHS Publication No. (SMA)
14-4892R. Rockville, MD: Substance Abuse and Mental
Health Services Administration.
131 National Library of Medicine. (2015). VIVITROL –
naltrexone. Retrieved October 23, 2017, from
https://dailymed.nlm.nih.gov/dailymed/drugInfo
.cfm?setid=cd11c435-b0f0-4bb9-ae78-60f101f3703f
132 Fiellin, D. A., Schottenfeld, R. S., Cutter, C. J., Moore,
B. A., Barry, D. T., & O’Connor, P. G. (2014). Primary
care-based buprenorphine taper vs maintenance
therapy for prescription opioid dependence: A
randomized clinical trial. JAMA Internal Medicine,
174(12), 1947–1954.
133 Kakko, J., Svanborg, K. D., Kreek, M. J., & Heilig,
M. (2003, February 22). 1-year retention and social
function after buprenorphine-assisted relapse
prevention treatment for heroin dependence in
Sweden: A randomised, placebo-controlled trial.
Lancet, 361(9358), 662–668.

122 Washton, A. M., Gold, M. S., & Pottash, A. C. (1984).
Successful use of naltrexone in addicted physicians
and business executives. Advances in Alcohol and
Substance Abuse, 4(2), 89–96.
123 Minozzi, S., Amato, L., Vecchi, S., Davoli, M., Kirchmayer,
U., & Verster, A. (2011). Oral naltrexone maintenance
treatment for opioid dependence. Cochrane Database
of Systematic Reviews, 2011(4), 1–45.
124 Cornish, J. W., Metzger, D., Woody, G. E., Wilson, D.,
McLellan, A. T., Vandergrift, B., & O’Brien, C. (1997).
Naltrexone pharmacotherapy for opioid dependent
federal probationers. Journal of Substance Abuse
Treatment, 14(6), 529–534.
125 Minozzi, S., Amato, L., Vecchi, S., Davoli, M., Kirchmayer,
U., & Verster, A. (2011). Oral naltrexone maintenance
treatment for opioid dependence. Cochrane Database
of Systematic Reviews, 2011(4), 1–45.
126 Merlo, L. J., Greene, W. M., & Pomm, R. (2011).
Mandatory naltrexone treatment prevents relapse
among opiate-dependent anesthesiologists returning
to practice. Journal of Addiction Medicine, 5(4),
279–283.

127 Substance Abuse and Mental Health Services
Administration. (2016). Medication-assisted treatment
of opioid use disorder pocket guide. HHS No. (SMA)
16-4892PG. Rockville, MD: Substance Abuse and
Mental Health Services Administration.

134 Sees, K. L., Delucchi, K. L., Masson, C., Rosen, A.,
Clark, H. W., Robillard, H., ... Hall, S. M. (2000).
Methadone maintenance vs 180-day psychosocially
enriched detoxiﬁcation for treatment of opioid
dependence: A randomized controlled trial. JAMA,
283(10), 1303–1310.
135 Weiss, R. D., Potter, J. S., Fiellin, D. A., Byrne, M.,
Connery, H. S., Dickinson, W., ... Ling, W. (2011).
Adjunctive counseling during brief and extended
buprenorphine-naloxone treatment for prescription
opioid dependence: A 2-phase randomized controlled
trial. Archives of General Psychiatry, 68(12), 1238–1246.
136 Conﬁdentiality of Substance Use Disorder Patient
Records. ; HHS Final Rule, 82 Fed. Reg. 6052 (January
18, 2017) (to be codiﬁed at 42 CFR pt. 2). Retrieved
November 13, 2017, from https://www.federalregister
.gov/documents/2017/01/18/2017-00719/conﬁdentiality
-of-substance-use-disorder-patient-records

4-42

A361

Part 4 of 5—Partnering Addiction Counselors With Clients and Healthcare Professionals

TIP 63

137 Jost, T. S. (2006). Appendix B: Constraints on sharing
mental health and substance-use treatment information
imposed by federal and state medical records privacy
laws. In Institute of Medicine (US) Committee on
Crossing the Quality Chasm: Adaptation to Mental
Health and Addictive Disorders, Improving the quality
of healthcare for mental and substance-use conditions.
Quality Chasm Series. Washington, DC: National
Academies Press. Retrieved January 3, 2018, from
https://www.ncbi.nlm.nih.gov/books/NBK19829

148 Equal Employment Opportunity Commission. (1992).
A technical assistance manual on the employment
provisions (Title I) of the Americans with Disabilities
Act. Washington, DC: Author.

138 Coviello, D. M., Zanis, D. A., Wesnoski, S. A., &
Alterman, A. I. (2006). The effectiveness of outreach
case management in re-enrolling discharged
methadone patients. Drug and Alcohol Dependence,
85(1), 56–65.

150 Legal Action Center. (2011). Legality of denying access
to medication assisted treatment in the criminal justice
system. Retrieved October 23, 2017, from www.lac.org
/wp-content/uploads/2014/12/MAT_Report_FINAL_12
-1-2011.pdf

139 Goldstein, M. F., Deren, S., Kang, S. Y., Des Jarlais, D.
C., & Magura, S. (2002). Evaluation of an alternative
program for MMTP drop-outs: Impact on treatment
re-entry. Drug and Alcohol Dependence, 66(2),
181–187.

149 Friedmann, P. D., Hoskinson, R., Gordon, M., Schwartz,
R., Kinlock, T., Knight, K., ... Frisman, L. K. (2012).
Medication-assisted treatment in criminal justice
agencies afﬁliated with the Criminal Justice-Drug
Abuse Treatment Studies (CJ-DATS): Availability,
barriers & intentions. Substance Abuse, 33(1), 9–18.

151 World Health Organization. (2009). Guidelines for the
psychosocially assisted pharmacological treatment of
opioid dependence. Geneva, Switzerland: WHO Press.

140 Duncan, B. (2010). On becoming a better therapist.
Psychotherapy in Australia, 16(4), 42–51.
141 Wampold, B. E. (2011). Qualities and actions of
effective therapists. Retrieved October 23, 2017, from
www.apa.org/education/ce/effective-therapists.pdf
142 American Medical Association. (2017). End the
epidemic. Retrieved October 23, 2017, from
https://www.end-opioid-epidemic.org/types/ama
143 Kampman, K., & Jarvis, M. (2015). American Society of
Addiction Medicine (ASAM) national practice guideline
for the use of medications in the treatment of addiction
involving opioid use. Journal of Addiction Medicine,
9(5), 358–367.
144 National Institute on Drug Abuse. (n.d.). Effective
treatments for opioid addiction. Retrieved October 23,
2017, from https://www.drugabuse.gov/publications
/effective-treatments-opioid-addiction/effective
-treatments-opioid-addiction
145 Ofﬁce of the Surgeon General. (2016). Facing addiction
in America: The Surgeon General’s report on alcohol,
drugs, and health. Washington, DC: Department of
Health and Human Services.
146 Center for Substance Abuse Treatment. (2005).
Medication-assisted treatment for opioid addiction in
opioid treatment programs. Treatment Improvement
Protocol (TIP) Series 43. HHS Publication No. (SMA)
12-4214. Rockville, MD: Substance Abuse and Mental
Health Services Administration.
147 Carter, A., & Hall, W. (2007). The ethical use of
psychosocially assisted pharmacological treatments for
opioid dependence. Retrieved October 23, 2017, from
www.who.int/substance_abuse/activities/ethical_use
_opioid_treatment.pdf

152 Soyka, M., Träder, A., Klotsche, J., Haberthür, A.,
Bühringer, G., Rehm, J., & Wittchen, H. U. (2012).
Criminal behavior in opioid-dependent patients before
and during maintenance therapy: 6-year follow-up of
a nationally representative cohort sample. Journal of
Forensic Sciences, 57(6), 1524–1530.
153 Substance Abuse and Mental Health Services
Administration. (2016). A collaborative approach
to the treatment of pregnant women with opioid
use disorders. HHS Publication No. (SMA) 16-4978.
Rockville, MD: Substance Abuse and Mental Health
Services Administration.
154 Donovan, D. M., Ingalsbe, M. H., Benbow, J., & Daley,
D. C. (2013). 12-step interventions and mutual support
programs for substance use disorders: An overview.
Social Work in Public Health, 28(3–4), 313–332.
155 Humphreys, K., Blodgett, J. C., & Wagner, T. H. (2014).
Estimating the efﬁcacy of Alcoholics Anonymous
without self-selection bias: An instrumental variables
re-analysis of randomized clinical trials. Alcoholism:
Clinical and Experimental Research, 38(11), 2688–2694.
156 McCrady, B. S., & Tonigan, S. (2014). Recent research
into twelve-step programs. In R. K. Ries, D. A. Fiellin,
S. C. Miller, & R. Saitz (Eds.), The ASAM principles of
addiction medicine (pp. 1043–1059). Philadelphia, PA:
Wolters Kluwer.
157 Crape, B. L., Latkin, C. A., Laris, A. S., & Knowlton,
A. R. (2002). The effects of sponsorship in 12-step
treatment of injection drug users. Drug and Alcohol
Dependence, 65(3), 291–301.
158 Monico, L. B., Gryczynski, J., Mitchell, S. G.,
Schwartz, R. P., O’Grady, K. E., & Jaffe, J. H. (2015).
Buprenorphine treatment and 12-step meeting
attendance: Conﬂicts, compatibilities, and patient
outcomes. Journal of Substance Abuse Treatment, 57,
89–95.

4-43

A362

TIP 63

Medications for Opioid Use Disorder

159 Gossop, M., Stewart, D., & Marsden, J. (2008).
Attendance at Narcotics Anonymous and Alcoholics
Anonymous meetings, frequency of attendance and
substance use outcomes after residential treatment for
drug dependence: A 5-year follow-up study. Addiction,
103(1), 119–125.

166 White, W. L. (2011). Narcotics Anonymous and the
pharmacotherapeutic treatment of opioid addiction
in the United States. Chicago, IL: Great Lakes
Addiction Technology Transfer Center and Philadelphia
Department of Behavioral Health and Intellectual
Disability Services.

160 Parran, T. V., Adelman, C. A., Merkin, B., Pagano, M.
E., Defranco, R., Ionescu, R. A., & Mace, A. G. (2010).
Long-term outcomes of ofﬁce-based buprenorphine/
naloxone maintenance therapy. Drug and Alcohol
Dependence, 106(1), 56–60.

167 White, W., Galanter, M., Humphreys, K., & Kelly,
J. (2016). The paucity of attention to Narcotics
Anonymous in current public, professional, and policy
responses to rising opioid addiction. Alcoholism
Treatment Quarterly, 34(4), 437–462.

161 Narcotics Anonymous World Services. (2016). Narcotics
Anonymous and persons receiving medication-assisted
treatment. Chatsworth, CA: Author.

168 Ginter, W. (2012). Methadone Anonymous and mutual
support for medication-assisted recovery. Journal of
Groups in Addiction and Recovery, 7(2–4), 189–201.

162 Monico, L. B., Gryczynski, J., Mitchell, S. G., Schwartz, R.
P., O’Grady, K. E., & Jaffe, J. H. (2015). Buprenorphine
treatment and 12-step meeting attendance: Conﬂicts,
compatibilities, and patient outcomes. Journal of
Substance Abuse Treatment, 57, 89–95.

169 Ronel, N., Gueta, K., Abramsohn, Y., Caspi, N., &
Adelson, M. (2011). Can a 12-step program work in
methadone maintenance treatment? International
Journal of Offender Therapy and Comparative
Criminology, 55(7), 1135–1153.

163 White, W., Galanter, M., Humphreys, K., & Kelly,
J. (2016). The paucity of attention to Narcotics
Anonymous in current public, professional, and policy
responses to rising opioid addiction. Alcoholism
Treatment Quarterly, 34(4), 437–462.

170 Glickman, L., Galanter, M., Dermatis, H., Dingle, S.,
& Hall, L. (2004). Pathways to recovery: Adapting
12-step recovery to methadone treatment. Journal of
Maintenance in the Addictions, 2(4), 77–90.

164 Kelly, J. F., Greene, M. C., & Bergman, B. G. (2014).
Do drug-dependent patients attending Alcoholics
Anonymous rather than Narcotics Anonymous do as
well? A prospective, lagged, matching analysis. Alcohol
and Alcoholism, 49(6), 645–653.

171 Palis, H., Marchand, K., Peng, D., Fikowski, J., Harrison,
S., Spittal, P., … Oviedo-Joekes, E. (2016). Factors
associated with perceived abuse in the health care
system among long-term opioid users: A crosssectional study. Substance Use and Misuse, 51(6),
763–776.

165 Substance Abuse and Mental Health Services
Administration. (2015). Using technology-based
therapeutic tools in behavioral health services.
Treatment Improvement Protocol (TIP) Series 60.
HHS Publication No. (SMA) 15-4924. Rockville,
MD: Substance Abuse and Mental Health Services
Administration.

4-44

A363

TIP 63

MEDICATIONS FOR OPIOID USE DISORDER

Part 5: Resources Related to Medications for Opioid Use Disorder
For Healthcare and Addiction Professionals, Policymakers, Patients, and Families
Part 5 of this Treatment Improvement Protocol (TIP) provides a collection of resources by
audience and a glossary of key terms to help readers better understand how Food and Drug
Administration (FDA)-approved medications can be used to treat opioid use disorder (OUD).

TIP Navigation

KEY MESSAGES

Executive Summary
For healthcare and addiction professionals,
policymakers, patients, and families
Part 1: Introduction to Medications for Opioid
Use Disorder Treatment
For healthcare and addiction professionals,
policymakers, patients, and families
Part 2: Addressing Opioid Use Disorder in
General Medical Settings
For healthcare professionals
Part 3: Pharmacotherapy for Opioid Use
Disorder
For healthcare professionals
Part 4: Partnering Addiction Treatment
Counselors With Clients and
Healthcare Professionals
For healthcare and addiction professionals

Part 5: Resources Related to Medications
for Opioid Use Disorder
For healthcare and addiction professionals,
policymakers, patients, and families

A364

Practice guidelines and decision-making
tools can help healthcare professionals
with OUD screening, assessment,
diagnosis, treatment planning, and
referral.
Patient- and family-oriented resources
provide information about opioid
addiction in general; the role of
medication, behavioral and supportive
services, and mutual-help groups in the
treatment of OUD; how-tos for identifying
recovery support services; and howtos for locating medical and behavioral
health service providers who specialize
in treating OUD or other substance use
disorders (SUDs).

TIP 63

MEDICATIONS FOR OPIOID USE DISORDER—Part 5 of 5

PART 5: RESOURCES RELATED TO MEDICATIONS FOR OPIOID USE DISORDER
General Resources . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5-1
Resources for Counselors and Peer Providers . . . . . . . . . . . . . . . . . . . . . . . . . . 5-10
Resources for Clients and Families . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5-11
Provider Tools and Sample Forms . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5-17
Glossary of TIP Terminology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5-57
Notes . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5-60

5-ii

A365

2#46

QH

Resources Related to Medications for
Opioid Use Disorder
There are numerous resources to help healthcare professionals and behavioral health service
providers better understand the use of FDA-approved medications for OUD. Many other
resources are available to help patients, their families and friends, and the general public better
understand OUD and the medications available to treat it and support recovery from it. Part 5
of this TIP provides an audience-segmented collection of resources and a glossary of key terms
related to OUD. It is of use to all interested readers.

General Resources

2SLRLG RYHUGRVH FDXVHG

'($7+6

Facts and Figures

QDWLRQZLGH LQ
WK LV H[FHH GHG WK H
FDXVHG E\ PRWRU YHKLFOH
FUDVKHV

American Association for the Treatment of
Opioid Dependence (AATOD), Frequently
Asked Questions (www.aatod.org/resources
/frequently-asked-questions).
Centers for Disease Control and Prevention
(CDC), Smoking & Tobacco Use (www.cdc.gov
/tobacco/index.htm).
Legal Action Center (LAC), MedicationAssisted Treatment for Opioid Addiction:
Myths and Facts (http://lac.org/wp-content
/uploads/2016/02/Myth-Fact-for-MAT.pdf).
Missouri Department of Mental Health,
Methadone Maintenance Myths and Resources
(https://dmh.mo.gov/docs/ada/methadonemyths
.pdf).

of addiction. These are useful in educating
people in primary care who suffer from
addiction. This site has links to publications
for professionals that explain the nature of
addiction.
NIDAMED, Medical and Health Professionals
(www.drugabuse.gov/nidamed-medical
-health-professionals). Disseminates sciencebased resources to healthcare professionals
on the causes and consequences of drug
use and addiction and advances in pain
management.

National Institute on Drug Abuse (NIDA)
(www.drugabuse.gov):
Addiction Science (www.drugabuse.gov
/related-topics/addiction-science). Provides
two short videos that explain the nature

5-1

A366

TIP 63

Medications for Opioid Use Disorder

Ofﬁce of National Drug Control Policy,
Medication-Assisted Treatment for Opioid
Addiction (https://online.ndbh.com/docs
/providers/SubstanceUseCenter/Medication
-Assisted-Treatment-Edited.pdf): Offers a factsheet
with a useful summary of pharmacotherapy for
OUD and its effectiveness.
Partnership for Drug-Free Kids, Commentary:
Countering the Myths About Methadone
(www.drugfree.org/news-service/commentary
-countering-the-myths-about-methadone).
Substance Abuse and Mental Health Services
Administration (SAMHSA):
Addiction Technology Transfer Center (ATTC)
(http://attcnetwork.org/home). Network
with 10 regional centers across the country
that provide training and information on
evidence-based practices to practitioners. The
ATTC website’s section on OUD medication
has many resources for clinicians, patients,
and family members (www.attcnetwork.org
/explore/priorityareas/wfd/mat/mat.pubs.asp).
State Opioid Treatment Authorities (SOTAs)
(https://dpt2.samhsa.gov/regulations/smalist
.aspx).
United States Surgeon General’s Report,
Facing Addiction in America: The Surgeon
General’s Report on Alcohol, Drugs, and
Health (https://addiction.surgeongeneral.gov).

Groups and Organizations
AATOD (www.aatod.org): Works with federal
and state agencies on opioid treatment policy
throughout the United States. Convenes conferences every 18 months on evidence-based
clinical practice, current research, and organizational developments related to OUD treatment.
AATOD develops publications that serve as
resources for addiction counselors and peer
support providers.

American Academy of Addiction Psychiatry
(AAAP) (www.aaap.org): Offers education and
training materials on addiction psychiatry (e.g.,
webinars, continuing medical education courses).
American Society of Addiction Medicine
(ASAM) (www.asam.org): Provides medical
education and resources on the treatment of
SUDs, including OUD.
LAC (https://lac.org): Offers information about
the rights of people with criminal records,
HIV/AIDS, and SUDs.
Medical Assisted Treatment of America (www
.medicalassistedtreatment.org): Raises awareness
and understanding of substance misuse, the
problems it creates, and ways to address these
problems.
National Alliance for Medication Assisted
Recovery (NAMA Recovery) (www.methadone
.org): Supports quality opioid agonist treatment
through its many U.S. chapters and its international network of afﬁliate chapters. Thousands of
methadone clients and healthcare professionals
belong to the organization.
National Alliance of Advocates for
Buprenorphine Treatment (www.naabt.org):
Aims to educate the public about opioid
addiction and buprenorphine as a treatment
option, to reduce prejudice and discrimination
against clients who have SUDs, and to connect
clients in need to qualiﬁed treatment providers.
SAMHSA (www.samhsa.gov):
Buprenorphine Practitioner Veriﬁcation
for Pharmacists (www.samhsa.gov/bupe
/lookup-form)
National Recovery Month (https://recovery
month.gov)
Opioid Treatment Program (OTP) Directory
(https://dpt2.samhsa.gov/treatment)
SOTAs (https://dpt2.samhsa.gov/regulations
/smalist.aspx)

5-2

A367

Part 5 of 5—Resources Related to Medications for Opioid Use Disorder

SAMHSA Publications
All publications listed in this section are available
for free from SAMHSA’s publications ordering
webpage (https://store.samhsa.gov) or by calling
1-877-SAMHSA-7 (1-877-726-4727):
TIP 42: Substance Abuse Treatment for
Persons With Co-Occurring Disorders
(https://store.samhsa.gov/product
/TIP-42-Substance-Abuse-Treatment-for
-Persons-With-Co-Occurring-Disorders
/SMA13-3992)
TIP 54: Managing Chronic Pain in Adults With
or in Recovery From Substance Use Disorders
(https://store.samhsa.gov/product/TIP-54
-Managing-Chronic-Pain-in-Adults-With-or
-in-Recovery-From-Substance-Use-Disorders
/SMA13-4671)
TIP 57: Trauma-Informed Care in Behavioral
Health Services (https://store.samhsa.gov
/product/TIP-57-Trauma-Informed-Care-in
-Behavioral-Health-Services/SMA14-4816)

TIP 63

Clinical Guidance for Treating Pregnant and
Parenting Women With Opioid Use Disorder
and Their Infants (https://store.samhsa.gov
/product/Clinical-Guidance-for-Treating
-Pregnant-and-Parenting-Women-With
-Opioid-Use-Disorder-and-Their-Infants
/All-New-Products/SMA18-5054)
Clinical Use of Extended-Release Injectable
Naltrexone in the Treatment of Opioid Use
Disorders: A Brief Guide (https://store
.samhsa.gov/shin/content//SMA14-4892
/SMA14-4892.pdf)
A Collaborative Approach to the Treatment of
Pregnant Women With Opioid Use Disorders
(https://store.samhsa.gov/product/A
-Collaborative-Approach-to-the-Treatment
-of-Pregnant-Women-with-Opioid-Use
-Disorders/SMA16-4978)
Decisions in Recovery: Treatment for Opioid
Use Disorders, Handbook (https://store
.samhsa.gov/product/SMA16-4993)
Integrated Treatment for Co-Occurring
Disorders Evidence-Based Practices (EBP) Kit
(https://store.samhsa.gov/product/Integrated
-Treatment-for-Co-Occurring-Disorders
-Evidence-Based-Practices-EBP-KIT
/SMA08-4367)

TIP 62: Relapse Prevention and Recovery
Promotion in Behavioral Health Services
(Once published, this TIP will be available on
SAMHSA’s publications ordering webpage,
https://store.samhsa.gov)
Advisory: An Introduction to ExtendedRelease Injectable Naltrexone for the
Treatment of People With Opioid
Dependence (https://store.samhsa.gov
/product/An-Introduction-to-Extended
-Release-Injectable-Naltrexone-for-the
-Treatment-of-People-with-Opioid
-Dependence/SMA12-4682)

Technical Assistance Publication 32: Clinical
Drug Testing in Primary Care (https://store
.samhsa.gov/shin/content//SMA12-4668
/SMA12-4668.pdf)
What Are Peer Recovery Support Services?
(https://store.samhsa.gov/shin/content
/SMA09-4454/SMA09-4454.pdf)

Advisory: Sublingual and Transmucosal
Buprenorphine for Opioid Use Disorder:
Review and Update (https://store.samhsa
.gov/product/Advisory-Sublingual-and
-Transmucosal-Buprenorphine-for-Opioid
-Use-Disorder-Review-and-Update
/SMA16-4938)

5-3

A368

TIP 63

Medications for Opioid Use Disorder

CDC Smoking & Tobacco Use (www.cdc.gov
/tobacco/index.htm): Includes resource links
for clinicians on smoking and the treatment of
tobacco use.

General Information
Agency for Healthcare Research and Quality:
Medication-Assisted Treatment Models of
Care for Opioid Use Disorder in Primary Care
Settings (www.ncbi.nlm.nih.gov/books
/NBK402352)
Academy for Integrating Behavioral Health
and Primary Care (https://integrationacademy
.ahrq.gov)
American Academy of Family Physicians:

Centers for Medicare & Medicaid Services
(www.cms.gov/Medicare/Medicare-General
-Information/Telehealth/index.html): Gives
guidance on the delivery of telehealth.
Department of Health and Human Services
(HHS):
Centers for Medicare & Medicaid
Services Clinical Laboratory Improvement
Amendments Application for Certiﬁcation
(www.cms.gov/Medicare/CMS-Forms/CMS
-Forms/downloads/cms116.pdf)

Chronic Pain Management and Opioid
Misuse: A Public Health Concern (Position
Paper) (www.aafp.org/about/policies/all/pain
-management-opioid.html)
Pain Management and Opioid Use Resources
(www.aafp.org/patient-care/public-health
/pain-opioids/resources.html)
ATTC Network (http://attcnetwork.org/home):
This nationwide network of SAMHSA-sponsored
regional centers is a multidisciplinary resource
for professionals in the addiction treatment and
recovery services ﬁelds. The network has many
valuable resources and projects of interest to
people involved in treating SUDs. Of particular
interest to readers of this TIP are the training
programs produced as part of the NIDA/
SAMHSA-ATTC Blending Initiative:

Medication Assisted Treatment for Opioid Use
Disorders: Final Rule (www.federalregister
.gov/documents/2016/07/08/2016-16120
/medication-assisted-treatment-for-opioid
-use-disorders)
Drug Enforcement Administration (DEA):

Buprenorphine Treatment: Training for
Multidisciplinary Addiction Professionals
(www.attcnetwork.org/projects/buptx.aspx)
Buprenorphine Treatment for Young Adults
(www.attcnetwork.org/projects/bupyoung.aspx)
Prescription Opioid Addiction Treatment
Study (POATS) (www.attcnetwork.org/projects
/poats.aspx)
BupPractice.com Federal Recordkeeping
Requirements for Buprenorphine Treatment
(www.buppractice.com/node/12246): Provides
information about federal recordkeeping
requirements.

5-4

A369

DEA Requirements for DATA Waived
Physicians (www.deadiversion.usdoj.gov/pubs
/docs/dwp_buprenorphine.htm). Lists DEA
requirements for Drug Addiction Treatment
Act of 2000 (DATA 2000)-waivered healthcare
professionals.
Form DEA-106, Report of Theft or Loss of
Controlled Substances (https://apps
.deadiversion.usdoj.gov/webforms/dtlLogin
.jsp). Provides instructions for completing
form DEA-106, which must be ﬁled when
stored buprenorphine is lost or stolen.
Practitioner’s Manual (www.deadiversion
.usdoj.gov/pubs/manuals/pract). Provides
guidance on how to comply with federal
requirements on recordkeeping for ordering,
storing, and dispensing buprenorphine in the
ofﬁce. This manual is from the DEA’s Ofﬁce of
Diversion Control.

Part 5 of 5—Resources Related to Medications for Opioid Use Disorder

Drugs.com:
Buprenorphine Drug Interactions (www.drugs
.com/drug-interactions/buprenorphine-index
.html?ﬁlter=3&generic_only=)
Drug Interactions Checker (www.drugs.com
/drug_interactions.php)
FDA:
Approved Risk Evaluation and Mitigation
Strategy (REMS): Buprenorphine Transmucosal
Products for Opioid Dependence (www
.accessdata.fda.gov/scripts/cder/rems/index
.cfm?event=RemsDetails.page&REMS=9)
REMS: Probuphine (buprenorphine hydrochloride) (www.accessdata.fda.gov/scripts
/cder/rems/index.cfm?event=IndvRemsDetails
.page&REMS=356)
REMS: Sublocade (extended-release injectable
buprenorphine) (www.accessdata.fda.gov
/scripts/cder/rems/index.cfm?event
=IndvRemsDetails.page&REMS=376)
REMS: Suboxone/Subutex (buprenorphine
and naloxone/buprenorphine) (www.accessdata
.fda.gov/scripts/cder/rems/index.cfm?event
=IndvRemsDetails.page&REMS=352)

National Alliance of Advocates for
Buprenorphine Treatment 30−100 Patient
Limit (www.naabt.org/30_patient_limit.cfm):
Summarizes the DATA 2000 law.
National Association of State Controlled
Substances Authorities State Proﬁles (www
.nascsa.org/stateproﬁles.htm): Contains a
directory of each state’s prescription drug
monitoring program (PDMP).
National Conference of State Legislatures
Drug Overdose Immunity and Good Samaritan
Laws (www.ncsl.org/research/civil-and-criminal
-justice/drug-overdose-immunity-good-samaritan
-laws.aspx): Provides information about naloxone
and Good Samaritan immunity.
National Institute on Alcohol Abuse and
Alcoholism (NIAAA) Professional Education
Materials (www.niaaa.nih.gov/publications
/clinical-guides-and-manuals): Provides
professional education materials; offers links
to screening, treatment planning, and general
information for clinicians in outpatient programs.
National Library of Medicine’s DailyMed:
FDA label information for methadone (https://
dailymed.nlm.nih.gov/dailymed/search
.cfm?labeltype=all&query=METHADONE)

REMS: Vivitrol (extended-release naltrexone
[XR-NTX]) (www.vivitrolrems.com)
LAC (https://lac.org): LAC attorneys provide
legal advice by phone to service providers and
government agencies. They assist dozens of
agencies annually with questions about conﬁdentiality of treatment records, discrimination,
and other issues. LAC’s conﬁdentiality hotline
provides information about the federal law
protecting the conﬁdentiality of drug and alcohol
treatment and prevention records (42 CFR Part 2).
The hotline is free to New York treatment
providers and government agencies. Outside
New York, the hotline is accessible if the state
alcohol/drug oversight agency subscribes to
LAC’s Actionline service. To speak with a hotline
attorney, call LAC Monday through Friday 1−5
p.m. (Eastern Time Zone) at 1-212-243-1313, or
toll-free at 1-800-223-4044.

TIP 63

FDA label information for naltrexone (https://
dailymed.nlm.nih.gov/dailymed/drugInfo.cfm
?setid=cd11c435-b0f0-4bb9-ae78
-60f101f3703f)
NIDA:
Available Treatments for Marijuana Use
Disorders (www.drugabuse.gov/publications
/research-reports/marijuana/available
-treatments-marijuana-use-disorders).
Provides information about treatment options
for individuals with marijuana use disorder.
Opioid Overdose Reversal With Naloxone
(Narcan, Evzio) (www.drugabuse.gov/related
-topics/opioid-overdose-reversal-naloxone
-narcan-evzio). Contains naloxone information
for providers.

5-5

A370

TIP 63

Medications for Opioid Use Disorder

NIDAMED, Medical and Health Professionals
(www.drugabuse.gov/nidamed-medical
-health-professionals). Provides practicerelated and professional education-related
resources.
Medications To Treat Opioid Addiction (www
.drugabuse.gov/publications/research-reports
/medications-to-treat-opioid-addiction
/overview). Provides an overview of the need
for and efﬁcacy of OUD medications and
discusses common misconceptions, impacts
on outcome, and use of OUD medications
with certain speciﬁc populations.
Effective Treatments for Opioid Addiction
(https://www.drugabuse.gov/publications
/effective-treatments-opioid-addiction
/effective-treatments-opioid-addiction).

Treating Opioid Use Disorder During
Pregnancy (www.drugabuse.gov/publications
/treating-opioid-use-disorder-during
-pregnancy/treating-opioid-use-disorder
-during-pregnancy). Addresses the risks of
OUD to the pregnant woman and the fetus,
brieﬂy summarizes OUD pharmacotherapies
for use during pregnancy, and provides links
to additional information.
North American Syringe Exchange Program
(https://nasen.org/directory): Provides a national
directory of syringe exchange programs in the
United States.
Prescription Drug Abuse Policy System’s
Naloxone Overdose Prevention Laws
(http://pdaps.org/datasets/laws-regulating
-administration-of-naloxone-1501695139):
Provides a map with a link to each state’s
naloxone overdose prevention laws, including
policies on prescribing, dispensing, and civil
and criminal immunity.

Therapeutic Communities (www.drugabuse
.gov/publications/research-reports
/therapeutic-communities/what-are
-therapeutic-communities). Gives a brief
overview of OUD medications and links to
additional information.
Principles of Drug Addiction Treatment: A
Research-Based Guide (www.drugabuse.gov
/publications/principles-drug-addiction
-treatment-research-based-guide-third
-edition/preface). Discusses how OUD affects
the brain and covers the state of addiction
treatment in the United States, principles
of effective treatment, frequently asked
questions about OUD medication, evidence-based approaches to treatment,
and additional resources.
Principles of Adolescent Substance Use
Disorder Treatment: A Research-Based Guide
(www.drugabuse.gov/publications/principles
-adolescent-substance-use-disorder-treatment
-research-based-guide/introduction).
Discusses principles of SUDs in adolescents,
addresses frequently asked questions, summarizes treatment settings and evidence-based
treatment approaches, and provides
treatment referral resources.

Project Lazarus’s Naloxone: The Overdose
Antidote (www.projectlazarus.org/naloxone):
Provides guidance on administering naloxone.
Providers’ Clinical Support System’s
(PCSS’s) How To Prepare for a Visit From
the Drug Enforcement Agency Regarding
Buprenorphine Prescribing (http://pcssmat
.org/wp-content/uploads/2014/02/FINAL-How
-to-Prepare-for-a-DEA-Inspection.pdf): Provides
a description of the DEA inspection process and
how to comply with its requirements.
SAMHSA:

5-6

A371

Dear Colleague Letters for MedicationAssisted Treatment Providers (www.samhsa
.gov/medication-assisted-treatment
/legislation-regulations-guidelines/dear
-colleague-letters). Offers regular communications to the opioid treatment community
regarding clinical and regulatory issues related
to opioid treatment. Regulations, policies,
and best practices for OTPs and ofﬁce-based

Part 5 of 5—Resources Related to Medications for Opioid Use Disorder

opioid treatment (OBOT) clinics can change,
and Dear Colleague Letters help providers
stay up to date.
Understanding the Final Rule for a Patient
Limit of 275 (www.samhsa.gov/sites/default
/ﬁles/programs_campaigns/medication
_assisted/understanding-patient-limit275.pdf).
Provides information about the ﬁnal rule and
how to use it to increase patient access to
medication for OUD and associated reporting
requirements.
Buprenorphine Waiver Management (www
.samhsa.gov/medication-assisted-treatment
/buprenorphine-waiver-management).
Provides information on the buprenorphine
waiver, including links to the buprenorphine
waiver application and an explanation of the
processes, requirements, and recordkeeping
strategies associated with prescribing
buprenorphine.

TIP 63

Federal Guidelines for Opioid Treatment
Programs (https://store.samhsa.gov/product
/Federal-Guidelines-for-Opioid-Treatment
-Programs/PEP15-FEDGUIDEOTP). Provides
updated guidelines for how OTPs can satisfy
the federal regulations.
Form SMA-168 Opioid Treatment Exception
Request (www.samhsa.gov/medication
-assisted-treatment/opioid-treatment
-programs/submit-exception-request).
Provides instructions for physicians on how
to request exceptions to federal standards
for opioid treatment.
Laws and Regulations (www.samhsa.gov
/about-us/who-we-are/laws-regulations).
Provides an overview and summary of the
most frequent questions about disclosure and
patient records pertaining to substance use
treatment that federal programs maintain.

Qualify for Nurse Practitioners (NPs) and
Physician Assistants (PAs) Waiver (www
.samhsa.gov/medication-assisted-treatment
/qualify-nps-pas-waivers). Provides information for NPs and PAs about the buprenorphine
waiver training, with links to trainings and the
application process.

Substance Abuse in Brief Fact Sheet:
Introduction to Mutual-Support Groups
for Alcohol and Drug Abuse (https://store
.samhsa.gov/shin/content/SMA08-4336
/SMA08-4336.pdf). Provides information to
help medical and behavioral health service
providers understand mutual-help groups and
how to make referrals to such groups.

Buprenorphine Training for Physicians (www
.samhsa.gov/medication-assisted-treatment
/training-resources/buprenorphine-physician
-training). Offers links to organizations that
provide buprenorphine training for physicians.

SAMHSA has developed several resources to
guide healthcare professionals in their use of
telehealth and telemedicine approaches for
OUD:

SAMHSA Opioid Overdose Prevention Toolkit
(https://store.samhsa.gov/product/SAMHSA
-Opioid-Overdose-Prevention-Toolkit/SMA16
-4742). Prepares healthcare professionals,
communities, and local governments with
material to develop practices and policies to
help prevent opioid-related overdoses and
deaths. It addresses issues for healthcare
professionals, ﬁrst responders, treatment
providers, and those recovering from opioid
overdose.

Challenges and Opportunities (https://
store.samhsa.gov/shin/content/SMA16
-4989/SMA16-4989.pdf)
− Certiﬁed Community Behavioral Health
Clinics (CCBHCs) Using Telehealth or
Telemedicine (www.samhsa.gov/section
-223/care-coordination/telehealth
-telemedicine)

− In Brief: Rural Behavioral Health: Telehealth

5-7

A372

TIP 63

Medications for Opioid Use Disorder

HHS:

Practice Guidelines and DecisionSupport Tools

BeTobaccoFree.gov News and Resources
(https://betobaccofree.hhs.gov/quit-now
/index.html#professionals). Offers links for
clinicians that provide guidance on the care
for patients with nicotine addiction. The
Resources section is at the bottom of the
page linked here.

ASAM:
Appropriate Use of Drug Testing in Clinical
Addiction Medicine (http://download.lww.com
/wolterskluwer_vitalstream_com/PermaLink
/JAM/A/JAM_11_3_2017_06_02_SAFARIAN
_JAM-D-17-00020_SDC1.pdf). Details the
ASAM consensus statement on drug testing
in addiction treatment.
The ASAM Criteria (www.asam.org/quality
-practice/guidelines-and-consensus
-documents/the-asam-criteria). Provides
criteria and a comprehensive set of guidelines
for placement, continued stay, and transfer/
discharge of patients with addiction and
co-occurring conditions.
The ASAM National Practice Guidelines: For
the Use of Medication in the Treatment of
Addiction Involving Opioid Use (www.asam
.org/docs/default-source/practice-support
/guidelines-and-consensus-docs/asam
-national-practice-guideline-supplement
.pdf). Provides information on prescribing
methadone, buprenorphine, naltrexone,
and naloxone. The document also discusses
the needs of special populations, including
women during pregnancy, patients with
chronic pain, adolescents, individuals in the
criminal justice system, and patients with
co-occurring psychiatric conditions.

Institute for Research, Evaluation, and
Training in Addictions’ Management of
Benzodiazepines in Medication-Assisted
Treatment (http://ireta.org/wp-content/uploads
/2014/12/BP_Guidelines_for_Benzodiazepines
.pdf): Provides information on managing benzodiazepine use in patients taking medications for
OUD.
PCSS for Medication Assisted Treatment
(https://pcssmat.org): Provides buprenorphine
waiver training for clinicians (physicians, NPs, and
PAs).
PCSS Mentoring Program (https://pcssmat.org
/mentoring): Gives providers guidance on prescribing OUD medications. This national network
of experienced providers is available at no cost.
Mentors provide support by telephone, email, or
in person if possible.

CDC:
CDC Guideline for Prescribing Opioids for
Chronic Pain (www.cdc.gov/drugoverdose
/prescribing/guideline.html).
Guideline Resources: Clinical Tools (www.cdc
.gov/drugoverdose/prescribing/clinical-tools
.html). Provides links and tools to help
clinicians prevent opioid overdose deaths.
Credible Meds (www.crediblemeds.org):
Maintains a list of medications that may increase
QTc intervals. Free registration is required to
access the most up-to-date list.

BeTobaccoFree.gov Nicotine Addiction and
Your Health (https://betobaccofree.hhs.gov
/health-effects/nicotine-health). Provides
information on nicotine addiction and its
health effects.

PCSS Models of Buprenorphine Induction
(http://pcssmat.org/wp-content/uploads/2015
/02/Buprenorphine-Induction-Online-Module
.pdf): Provides information about various
buprenorphine induction approaches including
in-ofﬁce, non-OTP, and at-home dosing.
Prescribe To Prevent (http://prescribetoprevent
.org): Provides information about naloxone
prescribing for overdose prevention, including
educational patient handouts and videos.

5-8

A373

Part 5 of 5—Resources Related to Medications for Opioid Use Disorder

SAMHSA:

requirements for peer specialists and mutualsupport group coaches, and core competencies
for recovery-oriented behavioral health workers.

MATx Mobile App To Support MedicationAssisted Treatment of Opioid Use Disorder
(https://store.samhsa.gov/apps/mat). Provides
information on FDA-approved treatment approaches and medications used to treat OUD.
It includes a buprenorphine prescribing guide
with information on the DATA 2000 waiver
process and patient limits. Clinical support
tools (e.g., treatment guidelines; International
Classiﬁcation of Diseases, 10th Edition, coding;
guidance on working with special populations),
help lines, and SAMHSA’s treatment locators
are also included.
Pocket Guide: Medication-Assisted Treatment
of Opioid Use Disorder (https://store.samhsa
.gov/shin/content/SMA16-4892PG/SMA16
-4892PG.pdf).
Buprenorphine (www.samhsa.gov/medication
-assisted-treatment/treatment/buprenorphine).
Naltrexone (www.samhsa.gov/medication
-assisted-treatment/treatment/naltrexone).
Decisions in Recovery: Treatment for Opioid
Use Disorder (https://media.samhsa.gov/MAT
-Decisions-in-Recovery). Provides information
on shared decision making in pharmacotherapy for OUD.
Decisions in Recovery: Treatment for Opioid
Use Disorder, Planning for Success (https://
media.samhsa.gov/MAT-Decisions-in-Recovery
/section/how/planning_for_success.aspx).
Provides assistance in developing a recovery
plan.
Bringing Recovery Supports to Scale Technical
Assistance Center Strategy (www.samhsa.gov
/brss-tacs) and Shared Decision-Making Tools
(www.samhsa.gov/brss-tacs/recovery-support
-tools/shared-decision-making). Offers training
and technical assistance on many topics related
to medication for OUD, including recoveryoriented systems of care, mutual-support
groups, capacity building, leadership by people
in recovery and family members, certiﬁcation

TIP 63

Pharmacologic Guidelines for Treating
Individuals With Post-Traumatic Stress
Disorder and Co-Occurring Opioid Use
Disorders (https://store.samhsa.gov/shin
/content/SMA12-4688/SMA12-4688.pdf).
General Principles for the Use of
Pharmacological Agents To Treat Individuals
With Co-Occurring Mental and Substance Use
Disorders (https://store.samhsa.gov/shin
/content/SMA12-4689/SMA12-4689.pdf).
Veterans Administration (VA)/Department of
Defense (DoD) Clinical Practice Guideline for
the Management of Substance Use Disorders
(www.healthquality.va.gov/guidelines/MH/sud
/VADoDSUDCPGRevised22216.pdf): Provides
information on screening, assessment, and
treatment of OUD as well as other SUDs. It is
primarily for VA and DoD healthcare providers
and others involved in the care of service
members or veterans with an SUD.

Assessment Scales and Screening Tools
AAAP, Education & Training (www.aaap.org
/education-training/cme-opportunities): Provides
Performance-in-Practice Clinical Modules for
alcohol use disorder and tobacco use disorder.
American Psychiatric Nurses Association,
Tobacco & Nicotine Use Screening Tools &
Assessments (www.apna.org/i4a/pages/index
.cfm?pageID=6150): Provides the Fagerström
screening tools for nicotine dependence and
smokeless tobacco and a screening checklist
for adolescent tobacco use.
ASAM Appropriate Use of Drug Testing in
Clinical Addiction Medicine (www.asam.org
/quality-practice/guidelines-and-consensus
-documents/drug-testing): Gives information on
the appropriate use of drug testing in identifying,
diagnosing, and treating people with or at risk
for SUDs.

5-9

A374

TIP 63

Medications for Opioid Use Disorder

Clinical Institute Narcotic Assessment Scale
for Withdrawal Symptoms (www.ncpoep.org
/wp-content/uploads/2015/02/Appendix_7
_Clinical_Institute_Narcotic_Assessment_CINA
_Scale_for_Withdrawal_Symptoms.pdf).

right resources to recover through advocacy,
education, and demonstration of the power and
proof of long-term recovery.

NIDA, Screening, Assessment, and Drug
Testing Resources (www.drugabuse.gov
/nidamed-medical-health-professionals/tool
-resources-your-practice/additional-screening
-resources): Gives resources such as an evidencebased screening tool chart for adolescents and
adults and drug use screening tool supports; also
has a clinician resource and quick reference guide
for drug screening in general medical settings.
World Health Organization Guidelines for
the Psychosocially Assisted Pharmacological
Treatment of Opioid Dependence (www.ncbi
.nlm.nih.gov/books/NBK143183): Includes
links to the Clinical Opiate Withdrawal Scale
(www.drugabuse.gov/sites/default/ﬁles/ﬁles
/ClinicalOpiateWithdrawalScale.pdf) and other
opioid withdrawal scales from Annex 10 of the
guidelines.

International Association of Peer Supporters
(https://inaops.org): An organization for mental
health and addiction peer recovery support
specialists, recovery coaches, recovery educators
and trainers, administrators of consumer-operated
or peer-run organizations, and others.
Medication-Assisted Recovery Services
(MARS) Project (www.marsproject.org): A
peer-initiated, peer-based recovery support
project sponsored by NAMA Recovery that
offers, among other resources, an educational
video about the MARS peer support program
and an online network for MARS peer support
personnel:
MARS Project Video (www.marsproject.org).
New York State Peer Recovery Network, Peers
Organizing for Results Through Advocacy
and Leadership (PORTAL) (http://advocacy
.marsproject.org). Created to help peers in
recovery more effectively organize their communities, communicate with each other, and
create a stronger voice for advocacy efforts.

Resources for Counselors and
Peer Providers
Organizations
Community Care Behavioral Health
Organization (www.ccbh.com): A provider
network focused on recovery that has published
Supporting Recovery From Opioid Addiction:
Community Care Best Practice Guidelines for
Recovery-Oriented Methadone Maintenance
(www.ccbh.com/pdfs/providers/healthchoices
/bestpractice/MethadoneBestPracticeGuideline
.pdf), a set of recovery-oriented practice implementation guidelines for methadone programs.
Faces & Voices of Recovery (https://facesand
voicesofrecovery.org ): Dedicated to organizing
and mobilizing the millions of Americans in
recovery from addiction to alcohol and drugs,
their families and friends, and other allies into
recovery community organizations and networks.
Faces & Voices of Recovery promotes the

Pillars of Peer Support Services (www.pillarsof
peersupport.org): Develops and fosters the use
of Medicaid funding to support peer recovery
services in state mental health systems of care.
Recovery Community Services Program—
Statewide Network (www.samhsa.gov/grants
/grant-announcements/ti-14-001): A SAMHSA
grant program for peer-to-peer recovery support
services that help people initiate and sustain
recovery from SUDs.

Publications and Other Resources
ATTC’s Recovery-Oriented Methadone
Maintenance (www.attcnetwork.org/userﬁles
/ﬁle/GreatLakes/5th%20Monograph_RM
_Methadone.pdf): This guide is the most
thorough document on this topic currently
available and is applicable to clients receiving
other medications for OUD.

5-10

A375

Part 5 of 5—Resources Related to Medications for Opioid Use Disorder

Community Care Behavioral Health
Organization: These publications outline phasespeciﬁc tasks and accompanying strategies for
programs that serve clients who take methadone
or buprenorphine:

Medication-Assisted Recovery: Medication
Assisted Peer Recovery Support Services
Meeting Report (www.samhsa.gov/sites
/default/ﬁles/programs_campaigns
/medication_assisted/dear_colleague
_letters/2015-prss-summary-report.pdf).

Supporting Recovery From Opioid Addiction:
Community Care Best Practice Guidelines for
Recovery-Oriented Methadone Maintenance
(www.williamwhitepapers.com/pr/Recovery
-oriented%20Methadone%20Maintenance
%20Best%20Practice%20Guidelines%20
2014%20-%20CCBHO.pdf)

Financing Recovery Support Services: Review
and Analysis of Funding Recovery Support
Services and Policy Recommendations (www
.samhsa.gov/sites/default/ﬁles/partnersfor
recovery/docs/RSS_ﬁnancing_report.pdf).
SAMHSA’s Working Deﬁnition of Recovery
(https://store.samhsa.gov/shin/content
/PEP12-RECDEF/PEP12-RECDEF.pdf).

Supporting Recovery From Opioid Addiction:
Community Care Best Practice Guidelines for
Buprenorphine and Suboxone (www.ccbh.com
/pdfs/providers/healthchoices/bestpractice
/Community_Care_BP_Guidelines_for
_Buprenorphine_and_Suboxone.pdf)
Narcotics Anonymous (NA) (www.na.org): The
organization’s most recent statement on medications for treating OUD—Narcotics Anonymous
and Persons Receiving Medication-Assisted
Treatment—is available online (www.na.org
/admin/include/spaw2/uploads/pdf/pr/2306
_NA_PRMAT_1021.pdf).
SAMHSA (https://store.samhsa.gov): This
agency oversees medications to treat opioid
addiction, including methadone, buprenorphine,
and naltrexone; sets regulations; guides policy;
and offers information and resources for the
ﬁeld. SAMHSA has many recovery-oriented
publications for providers:
Dear Colleague Letters for MedicationAssisted Treatment Providers (www.samhsa
.gov/medication-assisted-treatment
/legislation-regulations-guidelines/dear
-colleague-letters). Regulations, policies, and
best practices for OTPs can change; these
regular communications help providers stay
up to date on clinical and regulatory issues
related to opioid treatment.

TIP 63

Access to Recovery Approaches to RecoveryOriented Systems of Care (https://store
.samhsa.gov/product/Access-to-Recovery
-ATR-Approaches-to-Recovery-Oriented
-Systems-of-Care/SMA09-4440).
Building Bridges—Co-Occurring Mental
Illness and Addiction: Consumers and Service
Providers, Policymakers, and Researchers in
Dialogue (https://store.samhsa.gov/shin
/content//SMA04-3892/SMA04-3892.pdf).
Selected Papers of William L. White (www
.williamwhitepapers.com): Contains papers,
monographs, and presentations on recovery,
including recovery-oriented methadone maintenance, methadone and anti-medication bias,
discrimination and methadone, NA and the
pharmacotherapeutic treatment of OUD, and
co-participation in 12-Step mutual-support
groups and methadone maintenance.

Resources for Clients and Families
Organizations
AAOTD (www.aatod.org): Offers a variety of
resources, news releases about medication for
the treatment of OUD, and information about its
national conferences.

5-11

A376

TIP 63

Medications for Opioid Use Disorder

Al-Anon Family Groups (www.al-anon.org):
Describes group meetings where friends and
family members of people with substance use
issues share their experiences and learn how
to apply the principles of the Al-Anon program
to their individual situations. Sponsorship gives
members the chance to get personal support
from more experienced individuals in the
program.

Heroin Anonymous (http://heroinanonymous
.org): Describes a nonproﬁt fellowship of
individuals in recovery from heroin addiction
committed to helping each other stay sober.
This organization holds local support meetings, a
directory of which can be found on its website.
LAC (https://lac.org): Offers information about
the rights of people with criminal records,
HIV/AIDS, and SUDs.

Alcoholics Anonymous (AA) (www.aa.org):
Offers group meetings for people who have
problems relating to drinking and wish to stop.
AA sponsors provide members with more
personal support from experienced individuals.
Many people who are taking medication to treat
OUD ﬁnd AA increasingly receptive to their
decisions about medication, and AA meetings
are more widely available to these individuals.

Learn to Cope (www.learn2cope.org):
Describes a secular mutual-help group that offers
education, resources, and peer support for the
families of people with SUDs (although the focus
is primarily on OUD). The organization maintains
an online forum, but groups are only available in
a few states.
NA (www.na.org): Provides a global, communitybased organization with a multilingual, multicultural membership that supports addiction
recovery via a 12-Step program, including
regular group meeting attendance. Members
hold nearly 67,000 meetings weekly in 139
countries. NA is an ongoing support network
for maintaining a drug-free lifestyle. NA doesn’t
focus on a particular addictive substance.

ASAM: Provides patient and family education
tools about addiction in general and OUD
speciﬁcally:
Patient Resources (www.asam.org/resources
/patientresources)
Opioid Addiction Treatment: A Guide
for Patients, Families, and Friends
(http://eguideline.guidelinecentral.com
/i/706017-asam-opioid-patient-piece/0?)
Double Trouble in Recovery (www.hazelden.org
/HAZ_MEDIA/3818_doubletroubleinrecovery.
pdf): Describes a fellowship of people who
support each other in recovering from substance
use and mental disorders.
Dual Recovery Anonymous (www.draonline.org):
Presents information on mutual-help organization that follows 12-Step principles in supporting
people recovering from addiction and emotional
or mental illness. Focuses on preventing relapse
and actively improving members’ quality of life
through a community of mutual support.
Faces & Voices of Recovery (https://facesand
voicesofrecovery.org): Offers recovery stories,
news, events information, publications, and
webinars.

NAMA Recovery (www.methadone.org): Offers
an education series, provides training and
certiﬁcation for Certiﬁed MAT Advocates, and
has local chapters and international afﬁliates that
act to advocate for methadone patients. It has
a helpful webpage titled FAQs About Advocate
Training and Certiﬁcation (www.methadone.org
/certiﬁcation/faq.html).
Nar-Anon Family Groups (www.nar-anon.org):
Provides group meetings where friends and
family of people with drug use problems can
share their experiences and learn to apply
the 12-Step Nar-Anon program to their lives.
Nar-Anon groups also offer more individualized
support from experienced individuals in the
program who act as sponsors.

5-12

A377

Part 5 of 5—Resources Related to Medications for Opioid Use Disorder

National Alliance on Mental Illness (NAMI)
(www.nami.org): Describes the largest grassroots
educational, peer support, and mental health
advocacy organization in the United States.
Founded in 1979 by a group of family members
of people with mental disorders, NAMI has
developed into an association of hundreds
of local afﬁliates, state organizations, and
volunteers.
Parents of Addicted Loved Ones (https://
palgroup.org): Presents a secular support group
for parents who have a child with an SUD. The
organization has meetings in only some states
but also hosts telephone meetings.
Pills Anonymous (www.pillsanonymous.org):
Offers a 12-Step mutual-support group that
holds regular meetings in which individuals in
recovery from addiction to pills share their experiences, build their strengths, and offer hope for
recovery to one another.
Secular Organizations for Sobriety (www.sos
sobriety.org): Describes a nonproﬁt, nonreligious
network of autonomous, nonprofessional local
groups that support people in achieving and
maintaining abstinence from alcohol and drug
addiction.
Self-Management for Addiction Recovery
(SMART Recovery) (www.smartrecovery.org):
Is a self-empowering addiction recovery support
group; participants learn science-based tools
for addiction recovery and have access to an
international recovery community of mutual-help
groups.

TIP 63

Women for Sobriety (https://womenfor
sobriety.org/beta2): Offers an abstinence-based
mutual-help group that helps women ﬁnd their
individual paths to recovery by acknowledging
the unique needs women have in recovery.
This organization is not afﬁliated with any other
recovery organization. It offers recovery tools to
help women in recovery develop coping skills
focused on emotional growth, spiritual growth,
self-esteem, and a healthy lifestyle.

Publications and Other Resources
AAAP Patient Resources (www.aaap.org
/patient-resources/helpful-links): Offers resources
and publications for patients and their families.
Addiction Treatment Forum, Narcotics
Anonymous and the Pharmacotherapeutic
Treatment of Opioid Addiction in the United
States (http://atforum.com/documents
/2011NAandMedication-assistedTreatment.pdf):
Presents William White’s publication for people
receiving medication for OUD that gives information on the pros and cons of 12-Step groups
and how to prepare for meetings.
ASAM, Opioid Addiction Treatment: A Guide
for Patients, Families, and Friends (http://
eguideline.guidelinecentral.com/i/706017-asam
-opioid-patient-piece): Provides a guide about
the treatment of OUD for patients, families, and
friends.
HHS:

Stop Stigma Now (www.stopstigmanow.org):
Describes an advocacy organization that works
to eradicate prejudice associated with taking
medication to treat OUD and offers resources
and a media library.

Smokefree.gov (https://smokefree.gov).
Provides useful information that helps individuals in planning and maintaining tobacco
cessation.
BeTobaccoFree.gov (https://betobaccofree
.hhs.gov/health-effects/nicotine-health).
Provides information for individuals struggling
with nicotine addiction and links for clinicians
that provide guidance on the care for patients
with nicotine addiction.

5-13

A378

TIP 63

Medications for Opioid Use Disorder

LAC (https://lac.org/resources/substance-use
-resources/medication-assisted-treatment
-resources). Maintains a library of documents
related to medication for the treatment of OUD
and other resources, including an advocacy
toolkit, sample support letter form, training
materials, and webinars:

SAMHSA (https://store.samhsa.gov): Provides
patient and family educational tools about OUD
and medication treatment for OUD treatment.
The resources below are available in several
languages, including Spanish and Russian:

Driving on Methadone or Buprenorphine
(Suboxone): DUI? (http://lac.org/wp-content
/uploads/2014/07/Driving-on-Methadone-or
-Suboxone-DUI.pdf) factsheet.

Decisions in Recovery: Treatment for Opioid
Use Disorders (https://store.samhsa.gov
/product/Decisions-in-Recovery-Treatment
-for-Opioid-Use-Disorders/SMA16-4993).
Helps clients identify an appropriate path of
recovery from OUD.

Know Your Rights: Employment Discrimination
Against People With Alcohol/Drug Histories
(https://lac.org/resources/substance-use
-resources/employment-education-housing
-resources/webinar-know-rights-employment
-discrimination-people-alcoholdrug-histories)
webinar.

The Facts About Buprenorphine for Treatment
of Opioid Addiction (https://store.samhsa
.gov/shin/content//SMA14-4442/SMA14
-4442.pdf).

Know Your Rights: Rights for Individuals on
Medication-Assisted Treatment (https://lac
.org/wp-content/uploads/2014/12/Know
_Your_Rts_-_MAT_ﬁnal_9.28.10.pdf)
publication.

Know Your Rights: Rights for Individuals on
Medication-Assisted Treatment (https://store
.samhsa.gov/product/Rights-for-Individuals
-on-Medication-Assisted-Treatment
/SMA09-4449).

Medication-Assisted Treatment for Opioid
Addiction: Myths and Facts (http://lac.org
/wp-content/uploads/2016/02/Myth-Fact
-for-MAT.pdf) factsheet.

Medication-Assisted Treatment for Opioid
Addiction: Facts for Families and Friends
(www.ct.gov/dmhas/lib/dmhas/publications
/MAT-InfoFamilyFriends.pdf).

NAMA Recovery (www.methadone.org): Offers
many resources and training opportunities to
become a certiﬁed advocate for pharmacotherapy
for OUD and provides links to resources related
to medication for the treatment of OUD.
National Council on Alcoholism and Drug
Dependence’s Consumer Guide to MedicationAssisted Recovery (www.ncadd.org/images
/stories/PDF/Consumer-Guide-Medication
-Assisted-Recovery.pdf).
NIAAA’s Rethinking Drinking (www.rethinking
drinking.niaaa.nih.gov/help-links): Provides links
to patient and family education, help lines, and
other recovery resources.

5-14

A379

The Facts About Naltrexone for Treatment of
Opioid Addiction (https://store.samhsa.gov
/shin/content/SMA09-4444/SMA09-4444.pdf).

What Every Individual Needs To Know About
Methadone Maintenance (https://store.samhsa
.gov/product/What-Every-Individual-Needs
-to-Know-About-Methadone-Maintenance
/SMA06-4123).
What Is Substance Abuse Treatment? A
Booklet for Families (https://store.samhsa
.gov/shin/content/SMA14-4126/SMA14
-4126.pdf).

Part 5 of 5—Resources Related to Medications for Opioid Use Disorder

TIP 63

Treatment Locators

Patient Success Stories

Faces & Voices of Recovery Guide to Mutual
Aid Resources (http://facesandvoicesof
recovery.org/resources/mutual-aid-resources):
Offers a comprehensive list of 12-Step and non12-Step recovery support groups throughout the
United States and online.

Patients’ success stories highlight the powerful
ways in which medication for the treatment of
OUD can help people achieve remission and
recovery. Examples of patient success stories
include the following:
Carol (https://vimeo.com/105287902)

National Alliance of Advocates for
Buprenorphine Treatment (www.treatment
match.org/TM_index.php): Offers a free, 24/7
anonymous treatment-matching service for
patients and providers.

Brandon (https://vimeo.com/105078010)
Archie (www.youtube/iHJ6K4VQvrw?list
=PLGV_2NAg58zkUOZRupfKc6_Z7jaBf7h-V)
MARS Project Video (www.marsproject.org)

Probuphine Healthcare Provider Locator
(https://probuphinerems.com/probuphine
-locator): Offers a list of healthcare professionals
who prescribe, insert, and/or remove buprenorphine implants.

Online Boards and Chat Rooms
12-Step Forums: A variety of NA and AA
meetings are available online, each with its own
perspective on medication:
The AA online intergroup directory lists
numerous online AA meetings, which occur
at speciﬁc times (https://aa-intergroup.org
/directory_venue.php?code=CH).

SAMHSA:
Behavioral Health Treatment Services Locator
is a directory of inpatient treatment providers
(https://ﬁndtreatment.samhsa.gov).
Behavioral Health Treatment Services Locator:
Self-Help, Peer Support, and Consumer
Groups (Addiction) provides a directory for
consumers (https://ﬁndtreatment.samhsa.gov
/locator/link-focSelfGP).
Buprenorphine Treatment Practitioner Locator
provides an interactive treatment locator of
providers who prescribe buprenorphine (www
.samhsa.gov/medication-assisted-treatment
/physician-program-data/treatment-physician
-locator).

The NA chatroom asks that participants not
talk about medication (www.nachatroom.net).
Facebook Forums and Groups: Many
medication-assisted recovery organizations
maintain a presence on Facebook because of the
ease of creating online mutual-support and chat
groups:

Opioid Treatment Program Directory provides
an interactive SAMHSA OTP treatment locator
(https://dpt2.samhsa.gov/treatment/directory
.aspx).
VA Substance Use Disorder Program Locator
(www.va.gov/directory/guide/SUD.asp): Provides
an interactive treatment locator for VA SUD
treatment programs.

A.T. Watchdog: A Pro Methadone
Maintenance Support Group (www.facebook
.com/groups/1599996730222196)
Clean & Sober Today (www.facebook.com
/groups/1822841161286327)
Heroin Anonymous (www.facebook.com
/HeroinAnonymous)
Medication-Assisted Treatment Miracles
(www.facebook.com/groups/MATMiracles)
Methadone Discussion (www.facebook.com
/groups/MethadoneSupport)

5-15

A380

TIP 63

Medications for Opioid Use Disorder

NAMA Recovery:

− NAMA-R (www.facebook.com/groups

/NAMARecoveryTN)
− Boston Methadone & Bupe Patient
Discussion (www.facebook.com/groups
/833560336673414)
− NAMA Recovery of Washington (www
.facebook.com/groups/398175280306632)
Secular Organizations for Sobriety (www
.facebook.com/groups/251215211975)

Heroin Addiction & Recovery Forum (http://
killtheheroinepidemicnationwide.org/forum): An
online discussion forum for both people who are
addicted to heroin and their friends and families.
Moms on Methadone (www.circleofmoms.com
/moms-on-methadone): An online support group
for pregnant women or women with children
who are taking medication to treat OUD.
SMART Recovery Online Forum (www.smart
recovery.org/community/forum.php): An online
group that welcomes new members.

Social Media 4Recovery (www.facebook.com
/groups/748016625286020)
Stop Stigma Now (www.facebook.com/Stop
-Stigma-Now-1482990085299885)
Suboxone/Buprenorphine Treatment and
Support—Detox/Maintenance (www.facebook
.com/groups/Fightingthestigmaofaddiction)

We Speak Methadone (and Buprenorphine)
(www.methadone.org/wespeakmethadone):
A discussion forum for medication-assisted
treatment patients, their families, and advocates.

5-16

A381

Part 5 of 5—Resources Related to Medications for Opioid Use Disorder

TIP 63

Provider Tools and Sample Forms
Provider Screening and Assessment Tools and Aids
Alcohol Use Disorders Identi cation Test (AUDIT)
1. How often do you have a drink containing
alcohol?
(0)
(1)
(2)
(3)
(4)

6. How often during the last year have you
needed an alcoholic drink ﬁrst thing in the
morning to get yourself going after a night of
heavy drinking?

Never [Skip to Questions 9–10]
Monthly or less
2 to 4 times a month
2 to 3 times a week
4 or more times a week

(0)
(1)
(2)
(3)
(4)

2. How many drinks containing alcohol do you
have on a typical day when you are drinking?
(0)
(1)
(2)
(3)
(4)

(0)
(1)
(2)
(3)
(4)

7. How often during the last year have you had a
feeling of guilt or remorse after drinking?

1 or 2
3 or 4
5 or 6
7, 8, or 9
10 or more

(0)
(1)
(2)
(3)
(4)

3. How often do you have six or more drinks on
one occasion?
Never
Less than monthly
Monthly
Weekly
Daily or almost daily

(0)
(1)
(2)
(3)
(4)

4. How often during the last year have you found
that you were not able to stop drinking once
you had started?

Never
Less than monthly
Monthly
Weekly
Daily or almost daily

9. Have you or someone else been injured as a
result of your drinking?
(0)

(2)
(4)

Never
Less than monthly
Monthly
Weekly
Daily or almost daily

5. How often during the last year have you failed
to do what was normally expected f rom you
because of drinking?
(0)
(1)
(2)
(3)
(4)

Never
Less than monthly
Monthly
Weekly
Daily or almost daily

8. How often during the last year have you been
unable to remember what happened the night
before because you had been drinking?

Skip to Questions 9 and 10 if total score for
Questions 2 and 3 = 0

(0)
(1)
(2)
(3)
(4)

Never
Less than monthly
Monthly
Weekly
Daily or almost daily

No

Yes, but not in the last year
Yes, during the last year

10. Has a relative, friend, doctor, or another health
professional expressed concern about your
drinking or suggested you cut down?

Never
Less than monthly
Monthly
Weekly
Daily or almost daily

(0)

(2)
(4)

No

Yes, but not in the last year
Yes, during the last year

Note: Add up the points associated with answers. A score of 8 or more is considered a positive test for unhealthy drinking.
Adapted from material in the public domain. 3 Available online (http://auditscreen.org).

5-17

A382

TIP 63

Medications for Opioid Use Disorder

Stable Resource Toolkit
Audit-C – Overview
The AUDIT-C is a 3-item alcohol screen that can help identify persons who are hazardous drinkers or have active
alcohol use disorders (including alcohol abuse or dependence). The AUDIT-C is a modiﬁed version of the 10 question
AUDIT instrument.

Clinical Utility
The AUDIT-C is a brief alcohol screen that reliably identiﬁes patients who are hazardous drinkers or have active
alcohol use disorders.

Scoring
The AUDIT-C is scored on a scale of 0-12.
Each AUDIT-C question has 5 answer choices. Points allotted are:
a = 0 points, b = 1 point, c = 2 points, d = 3 points, e = 4 points
In men, a score of 4 or more is considered positive, optimal for identifying hazardous drinking or active alcohol use
disorders.
In women, a score of 3 or more is considered positive (same as above).
However, when the points are all from Question #1 alone (#2 & #3 are zero), it can be assumed that the patient is
drinking below recommended limits and it is suggested that the provider review the patient’s alcohol intake over
the past few months to conﬁrm accuracy.3
Generally, the higher the score, the more likely it is that the patient’s drinking is affecting his or her safety.

Psychometric Properties
For identifying patients with heavy/hazardous drinking and/or Active-DSM alcohol abuse or dependence
MEN1

WOMEN2

≥3

Sens: 0.95 / Spec. 0.60

Sens: 0.66 / Spec. 0.94

≥4

Sens: 0.86 / Spec. 0.72

Sens: 0.48 / Spec. 0.99

For identifying patients with active alcohol abuse or dependence
MEN1

WOMEN2

≥3

Sens: 0.90 / Spec. 0.45

Sens: 0.80 / Spec. 0.87

≥4

Sens: 0.79 / Spec. 0.56

Sens: 0.67 / Spec. 0.94

1. Bush K, Kivlahan DR, McDonell MB, et al. The AUDIT Alcohol Consumption Questions (AUDIT-C): An effective brief screening test
for problem drinking. Arch Internal Med. 1998 (3): 1789-1795.
2. Bradley KA, Bush KR, Epler AJ, et al. Two brief alcohol-screening tests from the Alcohol Use Disorders Identiﬁcation Test (AUDIT):
Validation in a female veterans affairs patient population. Arch Internal Med Vol 165, April 2003: 821-829.
3. Frequently Asked Questions guide to using the AUDIT-C can be found via the website:
https://www.queri.research.va.gov/tools/alcohol-misuse/alcohol-faqs-print.cfm

Continued on next page

5-18

A383

Part 5 of 5—Resources Related to Medications for Opioid Use Disorder

TIP 63

AUDIT-C Questionnaire
Patient Name: _____________________________________________________

Dates of Visit: ______________________

1.

How often do you have a drink containing alcohol?
a. Never

2.

How many standard drinks containing alcohol do you have on a typical day?
a. 1 or 2

3.

How often do you have six or more drinks on one occasion?
a. Never

□
□ b. Monthly or less
□ c. 2-4 times a month
□ d. 2-3 times a week
□ e. 4 or more times a week
□
□ b. 3 or 4
□ c. 5 or 6
□ d. 7 to 9
□ e. 10 or more

□
□ b. Less than monthly
□ c. Monthly
□ d. Weekly
□ e. Daily or almost daily

AUDIT-C is available for use in the public domain.

Reprinted from material in the public domain.4 Available online (https://www.integration.samhsa.gov/images/res/tool
_auditc.pdf).

5-19

A384

TIP 63

Medications for Opioid Use Disorder

Drug Abuse Screening Test (DAST-10)
General Instructions
“Drug use” refers to (1) the use of prescribed or over-the-counter drugs in excess of the directions, and (2) any nonmedical
use of drugs. The various classes of drugs may include cannabis (i.e., marijuana, hashish), solvents (e.g., paint thinner), tranquilizers (e.g., Valium), barbiturates, cocaine, stimulants (e.g., speed), hallucinogens (e.g., LSD), or narcotics (e.g., heroin).
The questions do not include alcoholic beverages.
Please answer every question. If you have trouble with a question, then choose the response that is mostly right.
Segment: ____________

Visit Number: ___________

Date of Assessment: ______/_______/________

These questions refer to drug use in the past 12 months. Please answer No or Yes.
1.

Have you used drugs other than those required for medical reasons?

□ No

□ Yes

2.

Do you use more than one drug at a time?

□ No

□ Yes

3.

Are you always able to stop using drugs when you want to?

□ No

□ Yes

4.

Have you had “blackouts” or “ﬂashbacks” as a result of drug use?

□ No

□ Yes

5.

Do you ever feel bad or guilty about your drug use?

□ No

□ Yes

6.

Does your spouse (or parents) ever complain about your involvement with drugs?

□ No

□ Yes

7.

Have you neglected your family because of your use of drugs?

□ No

□ Yes

8.

Have you engaged in illegal activities to obtain drugs?

□ No

□ Yes

9.

Have you ever experienced withdrawal symptoms (i.e., felt sick) when you stopped
taking drugs?

□ No

□ Yes

10.

Have you had medical problems as a result of your drug use (e.g., memory loss,
hepatitis, convulsions, bleeding)?

□ No

□ Yes

Comments:
Scoring
Score 1 point for each “Yes,” except for question 3, for which a “No” receives 1 point.
DAST Score: __________
Interpretation of Score:
Score

Degree of Problems Related to Drug Abuse

Suggested Action

0

No problems reported

None at this time

1–2

Low level

Monitor, reassess at a later date

3–5

Moderate level

Further investigation

6–8

Substantial level

Intensive assessment

9–10

Severe level

Intensive assessment

Adapted with permission.

5,6

5-20

A385

TIP 63

Part 5 of 5—Resources Related to Medications for Opioid Use Disorder

DSM-5 Opioid Use Disorder Checklist7
Patient’s Name: ___________________________________________________________

Date of Birth: ______________________

Worksheet for DSM-5 Criteria for Diagnosis of Opioid Use Disorder
MEETS
CRITERIA?

DIAGNOSTIC CRITERIA
(Opioid use disorder requires that at least 2 criteria be
met within a 12-month period.)

Yes OR No

1.

Opioids are often taken in larger amounts or over
a longer period of time than intended.

2.

There is a persistent desire or unsuccessful efforts
to cut down or control opioid use.

3.

A lot of time is spent in activities necessary to
obtain the opioid, use the opioid, or recover from
its effects.

4.

Craving, or a strong desire to use opioids.

5.

Recurrent opioid use resulting in failure to fulﬁll
major role obligations at work, school, or home.

6.

Continued opioid use despite having persistent or
recurrent social or interpersonal problems caused
or exacerbated by the effects of opioids.

7.

Important social, occupational, or recreational
activities are given up or reduced because of
opioid use.

8.

Recurrent opioid use in situations in which it is
physically hazardous.

9.

Continued use despite knowledge of having a
persistent or recurrent physical or psychological
problem that is likely to have been caused or
exacerbated by opioids.

NOTES SUPPORTING INFORMATION

10. Tolerance,* as deﬁned by either of the following:
(a) a need for markedly increased amounts of
opioids to achieve intoxication or desired effect
(b) markedly diminished effect with continued use
of the same amount of an opioid
11.

Withdrawal,* as manifested by either of the
following:
(a) the characteristic opioid withdrawal syndrome
(b) the same (or a closely related) substance is
taken to relieve or avoid withdrawal symptoms

*This criterion is not met for individuals taking opioids solely under appropriate medical supervision.
Severity: mild = 2–3 symptoms; moderate = 4–5 symptoms; severe = 6 or more symptoms

Signed: _____________________________________________________

Date: _______________________

5-21

A386

TIP 63

Medications for Opioid Use Disorder

Heaviness of Smoking Index
Ask these two questions of current or recent smokers:
1.

How soon after waking do you smoke your ﬁrst cigarette?
Within 5 minutes (3 points)
5–30 minutes (2 points)
31–60 minutes (1 point)
61 or more minutes (no points)

2.

How many cigarettes a day do you smoke?
10 or less (no points)
11–20 (1 point)
21–30 (2 points)
31 or more (3 points)

Total score: 1 to 2 points = very low dependence; 3 points = low to moderate dependence; 4 points =
moderate dependence; 5 or more points = high dependence
Adapted with permission.8

NIAAA Single-Item Screener
How many times in the past year have you had ﬁve or more drinks in a day (four drinks for women
and all adults older than age 65)?
A response of one or more times is considered a positive screen. Patients who screen positive should
have an assessment for alcohol use disorder.
Adapted with permission.9

5-22

A387

Part 5 of 5—Resources Related to Medications for Opioid Use Disorder

TIP 63

Opioid Overdose: Risk, Prevention, Identi cation, and Response
Overdose Risk
Using heroin (possibly mixed with illicitly manufactured fentanyl or fentanyl analogs)
Using prescription opioids that were not prescribed
Using prescription opioids more frequently or at higher doses than prescribed
Using opioids after a period of abstinence or reduced use (e.g., after medically supervised withdrawal
or incarceration)
Using opioids with alcohol, benzodiazepines, or both

Overdose Prevention
Don’t use opioids that were not prescribed.
Take medications only as prescribed.
Don’t use drugs when you are alone.
Don’t use multiple substances at once.
Have naloxone available and make sure others know where it is and how to use it.
Use a small “test dose” if returning to opioid use after a period of abstinence, if the substance appears
altered or has been acquired from an unfamiliar source. Beware: This doesn’t guarantee safety; illicitly
manufactured fentanyl or other substances may be present in the drug, and any use may be fatal.

Overdose Identi cation
Fingernails or lips are blue or purple.
Breathing or heartbeat is slow or stopped.
The person is vomiting or making gurgling noises.
The person can’t be awakened or is unable to speak.

Overdose Response
Call 9-1-1.
Administer naloxone (more than one dose may be needed to restore adequate spontaneous breathing).
Perform rescue breathing. If certiﬁed to provide cardiopulmonary resuscitation, perform chest
compressions if there is no pulse.
Put the person in the “recovery position,” on his or her side and with the mouth facing to the side to
prevent aspiration of vomit, if he or she is breathing independently.
Stay with the person until emergency services arrive. Naloxone’s duration of action is 30–90 minutes.
The person should be observed after this time for a return of opioid overdose symptoms.
Adapted from material in the public domain.10

5-23

A388

TIP 63

Medications for Opioid Use Disorder

Physical Signs of Opioid Withdrawal and Time to Onset
STAGE

Early Withdrawal

GRADE

Grade 1

Lacrimation, rhinorrhea, or both
Diaphoresis
Yawning
Restlessness
Insomnia

Grade 2

Dilated pupils
Piloerection
Muscle twitching
Myalgia
Arthralgia
Abdominal pain

Grade 3

Tachycardia
Hypertension
Tachypnea
Fever
Anorexia or nausea
Extreme restlessness

Grade 4

Diarrhea, vomiting, or both
Dehydration
Hyperglycemia
Hypotension
Curled-up position

Short-acting opioids: 8–24 hours after last use
Long-acting opioids: Up to 36 hours after last use

Early Withdrawal
Short-acting opioids: 8–24 hours after last use
Long-acting opioids: Up to 36 hours after last use

Fully Developed Withdrawal
Short-acting opioids: 1–3 days after last use
Long-acting opioids: 72–96 hours after last use

Fully Developed Withdrawal

PHYSICAL
SIGNS SYMPTOMS

Short-acting opioids: 1–3 days after last use
Long-acting opioids: 72–96 hours after last use

Total duration of withdrawal:
Short-acting opioids: 7–10 days.
Long-acting opioids: 14 days or more.

Signs of Opioid Intoxication

Single-Item Drug Screener

Physical Findings

How many times in the past year have you
used an illegal drug or used a prescription
medication for nonmedical reasons?

Drowsy but arousable
Sleeping intermittently (“nodding off”)
Constricted pupils

(A positive screen is 1 or more days.)
Reprinted with permission.11

Mental Status Findings
Slurred speech
Impaired memory or concentration
Normal to euphoric mood

5-24

A389

Substance Misuse and SUD Screening

Substance misuse screening

Negative

Positive

Reinforce
healthy behavior

Assess substance use
and comorbidities

Substance misuse

Substance
use disorder

Brief counseling

Brief counseling and
treatment referral

- up
Monitoring/follow

Consider
pharmacotherapy

If misuse continues, negotiate
a plan and refer to treatment

Ongoing assessment
and support

Adapted with permission.12

5-25

A390

TIP 63

Medications for Opioid Use Disorder

TAPS Tool Part I
Directions: The TAPS Tool Part 1 is a 4-item screening for tobacco use, alcohol use, prescription medication
misuse, and illicit substance use in the PAST YEAR. Question 2 should be answered by males, and Question 3
should be answered by females. Each of the four multiple-choice items has ﬁve possible responses to choose
from. Check the box to select your answer.

In the PAST 12 MONTHS:
1.

How often have you used any tobacco product (for example, cigarettes, ecigarettes, cigars, pipes, or smokeless
tobacco)?

□ Never

2.

□ Daily or almost daily

□ Less than monthly

□ Monthly

□ Weekly

□ Daily or almost daily

□ Less than monthly

□ Monthly

□ Weekly

□ Daily or almost daily

How often have you used any drugs including marijuana, cocaine or crack, heroin, methamphetamine (crystal meth),
hallucinogens, or ecstasy/MDMA?

□ Never

5.

□ Weekly

How often have you had 4 or more drinks containing alcohol in 1 day? One standard drink is about 1 small glass
of wine (5 oz), 1 beer (12 oz), or 1 single shot of liquor. (Note: This question should only be answered by females.)

□ Never
4.

□ Monthly

How often have you had 5 or more drinks containing alcohol in 1 day? One standard drink is about 1 small glass
of wine (5 oz), 1 beer (12 oz), or 1 single shot of liquor. (Note: This question should only be answered by males.)

□ Never

3.

□ Less than monthly

□ Less than monthly

□ Monthly

□ Weekly

□ Daily or almost daily

How often have you used any prescription medications just for the feeling, more than prescribed, or that were not
prescribed for you? Prescription medications that may be used this way include opiate pain relievers (for example,
OxyContin, Vicodin, Percocet, or methadone), medications for anxiety or sleeping (for example, Xanax, Ativan, or
Klonopin), or medications for ADHD (for example, Adderall or Ritalin).

□ Never

□ Less than monthly

□ Monthly

5-26

A391

□ Weekly

□ Daily or almost daily

TIP 63

Part 5 of 5—Resources Related to Medications for Opioid Use Disorder

TAPS Tool Part 2
Directions: The TAPS Tool Part 2 is a brief assessment for tobacco use, alcohol use, illicit substance use, and
prescription medication misuse in the PAST 3 MONTHS ONLY. Each of the following questions and subquestions
has two possible answers, yes or no. Check the box to select your answer.

In the PAST 3 MONTHS:
1.

□ Yes □ No

Did you smoke a cigarette containing tobacco?
If “Yes,” answer the following questions:
Did you usually smoke more than 10 cigarettes each day?
Did you usually smoke within 30 minutes after waking?

2.

□ Yes □ No

Did you have a drink containing alcohol?
If “Yes,” answer the following questions:
Did you have 4 or more drinks containing alcohol in a day?*
(Note: This question should only be answered by females.)
Did you have 5 or more drinks containing alcohol in a day?*
(Note: This question should only be answered by males.)
Have you tried and failed to control, cut down, or stop drinking?
Has anyone expressed concern about your drinking?

3.

Have you had a strong desire or urge to use marijuana at least once a week or more often?
Has anyone expressed concern about your use of marijuana?
Did you use cocaine, crack, or methamphetamine (crystal meth)?
If “Yes,” answer the following questions:
Did you use cocaine, crack, or methamphetamine (crystal meth) at least once a week or more often?
Has anyone expressed concern about your use of cocaine, crack, or methamphetamine (crystal
meth)?
5.

□ No
□ No
□ No
□ No

□ Yes □ No
□ Yes □ No
□ Yes □ No
□ Yes □ No
□ Yes □ No
□ Yes □ No

Did you use heroin?
If “Yes,” answer the following questions:
Have you tried and failed to control, cut down, or stop using heroin?
Has anyone expressed concern about your use of heroin?

6.

□ Yes
□ Yes
□ Yes
□ Yes

□ Yes □ No

Did you use marijuana (hash, weed)?
If “Yes,” answer the following questions:

4.

□ Yes □ No
□ Yes □ No

Did you use a prescription opiate pain reliever (for example Percocet or Vicodin) not as
prescribed or that was not prescribed for you?
If “Yes,” answer the following questions:
Have you tried and failed to control, cut down, or stop using an opiate pain reliever?
Has anyone expressed concern about your use of an opiate pain reliever?

□ Yes □ No
□ Yes □ No
□ Yes □ No
□ Yes □ No
□ Yes □ No

*One standard drink is about 1 small glass of wine (5 oz), 1 beer (12 oz), or 1 single shot of liquor.
Continued on next page

5-27

A392

TIP 63

Medications for Opioid Use Disorder

Did you use medication for anxiety or sleep (for example, Xanax, Ativan, or Klonopin)
not as prescribed or that was not prescribed for you?

7.

If “Yes,” answer the following questions:
Have you had a strong desire or urge to use medications for anxiety or sleep at least once
a week or more often?
Has anyone expressed concern about your use of medication for anxiety or sleep?
Did you use medication for ADHD (for example, Adderall or Ritalin) not as prescribed
or that was not prescribed for you?

8.

If “Yes,” answer the following questions:
Did you use a medication for ADHD (for example, Adderall or Ritalin) at least once a week or
more often?
Has anyone expressed concern about your use of medication for ADHD (for example, Adderall
or Ritalin)?
Did you use any other illegal or recreational drugs (for example, ecstasy, molly, GHB,
poppers, LSD, mushrooms, special K, bath salts, synthetic marijuana [“spice”], whip-its)?

9.

□ Yes □ No
□ Yes □ No
□ Yes □ No
□ Yes □ No
□ Yes □ No
□ Yes □ No
□ Yes □ No

If “Yes,” answer the following question:
What were the other drug(s) you used? (write in response)
The complete tool is available online (https://cde.drugabuse.gov/instrument/29b23e2e-e266-f095-e050-bb89ad43472f).
Adapted from material in the public domain.13

Two-Item Drug Use Disorder Screener for Primary Care Clinics Serving U.S. Veterans
Question 1: How many days in the past 12 months have you used drugs other than alcohol?
(A positive screen is 7 or more days.) If <7, proceed with Question 2.
Question 2: How many days in the past 12 months have you used drugs more than you meant to?
(A positive screen is 2 or more days.)
Adapted with permission.14

5-28

A393

TIP 63

Part 5 of 5—Resources Related to Medications for Opioid Use Disorder

Urine Drug Testing Window of Detection15,16
DRUG

POSITIVE TEST

WINDOW OF
DETECTION*

COMMENTS

Amphetamine;
methamphetamine;
3,4-methylenedioxymethamphetamine

Amphetamine

1–2 days

False positives w/ bupropion,
chlorpromazine, desipramine, ﬂuoxetine,
labetalol, promethazine, ranitidine,
pseudoephedrine, trazadone, and
other common medications. Conﬁrm
unexpected positive results with the
laboratory.

Barbiturates

Barbiturates

Up to 6 weeks

N/A

Benzodiazepines

Benzodiazepines

1–3 days; up to 6
weeks with heavy
use of long-acting
benzodiazepines

Immunoassays may not be sensitive
to therapeutic doses, and most
immunoassays have low sensitivity to
clonazepam and lorazepam. Check with
your laboratory regarding sensitivity and
cutoffs. False positives with sertraline or
oxaprozin.

Buprenorphine

Buprenorphine

3–4 days

Will screen negative on opiate screen.
Tramadol can cause false positives. Can
be tested for speciﬁcally.

Cocaine

Cocaine,
benzoylecgonine

2–4 days; 10–22
days with heavy
use

N/A

Codeine

Morphine,
codeine,
high-dose
hydrocodone

1–2 days

Will screen positive on opiate
immunoassay.

Fentanyl

Fentanyl

1–2 days

Will screen negative on opiate screen.
Can be tested for speciﬁcally. May not
detect all fentanyl-like substances.17

Heroin

Morphine,
codeine

1–2 days

Will screen positive on opiate
immunoassay. 6-monoacetylmorphine, a
unique metabolite of heroin, is present in
urine for about 6 hours. Can be tested for
speciﬁcally to distinguish morphine from
heroin, but this is rarely clinically useful.

Hydrocodone

Hydrocodone,
hydromorphone

2 days

May screen negative on opiate
immunoassay. Can be tested for
speciﬁcally.

Hydromorphone

May not be
detected

1–2 days

May screen negative on opiate
immunoassay. Can be tested for
speciﬁcally.

Continued on next page

5-29

A394

TIP 63

Medications for Opioid Use Disorder

Urine Drug Testing Window of Detection (continued)
DRUG

WINDOW OF
DETECTION*

POSITIVE TEST

COMMENTS

Marijuana

Tetrahydrocannabinol

Infrequent
use of 1–3 days;
chronic use of
up to 30 days

False positives possible with efavirenz,
ibuprofen, and pantoprazole.

Methadone

Methadone

2–11 days

Will screen negative on opiate screen. Can
be tested for speciﬁcally.

Morphine

Morphine,
hydromorphone

1–2 days

Will screen positive on opiate
immunoassay. Ingestion of poppy plant/
seed may screen positive.

Oxycodone

Oxymorphone

1–1.5 days

Typically screens negative on opiate
immunoassay. Can be tested for
speciﬁcally.

*Detection time may vary depending on the cutoff.

Using Signs and Symptoms To Determine Optimal Methadone Level
Opioid Overmedication Signs:
Pinpoint pupils, drowsy or nodding off, listless mental status, itching/scratching,
ﬂushing, decreased body temperature, slowed heartbeat and/or respirations
Peak
Methadone
Comfort
Zone

No Illicit Opioid Use
No Withdrawal or Overmedication

Trough

Opioid Withdrawal—Subjective Symptoms:
Drug craving, anxious feelings or depression, irritability, fatigue, insomnia, hot/cold
ﬂashes, aching muscles/joints, nausea, disorientation, restlessness

Serum
Level

Severe Opioid Withdrawal—Objective Signs:
Dilated pupils, illicit opioid use, “goose ﬂesh,” perspiring, shaking, diarrhea, vomiting, runny
nose, sneezing, yawning, fever, hypertension, increased heartbeat and/or respirations

0

2

4

6

8

10

12
14
Hours

Adapted with permission.18

5-30

A395

16

18

20

22

24

Part 5 of 5—Resources Related to Medications for Opioid Use Disorder

TIP 63

Provider Informational, Educational, and Decision-Making Tools
Key Elements of an OBOT Clinic Diversion Control Plan19
New Patients

Ongoing Patients

Check the state’s PDMP before admission
to determine whether patients are receiving
opioids or benzodiazepine prescriptions from
other providers.

Periodically check the state’s PDMP.

Ask patients to sign a release of information to
speak with the other prescribers. Patients who
are unwilling to sign a release of information are
poor candidates for outpatient treatment.
Review the clinic diversion control policy with
new patients. This should include counseling
patients to:
Keep buprenorphine locked up and out of
children’s reach.
Never share medication with anyone.
Never sell medication to anyone.
Acknowledge giving or selling medication to
others as illegal.
Take medication only as prescribed.
Review, understand, and agree to the
practice’s buprenorphine treatment
agreement before they start.
Prescribe buprenorphine/naloxone when
possible, rather than monoproduct. Exceptions
would include prescribing the monoproduct for
pregnant women with OUD.
Prescribe an adequate but not excessive dose.
Most patients respond to doses at or below
24 mg per day. Carefully evaluate requests
for higher doses and conﬁrm, document, and
assess medication adherence continuously.

Conduct random urine tests that include
a wide spectrum of opioids—including
morphine, oxycodone, and buprenorphine—and
periodically include buprenorphine metabolites.
This will help monitor response to treatment and
determine whether patients are taking at least
some of their prescribed buprenorphine.
Use unobserved specimen collection to
preserve patient privacy and dignity:
Do not let patients bring backpacks, jackets, or
other items into the bathroom.
Do not let others enter bathrooms with patients.
Temperature test the urine sample.
Use observed specimen collection (obtained by
a staff member of the same gender) or oral ﬂuid
testing if there is reason to suspect tampering or
falsiﬁcation.
Contact patients at random; ask them to bring
in their medication within a reasonable period
(24 to 48 hours) to count the tablets/ﬁlms to
ensure that all medication is accounted for.
Provide a limited number of days of medication
per prescription without reﬁlls (e.g., several days
or 1 week per prescription) until the patient has
demonstrated stability and lowered diversion
risk.

5-31

A396

TIP 63

Medications for Opioid Use Disorder

Key Points of Patient Education
for Buprenorphine

Key Points of Patient Education
for Methadone

Before starting OUD treatment with buprenorphine,
patients should:

Before starting OUD treatment with methadone,
patients should:

Tell providers the prescribed and over-the-counter
medications they take, to allow drug interaction
assessment.
Understand the goal of the ﬁrst week of treatment:
To improve withdrawal symptoms without
oversedation.
Tell providers if they feel sedated or euphoric within
1 to 4 hours after their dose.
Be given the appropriate buprenorphine
medication guide.
Know possible side effects, including:
Headache.
Dizziness.
Nausea.
Vomiting.
Sweating.
Constipation.
Sexual dysfunction.
Agree to store medication securely and out of the
reach of others.
Alert providers if they discontinue medications,
start new ones, or change their medication dose.
Understand that discontinuing buprenorphine
increases risk of overdose death upon return to
illicit opioid use.
Know that use of alcohol or benzodiazepines with
buprenorphine increases the risk of overdose and
death.
Understand the importance of informing providers
if they become pregnant.
Tell providers if they are having a procedure that
may require pain medication.
Be aware of resources through which to obtain
further education for:
Themselves (https://store.samhsa.gov/product
/SMA16-4993).
Their families and friends (http://www.ct.gov
/dmhas/lib/dmhas/publications/MAT-Info
FamilyFriends.pdf).

5-32

A397

Be told that the methadone dose is started low
and increased slowly over days and weeks with
monitoring, because it takes 4 or more days for the
body to adjust to a dose change. This is necessary
to avoid the risk of overdose.
Understand that the goal of the ﬁrst weeks of
treatment is to improve withdrawal symptoms
without oversedation. Patients should tell providers
if they feel sedated or high within the ﬁrst 4 hours
after their dose.
Learn the symptoms of methadone intoxication and
how to seek emergency care. The ﬁrst 2 weeks of
treatment have the highest risk of overdose.
Be aware that rescue naloxone does not last very
long, so they should remain in emergency care for
observation if they are treated for opioid overdose.
Know that concurrent alcohol, benzodiazepine, or
other sedative use with methadone increases the
risk of overdose and death.
Inform OTP nursing/medical staff about prescribed
and over-the-counter medications and herbs
(e.g., St. John’s wort) they are taking, stopping, or
changing doses of to allow assessment of potential
drug–drug interactions.
Inform other treating healthcare professionals that
they are receiving methadone treatment.
Plan to avoid driving or operating heavy machinery
until their dose is stabilized.
Learn about other possible side effects of
methadone, including dizziness, nausea, vomiting,
sweating, constipation, edema, and sexual
dysfunction.
Agree to keep take-home doses locked up and
out of the reach of others. Understand that giving
methadone, even small amounts, to others may be
fatal.
Inform providers if they become pregnant.
Understand that stopping methadone increases
their risk of overdose death if they return to illicit
opioid use.

Part 5 of 5—Resources Related to Medications for Opioid Use Disorder

Key Points of Patient Education
for Naltrexone
Do not use any opioids in the 7 to 10 days (for short
acting) or 10 to 14 days (for long acting) before
starting XR-NTX, to avoid potentially serious opioid
withdrawal symptoms. Opioids include:
Heroin.
Prescription opioid analgesics (including
tramadol).
Cough, diarrhea, or other medications that
contain codeine or other opioids.
Methadone.
Buprenorphine.
Seek immediate medical help if symptoms of
allergic reaction or anaphylaxis occur, such as:
Itching.
Swelling.
Hives.
Shortness of breath.
Throat tightness.
Do not try to override the opioid blockade with
large amounts of opioids, which could result in
overdose.
Understand the risk of overdose from using opioids
near the time of the next injection, after missing a
dose, or after stopping medications.

TIP 63

Report injection site reactions including:
Pain.
Hardening.
Lumps.
Blisters.
Blackening.
Scabs.
An open wound.
Some of these reactions could require surgery to
repair (rarely).
Report signs and symptoms of hepatitis.
Report depression or suicidal thoughts. Seek
immediate medical attention if these symptoms
appear.
Seek medical help if symptoms of pneumonia
appear (e.g., shortness of breath, fever).
Tell providers of naltrexone treatment, as treatment
differs for various types of pneumonia.
Inform all healthcare professionals of XR-NTX
treatment.
Report pregnancy.
Inform providers of any upcoming medical
procedures that may require pain medication.
Understand that taking naltrexone may result in
difﬁculty achieving adequate pain control if acute
medical illness or trauma causes severe acute pain.
Wear medical alert jewelry and carry a medical alert
card indicating you are taking XR-NTX. A patient
wallet card or medical alert bracelet can be ordered
at 1-800-848-4876.

5-33

A398

TIP 63

Medications for Opioid Use Disorder

Medication Management for Patients With Respiratory or Hepatic Impairment Who
Take Buprenorphine
CONTRAINDICATION CAUTION

MANAGEMENT

Compromised respiratory function

Prescribe with caution; monitor closely.

(e.g., chronic obstructive pulmonary
disease, decreased respiratory reserve,
hypoxia, hypercapnia [abnormally
elevated blood levels of carbon dioxide],
preexisting respiratory depression).

Warn patients about the risk of using benzodiazepines or
other depressants while taking buprenorphine.20

Hepatic impairment

Mild impairment (Child-Pugh score of 5–6):23
No dose adjustment needed.

Buprenorphine and naloxone are
extensively metabolized by the liver.
Moderate to severe impairment results
in decreased clearance, increased overall
exposure to both medications, and
higher risk of buprenorphine toxicity and
precipitated withdrawal from naloxone.
These effects have not been observed in
patients with mild hepatic impairment.21,22

Support patients in their attempts to discontinue tobacco
use.

Moderate impairment (Child-Pugh score of 7–9):24
Combination products are not recommended; they may
precipitate withdrawal.
*Use combination products cautiously for maintenance
treatment in patients who’ve been inducted with a
monoproduct;25,26 monitor for signs and symptoms of
buprenorphine toxicity or overdose.27 Naloxone may
interfere with buprenorphine’s efﬁcacy.28,29
Severe impairment (Child-Pugh score of 10–15):30
Do not use the combination product.31 For monoproduct,
consider halving the starting and titration doses used in
patients with normal liver function; monitor for signs and
symptoms of toxicity or overdose caused by increased
buprenorphine levels.32

*Moderate to severe impairment results in much more reduced clearance of naloxone than of buprenorphine. Nasser et
al.33 found that moderate impairment doubled or tripled exposure (compared with subjects with no or mild impairment)
for both medications. In subjects with severe impairment, buprenorphine exposure was two to three times higher;
naloxone exposure increased more than tenfold.
Adapted from material in the public domain. 34

Monitoring Recovery Activities
At medical management visits, do not simply ask about attendance at recovery support meetings; explore the
level of participation and engagement in those activities. Some activities include:
Finding and working closely with a sponsor.
“Working” the 12 Steps at 12-Step meetings and with a sponsor.
Doing service at meetings (e.g., setting up chairs, making coffee, going on a “commitment” to speak at a
meeting in a jail or an inpatient drug and alcohol program).
Having and frequently attending a regular “home” group.35
Remember this statement from recovery experts A. Thomas McLellan and William White: “Recovery status is
best deﬁned by factors other than medication status. Neither medication-assisted treatment of opioid addiction
nor the cessation of such treatment by itself constitutes recovery. Recovery status instead hinges on broader
achievements in health and social functioning—with or without medication support.”36

5-34

A399

OUD Medications: An Overview37,38
CATEGORY

Appropriate

BUPRENORPHINE*

XR NTX**

Typically for patients with
OUD who are physiologically
dependent on opioids

Typically for patients with
OUD who are physiologically
dependent on opioids and
who meet federal criteria for
OTP admission

Typically for patients with
OUD who have abstained
from short-acting opioids
for at least 7–10 days and
long-acting opioids for at
least 10–14 days

Opioid receptor partial agonist

Opioid receptor agonist

Opioid receptor
antagonist

patients

Reduces opioid withdrawal and
craving; blunts or blocks euphoric
Pharmacology effects of self-administered illicit
opioids through cross-tolerance
and opioid receptor occupancy.
Tell patients:
That they will need to be in
opioid withdrawal to receive
their ﬁrst dose to avoid
buprenorphine-precipitated
opioid withdrawal.
Patient
Education

METHADONE

About the risk of overdose with
concurrent benzodiazepine
or alcohol use, with injecting
buprenorphine, and after
stopping the medication.

Reduces opioid withdrawal
and craving; blunts or blocks
euphoric effects of selfadministered illicit opioids
through cross-tolerance and
opioid receptor occupancy.

Blocks euphoric effects
of self-administered illicit
opioids through opioid
receptor occupancy.
Causes no opioid effects.

Tell patients:
Tell patients:
That their dose will start
That they will need to be
low and build up slowly to
opioid f ree for at least
avoid oversedation; it takes
7–10 days for shortseveral days for a given
acting and at least 10–14
dose to have its full effect.
days for long-acting
opioids before their ﬁrst
About overdose risk in the
dose to avoid XR-NTXﬁrst 2 weeks of treatment,
precipitated opioid
especially with concurrent
withdrawal (which may
benzodiazepine or alcohol
require hospitalization).
use, and after stopping
the medication.
About the risk of
overdose after stopping
the medication.

Daily (or off-label less-than-daily
dosing regimens) administration
of sublingual or buccal tablet or
ﬁlm. Subdermal implants every 6
months, for up to 1 year, for stable
Administration patients. Monthly subcutaneous
injection of extended-release
formulation in abdominal
region for patients treated with
transmucosal buprenorphine for
at least 1 week.

Daily oral administration
as liquid concentrate,
tablet, or oral solution f rom
dispersible tablet or powder
(unless patients can take
some home).

Every 4 weeks or onceper-month intramuscular
injection.

Physicians, NPs, and PAs need a
waiver to prescribe. Any pharmacy
can ﬁll a prescription for sublingual
or buccal formulations. OTPs
can administer/dispense by OTP
physician order without a waiver.

SAMHSA-certiﬁed OTPs can
provide methadone for daily
onsite administration or athome self-administration for
stable patients.

Physicians, NPs, or
PAs prescribe or order
administration by
qualiﬁed healthcare
professionals.

Prescribing

*Long-acting buprenorphine implants (every 6 months) for patients on a stable dose of buprenorphine are also
available through implanters and prescribers with additional training and certiﬁcation through the Probuphine REMS
Program. Extended-release buprenorphine monthly subcutaneous injections are available only through prescribers and
pharmacies registered with the Sublocade REMS Program.
**Naltrexone hydrochloride tablets (50 mg each) are also available for daily oral dosing but have not been shown to be
more effective than treatment without medication or placebo because of poor patient adherence.

5-35

A400

TIP 63

Medications for Opioid Use Disorder

OUD Medications: Comparison To Guide Shared Decision Making
CATEGORY

BUPRENORPHINE

METHADONE

NALTREXONE

Appropriate
patients

Typically for patients
with OUD who are
physiologically dependent
on opioids

Typically for patients
with OUD who are
physiologically dependent
on opioids and who meet
federal criteria for OTP
admission

Typically for patients with
OUD who are abstinent
from short-acting opioids
for 7 days and long-acting
opioids for 10–14 days

Outcome:
Retention in
treatment

Higher than treatment
without medication and
treatment with placebo39

Higher than treatment
without OUD medication
and treatment with
placebo40

Treatment retention with
oral naltrexone is no better
than with placebo or no
medication;41 for XR-NTX,
treatment retention is
higher than for treatment
without OUD medication
and treatment with
placebo;42,43 treatment
retention is lower than
with opioid receptor
agonist treatment

Outcome:
Suppression of
illicit opioid use

Effective

Effective

Effective

Outcome:
Overdose
mortality

Lower for people in
treatment than for
those not in it

Lower for people in
treatment than for
those not in it

Unknown

Location/
frequency of
ofﬁce visits

Ofﬁce/clinic: Begins daily
to weekly, then tailored to
patient’s needs

OTP only: 6–7 days/week
initially; take-homes are
allowed based on time
in treatment and patient
progress

Ofﬁce/clinic: Varies f rom
weekly to monthly

OTP physicians order the
medication; nurses and
pharmacists administer
and dispense it

Physicians, NPs,* and PAs*

OTP: Can treat with
buprenorphine 6–7 days/
week initially; takehomes are allowed
without the time-intreatment requirements of
methadone
Who can
prescribe/order?

Physicians, NPs,* and
PAs* possessing federal
waiver can prescribe
and dispense; can be
dispensed by a community
pharmacy or an OTP

*NPs and PAs should check with their state to determine whether prescribing buprenorphine, naltrexone, or both is
within their allowable scope of practice.
Continued on next page

5-36

A401

TIP 63

Part 5 of 5—Resources Related to Medications for Opioid Use Disorder

OUD Medications: Comparison To Guide Shared Decision Making (continued)
CATEGORY

BUPRENORPHINE

METHADONE

NALTREXONE

Administration

Sublingual/buccal; implant
by specially trained
provider, and only for
stabilized patients

Oral

Oral or intramuscular
(Note: Oral naltrexone
is less effective than the
other OUD medications.)

Misuse/diversion
potential

Low in OTPs or other
settings with observed
dose administration;
moderate for takehome doses; risk can be
mitigated by providing
take-homes to stable
patients and a diversion
control plan

Low in OTPs with directly
observed therapy;
moderate for takehome doses; risk can be
mitigated by a diversion
control plan

None

Sedation

Low unless concurrent
substances are
present (e.g., alcohol,
benzodiazepines)

Low unless dose titration
is too quick or dose is
not adjusted for the
presence of concurrent
substances (e.g., alcohol,
benzodiazepines)

None

Risk of
medicationinduced respiratory depression

Very rare; lower than
methadone

Rare, although higher than None
buprenorphine; may be
elevated during the ﬁrst 2
weeks of treatment or in
combination with other
sedating substances

Risk of
precipitated
withdrawal
when starting
medication

Can occur if started too
prematurely after recent
use of other opioids

None

Severe withdrawal is
possible if period of
abstinence is inadequate
before starting medication

Withdrawal
symptoms on
discontinuation

Present; lower than
methadone if abruptly
discontinued

Present; higher than
buprenorphine if abruptly
discontinued

None

Most common
side effects

Constipation, vomiting,
headache, sweating,
insomnia, blurred vision

Constipation, vomiting,
sweating, dizziness,
sedation

Difﬁculty sleeping, anxiety,
nausea, vomiting, low
energy, joint and muscle
pain, headache, liver
enzyme elevation
XR-NTX: Injection site pain,
nasopharyngitis, insomnia,
toothache

D. Coffa, December 2017 (personal communication). Adapted with permission.

5-37

A402

TIP 63

Medications for Opioid Use Disorder

OUD Medications: Formulations44,45
GENERIC
TRADE NAME

FORMULATIONS

ACTION AT THE
RECEPTOR

FDA INDICATIONS

DOSING REGIMEN

Methadone
(Methadose,
Dolophine)

Orally as liquid
concentrate,
tablet, or oral
solution of
powder or
dispersible
tablet

Mu-opioid receptor
full agonist

Medically supervised
withdrawal and
maintenance
treatment of opioid
dependence; additional
formulations FDAapproved for pain are
not a focus of this TIP

Once daily (also
off-label dosing
regimens if
appropriate, such
as split dose twice
daily)

Generic
buprenorphine
monoproduct

Sublingual tablet

Mu-opioid receptor
partial agonist

Treatment of opioid
dependence; additional
formulations FDAapproved for pain are
not a focus of this TIP

Once daily (also
alternative off-label
regimens)

Generic
Sublingual tablet
combination
product
(buprenorphine/
naloxone)

Mu-opioid receptor
partial agonist
combined with
mu-opioid receptor
antagonist;
the latter is
not absorbed
sublingually

Treatment of opioid
dependence

Once daily (also
alternative off-label
regimens)

Buprenorphine/
naloxone
(Zubsolv)

Sublingual tablet

Mu-opioid receptor
partial agonist
combined with
mu-opioid receptor
antagonist;
the latter is
not absorbed
sublingually

Treatment of opioid
dependence

Once daily (also
alternative off-label
regimens)

Buprenorphine/
naloxone
(Bunavail)

Buccal ﬁlm

Mu-opioid receptor
partial agonist
combined with
mu-opioid receptor
antagonist;
the latter is
not absorbed
sublingually

Treatment of opioid
dependence

Once daily (also
alternative off-label
regimens)

Buprenorphine/
naloxone
(Suboxone)

Sublingual ﬁlm;
may also be
administered
buccally

Mu-opioid receptor
partial agonist
combined with
mu-opioid receptor
antagonist;
the latter is
not absorbed
sublingually

Treatment of opioid
dependence

Once daily (also
alternative off-label
regimens)

Continued on next page

5-38

A403

TIP 63

Part 5 of 5—Resources Related to Medications for Opioid Use Disorder

OUD Medications: Formulations (continued)
GENERIC
TRADE NAME

FORMULATIONS

ACTION AT THE
RECEPTOR

FDA INDICATIONS

DOSING REGIMEN

Buprenorphine
(Probuphine)

Implants

Mu-opioid receptor
partial agonist

Maintenance treatment
of opioid dependence
in clinically stable
patients taking 8 mg/
day or less of Suboxone
equivalents

Implants last for
6 months and are
then removed,
after which a
second set can be
inserted

Extendedrelease
injection
buprenorphine
(Sublocade)

Subcutaneous
injection in
the abdominal
region

Mu-opioid receptor
partial agonist

Treatment of
moderate-to-severe
OUD among patients
initiated and taking
transmucosal
buprenorphine for at
least 7 days

Monthly

Oral naltrexone
(Revia)

Oral tablet

Mu-opioid receptor
antagonist

Block the effects of
administered opioid
agonists

Once daily (also
alternative off-label
regimens)

XR-NTX (Vivitrol)

Intramuscular
injection

Mu-opioid receptor
antagonist

Prevent return to opioid
dependence after
medically supervised
opioid withdrawal

Once monthly by
injection

5-39

A404

TIP 63

Medications for Opioid Use Disorder

Referring Patients Who Receive OUD Pharmacotherapy to Behavioral Health Therapies
Is the patient
willing to engage
in additional
behavioral health
therapies?
Yes

No
Offer best advice and

Is the patient

ongoing motivational

entering an OTP

interviewing; revisit

for methadone or

offer for behavioral

intensive treatment?

Yes

health therapies.
No

Counseling, peer

Identify speciﬁc

support, and case

needs, and refer

management will

appropriately to

likely be provided

one or more of

through the OTP.

the following:

Peer support groups:
Counseling:

Alcoholics Anonymous,

Individual, family,

Narcotics Anonymous,

and/or group

SMART Recovery,

Housing,
Case

Vocational

transportation,

management

training

food, legal, and other
support programs

buprenorphine groups

5-40

A405

Part 5 of 5—Resources Related to Medications for Opioid Use Disorder

TIP 63

Strategies for Managing Benzodiazepine Use by Patients in OUD Treatment
Carefully assess the patient’s benzodiazepine use, including:
Intent of use.
Source (check the state’s PDMP).
Amount and route of use.
Binge use.
Prior overdoses.
Harms (e.g., car crashes, criminal acts, sleep trouble).
Co-use with other substances that further increase risk for respiratory depression and overdose.
Withdrawal history (e.g., seizures, delirium).
Also assess the following:
Psychiatric and medical comorbidity
Motivation for change
Psychosocial support system (obtain history from a signiﬁcant other if the patient permits)
Gauge level of care and setting needed (e.g., residential, outpatient). Inpatient treatment may be best for
patients with poor motivation, limited psychosocial support, serious or complicated comorbidity, or injection
or binge use.
Coordinate with other prescribers. Some patients may have taken appropriately prescribed benzodiazepines
for years with limited or no evidence of misuse. For such patients, tapering benzodiazepines may be
contraindicated and unrealistic.
Address comorbid mental disorders (e.g., anxiety, depression) with other medications or psychosocial
treatments, when feasible.
Provide medically supervised withdrawal from benzodiazepines or refer to specialty care for same.
Create a treatment plan with built-in conditions (e.g., urine testing, more frequent visits, short medication
supply).
Frequently review patient progress and objective outcomes, such as:
Urine drug testing.
PDMP reports.
Psychosocial functioning.
Reports from signiﬁcant others.
Revise treatment plans as needed, and document the rationale for treatment decisions.
Adapted with permission.46

5-41

A406

TIP 63

Medications for Opioid Use Disorder

Sample Provider Forms
General forms
Goal-Setting Form
Patient’s Name: ________________________________________________________________

CURRENT
SITUATION SCORE
GOAL CATEGORY

10 = major problems
and 0 = no problems

PRIORITY SCORE
What would need
to change to decrease
this score?

Opioid use
Other illicit drug use: ______________
Alcohol use
Tobacco use
Physical health
Mental health
Legal/court issues
Finances
Job/employment
Hobbies
Family relations
Partner relations
Supportive drug-f ree network
Education
Keeping medication safe
(e.g., not giving it away, selling it,
having it stolen)
Other
Other
M. Lofwall, February 27, 2017 (personal communication). Adapted with permission.

5-42

A407

Date: _________________________

10 = highest priority (“I really
want to work on this”) and
1 = lowest priority (“I really do
not want to work on this”)

Part 5 of 5—Resources Related to Medications for Opioid Use Disorder

TIP 63

Goal Sheet and Coping Strategies Form
Goals are things you would like to accomplish.
Patient’s Name: _______________________________________________________________

3-MONTH
GOALS

Date: _________________________

1

2

3

6-MONTH
GOALS

1

2

3

1-YEAR
GOALS

1

2

3

List of Triggers to Using Drugs

People To Stay Away From

Places To Stay Away From

Ways To Cope or Manage Stress Without Using Drugs
M. Lofwall, February 27, 2017 (personal communication). Adapted with permission.

5-43

A408

TIP 63

Medications for Opioid Use Disorder

Medical Management Visit Form
Patient’s Name: ___________________________________________________________
Date: ____________________

Week#: _________

ID#____________________________

Dose: ________ mg

□ No Show

Heroin/cocaine or other illicit drug use since last visit?
________________________________________________________________________________________________________________
Symptoms or signs that might indicate return to use (e.g., changes in mood, physical appearance)?
________________________________________________________________________________________________________________

Since the last visit, are there any problems with the following:
If yes, explain
Drug Use
Alcohol Use
Psychiatric
Medical
Employment
Social/Family
Legal

□ Yes
□ Yes
□ Yes
□ Yes
□ Yes
□ Yes
□ Yes

□ No
□ No
□ No
□ No
□ No
□ No
□ No

Any new problem to add to Treatment Plan Review?

□ Yes □ No

________________________________________________________________________________________________________________
Plan to address any new problem _________________________________________________________________________________
________________________________________________________________________________________________________________
Participation in Narcotics Anonymous or Alcoholics Anonymous since last visit?
Length of Session: ________________

□ Yes □ No

Healthcare Professional Signature: ___________________________________________

D. Fiellin, December 3, 2016 (personal communication). Adapted with permission.

5-44

A409

Part 5 of 5—Resources Related to Medications for Opioid Use Disorder

TIP 63

Patient Urine Drug Screen and Medication Count Monitoring Form
Patient’s Name: ______________________________________________________

Dates To Be Called: ____________________

Called for:

□ Urine Drug Screen
□ Medication Count at □ Ofﬁce or □ Pharmacy FOR: _____________________________________________________________
□ Buprenorphine/Naloxone
□ Other (list drug: ___________________________, ___________________________, ___________________________)
Documentation of Phone Call to Patient
Patient was called at _____________________________ (insert phone #) on ____________________ (date) at
_____:_____ (time) and informed of monitoring required (described above) within the next _______ hours.
Check One:

□ I spoke with patient
□ Message left on answering machine/voicemail
□ Message left with ________________________________________________
□ Other __________________________________________________________
Signature of Staff Member Making Phone Call: _______________________________________________________

M. Lofwall, February 27, 2017 (personal communication). Adapted with permission.

5-45

A410

TIP 63

Medications for Opioid Use Disorder

Pharmacy Tablet/Film Count Form
(Note: Before sending this form, discuss with the pharmacist ﬁrst to explain goals and procedures and to ensure
agreement and understanding.)

Date: ___________________
To:

Pharmacists @ ________________________________________ Pharmacy

From:

Healthcare Provider: ____________________________________________
Clinic Address: _________________________________________________
Phone Number: ________________________________________________

My patient, __________________________________, is starting ofﬁce-based buprenorphine treatment for opioid
dependence.
As part of monitoring this treatment, we ask the patient to do buprenorphine tablet/ﬁlm counts at random times (we
call the patient when it’s time for a pill/ﬁlm count).
The above-named patient lives much closer to your pharmacy than to our treatment clinic. It would be a big help to
me and this patient if you would be able to perform periodic tablet/ﬁlm counts on his/her buprenorphine and then fax
this form to us.
On the days we call the patient for a random tablet/ﬁlm count, the patient would come to your pharmacy with his or
her pill bottle. When we call the patient to go for a random tablet/ﬁlm count, we will fax this form to you. We would
appreciate if you could record the tablet/ﬁlm count results on this form and fax it back to us the same day. This would
be a real help to me in monitoring my patient’s treatment and also a great service to the patient.
Thank you very much for your help with this! Sincerely,

________________________________________________
Signature

Buprenorphine/naloxone formulation: _________________________________________
Dose per tablet/ﬁlm: _______________
Total # of tablets/ﬁlms remaining in bottle: ______________

Fill date on bottle: ___________________

Total # of tablets/ﬁlms dispensed on ﬁll date: ____________

Tablet/ﬁlm count correct?

Please fax this back to: _____________________________________
Thank You!

M. Lofwall, February 27, 2017 (personal communication). Adapted with permission.

5-46

A411

□Yes □No

TIP 63

Part 5 of 5—Resources Related to Medications for Opioid Use Disorder

Standard Consent to Opioid Maintenance Treatment Form for OTPs

CONSENT TO PARTICIPATE IN METHADONE OR BUPRENORPHINE TREATMENT
Patient’s Name: _____________________________________________________

Date: ________________

I authorize and give voluntary consent to _________________________________ [insert name of program]
to dispense and administer medications—including methadone or buprenorphine—to treat my opioid
use disorder. Treatment procedures have been explained to me, and I understand that I should take my
medication at the schedule determined by the program physician, or his/her designee, in accordance
with federal and state regulations.
I understand that, like all other medications, methadone or buprenorphine can be harmful if not taken
as prescribed. It has been explained to me that I must safeguard these medications and not share them
with anyone because they can be fatal to children and adults if taken without medical supervision.
I also understand that methadone and buprenorphine produce physical opioid dependence.
Like all medications, they may have side effects. Possible side effects, as well as alternative treatments
and their risks and beneﬁts, have been explained to me.
I understand that it is important for me to inform any medical and psychiatric provider who may treat
me that I am enrolled in an opioid treatment program. In this way, the provider will be aware of all the
medications I am taking, can provide the best possible care, and can avoid prescribing medications that
might affect my treatment with methadone or buprenorphine or my recovery.
I understand that I may withdraw voluntarily from this treatment program and discontinue the use of
these medications at any time. If I choose this option, I understand I will be offered medically supervised
withdrawal.
For women of childbearing age: Pregnant women treated with methadone or buprenorphine have
better outcomes than pregnant women not in treatment who continue to use opioid drugs. Newborns
of mothers who are receiving methadone or buprenorphine treatment may have opioid withdrawal
symptoms (i.e., neonatal abstinence syndrome). The delivery hospital may require babies who are
exposed to opioids before birth to spend a number of days in the hospital for monitoring of withdrawal
symptoms. Some babies may also need medication to stop withdrawal. If I am or become pregnant, I
understand that I should tell the medical staff of the OTP right away so I can receive or be referred to
prenatal care. I understand that there are ways to maximize the healthy course of my pregnancy while I
am taking methadone or buprenorphine.
Signature of Patient: ___________________________________________________
Date: ________________

Date of Birth: ________________

Witness: ______________________________________________________________________

Adapted from material in the public domain.47

5-47

A412

TIP 63

Medications for Opioid Use Disorder

Buprenorphine Forms
Buprenorphine Diversion Control Policy
XYZ Medical Practice
Ofﬁce-Based Opioid Use Disorder Policy and Procedure Manual
Policy Title:

Diversion Control for Patients Prescribed Transmucosal (Sublingual) Buprenorphine

Effective Date:

______________________ (Month, Day, Year)

This Diversion Control Policy is provided for educational and informational purposes only. It is intended to offer healthcare
professionals guiding principles and policies regarding best practices in diversion control for patients who are prescribed
buprenorphine. This policy is not intended to establish a legal or medical standard of care. Healthcare professionals should
use their personal and professional judgment in interpreting these guidelines and applying them to the particular circumstances of their individual patients and practice arrangements. The information provided in this Policy is provided “as is”
with no guarantee as to its accuracy or completeness.
Preamble: Healthcare professionals can now treat up to 275 patients with buprenorphine. This increased access may contribute to increased diversion, misuse, and related harms. Signs that a patient is misusing or diverting buprenorphine include (1)
missed appointments; (2) requests for early reﬁlls because pills were lost, stolen, or other reasons; (3) urine screens negative
for buprenorphine, positive for opioids; (4) claims of being allergic or intolerant to naloxone and requesting monotherapy;
(5) nonhealing or fresh track marks; or (5) police reports of selling on the streets. Likewise, there are a range of reasons for
diversion and misuse (e.g., diverting to family/friends with untreated opioid addiction with the intent of trying to “help”
convince them to also get treatment; diverting to family/friends on a treatment waiting list; selling some or all of the
medication to pay off old drug debts/purchase preferred opioid of misuse/pay for treatment in places where there are
inadequate addiction treatment professionals taking private insurance or Medicaid for such reasons as inadequate reimbursement/no reimbursement/burdensome prior authorization process).
The safety and health of patients and others in the community could be at risk if misuse and diversion are not addressed
proactively throughout treatment. The reputation of XYZ Medical Practice may also be put at risk.
Deﬁnitions: Diversion is deﬁned as the unauthorized rerouting or misappropriation of prescription medication to someone
other than for whom it was intended (including sharing or selling a prescribed medication); misuse includes taking medication in a manner, by route or by dose, other than prescribed.48
Purpose: Misuse and diversion should be deﬁned and discussed with patients at the time of treatment entry; periodically
throughout treatment, particularly when there have been returns to illicit drug use; and when suspected (e.g., incorrect
buprenorphine pill/ﬁlm count) or conﬁrmed. These procedures will establish the steps to be taken to prevent, monitor, and
respond to misuse and diversion of buprenorphine. The response should be therapeutic and matched to the patients’ needs,
as untreated opioid use disorder and treatment dropout/administrative discharges may lead to increased patient morbidity
and mortality and further use of diverted medications or illicit opioids associated with overdose death.
Procedures for Prevention:
Use buprenorphine/naloxone combination products when medically indicated and cost is not an issue. Reserve
the daily buprenorphine monoproducts for pregnant patients and patients who could not afford treatment if the
combination product were required, who have a history of stability in treatment and low diversion risk, or who have
arrangements for observed dosing. Buprenorphine monoproducts are recommended for pregnant women.
Counsel patients on safe storage of, and nonsharing of, medications. Patients must agree to safe storage of their
medication. This is even more critical if there are children in the home where the patient lives. Counsel patients
about acquiring locked devices and avoiding storage in parts of the home frequented by visitors (e.g., do not
recommend storage in the kitchen or common bathrooms). Proactively discuss how medication should be stored and
transported when traveling to minimize risk of unintended loss.
Counsel patients on taking medication as instructed and not sharing medication. Explicitly explain to patients the
deﬁnitions of diversion and misuse, with examples. Patients are required to take medication as instructed by the
healthcare professional; for example, they may not crush or inject the medication.
Check the prescription drug monitoring program for new patients and check regularly thereafter. Prescription drug
monitoring program reports can be a useful resource when there is little history available or when there is a concern
based on observation. Check for prescriptions that interact with buprenorphine and for other buprenorphine
prescribers.

5-48

A413

Part 5 of 5—Resources Related to Medications for Opioid Use Disorder

TIP 63

Prescribe a therapeutic dose that is tailored to the patient’s needs. Do not routinely provide an additional supply
“just in case.” Question patients who say they need a signiﬁcantly higher dose, particularly when they are already at
24 mg per day of buprenorphine equivalents.
Make sure the patient understands the practice’s treatment agreement and prescription policies. The XYZ Medical
Practice’s treatment agreement and other documentation are clear about policies regarding number of doses in
each prescription, reﬁlls, and rules on “lost” prescriptions. Review the policies in person with the patient. Offer an
opportunity for questions. Patient and provider must sign the agreement. Review the policies again with the patient
at subsequent appointments. See Sample Buprenorphine Treatment Agreement or Sample XR-NTX Treatment
Agreement as needed.

Procedures for Monitoring:
Request random urine tests. The presence of buprenorphine in the urine indicates that the patient has taken some
portion of the prescribed dose. Absence of buprenorphine in the urine supports nonadherence. Testing for buprenorphine metabolites (which are present only if buprenorphine is metabolized) should periodically be included to
minimize the possibility that buprenorphine is added directly to the urine sample. Dipstick tests can be subverted or
replaced. A range of strategies can be used to minimize falsiﬁed urine collections, including (1) observed collection;
(2) disallowing carry-in items (e.g., purses, backpacks) in the bathroom; (3) turning off running water and coloring
toilet water to eliminate the possibility of dilution; (4) monitoring the bathroom door so that only one person can go
in; and (5) testing the temperature of the urine immediately after voiding.
Schedule unannounced pill/ﬁlm counts. Periodically ask patients who are at high risk at initial or subsequent appointments to bring in their medication containers for a pill/ﬁlm count.
With unannounced monitoring (both pill/ﬁlm counts and urine tests), the patient is contacted and must appear within
a speciﬁed time period (e.g., 24 hours) after the phone call. If the patient doesn’t show, then the provider should
consider this as a positive indicator of misuse or diversion.
Directly observe ingestion. Patients take medication in front of the healthcare professional or another qualiﬁed
clinician and are observed until the medication dissolves in the mouth (transmucosal [sublingual or buccal] absorption). Patients who are having difﬁculty adhering to their buprenorphine can have their medication provided under
direct observation in the ofﬁce for a designated frequency (e.g., three times/week).
Limit medication supply. When directly observed doses in the ofﬁce are not practical, short prescription time spans
can be used (e.g., weekly, 3 days at a time).

Procedures To Respond to Misuse or Diversion: Misuse or diversion doesn’t mean automatic discharge from
the practice. However, it will require consideration of one or more of the following procedures:
Evaluate the misuse and diversion. For instance, describe the incident of misuse (e.g., “the patient took the prescribed dose on three or more occasions by intravenous route immediately after starting treatment, stating that she
believed the dose would not be adequate by sublingual route; she has just initiated treatment”) or diversion (“the
patient gave half of dose to his wife, who is still using heroin and was withdrawing, because he did not want her to
have to buy heroin off the street; she is on a waiting list for treatment”) and tailor the response to the behavior (e.g.,
reeducation of the patient on buprenorphine pharmacology in the ﬁrst example above; assistance with treatment
entry for the spouse in the second example). Reassess the treatment plan and patient progress. Strongly consider
smaller supplies of medication and supervised dosing for any patient who is taking medication intravenously or intranasally or diverting, regardless of reason. Treatment structure may need to be increased, including more frequent
appointments, supervised administration, and increased psychosocial support.
Intensify treatment or level of care, if needed. Some patients may require an alternative treatment setting or pharmacotherapy such as methadone. The clinician will discuss these alternatives with the patient to ensure optimal patient
outcome. This should be discussed at treatment onset so the patient is aware of the consequences of misuse and
diversion.
Document and describe the misuse and diversion incident. Also document the clinical thinking that supports the
clinical response, which should be aimed at minimizing risk of diversion and misuse and treating the patient’s opioid
use disorder at the level of care needed.
Policy adapted from ASAM’s Ofﬁce-Based Opioid Use Disorder Policy and Procedure Manual, which is updated periodically;
the most current version is available online (https://www.asam.org/docs/default-source/advocacy/sample-diversion-policy
.pdf?sfvrsn=6).
Adapted with permission.49

5-49

A414

TIP 63

Medications for Opioid Use Disorder

Buprenorphine Induction and Maintenance Appropriate Use Checklists

Continued on next page

5-50

A415

Part 5 of 5—Resources Related to Medications for Opioid Use Disorder

TIP 63

Available online (www.accessdata.fda.gov/drugsatfda_docs/rems/BTOD_2017-01-23_Appropriate_Use_Checklist.pdf).
Reprinted from material in the public domain.50

5-51

A416

TIP 63

Medications for Opioid Use Disorder

Buprenorphine Treatment Agreement
This form is for educational/informational purposes only. It doesn’t establish a legal or medical standard of care.
Healthcare professionals should use their judgment in interpreting this form and applying it in the circumstances
of their individual patients and practice arrangements. The information provided in this form is provided “as is”
with no guarantee as to its accuracy or completeness.

TREATMENT AGREEMENT
I agree to accept the following treatment contract for buprenorphine ofﬁce-based opioid addiction treatment:
1.
2.
3.
4.

5.
6.
7.
8.
9.
10.
11.
12.
13.
14.
15.
16.
17.
18.
19.

The risks and beneﬁts of buprenorphine treatment have been explained to me.
The risks and beneﬁts of other treatment for opioid use disorder (including methadone, naltrexone, and
nonmedication treatments) have been explained to me.
I will keep my medication in a safe, secure place away from children (for example, in a lockbox). My plan is to
store it [describe where and how _____________________________________________________________________].
I will take the medication exactly as my healthcare provider prescribes. If I want to change my medication dose,
I will speak with my healthcare provider ﬁrst. Taking more medication than my healthcare provider prescribes
or taking it more than once daily as my healthcare provider prescribes is medication misuse and may result in
supervised dosing at the clinic. Taking the medication by snorting or by injection is also medication misuse and
may result in supervised dosing at the clinic, referral to a higher level of care, or change in medication based on
my healthcare provider’s evaluation.
I will be on time to my appointments and respectful to the ofﬁce staff and other patients.
I will keep my healthcare provider informed of all my medications (including herbs and vitamins) and medical
problems.
I agree not to obtain or take prescription opioid medications prescribed by any other healthcare provider without
consulting my buprenorphine prescriber.
If I am going to have a medical procedure that will cause pain, I will let my healthcare provider know in advance
so that my pain will be adequately treated.
If I miss an appointment or lose my medication, I understand that I will not get more medication until my next
ofﬁce visit. I may also have to start having supervised buprenorphine dosing.
If I come to the ofﬁce intoxicated, I understand that my healthcare provider will not see me, and I will not receive
more medication until the next ofﬁce visit. I may also have to start having supervised buprenorphine dosing.
I understand that it’s illegal to give away or sell my medication; this is diversion. If I do this, my treatment will no
longer include unsupervised buprenorphine dosing and may require referral to a higher level of care, supervised
dosing at the clinic, and/or a change in medication based on my healthcare provider’s evaluation.
Violence, threatening language or behavior, or participation in any illegal activity at the ofﬁce will result in
treatment termination from the clinic.
I understand that random urine drug testing is a treatment requirement. If I do not provide a urine sample, it will
count as a positive drug test.
I understand that I will be called at random times to bring my medication container into the ofﬁce for a pill or ﬁlm
count. Missing medication doses could result in supervised dosing or referral to a higher level of care at this clinic
or potentially at another treatment provider based on my individual needs.
I understand that initially I will have weekly ofﬁce visits until I am stable. I will get a prescription for 7 days of
medication at each visit.
I can be seen every 2 weeks in the ofﬁce starting the second month of treatment if I have two negative urine drug
tests in a row. I will then get a prescription for 14 days of medication at each visit.
I will go back to weekly visits if I have a positive drug test. I can go back to visits every 2 weeks when I have two
negative drug tests in a row again.
I may be seen less than every 2 weeks based on goals made by my healthcare provider and me.
I understand that people have died by mixing buprenorphine with alcohol and other drugs like benzodiazepines
(drugs like Valium, Klonopin, and Xanax).

Continued on next page

5-52

A417

Part 5 of 5—Resources Related to Medications for Opioid Use Disorder

TIP 63

20. I understand that treatment of opioid use disorder involves more than just taking medication. I agree to comply
with my healthcare provider’s recommendations for additional counseling and/or for help with other problems.
21. I understand that there is no ﬁxed time for being on buprenorphine and that the goal of treatment is for me to
stop using all illicit drugs and become successful in all aspects of my life.
22. I understand that I may experience opioid withdrawal symptoms when I stop taking buprenorphine.
23. I have been educated about the other two FDA-approved medications used for opioid dependence treatment,
methadone and naltrexone.
24. I have been educated about the increased chance of pregnancy when stopping illicit opioid use and starting
buprenorphine treatment and been informed about methods for preventing pregnancy.
Other speciﬁc items unique to my treatment include:

Patient’s Name (print): _____________________________________________________
Patient’s Signature: ________________________________________________________ Date: ____________________
This form is adapted from the American Society of Addiction Medicine’s Sample Treatment Agreement, which is
updated periodically; the most current version of the agreement is available online (https://www.asam.org/docs
/default-source/advocacy/sample-treatment-agreement30fa159472bc604ca5b7ff000030b21a.pdf?sfvrsn
=bd4675c2_0).
Adapted with permission.51

5-53

A418

TIP 63

Medications for Opioid Use Disorder

Naltrexone forms
Key Techniques for Reducing Injection Site Reactions52
To reduce severe injection site reactions when administering XR-NTX via intramuscular injection, use
the following techniques:
Use one of the administration needles provided with the XR-NTX kit to ensure that the
injection reaches the gluteal muscle. Use the 2-inch needle for patients who have more subcutaneous adipose tissue. Use the 1.5-inch needle for patients with less subcutaneous adipose tissue.
Either needle is appropriate for use with patients who have average amounts of subcutaneous
adipose tissue.
Use aseptic technique when administering intramuscularly. Using a circular motion, clean the
injection site with an alcohol swab. Let the area dry before administering the injection. Do not
touch this area again before administration.
Use proper deep intramuscular injection technique into the gluteal muscle. XR-NTX must not
be injected intravenously, subcutaneously, or into adipose tissue. Accidental subcutaneous injection
may increase the risk of severe injection site reactions.

− Administer the suspension by deep intramuscular injection into the upper outer quadrant
of gluteal muscle, alternating buttocks per monthly injection.

− Remember to aspirate for blood before injection. If blood aspirates or the needle clogs, do

not inject. Change to the spare needle provided in the package and administer into an adjacent
site in the same gluteal region, again aspirating for blood before injection.
− Inject the suspension in a smooth, continuous motion.
A patient counseling tool is available to help you counsel your patients before administration about
the serious risks associated with XR-NTX.
The above information is a selection of key safety information about the XR-NTX injection. For
complete safety information, refer to the directions for use and the prescribing information provided
in the medication kit. You can also obtain this information online (www.vivitrolrems.com) or by calling
1-800-VIVITROL.
Available online (www.vivitrolrems.com/content/pdf/patinfo-injection-poster.pdf).

5-54

A419

Part 5 of 5—Resources Related to Medications for Opioid Use Disorder

TIP 63

Patient Counseling Tool for XR-NTX

Patient Counseling Tool
VIVITROL (naltrexone for extended-release injectable suspension)
®

Risk of sudden opioid withdrawal during initiation and re-initiation of VIVITROL

Using any type of opioid including street drugs, prescription pain medicines, cough, cold or diarrhea medicines
that contain opioids, or opioid dependence treatments buprenorphine or methadone, in the 7 to 14 days before
starting VIVITROL may cause severe and potentially dangerous sudden opioid withdrawal.

Risk of opioid overdose

Patients may be more sensitive to the effects of lower amounts of opioids:
• After stopping opioids (detoxi cation)

• If a dose of VIVITROL is missed

• When the next VIVITROL dose is due

• After VIVITROL treatment stops

Patients should tell their family and people close to them about the increased sensitivity to opioids and the
risk of overdose even when using lower doses of opioids or amounts that they used before treatment. Using
large amounts of opioids, such as prescription pain pills or heroin, to overcome effects of VIVITROL can lead to
serious injury, coma, and death.

Risk of severe reactions at the injection site

Remind patients of these possible symptoms at the injection site:
• Intense pain

• Blisters

• The area feels hard

• Open wound

• Large areas of swelling

• Dark scab

• Lumps
Some of these injection site reactions have required surgery.
Tell your patients to contact a healthcare provider if they have any reactions at the injection site.

Risk of liver injury, including liver damage or hepatitis

Remind patients of the possible symptoms of liver damage or hepatitis.
• Stomach area pain lasting more than a few days • Yellowing of the whites of eyes
• Dark urine

• Tiredness

Patients may not feel the therapeutic effects of opioid-containing medicines for pain, cough or
cold, or diarrhea while taking VIVITROL.
Patients should carry written information with them at all times to alert healthcare providers that they are
taking VIVITROL, so they can be treated properly in an emergency.
A Patient Wallet Card or Medical Alert Bracelet can be ordered from: 1-800-848-4876, Option #1.
PLEASE SEE PRESCRIBING INFORMATION AND MEDICATION GUIDE.

Alkermes® and VIVITROL® are registered trademarks of Alkermes, Inc.
©2013 Alkermes, Inc.
All rights reserved VIV-001317 Printed in U.S.A

w ww.vivitrol.com

Available online (www.vivitrolrems.com/content/pdf/patinfo-counseling-tool.pdf).
Reprinted with permission.53
5-55

A420

TIP 63

Medications for Opioid Use Disorder

Sample XR-NTX Treatment Agreement
This form is for educational/informational purposes only. It doesn’t establish a legal or medical standard of care.
Healthcare professionals should use their judgment in interpreting this form and applying it in the circumstances
of their individual patients and practice arrangements. The information provided in this form is provided “as is”
with no guarantee as to its accuracy or completeness.

TREATMENT AGREEMENT
I agree to accept the following treatment agreement for extended-release injectable naltrexone ofﬁce-based opioid
use disorder treatment:
1.
2.
3.
4.
5.
6.
7.
8.
9.
10.
11.
12.
13.
14.
15.
16.
17.
18.
19.
20.

The risks and beneﬁts of extended-release injectable naltrexone treatment have been explained to me.
The risks and beneﬁts of other treatment for opioid use disorder (including methadone, buprenorphine, and
nonmedication treatments) have been explained to me.
I will be on time to my appointments and respectful to the ofﬁce staff and other patients.
I will keep my healthcare provider informed of all my medications (including herbs and vitamins) and medical
problems.
I agree not to obtain or take prescription opioid medications prescribed by any other healthcare provider.
If I am going to have a medical procedure that will cause pain, I will let my healthcare provider know in advance
so that my pain will be adequately treated.
If I miss a scheduled appointment for my next extended-release naltrexone injection, I understand that I should
reschedule the appointment as soon as possible because it is important to receive the medication on time to
reduce the risk of opioid overdose should I return to use.
If I come to the ofﬁce intoxicated, I understand that my healthcare provider will not see me.
Violence, threatening language or behavior, or participation in any illegal activity at the ofﬁce will result in
treatment termination from the clinic.
I understand that random urine drug testing is a treatment requirement. If I do not provide a urine sample, it will
count as a positive drug test.
I understand that initially I will have weekly ofﬁce visits until my condition is stable.
I can be seen every 2 weeks in the ofﬁce starting the second month of treatment if I have two negative urine drug
tests in a row.
I may be seen less than every 2 weeks based on goals made by my healthcare provider and me.
I understand that people have died trying to overcome the opioid blockade by taking large amounts of opioids.
I understand that treatment of opioid use disorder involves more than just taking medication. I agree to follow
my healthcare provider’s recommendations for additional counseling and/or for help with other problems.
I understand that there is no ﬁxed time for being on naltrexone and that the goal of treatment is for me to stop
using all illicit drugs and become successful in all aspects of my life.
I understand that my risk of overdose increases if I go back to using opioids after stopping naltrexone.
I have been educated about the other two FDA-approved medications used to treat opioid use disorder,
methadone and buprenorphine, and I prefer to receive treatment with naltrexone.
I have been educated about the increased chance of pregnancy when stopping illicit opioid use and starting
naltrexone treatment and have been informed about methods for preventing pregnancy.
I have been informed that if I become pregnant during naltrexone treatment, I should inform my provider and
have a discussion about the risks and beneﬁts of continuing to take naltrexone.

Other speciﬁc items unique to my treatment include:
Patient Name (print): _____________________________________________________
Patient Signature: ________________________________________________________ Date: ____________________
This form is adapted from ASAM’s Sample Treatment Agreement, which is updated periodically; the most current version of the
agreement is available online (www.asam.org/docs/default-source/advocacy/sample-treatment-agreement30fa159472bc604ca5b7ff0
00030b21a.pdf?sfvrsn=0).
Adapted with permission.54

5-56

A421

Part 5 of 5—Resources Related to Medications for Opioid Use Disorder

Glossary of TIP Terminology
Abuse liability: The likelihood that a medication
with central nervous system activity will cause
desirable psychological effects, such as euphoria
or mood changes, that promote the medication’s
misuse.
Addiction: As deﬁned by ASAM,55 “a primary,
chronic disease of brain reward, motivation,
memory, and related circuitry.” It is characterized
by inability to consistently abstain, impairment
in behavioral control, craving, diminished
recognition of signiﬁcant problems with one’s
behaviors and interpersonal relationships, and
a dysfunctional emotional response. Like other
chronic diseases, addiction often involves cycles
of relapse and remission. The Diagnostic and
Statistical Manual of Mental Disorders, Fifth
Edition56 (DSM-5), does not use the term for
diagnostic purposes, but it commonly describes
the more severe forms of opioid use disorder.
Bioavailability: Proportion of medication
administered that reaches the bloodstream.
Care provider: Encompasses both healthcare
professionals and other professionals who do
not provide medical services, such as counselors
or providers of supportive services. Often
shortened to “provider.”
Cross-tolerance: Potential for people tolerant
to one opioid (e.g., heroin) to be tolerant to
another (e.g., methadone).
Dissociation: Rate at which a drug uncouples
from the receptor. A drug with a longer dissociation rate will have a longer duration of action
than a drug with a shorter dissociation rate.
Half-life: Rate of removal of a drug from the
body. One half-life removes 50 percent from
the plasma. After a drug is stopped, it takes
ﬁve half-lives to remove about 95 percent from
the plasma. If a drug is continued at the same
dose, its plasma level will continue to rise until it
reaches steady state concentrations after about
ﬁve half-lives.

TIP 63

Healthcare professionals: Physicians, nurse
practitioners, physician assistants, and other
medical service professionals who are eligible
to prescribe medications for and treat patients
with OUD. The term “prescribers” also refers
to these healthcare professionals.
Induction: Process of initial dosing with medication for OUD treatment until the patient reaches
a state of stability; also called initiation.
Intrinsic activity: The degree of receptor
activation attributable to drug binding. Full
agonist, partial agonist, and antagonist are
terms that describe the intrinsic activity of a
drug.
Maintenance treatment: Providing medications
to achieve and sustain clinical remission of
signs and symptoms of OUD and support the
individual process of recovery without a speciﬁc
endpoint (as with the typical standard of care
in medical and psychiatric treatment of other
chronic illnesses).
Medically supervised withdrawal (formerly
called detoxiﬁcation): Using an opioid agonist (or
an alpha-2 adrenergic agonist if opioid agonist is
not available) in tapering doses or other medications to help a patient discontinue illicit or
prescription opioids.
Medical management: Process whereby healthcare professionals provide medication, basic
brief supportive counseling, monitoring of drug
use and medication adherence, and referrals,
when necessary, to addiction counseling and
other services to address the patient’s medical,
mental health, comorbid addiction, and psychosocial needs.
Mutual-help groups: Groups of people who
work together on obtaining and maintaining
recovery. Unlike peer support (e.g., the use of
recovery coaches), mutual-help groups consist
entirely of people who volunteer their time and
typically have no ofﬁcial connection to treatment
programs. Most are self-supporting. Although
12-Step groups such as AA and NA are the most

5-57

A422

TIP 63

Medications for Opioid Use Disorder

widespread and well-researched type of mutualhelp groups, other groups may be available in
some areas. They range from groups afﬁliated
with a religion or church (e.g., Celebrate
Recovery, Millati Islami) to purely secular groups
(e.g., SMART Recovery, Women for Sobriety).
Ofﬁce-based opioid treatment (OBOT):
Providing medication for OUD in settings other
than certiﬁed OTPs.
Opiates: A subclass of opioids derived from
opium (e.g., morphine, codeine, thebaine).
Opioid misuse: The use of prescription opioids
in any way other than as directed by a prescriber;
the use of any opioid in a manner, situation,
amount, or frequency that can cause harm to self
or others.57
Opioid receptor agonist: A substance that
has an afﬁnity for and stimulates physiological
activity at cell receptors in the central nervous
system that are normally stimulated by opioids.
Mu-opioid receptor full agonists (e.g.,
methadone) bind to the mu-opioid receptor and
produce actions similar to those produced by the
endogenous opioid beta-endorphin. Increasing
the dose increases the effect. Mu-opioid
receptor partial agonists (e.g., buprenorphine)
bind to the mu-opioid receptor. Unlike with full
agonists, increasing their dose may not produce
additional effects once they have reached their
maximal effect. At low doses, partial agonists
may produce effects similar to those of full
agonists.

Opioids: All natural, synthetic, and semisynthetic
substances that have effects similar to morphine.
They can be used as medications having such
effects (e.g., methadone, buprenorphine,
oxycodone).
Opioid treatment program (OTP): An
accredited treatment program with SAMHSA
certiﬁcation and DEA registration to administer
and dispense opioid agonist medications that
are approved by FDA to treat opioid addiction.
Currently, these include methadone and
buprenorphine products. Other pharmacotherapies, such as naltrexone, may be provided but
are not subject to these regulations. OTPs must
provide adequate medical, counseling, vocational, educational, and other assessment and
treatment services either onsite or by referral
to an outside agency or practitioner through a
formal agreement.58
Opioid use disorder (OUD): Per DSM-5,59
a disorder characterized by loss of control
of opioid use, risky opioid use, impaired
social functioning, tolerance, and withdrawal.
Tolerance and withdrawal do not count toward
the diagnosis in people experiencing these
symptoms when using opioids under appropriate
medical supervision. OUD covers a range of
severity and replaces what the DSM-IV termed
“opioid abuse” and “opioid dependence.” An
OUD diagnosis is applicable to a person who
uses opioids and experiences at least 2 of the
11 symptoms in a 12-month period. (See Exhibit
2.11 in Part 2 for full DSM-5 diagnostic criteria
for OUD.)

Opioid receptor antagonist: A substance that
has an afﬁnity for opioid receptors in the central
nervous system without producing the physiological effects of opioid agonists. Mu-opioid
receptor antagonists (e.g., naltrexone) can block
the effects of exogenously administered opioids.

Peer support: The use of peer support specialists in recovery to provide nonclinical (i.e.,
not requiring training in diagnosis or treatment)
recovery support services to individuals in
recovery from addiction and to their families.

Opioid receptor blockade: Blunting or blocking
of the euphoric effects of an opioid through
opioid receptor occupancy by an opioid agonist
(e.g., methadone, buprenorphine) or antagonist
(e.g., naltrexone).

Peer support specialist: Someone in recovery
who has lived experience in addiction plus skills
learned in formal training. Peer support specialists may be paid professionals or volunteers.
They are distinguished from members of mutual-

5-58

A423

Part 5 of 5—Resources Related to Medications for Opioid Use Disorder

Recovery capital: The sum of the internal (e.g.,
motivation, self-efﬁcacy, spirituality) and external
(e.g., access to health care, employment, family
support) resources that an individual can draw on
to begin and sustain recovery from SUDs.

help groups because they maintain contact
with treatment staff. They offer experiential
knowledge that treatment staff often lack.
Prescribers: Healthcare professionals who are
eligible to prescribe medications for OUD.
Psychosocial support: Ancillary services to
enhance a patient’s overall functioning and
well-being, including recovery support services,
case management, housing, employment, and
educational services.
Psychosocial treatment: Interventions that
seek to enhance a patient’s social and mental
functioning, including addiction counseling,
contingency management, and mental health
services.
Receptor afﬁnity: Strength of the bond
between a medication and its receptor. A
medication with high mu-opioid receptor afﬁnity
requires lower concentrations to occupy the
same number of mu-opioid receptors as a drug
with lower mu-opioid receptor afﬁnity. Drugs
with high mu-opioid receptor afﬁnity may
displace drugs with lower afﬁnity.
Recovery: A process of change through which
individuals improve their health and wellness,
live a self-directed life, and strive to reach their
full potential. Even individuals with severe and
chronic SUDs can, with help, overcome their
SUDs and regain health and social function.
Although abstinence from all substance misuse
is a cardinal feature of a recovery lifestyle, it is
not the only healthy, prosocial feature. Patients
taking FDA-approved medication to treat OUD
can be considered in recovery.

TIP 63

Recovery-oriented care: A service orientation
that supports individuals with behavioral health
conditions in a process of change through which
they can improve their health and wellness, live
self-directed lives, and strive to reach their full
potential.
Relapse: A process in which a person with OUD
who has been in remission experiences a return
of symptoms or loss of remission. A relapse is
different from a return to opioid use in that
it involves more than a single incident of use.
Relapses occur over a period of time and can be
interrupted. Relapse need not be long lasting.
The TIP uses relapse to describe relapse prevention, a common treatment modality.
Remission: A medical term meaning a
disappearance of signs and symptoms of the
disease.60 DSM-5 deﬁnes remission as present in
people who previously met OUD criteria but no
longer meet any OUD criteria (with the possible
exception of craving).61 Remission is an essential
element of recovery.
Return to opioid use: One or more instances
of opioid misuse without a return of symptoms
of OUD. A return to opioid use may lead to
relapse.
Tolerance: Alteration of the body’s responsiveness to alcohol or other drugs (including opioids)
such that higher doses are required to produce
the same effect achieved during initial use. See
also medically supervised withdrawal.

5-59

A424

TIP 63

Medications for Opioid Use Disorder

Notes
1

Centers for Disease Control and Prevention. (2017).
Drug overdose death data. Retrieved January 9, 2018,
from www.cdc.gov/drugoverdose/data/statedeaths
.html

2

National Safety Council. (2017). NSC motor vehicle
fatality estimates. Retrieved October 31, 2017, from
www.nsc.org/NewsDocuments/2017/12-month
-estimates.pdf

3

Babor, T. F., Higgins-Biddle, J. C., Saunders, J. B., &
Monteiro, M. G. (2001). The Alcohol Use Disorders
Identiﬁcation Test. Guidelines for use in primary care
(2nd ed.). Geneva, Switzerland: The World Health
Organization.

4

13 McNeely, J., Wu, L. T., Subramaniam, G., Sharma, G.,
Cathers, L. A., Svikis, D., … Schwartz, R. P. (2016).
Performance of the Tobacco, Alcohol, Prescription
Medication, and Other Substance Use (TAPS) Tool
for substance use screening in primary care patients.
Annals of Internal Medicine, 165(10), 690–699.
14 Tiet, Q. Q., Leyva, Y. E., Moos, R. H., Frayne, S. M.,
Osterberg, L., & Smith, B. (2015). Screen of drug use:
Diagnostic accuracy of a new brief tool for primary
care. JAMA Internal Medicine, 175(8), 1371–1377.

Bush, K., Kivlahan, D. R., McDonell, M. B., Fihn, S. D., &
Bradley, K. A. (1998). The AUDIT alcohol consumption
questions (AUDIT-C): An effective brief screening
test for problem drinking. Ambulatory Care Quality
Improvement Project (ACQUIP). Alcohol Use Disorders
Identiﬁcation Test. Archives of Internal Medicine,
158(16), 1789–1795.

5

Skinner, H. A. (1982). The Drug Abuse Screening Test.
Addictive Behavior, 7(4), 363–371.

6

Yudko, E., Lozhkina, O., & Fouts, A. (2007). A
comprehensive review of the psychometric properties
of the Drug Abuse Screening Test. Journal of
Substance Abuse Treatment, 32, 189–198.

7

American Psychiatric Association. (2013). Diagnostic
and statistical manual of mental disorders (5th ed., p.
541). Arlington, VA: American Psychiatric Publishing.

8

Heatherton, T. F., Kozlowski, L. T., Frecker, R. C.,
Rickert, W., & Robinson, J. (1989). Measuring the
heaviness of smoking: Using self-reported time to the
ﬁrst cigarette of the day and number of cigarettes
smoked per day. British Journal of Addiction, 84(7),
791–799.

9

12 Shapiro, B., Coffa, D., & McCance-Katz, E. F. (2013). A
primary care approach to substance misuse. American
Family Physician, 88(2), 113–121.

15 Lynch, K. (2014). San Francisco General Hospital
laboratory protocol. San Francisco, CA: San Francisco
General Hospital.
16 Warner, E., & Lorch, E. (2014). Laboratory diagnosis.
In R. K. Ries, D. A. Fiellin, S. C. Miller, & R. Saitz (Eds.),
Principles of addiction medicine (5th ed., pp. 332–343).
Philadelphia, PA: Wolters Kluwer.
17 Milone, M. C. (2012). Laboratory testing for
prescription opioids. Journal of Medical Toxicology,8(4),
408–416. doi:10.1007/s13181-012-0274-7
18 Leavitt, S. B., Shinderman, M., Maxwell, S., Eap, C. B.,
& Paris, P. (2000). When “enough” is not enough: New
perspectives on optimal methadone maintenance dose.
Mount Sinai Journal of Medicine, 67(5–6), 404–411.
19 American Society of Addiction Medicine. (2016).
Sample ofﬁce-based opioid use disorder policy and
procedure manual. Retrieved October 19, 2017, from
www.asam.org/docs/default-source/advocacy/sample
-diversion-policy.pdf?sfvrsn=0
20 Roxane Laboratories. (2015). Buprenorphine HCl
sublingual tablets: Full prescribing information.
Retrieved October 16, 2017, from http://dailymed.nlm
.nih.gov/dailymed/drugInfo.cfm?setid=1bf8b35a
-b769-465c-a2f8-099868dfcd2f

Smith, P. C., Schmidt, S. M., Allensworth-Davies, D.,
& Saitz, R. (2009). Primary care validation of a singlequestion alcohol screening test. Journal of General
Internal Medicine, 24(7), 783–788. doi:10.1007/
s11606-009-0928-6

10 Substance Abuse and Mental Health Services
Administration. (2016). SAMHSA opioid overdose
prevention toolkit. HHS Publication No. (SMA) 16-4742.
Rockville, MD: Substance Abuse and Mental Health
Services Administration.
11 Smith, P. C., Schmidt, S. M., Allensworth-Davies, D.,
& Saitz, R. (2010). A single-question screening test for
drug use in primary care. Archives of Internal Medicine,
170(13), 1155–1160.

21 Roxane Laboratories. (2015). Buprenorphine HCl
sublingual tablets: Full prescribing information.
Retrieved October 16, 2017, from http://dailymed.nlm
.nih.gov/dailymed/drugInfo.cfm?setid=1bf8b35a
-b769-465c-a2f8-099868dfcd2f
22 Nasser, A. F., Heidbreder, C., Liu, Y., & Fudala, P. J.
(2015). Pharmacokinetics of sublingual buprenorphine
and naloxone in subjects with mild to severe hepatic
impairment (Child-Pugh classes A, B, and C), in
hepatitis C virus-seropositive subjects, and in healthy
volunteers. Clinical Pharmacokinetics, 54(8), 837–849.
23 Durand, F., & Valla, D. (2008). Assessment of prognosis
of cirrhosis. Seminars in Liver Disease, 28(1), 110–122.

5-60

A425

Part 5 of 5—Resources Related to Medications for Opioid Use Disorder

24 Durand, F., & Valla, D. (2008). Assessment of prognosis
of cirrhosis. Seminars in Liver Disease, 28(1), 110–122.
25 Indivior. (2015). Suboxone (buprenorphine and
naloxone) sublingual ﬁlm: Full prescribing information.
Retrieved October 16, 2017, from www.suboxone.com
/content/pdfs/prescribing-information.pdf
26 Nasser, A. F., Heidbreder, C., Liu, Y., & Fudala, P. J.
(2015). Pharmacokinetics of sublingual buprenorphine
and naloxone in subjects with mild to severe hepatic
impairment (Child-Pugh classes A, B, and C), in
hepatitis C virus-seropositive subjects, and in healthy
volunteers. Clinical Pharmacokinetics, 54(8), 837–849.
27 Roxane Laboratories. (2015). Buprenorphine HCl
sublingual tablets: Full prescribing information.
Retrieved October 16, 2017, from http://dailymed.nlm
.nih.gov/dailymed/drugInfo.cfm?setid=1bf8b35a
-b769-465c-a2f8-099868dfcd2f
28 Indivior. (2015). Suboxone (buprenorphine and
naloxone) sublingual ﬁlm: Full prescribing information.
Retrieved October 16, 2017, from www.suboxone.com
/content/pdfs/prescribing-information.pdf
29 Nasser, A. F., Heidbreder, C., Liu, Y., & Fudala, P. J.
(2015). Pharmacokinetics of sublingual buprenorphine
and naloxone in subjects with mild to severe hepatic
impairment (Child-Pugh classes A, B, and C), in
hepatitis C virus-seropositive subjects, and in healthy
volunteers. Clinical Pharmacokinetics, 54(8), 837–849.
30 Durand, F., & Valla, D. (2008). Assessment of prognosis
of cirrhosis. Seminars in Liver Disease, 28(1), 110–122.
31 Nasser, A. F., Heidbreder, C., Liu, Y., & Fudala, P. J.
(2015). Pharmacokinetics of sublingual buprenorphine
and naloxone in subjects with mild to severe hepatic
impairment (Child-Pugh classes A, B, and C), in
hepatitis C virus-seropositive subjects, and in healthy
volunteers. Clinical Pharmacokinetics, 54(8), 837–849.
32 Roxane Laboratories. (2015). Buprenorphine HCl
sublingual tablets: Full prescribing information.
Retrieved October 16, 2017, from http://dailymed.nlm
.nih.gov/dailymed/drugInfo.cfm?setid=1bf8b35a
-b769-465c-a2f8-099868dfcd2f
33 Nasser, A. F., Heidbreder, C., Liu, Y., & Fudala, P. J.
(2015). Pharmacokinetics of sublingual buprenorphine
and naloxone in subjects with mild to severe hepatic
impairment (Child-Pugh classes A, B, and C), in
hepatitis C virus-seropositive subjects, and in healthy
volunteers. Clinical Pharmacokinetic, 54(8), 837–849.
34 Substance Abuse and Mental Health Services
Administration. (2016). Sublingual and transmucosal
buprenorphine for opioid use disorder: Review
and update. Advisory, Vol. 15, Issue 1. Rockville,
MD: Substance Abuse and Mental Health Services
Administration.

TIP 63

35 Donovan, D. M., Ingalsbe, M. H., Benbow, J., & Daley,
D. C. (2013). 12-step interventions and mutual support
programs for substance use disorders: An overview.
Social Work in Public Health, 28(3–4), 313–332.
36 McLellan, A. T., & White, W. (2012). Opioid
maintenance and recovery-oriented systems of care: It
is time to integrate (p. 2). London, England: National
Treatment Agency for Substance Misuse.
37 Substance Abuse and Mental Health Services
Administration. (2016). Pocket guide: Medicationassisted treatment of opioid use disorder. HHS
Publication No. (SMA) 16-4892PG. Rockville, MD:
Substance Abuse and Mental Health Services
Administration.
38 Substance Abuse and Mental Health Services
Administration. (2015). Clinical use of extended-release
injectable naltrexone in the treatment of opioid use
disorder: A brief guide. HHS Publication No. (SMA)
14-4892R. Rockville, MD: Substance Abuse and Mental
Health Services Administration.
39 Mattick, R. P., Breen, C., Kimber, J., & Davoli, M.
(2014). Buprenorphine maintenance versus placebo
or methadone maintenance for opioid dependence.
Cochrane Database of Systematic Reviews, 2014(2),
1–84.
40 Mattick, R. P., Breen, C., Kimber, J., & Davoli, M. (2009).
Methadone maintenance therapy versus no opioid
replacement therapy for opioid dependence. Cochrane
Database of Systematic Reviews, 2009(3), 1–19.
41 Minozzi, S., Amato, L., Vecchi, S., Davoli, M.,
Kirchmayer, U., & Verster, A. (2011). Oral naltrexone
maintenance treatment for opioid dependence.
Cochrane Database Systems Review, 4, CD001333.
42 Krupitsky, E., Zvartau, E., Blokhina, E., Verbitskaya,
E., Wahlgren, V., Tsoy-Podosenin, M., … Woody, G.
E. (2012.) Randomized trial of long-acting sustainedrelease naltrexone implant vs oral naltrexone or
placebo for preventing relapse to opioid dependence.
Archives of General Psychiatry, 69(9), 973–981.
43 Lee, J. D., Friedmann, P. D., Kinlock, T. W., Nunes, E.
V., Boney, T. Y., Hoskinson, R. A., Jr., … O’Brien, C. P.
(2016). Extended-release naltrexone to prevent opioid
relapse in criminal justice offenders. New England
Journal of Medicine, 374(13), 1232–1242.
44 Minozzi, S., Amato, L., Vecchi, S., Davoli, M.,
Kirchmayer, U., & Verster, A. (2011). Oral naltrexone
maintenance treatment for opioid dependence.
Cochrane Database of Systematic Reviews, 2,
CD001333.
45 Substance Abuse and Mental Health Services
Administration. (2016). Sublingual and transmucosal
buprenorphine for opioid use disorder: Review
and update. Advisory, Vol. 15, Issue 1. Rockville,
MD: Substance Abuse and Mental Health Services
Administration.

5-61

A426

TIP 63

Medications for Opioid Use Disorder

46 Lintzeris, N., & Nielsen, S. (2010). Benzodiazepines,
methadone and buprenorphine: Interactions and
clinical management. American Journal on Addictions,
19(1), 59–72.

53 Alkermes. (2013). Patient counseling tool: VIVITROL
(naltrexone for extended-release injectable suspension).
Retrieved January 9, 2018, from www.vivitrolrems.com
/content/pdf/patinfo-counseling-tool.pdf

47 Substance Abuse and Mental Health Services
Administration. (2015). Federal guidelines for opioid
treatment programs. HHS Publication No. (SMA)
PEP15-FEDGUIDEOTP. Rockville, MD: Substance Abuse
and Mental Health Services Administration.

54 American Society of Addiction Medicine. (2017).
Sample treatment agreement. Retrieved October 19,
2017, from www.asam.org/docs/default-source
/advocacy/sample-treatment-agreement30fa159472bc
604ca5b7ff000030b21a.pdf?sfvrsn=0

48 Lofwall, M. & Walsh, S. (2014). A review of
buprenorphine diversion and misuse: The current
evidence base and experiences from around the world
(p. 316). Journal of Addiction Medicine, 8(5), 315–326.

55 American Society of Addiction Medicine. (2011).
Deﬁnition of addiction. Retrieved October 30, 2017,
from www.asam.org/resources/deﬁnition-of-addiction

49 American Society of Addiction Medicine. (2016).
Sample ofﬁce-based opioid use disorder policy and
procedure manual. Retrieved October 19, 2017, from
www.asam.org/docs/default-source/advocacy/sample
-diversion-policy.pdf?sfvrsn=0

57 Department of Health and Human Services, Ofﬁce
of the Surgeon General. (2016). Facing addiction in
America: The Surgeon General’s report on alcohol,
drugs, and health. Washington, DC: Department of
Health and Human Services.

50 Food and Drug Administration (2017, May).
Appropriate use checklist: Buprenorphine-containing
transmucosal products for opioid dependence. Silver
Spring, MD: Food and Drug Administration.
51 American Society of Addiction Medicine. (2017).
Sample treatment agreement. Retrieved October
19, 2017, from www.asam.org/docs/default-source
/advocacy/sample-treatment-agreement30fa159472bc
604ca5b7ff000030b21a.pdf?sfvrsn=0
52 Alkermes. (2015). Key techniques to reduce severe
injection site reactions: VIVITROL (naltrexone for
extended release injectable suspension) intramuscular
injection. Retrieved January 9, 2018, from www
.vivitrolrems.com/content/pdf/patinfo-injection
-poster.pdf

56 American Psychiatric Association. (2013). Diagnostic
and statistical manual of mental disorders (5th ed.).
Arlington, VA: American Psychiatric Publishing.

58 Substance Abuse and Mental Health Services
Administration. (2015). Federal guidelines for opioid
treatment programs. HHS Publication No. (SMA)
PEP15-FEDGUIDEOTP. Rockville, MD: Substance Abuse
and Mental Health Services Administration.
59 American Psychiatric Association. (2013). Diagnostic
and statistical manual of mental disorders (5th ed.).
Arlington, VA: American Psychiatric Publishing.
60 National Cancer Institute. (n.d.). NCI dictionary of
cancer terms: Remission. Retrieved November 22,
2017, from www.cancer.gov/publications/dictionaries
/cancer-terms?cdrid=45867
61 American Psychiatric Association. (2013). Diagnostic
and statistical manual of mental disorders (5th ed.).
Arlington, VA: American Psychiatric Publishing.

5-62

A427

Available TIPs
TIPs may be ordered or downloaded for free from SAMHSA’s Publications Ordering webpage at https://
store.samhsa.gov. Or, please call SAMHSA at 1-877-SAMHSA-7 (1-877-726-4727) (English and Español).
TIP 21 Combining Alcohol and Other Drug Abuse
Treatment With Diversion for Juveniles in the
Justice System
TIP 24 A Guide to Substance Abuse Services for
Primary Care Clinicians

TIP 45 Detoxiﬁcation and Substance Abuse
Treatment
TIP 46 Substance Abuse: Administrative Issues in
Outpatient Treatment
TIP 47 Substance Abuse: Clinical Issues in Intensive
Outpatient Treatment

TIP 27 Comprehensive Case Management for
Substance Abuse Treatment

TIP 48 Managing Depressive Symptoms in
Substance Abuse Clients During Early
Recovery

TIP 29 Substance Use Disorder Treatment for
People With Physical and Cognitive
Disabilities
TIP 30 Continuity of Offender Treatment for
Substance Use Disorders From Institution to
Community
TIP 31 Screening and Assessing Adolescents for
Substance Use Disorders

TIP 49 Incorporating Alcohol Pharmacotherapies
Into Medical Practice
TIP 50 Addressing Suicidal Thoughts and Behaviors
in Substance Abuse Treatment
TIP 51 Substance Abuse Treatment: Addressing the
Speciﬁc Needs of Women

TIP 32 Treatment of Adolescents With Substance
Use Disorders
TIP 33 Treatment for Stimulant Use Disorders

TIP 52 Clinical Supervision and Professional
Development of the Substance Abuse
Counselor

TIP 34 Brief Interventions and Brief Therapies for
Substance Abuse

TIP 53 Addressing Viral Hepatitis in People With
Substance Use Disorders

TIP 35 Enhancing Motivation for Change in
Substance Abuse Treatment

TIP 54 Managing Chronic Pain in Adults With or in
Recovery From Substance Use Disorders

TIP 36 Substance Abuse Treatment for Persons
With Child Abuse and Neglect Issues

TIP 55 Behavioral Health Services for People Who
Are Homeless

TIP 37 Substance Abuse Treatment for Persons
With HIV/AIDS

TIP 56 Addressing the Speciﬁc Behavioral Health
Needs of Men

TIP 38 Integrating Substance Abuse Treatment and
Vocational Services

TIP 57 Trauma-Informed Care in Behavioral Health
Services

TIP 39 Substance Abuse Treatment and Family
Therapy

TIP 58 Addressing Fetal Alcohol Spectrum
Disorders (FASD)

TIP 41 Substance Abuse Treatment: Group Therapy

TIP 59 Improving Cultural Competence

TIP 42 Substance Abuse Treatment for Persons
With Co-Occurring Disorders

TIP 60 Using Technology-Based Therapeutic Tools
in Behavioral Health Services

TIP 44 Substance Abuse Treatment for Adults in the
Criminal Justice System

TIP 63 Medications for Opioid Use Disorder

Upcoming TIPs
TIP 61 Behavioral Health Services for American
Indians and Alaska Natives

TIP 62 Relapse Prevention and Recovery Promotion
in Behavioral Health Services

A428

A429

A430

A431

BUPRENORPHINE: A GUIDE FOR NURSES

Technical Assistance Publication (TAP) Series

30

8 6 '(3$570(17 2) +($/7+ $1' +80$1 6(59,&(6
6XEVWDQFH $EXVH DQG 0HQWDO +HDOWK 6HUYLFHV $GPLQLVWUDWLRQ
&HQWHU IRU 6XEVWDQFH $EXVH 7UHDWPHQW
&KRNH &KHUU\ 5RDG
5RFNYLOOH 0'

A432

A433

Acknowledgments
7KLV UHSRUW ZDV SUHSDUHG IRU WKH
6XEVWDQFH $EXVH DQG 0HQWDO +HDOWK
6HUYLFHV $GPLQLVWUDWLRQ 6$0+6$ E\
/7-* 6DUD $]LPL %RORXULDQ % 6 1
0 6 1 0 + $ 0 % $ &HQWHU IRU
6XEVWDQFH $EXVH 7UHDWPHQW &6$7
DQG .DWKHULQH )RUQLOL 0 3 + 5 1
& $ 5 1 8QLYHUVLW\ RI 0DU\ODQG
6FKRRO RI 1XUVLQJ $EW $VVRFLDWHV ,QF
SURYLGHG HGLWRULDO DQG SURGXFWLRQ
DVVLVWDQFH XQGHU FRQWUDFW WDVN RUGHU
QXPEHU
8 6 'HSDUWPHQW
RI +HDOWK DQG +XPDQ 6HUYLFHV ++6
6$0+6$ .DWKOHHQ 7KRPSVRQ
*DUJDQR 5 1 DQG &ROOHHQ /D%HOOH
5 1 SURYLGHG H[SHUW QXUVH UHYLHZ
5D\PRQG ' +\OWRQ -U 5 1 0 6 1
&6$7 HGLWHG WKLV SXEOLFDWLRQ DQG
0U +\OWRQ DQG 0LFKHOH :HVWEURRN
VHUYHG DV &6$7 V *RYHUQPHQW 3URMHFW
2IILFHUV 6$0+6$ UHYLHZHUV SURYLGHG
H[SHUW FRQWHQW UHYLHZ
5REHUW /XEUDQ 0 6 0 3 $ &6$7
1LFKRODV 5HXWHU 0 3 + &6$7
&$37 0HOLVVD 5DHO 0 3 $ 5 1
% 6 1 &6$7

Disclaimer
7KH YLHZV RSLQLRQV DQG FRQWHQW RI
WKLV SXEOLFDWLRQ DUH WKRVH RI WKH
DXWKRUV DQG GR QRW QHFHVVDULO\ UHIOHFW
WKH YLHZV RSLQLRQV RU SROLFLHV RI
6$0+6$ RU DQ\ RWKHU SDUW RI ++6

Electronic Access and Copies
of Publication
7KLV SXEOLFDWLRQ PD\ EH DFFHVVHG
HOHFWURQLFDOO\ WKURXJK WKH IROORZLQJ
,QWHUQHW :RUOG :LGH :HE FRQQHFWLRQ
KWWS ZZZ NDS VDPKVD JRY )RU
DGGLWLRQDO IUHH FRSLHV RI WKLV GRFXPHQW
SOHDVH FDOO 6$0+6$ V 1DWLRQDO
&OHDULQJKRXVH IRU $OFRKRO DQG 'UXJ
,QIRUPDWLRQ DW
RU
77' RU YLVLW
KWWS ZZZ QFDGL VDPKVD JRY

Recommended Citation
&HQWHU IRU 6XEVWDQFH $EXVH
7UHDWPHQW %XSUHQRUSKLQH $ *XLGH
IRU 1XUVHV
'++6 3XE 1R
60$
5RFNYLOOH 0'
6XEVWDQFH $EXVH DQG 0HQWDO +HDOWK
6HUYLFHV $GPLQLVWUDWLRQ

Originating Office
'LYLVLRQ RI 3KDUPDFRORJLF 7KHUDSLHV
&HQWHU IRU 6XEVWDQFH $EXVH
7UHDWPHQW 6XEVWDQFH $EXVH DQG
0HQWDO +HDOWK 6HUYLFHV
$GPLQLVWUDWLRQ &KRNH &KHUU\ 5RDG
5RFNYLOOH 0'
'++6 3XEOLFDWLRQ 1R 60$
3ULQWHG

Public Domain Notice
$OO PDWHULDO DSSHDULQJ LQ WKLV GRFXPHQW
LV LQ WKH SXEOLF GRPDLQ DQG PD\ EH
UHSURGXFHG RU FRSLHG ZLWKRXW
SHUPLVVLRQ IURP 6$0+6$ &LWDWLRQ RI
WKH VRXUFH LV DSSUHFLDWHG +RZHYHU WKLV
SXEOLFDWLRQ PD\ QRW EH UHSURGXFHG RU
GLVWULEXWHG IRU D IHH ZLWKRXW WKH VSHFLILF
ZULWWHQ DXWKRUL]DWLRQ RI WKH 2IILFH RI
&RPPXQLFDWLRQV 6$0+6$ ++6

A434

A435

Contents
Introduction ................................................................................................................ 1
Purpose of This Guide .............................................................................................. 1
Learning Objectives.................................................................................................. 1
Background ................................................................................................................. 3
Data 2000: Legislative Authority for Buprenorphine Treatment .......................... 3
Physicians’ Qualifications ................................................................................... 3
Buprenorphine and the Role of the Nurse ........................................................... 7
Buprenorphine Pharmacology ................................................................................ 9
General Opioid Pharmacology ................................................................................. 9
Opioid Receptors ................................................................................................. 9
The Functions of Opioids at Receptors .............................................................. 9
Full Agonists ....................................................................................................... 9
Antagonists.......................................................................................................... 9
Partial Agonists................................................................................................... 9
Consequences of Repeated Administration and Withdrawal of Opioid
Drugs .............................................................................................................. 10
Spontaneous Withdrawal ................................................................................. 10
Precipitated Withdrawal .................................................................................. 10
Affinity, Intrinsic Activity, and Dissociation ................................................... 11
Characteristics of Abused Drugs ...................................................................... 11
Pharmacological Properties ................................................................................... 12
Monotherapy and Combination Therapy .............................................................. 12
Dosing ..................................................................................................................... 12
Abuse Potential ...................................................................................................... 13
Safety Profile .......................................................................................................... 13
Pregnancy ............................................................................................................... 14
Adverse Effects ....................................................................................................... 15
Interactions, Cautions, and Contraindications ..................................................... 15
Allergic Reactions ............................................................................................. 16
Cost and Supply...................................................................................................... 17
Buprenorphine Treatment Protocols—Office-Based Treatment .................. 19
Medically Supervised Withdrawal (Opioid Detoxification With
Buprenorphine) .................................................................................................... 19
Classifications of Medically Supervised Withdrawal ........................................... 21
Maintenance Treatment......................................................................................... 21

v

A436

Buprenorphine: A Guide for Nurses

Precipitated Withdrawal and Withdrawal Symptoms ..................................... 25
Avoiding Precipitated Withdrawal ........................................................................ 25
Assessment of Withdrawal Symptoms .................................................................. 25
Helping Patients Manage Mild Withdrawal Symptoms ....................................... 26
Tapering .................................................................................................................. 27
Self-Management of Mild Withdrawal Symptoms With Over-the-Counter or
Prescription Medications ..................................................................................... 27
Management of Patients With Co-Occurring Pain ............................................... 27
Pain Assessment ............................................................................................... 28
Multimodal Approach to the Treatment of Pain ............................................. 28
Management of Acute Pain in Patients on Buprenorphine Maintenance
Therapy ........................................................................................................... 29
Physicians’ and Patients’ Responsibilities ......................................................... 31
Nurses’ Responsibilities ......................................................................................... 33
Nursing Practice and the Use of Buprenorphine for the Treatment of
Opioid Addiction ................................................................................................... 35
Screening and Assessment..................................................................................... 35
Diagnosis of Opioid-Related Disorders .................................................................. 37
Determining Appropriateness for Buprenorphine Treatment ............................. 38
Treatment Planning ............................................................................................... 38
Ongoing Treatment Monitoring ............................................................................. 39
Counseling and Referral for Psychosocial Treatment .......................................... 40
Treatment Retention and Relapse Prevention...................................................... 41
Confidentiality and Privacy .................................................................................. 43
Title 42 Code of Federal Regulations, Part 2, Subpart C—Disclosures With
Patient’s Consent ................................................................................................. 43
For More Information ............................................................................................. 45
Resources for Buprenorphine Training Sessions ............................................. 47
Appendix A: Buprenorphine Physician and Treatment Program
Locator ..................................................................................................................... 49
Appendix B: Clinical Guideline Algorithms .......................................................
Appendix C: Screening Instruments .................................................................... 6
Appendix D: Assessment Instruments .................................................................
Appendix E: References .......................................................................................... 9

vi

A437

Introduction
Purpose of This Guide

Learning Objectives

7KLV JXLGH LV LQWHQGHG WR SURYLGH
QXUVHV LQFOXGLQJ 5HJLVWHUHG 1XUVHV
51V /LFHQVHG 3UDFWLFDO 1XUVHV
/31V DQG 1XUVH 3UDFWLWLRQHUV
13V ZLWK JHQHUDO LQIRUPDWLRQ DERXW
EXSUHQRUSKLQH SURGXFWV³6XER[RQHŠ
EXSUHQRUSKLQH DQG QDOR[RQH DQG
6XEXWH[Š EXSUHQRUSKLQH ³IRU WKH
SKDUPDFRORJLFDO WUHDWPHQW RI RSLRLG
DGGLFWLRQ 7KH JXLGH FDQ DOVR VHUYH DV
D UHVRXUFH WR KHOS QXUVHV ZRUNLQJ ZLWK
FRPPXQLW\ SK\VLFLDQV WR LPSURYH
WUHDWPHQW RXWFRPHV IRU LQGLYLGXDOV
UHFHLYLQJ RIILFH EDVHG WUHDWPHQW IRU
RSLRLG DGGLFWLRQ

7KH JXLGH LV LQWHQGHG WR IXOILOO WKH
IROORZLQJ REMHFWLYHV
7R SURYLGH QXUVHV ZLWK JHQHUDO
LQIRUPDWLRQ RQ WKH SKDUPDFRORJ\
VDIHW\ SURILOH DGYHUVH HIIHFWV
LQWHUDFWLRQV FDXWLRQV
FRQWUDLQGLFDWLRQV DQG DEXVH
SRWHQWLDO RI EXSUHQRUSKLQH
SURGXFWV QRWH 6XER[RQHŠ DQG
6XEXWH[Š DUH WKH UHJLVWHUHG QDPHV
RI WKHVH SURGXFWV
7R LQFUHDVH QXUVHV· IDFWXDO
NQRZOHGJH RQ SURWRFROV IRU WKH XVH
RI EXSUHQRUSKLQH SURGXFWV LQ
PHGLFDOO\ VXSHUYLVHG ZLWKGUDZDO
GHWR[LILFDWLRQ DQG PDLQWHQDQFH
WUHDWPHQW VHUYLFHV

3URYLGLQJ FRPSUHKHQVLYH VHUYLFHV LQ
FRQMXQFWLRQ ZLWK PHGLFDWLRQ LV WKH
PRVW HIIHFWLYH PHWKRG RI WUHDWLQJ
RSLRLG DGGLFWLRQ ,W LV LPSRUWDQW WKDW
EXSUHQRUSKLQH EH DGPLQLVWHUHG LQ
FRQMXQFWLRQ ZLWK EHKDYLRUDO WKHUDS\
DQG SV\FKRVRFLDO VXSSRUW WR HQVXUH
PHGLFDWLRQ FRPSOLDQFH DQG WR LQFUHDVH
SDWLHQW IXQFWLRQLQJ 1$$'$&
7KH XOWLPDWH VXFFHVV RI EXSUHQRUSKLQH
ZLOO GHSHQG RQ LWV LQWHJUDWLRQ LQWR D
EURDGHU FRQWLQXXP RI KHDOWK FDUH
VHUYLFHV WKDW LQFOXGHV FRXQVHOLQJ IRU
SDWLHQWV ZLWK VXEVWDQFH XVH GLVRUGHUV

7R KHOS QXUVHV LQ FRQMXQFWLRQ ZLWK
DXWKRUL]HG SK\VLFLDQV GHVLJQ
VWUDWHJLHV IRU SURYLGLQJ
FRPSUHKHQVLYH SK\VLFDO DQG
SV\FKRVRFLDO DVVHVVPHQWV
WUHDWPHQW PRQLWRULQJ DQG
DSSURSULDWH UHIHUUDO IRU RSLRLG
DGGLFWLRQ DQG FR RFFXUULQJ PHGLFDO
DQG SV\FKLDWULF FRQGLWLRQV
7R SURYLGH FRPSUHKHQVLYH DQG
SUDFWLFDO JXLGDQFH IRU SDWLHQW
VFUHHQLQJ DVVHVVPHQW LQGXFWLRQ
VWDELOL]DWLRQ DQG SUHYHQWLRQ RI
SUHFLSLWDWHG ZLWKGUDZDO LQ
PHGLFDOO\ VXSHUYLVHG ZLWKGUDZDO
´GHWR[LILFDWLRQµ RU PDLQWHQDQFH
WUHDWPHQW VHUYLFHV

1XUVHV LQ DOO VHWWLQJV PD\ EH FDOOHG
XSRQ WR ZRUN ZLWK LQGLYLGXDOV
XQGHUJRLQJ WUHDWPHQW IRU RSLRLG
DGGLFWLRQ ZLWK EXSUHQRUSKLQH
SURGXFWV DQG ZLWK SK\VLFLDQV WR
LPSURYH WUHDWPHQW RXWFRPHV E\
SURYLGLQJ EHKDYLRUDO WUHDWPHQW DQG
FRXQVHOLQJ

A438

%XSUHQRUSKLQH $ *XLGH IRU 1XUVHV

7R HGXFDWH QXUVHV DERXW HIIHFWLYH
FRPPXQLFDWLRQ DVVHVVPHQW RI
SDWLHQWV· UHDGLQHVV WR FKDQJH DQG
DSSURSULDWH PRWLYDWLRQDO
HQKDQFHPHQW LQWHUYHQWLRQV WR
HQVXUH WKDW SV\FKRVRFLDO
FRXQVHOLQJ LV GHOLYHUHG
FRQFXUUHQWO\ ZLWK SKDUPDFRORJLFDO
LQWHUYHQWLRQV

7R HQKDQFH DGGLFWLRQ UHFRYHU\
PDQDJHPHQW E\ HGXFDWLQJ QXUVHV
DERXW VWLJPD SDWLHQW
HPSRZHUPHQW DQG WKH UHFRYHU\
SDUWQHUVKLS HYLGHQFH EDVHG
SUDFWLFHV WKH DSSOLFDWLRQ RI
WHFKQRORJ\ DQG WKH LPSRUWDQFH RI
RQJRLQJ SDWLHQW PRQLWRULQJ DQG
VXSSRUW

A439

Background
Before prescribing Suboxone® or
Subutex®, qualified physicians must
notify the Secretary of HHS of their
intent by submitting applications for a
waiver. To obtain a DATA 2000
waiver, a physician must send
SAMHSA a notification of intent to
begin practicing this form of therapy.
The notification of intent may be
submitted online at the SAMHSA
Buprenorphine Web site
(http://buprenorphine.samhsa.gov) or
mailed or faxed to SAMHSA using a
notification form, SMA-167, that can
be downloaded from the Web site. The
notification of intent must contain
information on the physician’s
qualifying credentials, training
certificates, and other information.
Each physician must certify that the
physician has the capacity to refer
addiction patients for appropriate
counseling and other
nonpharmacological therapies.
Physicians must also certify that they
will use certain treatment medications
and adhere to patient limits.

Data 2000: Legislative
Authority for Buprenorphine
Treatment
Federal legislation—the Drug
Addiction Treatment Act of 2000
(DATA 2000)—changed addiction
treatment in the United States by
permitting office-based physicians to
treat addiction to opioid (narcotic)
drugs, such as heroin and many
prescription pain relievers, with
Schedule III–V narcotic medications
approved by the U.S. Food and Drug
Administration (FDA). Under the
statutory provisions of DATA 2000,
physicians who wish to prescribe (or
dispense) approved medications for
opioid therapy must first obtain a
waiver that releases them from the
separate registration requirements of
the Narcotic Addiction Treatment Act
of 1974 and its enabling regulations
for the provision of opioid addiction
treatment. (One enabling regulation is
Title 42 of the Code of Federal
Regulations (CFR), Part 8: Opioid
Drugs in Maintenance and
Detoxification Treatment of Opiate
Addiction; Final Rule.) The
Department of Health and Human
Services (HHS) responsibility for the
waiver program is administrated by
the Substance Abuse and Mental
Health Services Administration
(SAMHSA) in HHS and follows certain
criteria specified in DATA 2000 by
which physicians’ qualifications are
considered before a waiver is issued.

Physicians’ Qualifications
Under DATA 2000, prescription of
buprenorphine products (Suboxone® or
Subutex®) for the treatment of opioid
addiction is limited to physicians who
meet qualifying requirements.
Physician Assistants (PAs), Nurse
Practitioners (NPs), and Advanced
Practice Nurses (APNs) may not
prescribe buprenorphine products for
the treatment of addiction even in

3

A440

Buprenorphine: A Guide for Nurses

States that allow them to prescribe
Schedule III, IV, or V drugs.

buprenorphine products at any one
time under DATA 2000, and physician
group practices were also limited to
30 patients. The physician group
practice limit was eliminated by
Public Law 109-56, effective August 2,
2005, so that each physician in a
group practice, like a physician in solo
practice, was permitted to treat up to
30 patients at any given time.

Physicians may be considered
qualified to prescribe buprenorphine
products if they:
• Meet at least one of the following
training requirements:
– Hold a subspecialty board
certification in addiction
psychiatry from the American
Board of Medical Specialties;

Under the ONDCPRA, effective
December 29, 2006, physicians who
meet the following criteria may notify
the Secretary of HHS of their need
and intent to treat up to 100 patients
at any one time. To meet the
requirements, (1) the physician must
currently be qualified under DATA
2000, (2) at least 1 year must have
elapsed since the physician submitted
the initial notification for
authorization, (3) the physician must
certify his or her capacity to refer
patients for appropriate counseling
and other appropriate ancillary
services, and (4) the physician must
certify that the total number of
patients at any one time will not
exceed the applicable number.

– Hold a certification from the
American Society of Addiction
Medicine (ASAM);
– Hold a subspecialty board
certification in addiction medicine
from the American Osteopathic
Association;
– Have completed not less than
8 hours of authorized training on
the treatment or management of
opioid-dependent patients. This
training may include classroom
situations, seminars at
professional society meetings,
electronic communications, or
other media;
• AND meet both of the following
criteria:

The SAMHSA Buprenorphine
Information Center has information
specialists available to answer
questions about buprenorphine and
DATA 2000 on weekdays from
8:30 a.m. to 5:00 p.m., Eastern time.
The Information Center may be
reached by telephone at 866–287–2728
or by e-mail at
info@buprenorphine.samhsa.gov.

– Have the capacity to provide or to
refer patients for necessary
ancillary services, such as
psychosocial therapy; and
– Agree to treat the applicable
numbers of patients (30 or 100) in
their individual or group practice
(DATA 2000; Office of National
Drug Control Policy
Reauthorization Act of 2006
(ONDCPRA—Public Law
109-469)).

SAMHSA will communicate with the
Drug Enforcement Administration
(DEA) in the Department of Justice,
review the notification, and inform the
DEA whether or not the physician is
qualified as required by DATA 2000.
The DEA will issue a unique

Originally, waivered physicians were
limited to treating no more than
30 patients with approved

4

A441

Background

identification number that indicates
that the physician is qualified under
DATA 2000. The physician then will
be authorized to dispense and/or
prescribe under the authority of his or
her DEA practitioner registration.
CSAT will send the physician a letter
with the newly assigned DEA
identification number. A new DEA
registration certificate will be issued
to the physician that documents the
new DEA number that must be
written on buprenorphine
prescriptions as well as the original
DEA registration number assigned to
the physician.

have been approved for office-based
treatment. Physicians are specifically
prohibited from delegating prescribing
opioids for detoxification and/or
maintenance purposes to
nonphysicians (i.e., Advanced Practice
Nurses (APNs), Nurse Practitioners
(NPs), and Physician Assistants
(PAs)).
Since 2001, SAMHSA has been
responsible for monitoring and
regulating the use of opioid
medications in treatment with
methadone and buprenorphine. Since
the implementation of DATA 2000,
SAMHSA can provide office-based
physicians a waiver to prescribe
Schedule III, IV, and V medications
such as Subutex® (buprenorphine) and
Suboxone® (buprenorphine and
naloxone) in their office settings
(CSAT, 2004).

DATA 2000 only permits physicians to
prescribe and dispense approved
opioid medications for the treatment
of addiction. At this time, only
Subutex® (buprenorphine) and
Suboxone® (buprenorphine/naloxone)

5

A442

A443

Buprenorphine and the Role of the
Nurse
&XUUHQWO\ DGYDQFHG SUDFWLFH QXUVHV DQG
13V PD\ QRW SUHVFULEH RU GLVSHQVH
EXSUHQRUSKLQH SURGXFWV IRU WKH WUHDWPHQW
RI DGGLFWLRQ HYHQ LQ 6WDWHV WKDW DOORZ WKHP
WR SUHVFULEH VFKHGXOHG PHGLFDWLRQV XQGHU
FHUWDLQ FRQWUROV VXSHUYLVLRQV DQG RWKHU
UHVWULFWLRQV 7KLV JXLGH ZLOO KLJKOLJKW WKH
DGGLFWLRQV PDQDJHPHQW VNLOOV RI QXUVHV DQG
SURPRWH D PXWXDOO\ UHVSHFWIXO WHDP
HQYLURQPHQW LQ ZKLFK QXUVHV DQG
SK\VLFLDQV FROODERUDWLYHO\ ZRUN WR LPSURYH
WKH FDUH SURYLGHG WR LQGLYLGXDOV ZKR DUH
DGGLFWHG WR RSLRLGV 7KLV FDUH PD\ LQFOXGH
DVVHVVPHQW LQGXFWLRQ VWDELOL]DWLRQ
PDLQWHQDQFH PRQLWRULQJ DGGLFWLRQ
FRXQVHOLQJ DQG UHODSVH SUHYHQWLRQ
7KH QXUVH·V UROHV ZLWK SDWLHQWV
UHFHLYLQJ EXSUHQRUSKLQH IRU WKH
WUHDWPHQW RI DGGLFWLRQ
PD\ EH
VXEMHFW WR 6WDWH SUDFWLFH UHJXODWLRQV DQG
PD\ LQFOXGH EXW QRW EH OLPLWHG WR
‡ &RQGXFWLQJ VFUHHQLQJ DVVHVVPHQW
WUHDWPHQW PRQLWRULQJ FRXQVHOLQJ
DQG VXSSRUWLYH VHUYLFHV
‡ (GXFDWLQJ SDWLHQWV WKHLU IDPLO\
PHPEHUV RU RWKHU VXSSRUWLYH
LQGLYLGXDOV DERXW EXSUHQRUSKLQH
WKHUDS\ DV ZHOO DV ULVNV EHQHILWV
SRWHQWLDO VLGH HIIHFWV LQWHUDFWLRQV
SURJUDP UHTXLUHPHQWV FRQVHQWV
DQG WUHDWPHQW FRQWUDFWV
‡ ,QYROYLQJ SDWLHQWV LQ WKH
GHYHORSPHQW RI WKH WUHDWPHQW SODQ
DQG ZRUNLQJ ZLWK WKH SDWLHQW DQG
WKH LQWHUGLVFLSOLQDU\ WHDP WR
LQGLYLGXDOL]H WKH SODQ IRU PHHWLQJ
WKH SDWLHQWV· QHHGV

A444

‡ (QKDQFLQJ WUHDWPHQW UHDGLQHVV
VXSSRUWLQJ WUHDWPHQW FRPSOHWLRQ
HQVXULQJ VDIHW\ DQG SURPRWLQJ
VXVWDLQHG UHFRYHU\ RXWFRPHV IRU
LQGLYLGXDOV XQGHUJRLQJ EXSUHQRUSKLQH
WUHDWPHQW IRU RSLRLG DGGLFWLRQ
‡ ,PSURYLQJ DFFHVV LGHQWLI\LQJ
FRPPXQLW\ UHVRXUFHV DQG SURYLGLQJ
LQIRUPDWLRQ DERXW WKHP DQG
H[SODLQLQJ UHLPEXUVHPHQW RSWLRQV IRU
RIILFH EDVHG EXSUHQRUSKLQH WUHDWPHQW
‡ $VVLVWLQJ SDWLHQWV LQ DFFHVVLQJ FDUH
HOVHZKHUH ZKHQ WKH SUHVHQW SUDFWLFH
LV QRW D VXLWDEOH RSWLRQ IRU WKHP DQG
‡ $VVLVWLQJ SDWLHQWV LQ DFFHVVLQJ RWKHU
WUHDWPHQW RSWLRQV DV QHHGHG H J
GD\ WUHDWPHQW UHVLGHQWLDO
RXWSDWLHQW PHWKDGRQH GHWR[LILFDWLRQ
RU PDLQWHQDQFH HWF
0RUH GHWDLOHG LQIRUPDWLRQ LV DYDLODEOH
LQ &OLQLFDO *XLGHOLQHV IRU WKH 8VH RI
%XSUHQRUSKLQH LQ WKH 7UHDWPHQW RI
2SLRLG $GGLFWLRQ 6$0+6$·V
7UHDWPHQW ,PSURYHPHQW 3URWRFRO
7,3
&6$7
7KH
JXLGHOLQHV FRYHU VFUHHQLQJ
DVVHVVPHQW DQG GLDJQRVLV RI RSLRLG
GHSHQGHQFH DQG LWV DVVRFLDWHG
SUREOHPV 7KH JXLGHOLQHV DOVR FRQWDLQ
GHWDLOHG SURWRFROV IRU WKH XVH RI
EXSUHQRUSKLQH XQGHU D YDULHW\ RI
FOLQLFDO VFHQDULRV LQFOXGLQJ WKH XVH RI
EXSUHQRUSKLQH ZLWK SDWLHQWV ZKR DUH
H[SHULHQFLQJ FR RFFXUULQJ SDLQ RU
SV\FKLDWULF GLVRUGHUV RU FKHPLFDO
GHSHQGHQF\ LQYROYLQJ PRUH WKDQ RQH
VXEVWDQFH

A445

Buprenorphine Pharmacology
General Opioid Pharmacology
Opioid Receptors
2SLRLG UHFHSWRUV DUH PROHFXOHV RQ WKH
VXUIDFH RI FHOOV WR ZKLFK RSLRLG
FRPSRXQGV DWWDFK DQG WKURXJK ZKLFK
WKH\ H[HUW WKHLU HIIHFWV 7KUHH GLIIHUHQW
W\SHV RI RSLRLG UHFHSWRUV DUH SUHVHQW LQ
WKH EUDLQ PX NDSSD DQG GHOWD 7ZR RI
WKHVH RSLRLG UHFHSWRUV PX DQG NDSSD
DUH DOVR IRXQG LQ WKH VSLQDO FRUG DQG
PHGLDWH SDLQ WUDQVPLVVLRQ DW WKLV OHYHO
RI WKH QHUYRXV V\VWHP L H IURP WKH
SHULSKHU\ WR WKH EUDLQ 7KH UHFHSWRU
PRVW UHOHYDQW WR RSLRLG DEXVH DQG
WUHDWPHQW LV WKH PX UHFHSWRU ,W LV
WKURXJK DFWLYDWLRQ RI WKH PX UHFHSWRU
WKDW RSLRLGV H[HUW WKH PDMRULW\ RI WKHLU
DQDOJHVLF SDLQ UHOLHYLQJ SURSHUW\
HXSKRULJHQLF HXSKRULD RU ´KLJKµ DQG
DGGLFWLYH HIIHFWV &6$7
$OWKRXJK WKH PX UHFHSWRU LV DV QRWHG
WKH PRVW UHOHYDQW WR RSLRLG DEXVH DQG
WUHDWPHQW WKH NDSSD DQG GHOWD
UHFHSWRUV DUH DOVR UHVSRQVLEOH IRU RSLRLG
DGGLFWLRQ
The Functions of Opioids at Receptors
2SLRLGV FDQ LQWHUDFW ZLWK UHFHSWRUV LQ
GLIIHUHQW ZD\V 7KUHH W\SHV RI
GUXJ UHFHSWRU LQWHUDFWLRQV DUH DJRQLVWV
RU IXOO DJRQLVWV DQWDJRQLVWV DQG
SDUWLDO DJRQLVWV &6$7
Full Agonists
'UXJV WKDW DFWLYDWH UHFHSWRUV LQ WKH
EUDLQ DUH WHUPHG DJRQLVWV $JRQLVWV

A446

ELQG WR UHFHSWRUV DQG WXUQ WKHP RQ
WKHUHE\ SURGXFLQJ DQ HIIHFW LQ WKH
RUJDQLVP )XOO PX RSLRLG DJRQLVWV
DFWLYDWH PX UHFHSWRUV 2SLRLGV ZLWK
WKH JUHDWHVW DEXVH SRWHQWLDO DUH IXOO
DJRQLVWV H J PRUSKLQH KHURLQ
PHWKDGRQH R[\FRGRQH
K\GURPRUSKRQH &6$7
Antagonists
$QWDJRQLVWV DOVR ELQG WR RSLRLG
UHFHSWRUV EXW LQVWHDG RI DFWLYDWLQJ
UHFHSWRUV WKH\ HIIHFWLYHO\ EORFN WKHP
$Q DQWDJRQLVW LV OLNH D NH\ WKDW ILWV LQ
D ORFN EXW GRHV QRW RSHQ LW DQG
SUHYHQWV DQRWKHU NH\ IURP EHLQJ
LQVHUWHG WR RSHQ WKH ORFN ([DPSOHV RI
RSLRLG DQWDJRQLVWV DUH QDOWUH[RQH DQG
QDOR[RQH &6$7
Partial Agonists
3DUWLDO DJRQLVWV SRVVHVV VRPH RI WKH
SURSHUWLHV RI ERWK DQWDJRQLVWV DQG IXOO
DJRQLVWV 3DUWLDO DJRQLVWV ELQG WR
UHFHSWRUV DQG DFWLYDWH WKHP EXW QRW WR
WKH VDPH GHJUHH DV GR IXOO DJRQLVWV $W
ORZHU GRVHV DQG LQ LQGLYLGXDOV ZKR DUH
QRW GHSHQGHQW RQ RSLRLGV IXOO DJRQLVWV
DQG SDUWLDO DJRQLVWV SURGXFH HIIHFWV WKDW
DUH LQGLVWLQJXLVKDEOH $V GRVHV DUH
LQFUHDVHG ERWK IXOO DQG SDUWLDO DJRQLVWV
SURGXFH LQFUHDVLQJ HIIHFWV $W D FHUWDLQ
SRLQW KRZHYHU WKH LQFUHDVLQJ HIIHFWV RI
SDUWLDO DJRQLVWV UHDFK PD[LPXP OHYHOV
DQG GR QRW LQFUHDVH IXUWKHU HYHQ LI
GRVHV FRQWLQXH WR ULVH³µWKH FHLOLQJ
HIIHFW µ $V KLJKHU GRVHV DUH UHDFKHG
SDUWLDO DJRQLVWV FDQ DFW OLNH

%XSUHQRUSKLQH $ *XLGH IRU 1XUVHV

DQWDJRQLVWV³RFFXS\LQJ UHFHSWRUV EXW
QRW DFWLYDWLQJ WKHP RU RQO\ SDUWLDOO\
DFWLYDWLQJ WKHP ZKLOH DW WKH VDPH
WLPH GLVSODFLQJ RU EORFNLQJ IXOO DJRQLVWV
IURP UHFHSWRUV %XSUHQRUSKLQH LV DQ
H[DPSOH RI D PX RSLRLG SDUWLDO DJRQLVW
&6$7
Consequences of Repeated
Administration and Withdrawal of
Opioid Drugs

FULWHULD LV WKH EHKDYLRUDO
FRPSRQHQW RI FRQWLQXHG XVH GHVSLWH
QHJDWLYH FRQVHTXHQFHV
7ZR W\SHV RI ZLWKGUDZDO DUH
DVVRFLDWHG ZLWK PX RSLRLG DJRQLVWV
VSRQWDQHRXV ZLWKGUDZDO DQG
SUHFLSLWDWHG ZLWKGUDZDO
Spontaneous Withdrawal
6SRQWDQHRXV ZLWKGUDZDO FDQ RFFXU
ZKHQ DQ LQGLYLGXDO ZKR LV SK\VLFDOO\
GHSHQGHQW RQ PX DJRQLVW RSLRLGV H J
KDV EHHQ XVLQJ RSLRLGV RQ D GDLO\
EDVLV VXGGHQO\ GLVFRQWLQXHV WKDW
RSLRLG XVH ,W DOVR FDQ RFFXU LI DQ
LQGLYLGXDO ZKR LV SK\VLFDOO\
GHSHQGHQW PDUNHGO\ GHFUHDVHV KLV RU
KHU GDLO\ RSLRLG XVH ,Q DQ LQGLYLGXDO
ZKR LV SK\VLFDOO\ GHSHQGHQW RQ KHURLQ
VSRQWDQHRXV ZLWKGUDZDO XVXDOO\
EHJLQV ² KRXUV DIWHU WKH ODVW GRVH
DQG SHDNV LQ LQWHQVLW\ ² KRXUV
DIWHU WKH ODVW XVH 7KH VSRQWDQHRXV
ZLWKGUDZDO V\QGURPH IURP KHURLQ
ODVWV DSSUR[LPDWHO\ GD\V DOWKRXJK D
PLOGHU SURWUDFWHG ZLWKGUDZDO PD\
ODVW ORQJHU 2WKHU VKRUW DFWLQJ RSLRLGV
VXFK DV R[\FRGRQH DQG K\GURFRGRQH
KDYH NLQHWLF SURILOHV WKDW DUH VLPLODU
WR KHURLQ DQG WKH WLPH FRXUVH RI
VSRQWDQHRXV ZLWKGUDZDO IRU WKHVH
DJHQWV VKRXOG EH VLPLODU WR WKDW
GRFXPHQWHG IRU KHURLQ 2SLRLGV ZLWK
ORQJHU KDOI OLYHV KDYH D ORQJHU SHULRG
EHIRUH WKH RQVHW RI VSRQWDQHRXV
ZLWKGUDZDO H J
² KRXUV IRU
PHWKDGRQH DQG D ORQJHU SHULRG EHIRUH
SHDN ZLWKGUDZDO LV H[SHULHQFHG
&6$7

7KH UHSHDWHG DGPLQLVWUDWLRQ RI D PX
RSLRLG DJRQLVW UHVXOWV LQ WROHUDQFH DQG
GRVH GHSHQGHQW SK\VLFDO GHSHQGHQFH
7ROHUDQFH LV FKDUDFWHUL]HG E\ D
GHFUHDVHG VXEMHFWLYH DQG REMHFWLYH
UHVSRQVH WR WKH VDPH DPRXQW RI
RSLRLGV XVHG RYHU WLPH RU E\ WKH QHHG
WR NHHS LQFUHDVLQJ WKH DPRXQW XVHG WR
DFKLHYH WKH GHVLUHG HIIHFW ,Q WKH FDVH
RI DEXVH RU DGGLFWLRQ WKH GHVLUHG
HIIHFW W\SLFDOO\ LV HXSKRULD 3K\VLFDO
GHSHQGHQFH LV PDQLIHVWHG DV D VHW RI
ZLWKGUDZDO VLJQV DQG V\PSWRPV LQ
UHVSRQVH WR UHGXFWLRQ FHVVDWLRQ RU
ORVV RI WKH DFWLYH FRPSRXQG DW
UHFHSWRUV ZLWKGUDZDO V\QGURPHV
7\SLFDO VLJQV DQG V\PSWRPV RI WKH
RSLRLG ZLWKGUDZDO V\QGURPH LQFOXGH
ODFULPDWLRQ WHDUV GLDUUKHD
UKLQRUUKHD SLORHUHFWLRQ JRRVH IOHVK
\DZQLQJ FUDPSV DQG DFKHV SXSLOODU\
GLODWLRQ DQG VZHDWLQJ ,Q DQ
LQGLYLGXDO ZKR RWKHUZLVH LV LQ JRRG
JHQHUDO KHDOWK H J ZLWK QR KLVWRU\ RI
VLJQLILFDQW FDUGLRYDVFXODU GLVHDVH
RSLRLG ZLWKGUDZDO LV QRW OLIH
WKUHDWHQLQJ 3DWLHQWV ZLWK
FDUGLRYDVFXODU GLVHDVH RU RWKHU VHYHUH
FRQGLWLRQV ZLOO QHHG FRPDQDJHPHQW
LQYROYLQJ WKH DSSURSULDWH VSHFLDOLVW DV
ZHOO DV FRQVXOWDWLRQ ZLWK DQ DGGLFWLRQ
VSHFLDOLVW &6$7
7KH SULPDU\
GLVWLQJXLVKLQJ FKDUDFWHULVWLF WKDW
GLIIHUHQWLDWHV GHSHQGHQFH IURP
DGGLFWLRQ DV RXWOLQHG LQ WKH
'LDJQRVWLF DQG 6WDWLVWLFDO 0DQXDO ,9
7H[W 5HYLVLRQ '60 ,9 75 $3$

Precipitated Withdrawal
3UHFLSLWDWHG ZLWKGUDZDO XVXDOO\
RFFXUV ZKHQ DQ LQGLYLGXDO ZKR LV
SK\VLFDOO\ GHSHQGHQW RQ RSLRLGV LV
DGPLQLVWUDWHG DQ RSLRLG DQWDJRQLVW ,Q

A447

%XSUHQRUSKLQH 3KDUPDFRORJ\

DQ LQGLYLGXDO ZKR LV QRW SK\VLFDOO\
GHSHQGHQW RQ RSLRLGV WKH DFXWH
DGPLQLVWUDWLRQ RI DQ DQWDJRQLVW
W\SLFDOO\ SURGXFHV QR HIIHFWV ,Q DQ
LQGLYLGXDO ZKR LV SK\VLFDOO\
GHSHQGHQW RQ RSLRLGV KRZHYHU DQ
DQWDJRQLVW SURGXFHV D V\QGURPH RI
ZLWKGUDZDO WKDW LV TXDOLWDWLYHO\
VLPLODU WR WKDW VHHQ ZLWK VSRQWDQHRXV
ZLWKGUDZDO DOWKRXJK WKH RQVHW LV
IDVWHU DQG WKH V\QGURPH LV VKRUWHU
GHSHQGLQJ RQ WKH KDOI OLIH RI WKH
DQWDJRQLVW 2QH ZD\ WR FRQFHSWXDOL]H
SUHFLSLWDWHG ZLWKGUDZDO LV WKDW WKH
DQWDJRQLVW GLVSODFHV DJRQLVWV IURP
UHFHSWRUV EXW EHFDXVH WKH DQWDJRQLVW
GRHV QRW DFWLYDWH WKH UHFHSWRU WKHUH LV
D QHW GHFUHDVH LQ DJRQLVW HIIHFW
UHVXOWLQJ LQ ZLWKGUDZDO ,W LV DOVR
SRVVLEOH IRU SDUWLDO DJRQLVWV WR
SUHFLSLWDWH ZLWKGUDZDO ,I DQ
LQGLYLGXDO ZKR LV SK\VLFDOO\
GHSHQGHQW RQ RSLRLGV UHFHLYHV DQ DFXWH
GRVH RI D SDUWLDO DJRQLVW WKH SDUWLDO
DJRQLVW FDQ GLVSODFH WKH IXOO DJRQLVW
IURP WKH UHFHSWRUV \HW QRW DFWLYDWH WKH
UHFHSWRUV DV PXFK DV WKH IXOO DJRQLVW
KDG 7KH QHW HIIHFW ZRXOG EH D
GHFUHDVH LQ DJRQLVW HIIHFW DQG D
SUHFLSLWDWHG ZLWKGUDZDO V\QGURPH
3UHFLSLWDWHG ZLWKGUDZDO ZLWK D SDUWLDO
DJRQLVW LV PRUH OLNHO\ WR RFFXU LQ DQ
LQGLYLGXDO ZKR KDV D KLJK OHYHO RI
SK\VLFDO GHSHQGHQFH H J KLJK XVH RI
RSLRLGV HDFK GD\ ZKR WDNHV WKH
SDUWLDO DJRQLVW VRRQ DIWHU D GRVH RI IXOO
DJRQLVW DQG RU ZKR WDNHV D KLJK GRVH
RI WKH SDUWLDO DJRQLVW &6$7

FDQ KDYH KLJK DIILQLW\ IRU D UHFHSWRU
EXW QRW DFWLYDWH WKH UHFHSWRU H J DQ
DQWDJRQLVW 0X RSLRLG DJRQLVWV
SDUWLDO DJRQLVWV DQG DQWDJRQLVWV FDQ
YDU\ LQ WKHLU DIILQLW\ ,Q DGGLWLRQ WR
YDULDWLRQ LQ DIILQLW\ DQG LQWULQVLF
DFWLYLW\ GUXJV DOVR YDU\ LQ WKHLU UDWH
RI GLVVRFLDWLRQ IURP UHFHSWRUV
´'LVVRFLDWLRQµ LV D PHDVXUH RI WKH
GLVHQJDJHPHQW RU XQFRXSOLQJ RI WKH
GUXJ IURP WKH UHFHSWRU 'LVVRFLDWLRQ LV
QRW WKH VDPH DV DIILQLW\³D GUXJ FDQ
KDYH KLJK DIILQLW\ IRU D UHFHSWRU LW LV
GLIILFXOW WR GLVSODFH LW IURP WKH
UHFHSWRU ZLWK DQRWKHU GUXJ RQFH WKH
ILUVW GUXJ LV SUHVHQW EXW LW VWLOO
GLVVRFLDWHV RU XQFRXSOHV IURP WKH
UHFHSWRU ZLWK VRPH UHJXODULW\
%XSUHQRUSKLQH·V VORZ GLVVRFLDWLRQ
FRQWULEXWHV WR LWV ORQJ GXUDWLRQ RI
DFWLRQ &6$7
Characteristics of Abused Drugs
7KH UDWH RI RQVHW RI WKH
SKDUPDFRORJLFDO HIIHFWV RI D GUXJ DQG
WKHUHE\ LWV DEXVH SRWHQWLDO LV
GHWHUPLQHG E\ D QXPEHU RI IDFWRUV
,PSRUWDQW DPRQJ WKHVH DUH WKH GUXJ·V
URXWH RI DGPLQLVWUDWLRQ LWV KDOI OLIH
DQG LWV OLSRSKLOLF SURSHUW\ ZKLFK
GHWHUPLQHV KRZ IDVW WKH GUXJ UHDFKHV
WKH EUDLQ $ IDVWHU URXWH RI GUXJ
DGPLQLVWUDWLRQ H J LQMHFWLRQ
VPRNLQJ D VKRUWHU KDOI OLIH DQG D
IDVWHU RQVHW RI DFWLRQ DUH DVVRFLDWHG
ZLWK D KLJKHU DEXVH SRWHQWLDO RI D
GUXJ :LWK DOO FODVVHV RI GUXJV RI
DEXVH WKH OLNHOLKRRG RI DEXVH LV
UHODWHG WR WKH HDVH RI DGPLQLVWUDWLRQ
WKH FRVW RI WKH GUXJ DQG KRZ IDVW WKH
XVHU H[SHULHQFHV WKH GHVLUHG UHVXOWV
DIWHU WKH GUXJ·V DGPLQLVWUDWLRQ &6$7

Affinity, Intrinsic Activity, and
Dissociation
7KH VWUHQJWK ZLWK ZKLFK D GUXJ ELQGV
WR LWV UHFHSWRU LV WHUPHG LWV ´DIILQLW\ µ
7KH GHJUHH WR ZKLFK D GUXJ DFWLYDWHV
LWV UHFHSWRUV LV WHUPHG LWV ´LQWULQVLF
DFWLYLW\ µ $IILQLW\ IRU D UHFHSWRU DQG
DFWLYDWLRQ RI WKH UHFHSWRU DUH WZR
GLIIHUHQW TXDOLWLHV RI D GUXJ $ GUXJ

A448

%XSUHQRUSKLQH $ *XLGH IRU 1XUVHV

WR WDNH PHGLFDWLRQ HYHU\ GD\ 7KHVH
SURSHUWLHV PD\ RIIHU VRPH WUHDWPHQW
DGYDQWDJHV RYHU WKH XVH RI PHWKDGRQH

Pharmacological Properties
%XSUHQRUSKLQH LV FKDUDFWHUL]HG
SKDUPDFRORJLFDOO\ DV DQ RSLRLG SDUWLDO
DJRQLVW ZLWK ERWK DJRQLVW DQG
DQWDJRQLVW SURSHUWLHV GHSHQGLQJ RQ
GRVDJH DQG FOLQLFDO FLUFXPVWDQFHV ,W
FDQ EH DEXVHG SDUWLFXODUO\ E\
LQGLYLGXDOV ZKR DUH QRW SK\VLFDOO\
GHSHQGHQW XSRQ RSLRLGV EXW LWV
PD[LPDO HIIHFWV DUH VLJQLILFDQWO\ OHVV
WKDQ WKRVH RI IXOO DJRQLVWV VXFK DV
KHURLQ DQG PHWKDGRQH &6$7

Monotherapy and
Combination Therapy
,Q 2FWREHU
WKH )'$ DSSURYHG
WZR SURGXFWV IRU WKH WUHDWPHQW RI
RSLRLG GHSHQGHQFH
6XEXWH[Š EXSUHQRUSKLQH
PRQRWKHUDS\ SURGXFW DQG

$W ORZHU GRVHV EXSUHQRUSKLQH DFWV DV
DQ RSLRLG DJRQLVW HQDEOLQJ RSLRLG
GHSHQGHQW LQGLYLGXDOV WR GLVFRQWLQXH
RSLRLGV ZLWKRXW H[SHULHQFLQJ
ZLWKGUDZDO $W PRGHUDWH GRVHV WKH
DJRQLVW HIIHFWV UHDFK D SODWHDX FHLOLQJ
HIIHFW $W KLJKHU GRVHV WKH RSLRLG
DQWDJRQLVW SURSHUWLHV GRPLQDWH DQG
LQ FHUWDLQ FLUFXPVWDQFHV KLJKHU GRVHV
RI EXSUHQRUSKLQH FDQ GLVSODFH RSLRLG
DJRQLVWV SUHFLSLWDWLQJ ZLWKGUDZDO
V\PSWRPV LQ DFXWHO\ RSLRLG
LQWR[LFDWHG LQGLYLGXDOV
KWWS EXSUHQRUSKLQH VDPKVD JRY
DERXW KWPO

6XER[RQHŠ EXSUHQRUSKLQH DQG
QDOR[RQH FRPELQDWLRQ SURGXFW
2WKHU IRUPV RI EXSUHQRUSKLQH H J
%XSUHQH[Š DUH 127 DSSURYHG IRU
RSLRLG DGGLFWLRQ WUHDWPHQW 7KH
&OLQLFDO *XLGHOLQHV IRU WKH 8VH RI
%XSUHQRUSKLQH LQ WKH 7UHDWPHQW RI
2SLRLG $GGLFWLRQ D FRQVHQVXV EDVHG
WUHDWPHQW JXLGHOLQH SXEOLVKHG E\
6$0+6$ UHFRPPHQGV WKDW WKH
EXSUHQRUSKLQH DQG QDOR[RQH
6XER[RQHŠ FRPELQDWLRQ SURGXFW EH
XVHG IRU PRVW SDWLHQWV &6$7

Dosing

%XSUHQRUSKLQH·V FHLOLQJ HIIHFW
HQKDQFHV LWV VDIHW\ SURILOH PDNLQJ LW
OHVV OLNHO\ WR SURGXFH RSLRLG RYHUGRVH
DQG UHGXFLQJ LWV SRWHQWLDO IRU
GLYHUVLRQ 1DWLRQDO $VVRFLDWLRQ RI
6WDWH $OFRKRO DQG 'UXJ $EXVH
'LUHFWRUV 1$6$'$'
7KH
FRPELQDWLRQ RI EXSUHQRUSKLQH D
SDUWLDO DJRQLVW DQG QDOR[RQH D SXUH
DQWDJRQLVW LQ 6XER[RQHŠ GLVFRXUDJHV
SDWLHQWV GHSHQGHQW RQ PX RSLRLG
UHFHSWRU DJRQLVWV KHURLQ PHWKDGRQH
K\GURFRGRQH R[\FRGRQH DQG WKH OLNH
IURP LQMHFWLQJ GLVVROYHG WDEOHWV DQG
IXUWKHU GHFUHDVHV WKH OLNHOLKRRG RI
GLYHUVLRQ DQG DEXVH

6XEXWH[Š WKH EXSUHQRUSKLQH RQO\
IRUPXODWLRQ LV DYDLODEOH DV VXEOLQJXDO
WDEOHWV LQ GRVHV RI PLOOLJUDPV PJ
DQG PJ 6XER[RQHŠ WKH
EXSUHQRUSKLQH DQG QDOR[RQH
FRPELQDWLRQ SURGXFW LV DYDLODEOH DV
VXEOLQJXDO WDEOHWV LQ GRVHV RI PJ
EXSUHQRUSKLQH
PJ QDOR[RQH DQG
PJ EXSUHQRUSKLQH PJ QDOR[RQH
1DOR[RQH LV DGGHG WR EXSUHQRUSKLQH WR
GHFUHDVH WKH SRWHQWLDO IRU DEXVH E\ WKH
SDUHQWHUDO URXWH 8VXDOO\ GRVDJH LV
DGMXVWHG RYHU VHYHUDO GD\V ,QLWLDO
SUHVFULSWLRQV PD\ EH OLPLWHG WR GD\
GRVHV IRU WKH ILUVW VHYHUDO GD\V EHIRUH
SURYLGLQJ D SUHVFULSWLRQ IRU VHYHUDO
GD\V 8VXDOO\ ² PJ RI EXSUHQRUSKLQH
DUH DGPLQLVWHUHG VXEOLQJXDOO\ RQ WKH

%XSUHQRUSKLQH LV DOVR D ORQJ DFWLQJ
DJHQW VR PDQ\ SDWLHQWV PD\ QRW QHHG

A449

%XSUHQRUSKLQH 3KDUPDFRORJ\

ILUVW GD\ RI WUHDWPHQW WKHQ WKH SDWLHQW
LV PRQLWRUHG IRU KRXUV ,I VLJQV RU
V\PSWRPV RI ZLWKGUDZDO GHYHORS DIWHU
WKH ILUVW GRVH DQRWKHU ² PJ PD\ EH
DGPLQLVWHUHG 7\SLFDOO\ WKH WRWDO GRVH
RQ WKH ILUVW GD\ VKRXOG QRW H[FHHG PJ
7KH )'$ :HE VLWH DW
KWWS ZZZ IGD JRY FG U GUXJ LQIRSDJH
VXEXWH[BVXER[RQH FRQWDLQV GUXJ
ODEHOLQJ LQIRUPDWLRQ IRU 6XEXWH[Š DQG
6XER[RQHŠ ,I WKH SDWLHQW FRQWLQXHV WR
FRPSODLQ RI ZLWKGUDZDO V\PSWRPV
DIWHU UHFHLYLQJ PJ RI EXSUHQRUSKLQH
V\PSWRPV PD\ EH PDQDJHG ZLWK
QRQRSLRLG RYHU WKH FRXQWHU
PHGLFDWLRQV 7KLV SKHQRPHQRQ LV QRW
FRPPRQ DQG PRVW SDWLHQWV ILQG WKDW
PJ DOOHYLDWHV ZLWKGUDZDO V\PSWRPV
7KH DYHUDJH PDLQWHQDQFH GRVH LV
XVXDOO\
PJ 6RPH SDWLHQWV PD\
QHHG VHYHUDO GD\V WR VWDELOL]H RQ WKHLU
GRVH DQG WKH\ PD\ KDYH VRPH
GLVFRPIRUW IRU VHYHUDO GD\V GXULQJ WKH
LQGXFWLRQ SURFHVV $OWKRXJK WKH
WUHDWPHQW IORZ FKDUWV LQ DSSHQGL[ %
LQFOXGH D PD[LPXP GDLO\
EXSUHQRUSKLQH GRVH RI
PJ PRUH
UHFHQW FOLQLFDO GDWD VXJJHVW WKDW GDLO\
GRVHV DERYH
PJ GR QRW SURYLGH
DGGLWLRQDO WKHUDSHXWLF EHQHILW WR WKH
YDVW PDMRULW\ RI SDWLHQWV &OLQLFDO
WULDOV XQGHUZD\ FRXOG HVWDEOLVK DQ
HYHQ ORZHU PD[LPXP GDLO\
EXSUHQRUSKLQH GRVH UHFRPPHQGDWLRQ
*UHHQZDOG HW DO

RSLRLG GHSHQGHQW SDWLHQWV ZLOO LQMHFW
WKH PHGLFDWLRQ
6XEOLQJXDO QDOR[RQH KDV UHODWLYHO\ ORZ
ELRDYDLODELOLW\ ZKLOH VXEOLQJXDO
EXSUHQRUSKLQH KDV JRRG
ELRDYDLODELOLW\ %RWK QDOR[RQH DQG
EXSUHQRUSKLQH KDYH SRRU
JDVWURLQWHVWLQDO ELRDYDLODELOLW\ 7KXV
LI D WDEOHW FRQWDLQLQJ ERWK
EXSUHQRUSKLQH DQG QDOR[RQH LV WDNHQ
VXEOLQJXDOO\ DV GLUHFWHG WKH SDWLHQW
ZLOO H[SHULHQFH SUHGRPLQDQWO\ D
EXSUHQRUSKLQH HIIHFW +RZHYHU LI DQ
RSLRLG GHSHQGHQW SHUVRQ GLVVROYHV DQG
LQMHFWV WKH FRPELQDWLRQ WDEOHW WKH
DQWDJRQLVWLF HIIHFW RI QDOR[RQH ZLOO
SUHGRPLQDWH EHFDXVH RI WKH KLJK
SDUHQWHUDO ELRDYDLODELOLW\ DQG RSLRLG
GHSHQGHQW SDWLHQWV ZLOO H[SHULHQFH D
SUHFLSLWDWHG ZLWKGUDZDO V\QGURPH
7KRURXJK FRXQVHOLQJ RI EXSUHQRUSKLQH
WKHUDS\ FDQGLGDWHV DERXW WKH ULVN RI
SUHFLSLWDWHG ZLWKGUDZDO LI WKH\ FUXVK
DQG LQMHFW WKH FRPELQDWLRQ WDEOHW
6XER[RQHŠ ZLOO GHFUHDVH WKH
OLNHOLKRRG RI LWV PLVXVH
8QGHU FHUWDLQ FLUFXPVWDQFHV
EXSUHQRUSKLQH E\ LWVHOI PD\ DOVR
SUHFLSLWDWH ZLWKGUDZDO LQ RSLRLG
GHSHQGHQW LQGLYLGXDOV 7KLV
ZLWKGUDZDO LV PRUH OLNHO\ WR RFFXU
ZLWK KLJKHU OHYHOV RI RSLRLG
GHSHQGHQFH ZLWK KLJKHU GRVHV RI
EXSUHQRUSKLQH RU ZLWK VKRUWHU WLPH
LQWHUYDOV EHWZHHQ WKH GRVH RI DQ RSLRLG
IXOO DJRQLVW DQG D GRVH RI
EXSUHQRUSKLQH H J XS WR ² KRXUV
IRU VKRUW DFWLQJ RSLRLGV RU PRUH WKDQ
KRXUV IRU ORQJ DFWLQJ RSLRLGV

Abuse Potential
%HFDXVH RI LWV RSLRLG DJRQLVW HIIHFWV
EXSUHQRUSKLQH FDQ EH DEXVHG
SDUWLFXODUO\ E\ LQGLYLGXDOV ZKR DUH
QRW SK\VLFDOO\ GHSHQGHQW RQ RSLRLGV
+RZHYHU WKH DEXVH SRWHQWLDO LV ORZ LQ
FRPSDULVRQ ZLWK WKDW RI IXOO DJRQLVWV
,Q WKH 6XER[RQHŠ SURGXFW WKH RSLRLG
DQWDJRQLVW PHGLFDWLRQ QDOR[RQH LV
FRPELQHG ZLWK EXSUHQRUSKLQH WR
GHFUHDVH WKH OLNHOLKRRG WKDW

Safety Profile
%HFDXVH RI EXSUHQRUSKLQH·V FHLOLQJ
HIIHFW WKH GUXJ LV OHVV OLNHO\ WKDQ
RSLRLG IXOO DJRQLVWV WR SURGXFH
UHVSLUDWRU\ GHSUHVVLRQ DQG RWKHU
DGYHUVH HIIHFWV 7KH PD[LPDO DJRQLVW

A450

%XSUHQRUSKLQH $ *XLGH IRU 1XUVHV

HIIHFWV RI EXSUHQRUSKLQH DSSHDU WR
RFFXU LQ WKH GRVH UDQJH RI ² PJ
IRU VXEOLQJXDO WDEOHWV &6$7

UHTXLUHG IRU WKH SHUIRUPDQFH RI
SRWHQWLDOO\ GDQJHURXV WDVNV VXFK DV
GULYLQJ D FDU RU RSHUDWLQJ PDFKLQHU\
HVSHFLDOO\ GXULQJ GUXJ WUHDWPHQW
LQGXFWLRQ DQG GRVH DGMXVWPHQW
3DWLHQWV VKRXOG EH FDXWLRQHG DERXW
RSHUDWLQJ KD]DUGRXV PDFKLQHU\
LQFOXGLQJ DXWRPRELOHV XQWLO WKH\ DUH
UHDVRQDEO\ FHUWDLQ WKDW EXSUHQRUSKLQH
WKHUDS\ GRHV QRW DGYHUVHO\ DIIHFW WKHLU
DELOLW\ WR HQJDJH LQ VXFK DFWLYLWLHV
/LNH RWKHU RSLRLGV 6XER[RQHŠ DQG
6XEXWH[Š PD\ SURGXFH RUWKRVWDWLF
K\SRWHQVLRQ LQ DPEXODWRU\ SDWLHQWV
DGDSWHG IURP )'$ ODEHOLQJ IRU
6XER[RQHŠ DQG 6XEXWH[Š
DW
KWWS ZZZ IGD JRY FGHU IRL ODEHO
OEO SGI

+RZHYHU DFFRUGLQJ WR )'$ ODEHOLQJ
)'$
FDVHV RI F\WRO\WLF
KHSDWLWLV DQG KHSDWLWLV ZLWK MDXQGLFH
KDYH EHHQ REVHUYHG LQ WKH SRSXODWLRQ
RI SHUVRQV ZKR DUH DGGLFWHG WR RSLRLGV
DQG UHFHLYLQJ EXSUHQRUSKLQH ERWK LQ
FOLQLFDO WULDOV DQG LQ SRVWPDUNHWLQJ
DGYHUVH HYHQW UHSRUWV 7KH VSHFWUXP
RI DEQRUPDOLWLHV UDQJHV IURP WUDQVLHQW
DV\PSWRPDWLF HOHYDWLRQV LQ KHSDWLF
WUDQVDPLQDVHV WR FDVH UHSRUWV RI
KHSDWLF IDLOXUH KHSDWLF QHFURVLV
KHSDWRUHQDO V\QGURPH DQG KHSDWLF
HQFHSKDORSDWK\ ,Q PDQ\ FDVHV WKH
SUHVHQFH RI SUH H[LVWLQJ OLYHU HQ]\PH
DEQRUPDOLWLHV LQIHFWLRQ ZLWK KHSDWLWLV
% YLUXV +%9 RU KHSDWLWLV & YLUXV
+&9 FRQFRPLWDQW XVDJH RI RWKHU
SRWHQWLDOO\ KHSDWRWR[LF GUXJV DQG
RQJRLQJ LQMHFWLQJ GUXJ XVH PD\ KDYH
SOD\HG D FDXVDWLYH RU FRQWULEXWRU\
UROH ,Q RWKHU FDVHV LQVXIILFLHQW GDWD
ZHUH DYDLODEOH WR GHWHUPLQH WKH
HWLRORJ\ RI WKH DEQRUPDOLW\ 7KH
SRVVLELOLW\ H[LVWV WKDW EXSUHQRUSKLQH
KDG D FDXVDWLYH RU FRQWULEXWRU\ UROH LQ
WKH GHYHORSPHQW RI WKH KHSDWLF
DEQRUPDOLW\ LQ VRPH FDVHV /LYHU
IXQFWLRQ WHVWV PHDVXUHG SULRU WR
LQLWLDWLRQ RI WUHDWPHQW DUH
UHFRPPHQGHG WR HVWDEOLVK D EDVHOLQH
3HULRGLF PRQLWRULQJ RI OLYHU IXQFWLRQ
WHVWV GXULQJ WUHDWPHQW LV DOVR
UHFRPPHQGHG $ ELRORJLFDO DQG
HWLRORJLFDO HYDOXDWLRQ LV UHFRPPHQGHG
ZKHQ D KHSDWLF HYHQW LV VXVSHFWHG
'HSHQGLQJ RQ WKH FDVH WKH GUXJ
VKRXOG EH FDUHIXOO\ GLVFRQWLQXHG WR
SUHYHQW ZLWKGUDZDO V\PSWRPV DQG D
UHWXUQ WR LOOLFLW GUXJ XVH VWULFW
PRQLWRULQJ RI WKH SDWLHQW DOVR VKRXOG
EH LQLWLDWHG

Pregnancy
5HVHDUFK RQ WKH VDIHW\ DQG HIILFDF\ RI
EXSUHQRUSKLQH LQ SUHJQDQW ZRPHQ
DQG QHRQDWHV LV VFDUFH DQG GDWD RQ
WKH SKDUPDFRNLQHWLFV RI
EXSUHQRUSKLQH LQ SUHJQDQW ZRPHQ
DQG QHRQDWHV DUH H[WUHPHO\ OLPLWHG
-RKQVRQ HW DO
0DUTXHW HW DO
7KH )'$ FODVVLILHV
EXSUHQRUSKLQH DV D 3UHJQDQF\
&DWHJRU\ & GUXJ 7KH )'$ 3UHJQDQF\
/DEHOLQJ 7DVN )RUFH ZKRVH ORQJ WHUP
JRDO LV WR GHWHUPLQH KRZ DQLPDO
WR[LFRORJLF LQIRUPDWLRQ FRQWULEXWHV WR
FOLQLFDOO\ PHDQLQJIXO LQIRUPDWLRQ LQ
SUHJQDQF\ DVVLJQV D SUHVFULSWLRQ GUXJ
IRU KXPDQV WR 3UHJQDQF\ &DWHJRU\ &
LI DQLPDO UHSURGXFWLRQ VWXGLHV KDYH
VKRZQ DQ DGYHUVH HIIHFW RQ WKH IHWXV
LI WKHUH DUH QR DGHTXDWH DQG ZHOO
FRQWUROOHG VWXGLHV LQ KXPDQV DQG
LI WKH EHQHILWV IURP WKH XVH RI WKH
GUXJ LQ SUHJQDQW ZRPHQ PD\ EH
DFFHSWDEOH GHVSLWH LWV SRWHQWLDO ULVNV
,Q DGGLWLRQ WR FRQVLGHULQJ WKH )'$
ZDUQLQJV SHUWDLQLQJ WR WKH XVH RI
EXSUHQRUSKLQH LQ SUHJQDQW ZRPHQ
SK\VLFLDQV DQG RWKHU KHDOWK FDUH
SURYLGHUV DOVR PXVW FRQVLGHU WKH ULVNV

$OVR 6XER[RQHŠ DQG 6XEXWH[Š PD\
LPSDLU WKH PHQWDO RU SK\VLFDO DELOLWLHV

A451

%XSUHQRUSKLQH 3KDUPDFRORJ\

RI LQIHFWLRXV GLVHDVHV DQG OLIHVW\OH
LVVXHV H J SRRU QXWULWLRQ ODFN RI
SUHQDWDO FDUH ZKHQ DGGUHVVLQJ WKH
QHHGV RI WKHVH SDWLHQWV &6$7

HIIHFWV RI EXSUHQRUSKLQH DUH QDXVHD
YRPLWLQJ KHDGDFKHV DQG FRQVWLSDWLRQ
ZKLFK FDQ EH VHYHUH HQRXJK WR PDNH
VRPH SDWLHQWV QRW ZDQW WR FRQWLQXH
ZLWK LQGXFWLRQ ,W FDQ EH GLIILFXOW LQ
WKH EHJLQQLQJ WR GLVWLQJXLVK EHWZHHQ
RQJRLQJ XQUHVROYHG ZLWKGUDZDO IURP
WKH DEXVHG RSLRLG GUXJ DQG
ZLWKGUDZDO WKDW LV SUHFLSLWDWHG E\ WKH
EXSUHQRUSKLQH 3OHDVH UHIHU DOVR WR WKH
VHFWLRQ RQ 3UHFLSLWDWHG :LWKGUDZDO
DQG :LWKGUDZDO 6\PSWRPV

7KHUH LV DOVR D TXHVWLRQ ZKHWKHU WKH
EXSUHQRUSKLQH DQG QDOR[RQH
FRPELQDWLRQ LV UHFRPPHQGHG IRU XVH
LQ SUHJQDQF\ 1DOR[RQH LV ODEHOHG E\
)'$ DV D 3UHJQDQF\ &DWHJRU\ % GUXJ
7KH )'$ 3UHJQDQF\ 7DVN )RUFH
DVVLJQV D SUHVFULSWLRQ GUXJ IRU
KXPDQV WR 3UHJQDQF\ &DWHJRU\ %
LI
DQLPDO UHSURGXFWLRQ VWXGLHV IDLOHG WR
GHPRQVWUDWH D ULVN WR WKH IHWXV DQG
LI WKHUH DUH QR DGHTXDWH DQG ZHOO
FRQWUROOHG VWXGLHV LQ SUHJQDQW ZRPHQ
'HVSLWH WKH IDFW WKDW QDOR[RQH LV
FODVVLILHG DV 3UHJQDQF\ &DWHJRU\ % LW
VKRXOG EH XVHG ZLWK FDXWLRQ LQ
SUHJQDQW ZRPHQ ZKR DUH DGGLFWHG WR
RSLRLGV

Interactions, Cautions, and
Contraindications
)RU D FRPSOHWH OLVW RI GUXJ
LQWHUDFWLRQV FRQWUDLQGLFDWLRQV
ZDUQLQJV DQG SUHFDXWLRQV SOHDVH
UHIHU WR WKH 6XEXWH[Š DQG
6XER[RQHŠ SDFNDJH LQVHUWV
KWWS ZZZ VXER[RQH FRP SGIV
6XER[RQH3, SGI

%HFDXVH ERWK PRWKHU DQG IHWXV ZLOO EH
GHSHQGHQW RQ WKH RSLRLGV XVHG E\ WKH
PRWKHU DGPLQLVWUDWLRQ RI QDOR[RQH
FRXOG SUHFLSLWDWH ZLWKGUDZDO LQ ERWK
,I LW LV GHWHUPLQHG WKDW EXSUHQRUSKLQH
LV WKH RQO\ DFFHSWDEOH RSWLRQ IRU WKH
WUHDWPHQW RI WKH SUHJQDQW ZRPDQ DQG
VKH XQGHUVWDQGV WKH LVVXHV DQG ULVNV
WKHQ VKH VKRXOG EH WUHDWHG ZLWK
EXSUHQRUSKLQH PRQRWKHUDS\ VR DV WR
DYRLG WKH ULVN RI IHWDO H[SRVXUH WR
QDOR[RQH ,W VKRXOG EH QRWHG WKDW XVH
RI EXSUHQRUSKLQH PRQRWKHUDS\
EHFDXVH RI LWV JUHDWHU SRWHQWLDO IRU
DEXVH QHFHVVLWDWHV PRUH IUHTXHQW
PRQLWRULQJ RI SDWLHQWV DQG WKHLU
PHGLFDWLRQV H J HYHU\ ² ZHHNV
&6$7

‡ ,Q VRPH LQVWDQFHV UHODSVH WR RSLRLG
GUXJ XVH PD\ EH OLIH WKUHDWHQLQJ $
QXPEHU RI GHDWKV KDYH RFFXUUHG
ZKHQ LQGLYLGXDOV KDYH PLVXVHG
EXSUHQRUSKLQH LQWUDYHQRXVO\
SDUWLFXODUO\ ZKHQ WKHUH LV
FRQFRPLWDQW XVH RI EHQ]RGLD]HSLQHV
DOFRKRO RU RWKHU RSLRLGV 3DWLHQWV
VKRXOG EH ZDUQHG RI WKH SRWHQWLDO
GDQJHU RI VHOI DGPLQLVWUDWLRQ RI
EHQ]RGLD]HSLQHV RU RWKHU FHQWUDO
QHUYRXV V\VWHP GHSUHVVDQWV ZKLOH
XQGHU WUHDWPHQW ZLWK 6XEXWH[Š RU
6XER[RQHŠ
‡ 3DWLHQWV VKRXOG WHOO WKHLU IDPLO\
PHPEHUV DQG IULHQGV WKDW LQ WKH
FDVH RI HPHUJHQF\ WKH WUHDWLQJ
SK\VLFLDQ RU HPHUJHQF\ URRP VWDII
VKRXOG EH LQIRUPHG WKDW WKH SDWLHQW
LV SK\VLFDOO\ GHSHQGHQW RQ RSLRLGV
DQG WKDW WKH SDWLHQW LV EHLQJ WUHDWHG
ZLWK 6XEXWH[Š RU 6XER[RQHŠ

Adverse Effects
7KH DGYHUVH HIIHFWV RI EXSUHQRUSKLQH
DUH VLPLODU WR WKRVH RI RWKHU RSLRLGV
EXW XVXDOO\ WKHVH HIIHFWV DUH OHVV
LQWHQVH WKDQ WKRVH VHHQ ZLWK IXOO
DJRQLVWV 7KH PRVW FRPPRQ DGYHUVH

A452

%XSUHQRUSKLQH $ *XLGH IRU 1XUVHV

‡ ,Q WKH FDVH RI RYHUGRVH SULPDU\
PDQDJHPHQW VKRXOG EH WKH UH
HVWDEOLVKPHQW RI DGHTXDWH
YHQWLODWLRQ ZLWK PHFKDQLFDO
DVVLVWDQFH RI UHVSLUDWLRQ LI UHTXLUHG
1DOR[RQH PD\ QRW EH HIIHFWLYH LQ
UHYHUVLQJ UHVSLUDWRU\ GHSUHVVLRQ
SURGXFHG E\ EXSUHQRUSKLQH

$GDSWHG IURP )'$ ODEHOLQJ IRU
6XER[RQHŠ DQG 6XEXWH[Š
DW
KWWS ZZZ IGD JRY FGHU IRL ODEHO
OEO SGI
6HYHUDO PHGLFDO FRQGLWLRQV DQG
PHGLFDWLRQV DV ZHOO DV FRQFXUUHQW
DEXVH RI RWKHU GUXJV DQG DOFRKRO
QHFHVVLWDWH FDXWLRQ RU DUH UHODWLYH
FRQWUDLQGLFDWLRQV WR EXSUHQRUSKLQH
WUHDWPHQW ([DPSOHV LQFOXGH &6$7

‡ 3DWLHQWV ZLWK KHSDWLF OLYHU GLVHDVH
PD\ QRW SURSHUO\ PHWDEROL]H WKHVH
GUXJV WKHLU GRVHV PD\ QHHG WR EH
DGMXVWHG DQG WKHVH SDWLHQWV VKRXOG
EH REVHUYHG IRU RSLRLG WR[LFLW\ RU
SUHFLSLWDWHG RSLRLG ZLWKGUDZDO

‡ 6HL]XUHV &DXWLRQ VKRXOG EH WDNHQ
ZKHQ EXSUHQRUSKLQH LV XVHG
FRQFXUUHQWO\ ZLWK DQWLVHL]XUH
PHGLFDWLRQV H J FDUEDPD]HSLQH
,Q DGGLWLRQ WKH UHODWLYH ULVN RI
LQWHUDFWLRQ EHWZHHQ EXSUHQRUSKLQH
DQG VHGDWLYH K\SQRWLFV H J
SKHQREDUELWDO VKRXOG EH NHSW LQ
PLQG 0RQLWRULQJ IRU WKHUDSHXWLF
SODVPD OHYHOV RI DQWLVHL]XUH
PHGLFDWLRQV VKRXOG EH FRQVLGHUHG

‡ 'UXJV WKDW UHTXLUH H[WUD SUHFDXWLRQV
DQG PD\ UHTXLUH GRVDJH DGMXVWPHQWV
LQFOXGH NHWRFRQD]ROH DQ DQWLIXQJDO
PHGLFDWLRQ IUHTXHQWO\ XVHG ZLWK
SDWLHQWV ZLWK +,9 $,'6 FHUWDLQ
DQWLELRWLFV +,9 SURWHDVH LQKLELWRUV
DQG QRQ QXFOHRVLGH UHYHUVH
WUDQVFULSWDVH LQKLELWRUV DQG FHUWDLQ
EDUELWXUDWHV XVHG WR FRQWURO HSLOHSV\
VHL]XUHV

‡ +,9 &DXWLRQ VKRXOG EH WDNHQ ZKHQ
EXSUHQRUSKLQH LV XVHG LQ
FRPELQDWLRQ ZLWK +,9 DQWLUHWURYLUDO
PHGLFDWLRQV EHFDXVH WKH\ PD\
LQKLELW LQGXFH RU EH PHWDEROL]HG E\
WKH F\WRFKURPH 3
$ HQ]\PH
V\VWHP 7KHVH SDWLHQWV PD\ UHTXLUH
GRVDJH DGMXVWPHQW

‡ %XSUHQRUSKLQH SURGXFWV VKRXOG EH
DGPLQLVWHUHG ZLWK FDXWLRQ LQ HOGHUO\
RU GHELOLWDWHG LQGLYLGXDOV DQG LQ
WKRVH ZLWK VHYHUH LPSDLUPHQWV LQ
KHSDWLF SXOPRQDU\ RU UHQDO
IXQFWLRQ

‡ +HSDWLWLV DQG LPSDLUHG KHSDWLF
IXQFWLRQ 9LUDO KHSDWLWLV VXFK DV
LQIHFWLRQ ZLWK +%9 DQG +&9 LV
FRPPRQ DPRQJ LQGLYLGXDOV ZKR
DEXVH RSLRLGV DQG VKRXOG EH
HYDOXDWHG DQG WUHDWHG DSSURSULDWHO\
$OWKRXJK SKDUPDFRWKHUDS\ ZLWK
EXSUHQRUSKLQH LV QRW
FRQWUDLQGLFDWHG RQ WKH EDVLV RI
PLOGO\ HOHYDWHG OLYHU HQ]\PHV OLYHU
HQ]\PHV VKRXOG EH HYDOXDWHG SULRU
WR LQGXFWLRQ RI WUHDWPHQW DQG
PRQLWRUHG IUHTXHQWO\ GRVDJH
PRGLILFDWLRQV PD\ EH QHFHVVDU\

Allergic Reactions
&DVHV RI DFXWH DQG FKURQLF
K\SHUVHQVLWLYLW\ WR EXSUHQRUSKLQH
KDYH EHHQ UHSRUWHG ERWK LQ FOLQLFDO
WULDOV DQG LQ WKH SRVWPDUNHWLQJ
H[SHULHQFH 7KH PRVW FRPPRQ VLJQV
DQG V\PSWRPV LQFOXGH UDVKHV KLYHV
DQG SUXULWXV &DVHV RI EURQFKRVSDVP
DQJLRQHXURWLF HGHPD DQG
DQDSK\ODFWLF VKRFN KDYH EHHQ
UHSRUWHG $ KLVWRU\ RI K\SHUVHQVLWLYLW\
WR EXSUHQRUSKLQH LV D FRQWUDLQGLFDWLRQ
WR 6XEXWH[Š RU 6XER[RQHŠ XVH $
KLVWRU\ RI K\SHUVHQVLWLYLW\ WR QDOR[RQH
LV D FRQWUDLQGLFDWLRQ WR 6XER[RQHŠ XVH

‡ 3UHJQDQF\ 5LVNV DQG EHQHILWV RI
EXSUHQRUSKLQH WUHDWPHQW PXVW EH

A453

%XSUHQRUSKLQH 3KDUPDFRORJ\

FRQVLGHUHG LI WKH SDWLHQW LV SUHJQDQW
RU OLNHO\ WR EHFRPH SUHJQDQW GXULQJ
WKH FRXUVH RI WUHDWPHQW ZLWK
EXSUHQRUSKLQH 'HWR[LILFDWLRQ
VKRXOG QRW EH FRQVLGHUHG IRU ZRPHQ
ZKR EHFRPH SUHJQDQW ZKLOH RQ
EXSUHQRUSKLQH SURGXFWV WKLV FRXOG
EH KDUPIXO WR WKH IHWXV ,I WKHVH
ZRPHQ FRQWLQXH ZLWK EXSUHQRUSKLQH
WKHUDS\ DV RSSRVHG WR VZLWFKLQJ WR
PHWKDGRQH WKH\ VKRXOG EH VZLWFKHG
IURP 6XER[RQHŠ WR 6XEXWH[Š

LQGXFWLRQ WKH\ PXVW HVWDEOLVK
UHODWLRQVKLSV ZLWK RQH RU PRUH VSHFLILF
SKDUPDFLHV WKDW FDQ SURYLGH LQLWLDO
GRVHV DQG SURYLGH VSHFLILF LQVWUXFWLRQV
IRU SDWLHQWV WR UHWXUQ WR WKH RIILFH
VHWWLQJ IRU LQGXFWLRQ DQG IROORZ XS
SUHVFULSWLRQV 3UHVFULEHUV RI
EXSUHQRUSKLQH DUH UHVSRQVLEOH IRU
IDPLOLDUL]LQJ WKHPVHOYHV ZLWK DOO
SHUWLQHQW )HGHUDO UHJXODWLRQV DV ZHOO
DV 6WDWH VSHFLILF UHTXLUHPHQWV IRU WKH
PDLQWHQDQFH RI EXSUHQRUSKLQH
SURGXFWV LQ RIILFH VHWWLQJV

‡ 8VH RI RWKHU GUXJV
%XSUHQRUSKLQH LV D WUHDWPHQW IRU
RSLRLG DGGLFWLRQ QRW IRU DGGLFWLRQ WR
RWKHU FODVVHV RI GUXJV 3DWLHQWV ZKR
XVH RU DEXVH PRUH WKDQ RQH
VXEVWDQFH SUHVHQW XQLTXH SUREOHPV
DQG PD\ QHHG UHIHUUDO WR UHVRXUFHV
RXWVLGH WKH RIILFH VHWWLQJ IRU PRUH
LQWHQVLYH WUHDWPHQW

)RU PRUH LQIRUPDWLRQ DERXW 6WDWH
VSHFLILF UHTXLUHPHQWV IRU PDLQWHQDQFH
RI EXSUHQRUSKLQH SURGXFWV LQ RIILFH
VHWWLQJV RU IRU LQVWUXFWLRQV RQ
HVWDEOLVKLQJ UHODWLRQVKLSV ZLWK
VXSSOLHUV RI WKH PHGLFDWLRQ IRU
LQGXFWLRQ XVH UHIHU WR WKH 6XER[RQHŠ
:HE VLWH KWWS ZZZ VXER[RQH FRP RU
FDOO ²
²68%2;21(

‡ $OFRKRO 6LQFH DOFRKRO LV D VHGDWLYH
K\SQRWLF GUXJ SDWLHQWV VKRXOG EH
DGYLVHG WR DEVWDLQ IURP DOFRKRO
ZKLOH WDNLQJ EXSUHQRUSKLQH
3DWLHQWV PD\ SUHVHQW ZLWK
ZLWKGUDZDO V\PSWRPV IURP RWKHU
GUXJV DW WKH VDPH WLPH WKH\ DUH
H[SHULHQFLQJ RSLRLG ZLWKGUDZDO
V\PSWRPV %XSUHQRUSKLQH ZLOO QRW
FRQWURO VHL]XUHV FDXVHG E\
ZLWKGUDZDO IURP DOFRKRO RU RWKHU
VHGDWLYH K\SQRWLF VXEVWDQFHV

7KH FRVW RI WKHUDS\ PD\ EH D PDMRU
OLPLWDWLRQ WR WKH XVH RI EXSUHQRUSKLQH
SURGXFWV 6XER[RQHŠ DQG 6XEXWH[Š
1XUVHV ZKR ZRUN ZLWK RSLRLG
GHSHQGHQW LQGLYLGXDOV VKRXOG EHFRPH
IDPLOLDU ZLWK 6WDWH DQG ORFDO UHVRXUFHV
DQG IXQGLQJ UHTXLUHPHQWV IRU
UHLPEXUVHPHQW WKURXJK ERWK SXEOLF
DQG SULYDWH SD\HUV 6WDWH VXEVWDQFH
DEXVH WUHDWPHQW GLUHFWRUV PD\ SURYLGH
PRUH LQIRUPDWLRQ DERXW VSHFLILF 6WDWH
DQG ORFDO UHVRXUFHV WR IXQG
EXSUHQRUSKLQH WKHUDS\ 5HIHU WR WKH
1DWLRQDO $VVRFLDWLRQ RI 6WDWH
$OFRKRO 'UXJ $EXVH 'LUHFWRUV
1$6$'$' :HE VLWH DW
KWWS ZZZ QDVDGDG RUJ LQGH[ SKS"
EDVHBLG
IRU LQIRUPDWLRQ DERXW
KRZ WR FRQWDFW VXEVWDQFH DEXVH
GLUHFWRUV LQ SDUWLFXODU 6WDWHV

Cost and Supply
3UHVFULSWLRQV ZULWWHQ E\ TXDOLILHG
SK\VLFLDQV ZLOO EH YDOLG DW DQ\
SKDUPDF\ EXW QRW DOO SKDUPDFLHV
FDUU\ WKHVH PHGLFDWLRQV ,I TXDOLILHG
SK\VLFLDQV WUHDW SDWLHQWV ZLWK
EXSUHQRUSKLQH SURGXFWV EXW GR QRW
PDLQWDLQ VXSSOLHV RI WDEOHWV IRU

A454

A455

Buprenorphine Treatment
Protocols—Office-Based Treatment
2IILFH EDVHG WUHDWPHQW RI RSLRLG
GHSHQGHQFH LQ FRQWUDVW WR IHGHUDOO\
UHJXODWHG RSLRLG WUHDWPHQW SURJUDPV
273V LV QRZ SHUPLWWHG E\ '$7$
2IILFH EDVHG WUHDWPHQW LQYROYHV
WKH FRRUGLQDWLRQ RI VHUYLFHV E\ D
SK\VLFLDQ·V RIILFH DV RSSRVHG WR 273V
LQ ZKLFK SK\VLFLDQV KDYH OLPLWHG
LQYROYHPHQW )LHOOLQ 2·&RQQRU

LPSURYH WKHLU SURIHVVLRQDO VNLOOV DQG
SUHSDUH WKHP IRU EHVW SUDFWLFHV LQ WKH
DGGLFWLRQ VHWWLQJV )RU PRUH
LQIRUPDWLRQ RQ EXSUHQRUSKLQH
WUHDWPHQW WUDLQLQJ SOHDVH YLVLW WKH
IROORZLQJ :HE VLWH
KWWS EXSUHQRUSKLQH VDPKVD JRY SOV
EZQV WUDLQLQJ KWPO

Medically Supervised
Withdrawal (Opioid
Detoxification With
Buprenorphine)

$GYDQWDJHV DQG FKDOOHQJHV DUH
DVVRFLDWHG ZLWK SURYLGLQJ RIILFH EDVHG
WUHDWPHQW 7KH DGYDQWDJHV LQFOXGH
LQFUHDVLQJ WKH DYDLODELOLW\ RI
WUHDWPHQW
WKH DELOLW\ WR WDLORU
VHUYLFHV WR WKH QHHGV RI SDWLHQWV
PLQLPL]DWLRQ RI WKH SRWHQWLDO
VWLJPD DVVRFLDWHG ZLWK WUHDWPHQW DQG
OLPLWLQJ SDWLHQWV· FRQWDFW ZLWK
GUXJ DEXVLQJ SDWLHQWV

7KH WHUP ´PHGLFDO ZLWKGUDZDOµ KDV
EHHQ FKRVHQ E\ H[SHUWV LQ WKH ILHOG
EHFDXVH LW PRUH DFFXUDWHO\ UHIOHFWV WKH
SK\VLFLDQ·V UROH LQ ZLWKGUDZDO
DGDSWHG IURP &6$7 *XLGHOLQHV IRU
WKH $FFUHGLWDWLRQ RI 2SLRLG 7UHDWPHQW
3URJUDPV
DW
KWWS ZZZ GSW VDPKVD JRY SGI
JXLGHOLQHV SGI

&KDOOHQJHV WR LPSOHPHQWLQJ RIILFH
EDVHG WUHDWPHQW LQFOXGH
WKH QHHG
IRU KHDOWK FDUH SURYLGHUV WR DFTXLUH
FOLQLFDO H[SHULHQFH ZLWK D QHZ
SRSXODWLRQ RI SDWLHQWV ZKR DEXVH RU
DUH DGGLFWHG WR RSLRLGV DQG RWKHU
GUXJV DQG
WKH DELOLW\ WR SURYLGH RU
UHFRPPHQG DSSURSULDWH SV\FKRVRFLDO
VHUYLFHV VXFK DV FRXQVHOLQJ
HGXFDWLRQDO DQG YRFDWLRQDO VHUYLFHV
,Q DGGLWLRQ LVVXHV VXFK DV
LQDSSURSULDWH SUHVFULELQJ PHGLFDWLRQ
GLYHUVLRQ DQG SDWLHQW FRQILGHQWLDOLW\
PXVW EH DGGUHVVHG SURSHUO\ &6$7
)LHOOLQ DQG 2·&RQQRU
,W
LV YLWDO IRU QXUVHV WR VHHN HGXFDWLRQDO
FRXUVHV VXFK DV EXSUHQRUSKLQH
FRXUVHV RIIHUHG E\ WKH $6$0 WR

)RU SDWLHQWV ZKR DUH SK\VLFDOO\
GHSHQGHQW RQ KHURLQ RU RWKHU VKRUW
DFWLQJ RSLRLGV EXSUHQRUSKLQH PD\ EH
LQLWLDWHG DW OHDVW ² KRXUV EXW
SUHIHUDEO\ ² KRXUV DIWHU WKH
SDWLHQW ODVW XVHG RSLRLGV &6$7
2SWLPDOO\ EXSUHQRUSKLQH
VKRXOG EH DGPLQLVWHUHG ZKHQ WKH
SDWLHQW H[KLELWV GHILQLWH VLJQV RI
ZLWKGUDZDO 7KH PD[LPDO
UHFRPPHQGHG LQGXFWLRQ GRVH RI
EXSUHQRUSKLQH LV PJ RQ GD\ JLYHQ
DW RQFH RU LQ GLYLGHG GRVHV DV
FOLQLFDOO\ LQGLFDWHG &6$7

A456

%XSUHQRUSKLQH $ *XLGH IRU 1XUVHV

3UHFLSLWDWHG ZLWKGUDZDO PD\ RFFXU LQ
VZLWFKLQJ IURP PHWKDGRQH RU RWKHU
ORQJ DFWLQJ PHGLFDWLRQ WR
EXSUHQRUSKLQH 7KHUHIRUH SDWLHQWV
ZKR DUH SK\VLFDOO\ GHSHQGHQW RQ
PHWKDGRQH RU RWKHU ORQJ DFWLQJ
RSLRLGV PXVW EH FDUHIXOO\ VHOHFWHG IRU
EXSUHQRUSKLQH WKHUDS\ $SSURSULDWH
SDWLHQWV PD\ LQFOXGH WKRVH ZKR KDYH
KDG GLIILFXOW\ DGKHULQJ WR VFKHGXOHG
YLVLWV DW 273V GXH WR SHUVRQDO
FRQIOLFWV DQG ZRUN VFKHGXOHV RU WUDYHO
DV RSSRVHG WR WKRVH ZKR KDYH EHHQ
QRQFRPSOLDQW ZLWK PHWKDGRQH
WUHDWPHQW DSSRLQWPHQWV 2WKHU
DSSURSULDWH FDQGLGDWHV LQFOXGH
SDWLHQWV ZKR KDYH D KLVWRU\ RI
XQFRQWUROODEOH DGYHUVH HIIHFWV RU WUXH
K\SHUVHQVLWLYLW\ WR PHWKDGRQH

PJ LQ D

KRXU SHULRG &6$7

0HGLFDOO\ VXSHUYLVHG ZLWKGUDZDO LV
RQO\ WKH ILUVW VWDJH RI DGGLFWLRQ
WUHDWPHQW DQG E\ LWVHOI RIWHQ GRHV
OLWWOH WR FKDQJH ORQJ WHUP GUXJ XVH
7KH JRDO RI PHGLFDOO\ VXSHUYLVHG
ZLWKGUDZDO LV WR PDQDJH WKH DFXWH
SK\VLFDO V\PSWRPV RI ZLWKGUDZDO
VDIHO\ 0HGLFDOO\ VXSHUYLVHG
ZLWKGUDZDO LV VWURQJO\ LQGLFDWHG DV D
SUHFXUVRU WR HIIHFWLYH GUXJ DGGLFWLRQ
WUHDWPHQW IRU VRPH LQGLYLGXDOV
+RZHYHU PHGLFDOO\ VXSHUYLVHG
ZLWKGUDZDO DORQH LV UDUHO\ VXIILFLHQW WR
DFKLHYH ORQJ WHUP DEVWLQHQFH &6$7
&6$7
D 3URYLGHUV PXVW
KHOS SDWLHQWV DYRLG ZLWKGUDZDO
V\PSWRPV ZKLOH PDNLQJ D VPRRWK
WUDQVLWLRQ IURP D SK\VLFDOO\ GHSHQGHQW
WR D SK\VLFDOO\ QRQGHSHQGHQW VWDWH VR
SDWLHQWV FDQ WKHQ HQJDJH LQ IXUWKHU
UHKDELOLWDWLRQ WR SUHYHQW UHODSVH
ZLWKRXW RSLRLG DJRQLVW WUHDWPHQW 7R
EH HIIHFWLYH PHGLFDOO\ VXSHUYLVHG
ZLWKGUDZDO VKRXOG EH IROORZHG E\
ORQJ WHUP GUXJ WUHDWPHQW WKHUDS\ RU
QDOWUH[RQH WKHUDS\ WR PLQLPL]H WKH
ULVN RI UHODSVH WR RSLRLG DEXVH &6$7

3DWLHQWV ZKR DUH VWDEOH RQ PHWKDGRQH
PDLQWHQDQFH DQG ZKR GR QRW KDYH D
FRPSHOOLQJ UHDVRQ WR VZLWFK WKHUDS\
VKRXOG FRQWLQXH PHWKDGRQH
PDLQWHQDQFH EHFDXVH RI WKH HOHYDWHG
ULVN IRU SUHFLSLWDWHG ZLWKGUDZDO
GXULQJ WKH FRQYHUVLRQ IURP PHWKDGRQH
WR EXSUHQRUSKLQH 7KLV ULVN LV
HVSHFLDOO\ VLJQLILFDQW ZKHQ
EXSUHQRUSKLQH LV VWDUWHG VKRUWO\ DIWHU
WKH ODVW PHWKDGRQH GRVH DQG LQ
SDWLHQWV PDLQWDLQHG RQ PHWKDGRQH
GRVHV JUHDWHU WKDQ ² PJ GDLO\ 7R
DYRLG SUHFLSLWRXV RQVHW RI ZLWKGUDZDO
V\PSWRPV ORQJ DFWLQJ RSLRLGV VKRXOG
EH WDSHUHG WR WKH HTXLYDOHQW RI ²
PJ RI PHWKDGRQH GDLO\ DQG WKH ODVW
GRVH RI PHWKDGRQH VKRXOG EH WDNHQ DW
OHDVW
KRXUV SULRU WR LQLWLDWLRQ RI WKH
EXSUHQRUSKLQH WKHUDS\ IRU PHWKDGRQH
DQG DW OHDVW
KRXUV IRU OHYRPHWKDG\O
DFHWDWH /$$0 1RWH WKDW WKLV
FRQYHUVLRQ GRVH RI PHWKDGRQH VKRXOG
QRW EH FRQVLGHUHG DV WKH GRVH
HTXLYDOHQW WR D VWDUWLQJ GRVH RI
EXSUHQRUSKLQH 7KH LQGXFWLRQ GRVH RI
EXSUHQRUSKLQH VKRXOG VWDUW DW PJ
DQG PD\ EH UHSHDWHG DV QHHGHG XS WR

>$@EVHQW D FRPSHOOLQJ QHHG IRU
WKH FRPSOHWH DYRLGDQFH RI DOO
RSLRLGV ORQJ WHUP PDLQWHQDQFH
WUHDWPHQW ZLWK EXSUHQRUSKLQH LV
WR EH SUHIHUUHG LQ PRVW LQVWDQFHV
WR DQ\ IRUP RI GHWR[LILFDWLRQ RU
ZLWKGUDZDO WUHDWPHQW 7KH
OLWHUDWXUH VXJJHVWV WKDW WKH XVH RI
EXSUHQRUSKLQH IRU JUDGXDO
GHWR[LILFDWLRQ RYHU ORQJ SHULRGV LV
SUREDEO\ PRUH HIIHFWLYH WKDQ LWV
XVH IRU UDSLG PHGLFDOO\
VXSHUYLVHG ZLWKGUDZDO RYHU VKRUW
RU PRGHUDWH SHULRGV &6$7
SDJH

A457

%XSUHQRUSKLQH 7UHDWPHQW 3URWRFROV

7KH RSWLPDO UDWH DW ZKLFK
EXSUHQRUSKLQH VKRXOG EH UHGXFHG LV D
PDWWHU RI RQJRLQJ UHVHDUFK +RZHYHU
WKH GRVH PD\ EH GHFUHDVHG E\ DV PXFK
DV
SHUFHQW SHU GD\ ZLWK D PLOG
ZLWKGUDZDO V\QGURPH WKDW JHQHUDOO\
EHFRPHV PDQLIHVW VHYHUDO GD\V DIWHU
WKH ODVW GRVH DQG WKDW FDQ EH WUHDWHG
ZLWK QRQ RSLRLG RYHU WKH FRXQWHU
V\PSWRPDWLF UHPHGLHV

2IILFH %DVHG 7UHDWPHQW

‡ 0LG WHUP PHGLFDOO\ VXSHUYLVHG
ZLWKGUDZDO 3DWLHQWV ZLWKRXW D
FRPSHOOLQJ QHHG WR XQGHUJR VKRUW
WHUP PHGLFDOO\ VXSHUYLVHG
ZLWKGUDZDO EXW ZLWK D GHVLUH WR EH
RSLRLG IUHH DQG WR HQJDJH LQ
UHKDELOLWDWLRQ PD\ EH SODFHG LQ D
PRGHUDWH SHULRG UHGXFWLRQ 3DWLHQWV
LQ WKLV JURXS PD\ EH ZLWKGUDZQ
RYHU D SHULRG RI ² GD\V RU PRUH
XS WR
GD\V &6$7

7KH EHVW PHWKRG LV RQH WKDW LV VORZ
HDV\ DQG FRPIRUWDEOH IRU SDWLHQWV
0HGLFDO ZLWKGUDZDO RI FRPSOLDQW
SDWLHQWV VKRXOG SURFHHG VORZO\ DW D
UDWH WKDW WKH SUHVFULEHU GHWHUPLQHV WR
EH WKHUDSHXWLF IRU H[DPSOH DW PJ
SHU PRQWK XQWLO WKH SDWLHQW IHHOV UHDG\
WR GLVFRQWLQXH EXSUHQRUSKLQH
DOWRJHWKHU

‡ /RQJ WHUP PHGLFDOO\ VXSHUYLVHG
ZLWKGUDZDO 3DWLHQWV ZKR DUH
XQZLOOLQJ RU XQDEOH WR HQJDJH
DFWLYHO\ LQ UHKDELOLWDWLRQ VHUYLFHV
ZLWKRXW DJRQLVW VXSSRUW PD\ QRW EH
JRRG FDQGLGDWHV IRU VKRUW WHUP
GHWR[LILFDWLRQ EXW WKH\ PD\ EHQHILW
IURP D ORQJ SHULRG RI UHGXFWLRQ
ZKLFK PD\ ODVW EHWZHHQ
DQG
GD\V 7KHVH SDWLHQWV PD\ DOVR
EH VXLWDEOH FDQGLGDWHV IRU
PDLQWHQDQFH WKHUDS\ &6$7

1RQFRPSOLDQW SDWLHQWV PD\ QHHG WR EH
WUDQVIHUUHG WR RWKHU PHGLFDO
WUHDWPHQW VXFK DV PHWKDGRQH
SURJUDPV RU WR QRQPHGLFDO WUHDWPHQW
SURJUDPV ZKHUH WKH\ FDQ UHFHLYH PRUH
VWUXFWXUH DQG VXSHUYLVLRQ

)HZ SDWLHQWV DUH OLNHO\ WR PDLQWDLQ
DEVWLQHQFH ZLWKRXW PHGLFDWLRQ VR
PHGLFDOO\ VXSHUYLVHG ZLWKGUDZDO LV
FRQVLGHUHG RQO\ IRU SDWLHQWV ZLWK
HYLGHQFH RI VXVWDLQHG PHGLFDO DQG
SV\FKRVRFLDO VWDELOLW\ 3DWLHQWV VKRXOG
EH HQFRXUDJHG WR FRQWLQXH ZLWK
EXSUHQRUSKLQH PDLQWHQDQFH WKHUDS\ LI
PHGLFDOO\ VXSHUYLVHG ZLWKGUDZDO LV
XQVXFFHVVIXO

Classifications of Medically
Supervised Withdrawal
‡ 6KRUW WHUP PHGLFDOO\ VXSHUYLVHG
ZLWKGUDZDO 3DWLHQWV ZLWK D
FRPSHOOLQJ UHDVRQ WR EH RSLRLG IUHH
TXLFNO\ LPSHQGLQJ LQFDUFHUDWLRQ
IRUHLJQ WUDYHO MRE UHTXLUHPHQW HWF
ZLOO EH FRQVLGHUHG IRU WKLV PHWKRG LQ
ZKLFK WKH EXSUHQRUSKLQH GRVH LV
UHGXFHG RYHU GD\V RU ORQJHU DQG
WKHQ GLVFRQWLQXHG 7KLV PHWKRG LV
EHWWHU DFFHSWHG DQG PRUH HIIHFWLYH LQ
UHOLHYLQJ ZLWKGUDZDO V\PSWRPV WKDQ
LV FORQLGLQH &KHVNLQ )XGDOD
-RKQVRQ
+RZHYHU GDWD DUH
LQVXIILFLHQW DERXW UHODSVH UDWHV DQG
ORQJ WHUP RXWFRPHV IRU SDWLHQWV ZKR
XQGHUJR VKRUW WHUP ZLWKGUDZDO
&6$7

Maintenance Treatment
7KH WKUHH SKDVHV RI EXSUHQRUSKLQH
WKHUDS\ LQFOXGH LQGXFWLRQ
VWDELOL]DWLRQ DQG PDLQWHQDQFH
0DLQWHQDQFH LV UHDFKHG ZKHQ WKH
SDWLHQW LV GRLQJ ZHOO RQ D VWHDG\ GRVH
RI EXSUHQRUSKLQH³SUHIHUDEO\
6XER[RQHŠ WKH EXSUHQRUSKLQH DQG
QDOR[RQH FRPELQDWLRQ SURGXFW
‡ ,QGXFWLRQ SKDVH 7KH LQGXFWLRQ
SKDVH LV WKH PHGLFDOO\ PRQLWRUHG

A458

Buprenorphine: A Guide for Nurses

and supervised start-up of
buprenorphine therapy. The goal of
induction is to find the minimum
dose at which the patient markedly
reduces or eliminates use of other
opioids and experiences no
withdrawal symptoms, side effects,
or cravings. Induction can be
initiated in the physician’s office,
with induction doses administered
as observed treatment, and
subsequent doses provided through
prescription (CSAT, 2004). Most
patients can be inducted into
treatment over 2–3 days by using
the combination product Suboxone®.
During the induction phase,
buprenorphine products are
administered when an opioiddependent individual has abstained
from using short-acting opioids for
at least 6–8 hours, and when
individuals on long-acting opioids
have abstained for more than
24 hours and are in the early stages
of withdrawal. Buprenorphine
treatment cannot begin until
patients are exhibiting objective
signs and symptoms of opioid
withdrawal. If patients are not in
the early stages of withdrawal (i.e.,
when they have other opioids in the
bloodstream), the administration of
buprenorphine may precipitate
withdrawal (FDA, 2002; HRSABPHC, 2003).

is the highly motivated patient who
has already detoxified himself
several days before beginning
induction. This patient may not
exhibit significant objective
withdrawal symptoms but may be
dealing with significant cravings
(Kathleen Thompson-Gargano,
personal communication, October
2006).
• Stabilization phase. The
stabilization phase begins when
patients who have discontinued or
greatly reduced the use of their drug
of abuse no longer have cravings and
are experiencing few or no side
effects. The buprenorphine dose may
need to be adjusted during this
phase. Once stabilization has been
achieved, the long half-life of
buprenorphine sometimes makes it
possible to switch patients to
alternate-day dosing (HRSA-BPHC,
2003). Psychosocial counseling is a
priority during the stabilization
phase (HRSA-BPHC, 2003).
• Maintenance phase. The
maintenance phase is reached when
the patient is doing well on a steady
dose of buprenorphine (preferably
Suboxone®, the buprenorphine and
naloxone combination product). The
length of time of maintenance
therapy is individualized, and it may
be indefinite (CSAT, 2004). Patients
should receive ongoing assessments
and urine drug screens (CSAT,
2004).

Patient education is very important
in the induction phase. Withdrawal
involves extreme discomfort, and
patients may act to avoid it. It may
be particularly helpful to ask
patients about their typical first
three signs of withdrawal and when
they occur, so that the patient and
provider can work together to
prevent withdrawal.

Initially, patients should be seen
daily or have daily phone contact
while induction is being completed.
Then they should be seen at least
weekly until they are well stabilized,
when they may be seen no less
frequently than every 4 weeks
(CSAT, 2004).

One exception to the rule about
adequate objective withdrawal signs

22

A459

%XSUHQRUSKLQH 7UHDWPHQW 3URWRFROV

3K\VLFLDQV VKRXOG GHWHUPLQH WKH
OHQJWK RI WUHDWPHQW RQ EXSUHQRUSKLQH
DFFRUGLQJ WR WKH LQGLYLGXDO SDWLHQW·V
QHHGV DQG EH VXUH WR LQYROYH SDWLHQWV
LQ WKH GHYHORSPHQW RI WKHLU WUHDWPHQW

2IILFH %DVHG 7UHDWPHQW

SODQV 7KH OHQJWK RI WUHDWPHQW PD\ EH
DV VKRUW DV D IHZ GD\V IRU PHGLFDO
ZLWKGUDZDO GHWR[LILFDWLRQ VHUYLFHV WR
DV ORQJ DV VHYHUDO \HDUV IRU
PDLQWHQDQFH WKHUDS\

A460

A461

Precipitated Withdrawal and
Withdrawal Symptoms
UHFHLYLQJ D ILUVW GRVH RI EXSUHQRUSKLQH
7KLV FRQGLWLRQ LV RI SDUWLFXODU
LPSRUWDQFH IRU SDWLHQWV RQ ORQJ DFWLQJ
RSLRLG DJRQLVWV H J PHWKDGRQH 'XH WR
WKLV UHTXLUHG DEVWLQHQFH EHIRUH WKH
LQLWLDWLRQ RI EXSUHQRUSKLQH WUHDWPHQW
LW LV OLNHO\ WKDW SDWLHQWV ZLOO IHHO WKDW
WKH\ DUH H[SHULHQFLQJ WKH HDUO\ VWDJHV RI
ZLWKGUDZDO ZKHQ WKH\ SUHVHQW IRU
EXSUHQRUSKLQH LQGXFWLRQ WUHDWPHQW ,I D
SDWLHQW KDV HDUO\ V\PSWRPV RI
ZLWKGUDZDO WKH RSLRLG UHFHSWRUV DUH
XQOLNHO\ WR EH RFFXSLHG IXOO\
SUHFLSLWDWHG ZLWKGUDZDO IURP
DGPLQLVWUDWLRQ RI EXSUHQRUSKLQH ZLOO EH
DYRLGHG DQG WKH HIILFLHQF\ RI
EXSUHQRUSKLQH LQ DOOHYLDWLQJ
ZLWKGUDZDO V\PSWRPV FDQ EH DVVHVVHG
PRUH HDVLO\ &6$7

Avoiding Precipitated
Withdrawal
3UHFLSLWDWHG ZLWKGUDZDO LV PRUH OLNHO\ WR
RFFXU ZLWK KLJKHU OHYHOV RI RSLRLG
GHSHQGHQFH ZLWK VKRUW WLPH LQWHUYDOV
H J OHVV WKDQ KRXUV EHWZHHQ D GRVH RI
D IXOO RSLRLG DJRQLVW DQG D GRVH RI
EXSUHQRUSKLQH DQG ZLWK KLJKHU GRVHV RI
EXSUHQRUSKLQH :LWKGUDZDO PD\ EH
LQWHQVH DQG RI UDSLG RQVHW 7KH EHVW ZD\
WR DYRLG SUHFLSLWDWHG ZLWKGUDZDO LV WR
DVVHVV DFFXUDWHO\ WKH LQGLYLGXDO·V
SDWWHUQV RI RSLRLG XVH WR GHWHUPLQH
ZKHWKHU WKH SDWLHQW ZDV RQ VKRUW RU ORQJ
DFWLQJ RSLRLG PHGLFDWLRQV EHIRUH LQLWLDWLQJ
EXSUHQRUSKLQH DQG WR PRQLWRU WULDO
GRVLQJ KWWS ZZZ SEP YD JRY
FULWHULD %XSUHQRUSKLQH&ULWHULD)RU8VH
SGI &6$7

Assessment of Withdrawal
Symptoms

%XSUHQRUSKLQH FDQ SUHFLSLWDWH DQ RSLRLG
ZLWKGUDZDO V\QGURPH LI DGPLQLVWHUHG WR
D SDWLHQW ZKR LV RSLRLG GHSHQGHQW DQG
ZKRVH UHFHSWRUV DUH FXUUHQWO\ RFFXSLHG
E\ RSLRLGV 7KHUHIRUH D SDWLHQW VKRXOG
QR ORQJHU KDYH DQ\ UHVLGXDO RSLRLG HIIHFW
IURP KLV RU KHU ODVW GRVH RI RSLRLG EHIRUH

&RPPRQ VLJQV DQG V\PSWRPV RI RSLRLG
ZLWKGUDZDO LQFOXGH
KWWS EXSUHQRUSKLQH VDPKVD JRY
DERXW KWPO

Objective
‡
‡
‡
‡
‡
‡
‡
‡
‡

Elevated pulse and blood pressure
Vomiting/diarrhea
Diaphoresis (sweating)
Lacrimation (tears)
Rhinorrhea (runny nose)
Dilated pupils
Piloerection (“goose flesh”)
Yawning
Mild fever

Subjective
‡
‡
‡
‡
‡
‡
‡
‡

A462

Dysphoric mood
Nausea
Muscle aches/cramps/bone pain
Low back pain
Abdominal pain
Insomnia
Craving
Anxiety/irritability/restlessness

%XSUHQRUSKLQH $ *XLGH IRU 1XUVHV
Figure 1. Staging and Grading Systems of Opioid Withdrawal
Stage

Grade

Early Withdrawal
(8–24 hours after last use)

Physical Signs and Symptoms

1

Lacrimation
Rhinorrhea
Diaphoresis
Yawning
Restlessness
Insomnia

2

Piloerection
Muscle twitching
Myalgia
Arthralgia
Abdominal pain

Fully Developed Withdrawal
(1–3 days after last use)

3

Tachycardia
Hypertension
Tachypnea
Fever
Anorexia
Nausea
Extreme restlessness

Fully Developed Withdrawal
(1–3 days after last use)

4

Diarrhea
Vomiting
Dehydration
Hyperglycemia
Hypotension
Curled-up position

HIV Web Study (http://www.HIVwebstudy.org)

Supported by HRSA

$V LQGLYLGXDOV SURJUHVV WKURXJK WKH
IROORZLQJ VWDJHV RI RSLRLG ZLWKGUDZDO
WKH\ SURJUHVVLYHO\ KDYH PRUH VHYHUH
V\PSWRPV &6$7

Helping Patients Manage
Mild Withdrawal Symptoms
8VXDOO\ PHGLFDOO\ VXSHUYLVHG
ZLWKGUDZDO IURP 6XER[RQHŠ FDXVHV
PLOG WUDQVLWRU\ ZLWKGUDZDO
V\PSWRPV 3DWLHQWV VKRXOG EH
SUHSDUHG IRU WKH RFFXUUHQFH RI SRVVLEOH
V\PSWRPV VXFK DV UHGXFHG HQHUJ\
UHGXFHG DSSHWLWH LUULWDELOLW\ RU
LQVRPQLD ,W LV DOVR LPSRUWDQW IRU
SDWLHQWV WR XQGHUVWDQG WKDW WKH\ FDQ
KDOW WKH PHGLFDO ZLWKGUDZDO DW DQ\
WLPH DQG UHWXUQ WR D KLJKHU GRVH 6HH
6XER[RQHŠ 7UHDWPHQW :DONWKURXJK
KWWS ZZZ VXER[RQH FRP KFS
RSLRLGGHSHQGHQFH
VXER[RQHBWUHDWPHQW DVS[

6LJQV DQG V\PSWRPV RI ZLWKGUDZDO
PD\ EH DVVHVVHG E\ XVLQJ
VWDQGDUGL]HG LQVWUXPHQWV VXFK DV WKH
&OLQLFDO 2SLDWH :LWKGUDZDO 6FDOH
&2:6 :HVVRQ /LQJ
WKH
6XEMHFWLYH 2SLDWH :LWKGUDZDO 6FDOH
62:6 +DQGHOVPDQ HW DO
RU
WKH 2EMHFWLYH 2SLDWH :LWKGUDZDO
6FDOH 22:6 +DQGHOVPDQ HW DO
VHH $SSHQGL[ ' $VVHVVPHQW
,QVWUXPHQWV

A463

Precipitated Withdrawal and Withdrawal Symptoms

Tapering
The patient’s Suboxone® dose should be
tapered slowly at a rate that both the
prescriber and the patient consider
acceptable. Patients commonly want to
taper more quickly, so helping patients
set realistic goals at the outset is
important. Some patients will ask to
proceed directly from stabilization to
medically supervised withdrawal.
However, unless there is a compelling
reason to discontinue Suboxone®
quickly (e.g., travel), a slow taper is
usually encouraged, because it is
associated with a higher likelihood of
treatment success (CSAT, 2004).
Although no standard dosing protocol
exists for medically supervised
withdrawal, sample protocols are
provided in the Suboxone® and
Subutex® Dosing Guide at
http://www.suboxone.com/hcp/
opioiddependence/ dosing_guide.aspx.

• Maalox®, 30 cc by mouth every
2 hours as needed for GI distress
• Diphenhydramine, 50 mg by mouth at
bedtime as needed for severe insomnia
The following prescribed medications
may be helpful at controlling
withdrawal symptoms (see Erickson,
2006; and http://www.fda.gov/ohrms/
dockets/dailys/03/jul03/072503/072503
.htm and http://www.fda.gov/cder/
Offices/OTC/default.htm).
• Dicyclomine, 40mg by mouth every
6 hours as needed for abdominal pain
• Promethazine, 25 mg intramuscularly every 6 hours as needed
for nausea and vomiting
• Promethazine, 25 mg by mouth
every 6 hours as needed for nausea
• Lopermide, 2 mg by mouth every
6 hours as needed for diarrhea
• Clonidine, 0.1 mg by mouth every
2 hours as needed for severe anxiety

Self-Management of Mild
Withdrawal Symptoms With
Over-the-Counter or
Prescription Medications

Management of Patients
With Co-Occurring Pain

Suboxone®

Medical withdrawal from
causes mild withdrawal symptoms, such
as muscle pain, nausea, gastrointestinal
(GI) distress, and insomnia. Patients
may benefit from over-the-counter
medications or prescribed medications
to alleviate symptoms.
Over-the-counter medications for symptom
relief include those listed in Erickson
(2006) and at http://www.fda.gov/
cder/Offices/OTC/default.htm.
• Ibuprofen, 800 mg by mouth every
6 hours as needed for muscle aches
• Acetaminophen, 1,000 mg by mouth
every 4 hours as needed for pain

Pain is an unpleasant sensory and
emotional experience associated with
actual or potential tissue damage, or
described in terms of such damage
(Merskey, 1979). Pain may be classified
as either acute or chronic. Acute pain is
associated with injury to body tissue,
often accompanied with objective signs
of sympathetic nervous system activity,
and generally subsides as the injury
heals. Chronic pain extends beyond a
normal healing period, or in some cases
the underlying cause of the pain cannot
be identified. Chronic pain usually
persists longer than 3 months and is
rarely accompanied by symptomatic
nervous system activity. Lack of
objective signs may prompt the clinician

27

A464

Buprenorphine: A Guide for Nurses

to conclude that the patient doesn’t
appear to be in pain (APS, 2003; Loeser
& Melzack, 1999). Both acute and
chronic pain can have an impact on the
dimensions of the patient’s quality of
life including physical, social,
psychological, and spiritual well-being
(Ferrell et al., 1999).
Pain Assessment
The purpose of pain assessment is to
(1) identify the pain level at which pain
does not interfere with activities related
to recovery or quality of life (QOL) level
at which the patient can perform
activities of daily living (ADLs); and
(2) effectively measure interventions
used in each patient’s pain management
plan (Grimes, 2006). The criteria of pain
assessment are as follows:
Onset and
treatment
pattern

•
•

Location

•
•

Where is the pain?
Is there more than one
site of pain?

Description

•

What does the pain feel
like?
What words describe the
pain?

•

•

When did the pain start?
How often does the pain
occur?
Has pain intensity
changed?

Aggravating
and
alleviating
factors

•

What makes the pain
better? Worse?

Previous
treatment

•

What treatment have
you tried to relieve the
pain?
Were these effective?

•

Effect

•

How does the pain affect
physical and social
function?

Intensity

•

Using a pain scale, rate
the intensity of the pain.

Multimodal Approach to the
Treatment of Pain
The first approach to the treatment of
pain is pharmacologic intervention.
Carr and Goudas (1999) state that
patients with moderate to severe acute
pain often require opioid analgesics
while they are receiving regular
opioid-agonist therapy. If acute pain
remains undertreated, it will decrease
a patient’s responsiveness to opioid
analgesics; thus, controlling the
subsequent pain will be far more
difficult (Collett, 1998; Mao, Price, &
Mayer, 1995). Multimodal analgesia,
such as nonsteroidal antiinflammatory drugs (NSAIDs), and
acetaminophen and adjuvant
analgesics, such as tricyclic
antidepressants that enhance opioid
effects, may be an appropriate pain
therapy to decrease the total amount
of opioid provided to patients (Kehlet
& Dahl, 1993; Mitra & Sinatra, 2004).
Meanwhile, clinicians must continue
the opioid-agonist treatment for the
patient before prescribing analgesia to
avoid the increased pain sensitivity
associated with opioid withdrawal
(Jasinski, 1997).
The second approach is
nonpharmacological interventions
including physical and cognitive
behavioral modalities. Cutaneous
(skin) stimulation, exercise,
immobilization, and acupuncture are
examples of physical intervention.
Cognitive behavioral modalities
include relaxation and imagery,
distraction and reframing, patient
education, structured support,
hypnosis, and pastoral counseling
(Simon et al., 2002).
Finally, ongoing assessment and
documentation of pain management
intervention are crucial. Nurses

(AHCPR, 1994)

28

A465

3UHFLSLWDWHG :LWKGUDZDO DQG :LWKGUDZDO 6\PSWRPV

VKRXOG SHULRGLFDOO\ DVVHVV WKH IRXU
´$ Vµ RI SDLQ PDQDJHPHQW 7KRVH
LQFOXGH
$QDOJHVLD
$FWLYLWLHV RI
GDLO\ OLYLQJ
$GYHUVH HIIHFWV DQG
$EHUUDQW GUXJ UHODWHG EHKDYLRUV
$36

RQO\ ZKLOH FRQWLQXLQJ
EXSUHQRUSKLQH PDLQWHQDQFH
WKHUDS\
$GPLQLVWHU RSLRLG DQDOJHVLFV ZKLOH
GLVFRQWLQXLQJ EXSUHQRUSKLQH
PDLQWHQDQFH WKHUDS\ 5HWXUQ WR
EXSUHQRUSKLQH WKHUDS\ ZKHQ DFXWH
SDLQ LV OHVV LQWHQVH DQG GRHV QRW
UHTXLUH RSLRLG DQDOJHVLFV

Management of Acute Pain in
Patients on Buprenorphine
Maintenance Therapy

'LYLGH EXSUHQRUSKLQH GRVH DQG
DGPLQLVWHU HYHU\ ² KRXUV

,I WKH SDWLHQW UHTXLUHV RSLRLG
DQDOJHVLFV ZKLOH UHFHLYLQJ
EXSUHQRUSKLQH PDLQWHQDQFH WKHUDS\
WKH IROORZLQJ RSWLRQV PD\ EH
DSSURSULDWH $OIRUG &RPSWRQ
6DPHW

'LVFRQWLQXH EXSUHQRUSKLQH LQ FDVH RI
KRVSLWDOL]DWLRQ DQG SURYLGH
PHWKDGRQH
² PJ IRU WUHDWLQJ
RSLRLG GHSHQGHQFH DQG VKRUW DFWLQJ
RSLRLG DQDOJHVLFV IRU WUHDWLQJ SDLQ
$YDLODELOLW\ RI QDOR[RQH DV DQ RSLRLG
DQWDJRQLVW LQ WKLV VLWXDWLRQ LV DOVR
QHFHVVDU\ LQ FDVH RI HPHUJHQF\

3URYLGH WLWUDWHG VKRUW DFWLQJ RSLRLG
DQDOJHVLFV IRU VKRUW GXUDWLRQ SDLQ

A466

A467

Physicians’ and Patients’
Responsibilities
7R LPSURYH RXWFRPHV RI SKDUPDFRORJLF
WKHUDSLHV SURYLGHG LQ RIILFH EDVHG
VHWWLQJV SUDFWLWLRQHUV PXVW EH FOHDU
DERXW WKHLU WUHDWPHQW SKLORVRSK\
H[SHFWDWLRQV DQG RIILFH UXOHV 7KH\
PXVW PDQDJH PHGLFDWLRQ DFFXUDWHO\
GXULQJ DOO VWDJHV RI WUHDWPHQW
3URYLGHUV VKRXOG LQIRUP SDWLHQWV RI
FOLQLF SURFHGXUHV DQG SURWRFROV KRXUV
RI RSHUDWLRQ SKRQH QXPEHUV
SURFHGXUHV IRU PDNLQJ DSSRLQWPHQWV
IHHV SURSHU PHGLFDWLRQ DGPLQLVWUDWLRQ
DQG VWRUDJH VLGH HIIHFWV DQG
SUHFDXWLRQV ULJKWV DQG
UHVSRQVLELOLWLHV DQG RWKHU SUDFWLFH
VSHFLILF SURWRFROV RU JXLGHOLQHV ,Q
PDQ\ 6WDWHV SK\VLFLDQV FDQ
SHULRGLFDOO\ FKHFN 3UHVFULSWLRQ
0RQLWRULQJ 3URJUDPV 303V

‡ $SSHDULQJ LQWR[LFDWHG RU GLVKHYHOHG
LQ SHUVRQ RU VRXQGLQJ LQWR[LFDWHG RQ
WKH SKRQH
‡ 0DNLQJ IUHTXHQW XUJHQW RU
LQDSSURSULDWH SKRQH FDOOV
‡ 1HJOHFWLQJ WR PHQWLRQ FKDQJH LQ
DGGUHVV MRE RU KRPH VLWXDWLRQ
‡ +DYLQJ LQDSSURSULDWH RXWEXUVWV RI
DQJHU
‡ 5HSRUWLQJ ORVW RU VWROHQ PHGLFDWLRQ
‡ +DYLQJ IUHTXHQW SK\VLFDO LQMXULHV RU
DXWR DFFLGHQWV
‡ 1RW SD\LQJ ELOOV
2WKHU ZDUQLQJ VLJQV LQFOXGH /D%HOOH
‡ 'UXJ VFUHHQV SRVLWLYH IRU RSLRLGV RU
LOOLFLW GUXJV

7KH IROORZLQJ ´UHG IODJµ EHKDYLRUV
VKRXOG EH DGGUHVVHG ZLWK SDWLHQWV
LPPHGLDWHO\ DQG QXUVHV VKRXOG
VXSSRUW SDWLHQWV LQ PDNLQJ
DSSURSULDWH UHVSRQVHV WR WKHP
20,525

‡ 5HTXHVW IRU KLJKHU GRVHV DIWHU
VWDELOL]DWLRQ
‡ (YLGHQFH RI WDPSHULQJ ZLWK GUXJ
WHVWV

‡ 0LVVLQJ DSSRLQWPHQWV

‡ 'UXJ VFUHHQV QHJDWLYH IRU
EXSUHQRUSKLQH SRLQW RI FROOHFWLRQ
WHVWV DUH DYDLODEOH

‡ 5HIXVLQJ XULQH WHVWLQJ RU
EUHDWKDO\]HU

‡ &KDQJHV LQ EHKDYLRU

‡ 5XQQLQJ RXW RI PHGLFDWLRQV WRR VRRQ

‡ 1R HQJDJHPHQW LQ FRXQVHOLQJ RU VHOI
KHOS

‡ 7DNLQJ PHGLFDWLRQV RII VFKHGXOH
‡ 1RW UHVSRQGLQJ WR SKRQH FDOOV

‡ 'HSUHVVLRQ ZLWKGUDZDO RU VRFLDO
LVRODWLRQ

‡ 1HJOHFWLQJ WR PHQWLRQ QHZ
PHGLFDWLRQ RU RXWVLGH WUHDWPHQW

‡ :HLJKW ORVV

A468

%XSUHQRUSKLQH $ *XLGH IRU 1XUVHV

,QIRUPDWLRQ DERXW SDWLHQW
UHVSRQVLELOLWLHV VKRXOG EH FOHDUO\
DUWLFXODWHG LQ D ´WUHDWPHQW FRQWUDFWµ
WKDW VKRXOG EH VLJQHG E\ ERWK WKH
SDWLHQW DQG WKH SK\VLFLDQ $W D
PLQLPXP WKH WUHDWPHQW FRQWUDFW
VKRXOG FRYHU FRPSRQHQWV GLVFXVVHG
EHORZ 0F&DQFH .DW]
20,525

VHGDWLYH K\SQRWLF GUXJ LWV XVH LV
VWURQJO\ FRQWUDLQGLFDWHG DQG
SDWLHQWV VKRXOG EH DGYLVHG WR
DEVWDLQ IURP DOFRKRO ZKLOH WDNLQJ
EXSUHQRUSKLQH &6$7
)XUWKHUPRUH SDWLHQWV VKRXOG EH
ZDUQHG WKDW WKH XVH RI FRFDLQH RU
RWKHU LOOLFLW GUXJV LV FRQWUDLQGLFDWHG
EHFDXVH VXFK XVH RIWHQ OHDGV WR
UHODSVH

‡ 9ROXQWDU\ SDUWLFLSDWLRQ 3DWLHQWV
VKRXOG IUHHO\ DQG YROXQWDULO\ DJUHH
WR UHFHLYH EXSUHQRUSKLQH SURGXFWV
IRU WKH WUHDWPHQW RI RSLRLG DGGLFWLRQ
SURYLGHG WKDW WKH\ DFFHSW WKH
FRQGLWLRQV RI WKH WUHDWPHQW FRQWUDFW

‡ 8VH RI PHGLFDWLRQV RQO\ DV
SUHVFULEHG 3DWLHQWV VKRXOG WDNH
WKHLU PHGLFDWLRQV RQ WLPH DQG
VKRXOG QRW DGMXVW WKHLU GRVH RQ WKHLU
RZQ ,I SDWLHQWV GHVLUH D GRVH
FKDQJH WKH\ VKRXOG FDOO IRU DQ
DSSRLQWPHQW WR GLVFXVV WKLV ZLWK
WKHLU SK\VLFLDQ

‡ 3UHJQDQF\ :RPHQ RI FKLOGEHDULQJ
DJH VKRXOG UHFHLYH D SUHJQDQF\ WHVW
XULQH KXPDQ FKRULRQLF
JRQDGRWURSLQ +&* WHVW EHIRUH
WUHDWPHQW LV LQLWLDWHG DQG PRQWKO\
RU LQWHUPLWWHQWO\ WKHUHDIWHU )HPDOH
SDWLHQWV VKRXOG WHOO WKH SK\VLFLDQ LI
WKH\ DUH SUHJQDQW SODQ WR EHFRPH
SUHJQDQW RU DUH EUHDVWIHHGLQJ ,W LV
QRW NQRZQ ZKHWKHU 6XEXWH[Š RU
6XER[RQHŠ PD\ KDUP XQERUQ
FKLOGUHQ RU LQIDQWV

‡ 6FKHGXOHG DSSRLQWPHQWV
3DWLHQWV VKRXOG DJUHH WR NHHS DQG
DUULYH RQ WLPH IRU DOO VFKHGXOHG
DSSRLQWPHQWV ZKLOH WDNLQJ
EXSUHQRUSKLQH SURGXFWV 0LVVHG
DSSRLQWPHQWV PD\ UHVXOW LQ QRW
EHLQJ DEOH WR JHW PHGLFDWLRQ XQWLO
WKH QH[W VFKHGXOHG YLVLW
‡ &RPSOLDQFH ZLWK UHTXLUHG SLOO
FRXQWV DQG GUXJ WHVWV 'UXJ
WHVWLQJ LV D PDQGDWRU\ SDUW RI RIILFH
PDLQWHQDQFH 7KH SK\VLFLDQ VKRXOG
FRQVLGHU RUGHULQJ GUXJ WHVWLQJ H J
XULQH VDPSOHV DQG SLOO FRXQWV DW
HDFK YLVLW

‡ 8VH RI RWKHU PHGLFDWLRQV
3DWLHQWV VKRXOG DJUHH QRW WR REWDLQ
PHGLFDWLRQV SUHVFULSWLRQ RU
QRQSUHVFULSWLRQ LQFOXGLQJ YLWDPLQV
DQG KHUEDO VXSSOHPHQWV IURP
SK\VLFLDQV SKDUPDFLVWV RU DQ\
RWKHU VRXUFH ZLWKRXW WKH DSSURYDO RI
WKH SK\VLFLDQ ZKR SURYLGHV WKH
EXSUHQRUSKLQH WKHUDS\ 0L[LQJ
EXSUHQRUSKLQH ZLWK RWKHU
PHGLFDWLRQV³HVSHFLDOO\
EHQ]RGLD]HSLQHV VXFK DV GLD]HSDP
9DOLXP FORQD]HSDP .ORQRSLQ
ORUD]HSDP $WLYDQ
FKORUGLD]HSR[LGH /LEULXP
DOSUD]RODP ;DQD[ PLGD]RODP
9HUVHG DQG RWKHU GUXJV RI DEXVH³
PD\ EH SDUWLFXODUO\ GDQJHURXV DQG
PD\ FDXVH GHDWK

‡ &RXQVHOLQJ DQG RWKHU UHIHUUDOV
3DWLHQWV PXVW DJUHH WR NHHS
DSSRLQWPHQWV IRU DQ\ UHFRPPHQGHG
SV\FKRVRFLDO FRXQVHOLQJ LQFOXGLQJ
VWHS RU RWKHU VHOI KHOS SURJUDPV
DQG WR DFFHSW UHIHUUDOV IRU RWKHU
DQFLOODU\ VHUYLFHV DV PXWXDOO\
DJUHHG XSRQ E\ WKH SUHVFULEHU
QXUVH FRXQVHORU DQG WKH SDWLHQW
‡ 8QGHU WKH LQIOXHQFH 3DWLHQWV DUH
LQVWUXFWHG QRW WR FRPH WR WKH
SURJUDP LQWR[LFDWHG RU XQGHU WKH
LQIOXHQFH RI DOFRKRO RU GUXJV
EHFDXVH LW LV YHU\ XQVDIH WR GR VR ,I

‡ 8VH RI DOFRKRO DQG RWKHU LOOLFLW
GUXJV %HFDXVH DOFRKRO LV D

A469

3K\VLFLDQV DQG 3DWLHQWV 5HVSRQVLELOLWLHV

WKH\ GR FRPH WR WKH SURJUDP
LQWR[LFDWHG RU XQGHU WKH LQIOXHQFH
WKH\ ZLOO QRW EH PHGLFDWHG DQG PD\
EH GLVFKDUJHG IURP EXSUHQRUSKLQH
WUHDWPHQW +RZHYHU SDWLHQWV ZKR
DGPLW WR GUXJ XVH DUH DVNLQJ IRU
KHOS DQG VKRXOG EH FRQJUDWXODWHG
DQG DFNQRZOHGJHG IRU WKLV RSHQQHVV
EHFDXVH LW LV EHKDYLRU FRQGXFLYH WR
UHFRYHU\ DQG KHDOWK PDLQWHQDQFH

‡ 2WKHU VDIHW\ LVVXHV 3DWLHQWV
VKRXOG QRW GULYH RSHUDWH KHDY\
PDFKLQHU\ RU SHUIRUP RWKHU
GDQJHURXV DFWLYLWLHV XQWLO WKH\ NQRZ
KRZ WKH PHGLFDWLRQ DIIHFWV WKHP
'DQJHURXV RU LQDSSURSULDWH
EHKDYLRU WKDW LV GLVUXSWLYH WR WKH
FOLQLF DQG RWKHUV ZLOO QRW EH
WROHUDWHG DQG PD\ UHVXOW LQ
GLVFKDUJH IURP WUHDWPHQW

‡ 5HFRYHU\ DQG UHODSVH 5HODSVH WR
RSLRLG GUXJ XVH FDQ EH OLIH
WKUHDWHQLQJ DQG WKH WUHDWPHQW SODQ
VKRXOG EH DGMXVWHG DFFRUGLQJO\
7UXVW VKRXOG EH HVWDEOLVKHG ZLWK WKH
SDWLHQW VR WKDW WKH SDWLHQW PD\ EH
PRUH ZLOOLQJ WR QRWLI\ WKH SK\VLFLDQ
DERXW D UHODSVH EHIRUH LW LV GHWHFWHG
ZLWK D GUXJ WHVW 7KH SK\VLFLDQ DQG
QXUVH VKRXOG DGRSW D PDWWHU RI IDFW
DQG QRQSXQLWLYH DSSURDFK ZLWK WKH
SDWLHQW LQ UHVSRQVH WR UHODSVH

Nurses’ Responsibilities
,Q 273V QRQSK\VLFLDQ KHDOWK FDUH
SURIHVVLRQDOV VXFK DV QXUVHV QXUVH
FDVH PDQDJHUV DQG 13V DUH SHUPLWWHG
WR FRQGXFW YDULRXV DFWLYLWLHV XQGHU
6$0+6$ UHJXODWLRQV )RU H[DPSOH
XQGHU
&)5
I DQ DXWKRUL]HG
KHDOWK FDUH SURIHVVLRQDO XQGHU WKH
VXSHUYLVLRQ RI WKH SURJUDP SK\VLFLDQ
PD\ FRQGXFW WKH UHTXLUHG LQLWLDO
SK\VLFDO H[DPLQDWLRQ 2Q WKH RWKHU
KDQG RQO\ D PHGLFDO GLUHFWRU RU
SURJUDP SK\VLFLDQ VKDOO GHWHUPLQH D
SDWLHQW·V HOLJLELOLW\ IRU WDNH KRPH
PHGLFDWLRQV XQGHU
&)5
L
KWWS ZZZ GSW VDPKVD JRY
UHJXODWLRQV OHJUHJ DVS[

‡ 'LYHUVLRQ 3DWLHQWV PXVW DJUHH QRW
WR VHOO VKDUH RU JLYH DQ\ PHGLFDWLRQ
WR RWKHU SHUVRQV 6XFK PLVKDQGOLQJ
LV D VHULRXV YLRODWLRQ WKDW PD\ UHVXOW
LQ GLVFKDUJH 3DWLHQWV VKRXOG QRWLI\
WKH SK\VLFLDQ LPPHGLDWHO\ LQ FDVH RI
ORVW RU VWROHQ PHGLFDWLRQ ,I D SROLFH
UHSRUW LV ILOHG WKH SDWLHQW VKRXOG
EULQJ LQ D FRS\ IRU WKH UHFRUG

,Q RIILFH EDVHG VHWWLQJV QRQSK\VLFLDQ
KHDOWK FDUH SURIHVVLRQDOV VXFK DV
QXUVHV QXUVH FDVH PDQDJHUV DQG 13V
PD\ EH SHUPLWWHG WR FRQGXFW SK\VLFDO
H[DPLQDWLRQV DQG RWKHU SURFHGXUHV
7KHVH SURFHGXUHV VKRXOG EH FRQGXFWHG
XQGHU WKH VXSHUYLVLRQ RI WKH SK\VLFLDQ
DQG GRFXPHQWHG LQ WKH MRE GHVFULSWLRQ
LI WKH\ DUH SHUPLVVLEOH XQGHU WKH
1XUVH 3UDFWLFH $FW LQ WKH 6WDWH LQ
ZKLFK WKH QXUVH SUDFWLFHV +RZHYHU
WKH SK\VLFLDQ PXVW GHWHUPLQH WKH
SDWLHQW·V GRVDJH RI EXSUHQRUSKLQH
PHGLFDWLRQ DQG WKH DPRXQW RI
PHGLFDWLRQ SHUPLWWHG IRU WDNH KRPH
PHGLFDWLRQ RU WKH DPRXQW RI
PHGLFDWLRQ WR EH GLVSHQVHG ZLWK D
SUHVFULSWLRQ

‡ 6DIH VWRUDJH 0HGLFDWLRQ PD\ EH
KDUPIXO WR FKLOGUHQ KRXVHKROG
PHPEHUV JXHVWV DQG SHWV 3DWLHQWV
VKRXOG EH LQVWUXFWHG WR VWRUH WKH
PHGLFDWLRQ LQ D VDIH SODFH DQG WR
NHHS WKH PHGLFDWLRQ LQ FKLOG VDIHW\
FRQWDLQHUV RXW RI WKH UHDFK RI
FKLOGUHQ 7KH\ VKRXOG FDOO WKH SRLVRQ
FRQWURO FHQWHU RU
LI DQ\RQH RWKHU
WKDQ WKH SDWLHQW LQJHVWV WKH
PHGLFDWLRQ /RVW PHGLFDWLRQ ZLOO QRW
EH UHSODFHG 0HGLFDWLRQ VKRXOG QRW
EH NHSW LQ SODFHV RI WHPSHUDWXUH
H[WUHPHV VXFK DV D JORYH
FRPSDUWPHQW RU LQ D EDWKURRP
PHGLFLQH FKHVW ZKHUH LW FDQ EHFRPH
PRLVW RU EH WDNHQ E\ RWKHUV

A470

A471

Nursing Practice and the Use of
Buprenorphine for the Treatment of
Opioid Addiction
RQJRLQJ VFUHHQLQJ DVVHVVPHQW
PRQLWRULQJ DQG UHFRYHU\
PDQDJHPHQW

Screening and Assessment
1XUVHV KDYH D JUHDW UROH LQ VFUHHQLQJ
DQG DVVHVVLQJ WKH KHDOWK VWDWXV RI
SDWLHQWV ZKR KDYH DGGLFWLRQ SUREOHPV
$V D EDVLF LQWHUYHQWLRQ QXUVHV FDQ
LGHQWLI\ SUREOHPV FDXVHG E\ GUXJ XVH
&ODQF\ &R\QH :ULJKW
6FUHHQLQJ DQG DVVHVVPHQW WRROV PD\
EH XVHG WR KHOS QXUVHV LGHQWLI\
VLJQLILFDQW XQFRYHUHG ULVNV DQG
SUREOHPV ZLWK GUXJ DQG DOFRKRO XVH
&ODQF\ &R\QH
:ULJKW

1XUVHV PD\ DVVLVW LQ
‡ 5XOLQJ RXW FRPRUELG DFXWH RU FKURQLF
SDLQ GLVRUGHUV DQG RSLRLG
GHSHQGHQFH
‡ 5XOLQJ RXW SRO\VXEVWDQFH XVH³FRQVLGHU
XVLQJ WKH 5HDGLQHVV 5XOHU VHH
$SSHQGL[ & 6FUHHQLQJ ,QVWUXPHQWV
‡ 5XOLQJ RXW FR RFFXUULQJ SV\FKLDWULF
GLVRUGHUV³FRQVLGHU XVLQJ 0HQWDO
+HDOWK 6FUHHQLQJ )RUP ,,, 0+6)
,,, VHH $SSHQGL[ ' $VVHVVPHQW
,QVWUXPHQWV

,QLWLDO VFUHHQLQJ ,QLWLDO VFUHHQLQJ
VKRXOG FRQVLVW RI D FRPELQDWLRQ RI
REMHFWLYH VFUHHQLQJ LQVWUXPHQWV
ODERUDWRU\ HYDOXDWLRQV DQG
LQWHUYLHZ V ,I WKH EXSUHQRUSKLQH
SUHVFULEHU VXVSHFWV DQ DGGLFWLRQ
SUREOHP DIWHU UHYLHZLQJ WKH LQLWLDO
UHVXOWV IXUWKHU DVVHVVPHQW LV
LQGLFDWHG ,QGHSWK LQWHUYLHZV DQG
VWDQGDUGL]HG DVVHVVPHQWV DUH WKH
PRVW HIIHFWLYH PHDQV RI JDWKHULQJ
IXUWKHU LQIRUPDWLRQ 6HYHUDO YDOLGDWHG
DGGLFWLRQ VFUHHQLQJ LQVWUXPHQWV DUH
DYDLODEOH VXFK DV WKH 'UXJ $EXVH
6FUHHQLQJ 7HVW '$67
VHH
$SSHQGL[ & 6FUHHQLQJ ,QVWUXPHQWV

‡ 4XHVWLRQLQJ DERXW SRWHQWLDO
SUHJQDQF\ DQG FKLOG EHDULQJ VWDWXV
‡ 6FUHHQLQJ IRU LQIHFWLRXV GLVHDVHV
KHSDWLWLV YLUXVHV +,9 WXEHUFXORVLV
7% VH[XDOO\ WUDQVPLWWHG GLVHDVHV
67'V
‡ 6FUHHQLQJ RXW GRPHVWLF YLROHQFH RU
DEXVH 3OHDVH YLVLW WKH IROORZLQJ :HE
VLWHV IRU PRUH LQIRUPDWLRQ RQ WKH
GRPHVWLF YLROHQFH VFUHHQLQJ WRROV
$PHULFDQ &RXQFLO RI 2EVWHWULFLDQV
DQG *\QHFRORJLVWV
KWWS ZZZ DFRJ RUJ GHSDUWPHQWV
GHSWBQRWLFH FIP"UHFQR
EXOOHWLQ
DQG 'RPHVWLF 9LROHQFH :KDW
&OLQLFLDQV 6KRXOG .QRZ
KWWS ZZZ LVSXE FRP RVWLD LQGH[ SKS"
[PO)LOH3DWK MRXUQDOV LMDSD YRO Q
YLROHQFH [PO

6FUHHQLQJ IRU LQGLYLGXDOV DW ULVN
IRU XQGHWHFWDEOH KHDOWK DQG
PHQWDO KHDOWK GLVRUGHUV 1XUVHV
FDQ DVVLVW LQ UXOLQJ RXW FR RFFXUULQJ
GLVRUGHUV DQG FDQ LGHQWLI\ SDWLHQWV
ZLWK FRPRUELG FRQGLWLRQV GXULQJ WKHLU

A472

%XSUHQRUSKLQH $ *XLGH IRU 1XUVHV

‡ $VVHVVPHQW ,I VFUHHQLQJ WHVWV
LQGLFDWH WKH SUHVHQFH RI DQ RSLRLG
XVH GLVRUGHU IXUWKHU DVVHVVPHQW LV
QHFHVVDU\ WR GHOLQHDWH WKRURXJKO\
WKH SDWLHQW·V SUREOHP VHYHULW\ WR
LGHQWLI\ FRPRUELG RU FRPSOLFDWLQJ
PHGLFDO RU HPRWLRQDO FRQGLWLRQV DQG
WR GHWHUPLQH WKH DSSURSULDWH
WUHDWPHQW VHWWLQJ DQG OHYHO RI
WUHDWPHQW LQWHQVLW\ IRU WKH SDWLHQW
&6$7
,W LV HVVHQWLDO WKDW
QXUVHV SHUIRUP DVVHVVPHQWV LQ D
VDIH FRQILGHQWLDO HQYLURQPHQW DQG
SURSHUO\ FRQVLGHU LQGLYLGXDOV· DQG
IDPLOLHV· UDFH JHQGHU VH[XDOLW\
UHOLJLRQ DQG DJH &ODQF\ &R\QH
:ULJKW

‡ (QVXUH WKDW WKHUH DUH QR
FRQWUDLQGLFDWLRQV WR WKH
UHFRPPHQGHG WUHDWPHQWV
‡ $VVHVV RWKHU PHGLFDO SUREOHPV RU
FRQGLWLRQV WKDW QHHG WR EH DGGUHVVHG
EHIRUH RU GXULQJ HDUO\ WUHDWPHQW
‡ $VVHVV RWKHU SV\FKLDWULF RU
SV\FKRVRFLDO SUREOHPV WKDW QHHG WR
EH DGGUHVVHG EHIRUH RU GXULQJ HDUO\
WUHDWPHQW
&RPSRQHQWV RI DVVHVVPHQW 7KH
FRPSRQHQWV RI DVVHVVPHQW RI D SDWLHQW
ZKR LV DGGLFWHG WR RSLRLGV VKRXOG
LQFOXGH &6$7
‡ &RPSOHWH KLVWRU\ &RPSOHWH
KLVWRU\ LQFOXGHV VXEVWDQFH DEXVH
KLVWRU\ DGGLFWLRQ WUHDWPHQW KLVWRU\
SV\FKLDWULF KLVWRU\ IDPLO\ KLVWRU\
PHGLFDO KLVWRU\ VRFLDO DQG
HPSOR\PHQW KLVWRU\ DQG UHDGLQHVV
IRU FKDQJH

$ FRPSUHKHQVLYH ELRSV\FKRVRFLDO
DVVHVVPHQW LV QHFHVVDU\ WR GHWHUPLQH
WKH DSSURSULDWHQHVV RI RIILFH EDVHG RU
RWKHU RSLRLG DJRQLVW WUHDWPHQW 7KH
DVVHVVPHQW PD\ EH DFFRPSOLVKHG LQ
VWDJHV RYHU D WR ZHHN SHULRG
GXULQJ LQLWLDWLRQ RI WUHDWPHQW DQG
JUDGXDO DFTXLVLWLRQ RI LQFUHDVLQJO\
GHWDLOHG LQIRUPDWLRQ 6HYHUDO RIILFH
YLVLWV PD\ EH UHTXLUHG WR REWDLQ DOO WKH
LQIRUPDWLRQ QHFHVVDU\ WR PDNH D
FRPSUHKHQVLYH VHW RI GLDJQRVHV DQG WR
GHYHORS DQ DSSURSULDWH WUHDWPHQW
SODQ DOWKRXJK WKHVH HIIRUWV DOVR PD\
EH FRPSOHWHG LQ D VLQJOH H[WHQGHG
YLVLW 7UHDWPHQW VKRXOG QRW EH
GHOD\HG KRZHYHU SHQGLQJ FRPSOHWH
SDWLHQW DVVHVVPHQW 7KH JRDOV RI D
PHGLFDO DVVHVVPHQW RI D SDWLHQW ZKR LV
DGGLFWHG WR RSLRLGV DUH WR &6$7

‡ 3K\VLFDO H[DPLQDWLRQ 3K\VLFDO
H[DPLQDWLRQ VKRXOG IRFXV RQ
SK\VLFDO ILQGLQJV UHODWHG WR
DGGLFWLRQ 7KH SK\VLFDO
FRPSOLFDWLRQV RI RSLRLG DGGLFWLRQ
VKRXOG EH LGHQWLILHG DQG DGGUHVVHG
DV SDUW RI WKH RYHUDOO WUHDWPHQW
SODQ
‡ 0HQWDO VWDWXV H[DPLQDWLRQ WR
HYDOXDWH WKH SDWLHQW·V &6$7
*HQHUDO DSSHDUDQFH
%HKDYLRU DQG LQWHUDFWLRQ ZLWK
LQWHUYLHZHU
6SHHFK DQG YRLFH

‡ (VWDEOLVK WKH GLDJQRVLV RU GLDJQRVHV

0RWRU DFWLYLW\

‡ 'HWHUPLQH DSSURSULDWHQHVV IRU
WUHDWPHQW

0RRG DQG DIIHFW
3HUFHSWLRQV KDOOXFLQDWLRQV
GHOXVLRQV

‡ 0DNH LQLWLDO WUHDWPHQW
UHFRPPHQGDWLRQV

7KRXJKW SURFHVV DQG FRQWHQW³
VXLFLGDO LGHDWLRQ KRPLFLGDO
LGHDWLRQ HWF

‡ )RUPXODWH DQ LQLWLDO WUHDWPHQW SODQ
‡ 3ODQ IRU HQJDJHPHQW LQ
SV\FKRORJLFDO WUHDWPHQW

A473

1XUVLQJ 3UDFWLFH DQG WKH 8VH RI %XSUHQRUSKLQH IRU WKH 7UHDWPHQW RI 2SLRLG $GGLFWLRQ

,QVLJKW DQG MXGJPHQW

%HQ]RGLD]HSLQHV &,:$ % .DWKOHHQ
7KRPSVRQ *DUJDQR SHUVRQDO
FRPPXQLFDWLRQ 2FWREHU
VHH
$SSHQGL[ ' $VVHVVPHQW ,QVWUXPHQWV
)RU PRUH LQIRUPDWLRQ DERXW VFUHHQLQJ
WRROV UHYLHZ WKH 6$0+6$ &6$7
7UHDWPHQW ,PSURYHPHQW 3URWRFRO 7,3
$ *XLGH WR 6XEVWDQFH $EXVH 6HUYLFHV
IRU 3ULPDU\ &DUH &OLQLFLDQV &6$7
VHH
KWWS ZZZ QFEL QOP QLK JRY ERRNV
EY IFJL"ULG KVWDW FKDSWHU

0RWLYDWLRQ DQG UHDGLQHVV WR
FKDQJH³SDWLHQW·V VWDWHG JRDOV DQG
H[SHFWDWLRQV
&RJQLWLYH IXQFWLRQ³RULHQWDWLRQ
PHPRU\ DWWHQWLRQ FRQFHQWUDWLRQ
IXQG RI LQIRUPDWLRQ OLWHUDF\ VNLOOV
DEVWUDFWLRQ LQWHOOLJHQFH
3HUVRQDOLW\ FKDUDFWHULVWLFV
'HIHQVH PHFKDQLVPV
5HOHYDQW ODERUDWRU\ WHVWLQJ

‡ 6XEVWDQFHV

)RUPDO SV\FKLDWULF DVVHVVPHQW LI
LQGLFDWHG &6$7
E

‡ 7\SLFDO ILUVW V\PSWRPV
‡ 3DWLHQW HGXFDWLRQ

)RU DGGLWLRQDO LQIRUPDWLRQ DERXW
FRPSRQHQWV RI D IRUPDO SV\FKLDWULF
DVVHVVPHQW UHIHU WR 0HQWDO +HDOWK
6FUHHQLQJ )RUP ,,, 0+6) ,,, VHH
$SSHQGL[ ' $VVHVVPHQW
,QVWUXPHQWV

‡ /DVW VXEVWDQFH XVH GLJ GHHS WR
GHWHUPLQH ZKDW ZDV XVHG KRZ
PXFK DQG ZKHQ
‡ :LWKGUDZDO LQVWUXPHQW VFRUH H J
&2:6 LQ DSSHQGL[ '

,QGLYLGXDOV ZKR DUH DGGLFWHG WR RSLRLGV
PD\ KDYH WKH VDPH FKURQLF GLVHDVHV
VHHQ LQ WKH JHQHUDO SRSXODWLRQ DQG
VKRXOG EH HYDOXDWHG DV DSSURSULDWH IRU
GLVHDVHV WKDW UHTXLUH WUHDWPHQW VXFK DV
LQIHFWLRXV GLVHDVHV 7% DQG +,9 ,Q
DGGLWLRQ D QXPEHU RI PHGLFDO
FRQGLWLRQV DUH FRPPRQO\ DVVRFLDWHG
ZLWK RSLRLG DQG RWKHU GUXJ DGGLFWLRQV
H J QXWULWLRQDO GHILFLHQFLHV DQG
DQHPLD FDXVHG E\ SRRU HDWLQJ KDELWV
KHSDWLWLV DQG FKURQLF REVWUXFWLYH
SXOPRQDU\ GLVHDVH
$VVHVVLQJ LQWR[LFDWLRQ DQG
RYHUGRVH ,W LV YLWDOO\ LPSRUWDQW WR
DVVHVV IRU VLJQV RI RSLRLG LQWR[LFDWLRQ
RYHUGRVH RU ZLWKGUDZDO GXULQJ WKH
SK\VLFDO H[DPLQDWLRQ 2SLRLG RYHUGRVH
VKRXOG EH WUHDWHG DV D PHGLFDO
HPHUJHQF\ 2SLRLG ZLWKGUDZDO FDQ EH
REMHFWLYHO\ DVVHVVHG E\ XVLQJ VHYHUDO
LQVWUXPHQWV VXFK DV &OLQLFDO ,QVWLWXWH
:LWKGUDZDO $VVHVVPHQW IRU $OFRKRO
5HYLVHG &,:$ $U DQG &OLQLFDO
,QVWLWXWH :LWKGUDZDO $VVHVVPHQW IRU

A474

‡ 3UHFLSLWDWHG ZLWKGUDZDO

Diagnosis of Opioid-Related
Disorders
+HDOWK FDUH SURYLGHUV VKRXOG
GRFXPHQW WKDW HYHU\ SDWLHQW ZKR LV
SUHVFULEHG EXSUHQRUSKLQH IRU WKH
WUHDWPHQW RI RSLRLG DGGLFWLRQ KDV PHW
WKH FULWHULD IRU RSLRLG DGGLFWLRQ
FRPSXOVLYH XVH RI RSLRLGV GHVSLWH
KDUP RWKHUZLVH NQRZQ DV RSLRLG
GHSHQGHQFH DV GHILQHG LQ WKH ODWHVW
HGLWLRQ RI WKH '60 ,9 75 $3$
$IWHU D WKRURXJK DVVHVVPHQW RI
WKH SDWLHQW KDV EHHQ FRQGXFWHG D
IRUPDO GLDJQRVLV PD\ EH PDGH XVLQJ
WKH '60 ,9 75 FULWHULD IRU RSLRLG DQG
RWKHU VXEVWDQFH GHSHQGHQFH DQG
WKHVH FULWHULD VKRXOG EH GRFXPHQWHG LQ
WKH SDWLHQW UHFRUG E\ WKH OLFHQVHG
FOLQLFLDQ ZKR HVWDEOLVKHV WKH
GLDJQRVLV

%XSUHQRUSKLQH $ *XLGH IRU 1XUVHV

,Q UDUH FDVHV D SDWLHQW PD\ EH
SK\VLRORJLFDOO\ GHSHQGHQW RQ RSLRLGV
DQG PHHW '60 ,9 75 FULWHULD IRU
DEXVH EXW QRW IRU GHSHQGHQFH ,Q VXFK
D FDVH D VKRUW FRXUVH RI
EXSUHQRUSKLQH PD\ EH FRQVLGHUHG IRU
GHWR[LILFDWLRQ 0DLQWHQDQFH WUHDWPHQW
ZLWK EXSUHQRUSKLQH LV QRW
UHFRPPHQGHG IRU SDWLHQWV ZKR GR QRW
PHHW '60 ,9 75 FULWHULD IRU RSLRLG
GHSHQGHQFH

FKURQLF VXLFLGDO RU KRPLFLGDO LGHDWLRQ
RU DWWHPSWV
PXOWLSOH SUHYLRXV
WUHDWPHQW HSLVRGHV IRU GUXJ DEXVH
ZLWK IUHTXHQW UHODSVHV H[FHSW WKDW
PXOWLSOH SUHYLRXV GHWR[LILFDWLRQ
DWWHPSWV IROORZHG E\ UHODSVH DUH D
VWURQJ LQGLFDWLRQ RI WKH QHHG IRU ORQJ
WHUP PDLQWHQDQFH WUHDWPHQW
SRRU
UHVSRQVH WR SUHYLRXV WUHDWPHQW
DWWHPSWV ZLWK EXSUHQRUSKLQH DQG
VLJQLILFDQW PHGLFDO FRPSOLFDWLRQV
&6$7

Determining
Appropriateness for
Buprenorphine Treatment

Treatment Planning
1XUVHV PD\ EH LQVWUXPHQWDO LQ WKH
GHYHORSPHQW RI D WUHDWPHQW SODQ WKDW
FRQWDLQV
FOHDU DQG DFKLHYDEOH
WDUJHWV DQG WLPH VFDOHV H J QXPEHU
RI VHVVLRQV WKDW D SDWLHQW DWWHQGV
WKH YHQXH LQ ZKLFK
FDUH LQWHUYHQWLRQ ZLOO EH RIIHUHG DQG
WKH LQYROYHPHQW RI RWKHU VHUYLFHV
VXFK DV FRXQVHOLQJ DQG SV\FKRWKHUDS\
&ODQF\ &R\QH
:ULJKW
$OVR
QXUVHV PXVW FRQVLGHU WKH SDWLHQW·V
PRWLYDWLRQ DQG WUHDWPHQW DFFHVVLELOLW\
WKURXJKRXW WKH WUHDWPHQW SURFHVV

6HYHUDO LVVXHV VKRXOG EH FRQVLGHUHG LQ
HYDOXDWLQJ ZKHWKHU D SDWLHQW LV DQ
DSSURSULDWH FDQGLGDWH IRU
EXSUHQRUSKLQH WUHDWPHQW RI RSLRLG
DGGLFWLRQ LQ WKH RIILFH RU RWKHU
VHWWLQJV $W D PLQLPXP FDQGLGDWHV
IRU EXSUHQRUSKLQH WUHDWPHQW VKRXOG
EH LQWHUHVWHG LQ WUHDWPHQW IRU
RSLRLG DGGLFWLRQ
KDYH QR DEVROXWH
FRQWUDLQGLFDWLRQ WR EXSUHQRUSKLQH
EH H[SHFWHG WR EH UHDVRQDEO\
FRPSOLDQW ZLWK VXFK WUHDWPHQW
XQGHUVWDQG WKH ULVNV DQG EHQHILWV
RI EXSUHQRUSKLQH WUHDWPHQW
EH
ZLOOLQJ WR IROORZ UHFRPPHQGHG VDIHW\
SUHFDXWLRQV DQG
FRQVHQW WR EH
WUHDWHG ZLWK EXSUHQRUSKLQH DIWHU D
UHYLHZ RI WUHDWPHQW RSWLRQV ,W LV
FULWLFDO WKDW WKH WUHDWPHQW DSSURDFK
EH DSSURSULDWH WR WKH LQGLYLGXDO·V DJH
JHQGHU HWKQLFLW\ DQG FXOWXUH &6$7

1XUVHV VKRXOG DFWLYHO\ LQYROYH
SDWLHQWV LQ GHYHORSPHQW RI WKH
WUHDWPHQW SODQ LQFOXGLQJ GLVFXVVLQJ
DSSURSULDWH EHKDYLRU H[SODLQLQJ
UHDVRQV IRU ZKLFK PHGLFDWLRQ PD\ EH
GLVFRQWLQXHG PDNLQJ D SV\FKLDWULF
UHIHUUDO RU UHIHUUDO IRU RWKHU DQFLOODU\
VHUYLFH DQG H[SODLQLQJ ZKDW KDSSHQV
LI D SDWLHQW LV QRQFRPSOLDQW $OVR
SDWLHQW SDUWLFLSDWLRQ LQ VHOI KHOS
VXSSRUW SURJUDPV GXULQJ DQG DIWHU
WUHDWPHQW RIWHQ LV KHOSIXO LQ
PDLQWDLQLQJ DEVWLQHQFH &ODQF\
&R\QH DQG :ULJKW

3DWLHQWV DUH OHVV OLNHO\ WR EH
DSSURSULDWH FDQGLGDWHV IRU
EXSUHQRUSKLQH WUHDWPHQW IRU RSLRLG
DGGLFWLRQ LI WKH\ KDYH
FRPRUELG
GHSHQGHQFH RQ KLJK GRVHV RI
EHQ]RGLD]HSLQHV RU RWKHU FHQWUDO
QHUYRXV V\VWHP GHSUHVVDQWV LQFOXGLQJ
DOFRKRO
VLJQLILFDQW XQWUHDWHG
SV\FKLDWULF FRPRUELGLW\
DFWLYH RU

A475

1XUVLQJ 3UDFWLFH DQG WKH 8VH RI %XSUHQRUSKLQH IRU WKH 7UHDWPHQW RI 2SLRLG $GGLFWLRQ

,W LV FUXFLDO IRU QXUVHV WR PRQLWRU
SDWLHQWV EHIRUH DQG GXULQJ WKH
LQGXFWLRQ SKDVH 3RVVLEOH GUXJ XVH
GXULQJ WUHDWPHQW PXVW EH PRQLWRUHG
FRQWLQXRXVO\ DV LW LV QRW XQXVXDO IRU
UHODSVHV WR RFFXU GXULQJ WUHDWPHQW
2EMHFWLYH PRQLWRULQJ XULQDO\VLV DQG
RWKHU WHVWV KHOSV SDWLHQWV ZLWKVWDQG
XUJHV WR XVH 0RQLWRULQJ FDQ SURYLGH
HDUO\ HYLGHQFH RI GUXJ XVH VR WKDW WKH
WUHDWPHQW SODQ FDQ EH DGMXVWHG
)LQDOO\ IHHGEDFN WR SDWLHQWV ZKR WHVW
SRVLWLYH IRU LOOLFLW GUXJ XVH LV DQ
LPSRUWDQW HOHPHQW RI PRQLWRULQJ
&ODQF\ &R\QH
:ULJKW

Ongoing Treatment
Monitoring
7UHDWPHQW PXVW EH DVVHVVHG
FRQWLQXDOO\ WR HQVXUH WKDW LW PHHWV
FKDQJLQJ QHHGV 0DWFKLQJ WUHDWPHQW
VHWWLQJV LQWHUYHQWLRQV DQG VHUYLFHV WR
HDFK LQGLYLGXDO·V SDUWLFXODU SUREOHPV
DQG QHHGV LV FULWLFDO WR KLV RU KHU
XOWLPDWH VXFFHVV LQ UHWXUQLQJ WR
SURGXFWLYH IXQFWLRQLQJ LQ WKH IDPLO\
ZRUNSODFH DQG VRFLHW\ 1R VLQJOH
WUHDWPHQW LV DSSURSULDWH IRU DOO
LQGLYLGXDOV 0RUHRYHU EHFDXVH
LQGLYLGXDOV ZKR DUH DGGLFWHG WR GUXJV
PD\ EH XQFHUWDLQ DERXW HQWHULQJ
WUHDWPHQW WDNLQJ DGYDQWDJH RI
RSSRUWXQLWLHV ZKHQ WKH\ DUH UHDG\ IRU
WUHDWPHQW LV FUXFLDO 7UHDWPHQW PXVW
EH UHDGLO\ DYDLODEOH 3RWHQWLDO
WUHDWPHQW DSSOLFDQWV FDQ EH ORVW LI
WUHDWPHQW LV QRW LPPHGLDWHO\
DYDLODEOH RU LV QRW UHDGLO\ DFFHVVLEOH
&6$7

%HIRUH WUHDWPHQW LQGXFWLRQ QXUVHV
VKRXOG UHYLHZ WKH IROORZLQJ
LQVWUXFWLRQV ZLWK SDWLHQWV WR SUHSDUH
WKHP IRU WKH ILUVW GD\ RI LQGXFWLRQ
‡ &RPH WR WKH GRFWRU·V RIILFH LQ PLOG
ZLWKGUDZDO
‡ 'LVSRVH RI DOO LOOLFLW GUXJV DQG
SDUDSKHUQDOLD EHIRUH WKH YLVLW

7R EH HIIHFWLYH WUHDWPHQW PXVW
DGGUHVV WKH LQGLYLGXDO·V GUXJ XVH DQG
DQ\ DVVRFLDWHG PHGLFDO SV\FKRORJLFDO
VRFLDO YRFDWLRQDO DQG OHJDO SUREOHPV
,Q DGGLWLRQ WR PHGLFDWLRQ WKH SHUVRQ
PD\ UHTXLUH YDU\LQJ FRPELQDWLRQV RI
VHUYLFHV DQG WUHDWPHQW FRPSRQHQWV
LQFOXGLQJ FRXQVHOLQJ RU
SV\FKRWKHUDS\ PHGLFDO VHUYLFHV
IDPLO\ WKHUDS\ SDUHQWLQJ LQVWUXFWLRQ
YRFDWLRQDO UHKDELOLWDWLRQ DQG VRFLDO
DQG OHJDO VHUYLFHV 5HPDLQLQJ LQ
WUHDWPHQW IRU DQ DGHTXDWH SHULRG RI
WLPH LV FULWLFDO IRU WUHDWPHQW
HIIHFWLYHQHVV +RZHYHU DSSURSULDWH
GXUDWLRQ GHSHQGV RQ SUREOHPV DQG
QHHGV )RU PRVW SDWLHQWV WKH
WKUHVKROG RI VLJQLILFDQW LPSURYHPHQW
LV DERXW PRQWKV LQ WUHDWPHQW
%HFDXVH SHRSOH RIWHQ OHDYH WUHDWPHQW
SUHPDWXUHO\ LW LV QHFHVVDU\ IRU WKH
WUHDWPHQW WHDP WR SODQ VWUDWHJLHV WR
HQJDJH DQG NHHS SDWLHQWV LQ
WUHDWPHQW &6$7

‡ 'R QRW SODQ WR GULYH IRU
KRXUV
DIWHU UHFHLYLQJ WKH ILUVW GRVH V RI
EXSUHQRUSKLQH PHGLFDWLRQ
‡ 3ODQ WR EH DW FOLQLF RU RIILFH IRU XS WR
KRXUV EHFDXVH LQGXFWLRQ PD\
LQYROYH PRQLWRULQJ DQG PRUH WKDQ
RQH GRVH RI PHGLFDWLRQ SDWLHQW PD\
EULQJ D VDQGZLFK ERRN HWF
‡ %H UHDG\ WR JLYH D XULQH VDPSOH
‡ 3XW WDEOHW V XQGHU WRQJXH DQG DOORZ
WKH WDEOHW V WR GLVVROYH VORZO\
‡ 'R QRW WDON HDW GULQN RU VZDOORZ
ZKLOH WKH PHGLFDWLRQ LV LQ PRXWK
‡ 0D\ D XVH PLUURU DQG ZDWFK WKH
WDEOHW V JUDGXDOO\ VKULQN DV WKH\
GLVVROYH /DEHOOH
:KHQ GLVSHQVLQJ WKH ILUVW PHGLFDWLRQ
GRVH LW LV FUXFLDO WKDW QXUVHV
ZDWFK
WKH SDWLHQW SXW WKH WDEOHW LQ WKH ULJKW
SODFH XQGHU WKH WRQJXH
FKHFN
SHULRGLFDOO\ WR VHH WKH WDEOHW

A476

%XSUHQRUSKLQH $ *XLGH IRU 1XUVHV

VKULQNLQJ DQG
FKHFN WKDW WKH WDEOH
LV FRPSOHWHO\ JRQH 7KLV LV WKH RQO\
ZD\ RI WHOOLQJ WKDW LQJHVWLRQ RFFXUUHG
DVLGH IURP XULQH WHVWLQJ IRU
EXSUHQRUSKLQH /D%HOOH

SV\FKRVRFLDO FRPRUELGLWLHV DQG
DGGUHVV WKHP FRPSUHKHQVLYHO\ DV
SKDUPDFRWKHUDS\ UDUHO\ DFKLHYHV
ORQJ WHUP VXFFHVV ZLWKRXW FRQFXUUHQW
SV\FKRVRFLDO EHKDYLRUDO WKHUDSLHV DQG
VRFLDO VHUYLFHV $OVR VSHFLDO DWWHQWLRQ
PXVW EH JLYHQ WR WKRVH SDWLHQWV DW ULVN
RI PLVXVLQJ WKHLU PHGLFDWLRQV RU
ZKRVH OLYLQJ DUUDQJHPHQWV SRVH
LQFUHDVHG ULVN IRU PLVXVH RU GLYHUVLRQ

7KH SDWLHQW VKRXOG UHFHLYH D GDLO\ GRVH
XQWLO VWDELOL]HG 2QFH VWDELOL]HG WKH
SDWLHQW PD\ FRQWLQXH D VLQJOH GDLO\
GRVH RU PD\ VKLIW WR DOWHUQDWH GD\
GRVLQJ H J HYHU\ RWKHU GD\ RU
0RQGD\ :HGQHVGD\ )ULGD\ $PDVV
HW DO
$OVR SURYLGHUV FDQ
LQFUHDVH WKH GRVH RQ WKH GRVLQJ GD\ E\
WKH DPRXQW QRW UHFHLYHG RQ
LQWHUYHQLQJ GD\V )RU H[DPSOH LI WKH
SDWLHQW VWDELOL]HV RQ PJ GDLO\ DQG
HYHU\ RWKHU GD\ GRVLQJ LV GHVLUHG WKHQ
WKH SURYLGHU PD\ FKDQJH WKH GRVDJH WR
PJ RQ 0RQGD\
PJ RQ
:HGQHVGD\ DQG
PJ RQ )ULGD\ WR
SURYLGH PHGLFDWLRQ FRYHUDJH IRU WKH
GD\ ZHHNHQG

&RXQVHOLQJ LQGLYLGXDO RU JURXS DQG
RWKHU EHKDYLRUDO WKHUDSLHV DUH FULWLFDO
FRPSRQHQWV RI HIIHFWLYH WUHDWPHQW ,Q
WKHUDS\ SDWLHQWV PXVW EH KHOSHG WR
DGGUHVV PRWLYDWLRQ
EXLOG VNLOOV
WR UHVLVW GUXJ XVH
UHSODFH GUXJ
XVLQJ DFWLYLWLHV ZLWK FRQVWUXFWLYH DQG
UHZDUGLQJ QRQGUXJ XVLQJ DFWLYLWLHV
LPSURYH SUREOHPVROYLQJ DELOLWLHV
ZRUN RQ LQWHUSHUVRQDO
UHODWLRQVKLSV DQG
LPSURYH IDPLO\
DQG FRPPXQLW\ IXQFWLRQLQJ
$GGLFWHG RU GUXJ DEXVLQJ LQGLYLGXDOV
ZLWK FRH[LVWLQJ PHQWDO GLVRUGHUV
VKRXOG KDYH ERWK GLVRUGHUV WUHDWHG LQ
DQ LQWHJUDWHG ZD\ VLQFH VXEVWDQFH XVH
GLVRUGHUV 68'V DQG PHQWDO
GLVRUGHUV RIWHQ FR RFFXU $GGLWLRQDOO\
SDWLHQWV SUHVHQWLQJ IRU HLWKHU
FRQGLWLRQ VKRXOG EH DVVHVVHG DQG
WUHDWHG IRU WKH FR RFFXUUHQFH RI WKH
RWKHU W\SH RI GLVRUGHU 7UHDWPHQW
SURYLGHUV VKRXOG DVVHVV DQG FRXQVHO
LQGLYLGXDOV DERXW +,9 $,'6 KHSDWLWLV
% DQG & 7% DQG RWKHU LQIHFWLRXV
GLVHDVHV LQ RUGHU WR
DYRLG KLJK ULVN
EHKDYLRU DQG
KHOS SHRSOH ZKR DUH
DOUHDG\ LQIHFWHG WR PDQDJH WKHLU
LOOQHVV &6$7

Counseling and Referral for
Psychosocial Treatment
'$7$
VWLSXODWHV WKDW ZKHQ D
SK\VLFLDQ VXEPLWV D QRWLILFDWLRQ IRUP
60$
WR 6$0+6$ IRU D
EXSUHQRUSKLQH ZDLYHU WKH SK\VLFLDQ
PXVW DWWHVW WR WKH FDSDFLW\ WR UHIHU
SDWLHQWV IRU DSSURSULDWH FRXQVHOLQJ
DQG RWKHU QRQSKDUPDFRORJLFDO
WKHUDSLHV 3K\VLFLDQV ZKR DUH
SURYLGLQJ RSLRLG WUHDWPHQW VKRXOG
HQVXUH WKDW WKH\ DUH FDSDEOH RI
SURYLGLQJ SV\FKRVRFLDO VHUYLFHV HLWKHU
LQ WKHLU RZQ SUDFWLFHV LQFOXGLQJ
FRXQVHOLQJ DQG SDWLHQW SDUWLFLSDWLRQ
LQ VHOI KHOS JURXSV RU WKURXJK
UHIHUUDOV WR UHSXWDEOH EHKDYLRUDO
KHDOWK SUDFWLWLRQHUV LQ WKHLU
FRPPXQLWLHV

&DWHJRULHV RI VSHFLDO SRSXODWLRQV ZKR
DUH KLJKO\ LQ QHHG RI FRQVXOWDWLRQ
ZKLOH LQ WUHDWPHQW LQFOXGH WKH
IROORZLQJ &6$7

'XULQJ FRQVXOWDWLRQ QXUVHV DQG RWKHU
KHDOWK FDUH SURYLGHUV PXVW SD\
DWWHQWLRQ WR DOO SDWLHQWV· PHGLFDO DQG

‡ 3DWLHQWV ZLWK SV\FKLDWULF
FRPRUELGLW\ UHTXLUH VSHFLDOL]HG
DVVHVVPHQW DQG LQWHJUDWHG

A477

1XUVLQJ 3UDFWLFH DQG WKH 8VH RI %XSUHQRUSKLQH IRU WKH 7UHDWPHQW RI 2SLRLG $GGLFWLRQ

SV\FKLDWULF DQG VXEVWDQFH DEXVH
WUHDWPHQW

$GGLWLRQDOO\ WKHVH SDWLHQWV PD\
KDYH RWKHU FRPRUELG KHDOWK PHQWDO
KHDOWK RU SV\FKRVRFLDO LVVXHV WKH\
VKRXOG UHFHLYH VHUYLFHV WR VWDELOL]H
WKHVH DVSHFWV RI WKHLU OLYHV

‡ 3DWLHQWV ZLWK SDLQ QHHG UHJXODU
PHGLFDO FDUH QRW DQ 273 LI WKH\
DUH GLDJQRVHG ZLWK D SDLQ GLVRUGHU
EXW QRW ZLWK DGGLFWLRQ 3DWLHQWV ZLWK
SDLQ GLVRUGHUV DUH VRPHWLPHV
SK\VLFDOO\ GHSHQGHQW RQ PHGLFDWLRQ
3DWLHQWV ZLWK SDLQ DQG SDWLHQWV ZLWK
FR RFFXUULQJ DGGLFWLRQ DQG FKURQLF RU
DFXWH SDLQ PD\ QHHG WR EH DVVHVVHG
E\ D SDLQ PDQDJHPHQW VSHFLDOLVW DV
ZHOO DV DQ DGGLFWLRQ VSHFLDOLVW

‡ +HDOWK FDUH SURIHVVLRQDOV ZLWK
DGGLFWLRQ UHTXLUH FRPSUHKHQVLYH
VSHFLDOL]HG FDUH 7KHLU UHFRYHU\ SODQ
PXVW EH FORVHO\ PRQLWRUHG DQG
UHSRUWLQJ WR 6WDWH DXWKRULWLHV PD\
EH UHTXLUHG

Treatment Retention and
Relapse Prevention

‡ 3DWLHQWV ZLWK PHGLFDO FRPRUELGLWLHV
VXFK DV LQIHFWLRXV GLVHDVHV RU RWKHU
PHGLFDO FRPSOLFDWLRQV PD\
DGGLWLRQDOO\ UHTXLUH UHIHUUDOV WR RQH
RU D QXPEHU RI PHGLFDO VSHFLDOWLHV

/HQJWK RI EXSUHQRUSKLQH WUHDWPHQW
PD\ EH DV VKRUW DV D IHZ GD\V IRU
PHGLFDOO\ VXSHUYLVHG ZLWKGUDZDO RU DV
ORQJ DV VHYHUDO \HDUV IRU PDLQWHQDQFH
WKHUDS\ 5HFRYHU\ IURP GUXJ DGGLFWLRQ
FDQ EH D ORQJ WHUP SURFHVV DQG
IUHTXHQWO\ UHTXLUHV PXOWLSOH HSLVRGHV
RI WUHDWPHQW $V ZLWK RWKHU FKURQLF
LOOQHVVHV UHODSVHV PD\ RFFXU GXULQJ RU
DIWHU VXFFHVVIXO WUHDWPHQW HSLVRGHV
,QGLYLGXDOV PD\ UHTXLUH PXOWLSOH
HSLVRGHV RI SURORQJHG WUHDWPHQW WR
DFKLHYH ORQJ WHUP DEVWLQHQFH DQG IXOO\
UHVWRUHG IXQFWLRQLQJ 1XUVHV PXVW
FRQWLQXRXVO\ PRQLWRU XULQH GUXJ
WHVWLQJ RU RWKHU WR[LFRORJ\ WHVWLQJ WKH
QXPEHU RI SLOOV LQ WKH SDWLHQW·V VXSSO\
PHGLFDWLRQ GRVDJH DQG SKDUPDF\
FKHFNV WR KHOS SUHYHQW UHODSVH

‡ 3DWLHQWV ZKR DUH SUHJQDQW DQG KDYH
RSLRLG RU RWKHU DGGLFWLRQV DUH KLJK
ULVN SDWLHQWV DQG UHTXLUH VSHFLDOL]HG
FDUH WR PDQDJH DQG UHGXFH ULVNV IRU
ERWK WKH PRWKHUV DQG WKH QHRQDWHV
+RZHYHU LQIRUPDWLRQ RQ
EXSUHQRUSKLQH DQG SUHJQDQF\ LV
OLPLWHG
‡ $GROHVFHQW SDWLHQWV KDYH VSHFLDO
SV\FKRVRFLDO DQG HGXFDWLRQDO QHHGV
DQG WKH\ UHTXLUH VSHFLDO FRQVHQW
SURFHGXUHV IRU VWDUWLQJ WUHDWPHQW
‡ *HULDWULF SDWLHQWV KDYH SDUWLFXODU
YXOQHUDELOLWLHV EXW LQIRUPDWLRQ
DERXW EXSUHQRUSKLQH DQG ROGHU
DGXOWV LV OLPLWHG

5HODSVH FDQ KDSSHQ EHFDXVH RI WKH
SUHVHQFH RI ERWK SK\VLFDO DQG
HPRWLRQDO WULJJHUV LQ WKH SDWLHQW·V OLIH
1XUVHV PXVW KHOS SDWLHQWV XQGHUVWDQG
WKRVH WULJJHUV DQG FUHDWH VWUDWHJLHV WR
DYRLG DQG PDQDJH WKHP 0DUODWW
*HRUJH
:DQLJDUDWQH HW DO
7KRVH VWUDWHJLHV LQFOXGH
KHOS SDWLHQWV GHYHORS DQ
XQGHUVWDQGLQJ RI WKH VWUHVVIXO WULJJHUV
LQ WKHLU OLYHV
KHOS SDWLHQWV GHYHORS
DOWHUQDWLYH DGDSWLYH UHVSRQVHV WR
VWUHVVHV DQG
KHOS WKHP ILQG

‡ 3DWLHQWV ZLWK SRO\VXEVWDQFH DEXVH
VKRXOG EH UHIHUUHG WR DGGLFWLRQ
VSHFLDOLVWV EXSUHQRUSKLQH LV QRW
NQRZQ WR EH HIIHFWLYH IRU WUHDWLQJ
DGGLFWLRQ WR GUXJV LQ RWKHU FODVVHV
‡ 3DWLHQWV ZKR DUH UHFHQWO\
GLVFKDUJHG IURP RU XQGHU WKH
MXULVGLFWLRQ RI WKH FULPLQDO MXVWLFH
V\VWHP UHTXLUH FROODWHUDO DQG RWKHU
UHSRUWLQJ FRQWDFWV IRU H[DPSOH
SKRQH FDOOV RU ZULWWHQ UHSRUWV IRU
SDUROH RIILFHUV RU WKH GUXJ FRXUW

A478

%XSUHQRUSKLQH $ *XLGH IRU 1XUVHV

FRQVWUXFWLYH ZD\V RI PDQDJLQJ VWUHVV
&ODQF\ &R\QH
:ULJKW

‡ :KDW KDV ZRUNHG IRU \RX LQ WKH
SDVW"

1XUVHV DQG RWKHU KHDOWK FDUH
SURYLGHUV PXVW FRQWLQXRXVO\ DVN
SDWLHQWV RSHQ TXHVWLRQV WR IDFLOLWDWH
FRQVWUXFWLYH GLVFXVVLRQ UDWKHU WKDQ
UHVLVWDQFH ([DPSOHV RI WKRVH
TXHVWLRQV DUH DV IROORZV

7KH DLP RI QXUVLQJ LQWHUYHQWLRQ LQ
UHFRYHU\ PDQDJHPHQW LV WR KHOS
SDWLHQWV SULRULWL]H WKHLU QHHGV DQG
PDLQWDLQ WKHLU PRWLYDWLRQ DV ZHOO DV
WR HPSRZHU SDWLHQWV WR DFKLHYH GHVLUHG
UHFRYHU\ RXWFRPHV &ODQF\ &R\QH
:ULJKW

‡ :KDW GR \RX WKLQN \RX ZLOO GR"
‡ ,W PXVW EH XQFRPIRUWDEOH IRU \RX
:KDW LV \RXU QH[W VWHS"

1XUVHV PXVW IRFXV RQ SDWLHQWV·
HPSRZHUPHQW DQG KHOS WKHP PDQDJH
WKHLU OLYHV LQ D FRQVWUXFWLYH ZD\
6HHGKRXVH
1XUVHV DOVR QHHG WR
KHOS SDWLHQWV
GHYHORS WUXVW RYHU
WLPH GXULQJ WKHLU WKHUDSHXWLF YLVLWV
DQG GHYHORS IXUWKHU WUXVW RI WKH
WUHDWPHQW SURJUDP DQG SURYLGHUV
LGHQWLI\ WKHLU RZQ QHHGV DQG
YHUEDOL]H WKHLU VSHFLILF JRDOV DQG
REMHFWLYHV DQG
DFKLHYH WKHLU SODQV
VXFFHVVIXOO\ (JDQ

‡ :KDW DUH \RXU RSWLRQV"
‡ :KDW DUH VRPH RI WKH JRRG WKLQJV
KDSSHQLQJ WR \RX"
‡ :KDW LV FKDQJLQJ LQ \RXU OLIH"
‡ +RZ GRHV LW IHHO WR EH VXFFHVVIXO
WKXV IDU" &ODQF\ &R\QH
:ULJKW
‡ :KDW FDQ ZH GR WR KHOS \RX LQ \RXU
UHFRYHU\ SURFHVV"

A479

Confidentiality and Privacy
Title 42 Code of Federal
Regulations, Part 2, Subpart
C—Disclosures With
Patient’s Consent

UHTXLUHG E\
&)5 3DUW LV LQFOXGHG LQ
7,3
SDJHV
²
&6$7
+HUH LV WKH OLQN WR WKH FRQVHQW IRUP
KWWS ZZZ QFEL QOP QLK JRY
ERRNV EY IFJL"ULG KVWDW VHFWLRQ

3ULRU WR LQLWLDWLQJ RIILFH EDVHG RSLRLG
DGGLFWLRQ WUHDWPHQW SUDFWLFH SROLFLHV DQG
SURFHGXUHV VKRXOG EH HVWDEOLVKHG WKDW
ZLOO JXDUDQWHH WKH SULYDF\ DQG
FRQILGHQWLDOLW\ RI SDWLHQWV WUHDWHG IRU
DGGLFWLRQ 3URYLGHUV PXVW FRPSO\ ZLWK
DOO DSSOLFDEOH ODZV DQG UHJXODWLRQV
UHJDUGLQJ WKH SULYDF\ DQG FRQILGHQWLDOLW\
RI PHGLFDO UHFRUGV LQ JHQHUDO DQG RI
LQIRUPDWLRQ SHUWDLQLQJ WR DGGLFWLRQ
WUHDWPHQW VHUYLFHV LQ SDUWLFXODU 7KH
SULYDF\ DQG FRQILGHQWLDOLW\ RI
LQGLYLGXDOO\ LGHQWLILDEOH LQIRUPDWLRQ
UHODWLQJ WR SDWLHQWV UHFHLYLQJ GUXJ RU
DOFRKRO WUHDWPHQW LV SURWHFWHG E\ WKH
6$0+6$ FRQILGHQWLDOLW\ UHJXODWLRQ
7LWOH
3DUW RI WKH &RGH RI )HGHUDO
5HJXODWLRQV
&)5 3DUW
7KLV
UHJXODWLRQ PDQGDWHV WKDW DGGLFWLRQ
WUHDWPHQW LQIRUPDWLRQ LQ WKH SRVVHVVLRQ
RI VXEVWDQFH DEXVH WUHDWPHQW SURYLGHUV
EH KDQGOHG ZLWK D JUHDWHU GHJUHH RI
FRQILGHQWLDOLW\ WKDQ JHQHUDO PHGLFDO
LQIRUPDWLRQ 2FFDVLRQDOO\ SK\VLFLDQV
ZLOO QHHG WR FRPPXQLFDWH ZLWK
SKDUPDFLVWV DQG RWKHU KHDOWK FDUH
SURYLGHUV DERXW WKH DGGLFWLRQ WUHDWPHQW
RI D SDUWLFXODU SDWLHQW H J WR YHULI\ D
6XER[RQHŠ RU 6XEXWH[Š SUHVFULSWLRQ
5HJXODWLRQ
&)5 3DUW UHTXLUHV
SK\VLFLDQV SURYLGLQJ RSLRLG DGGLFWLRQ
WUHDWPHQW WR REWDLQ D VLJQHG SDWLHQW
FRQVHQW EHIRUH GLVFORVLQJ LQGLYLGXDOO\
LGHQWLILDEOH DGGLFWLRQ WUHDWPHQW
LQIRUPDWLRQ WR DQ\ WKLUG SDUW\ $ VDPSOH
FRQVHQW IRUP ZLWK DOO WKH HOHPHQWV

3K\VLFLDQV VKRXOG KDYH HDFK QHZ
SDWLHQW ZKR LV WUHDWHG ZLWK
EXSUHQRUSKLQH VLJQ D FRS\ RI WKLV IRUP
WR SUHYHQW FRQILGHQWLDOLW\ SUREOHPV DW
SKDUPDFLHV ZKHQ SDWLHQWV SUHVHQW
ZLWK EXSUHQRUSKLQH SUHVFULSWLRQV ,W LV
SDUWLFXODUO\ LPSRUWDQW WR REWDLQ
SDWLHQWV· FRQVHQW ZKHQ WHOHSKRQLQJ RU
ID[LQJ SUHVFULSWLRQV WR SKDUPDFLHV DV
WKLV LQIRUPDWLRQ FRQVWLWXWHV GLVFORVXUH
RI WKH SDWLHQW·V DGGLFWLRQ WUHDWPHQW
:KHQ SK\VLFLDQV GLUHFWO\ WUDQVPLW
SUHVFULSWLRQV WR SKDUPDFLHV IXUWKHU
UHGLVFORVXUH RI SDWLHQW LGHQWLI\LQJ
LQIRUPDWLRQ E\ WKH SKDUPDF\ LV
SURKLELWHG XQOHVV VLJQHG SDWLHQW
FRQVHQW LV REWDLQHG E\ WKH SKDUPDF\
5HJXODWLRQ
&)5 3DUW GRHV QRW
DSSO\ WR SKDUPDFLHV KRZHYHU ZKHQ
WKH SDWLHQW GHOLYHUV D EXSUHQRUSKLQH
SUHVFULSWLRQ ZLWKRXW WHOHSKRQH
FRQILUPDWLRQ RU RWKHU GLUHFW
FRPPXQLFDWLRQ IURP SK\VLFLDQV WR WKH
SKDUPDFLVW

A480

7KH +HDOWK ,QVXUDQFH 3RUWDELOLW\ DQG
$FFRXQWDELOLW\ $FW +,3$$ RI
3XEOLF /DZ
KWWS DVSH KKV JRY DGPQVLPS SO
KWP ZKLFK DPHQGV WKH ,QWHUQDO
5HYHQXH 6HUYLFH &RGH RI
PDQGDWHV VWDQGDUGL]DWLRQ RI H[FKDQJH
IRUPDWV IRU SDWLHQW KHDOWK
DGPLQLVWUDWLYH DQG ILQDQFLDO GDWD
UHTXLUHV GHYHORSPHQW RI XQLTXH
LGHQWLILHUV IRU LQGLYLGXDOV HPSOR\HUV

%XSUHQRUSKLQH $ *XLGH IRU 1XUVHV

KHDOWK SODQV DQG KHDOWK FDUH
SURYLGHUV DQG HVWDEOLVKHV VHFXULW\
VWDQGDUGV IRU SURWHFWLQJ WKH
FRQILGHQWLDOLW\ DQG LQWHJULW\ RI
LQGLYLGXDOO\ LGHQWLILDEOH KHDOWK
LQIRUPDWLRQ 6$0+6$ KDV SUHSDUHG D
GRFXPHQW³&RPSDULVRQ %HWZHHQ WKH
&RQILGHQWLDOLW\ RI $OFRKRO DQG
6XEVWDQFH $EXVH 3DWLHQW 5HFRUGV
&)5 3DUW DQG WKH +HDOWK
,QVXUDQFH 3RUWDELOLW\ DQG
$FFRXQWDELOLW\ $FW
WKDW LV
DYDLODEOH DORQJ ZLWK RWKHU +,3$$
WHFKQLFDO DVVLVWDQFH WRROV RQ WKH
6$0+6$ +,3$$ :HE SDJHV DW
KWWS ZZZ KLSDD VDPKVD JRY 6HH DOVR
WKH 6$0+6$ 7UHDWPHQW $VVLVWDQFH
3XEOLFDWLRQ 7$3
&RQILGHQWLDOLW\
RI 3DWLHQW 5HFRUGV IRU $OFRKRO DQG
2WKHU 'UXJ 7UHDWPHQW /RSH]
DYDLODEOH RQ WKH 6$0+6$ 7UHDWPHQW
,PSURYHPHQW ([FKDQJH :HE VLWH DW
KWWS ZZZ WUHDWPHQW RUJ WDSV LQGH[
KWPO 7KH 6XEXWH[Š DQG 6XER[RQHŠ
SDFNDJH ODEHOV DYDLODEOH RQ WKH )'$
:HE VLWH DW
KWWS ZZZ IGD JRY FGHU GUXJ LQIRSDJH
VXEXWH[BVXER[RQH GHIDXOW KWP DOVR
FRQWDLQ LQIRUPDWLRQ RQ )HGHUDO
FRQILGHQWLDOLW\ UXOHV DQG UHJXODWLRQV

ZLWK WKHLU 6WDWH PHGLFDO DXWKRULWLHV
FRQFHUQLQJ SULYDF\ DQG FRQILGHQWLDOLW\
UXOHV LQ WKHLU ORFDOHV 6RPH RI WKH
SULYDF\ DQG FRQILGHQWLDOLW\ LVVXHV WKDW
FDQ DULVH LQ WKH FRXUVH RI DGGLFWLRQ
WUHDWPHQW &6$7
DUH
‡ ,QIRUPDWLRQ FRYHUHG E\ WKH
GRFWRU SDWLHQW SULYLOHJH
‡ &LUFXPVWDQFHV LQ ZKLFK FRQILGHQWLDO
LQIRUPDWLRQ LV SURWHFWHG IURP
GLVFORVXUH
‡ ([FHSWLRQV WR 6WDWH ODZV SURWHFWLQJ
HWKLFDO LQIRUPDWLRQ
‡ 'XW\ WR UHSRUW SRWHQWLDO WKUHDWV RI
YLROHQFH RU FKLOG RU HOGHU DEXVH
‡ &RPPXQLFDWLRQV ZLWK WKLUG SDUWLHV
H J IDPLOLHV HPSOR\HUV DOOLHG
KHDOWK FDUH SURYLGHUV WKLUG SDUW\
SD\HUV ODZ HQIRUFHPHQW RIILFHUV
UHVSRQVHV WR VXESRHQDV
1XUVHV DUH UHVSRQVLEOH IRU DVVXULQJ
SDWLHQWV WKDW WKHLU SHUVRQDO
LQIRUPDWLRQ LV VDIH DQG UHVSHFWHG
ZLWKLQ WKH WHDP DQG DJHQF\ $OVR
QXUVHV PXVW LQIRUP SDWLHQWV WKDW WKHLU
SHUVRQDO LQIRUPDWLRQ FDQ EH SURYLGHG
WR WKLUG SDUWLHV RQ WKH SDWLHQW·V EHKDOI
RQO\ ZLWK ZULWWHQ SHUPLVVLRQ IURP WKH
SDWLHQW /DPEHUW &R\QH
8.&&

3K\VLFLDQV QXUVHV DQG RWKHU KHDOWK
FDUH SURYLGHUV VKRXOG DOVR FRQVXOW

A481

For More Information
&HQWHU IRU 6XEVWDQFH $EXVH
7UHDWPHQW &6$7 %XSUHQRUSKLQH
,QIRUPDWLRQ &HQWHU
KWWS ZZZ EXSUHQRUSKLQH VDPKVD JRY
7HOHSKRQH
²%83²&6$7
²
²
OLYH RSHUDWRUV DUH
DYDLODEOH WR DQVZHU FDOOV 0RQGD\
WKURXJK )ULGD\ IURP
D P WR
S P (67
6$0+6$ %XSUHQRUSKLQH
3K\VLFLDQ /RFDWRU :HE 6LWH
KWWS EXSUHQRUSKLQH VDPKVD JRY
EZQVBORFDWRU LQGH[ KWPO
( PDLO
LQIR#EXSUHQRUSKLQH VDPKVD JRY
)HGHUDWLRQ RI 6WDWH 0HGLFDO %RDUGV
)60%
0RGHO 3ROLF\ *XLGHOLQHV IRU 2SLRLG
$GGLFWLRQ 7UHDWPHQW LQ WKH 0HGLFDO
2IILFH
KWWS ZZZ IVPE RUJ JUSROBSROLF\GRFV
KWPO
)RRG DQG 'UXJ $GPLQLVWUDWLRQ
)'$ &HQWHU IRU 'UXJ (YDOXDWLRQ
DQG 5HVHDUFK &'(5
7HOHSKRQH
²,1)2²)'$ IRU
FRQVXPHU LQTXLULHV DQG
²
²
IRU PHGLD LQTXLULHV
KWWS ZZZ IGD JRY FGHU GUXJ LQIRSDJH
VXEXWH[BVXER[RQH GHIDXOW KWP
-RLQ 7RJHWKHU 1DWLRQDO 3ROO RI
3K\VLFLDQV RQ %DUULHUV WR
:LGHVSUHDG %XSUHQRUSKLQH 8VH
KWWS ZZZ MRLQWRJHWKHU RUJ VD
LVVXHV KRWBLVVXHV EXSH
1DWLRQDO $VVRFLDWLRQ RI 6WDWH
$OFRKRO DQG 'UXJ $EXVH
'LUHFWRUV 1$6$'$'
1$6$'$' 3ROLF\ 3DSHU
7RSLF
7KH 8VH RI 0HGLFDWLRQV LQ
6XEVWDQFH $EXVH 7UHDWPHQW

A482

KWWS ZZZ QDVDGDG RUJ UHVRXUFH
SKS"GRFBLG
1$6$'$' 3ROLF\ 3DSHU
7RSLF
3K\VLFLDQ ,QIRUPDWLRQ³$QVZHUV WR
)UHTXHQWO\ $VNHG 4XHVWLRQV
KWWS ZZZ QDVDGDG RUJ
UHVRXUFH SKS"GRFBLG
1RUWKZHVW )URQWLHU $GGLFWLRQ
7HFKQRORJ\ 7UDQVIHU &HQWHU
$77& 2SLDWH 0HGLFDWLRQ
,QLWLDWLYH IRU 5XUDO 2UHJRQ
5HVLGHQWV 20,525 1RYHPEHU
7UHDWLQJ 2SLDWH 'HSHQGHQFH LQ
5XUDO &RPPXQLWLHV $ *XLGH IRU
'HYHORSLQJ &RPPXQLW\ 5HVRXUFHV
KWWS ZZZ LUHWD RUJ RSLDWHV
SGI
6XEVWDQFH $EXVH DQG 0HQWDO
+HDOWK 6HUYLFHV $GPLQLVWUDWLRQ
6$0+6$
&OLQLFDO *XLGHOLQHV IRU WKH 8VH RI
%XSUHQRUSKLQH LQ WKH 7UHDWPHQW RI
2SLRLG $GGLFWLRQ 7UHDWPHQW
,PSURYHPHQW 3URWRFRO 7,3
DYDLODEOH WKURXJK 6$0+6$·V
1DWLRQDO &OHDULQJKRXVH RQ $OFRKRO
DQG 'UXJ ,QIRUPDWLRQ 1&$', 7R
RUGHU JR WR KWWS QFDGLVWRUH
VDPKVD JRY FDWDORJ SURGXFW'HWDLOV
DVS["3URGXFW,'
7HOHSKRQH
²
²
²
6XER[RQHŠ &OLQLFDO ,QIRUPDWLRQ
+RWOLQH DQG :HEVLWH
7HOHSKRQH
²68%2;21(
²
²
²
:HE
KWWS ZZZ VXER[RQH FRP
7KH 1DWLRQDO $OOLDQFH RI $GYRFDWHV IRU
%XSUHQRUSKLQH 7UHDWPHQW
1$$%7
KWWS ZZZ QDDEW RUJ

A483

Resources for Buprenorphine
Training Sessions
<RX PD\ FRQWDFW WKH 6XER[RQHŠ KHOS
OLQH ²
²
²
RU YLVLW WKH
6XER[RQHŠ :HE VLWH
KWWS ZZZ VXER[RQH FRP RU \RX
PD\ FRQWDFW DQ\ RI WKH IROORZLQJ
RUJDQL]DWLRQV

7KH $PHULFDQ 6RFLHW\ RI $GGLFWLRQ
0HGLFLQH
1RUWK 3DUN $YHQXH $UFDGH
6XLWH
&KHY\ &KDVH 0'
7HOHSKRQH
²
²
( PDLO HPDLO#DVDP RUJ
:HE VLWH KWWS DVDP RUJ

7KH $PHULFDQ $FDGHP\ RI $GGLFWLRQ
3V\FKLDWU\
0LVVLRQ 5RDG 6XLWH
3UDLULH 9LOODJH .6
7HOHSKRQH
²
²
( PDLO LQIR#DDDS RUJ
:HE VLWH KWWS ZZZ DDDS RUJ

$PHULFDQ 2VWHRSDWKLF $VVRFLDWLRQ
(DVW 2QWDULR 6WUHHW
&KLFDJR ,/
7HOHSKRQH
²
²
( PDLO LQIR#DRD QHW RUJ
:HE VLWH KWWS ZZZ DRD QHW RUJ

7KH $PHULFDQ 3V\FKLDWULF $VVRFLDWLRQ
. 6WUHHW 1:
:DVKLQJWRQ '&
7HOHSKRQH
²
²
( PDLO DSD#SV\FK RUJ
:HE VLWH KWWS ZZZ SV\FK RUJ

A484

A485

Appendix A:
Buprenorphine Physician and
Treatment Program Locator

A486

A487

Appendix A: Buprenorphine Physician and Treatment Program Locator

Welcome to the Buprenorphine Physician and
Treatment Program Locator
The Locator is a service of the Center for Substance Abuse Treatment (CSAT),
Substance Abuse and Mental Health Services Administration (SAMHSA).
The Locator is an online resource designed to assist States, medical and addiction
treatment communities, potential patients, and/or their families in finding
information on locating physicians and treatment programs authorized to treat
opioid addiction with buprenorphine (Suboxone® and Subutex®).
The Locator lists:
• Physicians authorized to prescribe a class of medications for opioid (narcotic)
addiction treatment, of which Suboxone® and Subutex® are the only ones
approved at this time.
• Treatment programs authorized to dispense (but not prescribe) opioid treatment
medications, including Suboxone® and Subutex®.
The treatment programs in the Locator are based on a list of treatment programs
authorized under 21 U.S. Code (U.S.C.) Section 823(g)(1) to dispense (but not
prescribe) opioid treatment medications. These treatment programs can admit
patients and dispense methadone, Subutex®, or Suboxone®. Please note that CSAT
is not a treatment referral agency and cannot make specific recommendations or
endorsements regarding treatment programs on the Locator.
CSAT compiles the list of physicians in the Locator from its information on qualified
physicians who have waivers to prescribe or dispense specially approved classes of
narcotic medications for the treatment of narcotic addiction. Of these drugs,
Subutex® and Suboxone® are the only ones approved by the U.S. Food and Drug
Administration (FDA) thus far. The list includes only physicians who have met
qualifications under the Drug Addiction Treatment Act of 2000 (DATA 2000) and
who have authorized the use of their names in the Locator. As noted above for
treatment programs, CSAT cannot make specific recommendations or endorsements
regarding physicians on the Locator.
DATA 2000 allows qualified physicians to dispense or prescribe specially approved
Schedule III, IV, and V drugs for medication-assisted opioid addiction treatment. In
addition, DATA 2000 reduces the regulatory burden on physicians who choose to
practice opioid therapy by permitting qualified physicians to apply for and receive
waivers of the special registration requirements defined in the Narcotic Addiction
Treatment Act and the Controlled Substances Act. Since DATA 2000 was enacted in
October 2000, only the partial opioid agonist medication buprenorphine (Suboxone®
and Subutex®) has received FDA approval.

51

A488

Buprenorphine: A Guide for Nurses

To read the text of DATA 2000, to view what is required of “qualifying physicians”
under the act, or to find out more about buprenorphine and DATA 2000, follow this
link. http://www.buprenorphine.samhsa.gov/bwns_locator/aboutphysician.htm
How buprenorphine works is explained at
http://www.naabt.org/education/images/Receptors_HiRes.jpg

52

A489

Appendix A: Buprenorphine Physician and Treatment Program Locator

(Illustration provided by the National Alliance of Advocates for Buprenorphine
Treatment, copyright 2007, NAABT, Inc.)
Opioid receptor is empty. As someone becomes tolerant to opioids, they become less
sensitive and require more opioids to produce the same effect. Whenever there is an
insufficient amount of opioid receptors activated, the patient feels discomfort. This
happens in withdrawal.
Opioid receptor filled with a full-agonist. The strong opioid effect of heroin and
painkillers can cause euphoria and stop the withdrawal for a period of time
(4-24 hours). The brain begins to crave opioids, sometimes to the point of an
uncontrollable compulsion (addiction), and the cycle repeats and escalates.
Opioids replaced and blocked by buprenorphine. Buprenorphine competes with the
full agonist opioids for the receptor. Since buprenorphine has a higher affinity
(stronger binding ability) it expels existing opioids and blocks others from attaching.
As a partial agonist, the buprenorphine has a limited opioid effect, enough to stop
withdrawal but not enough to cause intense euphoria.
Over time (24–72 hours) buprenorphine dissipates, but still creates a limited opioid
effect (enough to prevent withdrawal) and continues to block other opioids from
attaching to the opioid receptors.

53

A490

A491

Appendix B:
Clinical Guideline Algorithms

55

A492

A493

Appendix B: Clinical Guideline Algorithms

Figure 1. Induction Days 1–2

57

A494

Buprenorphine: A Guide for Nurses

When a patient dependent on opioids presents for treatment, determine whether
the drug is a long-acting or short-acting opioid. The withdrawal and buprenorphine
induction process is described here separately for these types of opioids.
If a patient presents who is taking the long-acting opioid methadone, taper the dose
to 30 milligrams or less per day. If patient is taking the long-acting opioid
levomethadyl acetate (LAAM), taper dose to 40 milligrams or less per 48 hours.
If a patient is not experiencing withdrawal symptoms 24 or more hours after the
last dose of methadone or 48 hours or more after the last dose of LAAM, reevaluate
the patient’s suitability for induction of buprenorphine treatment. If the patient is
experiencing symptoms of withdrawal from these drugs at these time intervals,
administer 2 milligrams of buprenorphine monotherapy and observe the patient for
2 hours or longer.
If administering buprenorphine relieves withdrawal symptoms, the dose for day 1 is
established (see figure 2 for details of further treatment).
If withdrawal symptoms are not relieved, repeat the dose of 2 milligrams of
buprenorphine monotherapy, up to a maximum of 8 milligrams per 24 hours.
If the larger dose relieves withdrawal symptoms, the day 1 dose is established
(continue treatment as described in figure 2).
If the larger dose does not relieve symptoms, manage withdrawal symptomatically
and have the patient return the next day for a repeat of the attempt to induce
buprenorphine treatment.
If a patient presents who is taking a short-acting opioid, discontinue the opioid.
If withdrawal symptoms are not present 12–24 hours after the last dose of opioids,
reevaluate the person’s suitability for induction of buprenorphine treatment.
If withdrawal symptoms are present within 12–24 hours after the last dose of
opioids, administer of a dose of 4 milligrams buprenorphine combined with
1 milligram of naloxone; observe the patient for 2 hours or longer. If withdrawal
symptoms are relieved, the Day 1 dose has been established. Continue as described
in figure 2.
If withdrawal symptoms are not relieved with the combined dose above, repeat the
dose up to a maximum of 8 milligrams of buprenorphine combined with
2 milligrams of naloxone per 24 hours. If withdrawal symptoms are relieved with
this higher dose, the day 1 dose is established. Continue treatment as described in
figure 2.
If the larger dose does not relieve symptoms, manage withdrawal symptomatically
and have the patient return the next day for a repeat of the attempt to induce
buprenorphine treatment.

58

A495

Appendix B: Clinical Guideline Algorithms
Figure 2. Induction Day 2 Forward

59

A496

Buprenorphine: A Guide for Nurses

When a patient returns to the office on Day 2, having taken on Day 1
buprenorphine monotherapy (if formerly taking long-acting opioids) or combination
buprenorphine and naloxone therapy (if formerly taking a short-acting opioid),
switch to the combination therapy on Day 2 (if the patient is not pregnant).
If the patient is not having withdrawal symptoms since the last therapy (Day 1),
administer the daily dose equal to the combination therapy administered on day 1.
Note that the dose may be increased by 2–4 milligrams buprenorphine and
0.5–1 milligrams naloxone on subsequent days, as needed for symptom relief.
Target a dose to reach 12–16 milligrams buprenorphine combined with
3–4 milligrams naloxone per day by the end of the first week.
If the patient is having withdrawal symptoms since the last dose of therapy on
Day 1, administer a dose equal to the total amount of combined therapy
administered the previous day plus an additional 4 milligrams buprenorphine and
1 milligram naloxone. The maximum dose for Day 2 is 12 milligrams buprenorphine
and 3 milligrams of naloxone. Observe the patient for 2 hours or longer.
If the withdrawal symptoms are relieved, the daily buprenorphine and naloxone
combined dose is established. Again, note that the dose may be increased by
2–4 milligrams buprenorphine and 0.5–1 milligrams naloxone on subsequent days,
as needed for symptom relief. Target a dose to reach 12–16 milligrams
buprenorphine combined with 3–4 milligrams naloxone per day by the end of the
first week.
If the withdrawal symptoms are not relieved with the dose given on Day 1,
administer an additional dose of combined 4 milligrams buprenorphine and
1 milligram naloxone. The maximum total dose on day 2 is 16 milligrams
buprenorphine and 4 milligrams naloxone. If withdrawal symptoms are relieved,
the new daily dose is established. Again, note that the dose may be increased by
2–4 milligrams buprenorphine and 0.5–1 milligrams naloxone on subsequent days,
as needed for symptom relief. Target a dose to reach 12–16 milligrams
buprenorphine combined with 3–4 milligrams naloxone per day by the end of the
first week.
If the increased dose on Day 2 does not relieve withdrawal symptoms, manage
withdrawal symptomatically. On subsequent induction days, if the patient returns
experiencing withdrawal symptoms, continue to increase the doses as per the
schedule above up to a daily maximum of 32 milligrams buprenorphine and
8 milligrams naloxone combined.

60

A497

Appendix B: Clinical Guideline Algorithms
Figure 3. Stabilization Phase

61

A498

Buprenorphine: A Guide for Nurses

If a patient is receiving induction, this phase is completed when the daily dose of
combined buprenorphine and naloxone is established and the patient has not
continued illicit opioid use, withdrawal symptoms are not present, and neither the
compulsion to use drugs nor cravings are present.
If a patient is receiving induction, this phase is not completed if the patient has
continued illicit opioid use, withdrawal symptoms are present, and the compulsion
to use drugs or cravings are present. If any of these conditions or more than one is
present, continue adjusting the combined daily dose up to 32 milligrams
buprenorphine and 8 milligrams naloxone. If the patient does not continue illicit
opioids use, this dose becomes the established combined daily dose.
If the patient does continue illicit opioid use despite the maximum combined dose,
maintain that combined dose. Increase the intensity of nonpharmacological
interventions. Consider referral to Opioid Treatment Programs or other more
intense levels of treatment.

62

A499

Appendix B: Clinical Guideline Algorithms
Figure 4. Detoxification From Short-Acting Opioids

63

A500

Buprenorphine: A Guide for Nurses

If a patient is dependent on short-acting opioids, discontinue those drugs and
administer combined 4 milligrams buprenorphine and 1 milligram naloxone.
If withdrawal symptoms emerge, adjust the dose of combined buprenorphine and
naloxone to relieve withdrawal symptoms, as described in figure 1.
If withdrawal symptoms do not emerge (or the dose of combined drugs relieves
withdrawal symptoms) stabilize the patient on the appropriate dose of
buprenorphine/naloxone for at least 2 days.
If there is a compelling reason for rapid discontinuation of opioids, taper
buprenorphine over 3–6 days, then continue buprenorphine/naloxone.
If there is not a compelling need for rapid discontinuation of opioids, stabilize the
patient’s dose of buprenorphine/naloxone for 1 week or longer. Taper the combined
buprenorphine/naloxone over a moderate period, or preferably a long period, of
reduction in dose.
If withdrawal symptoms emerge, discontinue the taper until the patient stabilizes,
then resume tapering. If withdrawal symptoms do not emerge, or after taper is
resumed, continue taper until buprenorphine/naloxone treatment is discontinued.

64

A501

Appendix B: Clinical Guideline Algorithms
Figure 5. Discontinuing of Opioid Agonist Treatment (OAT) Using Buprenorphine

65

A502

Buprenorphine: A Guide for Nurses

If a patient who is being treated with methadone or levomethadyl acetate (LAAM)
displays evidence of medical and psychosocial stability, consider whether there is a
compelling reason to discontinue that treatment. If not, continue with that
treatment.
If there is a compelling reason to discontinue that treatment, taper doses
(methadone to 30 milligrams or less per day or less; LAAM to 40 milligrams or less
per day).
When the patient has tapered to those doses, begin buprenorphine monotherapy
(see figure 1).
If there is a compelling reason for rapid discontinuation of therapy, taper
buprenorphine monotherapy over 3–6 days, then discontinue.
If there is not a compelling reason for rapid discontinuation after induction of
buprenorphine monotherapy, switch to combined buprenorphine/naloxone therapy
and stabilize the dose over a period of 1 week or more.
Then taper the combined buprenorphine/naloxone therapy over 2 or more weeks. If
withdrawal symptoms emerge, split the total amount into 2–3 smaller doses per
day.
When withdrawal symptoms do not emerge, discontinue the combined
buprenorphine/naloxone therapy.

66

A503

Appendix C: Screening Instruments

A504

A505

$SSHQGL[ & 6FUHHQLQJ ,QVWUXPHQWV

Drug Abuse Screening Test (DAST-10), Drug Use Questionnaire
7KH IROORZLQJ TXHVWLRQV FRQFHUQ LQIRUPDWLRQ DERXW \RXU SRVVLEOH LQYROYHPHQW ZLWK
GUXJV QRW LQFOXGLQJ DOFRKROLF EHYHUDJHV GXULQJ WKH SDVW
PRQWKV &DUHIXOO\ UHDG
HDFK VWDWHPHQW DQG GHFLGH LI \RXU DQVZHU LV ´<HVµ RU ´1R µ 7KHQ FLUFOH WKH
DSSURSULDWH UHVSRQVH EHVLGH WKH TXHVWLRQ
,Q WKH IROORZLQJ VWDWHPHQWV ´GUXJ DEXVHµ UHIHUV WR
‡ 7KH XVH RI SUHVFULEHG RU RYHU WKH FRXQWHU GUXJV LQ H[FHVV RI WKH GLUHFWLRQV DQG
‡ $Q\ QRQPHGLFDO XVH RI GUXJV
‡ 7KH YDULRXV FODVVHV RI GUXJV PD\ LQFOXGH FDQQDELV H J PDULMXDQD KDVKLVK
VROYHQWV H J SDLQW WKLQQHU WUDQTXLOL]HUV H J 9DOLXP EDUELWXUDWHV FRFDLQH
VWLPXODQWV H J VSHHG KDOOXFLQRJHQV H J O\VHUJLF DFLG GLHWK\ODPLGH >/6'@ RU
QDUFRWLFV H J KHURLQ 5HPHPEHU WKDW WKH TXHVWLRQV GR QRW LQFOXGH DOFRKROLF
EHYHUDJHV
3OHDVH DQVZHU HYHU\ TXHVWLRQ ,I \RX KDYH GLIILFXOW\ ZLWK D TXHVWLRQ WKHQ FKRRVH WKH
UHVSRQVH WKDW LV PRVWO\ ULJKW
These Questions Refer to the Past 12 Months
1. Have you used drugs other than those required for medical reasons?

Yes

No

2. Do you abuse more than one drug at a time?

Yes

No

3. Are you always able to stop using drugs when you want to?

Yes

No

4. Have you ever had blackouts or flashbacks as a result of drug use?

Yes

No

5. Do you ever feel bad or guilty about your drug use?

Yes

No

6. Does your spouse (or parents) ever complain about your involvement with drugs?

Yes

No

7. Have you neglected your family because of your use of drugs?

Yes

No

8. Have you engaged in illegal activities in order to obtain drugs?

Yes

No

9. Have you ever experienced withdrawal symptoms (felt sick) when you stopped taking
drugs?

Yes

No

Yes

No

10. Have you had medical problems as a result of your drug use
(e.g., memory loss, hepatitis, convulsions, bleeding)?
Interpretation (Each “Yes” response = 1)
Score

Degree of Problems Related to Drug Abuse

Suggested Action

0

No Problems Reported

None At This Time

1–2

Low Level

Monitor, Reassess At A Later Date

3–5

Moderate Level

Further Investigation

6–8

Substantial Level

Intensive Assessment

Source: Adapted from Skinner, H. A. (1982). The drug abuse screening test. Addictive Behaviors, 7(4),
363–371. Copyright 2008. Reprinted with permission from Centre for Addiction and Mental Health.
Available online at http://www.drugabuse.gov/Diagnosis-Treatment/DAST10.html.

A506

%XSUHQRUSKLQH $ *XLGH IRU 1XUVHV

The Alcohol Use Disorders Identification Test (AUDIT): Interview Version
+RZ RIWHQ GR \RX KDYH D GULQN FRQWDLQLQJ DOFRKRO"
>6NLS WR 4XHVWLRQV ² @
□ 1HYHU
□ 0RQWKO\ RU OHVV
□ WR WLPHV D PRQWK
□ WR WLPHV D ZHHN
□ RU PRUH WLPHV D ZHHN
+RZ PDQ\ GULQNV FRQWDLQLQJ DOFRKRO GR \RX KDYH RQ D W\SLFDO GD\ ZKHQ \RX DUH
GULQNLQJ"
□ RU
□ RU
□ RU
RU
□
RU PRUH
□
+RZ RIWHQ GR \RX KDYH VL[ RU PRUH GULQNV RQ RQH RFFDVLRQ"
1HYHU
/HVV WKDQ PRQWKO\
0RQWKO\
:HHNO\
'DLO\ RU DOPRVW GDLO\

□
□
□
□
□

>6NLS WR 4XHVWLRQV

DQG

LI 7RWDO 6FRUH IRU 4XHVWLRQV

DQG

@

+RZ RIWHQ GXULQJ WKH ODVW \HDU KDYH \RX IRXQG WKDW \RX ZHUH XQDEOH WR VWRS
GULQNLQJ RQFH \RX KDG VWDUWHG"
□ 1HYHU
□ /HVV WKDQ PRQWKO\
□ 0RQWKO\
□ :HHNO\
□ 'DLO\ RU DOPRVW GDLO\
+RZ RIWHQ GXULQJ WKH ODVW \HDU KDYH \RX IDLOHG WR GR ZKDW ZDV QRUPDOO\ H[SHFWHG
RI \RX EHFDXVH RI GULQNLQJ"
□ 1HYHU
□ /HVV WKDQ PRQWKO\
□ 0RQWKO\
□ :HHNO\
□ 'DLO\ RU DOPRVW GDLO\

A507

$SSHQGL[ & 6FUHHQLQJ ,QVWUXPHQWV

+RZ RIWHQ GXULQJ WKH ODVW \HDU KDYH \RX QHHGHG D ILUVW GULQN LQ WKH PRUQLQJ WR
JHW \RXUVHOI JRLQJ DIWHU D KHDY\ GULQNLQJ VHVVLRQ"
□ 1HYHU
□ /HVV WKDQ PRQWKO\
□ 0RQWKO\
□ :HHNO\
□ 'DLO\ RU DOPRVW GDLO\
+RZ RIWHQ GXULQJ WKH ODVW \HDU KDYH \RX KDG D IHHOLQJ RI JXLOW RU UHPRUVH DIWHU
GULQNLQJ"
□ 1HYHU
□ /HVV WKDQ PRQWKO\
□ 0RQWKO\
□ :HHNO\
□ 'DLO\ RU DOPRVW GDLO\
+RZ RIWHQ GXULQJ WKH ODVW \HDU KDYH \RX EHHQ XQDEOH WR UHPHPEHU ZKDW
KDSSHQHG WKH QLJKW EHIRUH EHFDXVH \RX KDG EHHQ GULQNLQJ"
□ 1HYHU
□ /HVV WKDQ PRQWKO\
□ 0RQWKO\
□ :HHNO\
□ 'DLO\ RU DOPRVW GDLO\
+DYH \RX RU VRPHRQH HOVH EHHQ LQMXUHG DV WKH UHVXOW RI \RXU GULQNLQJ"
□ 1R
□ <HV EXW QRW LQ WKH ODVW \HDU
□ <HV GXULQJ WKH ODVW \HDU
+DV D UHODWLYH IULHQG RU D GRFWRU RU RWKHU KHDOWK ZRUNHU EHHQ FRQFHUQHG DERXW
\RXU GULQNLQJ RU VXJJHVWHG \RX FXW GRZQ"
□ 1R
□ <HV EXW QRW LQ WKH ODVW \HDU
□ <HV LQ WKH ODVW \HDU
5HFRUG WKH WRWDO RI WKH VSHFLILF LWHPV BBBBB
,Q GHWHUPLQLQJ WKH UHVSRQVH FDWHJRULHV LW KDV EHHQ DVVXPHG WKDW RQH GULQN FRQWDLQV
J DOFRKRO ,Q FRXQWULHV ZKHUH WKH DOFRKRO FRQWHQW RI D VWDQGDUG GULQN GLIIHUV E\ PRUH
WKDQ
SHUFHQW IURP
J WKH UHVSRQVH FDWHJRU\ VKRXOG EH PRGLILHG DFFRUGLQJO\
6RXUFH %DERU 7 ) +LJJLQV %LGGOH - & 6DXQGHUV - %
0RQWHLUR 0 *
7KH $OFRKRO 8VH 'LVRUGHUV ,GHQWLILFDWLRQ 7HVW *XLGHOLQHV IRU XVH LQ SULPDU\ FDUH
*HQHYD :+2 'HSDUWPHQW RI 0HQWDO +HDOWK DQG 6XEVWDQFH 'HSHQGHQFH

A508

$8',7
QG HG

%XSUHQRUSKLQH $ *XLGH IRU 1XUVHV

$YDLODEOH DW KWWS ZKTOLEGRF ZKR LQW KT

:+2B06'B06%B

D SGI

$ VHOI UHSRUW YHUVLRQ RI WKH $8',7 LV DOVR DYDLODEOH LQ %DERU HW DO

Scoring and Interpretation of the AUDIT
7KH PLQLPXP VFRUH IRU QRQGULQNHUV LV DQG WKH PD[LPXP SRVVLEOH VFRUH LV
$
VFRUH RI LV LQGLFDWLYH RI KD]DUGRXV DQG KDUPIXO DOFRKRO XVH DQG SRVVLEO\ RI DOFRKRO
GHSHQGHQFH 6FRUHV RI ² LQGLFDWH D PHGLXP OHYHO DQG VFRUHV RI
DQG DERYH D
KLJK OHYHO RI DOFRKRO SUREOHPV %DERU HW DO
UHFRPPHQG D FXWRII VFRUH RI IRU
ZRPHQ DQG LQGLYLGXDOV RYHU
\HDUV RI DJH %UDGOH\ HW DO
UHFRPPHQGHG DQ
HYHQ ORZHU FXWRII VFRUH RI SRLQWV IRU ZRPHQ )RU SDWLHQWV ZKR DUH UHVLVWDQW
XQFRRSHUDWLYH RU QRQFRPPXQLFDWLYH D FOLQLFDO VFUHHQLQJ SURFHGXUH GHVFULEHG E\
%DERU HW DO
PD\ EH QHFHVVDU\

A509

$SSHQGL[ & 6FUHHQLQJ ,QVWUXPHQWV

Readiness Ruler
5HDGLQHVV 5XOHU +RZ 5HDG\ $UH <RX 7R &KDQJH <RXU 8VH RI BBBBBBBBBBBBB"
&LUFOH RQH DQVZHU IRU HDFK W\SH RI GUXJ
Types of Drugs

Answer: Not Ready to Change (1–3), Unsure (3–5),
Ready to Change (5–8), Trying to Change (8–10)

Alcohol

1

2

3

4

5

6

7

8

9

10

Don’t Use

Tobacco

1

2

3

4

5

6

7

8

9

10

Don’t Use

Marijuana/
Cannabis

1

2

3

4

5

6

7

8

9

10

Tranquilizers

1

2

3

4

5

6

7

8

9

10

Sedatives/
Downers

1

2

3

4

5

6

7

8

9

10

Steroids

1

2

3

4

5

6

7

8

9

10

Stimulants/
Uppers

1

2

3

4

5

6

7

8

9

10

Cocaine

1

2

3

4

5

6

7

8

9

10

Hallucinogens

1

2

3

4

5

6

7

8

9

10

Don’t Use

Opiates

1

2

3

4

5

6

7

8

9

10

Don’t Use

Inhalants

1

2

3

4

5

6

7

8

9

10

Don’t Use

Other Drugs

1

2

3

4

5

6

7

8

9

10

Don’t Use

http://casaa.unm.edu/inst.html; click on Readiness Ruler

A510

Or: I don’t use
this type of drug

Don’t Use
Don’t Use
Don’t Use
Don’t Use
Don’t Use
Don’t Use

A511

Appendix D: Assessment Instruments

A512

A513

$SSHQGL[ ' $VVHVVPHQW ,QVWUXPHQWV

Buprenorphine Treatment Checklist
'RHV WKH SDWLHQW KDYH D GLDJQRVLV RI RSLRLG GHSHQGHQFH"
$UH WKHUH FXUUHQW VLJQV RI LQWR[LFDWLRQ RU ZLWKGUDZDO" ,V WKHUH D ULVN IRU
VHYHUH ZLWKGUDZDO"
,V WKH SDWLHQW LQWHUHVWHG LQ EXSUHQRUSKLQH WUHDWPHQW"
'RHV WKH SDWLHQW XQGHUVWDQG WKH ULVNV DQG EHQHILWV RI EXSUHQRUSKLQH WUHDWPHQW"
&DQ WKH SDWLHQW EH H[SHFWHG WR DGKHUH WR WKH WUHDWPHQW SODQ"
,V WKH SDWLHQW ZLOOLQJ DQG DEOH WR IROORZ VDIHW\ SURFHGXUHV"
'RHV WKH SDWLHQW DJUHH WR WUHDWPHQW DIWHU D UHYLHZ RI WKH RSWLRQV"
&DQ WKH QHHGHG UHVRXUFHV IRU WKH SDWLHQW EH SURYLGHG HLWKHU RQ RU RIIVLWH "
,V WKH SDWLHQW SV\FKLDWULFDOO\ VWDEOH" ,V WKH SDWLHQW DFWLYHO\ VXLFLGDO RU KRPLFLGDO
KDV KH RU VKH UHFHQWO\ DWWHPSWHG VXLFLGH RU KRPLFLGH" 'RHV WKH SDWLHQW H[KLELW
HPRWLRQDO EHKDYLRUDO RU FRJQLWLYH FRQGLWLRQV WKDW FRPSOLFDWH WUHDWPHQW"
,V WKH SDWLHQW SUHJQDQW"
,V WKH SDWLHQW FXUUHQWO\ GHSHQGHQW RQ RU DEXVLQJ DOFRKRO"
,V WKH SDWLHQW FXUUHQWO\ GHSHQGHQW RQ EHQ]RGLD]HSLQHV EDUELWXUDWHV RU RWKHU
VHGDWLYH K\SQRWLFV"
:KDW LV WKH SDWLHQW·V ULVN IRU FRQWLQXHG XVH RU FRQWLQXHG SUREOHPV" 'RHV WKH
SDWLHQW KDYH D KLVWRU\ RI PXOWLSOH SUHYLRXV WUHDWPHQWV RU UHODSVHV RU LV WKH
SDWLHQW DW KLJK ULVN IRU UHODSVH WR RSLRLG XVH" ,V WKH SDWLHQW XVLQJ RWKHU GUXJV"
+DV WKH SDWLHQW KDG SULRU DGYHUVH UHDFWLRQV WR EXSUHQRUSKLQH"
,V WKH SDWLHQW WDNLQJ RWKHU PHGLFDWLRQV WKDW PD\ LQWHUDFW ZLWK EXSUHQRUSKLQH"
'RHV WKH SDWLHQW KDYH PHGLFDO SUREOHPV WKDW DUH FRQWUDLQGLFDWLRQV WR
EXSUHQRUSKLQH WUHDWPHQW" $UH WKHUH SK\VLFDO LOOQHVVHV WKDW FRPSOLFDWH
WUHDWPHQW"
:KDW NLQG RI UHFRYHU\ HQYLURQPHQW GRHV WKH SDWLHQW KDYH" $UH WKH SDWLHQW·V
SV\FKRVRFLDO FLUFXPVWDQFHV VXIILFLHQWO\ VWDEOH DQG VXSSRUWLYH"
:KDW LV WKH SDWLHQW·V OHYHO RI PRWLYDWLRQ" :KDW VWDJH RI FKDQJH FKDUDFWHUL]HV
WKLV SDWLHQW"

A514

A515

$SSHQGL[ ' $VVHVVPHQW ,QVWUXPHQWV

Mental Health Screening Form-III
,QVWUXFWLRQV ,Q WKLV SURJUDP ZH KHOS SHRSOH ZLWK DOO WKHLU SUREOHPV QRW MXVW
WKHLU DGGLFWLRQV 7KLV FRPPLWPHQW LQFOXGHV KHOSLQJ SHRSOH ZLWK HPRWLRQDO
SUREOHPV 2XU VWDII LV UHDG\ WR KHOS \RX WR GHDO ZLWK DQ\ HPRWLRQDO SUREOHPV \RX
PD\ KDYH EXW ZH FDQ GR WKLV RQO\ LI ZH DUH DZDUH RI WKH SUREOHPV $Q\ LQIRUPDWLRQ
\RX SURYLGH WR XV RQ WKLV IRUP ZLOO EH NHSW LQ VWULFW FRQILGHQFH ,W ZLOO QRW EH
UHOHDVHG WR DQ\ RXWVLGH SHUVRQ RU DJHQF\ ZLWKRXW \RXU SHUPLVVLRQ ,I \RX GR QRW
NQRZ KRZ WR DQVZHU WKHVH TXHVWLRQV DVN WKH VWDII PHPEHU JLYLQJ \RX WKLV IRUP IRU
JXLGDQFH 3OHDVH QRWH HDFK LWHP UHIHUV WR \RXU HQWLUH OLIH KLVWRU\ QRW MXVW \RXU
FXUUHQW VLWXDWLRQ WKLV LV ZK\ HDFK TXHVWLRQ EHJLQV ´+DYH \RX HYHU µ
+DYH \RX HYHU WDONHG WR D SV\FKLDWULVW SV\FKRORJLVW WKHUDSLVW VRFLDO ZRUNHU RU
FRXQVHORU DERXW DQ HPRWLRQDO SUREOHP"
□ <(6 □ 12
+DYH \RX HYHU IHOW \RX QHHGHG KHOS ZLWK \RXU HPRWLRQDO SUREOHPV RU KDYH \RX
KDG SHRSOH WHOO \RX WKDW \RX VKRXOG JHW KHOS IRU \RXU HPRWLRQDO SUREOHPV"
□ <(6 □ 12
+DYH \RX HYHU EHHQ DGYLVHG WR WDNH PHGLFDWLRQ IRU DQ[LHW\ GHSUHVVLRQ KHDULQJ
YRLFHV RU IRU DQ\ RWKHU HPRWLRQDO SUREOHP"
□ <(6 □ 12
+DYH \RX HYHU EHHQ VHHQ LQ D SV\FKLDWULF HPHUJHQF\ URRP RU EHHQ KRVSLWDOL]HG
IRU SV\FKLDWULF UHDVRQV"
□ <(6 □ 12
+DYH \RX HYHU KHDUG YRLFHV QR RQH HOVH FRXOG KHDU RU VHHQ REMHFWV RU WKLQJV
ZKLFK RWKHUV FRXOG QRW VHH"
□ <(6 □ 12
D +DYH \RX HYHU EHHQ GHSUHVVHG IRU ZHHNV DW D WLPH ORVW LQWHUHVW RU SOHDVXUH
LQ PRVW DFWLYLWLHV KDG WURXEOH FRQFHQWUDWLQJ DQG PDNLQJ GHFLVLRQV RU WKRXJKW
DERXW NLOOLQJ \RXUVHOI"
□ <(6 □ 12
E 'LG \RX HYHU DWWHPSW WR NLOO \RXUVHOI"
□ 12

□ <(6

+DYH \RX HYHU KDG QLJKWPDUHV RU IODVKEDFNV DV D UHVXOW RI EHLQJ LQYROYHG LQ
VRPH WUDXPDWLF WHUULEOH HYHQW" )RU H[DPSOH ZDUIDUH JDQJ ILJKWV ILUH GRPHVWLF
YLROHQFH UDSH LQFHVW FDU DFFLGHQW EHLQJ VKRW RU VWDEEHG"
□ <(6 □ 12
+DYH \RX HYHU H[SHULHQFHG DQ\ VWURQJ IHDUV" )RU H[DPSOH RI KHLJKWV LQVHFWV
DQLPDOV GLUW DWWHQGLQJ VRFLDO HYHQWV EHLQJ LQ D FURZG EHLQJ DORQH EHLQJ LQ
SODFHV ZKHUH LW PD\ EH KDUG WR HVFDSH RU JHW KHOS"
□ <(6 □ 12

A516

%XSUHQRUSKLQH $ *XLGH IRU 1XUVHV

+DYH \RX HYHU JLYHQ LQ WR DQ DJJUHVVLYH XUJH RU LPSXOVH RQ PRUH WKDQ RQH
RFFDVLRQ WKDW UHVXOWHG LQ VHULRXV KDUP WR RWKHUV RU OHG WR WKH GHVWUXFWLRQ RI
SURSHUW\"
□ <(6 □ 12
+DYH \RX HYHU IHOW WKDW SHRSOH KDG VRPHWKLQJ DJDLQVW \RX ZLWKRXW WKHP
QHFHVVDULO\ VD\LQJ VR RU WKDW VRPHRQH RU VRPH JURXS PD\ EH WU\LQJ WR LQIOXHQFH
\RXU WKRXJKWV RU EHKDYLRU"
□ <(6 □ 12
+DYH \RX HYHU H[SHULHQFHG DQ\ HPRWLRQDO SUREOHPV DVVRFLDWHG ZLWK \RXU VH[XDO
LQWHUHVWV \RXU VH[XDO DFWLYLWLHV RU \RXU FKRLFH RI VH[XDO SDUWQHU"
□ <(6 □ 12
:DV WKHUH HYHU D SHULRG LQ \RXU OLIH ZKHQ \RX VSHQW D ORW RI WLPH WKLQNLQJ DQG
ZRUU\LQJ DERXW JDLQLQJ ZHLJKW EHFRPLQJ IDW RU FRQWUROOLQJ \RXU HDWLQJ" )RU
H[DPSOH E\ UHSHDWHGO\ GLHWLQJ RU IDVWLQJ HQJDJLQJ LQ PXFK H[HUFLVH WR
FRPSHQVDWH IRU ELQJH HDWLQJ WDNLQJ HQHPDV RU IRUFLQJ \RXUVHOI WR WKURZ XS"
□ <(6 □ 12
+DYH \RX HYHU KDG D SHULRG RI WLPH ZKHQ \RX ZHUH VR IXOO RI HQHUJ\ DQG \RXU
LGHDV FDPH YHU\ UDSLGO\ ZKHQ \RX WDONHG QHDUO\ QRQ VWRS ZKHQ \RX PRYHG
TXLFNO\ IURP RQH DFWLYLW\ WR DQRWKHU ZKHQ \RX QHHGHG OLWWOH VOHHS DQG EHOLHYHG
\RX FRXOG GR DOPRVW DQ\WKLQJ"
□ <(6 □ 12
+DYH \RX HYHU KDG VSHOOV RU DWWDFNV ZKHQ \RX VXGGHQO\ IHOW DQ[LRXV IULJKWHQHG
XQHDV\ WR WKH H[WHQW WKDW \RX EHJDQ VZHDWLQJ \RXU KHDUW EHJDQ WR EHDW UDSLGO\
\RX ZHUH VKDNLQJ RU WUHPEOLQJ \RXU VWRPDFK ZDV XSVHW \RX IHOW GL]]\ RU
XQVWHDG\ DV LI \RX ZRXOG IDLQW"
□ <(6 □ 12
+DYH \RX HYHU KDG D SHUVLVWHQW ODVWLQJ WKRXJKW RU LPSXOVH WR GR VRPHWKLQJ RYHU
DQG RYHU WKDW FDXVHG \RX FRQVLGHUDEOH GLVWUHVV DQG LQWHUIHUHG ZLWK QRUPDO
URXWLQHV ZRUN RU \RXU VRFLDO UHODWLRQV" ([DPSOHV ZRXOG LQFOXGH UHSHDWHGO\
FRXQWLQJ WKLQJV FKHFNLQJ DQG UHFKHFNLQJ RQ WKLQJV \RX KDG GRQH ZDVKLQJ DQG
UHZDVKLQJ \RXU KDQGV SUD\LQJ RU PDLQWDLQLQJ D YHU\ ULJLG VFKHGXOH RI GDLO\
DFWLYLWLHV IURP ZKLFK \RX FRXOG QRW GHYLDWH
□ <(6 □ 12
+DYH \RX HYHU ORVW FRQVLGHUDEOH VXPV RI PRQH\ WKURXJK JDPEOLQJ RU KDG
SUREOHPV DW ZRUN LQ VFKRRO ZLWK \RXU IDPLO\ DQG IULHQGV DV D UHVXOW RI \RXU
JDPEOLQJ"
□ <(6 □ 12
+DYH \RX HYHU EHHQ WROG E\ WHDFKHUV JXLGDQFH FRXQVHORUV RU RWKHUV WKDW \RX
KDYH D VSHFLDO OHDUQLQJ SUREOHP"
□ <(6 □ 12

A517

$SSHQGL[ ' $VVHVVPHQW ,QVWUXPHQWV

3ULQW FOLHQW·V QDPH BBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBB
3URJUDP WR ZKLFK FOLHQW ZLOO EH DVVLJQHG BBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBB
1DPH RI DGPLVVLRQV FRXQVHORU

BBBBBBBBBBBBBBBBBBBBBBBB 'DWH BBBBBBBBBBBBBBBBB

5HYLHZHU·V FRPPHQWV BBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBB
BBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBB
BBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBB
BBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBBB
7RWDO 6FRUH BBBBBBBBBBBB HDFK \HV

SRLQW

6RXUFH &DUUROO - ) ;
0F*LQOH\ - 3URMHFW 5HWXUQ )RXQGDWLRQ ,QF
7KLV PDWHULDO PD\ EH UHSURGXFHG RU FRSLHG LQ HQWLUHW\ ZLWKRXW SHUPLVVLRQ $YDLODEOH
DW KWWS ZZZ DVDSQ\V RUJ UHVRXUFHV PKVFUHHQ SGI

A518

A519

$SSHQGL[ ' $VVHVVPHQW ,QVWUXPHQWV

Stages of Change Readiness and Treatment Eagerness Scale
(SOCRATES 8D)
,16758&7,216 3OHDVH UHDG WKH IROORZLQJ VWDWHPHQWV FDUHIXOO\ (DFK RQH
GHVFULEHV D ZD\ WKDW \RX PLJKW RU PLJKW QRW IHHO DERXW \RXU GUXJ XVH )RU HDFK
VWDWHPHQW FLUFOH RQH QXPEHU IURP WR WR LQGLFDWH KRZ PXFK \RX DJUHH RU
GLVDJUHH ZLWK LW ULJKW QRZ 3OHDVH FLUFOH RQH DQG RQO\ RQH QXPEHU IRU HYHU\
VWDWHPHQW

#

NO!
?
Strongly
No
Undecided
Disagree Disagree or Unsure

Statement

Yes
Agree

YES!
Strongly
Agree

1. I really want to make changes in my use of drugs.

1

2

3

4

5

2. Sometimes I wonder if I am an addict.

1

2

3

4

5

3. If I don’t change my drug use soon, my problems
are going to get worse.

1

2

3

4

5

4. I have already started making some changes in
my use of drugs.

1

2

3

4

5

5. I was using drugs too much at one time, but I’ve
managed to change that.

1

2

3

4

5

6. Sometimes I wonder if my drug use is hurting
other people.

1

2

3

4

5

7. I have a drug problem.

1

2

3

4

5

8. I’m not just thinking about changing my drug
use, I’m already doing something about it.

1

2

3

4

5

9. I have already changed my drug use, and I am
looking for ways to keep from slipping back to
my old pattern.

1

2

3

4

5

10. I have serious problems with drugs.

1

2

3

4

5

11. Sometimes I wonder if I am in control of my drug
use.

1

2

3

4

5

12. My drug use is causing a lot of harm.

1

2

3

4

5

13. I am actively doing things now to cut down or
stop my use of drugs.

1

2

3

4

5

14. I want help to keep from going back to the drug
problems that I had before.

1

2

3

4

5

15. I know that I have a drug problem.

1

2

3

4

5

16. There are times when I wonder if I use drugs too
much.

1

2

3

4

5

17. I am a drug addict.

1

2

3

4

5

18. I am working hard to change my drug use.

1

2

3

4

5

19. I have made some changes in my drug use, and I
want some help to keep from going back to the
way I used before.

1

2

3

4

5

Source: Miller, W. R., & Tonigan, J. S. (1996). Assessing drinkers’ motivation for change: The Stages of Change
Readiness and Treatment Eagerness Scale (SOCRATES). Psychology of Addictive Behaviors, 10, 81–89.
SOCRATES 8D and SOCRATES 8D Scoring Sheet. Available at Center on Alcoholism, Substance Abuse, and
Addictions (CASAA), Assessment Instruments. http://casaa.unm.edu/inst/SOCRATESv8.pdf. Reprinted with
permission.

A520

%XSUHQRUSKLQH $ *XLGH IRU 1XUVHV

SOCRATES Scoring Form (19-Item Version 8.0)
7UDQVIHU WKH FOLHQW V DQVZHUV IURP TXHVWLRQQDLUH VHH QRWH EHORZ
Recognition

Ambivalence

1 _________

2 _________

Taking Steps

3 _________

4 _________
5 _________
6 _________

7 _________

8 _________
9 _________

10 _________

11 _________

12 _________

13 _________
14 _________

15 _________

16 _________

17 _________

18 _________
19 _________

TOTALS:

Recognition _________

Ambivalence _________

Taking Steps _________

Possible Range: Recognition (7–35), Ambivalence (4–20), Taking Steps (8–40)

A521

$SSHQGL[ ' $VVHVVPHQW ,QVWUXPHQWV

SOCRATES Profile Sheet (19-Item Version 8A)
,16758&7,216 )URP WKH 62&5$7(6 6FRULQJ )RUP
,WHP 9HUVLRQ WUDQVIHU
WKH WRWDO VFDOH VFRUHV LQWR WKH HPSW\ ER[HV DW WKH ERWWRP RI WKH 3URILOH 6KHHW 7KHQ
IRU HDFK VFDOH &,5&/( WKH VDPH YDOXH DERYH LW WR GHWHUPLQH WKH GHFLOH UDQJH
DECILE SCORES

Recognition

Ambivalence

Taking Steps

90 Very High

19–20

39–40

80

18

37–38

70 High

35

17

36

60

34

16

34–35

50 Medium

32–33

15

33

40

31

14

31–32

30 Low

29–30

12–13

30

20

27–28

9–11

26–29

10 Very Low

7–26

4–8

8–25

RAW SCORES
(from Scoring
Sheet)

Re=

Am=

Ts=

7KHVH LQWHUSUHWLYH UDQJHV DUH EDVHG RQ D VDPSOH RI
DGXOW PHQ DQG ZRPHQ
SUHVHQWLQJ IRU WUHDWPHQW RI DOFRKRO SUREOHPV WKURXJK 3URMHFW 0$7&+ 1RWH WKDW
LQGLYLGXDO VFRUHV DUH WKHUHIRUH EHLQJ UDQNHG DV ORZ PHGLXP RU KLJK UHODWLYH WR
SHRSOH DOUHDG\ SUHVHQWLQJ IRU DOFRKRO WUHDWPHQW

A522

A523

$SSHQGL[ ' $VVHVVPHQW ,QVWUXPHQWV

Clinical Opiate Withdrawal Scale (COWS)
)RU HDFK LWHP FLUFOH WKH QXPEHU WKDW EHVW GHVFULEHV WKH SDWLHQW V VLJQV RU
V\PSWRPV 5DWH MXVW RQ WKH DSSDUHQW UHODWLRQVKLS WR RSLDWH ZLWKGUDZDO )RU
H[DPSOH LI KHDUW UDWH LV LQFUHDVHG EHFDXVH WKH SDWLHQW ZDV MRJJLQJ MXVW SULRU WR
DVVHVVPHQW WKH LQFUHDVHG SXOVH UDWH ZRXOG QRW DGG WR WKH VFRUH
Patient Name:

Date:

Time:

Reason for this assessment:
1.

Resting pulse rate: ______ beats/minute
Measured after the patient is sitting or lying for
one minute.
Pulse rate 80 or below
Pulse rate 81–100
Pulse rate 101–120
Pulse rate greater than 120

7.
0
1
2
3
5

GI upset: over last half hour
No GI symptoms
Stomach cramps
Nausea or loose stool
Vomiting or diarrhea
Multiple episodes of diarrhea or vomiting

Sweating: over past half hour not accounted
for by room temperature of patient activity
No reports of chills or flushing
Subjective reports of chills or flushing
Flushed or observable moisture on face
Beads of sweat on brow or face
Sweat streaming off face

8.
0
1
2
4

Tremor: observation of outstretched hands
No tremor
Tremor can be felt, but not observed
Slight tremor observable
Gross tremor or muscle twitching

Restlessness: observation during assessment
Able to sit still
Reports difficulty sitting still, but is able to do so
Frequent shifting or extraneous movements of
legs/arms
Unable to sit still for more than a few seconds

9.
0
1
2
4

Yawning: observation during assessment
No yawning
Yawning once or twice during assessment
Yawning three or more times during assessment
Yawning several times/minute

4.
0
1
2
5

Pupil size
Pupils pinned or normal size for room light
Pupils possibly larger than normal for room light
Pupils moderately dilated
Pupils so dilated that only the rim of the iris is
visible

10. Anxiety or irritability
0 None
1 Patient reports increasing irritability or
anxiousness
2 Patient obviously irritable, anxious
4 Patient so irritable or anxious that participation
in the assessment is difficult

5.

Bone or joint aches: if patient was having pain
previously, only the additional component
attributed to opiate withdrawal is scored.
Not present
Mild diffuse discomfort
Patient reports severe diffuse aching of
joints/muscles
Patient is rubbing joints or muscles and is unable
to sit still because of discomfort

11. Gooseflesh skin
0 Skin is smooth
3 Piloerection of skin can be felt or hairs standing
up on arms
5 Prominent piloerection

Runny nose or tearing: not accounted for by
cold symptoms or allergies
Not present
Nasal stuffiness or unusually moist eyes
Nose running or tearing
Nose constantly running or tears streaming
down cheeks

Total Score: _______________________
[The total score is the sum of all 11 items.]
Initials of person completing assessment: _______

0
1
2
4
2.
0
1
2
3
4
3.
0
1
3
5

0
1
2
4
6.
0
1
2
4

Score: 5–12 = Mild; 13–24 = Moderate; 25–36 = Moderately severe; >36 = Severe withdrawal
Source: California Society for Addiction Medicine. http://www.csam-asam.org/pdf/misc/COWS.doc. Reprinted
with permission from the California Society of Addiction Medicine.

A524

A525

$SSHQGL[ ' $VVHVVPHQW ,QVWUXPHQWV

Subjective Opiate Withdrawal Scale (SOWS)
,QVWUXFWLRQV $QVZHU WKH IROORZLQJ VWDWHPHQWV DV DFFXUDWHO\ DV \RX FDQ &LUFOH WKH
DQVZHU WKDW EHVW ILWV WKH ZD\ \RX IHHO QRZ
QRW DW DOO
D OLWWOH
PRGHUDWHO\
TXLWH D ELW
H[WUHPHO\
Statement

Not at all A little

Moderately

Quite a bit

Extremely

1. I feel anxious.

0

1

2

3

4

2. I feel like yawning.

0

1

2

3

4

3. I’m perspiring.

0

1

2

3

4

4. My eyes are tearing.

0

1

2

3

4

5. My nose is running.

0

1

2

3

4

6. I have goose flesh.

0

1

2

3

4

7. I am shaking.

0

1

2

3

4

8. I have hot flashes.

0

1

2

3

4

9. I have cold flashes.

0

1

2

3

4

10. My bones and muscles ache.

0

1

2

3

4

11. I feel restless.

0

1

2

3

4

12. I feel nauseous.

0

1

2

3

4

13. I feel like vomiting.

0

1

2

3

4

14. My muscles twitch.

0

1

2

3

4

15. I have cramps in my
stomach.

0

1

2

3

4

16. I feel like shooting up now.

0

1

2

3

4

The Subjective Opiate Withdrawal Scale (SOWS) consist of 16 symptoms rated in intensity by
patients on a 5 point scale of intensity as follows: 0 = not at all, 1 = a little, 2 = moderately, 3 = quite
a bit, 4 = extremely. The total score is a sum of item ratings, and ranges from 0 to 64.
Source: Reprinted from Handelsman, L., Cochrane, K. J., Aronson, M. J., Ness, R., Rubinstein, K. J., &
Kanof, P. D. (1987). Two new rating scales for opiate withdrawal. American Journal of Drug and
Alcohol Abuse, 13(3), 293–308. Table 1 on page 296. Reprinted by permission of the publisher,
Taylor & Francis, Ltd., http://www.tandf.co.uk/journals.

A526

A527

$SSHQGL[ ' $VVHVVPHQW ,QVWUXPHQWV

The Clinical Institute Narcotic Assessment (CINA)
Scale for Withdrawal Symptoms
7KH &OLQLFDO ,QVWLWXWH 1DUFRWLF $VVHVVPHQW &,1$ 6FDOH PHDVXUHV
VLJQV DQG
V\PSWRPV FRPPRQO\ VHHQ LQ SDWLHQWV GXULQJ QDUFRWLF ZLWKGUDZDO 7KLV FDQ KHOS WR
JDXJH WKH VHYHULW\ RI WKH V\PSWRPV DQG WR PRQLWRU FKDQJHV LQ WKH FOLQLFDO VWDWXV
RYHU WLPH 7R YLHZ WKH &,1$ VFDOH YLVLW
KWWS ZZZ QFEL QOP QLK JRY ERRNV EY IFJL"ULG KVWDW VHFWLRQ
&6$7

A528

A529

$SSHQGL[ ' $VVHVVPHQW ,QVWUXPHQWV

Addiction Research Foundation Clinical Institute for Withdrawal
Assessment (CIWA-Ar)
Patient:

Date:

NAUSEA AND VOMITING—Ask “Do you feel
sick to your stomach? Have you vomited?”
Observation.
0 no nausea and no vomiting
1 mild nausea with no vomiting
2
3
4 intermittent nausea with dry heaves
5
6
7 constant nausea, frequent dry heaves and
vomiting

TACTILE DISTURBANCES—Ask “Have you any
itching, pins and needles sensations, any
burning, any numbness, or do you feel bugs
crawling on or under your skin?”
Observation.
0 none
1 very mild itching, pins and needles, burning
or numbness
2 mild itching, pins and needles, burning or
numbness
3 moderate itching, pins and needles, burning
or numbness
4 moderately severe hallucinations
5 severe hallucinations
6 extremely severe hallucinations
7 continuous hallucinations

TREMOR—Arms extended and fingers spread
apart.
Observation.
0 no tremor
1 not visible, but can be felt fingertip to
fingertip
2
3
4 moderate, with patient’s arms extended
5
6
7 severe, even with arms not extended

AUDITORY DISTURBANCES—Ask “Are you
more aware of sounds around you? Are they
harsh? Do they frighten you? Are you hearing
anything that is disturbing to you? Are you
hearing things you know are not there?”
Observation.
0 not present
1 very mild harshness or ability to frighten
2 mild harshness or ability to frighten
3 moderate harshness or ability to frighten
4 moderately severe hallucinations
5 severe hallucinations
6 extremely severe hallucinations
7 continuous hallucinations

PAROXYSMAL SWEATS—Observation.
0 no sweat visible
1 barely perceptible sweating, palms moist
2
3
4 beads of sweat obvious on forehead
5
6
7 drenching sweats

VISUAL DISTURBANCES—Ask “Does the light
appear to be too bright? Is its color different?
Does it hurt your eyes? Are you seeing anything
that is disturbing to you? Are you seeing things
you know are not there?”
Observation.
0 not present
1 very mild sensitivity
2 mild sensitivity
3 moderate sensitivity
4 moderately severe hallucinations
5 severe hallucinations
6 extremely severe hallucinations
7 continuous hallucinations

A530

Time:
(24 hour clock, midnight =
00:00)

%XSUHQRUSKLQH $ *XLGH IRU 1XUVHV
ANXIETY—Ask “Do you feel nervous?”
Observation.
0 no anxiety, at ease
1 mildly anxious
2
3
4 moderately anxious, or guarded, so anxiety
is inferred
5
6
7 equivalent to acute panic states as seen in
severe delirium or acute schizophrenic
reactions.

HEADACHE, FULLNESS IN HEAD—Ask “Does
your head feel different? Does it feel like there
is a band around your head?” Do not rate for
dizziness or lightheadedness. Otherwise, rate
severity.
0 not present
1 very mild
2 mild
3 moderate
4 moderately severe
5 severe
6 very severe
7 extremely severe

AGITATION—Observation.
0 normal activity
1 somewhat more than normal activity
2
3
4 moderately fidgety and restless
5
6
7 paces back and forth during most of the
interview, or constantly thrashes about

ORIENTATION AND CLOUDING OF
SENSORIUM—Ask “What day is this? Where are
you? Who am I?”
0 oriented and can do serial additions
1 cannot do serial additions or is uncertain
about date
2 disoriented for date by no more than 2
calendar days
3 disoriented for date by more than 2 calendar
days
4 disoriented for place and/or person
Total CIWAr-Score
_____________________
Rater’s Initials
_____________________
Maximum Possible Score 67

This scale is not copyrighted and can be reproduced freely.
Source: Sullivan, J. T., Sykora, K., Schneiderman, J., Naranjo, D., & Sellers, E. M. (1989). Assessment of
alcohol withdrawal: The revised Clinical Institute Withdrawal Assessment for Alcohol Scale (CIWA-Ar).
British Journal of Addiction, 84(11), 1353–1357.

A531

$SSHQGL[ ' $VVHVVPHQW ,QVWUXPHQWV

Suggested Questions for Patient Interview
Buprenorphine Treatment
.DWKOHHQ 7KRPSVRQ *DUJDQR 5 1 $ ' 1 2FWREHU
Prior to Induction:
What opiates do you use?
Frequency, route, and amount
What are your first symptoms of withdrawal?
Will you be able to commit to appointments?
Is there someone who can drive you in for your first
appointment?
Give specific appointment time and let patient know s/he should plan to be here for 2 hours on the
first day only.
Nursing History and Assessment:
When was the first time you used any substances of
any kind including cigarettes, pot and alcohol?
What was the next substance and at what age?
Tell me about your current use, all substances,
amounts, frequency, and route of administration.
Have you ever shared a needle at any time?
Tell me about your past treatment experiences.
What was your longest clean time?
What happened to make you go back to using?
What was the most you ever used in a day?
Have you ever overdosed?
Have you ever been admitted to the ED or hospital
because of your drug use?
Have you ever been arrested or incarcerated?
Are you currently on probation?
What made you decide to come for treatment at this
time?
On a scale from 1 to 10, 1 being you are forced into
coming here by court or a family member, and 10
being your life depends on it, where are you?
Any family members addicted to substances of any
kind?
Tell me about your living situation?
Does anyone you live or work with use opiates or
cocaine?
Are you scheduled to have surgery in the near future?
Are you scheduled to go out of town or on vacation in
the next 6 months?

A532

A533

$SSHQGL[ ' $VVHVVPHQW ,QVWUXPHQWV

Principles of Effective Addictions Treatment (NIDA, 1999)
1R VLQJOH WUHDWPHQW LV DSSURSULDWH IRU DOO LQGLYLGXDOV 0DWFKLQJ WUHDWPHQW
VHWWLQJV LQWHUYHQWLRQV DQG VHUYLFHV WR HDFK LQGLYLGXDO·V SDUWLFXODU SUREOHPV DQG
QHHGV LV FULWLFDO WR KLV RU KHU XOWLPDWH VXFFHVV LQ UHWXUQLQJ WR SURGXFWLYH
IXQFWLRQLQJ LQ WKH IDPLO\ ZRUNSODFH DQG VRFLHW\
7UHDWPHQW QHHGV WR EH UHDGLO\ DYDLODEOH %HFDXVH LQGLYLGXDOV ZKR DUH
DGGLFWHG WR GUXJV PD\ EH XQFHUWDLQ DERXW HQWHULQJ WUHDWPHQW WDNLQJ DGYDQWDJH
RI RSSRUWXQLWLHV ZKHQ WKH\ DUH UHDG\ IRU WUHDWPHQW LV FUXFLDO 3RWHQWLDO
WUHDWPHQW DSSOLFDQWV FDQ EH ORVW LI WUHDWPHQW LV QRW LPPHGLDWHO\ DYDLODEOH RU LV
QRW UHDGLO\ DFFHVVLEOH
(IIHFWLYH WUHDWPHQW DWWHQGV WR PXOWLSOH QHHGV RI WKH LQGLYLGXDO QRW MXVW
KLV RU KHU GUXJ XVH 7R EH HIIHFWLYH WUHDWPHQW PXVW DGGUHVV WKH LQGLYLGXDO·V
GUXJ XVH DQG DQ\ DVVRFLDWHG PHGLFDO SV\FKRORJLFDO VRFLDO YRFDWLRQDO DQG OHJDO
SUREOHPV
7UHDWPHQW SODQ PXVW EH DVVHVVHG FRQWLQXDOO\ WR HQVXUH WKDW LW PHHWV
FKDQJLQJ QHHGV ,Q DGGLWLRQ WR PHGLFDWLRQ WKH SHUVRQ PD\ UHTXLUH YDU\LQJ
FRPELQDWLRQV RI VHUYLFHV DQG WUHDWPHQW FRPSRQHQWV LQFOXGLQJ
‡ &RXQVHOLQJ RU SV\FKRWKHUDS\
‡ 0HGLFDO VHUYLFHV
‡ )DPLO\ WKHUDS\
‡ 3DUHQWLQJ LQVWUXFWLRQ
‡ 9RFDWLRQDO UHKDELOLWDWLRQ $1'
‡ 6RFLDO DQG OHJDO VHUYLFHV
5HPDLQLQJ LQ WUHDWPHQW IRU DQ DGHTXDWH SHULRG RI WLPH LV FULWLFDO IRU
WUHDWPHQW HIIHFWLYHQHVV
‡ $SSURSULDWH GXUDWLRQ GHSHQGV RQ SUREOHPV DQG QHHGV
‡ )RU PRVW SDWLHQWV WKH WKUHVKROG RI VLJQLILFDQW LPSURYHPHQW LV DERXW PRQWKV
LQ WUHDWPHQW
‡ $GGLWLRQDO WUHDWPHQW FDQ SURGXFH IXUWKHU SURJUHVV WRZDUG UHFRYHU\
‡ 3HRSOH RIWHQ OHDYH WUHDWPHQW SUHPDWXUHO\ VR SODQ VWUDWHJLHV WR HQJDJH DQG
NHHS SDWLHQWV LQ WUHDWPHQW
&RXQVHOLQJ LQGLYLGXDO JURXS DQG RWKHU EHKDYLRUDO WKHUDSLHV DUH
FULWLFDO FRPSRQHQWV RI HIIHFWLYH WUHDWPHQW ,Q WKHUDS\ SDWLHQWV
‡ $GGUHVV PRWLYDWLRQ
‡ %XLOG VNLOOV WR UHVLVW GUXJ XVH
‡ 5HSODFH GUXJ XVLQJ DFWLYLWLHV ZLWK FRQVWUXFWLYH DQG UHZDUGLQJ QRQGUXJ XVLQJ
DFWLYLWLHV
‡ ,PSURYH SUREOHPVROYLQJ DELOLWLHV
‡ :RUN RQ LQWHUSHUVRQDO UHODWLRQVKLSV
‡ ,PSURYH IDPLO\ DQG FRPPXQLW\ IXQFWLRQLQJ

A534

%XSUHQRUSKLQH $ *XLGH IRU 1XUVHV

0HGLFDWLRQV DUH DQ LPSRUWDQW HOHPHQW RI WUHDWPHQW IRU PDQ\ SDWLHQWV
HVSHFLDOO\ ZKHQ FRPELQHG ZLWK FRXQVHOLQJ DQG RWKHU EHKDYLRUDO
WKHUDSLHV
‡ 2SLRLG UHSODFHPHQW WKHUDS\ FDQ EH YHU\ HIIHFWLYH LQ KHOSLQJ LQGLYLGXDOV
VWDELOL]H WKHLU OLYHV DQG UHGXFH WKHLU GUXJ XVH
‡ %RWK EHKDYLRUDO WUHDWPHQWV DQG PHGLFDWLRQV FDQ EH FULWLFDOO\ LPSRUWDQW
HVSHFLDOO\ IRU SDWLHQWV ZLWK PHQWDO GLVRUGHUV
$GGLFWHG RU GUXJ DEXVLQJ LQGLYLGXDOV ZLWK FRH[LVWLQJ PHQWDO GLVRUGHUV
VKRXOG KDYH ERWK GLVRUGHUV WUHDWHG LQ DQ LQWHJUDWHG ZD\
‡ 6XEVWDQFH XVH GLVRUGHUV 68'V DQG PHQWDO GLVRUGHUV RIWHQ FR RFFXU
‡ 3DWLHQWV SUHVHQWLQJ IRU HLWKHU FRQGLWLRQ VKRXOG EH DVVHVVHG DQG WUHDWHG IRU WKH
FR RFFXUUHQFH RI WKH RWKHU W\SH RI GLVRUGHU
0HGLFDO GHWR[LILFDWLRQ LV RQO\ WKH ILUVW VWDJH RI DGGLFWLRQ WUHDWPHQW DQG
E\ LWVHOI GRHV OLWWOH WR FKDQJH ORQJ WHUP GUXJ XVH
‡ 'HWR[ VDIHO\ PDQDJHV DFXWH SK\VLFDO V\PSWRPV RI ZLWKGUDZDO
‡ 'HWR[ DORQH LV UDUHO\ VXIILFLHQW WR DFKLHYH ORQJ WHUP DEVWLQHQFH
‡ 6WURQJO\ LQGLFDWHG SUHFXUVRU WR HIIHFWLYH GUXJ DGGLFWLRQ WUHDWPHQW IRU VRPH
LQGLYLGXDOV
7UHDWPHQW GRHV QRW QHHG WR EH YROXQWDU\ WR EH HIIHFWLYH
‡ 6WURQJ PRWLYDWLRQ FDQ IDFLOLWDWH WKH WUHDWPHQW SURFHVV
‡ 6DQFWLRQV RU HQWLFHPHQWV LQ WKH IDPLO\ HPSOR\PHQW VHWWLQJ RU FULPLQDO MXVWLFH
V\VWHP FDQ LQFUHDVH VLJQLILFDQWO\
7UHDWPHQW HQWU\ DQG UHWHQWLRQ UDWHV DQG
6XFFHVV RI GUXJ WUHDWPHQW LQWHUYHQWLRQV
3RVVLEOH GUXJ XVH GXULQJ WUHDWPHQW PXVW EH PRQLWRUHG FRQWLQXRXVO\
‡ ,W LV QRW XQXVXDO IRU ODSVHV WR RFFXU GXULQJ WUHDWPHQW
‡ 2EMHFWLYH PRQLWRULQJ XULQDO\VLV RWKHU WHVWV KHOSV SDWLHQWV ZLWKVWDQG XUJHV WR
XVH
‡ 0RQLWRULQJ FDQ SURYLGH HDUO\ HYLGHQFH RI GUXJ XVH VR WKDW WKH WUHDWPHQW SODQ
FDQ EH DGMXVWHG
‡ )HHGEDFN WR SDWLHQWV ZKR WHVW SRVLWLYH IRU LOOLFLW GUXJ XVH LV DQ LPSRUWDQW
HOHPHQW RI PRQLWRULQJ
7UHDWPHQW SURYLGHUV VKRXOG DVVHVV DQG FRXQVHO LQGLYLGXDOV DERXW
+,9 $,'6 KHSDWLWLV % DQG & WXEHUFXORVLV DQG RWKHU LQIHFWLRXV
GLVHDVHV
‡ &RXQVHO WR DYRLG KLJK ULVN EHKDYLRU
‡ &RXQVHO WR KHOS SHRSOH ZKR DUH DOUHDG\ LQIHFWHG PDQDJH WKHLU LOOQHVV
5HFRYHU\ IURP GUXJ DGGLFWLRQ FDQ EH D ORQJ WHUP SURFHVV DQG
IUHTXHQWO\ UHTXLUHV PXOWLSOH HSLVRGHV RI WUHDWPHQW
‡ $V ZLWK RWKHU FKURQLF LOOQHVVHV UHODSVHV FDQ RFFXU GXULQJ RU DIWHU VXFFHVVIXO
WUHDWPHQW HSLVRGHV
‡ ,QGLYLGXDOV PD\ UHTXLUH SURORQJHG WUHDWPHQW DQG PXOWLSOH HSLVRGHV RI
WUHDWPHQW WR DFKLHYH ORQJ WHUP DEVWLQHQFH DQG IXOO\ UHVWRUHG IXQFWLRQLQJ
‡ 3DUWLFLSDWLRQ LQ VHOI KHOS VXSSRUW SURJUDPV GXULQJ DQG IROORZLQJ WUHDWPHQW
RIWHQ LV KHOSIXO LQ PDLQWDLQLQJ DEVWLQHQFH

A535

Appendix E: References

A536

A537

$SSHQGL[ ( 5HIHUHQFHV

$JHQF\ IRU +HDOWK &DUH 3ROLF\ DQG 5HVHDUFK $+&35
0DQDJHPHQW RI
FDQFHU SDLQ &OLQLFDO SUDFWLFH JXLGHOLQH 3XEOLFDWLRQ 1R
HG 5RFNYLOOH
0' $+&35
$OIRUG ' 3 &RPSWRQ 3
6DPHW $FXWH SDLQ PDQDJHPHQW IRU SDWLHQWV
UHFHLYLQJ PDLQWHQDQFH PHWKDGRQH RU EXSUHQRUSKLQH WKHUDS\ $QQDOV RI ,QWHUQDO
0HGLFLQH
²
$PDVV / .DPLHQ - %
0LNNXOLFK 6 .
7KULFH ZHHNO\ VXSHUYLVHG
GRVLQJ ZLWK WKH FRPELQDWLRQ EXSUHQRUSKLQH QDOR[RQH WDEOHW LV SUHIHUUHG WR GDLO\
VXSHUYLVHG GRVLQJ E\ RSLRLG GHSHQGHQW KXPDQV 'UXJ DQG $OFRKRO 'HSHQGHQFH
²
$PHULFDQ 3DLQ 6RFLHW\ $36
3ULQFLSOHV RI DQDOJHVLF XVH LQ WKH WUHDWPHQW RI
DFXWH SDLQ DQG FDQFHU SDLQ WK HG *OHQYLHZ ,/ $PHULFDQ 3DLQ 6RFLHW\
$PHULFDQ 3V\FKLDWULF $VVRFLDWLRQ $3$
'LDJQRVWLF DQG VWDWLVWLFDO PDQXDO
RI PHQWDO GLVRUGHUV WK HG WH[W UHYLVLRQ '60 ,9 75 :DVKLQJWRQ '&
$PHULFDQ 3V\FKLDWULF $VVRFLDWLRQ
%UDGOH\ . $ %DGULQDWK 6 %XVK . %R\G :LFNL]HU $QDZDOW %
0HGLFDO ULVNV IRU ZRPHQ ZKR GULQN DOFRKRO -RXUQDO RI *HQHUDO ,QWHUQDO
0HGLFLQH
²
&DUU ' %
*RXGDV / &
$FXWH SDLQ /DQFHW >5HYLHZ@
²
&HQWHU IRU 6XEVWDQFH $EXVH 7UHDWPHQW &6$7 Q G $ERXW EXSUHQRUSKLQH
WKHUDS\ KWWS EXSUHQRUSKLQH VDPKVD JRY DERXW KWPO >$FFHVVHG 0D\
@
&HQWHU IRU 6XEVWDQFH $EXVH 7UHDWPHQW &6$7
%XSUHQRUSKLQH $ JXLGH IRU
SKDUPDFLVWV 6$0+6$ 3XEOLFDWLRQ 1R
5RFNYLOOH 0' &HQWHU IRU
6XEVWDQFH $EXVH 7UHDWPHQW 6XEVWDQFH $EXVH DQG 0HQWDO +HDOWK 6HUYLFHV
$GPLQLVWUDWLRQ
&HQWHU IRU 6XEVWDQFH $EXVH 7UHDWPHQW &6$7
&OLQLFDO JXLGHOLQHV IRU WKH
XVH RI EXSUHQRUSKLQH LQ WKH WUHDWPHQW RI RSLRLG DGGLFWLRQ 7UHDWPHQW
,PSURYHPHQW 3URWRFRO 7,3 6HULHV
'++6 3XEOLFDWLRQ 1R 60$
5RFNYLOOH 0' 6XEVWDQFH $EXVH DQG 0HQWDO +HDOWK 6HUYLFHV $GPLQLVWUDWLRQ
KWWS ZZZ QFEL QOP QLK JRY ERRNV EY IFJL"ULG KVWDW FKDSWHU
>$FFHVVHG
1RYHPEHU
@
&HQWHU IRU 6XEVWDQFH $EXVH 7UHDWPHQW &6$7
$ JXLGH WR VXEVWDQFH DEXVH
VHUYLFHV IRU SULPDU\ FDUH FOLQLFLDQV 7UHDWPHQW ,PSURYHPHQW 3URWRFRO 7,3
6HULHV
KWWS ZZZ QFEL QOP QLK JRY ERRNV EY IFJL"ULG KVWDW FKDSWHU
>$FFHVVHG 2FWREHU
@
&HQWHU IRU 6XEVWDQFH $EXVH 7UHDWPHQW &6$7
D 0HGLFDWLRQ DVVLVWHG
WUHDWPHQW IRU RSLRLG DGGLFWLRQ LQ RSLRLG WUHDWPHQW SURJUDPV 7UHDWPHQW
,PSURYHPHQW 3URWRFRO 7,3 6HULHV
'++6 3XEOLFDWLRQ 1R 60$
5RFNYLOOH 0' 6XEVWDQFH $EXVH DQG 0HQWDO +HDOWK 6HUYLFHV $GPLQLVWUDWLRQ
KWWS ZZZ QFEL QOP QLK JRY ERRNV EY IFJL"ULG KVWDW FKDSWHU
>$FFHVVHG 2FWREHU
@
&HQWHU IRU 6XEVWDQFH $EXVH 7UHDWPHQW &6$7
E 6XEVWDQFH DEXVH WUHDWPHQW
IRU SHUVRQV ZLWK FR RFFXUULQJ GLVRUGHUV 7UHDWPHQW ,PSURYHPHQW 3URWRFRO 7,3
6HULHV
'++6 3XEOLFDWLRQ 1R 60$
5RFNYLOOH 0' 6XEVWDQFH
$EXVH DQG 0HQWDO +HDOWK 6HUYLFHV $GPLQLVWUDWLRQ
KWWS ZZZ QFEL QOP QLK JRY ERRNV EY IFJL"ULG KVWDW FKDSWHU
>$FFHVVHG
1RYHPEHU
@

A538

%XSUHQRUSKLQH $ *XLGH IRU 1XUVHV

&KHVNLQ / - )XGDOD 3 -RKQVRQ 5 (
$ FRQWUROOHG FRPSDULVRQ RI
EXSUHQRUSKLQH DQG FORQLGLQH IRU DFXWH GHWR[LILFDWLRQ IURP RSLRLGV 'UXJ DQG
$OFRKRO 'HSHQGHQFH
²
&ODQF\ & &R\QH 3
:ULJKW 6
6XEVWDQFH XVH *XLGDQFH RQ JRRG FOLQLFDO
SUDFWLFH IRU VSHFLDOLVW QXUVHV ZRUNLQJ ZLWK DOFRKRO DQG GUXJ XVHUV /RQGRQ
$VVRFLDWLRQ RI 1XUVHV LQ 6XEVWDQFH $EXVH $16$
KWWS ZZZ DQVDXN RUJ GRZQORDGV UHVRXUFH DQVDERRNOHWV DQVDBDOFRKRO SGI
>$FFHVVHG 2FWREHU
@
&ROOHWW % 2SLRLG WROHUDQFH 7KH FOLQLFDO SHUVSHFWLYH %ULWLVK -RXUQDO RI
$QDHVWKHVLD
²
'HSDUWPHQW RI +HDOWK
7KH 7DVN )RUFH WR 5HYLHZ 6HUYLFHV IRU 'UXJ 0LVXVHUV
5HSRUW RI DQ LQGHSHQGHQW UHYLHZ RI GUXJ WUHDWPHQW VHUYLFHV LQ (QJODQG /RQGRQ
+062
(JDQ *
7KH VNLOOHG KHOSHU $ V\VWHPDWLF DSSURDFK WR HIIHFWLYH KHOSLQJ WK
HG 0RQWHUH\ &$ %URRNV &ROH
(ULFNVRQ 3
2FWREHU ²
%XSUHQRUSKLQH 'HWR[LILFDWLRQ PDQDJHG
ZLWKGUDZDO +DQGRXW IURP WKH %XSUHQRUSKLQH 7UDLQLQJ RI 7UDLQHUV IRU 1XUVHV
8QLYHUVLW\ RI 0DU\ODQG 6FKRRO RI 1XUVLQJ %DOWLPRUH 0'
)HGHUDO 5HJLVWHU
KWWS ZZZ JSR JRY VXBGRFV IHGUHJ IUFRQW KWPO
)HUUHOO % 5 5KLQHU 0 &RKHQ 0 =
*UDQW 0
3DLQ DV D PHWDSKRU IRU
LOOQHVV 3DUW , ,PSDFW RI FDQFHU SDLQ RQ IDPLO\ FDUHJLYHUV 2QFRORJ\ 1XUVLQJ
)RUXP
²
)LHOOLQ ' $
2·&RQQRU 3 *
2IILFH EDVHG WUHDWPHQW RI RSLRLG GHSHQGHQW
SDWLHQWV 1HZ (QJODQG -RXUQDO RI 0HGLFLQH
²
*RRGPDQ ) *RUGRQ $ .LYODKDQ ' 'DODFN * 0F1LFKRODV / 2VOLQ '
6D[RQ $
6XFKLQVN\ 5
0DUFK &ULWHULD IRU XVH RI
EXSUHQRUSKLQH QDOR[RQH DQG EXSUHQRUSKLQH VXEOLQJXDO WDEOHWV 9+$ 3KDUPDF\
%HQHILWV 0DQDJHPHQW 6WUDWHJLF +HDOWKFDUH *URXS DQG WKH 0HGLFDO $GYLVRU\
3DQHO KWWS ZZZ SEP YD JRY FULWHULD %XSUHQRUSKLQH&ULWHULD)RU8VH SGI
>$FFHVVHG 2FWREHU
@
*UHHQZDOG 0 . -RKDQVRQ & ( 0RRG\ ' ( :RRGV - + .LOERXUQ 0 5
.RHSSH 5 $ 6FKXVWHU & 5
=XELHWD - .
(IIHFWV RI EXSUHQRUSKLQH
PDLQWHQDQFH GRVH RQ PX RSLRLG UHFHSWRU DYDLODELOLW\ SODVPD FRQFHQWUDWLRQ DQG
DQWDJRQLVW EORFNDJH LQ KHURLQ GHSHQGHQW YROXQWHHUV 1HXURSV\FKRSKDUPDFRORJ\
²
*ULPHV 7
2FWREHU ²
7KH FXOWXUH RI SDLQ +DQGRXW IURP WKH
%XSUHQRUSKLQH 7UDLQLQJ RI 7UDLQHUV IRU 1XUVHV 8QLYHUVLW\ RI 0DU\ODQG 6FKRRO
RI 1XUVLQJ %DOWLPRUH 0'
+DQGHOVPDQ / &RFKUDQH . - $URQVRQ 0 - 1HVV 5 5XELQVWHLQ . .DQRI 3 '
7ZR QHZ UDWLQJ VFDOHV IRU RSLDWH ZLWKGUDZDO $PHULFDQ
-RXUQDO RI 'UXJ DQG $OFRKRO $EXVH
²
+HDOWK 5HVRXUFHV DQG 6HUYLFHV $GPLQLVWUDWLRQ +56$ %XUHDX RI 3ULPDU\ +HDOWK
&DUH %3+&
'HFHPEHU
8VH RI EXSUHQRUSKLQH LQ KHDOWK FHQWHU
VXEVWDQFH DEXVH WUHDWPHQW SURJUDPV 3URJUDP $VVLVWDQFH /HWWHU 'RFXPHQW
5RFNYLOOH 0' +HDOWK 5HVRXUFHV DQG 6HUYLFHV $GPLQLVWUDWLRQ
IWS IWS KUVD JRY ESKF GRFV
SDOV
KWP >$FFHVVHG 0D\
@
-DVLQVNL ' 5
7ROHUDQFH DQG GHSHQGHQFH WR RSLDWHV $FWD $QDHVWKHVLRORJLFD
6FDQGLQDYLFD
²

A539

$SSHQGL[ ( 5HIHUHQFHV

-RKQVRQ 5 ( -RQHV + (
)LVFKHU *
8VH RI EXSUHQRUSKLQH LQ
SUHJQDQF\ 3DWLHQW PDQDJHPHQW DQG HIIHFWV RQ WKH QHRQDWH 'UXJ DQG $OFRKRO
'HSHQGHQFH
6XSSO 6 ²6
.HKOHW +
'DKO - %
7KH YDOXH RI ´PXOWLPRGDOµ RU ´EDODQFHG DQDOJHVLDµ
LQ SRVWRSHUDWLYH SDLQ WUHDWPHQW $QHVWKHVLD DQG $QDOJHVLD
²
/D%HOOH &
2FWREHU ²
%XSUHQRUSKLQH ,QGXFWLRQ VWDELOL]DWLRQ
PDLQWHQDQFH DQG WUHDWPHQW PRQLWRULQJ +DQGRXW IURP WKH %XSUHQRUSKLQH
7UDLQLQJ RI 7UDLQHUV IRU 1XUVHV 8QLYHUVLW\ RI 0DU\ODQG 6FKRRO RI 1XUVLQJ
%DOWLPRUH 0'
/DPEHUW /
&R\QH 3
&RQILGHQWLDOLW\ DQG WKH VHDUFK IRU PHDQLQJ DQG
SUDFWLFH $16$ -RXUQDO
²
/RHVHU - '
0HO]DFN 5
3DLQ $Q RYHUYLHZ /DQFHW
²
/RSH] )
&RQILGHQWLDOLW\ RI SDWLHQW UHFRUGV IRU DOFRKRO DQG RWKHU GUXJ
WUHDWPHQW 7HFKQLFDO $VVLVWDQFH 3XEOLFDWLRQ 7$3 6HULHV 1XPEHU
'++6
3XEOLFDWLRQ 1R 60$
5RFNYLOOH 0' &HQWHU IRU 6XEVWDQFH $EXVH
7UHDWPHQW
0DR - 3ULFH ' '
0D\HU ' 0HFKDQLVPV RI K\SHUDOJHVLD DQG
PRUSKLQH WROHUDQFH $ FXUUHQW YLHZ RI WKHLU SRVVLEOH LQWHUDFWLRQV 3DLQ
²
0DUODWW * $
*HRUJH : +
5HODSVH SUHYHQWLRQ LQWURGXFWLRQ DQG
RYHUYLHZ RI WKH PRGHO %ULWLVK -RXUQDO RI $GGLFWLRQ
²
0DUTXHW 3 &KHYUHO - /DYLJQDVVH 3 0HUOH /
/DFKkWUH *
%XSUHQRUSKLQH ZLWKGUDZDO V\QGURPH LQ D QHZERUQ &OLQLFDO 3KDUPDFRORJ\ DQG
7KHUDSHXWLFV
²
0F&DQFH .DW] (
2IILFH EDVHG EXSUHQRUSKLQH WUHDWPHQW IRU RSLRLG
GHSHQGHQW SDWLHQWV +DUYDUG 5HYLHZ RI 3V\FKLDWU\
²
0HUVNH\ +
&ODVVLILFDWLRQ RI FKURQLF SDLQ 'HVFULSWLRQ RI FKURQLF SDLQ
V\QGURPHV DQG GHILQLWLRQV RI SDLQ WHUPV 3DLQ 6XSSO
6
0LWUD 6
6LQDWUD 5 6
3UHRSHUDWLYH PDQDJHPHQW RI DFXWH SDLQ LQ WKH
RSLRLG GHSHQGHQW SDWLHQW $QHVWKHVLRORJ\
²
1$$'$& 7KH $VVRFLDWLRQ IRU $GGLFWLRQ 3URIHVVLRQDOV
2FWREHU
1$$'$& ODXGV EXSUHQRUSKLQH ODXQFK $VVRFLDWLRQ VXSSRUWV FRXQVHORU
LQYROYHPHQW LQ QHZ GUXJ WKHUDS\ 3UHVV UHOHDVH
KWWS ZZZ QDDGDF RUJ LQGH[ SKS"RSWLRQ FRPBFRQWHQW YLHZ DUWLFOH LG
SU
FDWLG
SUHVV UHOHDVHV ,WHPLG
>$FFHVVHG 6HSWHPEHU
@
1DHJOH 0
1RYHPEHU 'HFHPEHU 1XUVHV DQG PDWWHUV RI VXEVWDQFH %URRNO\Q
1< 1DWLRQDO 6WXGHQW 1XUVHV· $VVRFLDWLRQ KWWS ZZZ QVQD RUJ
KWWS ZZZ QVQD RUJ SXEV LPSULQW 1RY'HF QRY B)HDWB1DHJOH SGI SS
>$FFHVVHG 1RYHPEHU
@
1DWLRQDO $VVRFLDWLRQ RI 6WDWH $OFRKRO DQG 'UXJ $EXVH 'LUHFWRUV 1$6$'$'
7KH XVH RI PHGLFDWLRQV LQ VXEVWDQFH DEXVH WUHDWPHQW 1$6$'$' 3ROLF\
3DSHU :DVKLQJWRQ '& 1$6$'$'
KWWS ZZZ QDVDGDG RUJ UHVRXUFH SKS"GRFBLG
>$FFHVVHG 6HSWHPEHU
@
1DWLRQDO ,QVWLWXWH RQ 'UXJ $EXVH 1,'$
3ULQFLSOHV RI HIIHFWLYH WUHDWPHQW
1,+ 3XEOLFDWLRQ 1R
5RFNYLOOH 0' 1DWLRQDO ,QVWLWXWH RQ 'UXJ $EXVH
KWWS ZZZ QLGD QLK JRY 3') 32'$7 32'$7 SGI >$FFHVVHG 6HSWHPEHU
@

A540

Buprenorphine: A Guide for Nurses

Opiate Medication Initiative for Rural Oregon Residents (OMIROR). (2003,
November). Treating opiate dependence in rural communities: A guide for
developing community resources. Salem, OR: Northwest Frontier Addiction
Technology Transfer Center (ATTC). http://www.ireta.org/opiates2005/10.pdf.
[Accessed September 26, 2008.]
Pyne, R. H. (1998). Appendix 2: Guidelines for professional practice (UKCC
Advisory Document). In Professional discipline in nursing, midwifery, and
health visiting: Including a treatise on professional regulation (pp. 182–202).
Oxford: Blackwell Science.
Seedhouse, D. (1986). Health: The foundations for achievement. Chichester,
England: Wiley.
Simon, L. S., Lipman, A. G., Jacox, A. K., Caudill-Slosberg, M., Gill, L. H., Keefe, F.
J., Kerr, K. L., Minor, M. A., Sherry, D. D., Vallerand, A. H., & Vasudevan, S.
(2002). Pain in osteoarthritis, rheumatoid arthritis, and juvenile chronic arthritis
(2nd ed.). Glenview, IL: American Pain Society.
Suboxone®/Subutex® dosing guide at
http://www.suboxone.com/hcp/opioiddependence/dosing_guide.aspx. [Accessed
October 28, 2008].
Substance Abuse and Mental Health Services Administration (SAMHSA).
Trainings. http://buprenorphine.samhsa.gov/pls/bwns/training [Accessed October
28, 2008.]
Thompson-Gargano, K. (October 2006). Personal communications. Yale University,
CT & co-founder of the National Alliance for Advocates for Buprenorphine
Treatment (http://www.naabt.org/)
Trinkoff, A. M., & Storr, C. L. (1998). Substance use among nurses: Differences
between specialties. American Journal of Public Health, 88(4), 581–585.
U.S. Food and Drug Administration (FDA), Center for Drug Evaluation and
Research (CDER). (2002). FDA labeling for Suboxone® and Subutex®, NDA 20732, NDA 20-733. Rockville, MD: Food and Drug Administration.
http://www.fda.gov/cder/foi/label/2002/20732,20733lbl.pdf. [Accessed August 28,
2008].
Wanigaratne, S., Wallace, W., Pullin, F., Kearney, F., & Farmer, R. (1990). Relapse
prevention for addictive behaviors: A manual for therapists. Oxford: Blackwell.
Wesson, D. R., & Ling, W. (2003). The clinical opiate withdrawal scale (COWS).
Journal of Psychoactive Drugs, 35, 253–259.

A541

2WKHU 7HFKQLFDO $VVLVWDQFH 3XEOLFDWLRQV 7$3V LQFOXGH
7$3
7$3
7$3
7$3
7$3
7$3
7$3
7$3
7$3
7$3
7$3
7$3
7$3
7$3
7$3
7$3
7$3
7$3
7$3
7$3
7$3
7$3
7$3
7$3
7$3
7$3
7$3
7$3
7$3
7$3

$SSURDFKHV LQ WKH 7UHDWPHQW RI $GROHVFHQWV ZLWK (PRWLRQDO DQG 6XEVWDQFH $EXVH
3UREOHPV 3+'
0HGLFDLG )LQDQFLQJ IRU 0HQWDO +HDOWK DQG 6XEVWDQFH $EXVH 6HUYLFHV IRU &KLOGUHQ DQG
$GROHVFHQWV 3+'
1HHG 'HPDQG DQG 3UREOHP $VVHVVPHQW IRU 6XEVWDQFH $EXVH 6HUYLFHV 3+'
&RRUGLQDWLRQ RI $OFRKRO 'UXJ $EXVH DQG 0HQWDO +HDOWK 6HUYLFHV 3+'
6HOI 5XQ 6HOI 6XSSRUWHG +RXVHV IRU 0RUH (IIHFWLYH 5HFRYHU\ IURP $OFRKRO DQG 'UXJ
$GGLFWLRQ 3+'
(PSRZHULQJ )DPLOLHV +HOSLQJ $GROHVFHQWV )DPLO\ &HQWHUHG 7UHDWPHQW RI $GROHVFHQWV
ZLWK $OFRKRO 'UXJ $EXVH DQG 0HQWDO +HDOWK 3UREOHPV %.'
7UHDWPHQW RI 2SLDWH $GGLFWLRQ :LWK 0HWKDGRQH $ &RXQVHORU 0DQXDO %.'
5HODSVH 3UHYHQWLRQ DQG WKH 6XEVWDQFH $EXVLQJ &ULPLQDO 2IIHQGHU %.'
)XQGLQJ 5HVRXUFH *XLGH IRU 6XEVWDQFH $EXVH 3URJUDPV %.'
5XUDO ,VVXHV LQ $OFRKRO DQG 2WKHU 'UXJ $EXVH 7UHDWPHQW 3+'
7UHDWPHQW IRU $OFRKRO DQG 2WKHU 'UXJ $EXVH 2SSRUWXQLWLHV IRU &RRUGLQDWLRQ 3+'
$SSURYDO DQG 0RQLWRULQJ RI 1DUFRWLF 7UHDWPHQW 3URJUDPV $ *XLGH RQ WKH 5ROHV RI
)HGHUDO DQG 6WDWH $JHQFLHV 3+'
&RQILGHQWLDOLW\ RI 3DWLHQW 5HFRUGV IRU $OFRKRO DQG 2WKHU 'UXJ 7UHDWPHQW %.'
6LWLQJ 'UXJ DQG $OFRKRO 7UHDWPHQW 3URJUDPV /HJDO &KDOOHQJHV WR WKH 1,0%<
6\QGURPH %.'
)RUHFDVWLQJ WKH &RVW RI &KHPLFDO 'HSHQGHQF\ 7UHDWPHQW 8QGHU 0DQDJHG &DUH 7KH
:DVKLQJWRQ 6WDWH 6WXG\ %.'
3XUFKDVLQJ 0DQDJHG &DUH 6HUYLFHV IRU $OFRKRO DQG 2WKHU 'UXJ $EXVH 7UHDWPHQW
(VVHQWLDO (OHPHQWV DQG 3ROLF\ ,VVXHV %.'
7UHDWLQJ $OFRKRO DQG 2WKHU 'UXJ $EXVHUV LQ 5XUDO DQG )URQWLHU $UHDV %.'
&KHFNOLVW IRU 0RQLWRULQJ $OFRKRO DQG 2WKHU 'UXJ &RQILGHQWLDOLW\ &RPSOLDQFH 3+'
&RXQVHORU V 0DQXDO IRU 5HODSVH 3UHYHQWLRQ :LWK &KHPLFDOO\ 'HSHQGHQW &ULPLQDO
2IIHQGHUV 3+'
%ULQJLQJ ([FHOOHQFH WR 6XEVWDQFH $EXVH 6HUYLFHV LQ 5XUDO DQG )URQWLHU $PHULFD %.'
$GGLFWLRQ &RXQVHOLQJ &RPSHWHQFLHV 7KH .QRZOHGJH 6NLOOV DQG $WWLWXGHV RI 3URIHVVLRQDO
3UDFWLFH 60$
$ &RPSHWHQFLHV IRU 6XEVWDQFH $EXVH 7UHDWPHQW &OLQLFDO 6XSHUYLVRUV 60$
&RQWUDFWLQJ IRU 0DQDJHG 6XEVWDQFH $EXVH DQG 0HQWDO +HDOWK 6HUYLFHV $ *XLGH IRU
3XEOLF 3XUFKDVHUV %.'
6XEVWDQFH $EXVH 7UHDWPHQW IRU :RPHQ 2IIHQGHUV *XLGH WR 3URPLVLQJ 3UDFWLFHV %.'
:HOIDUH 5HIRUP DQG 6XEVWDQFH $EXVH 7UHDWPHQW &RQILGHQWLDOLW\ *HQHUDO *XLGDQFH IRU
5HFRQFLOLQJ 1HHG WR .QRZ DQG 3ULYDF\ %.'
7KH ,PSDFW RI 6XEVWDQFH $EXVH 7UHDWPHQW RQ (PSOR\PHQW 2XWFRPHV $PRQJ $)'&
&OLHQWV LQ :DVKLQJWRQ 6WDWH %.'
,GHQWLI\LQJ 6XEVWDQFH $EXVH $PRQJ 7$1) (OLJLEOH )DPLOLHV %.'
1DYLJDWLQJ WKH 3DWKZD\V /HVVRQV DQG 3URPLVLQJ 3UDFWLFHV LQ /LQNLQJ $OFRKRO DQG 'UXJ
6HUYLFHV ZLWK &KLOG :HOIDUH %.'
7KH 1DWLRQDO 5XUDO $OFRKRO DQG 'UXJ $EXVH 1HWZRUN $ZDUGV IRU ([FHOOHQFH
6XEPLWWHG DQG $ZDUG :LQQLQJ 3DSHUV %.'
,QWHJUDWLQJ 6WDWH $GPLQLVWUDWLYH 5HFRUGV 7R 0DQDJH 6XEVWDQFH $EXVH 7UHDWPHQW 6\VWHP
3HUIRUPDQFH 60$

2WKHU 7$3V PD\ EH RUGHUHG E\ FRQWDFWLQJ WKH 1DWLRQDO &OHDULQJKRXVH IRU $OFRKRO DQG 'UXJ
,QIRUPDWLRQ 1&$',
RU
7'' IRU KHDULQJ LPSDLUHG

A542

A543

MODEL POLICY ON DATA 2000 AND
TREATMENT OF OPIOID ADDICTION IN THE MEDICAL OFFICE
Adopted as policy by the House of Delegates of the Federation of State Medical Boards
April 2013
INTRODUCTION
The profile of opioid addiction in the United States is changing, in that nonmedical use of prescription
opioids has become a problem as significant as the use of heroin. Recent data indicate that approximately 1.6
million persons in the U.S. misused or were addicted to prescription opioids in 2010 [1], while 323,000 persons
misused or were addicted to heroin [2]. Despite the dimensions of the problem, nearly 80% of opioid-addicted
persons do not receive treatment for their addiction because of limited treatment capacity, financial obstacles,
social stigma, and other barriers to care [3].
To address this need, researchers, federal health agencies, and pharmaceutical manufacturers have focused on
developing medications that can be used to treat opioid addiction in medical office settings, rather than being
limited to use only in specialized Opioid Treatment Programs (OTPs) [4]. As a result of those efforts, two major
products are now available for use in office settings: buprenorphine (alone and in combination with naloxone)
and naltrexone (in an oral formulation and an extended-release injectable formulation). These medications have
been shown to be effective when used in office-based settings and thus to increase access to treatment for many
patients who would not or cannot obtain care in OTPs [5-7].
Regardless of setting, the primary goals of addiction treatment are to reduce or stop opioid use, to improve
the patient’s overall health and social functioning, and to help the patient avoid some of the more serious
consequences of opioid addiction. Treatment also can help the patient see his or her problems from a different
perspective, improve self-reliance, and empower the individual to make positive changes in his or her life [8].
Buprenorphine: Buprenorphine is a partial opioid agonist that was approved by the FDA to treat opioid
addiction in 2002. It is available in both tablet and film formulations for the treatment of addiction, either as
buprenorphine alone (Subutex®) or in a 4:1 combination with naloxone (Suboxone®). The film formulation
– which is similar to a dissolvable film strip of mouthwash – is marketed in unit-dose packaging with a serial
number on each foil packet. (A transdermal formulation [BuTrans®] has been approved by the FDA, but only
for the treatment of chronic pain.)
The addition of naloxone to buprenorphine does not reduce the efficacy of the medication when it is taken
sublingually, yet it appears to serve as a deterrent to injection misuse [9]. For this reason, the buprenorphine/
naloxone combination is the preferred formulation for most patients, with the exception of pregnant women,
for whom current guidelines recommend use of the monoproduct [10]. Whenever the monoproduct is used,
extra attention should be given to the risks of misuse and diversion.
Multiple studies have shown that, administered sublingually and at therapeutic doses in appropriately
Federation of State Medical Boards | www.fsmb.org

A544

1

Model Policy on DATA 2000 and Treatment of Opioid Addiction in the Medical Of ce
selected patients, buprenorphine is safe and e ective [11-15]. e blockade of the opioid receptor imposed by
buprenorphine limits the e ects of subsequently administered opioid agonists or antagonists, reducing the
risk of opioid overdose, and the “ceiling e ect” appears to confer a higher safety pro le and generally milder
withdrawal symptoms (compared to full agonists) when the drug is tapered after prolonged administration [1617].
Nevertheless, overdoses and deaths due to buprenorphine can occur and have been reported [18]. Most
overdoses, especially fatal ones, involve concurrent use of another CNS depressant such as benzodiazepines,
other opioids, or alcohol [19-22]. Buprenorphine also poses a signi cant risk to non-tolerant individuals,
especially children [23].
Relatively few serious adverse events have been associated with buprenorphine. Where such events have
been reported, most have involved abuse of the drug by injection, rather than sublingual administration in a
clinical setting [24-28]. A national evaluation of pharmacotherapies for opioid addiction in Australia involving
more than 1,200 patients found no signi cant di erence in rates of serious adverse events between methadone,
LAAM, and buprenorphine, or between di erent doses of buprenorphine [29].
Although early reports based on animal studies suggested that buprenorphine would have a low potential
for misuse to achieve euphoria, researchers have documented a measurable level of misuse and diversion of
buprenorphine [30-31]. Varying levels of misuse and diversion were predicted by early investigators [32]
because buprenorphine is prescribed to high-risk individuals who are addicted to opioids. Subsequent research
con rms that misuse and diversion have been reported worldwide wherever buprenorphine has been used for
the treatment of addiction [33-36].
e tablet form of buprenorphine has proved more vulnerable to diversion and nonmedical use than the
sublingual lm, so the pharmaceutical company that held the original patent stopped manufacturing the tablet
form and petitioned the Food and Drug Administration (FDA) to require that all buprenorphine products be
formulated as unit-dose sublingual lmstrips, thereby eliminating tablet formulations from the market. (As of
January 2013, the FDA had not acted on the petition.)
Role of Federal Legislation: e use of buprenorphine for the treatment of opioid addiction is governed by
the federal Drug Addiction Treatment Act of 2000, commonly referred to as “DATA 2000” (Public Law 106310, Title XXXV, Sections 3501 and 3502). is legislation is of particular interest to state medical boards
because, for the rst time in almost a century, it allows physicians to treat opioid addiction with FDA-approved
controlled drugs in o ce-based settings. Speci cally, DATA 2000 allows physicians to use buprenorphine and
other controlled substances in CSA Schedules III, IV, and V, which have been approved by the FDA for the
treatment of opioid dependence, to treat patients in o ce-based settings, provided certain conditions are met.
DATA 2000 thus has enlarged treatment capacity by lifting the requirement that patients who need opioid
agonist treatment can receive such treatment only in specially licensed opioid treatment programs (OTPs), often
referred to as “methadone clinics.”
Implementation of DATA 2000 required changes in the oversight systems within the Department of Health and
Human Services (HHS) and the Drug Enforcement Administration (DEA). e Secretary of HHS delegated
authority in this area to the Center for Substance Abuse Treatment (CSAT) of the Substance Abuse and Mental
Health Services Administration (SAMHSA).
2

Federation of State Medical Boards | www.fsmb.org

A545

Model Policy on DATA 2000 and Treatment of Opioid Addiction in the Medical Of ce
Role of State Medical Boards: e use of opioid agonist medications to treat opioid-addicted patients in the
o ces of individual physicians signi cantly increases the role of state medical boards in overseeing such
treatment. For this reason, the Federation of State Medical Boards entered into an agreement with SAMHSA to
develop model guidelines for use by state medical boards in regulating o ce-based treatment of addiction. is
resulted in the Model Policy adopted by the Federation in 2002 [37].
e updated Model Policy presented here re ects the large body of research and experience accrued in the
decade since buprenorphine was approved in 2002 for the treatment of opioid addiction. e Model Policy
is designed to encourage state medical boards to adopt consistent standards, to promote the public health by
making appropriate treatment available to opioid- addicted patients, and to educate the regulatory and
physician communities about the potential of new treatment modalities for opioid addiction.
e Federation acknowledges with gratitude the e orts of the state Board members and directors who worked
to update the Model Policy, as well as the contributions of the independent experts and medical organizations
that advised the drafting committee and reviewed its work. e Federation also thanks SAMHSA for its support
of this important project.

Federation of State Medical Boards | www.fsmb.org

A546

3

MODEL POLICY ON DATA 2000 AND
TREATMENT OF OPIOID ADDICTION IN THE MEDICAL OFFICE
SECTION I: PREAMBLE
e (name of Board) is obligated under the laws of the State of (name of state) to protect the public health and
safety. e Board recognizes that the principles of high-quality medical practice dictate that the people of (name
of state) have access to appropriate, safe and e ective medical care, including the treatment of addiction. e
application of up-to-date knowledge and evidence-based treatment modalities can help to restore function and
thus improve the quality of life of patients who su er from addiction.
In this context, the Board recognizes the body of evidence for the e ectiveness of buprenorphine in the o cebased treatment of opioid addiction [38], when such treatment is delivered in accordance with current standards
of care and the requirements of the Drug Addiction and Treatment Act of 2000 (DATA 2000) and state medical
licensing boards.
Federal Requirements to Prescribe Buprenorphine for Addiction: Physicians who wish to treat opioid
addiction with buprenorphine in their medical o ces must demonstrate that they have met the requirements
of the DATA 2000 legislation and obtained a waiver from SAMHSA.i To qualify for such a waiver, physicians
must hold a current controlled substance registration with the Drug Enforcement Administration and a current
license in the state in which they practice. ey also must meet one or more of the following quali cations [39]:
Subspecialty board certi cation in addiction psychiatry from the American Board of Medical
Specialties;
Subspecialty board certi cation in addiction medicine from the American Osteopathic
Association;
Addiction certi cation from the American Board of Addiction Medicine;
Completion of not less than eight hours of training related to the treatment and management
of opioid addiction provided by the American Academy of Addiction Psychiatry, the American
Society of Addiction Medicine, the American Medical Association, the American Osteopathic
Association, the American Psychiatric Association, or other approved organizations; or1
Participation as an investigator in one or more clinical trials leading to the approval of an opioid
drug in Schedule III, IV, or V or a combination of such drugs for treatment of opioid- addicted
patients.
To obtain a waiver, a physician must notify SAMHSA in writing of his or her intent to prescribe an
approved opioid medication to treat addiction, certifying the physician’s quali cations and listing his/her DEA
registration number. SAMHSA will then notify DEA whether a waiver has been granted. If SAMHSA grants
a waiver, DEA will issue an identi cation number no later than 45 days after receipt of the physician’s written
noti cation. (If SAMHSA does not act on the physician’s request for a waiver within the 45-day period, DEA
will automatically assign the physician an identi cation number.) is process is explained, and can be accessed
at the following website: http://buprenorphine.samhsa.gov/howto.html.
7 H

D H

DOOR

D H FHSW R WR W H D

R 1D FRW F

FW R

F PD H W OOH DO R D S

F D WR S H F EH D RS R

WR

D SDW H W W RS R D FW R R W H SX SR H R PD D
W DW D FW R R DFXWH W D DO 3 R WR 7
W H R O H FHSW R
WR W H D R FW D H H DO OH ODW R W DW DOOR H W H H WDEO PH W R PHW D R H PD WH D FH W HDWPH W 007 FO F
R H
H H WR D 2S R 7 HDWPH W 3 R DP 273 7 DW H FHSW R R O DOOR H W H X H R PHW D R H WR W HDW D
specially licensed and regulated facilities, but not in of ce-based medical practice.

4

Federation of State Medical Boards | www.fsmb.org

A547

FW R R

W

D DO

W

Model Policy on DATA 2000 and Treatment of Opioid Addiction in the Medical Of ce
If a physician wishes to prescribe or dispense an appropriately available and approved opioid medication for
maintenance treatment or detoxi cation (so as to ful ll the requirements of DATA 2000) on an emergency basis
before the 45-day waiting period has elapsed, the physician must notify SAMHSA and the DEA of his or her
intent to provide such emergency treatment.
In addition to a waiver, a physician who wishes to prescribe buprenorphine or another approved opioid for the
treatment of addiction in an o ce setting must have a valid DEA registration number and a DEA identi cation
number that speci cally authorizes him or her to engage in o ce-based opioid treatment.
Prescription Requirements: Prescriptions for buprenorphine and buprenorphine/naloxone must include full
identifying information for the patient, including his or her name and address; the drug name, strength, dosage
form, and quantity; and directions for use. Prescriptions for buprenorphine and/or buprenorphine/naloxone
must be dated as of, and signed on, the day they are issued (21 CFR 1306.05[a]). Both the physician’s regular
DEA registration number and the physicians’ DATA 2000 identi cation number (which begins with the pre x
X) must be included on the prescription (21 CFR 1301.28 [d][3]). [39]
For detailed guidance, physicians are referred to the Buprenorphine Clinical Practice Guidelines published by
CSAT/SAMHSA, which can be accessed at http://buprenorphine.samhsa.gov/Bup_Guidelines.pdf.
State Medical Board Requirements:
e (state medical board) will determine the appropriateness of a
particular physician’s prescribing practices on the basis of that physician’s overall treatment of patients and the
available documentation of treatment plans and outcomes. e goal is to provide appropriate treatment of the
patient’s opioid addiction (either directly or through referral), while adequately addressing other aspects of
the patient’s functioning, including co-occurring medical and psychiatric conditions and pressing psychosocial
issues.
SECTION II: GUIDELINES
Multiple studies have shown that opioid addiction treatment with buprenorphine can be successfully integrated
into o ce practice by physicians who are not addiction specialists. In such studies, patient outcomes are comparable to or better than outcomes of patients treated in specialized clinics [40-48]. However, as in the treatment
of any medical disorder, physicians who choose to o er addiction treatment need to understand the nature of
the underlying disorder, the speci c actions of each of the available medications (as well as any associated contraindications or cautions), and the importance of careful patient selection and monitoring [40].
e Board has adopted the following guidelines for the treatment of opioid addiction in o ce- based settings.
e guidelines are not intended to de ne complete or best practice, but rather to communicate what the Board
considers to be within the boundaries of accepted professional practice.
Physician Quali cations: e diagnosis and medical management of opioid addiction should be based on
current knowledge and research, and should encompass the use of both pharmacologic and nonpharmacologic
treatment modalities. us, before beginning to treat patients for opioid addiction, the physician should become knowledgeable about opioid addiction and its treatment, including the use of approved pharmacologic
therapies and evidence-based nonpharmacologic therapies [49-50].

Federation of State Medical Boards | www.fsmb.org

A548

5

Model Policy on DATA 2000 and Treatment of Opioid Addiction in the Medical Of ce
As described in the Preamble, physicians who wish to prescribe or dispense buprenorphine for the treatment
of opioid addiction must meet the requirements of DATA 2000 [51], which are that the physician must be
licensed in the state, have a valid DEA controlled substances registration and identi cation number, comply
with federal and state regulations applicable to controlled substances, and hold a current waiver [39].
In addition to these requirements, DATA limits the number of patients that a physician is permitted to treat at
any one time to 30 in the rst year after obtaining a waiver, and to 100 patients thereafter. e physician who
wishes to treat more than 30 patients after the rst year must le an application with the DEA to extend his or
her waivered capacity to do so [39,51].
DATA 2000 also requires that a physician who wishes to treat opioid addiction with buprenorphine in an o ce
setting must demonstrate a capacity to o er (or refer patients for) appropriate counseling and other ancillary
services, and to recognize when those services are needed [51].
Physicians are not permitted to delegate the prescribing of buprenorphine to non-physicians. Even
physicians who hold DEA registrations to prescribe controlled substances for other conditions are not allowed to
prescribe buprenorphine for the treatment of addiction unless they meet the DATA requirements and hold a
waiver. However, non-physician professionals can play an active role in evaluating and monitoring patients and
providing other elements of care, in accordance with state regulations and rules governing physician supervision
[52].
Physicians should consult the DEA regulations (Title 21 US Code of Controlled Substances Act 1301.28 and
21 USC 823 9GO(2)(G) [51] and the resources available on the DEA’s website (at www.deadiversion.usdoj.
gov), as well as (any relevant documents issued by the state medical board) for speci c rules governing the issuance
of prescriptions for controlled substances.
Patient Assessment: e objectives of the patient assessment are to determine a given patient’s eligibility for
treatment, to provide the basis for a treatment plan, and to establish a baseline measure for use in evaluating a
patient’s response to treatment. Accordingly, the assessment should be designed to achieve the following [49,53]:
Establish the diagnosis of opiate addiction, including the duration, pattern and severity of opioid
misuse; the patient’s level of tolerance; results of previous attempts to discontinue opioid use; past
experience with agonist therapies; the nature and severity of previous episodes of withdrawal; and
the time of last opioid use and current withdrawal status.
Document the patient’s use of other substances, including alcohol and other drugs of abuse.
Identify comorbid medical and psychiatric conditions and disorders and to determine how, when
and where they will be addressed.
Screen for communicable diseases and address them as needed. Evaluate the patient’s level of physical,
psychological and social functioning or impairment;
Assess the patient’s access to social supports, family, friends, employment, housing, nances and legal
problems.
Determine the patient’s readiness to participate in treatment.
Assessment usually begins at the time of the patient’s rst o ce visit and continues throughout treatment.
While the evidence is not conclusive, consensus opinion is that an initial patient assessment is of higher quality
when it includes a medical and psychiatric history, a substance abuse history, and an evaluation of family and
psychosocial supports, as well as a pregnancy test for all women of childbearing age. e physical examination,
6

Federation of State Medical Boards | www.fsmb.org

A549

Model Policy on DATA 2000 and Treatment of Opioid Addiction in the Medical Of ce
if performed during the initial assessment, can be focused on evaluating neurocognitive function, identifying
sequelae of opioid addiction, and looking for evidence of severe hepatic dysfunction [10,53].
As a general rule, a urine drug screen or other toxicologic screen should be part of the initial evaluation to
con rm recent opioid use and to screen for unreported use of other drugs. Ideally, this drug screen should
include all opioids commonly prescribed and/or misused in the local community, as well as illicit drugs that are
available locally [54]. It also is advisable to access the patient’s prescription drug use history through the state’s
prescription drug monitoring program (PDMP), where available, both to con rm compliance in taking
prescribed medications and to detect any unreported use of other prescription medications.
Information from family members and signi cant others can provide useful additional perspectives on the
patient’s status, as can contact with or records from clinicians who have treated the patient in the past [46].
Treatment Planning: ere is an emerging consensus among addiction experts that treatment medications
such as buprenorphine should be considered as an option for every opioid-addicted patient [38]. However, the
failure to o er medication-assisted treatment does not in itself constitute substandard care. No single treatment
is appropriate for all persons at all times. erefore, an individualized treatment plan is critical to the patient’s
ultimate success in returning to productive functioning [5,54].
e treating physician should balance the risks and bene ts of medication-assisted treatment in general –
and treatment with buprenorphine in particular – against the risks associated with no treatment or treatment
without medication [4,55]. e various options include:
Simple detoxi cation and no other treatment;
Detoxi cation followed by antagonist therapy;
Counseling and/or peer support without medication-assisted therapy;
Referral to short- or long-term residential treatment;
Referral to an OTP for methadone maintenance; or
Treatment with buprenorphine or buprenorphine/naloxone in an o ce-based setting.
Patients may be suitable candidates for treatment with buprenorphine even if past treatment episodes were not
successful [50].
If a decision is made to o er the patient treatment with buprenorphine, the risks associated with possible
misuse and diversion are such that the combination buprenorphine/naloxone product is preferable for most
patients [38,40,43]. e monoproduct should be used only rarely except in pregnant women, for whom it is the
preferred formulation [53].
Psychosocial and other nonpharmacologic interventions often are useful components of treatment [48,50,55].
Such interventions typically work best in conjunction with medication-assisted therapies; in fact, there is some
evidence that the combination of pharmacologic and non- pharmacologic interventions may be more e ective
than either approach used alone [56]. As noted earlier, the ability to o er patients psychosocial supports, either
on-site or through referral, is a requirement of the DATA 2000 legislation.
Educating the Patient: Every patient to whom buprenorphine is prescribed should be cautioned to follow the
directions exactly, particularly during the induction stage. Critical issues involve when to begin dosing, the
frequency of subsequent doses, and the importance of avoiding the use of any other illicit or prescription opioid.
Federation of State Medical Boards | www.fsmb.org

A550

7

Model Policy on DATA 2000 and Treatment of Opioid Addiction in the Medical Of ce
Concurrent use of non-opioid sedating medications or over-the- counter products also should be discussed, and
patients should be advised to avoid the use of alcohol [7].
Patients should be cautioned about potential sedation or impairment of psychomotor function during the
titration phase of induction with buprenorphine [57].
Finally, because opioids can contribute to fatal overdoses in individuals who have lost their tolerance to opioids
or in those who are opioid-naïve (such as a child or other family member), proper and secure storage of the
medication must be discussed. Particularly where there are young people in the patient’s home, the subject of
safe storage and use should be revisited periodically throughout the course of treatment, with the discussions
documented in the patient record [57].
Informed Consent: Although agonist medications such as buprenorphine clearly are e ective for the treatment
of opioid dependence, they do entail a substitute dependence on the prescribed medication to replace the prior
dependence on the misused opioid [46]. is issue should be thoroughly discussed with the patient in terms
of potential risks and bene ts as part of the informed consent process. Patients and family members often are
ambivalent about agonist treatment for this reason and their concerns may in uence subsequent treatment
choices. Possible topics of discussion include the di erence between addiction and physical dependence
(including an explanation of why agonist therapy is not simply “switching one addiction for another”), the
likelihood of relapse with and without medication-assisted treatment, the projected duration of treatment,
the potential for successfully tapering from agonist thereapy at some point in the future, and the role and
importance of adjunctive therapies such as counseling and peer support. With the patient’s consent, this
conversation could include family members, signi cant other(s), or a guardian [7].
A written informed consent document, discussed with and signed by the patient, can be helpful in
reinforcing this information and establishing a set of “ground rules.” e practitioner should document the
informed consent in the patient’s medical record [58].
Treatment Agreement:
e terms of treatment agreements vary widely, but typical provisions include
an acknowledgement of the potential bene ts and risks of therapy and the goals of treatment;
identi cation of one provider and one pharmacy from whom the patient will obtain prescriptions; authorization
to communicate with all providers of care (and sometimes signi cant others) and to consult the state’s
Prescription Drug Monitoring Program (PDMP), if one is available; other treatments or consultations in which the
patient is expected to participate, including recovery activities; avoidance of illicit substances; permission for drug
screens (of blood, urine, saliva or hair/nails) and pill counts as appropriate; mechanisms for prescription renewals,
including exclusion of early renewals; expected intervals between o ce visits; and speci cation of the conditions
under which therapy will be continued or discontinued [59].
e agreement also should include a statement instructing the patient to stop taking all other opioid
medications unless explicitly told to continue. Such a statement reinforces the need to adhere to a single
treatment regimen. Inclusion in the agreement of a pharmacy address and telephone number reinforces to the
patient the importance of using one pharmacy to ll prescriptions.
Finally, the treatment agreement should set forth the objectives that will be used to evaluate treatment
success, such as freedom from intoxication, improved physical and psychosocial function, and adherence to the
treatment regimen [59].
8

Federation of State Medical Boards | www.fsmb.org

A551

Model Policy on DATA 2000 and Treatment of Opioid Addiction in the Medical Of ce

Copies of the treatment agreement and informed consent should be provided to the patient and all other care
providers, and le in the patient’s medical record. e agreement should be reviewed regularly and adjusted as
needed [58].
Induction, Stabilization, and Follow-up: e goal of induction and stabilization is to nd the lowest dose
of buprenorphine at which the patient discontinues or markedly reduces the use of other opioids without
experiencing withdrawal symptoms, signi cant side e ects, or uncontrollable craving for the drug of abuse [60].
e initial induction process requires a higher degree of attention and monitoring than the later maintenance
phase [59]. Particular attention should be given to the timing of the initial doses so as to minimize untoward
outcomes. Withdrawal symptoms can occur if either too much or too little buprenorphine is administered
(i.e., spontaneous withdrawal if too little buprenorphine is given, precipitated withdrawal if buprenorphine is
administered while the opioid receptors are substantially occupied by an opioid agonist). Undermedication or
overmedication can be avoided through a exible approach to dosing, which sometimes requires higher doses of
treatment medication than expected, and by taking into account patient-reported symptoms [61].
e stabilization phase is focused on nding the right dose for an individual patient. A patient is stabilized
when the dose allows him or her to conduct activities of daily living and to be aware of his or her surroundings
without intoxication and without su ering withdrawal or distressing drug craving [61-62]. Although there is no
precise way to determine in advance what the optimal dose for a particular patient will be [63], most patients
are likely to stabilize on eight to 24 mg of buprenorphine per day, although some may need doses of up to 32
mg per day [64].
Buprenorphine blood concentrations stabilize after approximately seven days of consistent dosing [17]. If withdrawal symptoms subsequently emerge during any 24-hour dosing interval, the dose is too low and should be
increased [64]. Medical factors that may cause a patient’s dose requirements to change include (but are not
limited to) starting, stopping, or changing the dose of other prescription medications; onset and progression of
pregnancy; onset of menopause; progression of liver disease; and signi cant increase or decrease in weight [61].
Dose adjustments generally can be made in increments of 2 mg/day. Because buprenorphine has a long plasma
half-life and an even longer duration of action at the mu opioid receptor, ve days should be allowed between
dose adjustments [53].
Patient adherence to medication regimens and session appointments is associated with better treatment outcomes, and regular monitoring can help patients plan for possible obstacles and teach them ways to handle any
problems that occur [65]. Regular assessment of the patient’s level of engagement in treatment and the strength
of the therapeutic alliance allows for modi cation of the treatment plan and level of care in response to the
patient’s progress or lack thereof [56].
Early in treatment, medications should be prescribed and follow-up visits scheduled commensurate with the
patient’s demonstrated stability. Until patients have shown the ability to be compliant with the treatment plan
and responsible with their medication supplies, and have have discontinued high-risk behaviors and associated
diversion risks, they should be seen more frequently and given supplies of medication only as needed until the
next visit. As patients demonstrate stability and the risk declines, they can be seen less often (typically once a
month) and prescribed larger supplies of medication [46,59].
Federation of State Medical Boards | www.fsmb.org

A552

9

Model Policy on DATA 2000 and Treatment of Opioid Addiction in the Medical Of ce

Patient monitoring during follow-up visits should address the following points [46,54,59,66]:
Whether the patient continues to use alcohol or illicit drugs, or to engage in non-medical use of
prescription drugs;
e degree of compliance with the treatment regimen, including the use of prescribed medications
as directed;
Changes (positive or negative) in social functioning and relationships;
Avoidance of high-risk individuals, situations, and diversion risk;
Review of whether and to what degree the patient is involved in counseling and other psychosocial
therapies, as well as in self-help activities through participation in mutual support meetings of
groups such as Narcotics Anonymous;
e presence or absence of medication side e ects; and
e presence or absence of medical sequelae of substance use and its remission.
e patient’s compliance with regard to use of prescribed buprenorphine and avoidance of other opioids should
be monitored through patient report, regular toxicologic analyses [54], reports from signi cant others, and
regular checks of the state’s Prescription Drug Monitoring Program, where available [46].
Individuals being treated with medication-assisted therapy often demonstrate dramatic improvement in
addiction-related behaviors and psychosocial functioning. Such positive changes should be acknowledged and
reinforced by the prescribing physician whenever possible. Reducing the frequency of monitoring visits, with
their associated costs, and increasing the patient’s responsibility for medications are examples of how positive,
responsible behaviors can be reinforced [46,67].
Adjusting the Treatment Plan: Treatment outcomes typically are positive for patients who remain in
treatment with medication-assisted therapies such as buprenorphine [46,68]. However, some patients struggle to
discontinue their misuse of opioids or other drugs, are inconsistent in their complience with treatment
agreements, or succeed in achieving some therapeutic goals while not doing well with others [69].
Behaviors that are not consistent with the treatment agreement should be taken seriously and used as an
opportunity to further assess the patient and adapt the treatment plan as needed. In some cases, where the
patient’s behavior raises concerns about safety or diversion of controlled medications, there may be a need
to refer the patient for treatment in a more structured environment (such as an OTP) [69]. However,
behavior that violates the treatment agreement or a relapse to nonmedical drug use do not constitute grounds for
automatic termination of treatment. Rather, they should be taken as a signal to reassess the patient’s status, to
implement changes in the treatment plan (as by intensifying the treatment structure or intensity of services), and to
document such changes in the patient’s medical record [46].
Whenever the best clinical course is not clear, consultation with another practitioner may be helpful. e
results of the consultation should be discussed with the patient and any written consultation reports added to
the patient’s record [59].
Patients with more serious or persistent problems may bene t from referral to a specialist for additional
evaluation and treatment. For example, the treatment of addiction in a patient with a comorbid psychiatric
disorder may be best managed through consultation with or referral to a specialist in psychiatry or addiction
10

Federation of State Medical Boards | www.fsmb.org

A553

Model Policy on DATA 2000 and Treatment of Opioid Addiction in the Medical Of ce
psychiatry [10]. In other instances, aberrant or dysfunctional behaviors may indicate the need for more vigorous
engagement in peer support, counseling, or psychotherapies, or possibly referral to a more structured treatment
setting [56].
Preventing and Managing Relapse: Relapse always should be ruled out as a reason for loss of stability [56].
Relapse to drug use has been described as “an unfolding process in which the resumption of substance abuse is
the last event in a long series of maladaptive responses to internal or external stressors or stimuli” [70]. It rarely
is caused by any single factor; rather, it is a dynamic process in which the patient’s readiness to change interacts
with other external and internal factors [59, 71]. Patients in relapse vary in the quantity and frequency of their
substance use, as well as the accompanying medical and psychosocial sequelae.
Clinical strategies to prevent and address relapse generally encompass the following steps [10,61,71]:
Identify environmental cues and stressors that act as relapse triggers.
Help patients develop skills to cope with or manage negative emotional states;
Help the patient work toward a more balanced lifestyle.
Understand and manage craving.
Identify and interrupt lapses and relapses. Patients should have an emergency plan to address a
lapse so that a full-blown relapse can be avoided. If relapse does occur, be prepared to intervene.
Develop a recovery support system. Families are more likely to provide such support if they are
engaged in the treatment process and have an opportunity to ask questions, share their concerns
and experiences, and learn practical coping strategies and behaviors to avoid.
It should be noted that lack of adherence to pharmacologic regimens occurs in a substantial portion of patients
being treated for addiction, with some studies reporting that a majority of patients fail to follow the treatment
plan at some point in their care. Retention in treatment also is a problem [72]. is is no di erent from the
challenges encountered in managing any chronic disease, such as diabetes, hypertension, epilepsy, and other
potentially life-threatening disorders [46], and is not an indicate to terminate treatment.
Patients who continue to misuse opioids after su cient exposure to buprenorphine and ancillary psychosocial
services or who experience continued symptoms of withdrawal or craving at 32 mg of buprenorphine should be
considered for therapy with methadone [5,7,52,73].
Duration of Treatment: Available evidence does not support routinely discontinuing medication-assisted
treatment once it has been initiated and the patient stabilized. However, this possibility frequently is raised by
patients or family members. When it is, the physician and patient should carefully weigh the potential bene ts
and risks of continuing medication-assisted treatment and determine whether buprenorphine therapy can be
safely discontinued [74].
Studies indicate that opioid-dependent patients are at high risk for relapse when medication-assisted
therapy is discontinued, even after long periods of stable maintenance [7,74]. Research also shows that longer
duration of treatment is associated with better treatment outcomes [75]. Such long-term treatment, which is
common to many medical conditions, should not be seen as treatment failure, but rather as a cost-e ective way of
prolonging life and improving the quality of life by supporting the natural and long-term process of change and
recovery. erefore, the decision to discontinue treatment should be made only after serious consideration of
the potential consequences [3,7-8].
Federation of State Medical Boards | www.fsmb.org

A554

11

Model Policy on DATA 2000 and Treatment of Opioid Addiction in the Medical Of ce

As with other disease processes, the continuation of medication-assisted treatment should be linked directly to
the patient’s response (for example, his or her attainment of treatment goals). Relapse risk is highest in the rst
six to 12 months after initiating abstinence, then diminishes gradually over a period of years. erefore, it is
reasonable to continue treatment for at least a year if the patient responds well [3,7,10].
If buprenorphine is discontinued, the patient should be tapered o the medication through use of a safely
structured regimen, and followed closely [46]. It may be necessary to reinstate pharmacotherapy with
buprenorphine or a di erent medication or other treatment services if relapse appears imminent or actually
occurs [59]. Such relapse poses a signi cant risk of overdose, which should be carefully explained to the patient
[74]. Patients also should be assured that relapse need not occur for them to be reinstated to medication-assisted
therapy [46].
Medical Records: Accurate and up-to-date medical records protect both the physician and the patient. In the
event of a legal challenge, detailed medical records that document what was done and why are essential elements
of the practitioner’s defense [75-76].
A written informed consent and a treatment agreement articulating measurable treatment goals are key
documents. e treatment agreement should be updated as new information becomes available. Both the
informed consent and treatment agreement should be carefully explained to the patient and signed by both the
patient (or guardian) and the treating physician [76]. e medical record should clearly re ect the decisionmaking process that resulted in any given treatment regimen.
e rst page of the patient’s chart should contain a summary of the information needed to understand the
treatment plan, even without a thorough knowledge of the patient. is includes some demographic data,
the names of other practitioners caring for the patient, all diagnoses, therapies employed, and a list of all
medications prescribed. e name, telephone number, and address of the patient’s pharmacy also should be
recorded to facilitate contact as needed [10,76].
Other documents that should be part of the medical record, where available, include [10,74,76]:
Diagnostic assessments, including the patient history, physical examination, and any laboratory
tests ordered, with their results;
Actual copies of, or references to, medical records of past hospitalizations or treatments by other
providers;
e treatment plan, treatment agreement, and informed consent;
Authorization for release of information to other treatment providers;
Documentation of discussions with and consultation reports from other health care providers; and
Medications prescribed and the patient’s response to them, including any adverse events.
e medical record also must include all prescription orders, whether written or telephoned. In addition,
written instructions for the use of all medications should be given to the patient and documented in the record
[75].
Monitoring visits should be carefully documented in the medical record, along with any subsequent changes to
the treatment plan [10,76]. e patient’s record also should contain documentation of steps taken to prevent the
diversion of treatment medications, including any communications with other treating physicians and, where
12

Federation of State Medical Boards | www.fsmb.org

A555

Model Policy on DATA 2000 and Treatment of Opioid Addiction in the Medical Of ce
available, use of the state’s prescription drug monitoring program to verify that all prescribed medicines have
been obtained and that no other prescriptions for controlled drugs have been dispensed without the physician’s
knowledge [77-78].
Records (including drug logs, if buprenorphine is dispensed in the o ce) should be up-to-date and maintained
in an accessible manner, readily available for review [75]. Good records demonstrate that a service was provided
to the patient and establish that the service provided was medically necessary. Even if the outcome is less than
optimal, thorough records protect the physician as well as the patient [10,74,76].
Physicians who treat patients for addiction must observe the special con dentiality requirements of federal law
42 CFR, Part 2, which addresses the con dentiality of patients being treated for alcohol or drug addiction. 42
CFR includes a prohibition against release of records or other information without the patient’s consent or a
valid court order, or in cases of a bona de medical emergency, or in the course of mandatory reporting of child
abuse [7].
SECTION III: DEFINITIONS
Accurate use of terminology is essential to understanding o ce-based treatment of opioid addiction [70].
However, terminology in this area is changing. For many years, the most commonly used terms have been “drug
abuse” and “drug dependence,” with the latter indicating a severe condition considered synonymous with the
term “addiction” (the chronic brain disease). e terms “abuse” and “dependence,” in use since the third edition
of the Diagnostic and Statistical Manual of Mental Disorders [79] will be replaced in the forthcoming fth edition
[80] by the term “substance use disorder.” Other new terms include “opioid use” for the activity of using opioids
benignly or pathologically, and “opioid use disorder” for the disease associated with compulsive, out-of-control
use of opioids.
For the purposes of this Model Policy, the following terms are de ned as shown.
Abuse: e de nition of “abuse” varies widely, depending on the context in which it is used and who is
supplying the de nition. For example, in the Diagnostic and Statistical Manual of Mental Disorders, Fourth
Edition, Text Revision [81], the American Psychiatric Association de nes drug abuse as “a maladaptive pattern of
substance use, leading to clinically signi cant impairment or distress, as manifested by one or more behaviors.”
e DSM V, to be published in 2013, replaces the term “abuse” with “misuse” [80].
Addiction: Addiction is widely de ned as a primary, chronic, neurobiologic disease, with genetic, psychosocial,
and environmental factors in uencing its development and manifestations. It is characterized by behaviors
that include the following: impaired control over drug use, craving, compulsive use, and continued use despite
harm [56]. (As discussed below, physical dependence and tolerance are normal physiological consequences of
extended opioid therapy and are not the same as addiction.)
A recent de nition of addiction, adopted by the American Society of Addiction Medicine in 2011, reads
as follows: “Addiction is a primary, chronic disease of brain reward, motivation, memory and related
circuitry. Dysfunction in these circuits leads to characteristic biological, psychological, social and spiritual
manifestations. is is re ected in an individual pathologically pursuing reward and/or relief by substance
use and other behaviors. Addiction is characterized by inability to consistently abstain, impairment in
behavioral control, craving, diminished recognition of signi cant problems with one’s behaviors and interpersonal
Federation of State Medical Boards | www.fsmb.org

A556

13

Model Policy on DATA 2000 and Treatment of Opioid Addiction in the Medical Of ce
relationships, and a dysfunctional emotional response. Like other chronic diseases, addiction often involves
cycles of relapse and remission. Without treatment or engagement in recovery activities, addiction is progressive
and can result in disability or premature death” [82].
Controlled Substance: A controlled substance is a drug that is subject to special requirements under the
federal Controlled Substances Act [75], which is designed to ensure both the availability and control of regulated
substances. Under the CSA, availability of regulated drugs is accomplished through a system that establishes
quotas for drug production and a distribution system that closely monitors the importation, manufacture,
distribution, prescribing, dispensing, administering, and possession of controlled drugs [83]. Civil and criminal
sanctions for serious violations of the statute are part of the government’s drug control apparatus. e Code of
Federal Regulations (Title 21, Chapter 2) implements the CSA.
e CSA [75], confers responsibility for scheduling controlled substances on the FDA and the DEA. In
granting regulatory authority to these agencies, the Congress noted that both public health and public safety
needs are important and that neither takes primacy over the other, but that both are necessary to ensure the
public welfare. To accomplish this, the Congress provided guidance in the form of factors that must be
considered by the FDA and DEA when assessing public health and safety issues related to a new drug or one
that is being considered for rescheduling or removal from control.
Most opioids are classi ed as Schedule II or III drugs under the CSA, indicating that they have a high potential
for abuse and a currently accepted medical use in treatment in the U.S., and that abuse of the drug may lead to
psychological or physical dependence [75]. (Although the scheduling system provides a rough guide to abuse
potential, it should be recognized that all controlled substances have some potential for abuse.)
Dependence: Physical dependence is a state of biologic adaptation that is evidenced by a class-speci c
withdrawal syndrome when the drug is abruptly discontinued or the dose rapidly reduced, and/or by the
administration of an antagonist [76]. It is important to distinguish addiction from the type of physical
dependence that can and does occur within the context of good medical care, as when a patient on long-term
opioid analgesics for pain becomes physically dependent on the analgesic. is distinction is re ected in the
two primary diagnostic classi cation systems used by health care professionals: the International Classi cation of
Mental and Behavioural Disorders, 10th Edition (ICD- 10) of the World Health Organization (WHO) [84] and
the Diagnostic and Statistical Manual (DSM) of the American Psychiatric Association [80,81]. In the DSM-IVTR, a diagnosis of “substance dependence” meant addiction. In the upcoming DSM V, the term dependence is
reestablished in its original meaning of physiological dependence; when symptoms are su cient to meet criteria
for substance misuse or addiction, the term “substance use disorder” is used, accompanied by severity ratings
[80].
It may be important to clarify this distinction during the informed consent process, so that the patient
understands that physical dependence and tolerance are likely to occur if opioids are taken regularly for a period of time, but the risk of addiction is relatively low unless the patient has additional risk factors. According
to the World Health Organization, “ e development of tolerance and physical dependence denote normal
physiologic adaptations of the body to the presence of an opioid” [8].
Detoxi cation: Detoxi cation (also termed “medically supervised withdrawal”) refers to a gradual reduction,
or tapering, of a medication dose over time, under the supervision of a physician, to achieve the elimination of
tolerance and physical dependence [85].
14

Federation of State Medical Boards | www.fsmb.org

A557

Model Policy on DATA 2000 and Treatment of Opioid Addiction in the Medical Of ce
“Detoxi cation” is a legal and regulatory term that has fallen into disfavor with some in the medical
community; indeed, some experts view “detoxi cation” as a misnomer because many abusable drugs are not
toxic when administered in proper doses in a medical environment [86].
Diversion: e federal Controlled Substances Act (21 U.S.C. §§ 801 et seq.) establishes a closed system of
distribution for drugs that are classi ed as controlled substances. Records must be kept from the time a drug is
manufactured to the time it is dispensed. Health care professionals who are authorized to prescribe, dispense,
and otherwise control access to such drugs are required to register with the DEA [75].
Pharmaceuticals that make their way outside this closed system are said to have been “diverted” from the system,
and the individuals responsible for the diversion (including patients) are in violation of the law. e degree to
which a prescribed medication is misused depends in large part on how easily it is redirected (diverted) from the
legitimate distribution system [30,87].
Maintenance Treatment: Maintenance treatment involves the dispensing or administration of an opioid
medication (such as methadone or buprenorphine) at a stable dose and over a period of 21 days or more,
for the treatment of opioid addiction. When maintenance treatment involves the use of methadone, such
treatment must be delivered in an Opioid Treatment Program (OTP). However, maintenance treatment with
buprenorphine may be delivered in either an OTP or a medical o ce by a properly credentialed physician [7].
Medication-Assisted Treatment (MAT): MAT is any treatment for opioid addiction that includes a medication
(such as methadone, buprenorphine, or naltrexone) that is approved by the FDA for opioid detoxi cation or
maintenance treatment. MAT may be provided in a specialized OTP or, for buprenorphine or naltrexone, in a
physician’s o ce or other health care setting [7,55].
Misuse: e term misuse (also termed non-medical use) incorporates all uses of a prescription medication other
than those that are directed by a physician and used by a patient within the law and the requirements of good
medical practice [56].
Opioid: An opioid is any compound that binds to an opioid receptor. e class includes both naturally
occurring and synthetic or semi-synthetic opioid drugs or medications, as well as endogenous opioid peptides
[7,51,83]. Most physicians use the terms “opiate” and “opioid” interchangeably, but toxicologists (who perform
and interpret drug tests) make a clear distinction between them. “Opioid” is the broader, more appropriate
term because it includes the entire class of agents that act at opioid receptors in the nervous system, whereas
“opiates” refers to natural compounds derived from the opium plant but not semisynthetic opioid derivatives
of opiates or completely synthetic agents. us, drug tests that are “positive for opiates” have detected one of
these compounds or a metabolite of heroin, 6-monoacetyl morphine (MAM); drug tests that are “negative for
opiates” have found no detectable levels of opiates in the sample, even though other opioids that were not tested
for, including the most common currently used and misused prescription opioids, may well be present in the
sample that was analyzed.
Opioid agonists are compounds that bind to the mu opioid receptors in the brain, producing a response that is
similar in e ect to the natural ligand that would activate it. With full mu opioid agonists, increasing the dose
produces an more intense opioid e ect. Most opioids that are misused, such as morphine and heroin, are full
mu opioid agonists, as is methadone.

Federation of State Medical Boards | www.fsmb.org

A558

15

Model Policy on DATA 2000 and Treatment of Opioid Addiction in the Medical Of ce
Opioid partial agonists occupy and activate the opioid receptors, but the activation they produce reaches a
plateau, beyond which additional opioid doses do not produce a greater e ect. It should be noted that the
plateau (or “ceiling e ect”) may limit a partial agonist’s therapeutic activity as well as its toxicity. Buprenorphine
is a partial mu opioid agonist.
Opioid antagonists bind to and block the opioid receptors and prevent them from being activated by an opioid
agonist or partial agonist. Naltrexone and naloxone both are opioid antagonists, and both can block the e ect
of opioid drugs.
Opioid Treatment Program (OTP) (sometimes referred to as a “methadone clinic” or “narcotic treatment
program”): An OTP is any treatment program certi ed by SAMHSA in conformance with 42 Code of
Federal Regulations (CFR), Part 8, to provide supervised assessment and medication- assisted treatment of
patients who are addicted to opioids. An OTP can exist in a number of settings, including intensive outpatient,
residential, and hospital facilities.Treatments o ered by OTPs include medication-assisted therapy with methadone,
buprenorphine or naltrexone, as well as medically supervised withdrawal or detoxi cation, accompanied
by varying levels of medical and psychosocial services and other types of care. Some OTPs also can provide
treatment for co-occurring mental disorders [58].
Recovery: A process of change through which individuals improve their health and wellness, live a self-directed
life, and strive to reach their full potential [88]. As used in the ASAM Patient Placement Criteria, “recovery”
refers to the overall goal of helping a patient achieve overall health and well-being [56]. SAMHSA’s 10 guiding
principles recognize that recovery [89]:
1. Emerges from hope;
2. Is person-driven;
3. Occurs via many pathways;
4. Is holistic;
5. Is supported by peers and allies;
6. Is supported through relationship and social networks
7. Is culturally-based and in uenced;
8. Is supported by addressing trauma;
9. Involves individual, family and community strengths and responsibility;
10. Is based on respect.
Relapse: Relapse has been variously de ned as “a breakdown or setback in a person’s attempt to change or
modify any target behavior” and as “an unfolding process in which the resumption of substance misuse is the
last event in a long series of maladaptive responses to internal or external stressors or stimuli” [70]. Relapse rarely
is caused by any single factor and often is the result of an interaction of physiologic and environmental factors
[59].
e term lapse (sometimes referred to as a slip) refers to a brief episode of drug use after a period of abstinence. A
lapse usually is unexpected, of short duration, with relatively minor consequences, and marked by the patient’s
desire to return to abstinence. However, a lapse also can progress to a full-blown relapse, marked by sustained
loss of control [56].
Tolerance: Tolerance is a state of physiologic adaptation in which exposure to a drug induces changes that
result in diminution of one or more of the drug’s e ects over time [76]. Tolerance may occur both to an opioid’s
16

Federation of State Medical Boards | www.fsmb.org

A559

Model Policy on DATA 2000 and Treatment of Opioid Addiction in the Medical Of ce
analgesic e ects and to its unwanted side e ects, such as respiratory depression, sedation, or nausea. Most
investigators agree that absolute tolerance to the analgesic e ects of opioids does not occur. In general, tolerance
to the side e ects of opioids develops more rapidly than does tolerance to the drug’s analgesic e ects.
Tolerance may or may not be evident during treatment with opioids and is not the same as addiction [70].
Trial Period: A period of time, which can last weeks or even months, during which the e cacy of a medication
or other therapy for the treatment of addiction is tested to determine whether the treatment goals can be met. If
the goals are not met, the trial should be discontinued and an alternative approach (i.e., a di erent medication
or non-pharmacologic therapy) adopted [76].
Waiver: A documented authorization from the Secretary of Health and Human Services, issued by SAMHSA
under the DATA 2000 regulations, that exempts a quali ed physician from the rules applied to OTPs and allows him or her to use buprenorphine for the treatment of addiction in o ce-based practice [51].
REFERENCES
1. O ce of National Drug Control Policy (ONDCP). Epidemic: Responding to America’s Prescription Drug Abuse
Crisis. Washington, DC: ONDCP, Executive O ce of the President, e White House, 2011.
2. Becker WC, Sullivan LE, Tetrault JM et al. Non-medical use, abuse and dependence on prescription opioids
among U.S. adults: Psychiatric, medical and substance use correlates. Drug and Alcohol Dependence. 2008 Apr
1;94(1-3):38-47.
3. Arfken CL, Johanson CE, diMenza S et al. Expanding treatment capacity for opioid dependence with
buprenorphine: National surveys of physicians. Journal of Substance Abuse Treatment. 2010 Sep;39(2):96-104.
4. Gunderson EW & Fiellin DA. O ce-based maintenance treatment of opioid dependence: How does it
compare with traditional approaches? CNS Drugs 2008;22(2):99-111.
5. National Institute on Drug Abuse (NIDA). Topics in Brief: Medication-Assisted Treatment for Opioid
Addiction. Bethesda, MD: NIDA, National Institutes of Health, April 2012.
6. Korthuis PT, Gregg J, Rogers WE et al. Patients’ reasons for choosing o ce-based buprenorphine: Preference
for patient-centered care. Journal of Addiction Medicine. 2010;4(4):204-210.
7. McNicholas LF, chair, for the CSAT Expert Panel. Clinical Guidelines for the Use of Buprenorphine in the
Treatment of Opioid Addiction. Treatment Improvement Protocol [TIP] Series Number 40. DHHS Publication
No. [SMA] 04-3939. Rockville, MD: Center for Substance Abuse Treatment, Substance Abuse and Mental
Health Services Administration, 2004.
8. World Health Organization (WHO). Guidelines for the Psychologically Assisted Pharmacological Treatment of
Opioid Dependence. Geneva, Switzerland: WHO, 2009
9. Soyka M, Kranzler HR, Van den Brink W et al. e World Federation of Societies of Biological Psychiatry
(WFSBP) Guidelines for the Biological Treatment of Substance Use and Related Disorders—Part 2: Opioid
Federation of State Medical Boards | www.fsmb.org

A560

17

Model Policy on DATA 2000 and Treatment of Opioid Addiction in the Medical Of ce
Dependence. World Journal of Biological Psychiatry. 2011 Apr;12(3):160-187.
10. Community Care Behavioral Health (CCBH) & Institutes for Research Education and Training in
Addictions (IRETA). Buprenorphine Treatment for Opioid Dependence. Pittsburgh, PA: CCBH & IRETA, May
2011.
11. O’Connor PG. Advances in the treatment of opioid dependence: Continued progress and ongoing
challenges. Journal of the American Medical Association. 2010;304:1612-1614.
12. Amato L, Davoli M, Perucci CA et al. An overview of systematic reviews of the e ectiveness of opiate
maintenance therapies: Available evidence to inform clinical practice and research. Journal of Substance Abuse
Treatment 2005; 28:321-329.
13. Umbricht A, Huestis M, Cone EJ et al. E ects of high-dose intravenous buprenorphine in experienced
opioid abusers. Journal of Clinical Psychopharmacology. 2004 Oct;24(5):479-487.
14. Teesson M, Ross J, Darke S et al. One year outcomes for heroin dependence: Findings from the Australian
Treatment Outcome Study (ATOS). Drug and Alcohol Dependence. 2006 Jun 28;83(2):174-180.
15. Ducharme S, Fraser R, Gill K. Update on the clinical use of buprenorphine in opioid-related disorders.
Canadian Family Physician. 2012 Jan;58(1):37-41.
16. Gordon AJ, Kunins HV, Rastegar DA et al. Update in addiction medicine for the generalist. Journal of
General Internal Medicine. 2011;26(1):77-82.
17. Chiang CN & Hawks RL. Pharmacokinetics of the combination tablet of buprenorphine and naloxone.
Drug and Alcohol Dependence. 2003;70:S39-S47.
18. Bauer SM, Loipl R, Jagsch R et al. Mortality in opioid-maintained patients after release from an addiction
clinic. European Addiction Research. 2008;14(2):82-91.
19. Gibson AE, Degenhardt LJ, Mattick RP et al. Exposure to opioid maintenance treatment reduces long-term
mortality. Addiction. 2008;103(3):462-468.
20. Nielsen S, Dietze P, Lee N et al. Concurrent buprenorphine and benzodiazepines use and self-reported
opioid toxicity in opioid substitution treatment. Addiction. 2007 Apr;102(4):616-622.
21. Sporer KA. Buprenorphine: A primer for emergency physicians. Annals of Emergency Medicine. 2004
May;43(5):580-584. Review.

22. Auriacombe M, Lagier G, Mallaret M et al. French experience with buprenorphine. In WL Dewey, LS
Harris (eds.) Problems of Drug Dependence, 2002: Proceedings of the 64th Annual Scienti c Meeting, e College on
Problems of Drug Dependence. NIDA Research Monograph. 183. National Institutes of Health (NIH)
Publication No. 03–5339.Rockville, MD: National Institute on Drug Abuse., 2003.

18

Federation of State Medical Boards | www.fsmb.org

A561

Model Policy on DATA 2000 and Treatment of Opioid Addiction in the Medical Of ce
23. Boyer EW, McCance-Katz EF, Marcus S. Methadone and buprenorphine toxicity in children. American
Journal of Addiction. 2010 Jan-Feb;19(1):89-95
24. Seet RC, Rathakrishnan R, Chan BP et al. Di use cystic leukoencephalopathy after buprenorphine
injection. Journal of Neurology, Neurosurgery and Psychiatry. 2005 Jun;76(6):890-891.
25. Loo HW, Yam AK, Tan TC et al. Severe upper limb complications from parenteral abuse of Subutex. Annals
of the Academy of Medicine of Singapore. 2005 Oct;34(9):575-578.
26. Albotins CA, Allen P, Da y JR. Fungal endophthalmitis in intravenous drug users injecting buprenorphine
contaminated with oral Candida species (Letter). Medical Journal of Australia. 2005;182(8):427.
27. Etchepare F, Coutaux A, Edel Y et al. Enterobacter cloacae spondylodiscitis through misuse of high dose
intravenous buprenorphine. Presse Medicine. 2005; 34(10):725-727.
28. Cazorla C, Grenier de Cardenal D, Schumacher H et al. Infectious complications and misuse of high-dose
buprenorphine. Presse Medicine. 2005; 34(10):719-724.
29. Diguisto E, Shakeshaft A, Ritter A et al. Serious adverse events in the Australian National Evaluation of
Pharmacotherapies for Opioid Dependence (NEPOD). Addiction 2004; 99(4):450–460.
30. Johnson CE, Arfken CL, DiMenza S et al. Diversion and abuse of buprenorphine: Findings from national
surveys of treatment patients and physicians. Drug and Alcohol Dependence. 2012 Jan 1;120(1-3):190-195.
31. Maxwell JC & Wilford BB, for the Substance Abuse and Mental Health Services Administration.
Diversion and Abuse of Buprenorphine: A Brief Assessment of Emerging Indicators. Final Report. Silver Spring,
MD: JBS International, Inc., 2006.
32. Ja e JH & O’Kee e C. From morphine clinics to buprenorphine: Regulating opioid agonist treatment of
addiction in the United States. Drug and Alcohol Dependence. 2003 May 21;70(2 Suppl):S3-11.
33. Dasgupta N, Kramer ED, Zalman MA et al. Association between non-medical and prescriptive usage of
opioids. Drug and Alcohol Dependence. 2006 Apr 28;82(2):135-142.
34. Bazazi AR, Yokell M, Fu JJ et al. Illicit use of buprenorphine/naloxone among injecting and noninjecting
opioid users. Journal of Addiction Medicine. 2011 Sep;5(3):175-180.
35. Johansen CE, Arfken CL, di Menza S et al. Diversion and abuse of buprenorphine: ndings from national
surveys of treatment patients and physicians. Drug and Alcohol Dependence. 2012 Jan 1;120(1-3):190-195.

36. Lofwall MR & Havens JR. Inability to access buprenorphine treatment as a risk factor for using diverted
buprenorphine. Drug and Alcohol Dependence. 2012 Dec 1;126(3):379-383.
37. Federation of State Medical Boards (FSMB). Model Policy on Opioid Addiction Treatment in the Medical
O ce. Dallas, TX: e Federation, 2002
Federation of State Medical Boards | www.fsmb.org

A562

19

Model Policy on DATA 2000 and Treatment of Opioid Addiction in the Medical Of ce

38. O’Brien CP. Toward a rational selection of treatment for addiction. Current Psychiatry Reports. 2007
Dec;9(6):441-442.
39. Salsitz EA & Wunsch MJ, for the Physician Clinical Support System for Buprenorphine (PCSS-B). PCSS-B
Guidance on Drug Enforcement Administration Requirements for Prescribers and Dispensers of Buprenorphine and
Buprenorphine/Naloxone. East Providence, RI: American Academy of Addiction Psychiatry, January 25, 2010.
40. Bruce RD. Medical interventions for addictions in the primary care setting. Topics in HIV Medicine. 2010
Feb-Mar;18(1):8-12.
41. Barry DT, Irwin KS, Jones ES et al. Integrating buprenorphine treatment into o ce-based practice: A
qualitative study. Journal of General Internal Medicine. 2009 Feb;24(2):218-225.
42. Jones ES, Moore BA, Sindelar JL et al. Cost analysis of clinic and o ce-based treatment of opioid
dependence: Results with methadone and buprenorphine in clinically stable patients. Drug and Alcohol
Dependence. 2009 Jan 1;99(1-3):132-140.
43. Fiellin DA , Moore BA, Sullivan LE et al. Long-term treatment with buprenorphine/naloxone in primary
care: Results at 2-5 years. American Journal on Addiction. 2008 Mar-Apr;17(2):116-120.
44. Sullivan LE & Fiellin DA. Narrative review: Buprenorphine for opioid-dependent patients in o ce practice.
Annals of Internal Medicine. 2008 May 6;148(9):662-670. Review.
45. Walley AY, Alperen JK, Cheng DM et al. O ce-based management of opioid dependence with
buprenorphine: Clinical practices and barriers. Journal of General Internal Medicine. 2008 Sep; 23(9):13931398.
46. Finch JW, Kamien JB & Amass L. Two-year experience with buprenorphine-naloxone (Suboxone) for
maintenance treatment of opioid dependence within a private practice setting. Journal of Addiction Medicine
2007 Jun;1(2):104-110.
47. Magura S, Lee SJ, Salsitz EA et al.. Outcomes of buprenorphine maintenance in o ce-based practice.
Journal of Addictive Diseases. 2007;26(2):13-23.
48. Torrington M, Domier CP, Hillhouse M et al. Buprenorphine 101: Treating opioid dependence with
buprenorphine in an o ce-based setting. Journal of Addictive Diseases. 2007;26(3):93-99.
49. Gordon AJ, Krumm M, for the Buprenorphine Initiative in the VA (BIV). Buprenorphine Resource Guide,
Version 8. Washington, DC: Department of Veterans A airs, April 2008.
50. Meier BR & Patkar AA. Buprenorphine treatment: Factors and rst-hand experiences for providers to
consider. Journal of Addictive Diseases. 2007;26(1).
51. Drug Addiction Treatment Act of 2000 (DATA). Federal Register (CFR). Public Law No. 106-310, Title
XXXV, Section 3501 and 3502.
20

Federation of State Medical Boards | www.fsmb.org

A563

Model Policy on DATA 2000 and Treatment of Opioid Addiction in the Medical Of ce

52. Alford DP, LaBelle CT, Kretsch N et al. Collaborative care in opioid-addicted patients in primary care using
buprenorphine. Archives of Internal Medicine. 2011;171(5):425-431.
53. Kraus ML, Alford DP, Kotz MM et al. Statement of the American Society of Addiction Medicine
Consensus Panel on the Use of Buprenorphine in O ce-Based Treatment of Opioid Addiction. Journal of
Addiction Medicine. 2011 Dec;5(4):254-263.
54. Gourlay D, Heit HA & Caplan Y. Urine Drug Testing in Clinical Practice. Stamford, CT: PharmaCom
Group, Inc., for the American Academy of Family Physicians, 2010.
55. Amato L, Minozzi S, Davoli M et al. Psychosocial and pharmacological treatments versus pharmacological
treatments for opioid detoxi cation. Cochrane Database System Review. 2011 Sept 7;(9):CD005031.
56. Fishman MJ, Mee-LeeD, Shulman G Detal., eds. Supplement to the ASAM Patient Placement Criteriaon the
Management of Alcohol Use Disorders. Baltimore, MD: Lippincott, Williams & Wilkins, Inc., 2010.
57. Lingford-Hughes AR, Welch S, Peters L et al., for the British Association for Psychopharmacology
(BAP) Expert Reviewers Group. BAP updated guidelines: Evidence-based guidelines for the pharmacological
management of substance abuse, harmful use, addiction and comorbidity: Recommendations from BAP.
Journal of Psychopharmacology. 2012 July; 26(7):899-952.
58. Center for Substance Abuse Treatment (CSAT). Substance Abuse: Administrative Issues in Outpatient
Treatment. Treatment Improvement Protocol [TIP] 46. Rockville, MD: CSAT, Substance Abuse and Mental
Health Services Administration, 2006.
59. McNicholas L. Clinical guidelines for the use of buprenorphine in the treatment of opioid addiction. A Tool
for Buprenorphine Care. 2008 May;1(12):12.
60. Gunderson EW, Levin FR, Rombone MM et al. Improving temporal e ciency of outpatient
buprenorphine induction. American Journal on Addiction. 2011;20:397-404.
61. Baxter LE, chair, for the ASAM Methadone Action Group. Clinical Guidance on Methadone Induction and
Stabilization. Chevy Chase, MD: American Society of Addiction Medicine, Inc., in press 2013.
62. Joseph H, Stancli S, Lagrod J. Methadone maintenance treatment (MMT): A review of historical and
clinical issues. Mt Sinai Journal of Medicine. 2000 Oct-Nov; 67(5-6):347-64. Review.
63. Marsch LA, Bickel WK, Badger GJ, Jacobs EA. Buprenorphine treatment for opioid dependence: e
relative e cacy of daily, twice and thrice weekly dosing. Drug and Alcohol Dependence. 2005 Feb 14;77(2):
195-204.
64. Fareed A, Vayalapalli S, Casarella A et al. E ect of buprenorphine dose on treatment outcome. Journal of
Addictive Diseases. 2012;31(1):8-18
65. Anton RF, O’Malley SS, Ciraulo DA et al., for the COMBINE Study Research Group. Combined
pharmacotherapies and behavioral interventions for alcohol dependence: the COMBINE study: A randomized
21

Federation of State Medical Boards | www.fsmb.org

A564

Model Policy on DATA 2000 and Treatment of Opioid Addiction in the Medical Of ce
controlled trial. Journal of the American Medical Association. 2006 May 3;295(17):2003-2017.
66. Gordon AJ, Trafton JA, Saxon AJ et al., for the Buprenorphine Work Group of the Substance Use
Disorders Quality Enhancement Research Initiative. Implementation of buprenorphine in the Veterans Health
Administration: Results of the rst 3 years. Drug and Alcohol Dependence. 2007 Oct 8;90(2-3):292-296.
67. Stotts AL, Dodrill CL & Kosten TR. Opioid addiction treatment: Options in pharmacotherapy. Expert
Opinions in Pharmacotherapy. 2009 Aug;10(11):1727-1740.
68. Fiellin DA, Kleber H, Trumble-Hejduk JG et al. Consensus statement on o ce-based treatment of opioid
dependence using buprenorphine. Journal of Substance Abuse Treatment. 2004;27:153-159.
69. Fiellin DA, Friedland GH & Gourevitch MN. Opioid dependence: Rationale for and e cacy of existing
and new treatments. Clinics of Infectious Diseases. 2006 Dec 15;43(Suppl)4:S173-177. Review.
70. Heit HA. Addiction, physical dependence, and tolerance: Precise de nitions to help clinicians evaluate and
treat chronic pain patients. Journal of Pain and Palliative Care Pharmacotherapy 2003;17(1):15-29.
71. Marlatt G & Gordon JR, eds. Relapse Prevention: Maintenance Strategies in the Treatment of Addictive
Behaviors. New York, NY: Guilford Press, 1985.
72. Fareed A, Vayalapalli S, Byrd-Sellers J et al. Safety and e cacy of long-term buprenorphine maintenance
treatment. Addictive Disorders & eir Treatment. 2011 Sep;10(3):123-130.
73. Batki SL, Kau man JF, Martion I et al., eds. Medication-Assisted Treatment for Opioid Addiction in Opioid
Treatment Programs. Treatment Improvement Protocol [TIP] 43. Rockville, MD: Center for Substance Abuse
Treatment, Substance Abuse and Mental Health Services Administration, 2005.
74. Stephenson DK, for the CSAM Committee on Treatment of Opioid Dependence. Draft Guidelines for
Physicians Working in California Opioid Treatment Programs. San Francisco, CA: California Society of Addiction
Medicine, 2008.
75. Controlled Substances Act of 1970 (CSA). Federal Register (CFR). Public Law No. 91-513, 84 Stat. 1242.
76. Utah Department of Health (UDOH). Utah Clinical Guidelines on Prescribing Opioids for Treatment of Pain.
Salt Lake City, UT: e Department, February 2009.
77. Alliance for Model State Drug Laws (AMSDL). State Prescription Monitoring Statutes and Regulations
Citation List. Alexandria, VA: e Alliance, 2006.

78. Brushwood DB. Maximizing the value of electronic prescription monitoring programs. Journal of Law,
Medicine & Ethics 2003;31:41-54.
79. American Psychiatric Association (APA). Diagnostic and Statistical Manual of Mental Disorders,
(DSM-III). Washington, DC: American Psychiatric Publishing, Inc., 1980.
22

Federation of State Medical Boards | www.fsmb.org

A565

ird Edition

Model Policy on DATA 2000 and Treatment of Opioid Addiction in the Medical Of ce

80. American Psychiatric Association (APA). Diagnostic and Statistical Manual of Mental Disorders, Fifth Edition
(DSM-V). Washington, DC: American Psychiatric Publishing, Inc., 2013.
81. American Psychiatric Association (APA). Diagnostic and Statistical Manual of Mental Disorders, Fourth
Edition-Text Revision (DSM-IV-TR). Washington, DC: American Psychiatric Publishing, Inc., 2000.
82. American Society of Addiction Medicine (ASAM). De nition of Addiction. Chevy Chase, MD: ASAM,
2011.
83. Drug Enforcement Administration (DEA). O ce of Diversion Control. Physician’s Manual: An
Informational Outline of the Controlled Substances Act of 1970. Washington, DC: DEA, U.S. Department of
Justice, 1990.
84. World Health Organization (WHO). International Classi cation of Diseases, 10th Edition (ICD-10).
Geneva, Switzerland: WHO, 1996.
85. Amato L, Minozzi S, Davoli M et al. Psychosocial and pharmacological treatments versus pharmacological
treatments for opioid detoxi cation. Cochrane Database System Review. 2008a Oct 8;(4):CD005031.
86. Center for Substance Abuse Treatment (CSAT). Guidelines for the Accreditation of Opioid Treatment
Programs, Revised. Rockville, MD: CSAT, Substance Abuse and Mental Health Services Administration, July
20, 2007.
87. Cicero TJ & Inciardi JA. Potential for abuse of buprenorphine in o ce-based treatment of opioid dependence. New England Journal of Medicine. 2005;353(17):1863-1865.
88. White W. Addiction recovery: Its de nition and conceptual boundaries. Journal of Substance Abuse
Treatment. 2007;33:229−241.
89. Substance Abuse and Mental Health Services Administration (SAMHSA). SAMHSA’s Working De nition of
Recovery: 10 Guiding Principles of Recovery. PEP12-RECDEF. Rockville, MD: SAMHSA, 2012.

Federation of State Medical Boards | www.fsmb.org

A566

23

PARTICIPANTS ON THE MODEL POLICY ON DATA 2000 AND
TREATMENT OF OPIOID ADDICTION IN THE MEDICAL OFFICE
Participation by federal agency representatives and third parties was in an advisory capacity only and does not imply
endorsement of any draft or nal version of the policy

Chair
Janelle Rhyne, MD
Former Board Chair
Federation of State Medical Boards
Cape Fear Health Net Health Net Clinic
Wilmington, North Carolina
Medical Board Representatives
Alfred (Al) Anderson, MD
Member, Minnesota Board of Medicine
Medical Pain Management Ltd.
St. Louis Park, Minnesota
J. Daniel Gi ord, MD
Member, Alabama Board of Medicine
Nephrology of North Alabama
Decatur, Alabama
William L. Harp, MD
Executive Director
Virginia Board of Medicine
Richmond, Virginia
Lynn S. Hart
Executive Director
New Mexico Medical Board
Santa Fe, New Mexico
Stancel M. Riley, MD
Executive Director
Massachusetts Board of Registration in Medicine
Wake eld, Massachusetts
Joel B. Rose, DO
Member, Florida Board of Osteopathic Medicine
Tampa, Florida
Dana Sha er, DO
Member, Iowa Board of Medicine
Exira, Iowa
24

C. Michael Sheppa, MD
Associate Medical Director
North Carolina Medical Board
Chapel Hill, North Carolina
Rosaire Verna, MD
Member, Maryland Board of Physicians
Easton, Maryland
Advisors to the Work Group
James W. Finch, MD
Director of Physician Education
Governor’s Institute on Alcohol and Drug Abuse,
and Medical Director, Changes by Choice, Inc.
Durham, North Carolina
Laura McNicholas, MD, PhD
Clinical Associate Professor of Psychiatry
University of Pennsylvania and
Veterans Administration Medical Center
Philadelphia, Pennsylvania
Eric C. Strain, MD
Professor and Medical Director
Behavioral Pharmacology Research Unit, and
Director, Johns Hopkins Center for Substance Abuse
Treatment and Research
Johns Hopkins University School of Medicine
Baltimore, Maryland
Stephen A. Wyatt, DO
Medical Director, Dual Diagnosis Program
Middlesex Hospital
Old Lyme, Connecticut
Federal Agency Representatives
H. Westley Clark, MD, JD, MPH, CAS, FASAM
Director, Center for Substance Abuse Treatment
Substance Abuse and Mental Health Services
Administration
Rockville, Maryland

Federation of State Medical Boards | www.fsmb.org

A567

Model Policy on DATA 2000 and Treatment of Opioid Addiction in the Medical Of ce
Cathy A. Gallagher
O ce of Diversion Control
Drug Enforcement Administration
Arlington, Virginia
Sharon Hertz, MD
Deputy Director
Division of Anesthesia, Analgesia, and
Rheumatology Products
Food and Drug Administration
Silver Spring, Maryland
Regina LaBelle
Deputy Chief of Sta for Policy
O ce of National Drug Control Policy
Executive O ce of the President, e White
House
Washington, DC
Robert Lubran, M.S., M.P.A.
Director, Division of Pharmacologic erapies
Center for Substance Abuse Treatment
Substance Abuse and Mental Health Services
Administration
Rockville, Maryland
Sandrine Pirard, MD, PhD, MPH
Medical Advisor, Division of Pharmacologic
erapies
Center for Substance Abuse Treatment
Substance Abuse and Mental Health Services
Administration
Rockville, Maryland
Nicholas Reuter, MPH
Team Leader, Certi cation and Waiver Team
Division of Pharmacologic erapies
Center for Substance Abuse Treatment
Substance Abuse and Mental Health Services
Administration
Rockville, Maryland
Alina Salvatore, R.Ph., M.A.
Public Health Advisor, Division of
Pharmacologic erapies
Center for Substance Abuse Treatment
Substance Abuse and Mental Health Services
Administration
Rockville, Maryland
25

Project Sta : FSMB
Lisa A. Robin
Chief Advocacy O cer
Federation of State Medical Boards
Washington, DC
Project Sta : JBS International
Bonnie B. Wilford, M.S.
Director, Center for Health Services &
Outcomes Research and Senior Principal
JBS International, Inc.
North Bethesda, Maryland
Field Reviewers
Chinazo O. Cunningham, MD, M.S.
(for the Association for Medical Education and Research in Substance Abuse: AMERSA)
Associate Professor
Department of Family and Social Medicine
Albert Einstein College of Medicine and
Monte ore Medical Center
Bronx, New York
David A. Fiellin, MD
Professor of Medicine, Investigative Medicine
and Public Health Yale University School of
Medicine
New Haven, Connecticut
Michael H. Gendel, MD
(for the American Academy of Addiction Psychiatry:
AAAP)
Private Practice of Psychiatry
Denver, Colorado
Judith A. Martin, MD
(for the California Society of Addiction Medicine:
CSAM)
Deputy Medical Director, Community Behavioral
Health Services, and Medical Director of Substance
Abuse Services
Department of Public Health
City and County of San Francisco, California
William Morrone, DO, M.S.
(for the American Academy of Osteopathic Addiction
Medicine: AOAAM)
Department of Family Medicine
Central Michigan University
Saginaw, Michigan

Federation of State Medical Boards | www.fsmb.org

A568

Model Policy on DATA 2000 and Treatment of Opioid Addiction in the Medical Of ce
Jennifer McNeely, MD, M.S.
(for the Society of General Internal Medicine
Substance Abuse Interest Group: SGIM)
Division of General Internal Medicine
New York University School of Medicine
New York, New York
Michael M. Miller, MD, FASAM, FAPA
Past President, American Society of Addiction
Medicine
Medical Director, Herrington Recovery
Center
Rogers Memorial Hospital
Oconomowoc, Wisconsin
William Morrone, DO, M.S.
(for the American Academy of Osteopathic Addiction
Medicine: AOAAM)
Department of Family Medicine
Central Michigan University
Saginaw, Michigan
John D. Patz, DO, FAAFP, FASAM, ABAM
(for the American Academy of Osteopathic Addiction
Medicine: AOAAM)
Behavioral Health Unit
PRMC Everett
Everett, Washington
Darius A. Rastegar, MD
(for the Society of General Internal Medicine
Substance Abuse Interest Group: SGIM)
Associate Professor of Medicine
Johns Hopkins University School of Medicine
Baltimore, Maryland
John A. Renner, Jr., MD
(for the American Psychiatric Association: APA)
Associate Professor of Psychiatry
Boston University School of Medicine
Boston, Massachusetts
Richard N. Rosenthal, MD
(for the American Academy of Addiction Psychiatry:
AAAP)
Arthur J. Antenucci Professor of Clinical
Psychiatry Chairman, Department of Psychiatry
St. Luke’s Roosevelt Hospital Center, and Senior
Associate Dean for the St. Luke’s Roosevelt
26

Hospital A liation
New York, New York
Andrew J. Saxon, MD
(for the American Psychiatric Association: APA)
Department of Psychiatry
University of Washington Puget Sound
Seattle, Washington
Joanna L. Starrels, MD, M.S.
(for the Association for Medical Education and Research in Substance Abuse: AMERSA)
Division of General Internal Medicine
Albert Einstein College of Medicine
and Monte ore Medical Center
Bronx, New York
Jeanette Tetrault, MD
(for the Society of General Internal Medicine
Substance Abuse Interest Group: SGIM)
Department of Internal Medicine
Yale University School of Medicine
New Haven, Connecticut
Alexander Walley, MD, M.Sc.
(for the Society of General Internal Medicine
Substance Abuse Interest Group: SGIM)
Assistant Professor of Medicine
Boston University School of Medicine, and
Medical Director, Opioid Treatment Program
Boston Public Health Commission, and
Medical Director, Opioid Overdose Prevention
Program
Massachusetts Department of Public Health
Boston, Massachusetts
Norman Wetterau, MD, FASAM
(for the Society of Teachers of Family Medicine:
STFM)
University of Rochester/Highland Hospital
Tricounty Family Medicine
Nunda, New York

Federation of State Medical Boards | www.fsmb.org

A569

Clinical Guidelines for the
Use of Buprenorphine
in the Treatment of
Opioid Addiction
A Treatment
Improvement
Protocol

TIP

40
BP
Buprenorphine
Clinical Guide

A570

BP
Buprenorphine
Clinical Guide

Clinical Guidelines for the Use of Buprenorphine in the Treatment of Opioid Addiction

TIP 40

A571

A572

A573

A574

A575

A576

A577

A578

A579

A580

A581

A582

A583

A584

A585

A586

A587

A588

A589

A590

A591

A592

A593

A594

A595

A596

A597

A598

A599

A600

A601

A602

A603

A604

A605

A606

A607

A608

A609

A610

A611

A612

A613

A614

A615

A616

A617

A618

A619

A620

A621

A622

A623

A624

A625

A626

A627

A628

A629

A630

A631

A632

A633

A634

A635

A636

A637

A638

A639

A640

A641

A642

A643

A644

A645

A646

A647

£
£

A648

A649

A650

A651

A652

A653

A654

A655

A656

£

£

A657

A658

A659

A660

A661

A662

A663

A664

A665

A666

A667

A668

A669

A670

A671

A672

A673

A674

A675

A676

A677

A678

A679

A680

A681

A682

A683

A684

A685

A686

A687

A688

A689

A690

A691

A692

A693

A694

A695

A696

A697

A698

A699

A700

A701

A702

A703

A704

A705

A706

A707

A708

A709

A710

A711

A712

A713

A714

A715

A716

A717

A718

A719

A720

A721

A722

A723

A724

A725

A726

A727

A728

A729

A730

A731

A732

A733

A734

A735

A736

A737

A738

A739

A740

A741

A742

A743

A744

A745

A746

A747

A748

A749

A750

A751

A752

A753

A754

A755

A756

A757

A758

A759

A760

A761

A762

A763

A764

A765

A766

Clinical Guidelines for the
Use of Buprenorphine in the
Treatment of Opioid Addiction
This Treatment Improvement Protocol (TIP), Clinical Guidelines for
the Use of Buprenorphine in the Treatment of Opioid Addiction,
provides consensus- and evidence-based treatment guidance for the
use of buprenorphine, a new option for the treatment of opioid
addiction. The goal of this TIP is to provide physicians with
information they can use to make practical and informed decisions
about the use of buprenorphine to treat opioid addiction. These
guidelines address the pharmacology and physiology of opioids,
opioid addiction, and treatment with buprenorphine; describe
patient assessment and the choice of opioid addiction treatment
options; provide detailed treatment protocols for opioid withdrawal
and maintenance therapy with buprenorphine; and include
information on the treatment of special populations, e.g., pregnant
women, adolescents, and polysubstance users. This TIP represents
another step by the Center for Substance Abuse Treatment (CSAT)
toward its goal of bringing national leaders together to improve
substance use disorder treatment in the United States.

Collateral Products
Based on TIP 40
Quick Guide for Physicians

DHHS Publication No. (SMA) 04-3939
Printed 2004

U.S. DEPARTMENT OF HEALTH AND HUMAN SERVICES
Substance Abuse and Mental Health Services Administration
Center for Substance Abuse Treatment

A767

UNITED STATES’

A768

’

physician’

A769

, 54 F.3d at 1188 (“In sum, although the testimony does not adduce compelling

convict.”).
physician’

It’s actually and/or not within the bounds of professional medical

“consistent with our precedent” and was not improper:
physician’s conduct in dispensing a controlled substances “falls outside the
boundaries of the physician’s professional practice.” While the government may

A770

’

’

A771

United States Attorney’s

A772

A773

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF WEST VIRGINIA
UNITED STATES OF AMERICA,
Plaintiff,
v.

CRIMINAL NO. 1:18CR1-1
(Judge Keeley)

GEORGE P. NAUM, III,
Defendant.
ORDER FOLLOWING MOTION HEARING
During a hearing held on April 22, 2019 (Dkt. No. 298), the
Court took up the parties’ motions in limine and the Defendant’s
motion to take judicial notice. For the reasons stated on the
record, the Court:
1)

GRANTED the remaining portion of the Government’s motion
in limine relating to the Defendant’s exhibit and witness
lists and jury nullification (Dkt. No. 253);

2)

DENIED the remaining portion of the Defendant’s motion in
limine to preclude the introduction of 25 patients (Dkt.
No. 257);

3)

DENIED the Defendant’s motion to take judicial notice
(Dkt. No. 271);

4)

GRANTED the Government’s motion in limine regarding the
standard of proof (Dkt. No. 273);

5)

DENIED the Government’s motion in limine to exclude the
WVBOM Order dated February 8, 2012 (Dkt. No. 276); and

A774

USA V. NAUM

1:18CR1-2
ORDER FOLLOWING MOTION HEARING

6)

DENIED the Defendant’s motion in limine to preclude
introduction of co-conspirator evidence (Dkt. No. 286).

It is so ORDERED.
The Clerk shall transmit copies of this Order to counsel of
record.
DATED: April 23, 2019.
/s/ Irene M. Keeley
IRENE M. KEELEY
UNITED STATES DISTRICT JUDGE

2

A775

